<html>
<title> - THE CONTROVERSIAL PARDON OF INTERNATIONAL FUGITIVE MARC RICH</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



      THE CONTROVERSIAL PARDON OF INTERNATIONAL FUGITIVE MARC RICH

=======================================================================

                                HEARINGS

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                     FEBRUARY 8, AND MARCH 1, 2001

                               __________

                           Serial No. 107-11

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                                _______

                  U.S. GOVERNMENT PRINTING OFFICE
75-593                     WASHINGTON : 2001


____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
BOB BARR, Georgia                    ROD R. BLAGOJEVICH, Illinois
DAN MILLER, Florida                  DANNY K. DAVIS, Illinois
DOUG OSE, California                 JOHN F. TIERNEY, Massachusetts
RON LEWIS, Kentucky                  JIM TURNER, Texas
JO ANN DAVIS, Virginia               THOMAS H. ALLEN, Maine
TODD RUSSELL PLATTS, Pennsylvania    JANICE D. SCHAKOWSKY, Illinois
DAVE WELDON, Florida                 WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   ------ ------
ADAM H. PUTNAM, Florida              ------ ------
C.L. ``BUTCH'' OTTER, Idaho                      ------
EDWARD L. SCHROCK, Virginia          BERNARD SANDERS, Vermont 
------ ------                            (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                  David A. Kass, Deputy Chief Counsel
                  Kristi L. Remington, Senior Counsel
                         Jason Foster, Counsel
                     M. Scott Billingsley, Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    February 8, 2001.............................................     1
    March 1, 2001................................................   279
Statement of:
    Dozoretz, Beth, former finance chair, Democratic National 
      Committee..................................................   303
    Fink, Robert.................................................   439
    Holder, Eric, former Deputy Attorney General, U.S. Department 
      of Justice.................................................   192
    Libby, Lewis.................................................   438
    Quinn, Jack, counsel to Marc Rich, former counsel to 
      President Clinton; Beth Nolan, former counsel to the 
      President; Bruce Lindsey, former assistant to the President 
      and deputy counsel to the President; and John Podesta, 
      former White House chief of staff..........................   309
    Quinn, Jack, counsel to Marc Rich, former counsel to 
      President Clinton; Morris ``Sandy'' Weinberg, Jr., former 
      assistant U.S. attorney, Southern District of New York; and 
      Martin Auerbach, former assistant U.S. attorney, Southern 
      District of New York.......................................    43
Letters, statements, etc., submitted for the record by:
    Barr, Hon. Bob, a Representative in Congress from the State 
      of Georgia:
        Executive Grant of Clemency..............................   133
        Exhibit 1................................................   208
        Exhibit 45...............................................   259
        Exhibit 63...............................................   247
        Exhibit 67...............................................   250
        Exhibit 127..............................................   349
        Exhibit 136..............................................   494
        Information from the U.S. Attorney's Manual..............   125
        Letter dated February 6, 2001............................   136
    Burton, Hon. Dan, a Representative in Congress from the State 
      of Indiana:
        Exhibit 137..............................................   394
        Letter dated February 7, 2001............................     3
        Prepared statements of.................................. 7, 284
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, exhibit 138.........................   402
    Davis, Hon. Jo Ann, a Representative in Congress from the 
      State of Virginia:
        Exhibit 65...............................................   265
        Prepared statement of....................................   277
    Davis, Hon. Thomas M., a Representative in Congress from the 
      State of Virginia, exhibit 155.............................   416
    Fink, Robert, prepared statement of..........................   440
    Holder, Eric, former Deputy Attorney General, U.S. Department 
      of Justice, prepared statement of..........................   196
    LaTourette, Hon. Steven C., a Representative in Congress from 
      the State of Ohio:
        Article dated February 5, 2001...........................   150
        Exhibit 15............................................ 115, 322
        Exhibit 58...............................................   460
        Exhibit 62............................................ 227, 463
        Exhibit 67...............................................   465
        Exhibit 69...............................................   229
        Exhibit 79............................................ 223, 473
        Exhibit 89...............................................   185
        Exhibit 96...............................................   221
        Exhibit 101..............................................   117
        Exhibit 102..............................................   122
        Exhibit 130..............................................   447
        Exhibit 135........................................... 368, 468
    Lewis, Hon. Ron, a Representative in Congress from the State 
      of Kentucky, exhibit 73....................................   179
    Morella, Hon. Constance A., a Representative in Congress from 
      the State of Maryland, exhibits 97 and 98..................   170
    Podesta, John, former White House chief of staff, prepared 
      statement of...............................................   319
    Putnam, Hon. Adam H., a Representative in Congress from the 
      State of Florida:
        Exhibit 67...............................................   371
        Exhibit 72...............................................   373
    Quinn, Jack, counsel to Marc Rich, former counsel to 
      President Clinton:
        Prepared statement of....................................    47
        Previous testimony submitted.............................   310
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut:
        Exhibit 63...............................................   305
        Exhibit 152..............................................   330
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California:
        Exhibit 135..............................................   480
        Minority staff report....................................    11
        Prepared statement of....................................    39
    Weinberg, Morris ``Sandy'', Jr., former assistant U.S. 
      attorney, Southern District of New York, prepared statement 
      of.........................................................    94
    Wilson, James C., chief counsel, Committee on Government 
      Reform:
        Exhibit 62...............................................   434
        Exhibit 69...............................................   508
        Exhibit 70...............................................   510
        Exhibit 137..............................................   514

 
      THE CONTROVERSIAL PARDON OF INTERNATIONAL FUGITIVE MARC RICH

                              ----------                              


                       THURSDAY, FEBRUARY 8, 2001

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:15 a.m., in 
room 2154, Rayburn House Office Building, Hon. Dan Burton 
(chairman of the committee) presiding.
    Present: Representatives Burton, Barr, Morella, Shays, 
Horn, Davis of Virginia, Souder, LaTourette, Ose, Lewis, Jo Ann 
Davis of Virginia, Platts, Cannon, Putnam, Otter, Schrock, 
Waxman, Lantos, Towns, Kanjorski, Mink, Norton, Cummings, 
Kucinich, Davis of Illinois, Tierney, Allen, and Schakowsky.
    Also present: Representatives Hutchinson and Jackson-Lee.
    Staff present: Kevin Binger, staff director; James C. 
Wilson, chief counsel; David A. Kass, deputy counsel and 
parliamentarian; Mark Corallo, director of communications; M. 
Scott Billingsley, John Callender, and Andre Hollis, counsels; 
Pablo Carrillo, Jason Foster, and Kimberly A. Reed, 
investigative counsels; S. Elizabeth Clay and Nicole Petrosino, 
professional staff members; Kristi Remington, senior counsel; 
Gil Macklin, professional staff member and investigator; Robert 
A. Briggs, chief clerk; Robin Butler, office manager; Michael 
Canty and Toni Lightle, legislative assistants; Josie Duckett, 
deputy communications director; Scott Fagan, staff assistant; 
Leneal Scott, computer systems manager; John Sare, deputy chief 
clerk; Danleigh Halfast, assistant to chief counsel; Phil 
Schiliro, minority staff director; Phil Barnett, minority chief 
counsel; Kristin Amerling, minority deputy chief counsel; 
Michael Yang, minority counsel; Michael Yeager, minority senior 
oversight counsel; Ellen Rayner, minority chief clerk; Jean 
Gosa and Earley Green, minority assistant clerks; and Teresa 
Coufal, minority staff assistant.
    Mr. Burton. If we could ask everyone to take their seats, 
we will try to ask everyone in the audience to be as quiet as 
possible. The acoustics in this room, like all committee rooms, 
is not as good as we would like. It's better than it used to 
be. If you could bear with us, we would appreciate it.
    We have a capacity audience here today, so the conversation 
is really a problem.
    Well, once again, good morning, a quorum being present, the 
Committee on Government Reform will once again come to order.
    I ask unanimous consent that all Members' and witnesses' 
written opening statements be included in the record. And 
without objection, so ordered.
    I ask unanimous consent that all articles, exhibits and 
extraneous or tabular material referred to be included in the 
record. And without objection, so ordered.
    I ask unanimous consent that a set of exhibits which was 
shared with the minority prior to the meeting be included in 
the record. And without objection, so ordered.
    [Note.--The complete set of exhibits used in both hearings 
is printed at the end of this volume.]
    Mr. Burton. I also ask unanimous consent that questioning 
in this matter proceed under clause 2(j)(2) of House rule XI 
and committee rule 14, in which the chairman and ranking 
minority member allocate time to members of the committee as 
they deem appropriate for extended questioning not to exceed 60 
minutes, equally divided between the majority and the minority. 
Without objection, so ordered.
    I also ask unanimous consent that questioning in the matter 
under consideration proceed under clause 2(j)(2) of House rule 
XI and Committee Rule 14, in which the chairman and the ranking 
minority member allocate time to committee counsel as they deem 
appropriate for extended questioning, not to exceed 60 minutes 
divided equally between the majority and the minority. And 
without objection, so ordered.
    Let me clarify that just a little bit. I talked to Mr. 
Waxman, the ranking minority member, and we have agreed that 
the extended questioning will be 60 minutes in total for each 
side, 30 minutes for the majority, 30 minutes for the minority; 
and then for counsel on each side, limited to 30 minutes. All 
other questioning will be under the 5-minute rule.
    I now recognize my colleague, Mr. Waxman--excuse me 1 
second.
    [Pause.]
    Mr. Burton. Today, we're going to be looking into the 
pardon of Marc Rich. A few weeks ago on his last day in office, 
President Clinton pardoned 140 people. Some of these pardons 
were probably meritorious. Others we think were not. The Marc 
Rich pardon has been particularly controversial.
    Our position is simple. The American people deserve to know 
the facts. At this point in time, we don't know all the facts. 
That's why we're holding this hearing.
    Last night we received some news that I find troubling. Mr. 
Rich's ex-wife, Denise Rich, it's been well reported that she 
gave $1 million to Democratic campaigns over the last decade. 
It's also been well reported that she sent the President a 
letter asking for this pardon. She also talked to the President 
about the pardon. We asked Mrs. Rich, through her lawyer, to 
answer a number of questions. Last night, we received a letter 
from her lawyer stating that Mrs. Rich is going to take the 
fifth amendment and not respond to our questions.
    I ask unanimous consent that this letter be placed in the 
record. Without objection, so ordered.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T5593.401
    
    Mr. Burton. I find it very, very troubling that in a case 
like this, where the public simply wants an explanation, a 
central figure would take the fifth amendment.
    But that's not all. We were also informed by Mrs. Rich's 
lawyer that Mrs. Rich has given, ``an enormous amount of money 
to the Clinton Presidential Library.'' We want to know how much 
is ``enormous.'' That's something else we need to find out and 
how that plays in the overall scheme of things.
    Let's step back and take a quick look at why Marc Rich and 
his pardon was controversial.
    In 1983, he was indicted on more than 50 counts of wire 
fraud, tax evasion, racketeering and violating the Iranian oil 
embargo. He was accused of evading $48 million in taxes. It was 
the largest tax fraud case in U.S. history. He faced up to 300 
years in prison if he was convicted on all counts.
    Mr. Rich fled the country, went to Switzerland and 
elsewhere to avoid prosecution. He renounced his U.S. 
citizenship and took up residence in Switzerland for 17 years. 
His companies were found in contempt of court and fined $20 
million for defying a judge's order. All told, they paid $200 
million in penalties. His aides were caught smuggling 
subpoenaed documents out of the country in trunks; I believe it 
was on a Swiss airplane.
    He was a subject of hearings in this committee in 1991 and 
1992. At that time, the Bush administration was accused of not 
doing enough to try to bring Marc Rich to justice. And at that 
time, the House was controlled by the opposition party, the 
Democrat Party, and as we feel today, they thought that more 
needed to be done to make sure that Mr. Rich be brought to 
justice.
    On the surface, this doesn't look like a very good case for 
a pardon. So the question we have is, ``How did it happen?'' We 
asked this same question some time ago about the 14 Puerto 
Ricans who killed police in New York, who blew up restaurants 
with innocent citizens in them, and was involved in the largest 
armored car robbery in history. We didn't receive any 
information about that pardon either from the White House, and 
we just want an explanation. I think the American people would 
like to know what happened.
    We don't know all the facts yet, and that's one of the main 
reasons we're here today. However, this much seems clear: There 
is a procedure that is usually followed to consider pardons; in 
this case, that procedure was not followed.
    There is a pardon attorney at the Justice Department. 
Pardon applicants are submitted to the pardon attorney for 
review. After they've been thoroughly reviewed, the Justice 
Department then makes a recommendation and the application is 
sent to the President for a decision. In this case, none of 
that happened. Mr. Rich is represented today by Jack Quinn.
    Mr. Quinn was President Clinton's White House counsel. They 
had a very close relationship. On December 11th, Mr. Quinn 
delivered Mr. Rich's application directly to the White House. 
It was never sent to the pardon attorney. And it was never 
reviewed by the Justice Department.
    Why not? Why did the President make such an important 
decision without getting input from the pardon attorney or the 
prosecutors or the Justice Department?
    We know from reading the newspapers that Mr. Quinn 
contacted the Deputy Attorney General, Eric Holder, to tell him 
that he was going to submit the application.
    What did Mr. Holder do with that information? Did he 
contact the pardon attorney? Did he tell the prosecutors in New 
York who were responsible for the case? The fact is that we 
don't know exactly what Mr. Holder did. Mr. Quinn has suggested 
in the press that Mr. Holder was at least neutral, leaning 
toward this application, and that he may have communicated this 
to the White House. We haven't heard from Mr. Holder yet, but 
we want to have his side of the story as well.
    Mr. Quinn and Mr. Holder are here today to testify 
voluntarily. We appreciate the fact that they've come, and we 
look forward to getting some of this information. We also want 
to know what advice was given to the President.
    The White House had this application for over a month 
before the pardon was granted. What kind of a process did they 
follow? Is there a file there that we should have? What kind of 
information did they ask for? Who did they consult? We asked 
the counsel to the President, Beth Nolan, to testify today. We 
asked one of the President's closest advisors, Bruce Lindsey, 
to testify. They both turned us down, which I find very 
disappointing. But we will get their testimony some other time.
    Did the White House ask our intelligence agencies for 
information about Mr. Rich? And this is very important: They 
did not. This week we learned that the White House apparently 
didn't even bother to consult intelligence agencies. Why not?
    Mr. Rich was publicly reported to have traded with just 
about every enemy of the United States they have had over the 
last 20 years, and many of those countries were embargoed. One 
case that stands out glaringly is Iran. We had hostages over 
there at the time that Mr. Rich was trading with them. He 
violated the embargo.
    He was working with the Iranians selling their oil, and our 
hostages, American citizens, were languishing under very 
difficult circumstances for a long, long time at that time.
    The President should have taken an hour to get a briefing 
from our security agencies and from our intelligence agencies. 
Twenty minutes would have been enough.
    After having been briefed by our intelligence agencies, my 
legal staff informed me about some of the things that were in 
those intelligence briefings. I believe that this pardon has 
been raised to a higher level because of the things that are in 
those intelligence reports.
    We've asked that some of this information be declassified. 
I know many members of the media wants to know what's in those 
intelligence reports; and we're going to try to get them 
declassified so the American people can know exactly what 
happened, and I hope they will be. If those reports are 
declassified, I think it will be clear that the President 
failed to get all the facts that he should have before he 
pardoned Mr. Rich, or he ignored them.
    We have two additional witnesses that I haven't mentioned. 
Appearing on our first panel will be Sandy Weinberg, Jr., and 
Martin Auerbach. They were prosecutors in the U.S. Attorney's 
Office in New York. They worked on the Rich case.
    Mr. Quinn has raised a number of issues with the 
indictments brought by the U.S. Attorney General's Office. On 
CNN last night, Mr. Quinn said that ``the indictment that was 
brought was really, truly worthless.'' We asked Mr. Weinberg 
and Mr. Auerbach to be here today to talk about and defend 
their work.
    We're looking forward to their testimony. I again want to 
thank all of our witnesses for being here.
    I want to admonish the lawyers for the witnesses that only 
the witnesses may testify. The attorneys may consult with their 
clients for as long as needed, but under our procedures, only 
the witnesses may testify.
    Let me stop here and wrap up my opening statement. It's 
obvious right now we have a lot more questions than answers. We 
have witnesses here who are prepared to answer questions, so I 
want to move forward.
    I now yield to Mr. Waxman for his opening statement.
    [The prepared statement of Hon. Dan Burton follows:]
    [GRAPHIC] [TIFF OMITTED] T5593.001
    
    [GRAPHIC] [TIFF OMITTED] T5593.002
    
    [GRAPHIC] [TIFF OMITTED] T5593.003
    
    Mr. Waxman. Over the last 8 years, President Clinton and 
his administration have been the target of a remarkable number 
of false accusations. In turn, these accusations have received 
a staggering amount of media attention. I've often spoken out 
about the unfairness of these smears, and at the end of the 
last Congress, I even compiled an analysis that attempts to 
collect many of the reckless accusations in one report.
    I ask unanimous consent that this report be made part of 
this record. This report is entitled ``Unsubstantiated 
Allegations of Wrongdoing Involving the Clinton 
Administration.''
    Mr. Burton. Without objection.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T5593.402
    
    [GRAPHIC] [TIFF OMITTED] T5593.403
    
    [GRAPHIC] [TIFF OMITTED] T5593.404
    
    [GRAPHIC] [TIFF OMITTED] T5593.405
    
    [GRAPHIC] [TIFF OMITTED] T5593.406
    
    [GRAPHIC] [TIFF OMITTED] T5593.407
    
    [GRAPHIC] [TIFF OMITTED] T5593.408
    
    [GRAPHIC] [TIFF OMITTED] T5593.409
    
    [GRAPHIC] [TIFF OMITTED] T5593.410
    
    [GRAPHIC] [TIFF OMITTED] T5593.411
    
    [GRAPHIC] [TIFF OMITTED] T5593.412
    
    [GRAPHIC] [TIFF OMITTED] T5593.413
    
    [GRAPHIC] [TIFF OMITTED] T5593.414
    
    [GRAPHIC] [TIFF OMITTED] T5593.415
    
    [GRAPHIC] [TIFF OMITTED] T5593.416
    
    [GRAPHIC] [TIFF OMITTED] T5593.417
    
    [GRAPHIC] [TIFF OMITTED] T5593.418
    
    [GRAPHIC] [TIFF OMITTED] T5593.419
    
    [GRAPHIC] [TIFF OMITTED] T5593.420
    
    [GRAPHIC] [TIFF OMITTED] T5593.421
    
    [GRAPHIC] [TIFF OMITTED] T5593.422
    
    [GRAPHIC] [TIFF OMITTED] T5593.423
    
    [GRAPHIC] [TIFF OMITTED] T5593.424
    
    [GRAPHIC] [TIFF OMITTED] T5593.425
    
    [GRAPHIC] [TIFF OMITTED] T5593.426
    
    [GRAPHIC] [TIFF OMITTED] T5593.427
    
    Mr. Waxman. As this report documents, the President and his 
aides did not deserve many of the criticisms they received over 
the last 8 years. But a President does deserve criticism when 
he makes a mistake. And in this case, I think that is what 
former President Clinton did when he pardoned Marc Rich and 
Pincus Green.
    It's true that the power to issue Federal pardons rests 
solely with the President. There is no role for the Congress or 
the courts. The only check on the abuse of this power is the 
judgment of the President.
    The best use of Presidential pardons is for correcting 
injustices against those with little power or money. In fact, 
President Clinton did exactly that in many instances.
    One good example is Derrick Curry. In 1989, Mr. Curry, a 
young black college student, was sentenced to 20 years in 
prison with no chance of parole for his first drug offense. The 
judge who sentenced Mr. Curry reluctantly sentenced him to 20 
years in prison because he had no choice under the Federal 
sentencing guidelines.
    Pardons are particularly appropriate, as well, for those 
who have accepted punishment, have demonstrated a true 
repentance and have subsequently done good works for society. 
For a President leaving office, it can be an invaluable 
opportunity to put aside public opinion polls and act 
courageously.
    The Marc Rich pardon meets none of these criteria. It's 
clear from the materials that Jack Quinn prepared that Mr. Rich 
had a credible legal argument against prosecution, but that 
argument should have been made in our courts.
    The Rich pardon is a bad precedent. It appears to set a 
double standard for the wealthy and the powerful, and it is an 
end run around the judicial process.
    Think about it for a minute. One week Marc Rich is on the 
Justice Department's list of the Ten Most Wanted, and the next 
week, he's given a Presidential pardon. This makes no sense. 
Something has to happen in between. This gap can't be bridged 
in just one big jump. But under the current system, the 
President is allowed to make bad judgments that all of us 
disagree with when he issues pardons. That's how the system 
works.
    For example, questions were raised when, just before 
leaving office in 1993, President Bush pardoned Aslam Adam, a 
Pakistani individual who had been convicted of conspiracy to 
possess with intent to distribute $1 million worth of heroin. 
Both the prosecutor and the judge who sentenced Mr. Adam 
reportedly did not want him freed.
    Questions were also raised when on December 24, 1992, then-
President Bush pardoned former Secretary of Defense Caspar 
Weinberger. Mr. Weinberger was being investigated by the 
independent counsel, Lawrence Walsh, regarding the Iran-Contra 
matter and was scheduled for a trial on January 5, within a 
month. Independent Counsel Walsh called the pardon ``terrible'' 
and ``grossly wrong,'' but President Bush had the power to 
issue that pardon.
    When a President makes a bad judgment, whether it's former 
President Bush or former President Clinton, it's appropriate 
for us in the Congress to raise questions and express our 
views.
    There is a crucial distinction, however, between bad 
judgment and a Presidential scandal.
    Here is the key issue this morning. Is this a case of bad 
judgment, or is it a case involving bribery, corruption or 
criminal conduct? To date, I see plenty of bad judgment, but no 
evidence of criminal wrongdoing has been presented to us to 
this point.
    I see no indication that we're going to get any evidence 
along those lines. This distinction is important to how this 
committee proceeds. Unless there is compelling evidence of 
illegal conduct by former President Clinton, the committee 
should not embark on a search for another scandal. The 
committee should put away its subpoenas and shelve its endless 
document requests.
    I do want to make note for the record that the chairman 
indicated that Beth Nolan refused to come and cooperate with 
the committee. Beth Nolan, as a White House counsel for former 
President Clinton, served admirably with great distinction in 
that position. And she is out of the country on vacation. She 
has not indicated her unwillingness to come before us or to 
assist the committee, but that she was unable to be with us 
today.
    Well, in the spirit of bipartisanship, I'm withholding 
judgment on today's hearings until we get the testimony from 
the witnesses. But if there's no evidence of wrongdoing, if 
there's only evidence of clearly bad judgment by President 
Clinton, which I sincerely see in his action, I will strongly 
object if this committee embarks on another wild goose chase.
    Everyone is eventually going to have to come to grips with 
the fact that President Clinton is no longer President. There's 
been a cottage industry--and this committee has been part of 
it--for Clinton scandals. Well, this cottage industry at some 
point is going to have to go out of business. We've got other 
matters before us that deserve very, very careful attention as 
part of this committee's oversight and investigative 
responsibilities.
    Mr. Chairman, I have no quarrel with your holding this 
hearing today, because we ought to get the evidence before us. 
Let's get that evidence. If it simply shows bad judgment--I 
don't want to say ``simply,'' but if it shows bad judgment, I 
think we ought to recognize that President Clinton is to be 
criticized by us all for the judgment that he made. But if it's 
a bad judgment by the President, the Constitution gives him 
that authority to make that judgment, and we ought to let that 
matter rest.
    I yield back the balance of my time.
    [The prepared statement of Hon. Henry A. Waxman follows:]

    [GRAPHIC] [TIFF OMITTED] T5593.004
    
    [GRAPHIC] [TIFF OMITTED] T5593.005
    
    Mr. Burton. I thank the gentleman from California.
    Are there further comments from members of the committee?
    The gentleman is recognized.
    Mr. Towns. Mr. Chairman, as we begin this hearing, I urge 
all the members of this committee to keep its purpose in mind. 
This hearing should be about whether President Clinton acted 
within his authority and followed the law in granting a pardon 
to Marc Rich, period.
    This hearing should not be about relitigating the Marc Rich 
case. Our job should be to review the circumstances around the 
pardon and sort through the allegations that have been made in 
a fair and impartial way.
    I want to remind all of my colleagues that Bill Clinton is 
no longer the President of the United States, in case you're 
not aware. If people do not approve of this pardon, history 
will judge Bill Clinton and we should not waste a lot of time 
on this matter.
    This committee has spent a great deal of time investigating 
and investigating and investigating the Clintons and the 
Clintons' past, when we should have been working on a 
prescription drug bill for our seniors who, in many instances, 
have to make a decision as to whether to purchase their 
medication or buy food, due to lack of income.
    I hope this hearing will be the end of these partisan 
pursuits. We can all speculate about whether or not we would 
have granted the pardon had we been the President of the United 
States. But that is not important today. The President has the 
authority to grant pardons, and the framers of the Constitution 
gave him that right.
    Let's be clear, the pardon has already been granted, and 
there's nothing that any of us can do to revoke it, overturn it 
or stop it. For those reasons, let's make this a positive 
exercise today.
    From what I have seen in the witnesses' testimony and press 
accounts, the process worked properly in this case. Jack Quinn 
did his job as a lawyer. Eric Holder did his job representing 
the views of the Justice Department in being responsive to the 
White House. The White House Counsel's Office did its job 
reviewing the pardon applications in making a recommendation to 
the President.
    President Clinton did his job thoughtfully reviewing the 
pardon applications, considering all the facts, seeking the 
counsel of his advisors in the Justice Department and making a 
decision which he acknowledged was a close call.
    A number of people have questioned this pardon because it 
was not first considered by the Justice Pardon Office. While 
that is probably the best course of action as a general rule, 
this case is not unique in this regard. Nothing in the law 
requires that a pardon first be reviewed by the Justice 
Department because of the President's absolute power to pardon. 
The policies, procedure and processes are entirely at the 
President's discretion. A number of the pardons which President 
Clinton granted were not considered by the Department of 
Justice first.
    I look forward to hearing the witnesses' testimony and hope 
that my colleagues will focus on process and the facts, rather 
than on relitigating this case in pursuing the President and 
the parties involved in a partisan manner, as we have done so 
many times in the past. I hope we do not go down that road 
today.
    Thank you very much, Mr. Chairman; and I yield back.
    Mr. Burton. Thank you, Mr. Towns.
    Is there anyone on the majority side?
    Mr. LaTourette.
    Mr. LaTourette. Thank you, Mr. Chairman.
    I wasn't going to speak, but now that I've heard from Mr. 
Waxman and Mr. Towns, I do want to make an observation. I think 
it's a good thing that we will focus on process today, and I 
don't think it's the intention of anyone on the majority side 
to relitigate the Marc Rich matter.
    One of the things that I think concerns me and is a proper 
subject for the jurisdiction of an oversight committee in the 
U.S. Congress has to do with the matter of ethics and, in 
particular, the ethics commitments made by people who serve not 
only the legislative branch but also the executive branch. And 
I, for one, was surprised when I saw Mr. Quinn on television 
representing Mr. Rich.
    I do have some questions about how it is that a former 
representative of the executive branch can then lobby his own 
boss while circumventing the Justice Department to achieve a 
result for a client. And if everything is copacetic and there's 
no difficulty with that, based upon the policy that was written 
in the Executive order in 1993, then I do think it's an 
appropriate search for this committee to perhaps come up with a 
better revolving-door policy for both the executive branch and 
the legislative branch that perhaps makes the revolving door a 
little more difficult to revolve through in as quickly a 
fashion.
    I hope we do study that as well and, perhaps, can come up 
with some legislative solutions that if they don't remove 
impropriety at least what is perceived by many, including 
myself, to be the appearance of impropriety; and I thank you 
and yield back.
    Mr. Burton. Thank you, Mr. LaTourette.
    Mr. Clay.
    Mr. Clay. Mr. Chairman, as a newly elected Member of 
Congress and a new member of this committee, I am pleased to be 
here today for our first full committee meeting.
    While I can appreciate the fact that our committee has 
chosen to be the focal point for the examination of the pardon 
process, I am struck by the fact that the U.S. Constitution 
grants the President the absolute and unlimited power to grant 
commendations and pardons. This pardon power is not subject to 
any restrictions by Congress.
    The President's power is at his sole discretion, and he is 
not required to follow Federal regulations or procedures for 
the pardon process. And so while some may disagree with the 
judgment made to pardon Marc Rich, we have no standing to 
interfere with or alter the underlying Presidential authority.
    As to allegations that the pardon was the result of 
campaign contributions or influenced peddling. It must be noted 
that there is currently no evidence or nexus to support such.
    Thank you for the opportunity.
    Mr. Burton. Thank you, Mr. Clay. If there is no further 
discussion, let me just make one brief comment. We will be 
joined by Ms. Jackson-Lee, who said she may have a few 
questions, and we in the past have tried to accommodate non-
members of the committee. And we have Mr. Asa Hutchinson here, 
too. So we have a long schedule today. But if they do have 
questions at the end of the 5-minute round, first round, we 
will try to accommodate them.
    Do we have any further comments? Mr. Davis.
    Mr. Davis of Virginia. Mr. Chairman, let me just say I 
don't think we have had--certainly, the President's power here 
to pardon is something that we can't overturn. I don't think 
anybody--but we have any--that anybody assumes that we can do 
that. But we do have, I think, oversight responsibility in a 
case like this.
    The fact of the matter is, from the ex-wife, there was 
furniture, and several thousand dollars worth of furniture, 
given to the President. There were huge campaign contributions. 
Whether there is a linkage or not, we have a responsibility, I 
think, to act and look at that in a pardon that I don't think 
any of the law enforcement agencies that have examined this 
have seen any merit in this at all.
    At one point, $100 million was offered to settle this and 
the Justice Department had turned it down. So I think we have a 
responsibility to look at this, to understand what happened. 
Maybe we can learn from this. Maybe there will be legal changes 
as a result of this. I don't think anybody is talking about 
overturning it, but the oversight responsibility, we have it, 
and I think we need to use it in this particular case.
    Mr. Burton. I thank the gentleman from Virginia. Any 
further comments? If not, would the three witnesses please rise 
and raise your right hand.
    [Witnesses sworn.]
    Mr. Burton. Mr. Quinn has asked if he could give a little 
longer opening statement because of the gravity of the hearing 
the situation. We have no objection to that. Mr. Quinn, we will 
try to accommodate you as well as Mr. Weinberg and Mr. 
Auerbach. So, Mr. Quinn, you're recognized.
    Mr. Quinn. Chairman Burton.
    Mr. Burton. Could you pull the microphone close to you 
because sometimes these mics don't pick it up. Thank you.
    Mr. Quinn. It appears to be on. Can you hear me? OK.
    Mr. Burton. You don't have to get right up against it, but 
you know.

STATEMENTS OF JACK QUINN, COUNSEL TO MARC RICH, FORMER COUNSEL 
 TO PRESIDENT CLINTON; MORRIS ``SANDY'' WEINBERG, JR., FORMER 
  ASSISTANT U.S. ATTORNEY, SOUTHERN DISTRICT OF NEW YORK; AND 
   MARTIN AUERBACH, FORMER ASSISTANT U.S. ATTORNEY, SOUTHERN 
                      DISTRICT OF NEW YORK

    Mr. Quinn. Chairman Burton, Representative Waxman, and 
distinguished members of the committee, thank you for this 
opportunity to provide information about the pardon of Marc 
Rich. During the past several weeks, America has heard the 
voices of a great many people who disagree with this pardon. 
Probably all of you are among those who have expressed their 
disagreement or disappointment.
    I am well aware that I have a near impossible challenge 
today in trying to convince you of the merits of the pardon, 
but I do welcome the opportunity to sit before you and to 
answer your questions about the case that I made and the 
process I followed.
    I acted here as a lawyer who believes in the merits of the 
case that I made. I acted as a lawyer who vigorously and 
ethically pursued my client's interests, as I'm required to do 
under the canons of ethics, and I acted as a lawyer who 
followed a process that included, not excluded, the U.S. 
Department of Justice.
    I took on Marc Rich as a client nearly 2 years ago after 
careful review of his case and in the belief that in the 
American legal system any person accused of wrongdoing is 
entitled to representation by a lawyer who advocates his 
position honestly, ethically and conscientiously. That is what 
I did. Nothing more, and nothing less.
    I appreciate the responsibilities of this committee, and 
while I agree with President Bush that a President's 
constitutional right to grant pardons is unfettered and that 
the Congress cannot impose its own process on that prerogative, 
I also appreciate that it is helpful to your oversight 
responsibilities to understand as best as I can help you 
understand what happened in this particular case.
    In that regard, I have cooperated with you, consistent with 
my ethical obligations to my client, by providing information 
and documents, and I assure you I will continue to be 
cooperative and as helpful as I can be.
    I want to emphasize at the outset that the process I 
followed was one of transparency at both the Department of 
Justice and the White House. In filing my pardon petition, I 
included in this big document the views of the prosecutors, 
most particularly in the form of the indictment that they 
lodged against my client.
    On more than one occasion, I urged the White House counsel 
to seek the views of the Justice Department. I did so because I 
thought that was the professional way to proceed. And because I 
had worked with Deputy Attorney General Holder in the past, I 
had and continued to have enormous respect for him and for his 
legal judgment, and I was confident that before any decision 
was made on this matter his views and perhaps those of others 
at the Justice Department would be sought.
    In point of fact, I believed the consultation by the White 
House with Mr. Holder would help me make my case, because for 
over a year since October 1999, I had a series of 
communications orally and in writing with him about Mr. Rich's 
case. I knew that he was familiar with the allegations in the 
indictment and I had taken pains to familiarize him with the 
case we put together disputing the allegations in the 
indictment.
    But most importantly, what I hoped he could convey to the 
White House was the sense that Marc Rich and his lawyers were 
at an absolute impasse with the Southern District and that this 
matter would not and could not be resolved short of a process 
such as a pardon.
    As I think you know by now, I personally notified Mr. 
Holder in his office on November 21, 2000 that I would be 
sending a pardon application to the White House. I told him 
then that I hoped I could encourage the White House to seek his 
views and he said I should do so. I then delivered this 2-inch 
thick pardon application to the White House on December 11th, 
more than 5 weeks before the pardon was granted.
    While the application was under consideration, I wrote to 
Mr. Holder on January 10th of this year and asked him to weigh 
in at the White House, expressing the hope that he would 
support my application. I hoped for his support. I didn't know 
whether he--it would be forthcoming or not, but I hoped he 
would support it.
    Still later, I called Mr. Holder on the night of January 
19th. I told him that the Rich pardon application was receiving 
serious consideration at the White House and that I understood 
that he would be contacted before a decision was made. I 
understand from him and from the former White House counsel, 
Beth Nolan, and from the former President that Mr. Holder was 
indeed consulted. I believe that the views he expressed in that 
consultation was significant to the decision that was made.
    The process this pardon followed gave the President the 
time and the opportunity to weigh his decision carefully. For 
over 5 weeks, the White House had time to consider the views of 
White House attorneys, the Justice Department, and anyone else 
with whom it might choose to discuss the matter in order to 
make a judgment on the merits.
    As to the merits, you have before you my pardon 
application, and I understand that the gentlemen to my left 
disagree with me strenuously about this. But I remain to this 
day absolutely and unshakably convinced that the prosecutors 
constructed a legal house of cards in this indictment.
    At the heart of this case is a tax charge that I do believe 
is meritless. That tax charge formed the basis for attendant 
fraud charges and that in turn formed the basis for one of the 
very first uses in a case of this kind of the Federal 
racketeering statute, a use, by the way, which you should know 
the Department of Justice does not condone any further. It was 
this misuse, I believe, of RICO on top of the misuse of RICO 
predicates and underlying all of it a tax and energy case that 
I think did not have merit that made this indictment wanting.
    The case was fundamentally flawed. I believe that, and I 
argue that. I argued it first with the Souther District. I 
attempted to persuade the Main Justice here in Washington and 
the Southern District to consider the arguments we made on the 
law and to reopen discussions with us representing Mr. Rich.
    That conversation and other contacts that I had with the 
Department of Justice are reflected in the documents that I 
have provided to the committee, and they are summarized in 
appendix B to my testimony.
    My notes of November 8, 1999 reflect a telephone 
conversation in which I was told that some senior Department of 
Justice officials thought that the refusal of the prosecutors 
in New York to meet with Mr. Rich's attorneys was ill-
considered and in fact ridiculous.
    Subsequently, I was told that senior officials--some senior 
officials at the Department of Justice had come to believe that 
the equities were on our side. Nevertheless, the prosecutors 
from the Southern District refused to discuss the case with us.
    And given this intractable impasse, we decided in October 
of this year to seek a pardon. I decided to file a pardon 
application directly to the White House because I knew that 
pardons are sometimes initiated at the White House and not at 
the Department of Justice.
    I would point out to you that in today's Los Angeles Times, 
it's reported that some 47 of these applications were initiated 
at the White House without going through any process at the 
Department of Justice. As Mr. Waxman indicated earlier, that 
was true, not just in this administration, but it has happened 
in previous administrations.
    But to be sure, I was confident that, at some point, the 
White House would consult with the Department of Justice. And 
based on the earlier conversations I had throughout the course 
of a year, I believed that the Deputy Attorney General would 
not necessarily endorse a pardon, but I believed that he would 
at least confirm that we had reached an unresolvable stalemate 
with the Southern District.
    Now, as has been stated here by several of the Members, the 
Constitution grants the pardon authority only to the President, 
not to the pardon attorney, not to the Deputy Attorney General, 
and not to the White House counsel.
    Indeed, the pardon attorney reports to the Deputy Attorney 
General. And one of the major functions of the Deputy Attorney 
General is to serve as the departmental liaison with the White 
House staff and the Executive Office of the President, 
including specifically with respect to pardons. I informed that 
official of my petition. I encouraged the White House counsel 
to seek the views of that official. I did this over a period of 
2 months, having briefed him about the case for more than a 
year before that.
    President Clinton properly gave serious consideration to 
Mr. Rich's pardon application. In my discussion with him about 
this application, we talked about the case and the law and 
nothing else. President Clinton in that conversation demanded 
that Mr. Rich waive all procedural defenses related to the 
transactions in question so that he could be potentially 
subject to civil penalties such as those faced by others who 
were involved in similar transactions and went through civil 
enforcement proceedings with the Department of Energy, that 
this case should have been handled that way years ago.
    In conclusion, Mr. Chairman, while you may disagree with 
the President's decision, I believe the facts establish that I 
represented my client's interest fairly, vigorously and 
ethically. I carried out this representation, keeping both the 
Department of Justice and the White House informed. Thank you, 
Mr. Chairman.
    [Note.--The complete pardon petition is printed at the end 
of this volume.]
    [The prepared statement of Mr. Quinn follows:]

    [GRAPHIC] [TIFF OMITTED] T5593.006
    
    [GRAPHIC] [TIFF OMITTED] T5593.007
    
    [GRAPHIC] [TIFF OMITTED] T5593.008
    
    [GRAPHIC] [TIFF OMITTED] T5593.009
    
    [GRAPHIC] [TIFF OMITTED] T5593.010
    
    [GRAPHIC] [TIFF OMITTED] T5593.011
    
    [GRAPHIC] [TIFF OMITTED] T5593.012
    
    [GRAPHIC] [TIFF OMITTED] T5593.013
    
    [GRAPHIC] [TIFF OMITTED] T5593.014
    
    [GRAPHIC] [TIFF OMITTED] T5593.015
    
    [GRAPHIC] [TIFF OMITTED] T5593.016
    
    [GRAPHIC] [TIFF OMITTED] T5593.017
    
    [GRAPHIC] [TIFF OMITTED] T5593.018
    
    [GRAPHIC] [TIFF OMITTED] T5593.019
    
    [GRAPHIC] [TIFF OMITTED] T5593.020
    
    [GRAPHIC] [TIFF OMITTED] T5593.021
    
    [GRAPHIC] [TIFF OMITTED] T5593.022
    
    [GRAPHIC] [TIFF OMITTED] T5593.023
    
    [GRAPHIC] [TIFF OMITTED] T5593.024
    
    [GRAPHIC] [TIFF OMITTED] T5593.025
    
    [GRAPHIC] [TIFF OMITTED] T5593.026
    
    [GRAPHIC] [TIFF OMITTED] T5593.027
    
    [GRAPHIC] [TIFF OMITTED] T5593.028
    
    [GRAPHIC] [TIFF OMITTED] T5593.029
    
    [GRAPHIC] [TIFF OMITTED] T5593.030
    
    [GRAPHIC] [TIFF OMITTED] T5593.031
    
    [GRAPHIC] [TIFF OMITTED] T5593.032
    
    [GRAPHIC] [TIFF OMITTED] T5593.033
    
    [GRAPHIC] [TIFF OMITTED] T5593.034
    
    [GRAPHIC] [TIFF OMITTED] T5593.035
    
    [GRAPHIC] [TIFF OMITTED] T5593.036
    
    [GRAPHIC] [TIFF OMITTED] T5593.037
    
    [GRAPHIC] [TIFF OMITTED] T5593.038
    
    [GRAPHIC] [TIFF OMITTED] T5593.039
    
    [GRAPHIC] [TIFF OMITTED] T5593.040
    
    [GRAPHIC] [TIFF OMITTED] T5593.041
    
    [GRAPHIC] [TIFF OMITTED] T5593.042
    
    [GRAPHIC] [TIFF OMITTED] T5593.043
    
    [GRAPHIC] [TIFF OMITTED] T5593.044
    
    [GRAPHIC] [TIFF OMITTED] T5593.045
    
    [GRAPHIC] [TIFF OMITTED] T5593.046
    
    Mr. Burton. Thank you Mr. Quinn. Mr. Weinberg.
    Mr. Weinberg. Thank you, Mr. Chairman. Mr. Chairman, Mr. 
Waxman, other members of the committee, my name is Morris 
``Sandy'' Weinberg. I served as an assistant U.S. attorney from 
1979 to 1985 in the U.S. Attorney's Office for the Southern 
District of New York, and from approximately December 1981, 
when I started the investigation against Marc Rich, until 
October 1984, when his companies pled guilty to, between them, 
70-plus counts of various Federal felonies and tax evasion and 
paid the United States a couple of hundred million dollars, I 
was the lead prosecutor on the Marc Rich case.
    With me today is Martin Auerbach, who was also an assistant 
U.S. attorney in the Southern District of New York, and for the 
last year or so of that investigation helped me and worked with 
me on the case.
    Between us, I think that we are the two most knowledgeable 
people from the prosecution side about the Marc Rich 
investigation. Both of us are--have been for many years white 
collar criminal defense lawyers. I practice in Tampa. Mr. 
Auerbach practices in New York City. I'm with a Washington-
based law firm Zuckerman Spaeder, and for many years I have 
represented, like Mr. Quinn has and others, people that are 
under investigation or been indicted by the United States.
    I might also add, Your Honor, that I am--Mr. Chairman, that 
I am not here today to do several things. Although I have very 
strong, as you will see, disagreements with what Mr. Quinn has 
said about the merits or, in his view, the lack of merits of 
the case, I am not here today to question Mr. Quinn's motives 
with regard to this pardon and this pardon application. I've 
represented many people. I understand what it is to represent 
people. I understand that when one does it, one has to 
characterize the facts in the light most favorable to your 
client. I understand that.
    I am also, Your Honor, and--Mr. Chairman, as--along with 
Mr. Auerbach, a lifelong Democrat. We are not here for any 
political purpose. We are not--we have no political motives in 
this case. I grew up in Tennessee. I've been a Democrat my 
entire life. I am not here for that purpose. We are here, I am 
here to talk about--to talk about why in my opinion--to talk 
about my outrage basically because we feel this outrage we have 
is seeded in our intimate knowledge of the facts of this 
investigation and the facts of this case.
    We are here today upon your invitation, and we appreciate 
it, to provide some background regarding the prosecution of Mr. 
Rich and Mr. Green. In particular, we are here to express our 
outrage at the pardons of Mr. Rich and Mr. Green, who for the 
past 17 years have been international fugitives in what is the 
biggest tax fraud case in the history of the United States.
    As international fugitives who renounced their American 
citizenship in 1983 for the specific purpose of avoiding 
extradition on these charges, we do not believe that Mr. Rich 
or Mr. Green should have been candidates for pardon.
    We are particularly distressed because, despite what Mr. 
Quinn has said today, it appears that the President received no 
input from anyone who had any knowledge of the particulars of 
this prosecution from the prosecution side. It is my belief and 
understanding that no one from the U.S. Attorneys's Office in 
the Southern District of New York was contacted, no one from 
the IRS, the agents from the FBI. Certainly I was not 
contacted, Mr. Auerbach was not contacted. And I have been 
contacted over the years every time another lawyer or law firm 
has come in to try to negotiate a resolution, I have always 
been contacted by the Southern District to receive my input. 
None of that happened apparently in this case.
    Not surprisingly, this application for pardon is a one-
sided account. You know, it's an advocate's piece. It's--I have 
done advocate pieces like this over the last 15 years. But in 
our opinion, it wholly and completely mischaracterizes the 
circumstances and facts surrounding the Marc Rich case. If 
either of us had been given the opportunity, we would have told 
President Clinton about the actual facts of this investigation, 
the actual facts of the prosecution, what this prosecution was 
really about and why it had so much merit and why there were 
probably two no more unsuited people for a Presidential pardon 
than Marc Rich and Pincus Green, and why in our opinion this 
pardon was so unwarranted.
    The pardon application itself and Mr. Quinn's remarks and 
his prepared remarks and his remarks today and what I've heard 
him say on television demonstrate, I believe, an utter lack of 
contrition and remorse on the part of Mr. Green and Mr. Rich 
for their criminal conduct, for their renunciation of their 
U.S. citizenship, for the fact that they fled justice 17 years 
ago.
    Instead, the pardon application states that Mr. Rich, Mr. 
Green and their companies, which incidentally pled guilty with 
some of the best counsel in the United States in 1984, it says, 
quote, that Mr. Rich, Mr. Green and their companies are--have--
were wrongfully indicted nearly 20 years ago, have complete 
defenses to the indictment, are victims of an injustice, have 
had an unfair and unwarranted treatment.
    It alleges that Mr. Green and Mr. Rich were somehow, quote, 
singled out and prosecuted for, quote, mere civil offenses and 
that they have suffered terrible hardships in their 20 years of 
fugitivity in Switzerland as a result of this prosecution.
    It dismisses wholly the fact that, in 1984, Mr. Rich's two 
companies pled guilty to all those counts and paid $200 million 
worth of fines by merely suggesting, according to the 
application, that the pleas were the result of government 
overreaching and a business decision to save the companies.
    Now, while the philanthropy of Mr. Rich and Mr. Green over 
the past 20 years is admirable, it does not erase, in my 
opinion or Mr. Auerbach's opinion, the gravity of their 
criminal conduct or the importance of the prosecution then and 
the prosecution now.
    As set forth below, the prosecution was based on numerous 
witnesses from within Marc Rich's companies, current employees 
and former employees. People to the level of the CFO were 
witnesses in this case, as well as witnesses from third party 
companies that were co-conspirators in these crimes.
    It was the overwhelming nature of the evidence, in my 
opinion, that caused Mr. Rich and Mr. Green to flee 17 years 
ago. It was not, as Mr. Quinn says, a legal house of cards or a 
meritless prosecution or a civil case. Because surely Mr. Rich 
and Mr. Green, who were represented by Edward Bennett Williams, 
that wonderful lawyer, in my opinion the greatest lawyer of his 
time, surely Mr. Rich and Mr. Green would not have fled, would 
not have risked so much, would not have undergone all of the 
obstruction that happened during that investigation that made 
the case so famous, surely that they would not have paid $200 
million and had their companies plead to a meritless case, 
surely they would not have done that if they had an absolute 
defense to the case and they believed that back in 1983 or 
1984.
    It would have been nice in 1983 or 1984 if Mr. Williams or 
any of the other lawyers that was representing Marc Rich, 
Pincus Green and their companies had come to us and said Sandy 
or Martin or John Martin, who was the U.S. attorney through 
most of this, this case is, in our opinion, just a civil case. 
It's meritless. You've got it all wrong. There is a Swiss tax 
treaty. We had advice of counsel.
    None of those arguments were raised in 1983 or 1984 and 
were raised only after the case was over, they had pled $200 
million, they had fled the jurisdiction, and then they were 
trying to come in 10 years later, 15 years later and, in my 
opinion, buy their way out of having to face the merits of the 
case by saying that the case, you know, had no merit.
    That isn't the way that the judicial system is supposed to 
work. You know, how can Mr. Quinn say that, in 2001, Marc Rich 
and Pincus Green wouldn't have gotten a fair trial in the 
Southern District of New York. He is certainly not suggesting 
that one of the many judges there wouldn't have given him a 
fair trial. I mean, if this case was so meritless, why didn't 
they come back? Why didn't they face the charges?
    I mean, the fact of the matter is they didn't come back 
because they knew that the charges were so overwhelming, in my 
opinion. But it's even worse than that. The evidence is as 
strong today, in our opinion, as it was 17 years ago, in 1984, 
and I have forgotten a lot of things in the last 20 years and I 
got sent the minutes from the plea that took place in 1984.
    And I was standing in court with Peter Fleming, one of the 
wonderful lawyers that was representing Marc Rich, and Peter 
Zimroth, another terrific lawyer that was representing Marc 
Rich, and the companies were pleading guilty that day, and 
there were more people in the room than there are today because 
it was a historic plea, it was a very big plea, the biggest 
resolution at the time ever.
    And those lawyers stood in court that day, in Federal court 
in front of a Federal judge, and they entered in behalf of the 
two companies guilty pleas to 38 counts on behalf of Marc Rich 
Co. A.G. and 40 felony counts on behalf of Marc Rich Co. 
International. And they stood there, and they told the Federal 
judge that the pleas were voluntary, that's what the lawyers 
said, that's what the transcript said, and that they were not 
the result of any threats or extortion.
    They told the Federal judge that Marc Rich's company in the 
United States had hidden, in their words, when they were making 
the allocution, as they call it, when they were telling the 
judge what the companies had done wrong, they told the Federal 
judge that Marc Rich's company in the United States had hidden 
millions of dollars of income from crude oil transactions, had 
hidden it from the IRS, had hidden it from the Department of 
Energy, had evaded millions of dollars in taxes, and had filed 
numerous false documents with the Department of Energy with 
regard to the income which was illegal.
    In addition, they paid $200 million in taxes and penalties. 
And if the case is so weak, I mean what in the world were those 
lawyers thinking at that time, as described in the pardon 
application. They would have never pled guilty, they would have 
never paid those fines. Whatever the reason for the pardon, Mr. 
Chairman, and members of the committee, whatever the reason, 
surely the reason was not the merits of the case. Because this 
case, you know, had, in my opinion, and I believe in the 
opinion of Mr. Rich and Mr. Green, who fled, and the opinion of 
their lawyers who allowed the guilty pleas to go down and who 
told the Federal judge that they had, in fact, committed those 
crimes, I mean the fact of the matter is the case was full of 
merit. And it is just I believe incredible that, 20 years 
later, I'm sitting here and hearing that the case was without 
merit and it was a legal house of cards.
    I am not going to read the details of my testimony, which I 
understand is here, about the investigation, but I'll just 
summarize a few things. The reason, in my opinion, that Mr. 
Quinn has said and others have said in the application that 
there was a hysteria that grew up around the case and that 
somehow I, who I think was 31 at the time, and other 
prosecutors in the U.S. Attorney's Office were creating a media 
event, the case was an important case to begin with.
    It was the biggest tax fraud in the history of the United 
States. But it was like any other case until Mr. Rich and Mr. 
Green began to attempt to obstruct the investigation during the 
investigation stage. And a series of events happened that made 
it such a famous case. It started with us subpoenaing Marc 
Rich's Swiss records. And it was--it was--it set jurisdictional 
precedent. We took the position that we had jurisdiction in the 
United States over a Swiss company, and we litigated that. 
Everything in this case was litigated to the hilt. We litigated 
it.
    We went to the Second Circuit Court of Appeals, and we won. 
And the judge on this case was Leonard Sand, who is the judge 
today that is trying the Osama bin Laden case in New York as we 
sit here today. He is a terrific Federal judge, and he ruled we 
had jurisdiction. He ruled that the companies should turn over 
the documents. And the company refused to turn over the 
documents. So he found the companies in contempt and ordered a 
$50,000 a day fine which, at the time, was I think the biggest 
fine ever. And the lawyers for the company told Judge Sand, we 
are not going to pay the fine, and we are not going to turn 
over the documents.
    So that was story No. 1. That was a front page story, and 
it ran forever as the press was following the $50,000 a day 
fine.
    And then right on top of that, it turned out we discovered 
that Marc Rich had attempted to secretly sell his only U.S. 
asset, which was this American subsidiary. And when we found 
out about that, we went to the court, and the court determined 
in the court's opinion that it was a fraudulent attempt to keep 
assets, you know, out of our control and to avoid paying the 
$50,000 a day fine.
    And ultimately the Second Circuit ruled that it was 
fraudulent and even found that the attorney-client privilege on 
the crime fraud exception was dispensed with and that we were 
able to talk to the attorneys for Marc Rich about the sale and 
found out how fraudulent it was.
    And when the fines began to accumulate--and these were all 
being reported on a regular basis, when the fines began to 
accumulate, we negotiated a deal with the companies to turn 
over the records and pay the fines up to date, and we inked 
that in Judge Sand's apartment one Friday night.
    I thought it was over with and that we would go with the 
investigation, and 4 days later we got a tip from somebody in 
Marc Rich's New York office that they were smuggling documents 
out of the country--subpoenaed documents out of the country in 
steamer trunks. And we reeled a Swiss Air flight in from the 
runway and there were two steamer trunks, and they were 
unmarked and they were chock full of subpoenaed records. And 
that was the steamer trunk affair, and that was another front 
page story.
    And then the indictment proceeded, and there was an 
enormous amount of attention for the indictment, and then Mr. 
Rich and Mr. Green became fugitives. And all of these things 
made the case, you know, an internationally reported case. But 
it was their conduct, not our conduct, that was being reported 
at the time.
    When we finalized our investigation after the indictment, 
the companies vigorously litigated the charges. They filed 
dozens of pretrial motions, hundreds of pages of legal briefs. 
They raised every conceivable defense except the defense that 
we are hearing now.
    They never argued that it wasn't taxable income, that it 
did not constitute tax evasion, and never argued that they had 
advice of counsel. And then there was plea negotiations with 
the companies when it became clear that the individuals weren't 
coming back. We sought to extradite them. The Swiss Government 
wouldn't extradite them, and we ended up accepting guilty pleas 
from the companies.
    As I close, in my opinion, Mr. Chairman, and members of the 
committee, the case against Mr. Rich and Mr. Green was very 
strong and continues to be very strong. The government would 
have called witnesses from Marc Rich's companies who would have 
described in detail the huge tax fraud and energy fraud scheme.
    Like any fraud case, anyone I have ever participated in as 
a prosecutor or defense lawyer, the evidence was rife with 
false documents, inflated invoices, sham transactions, off the 
record, off the book deals. The conspirators in this case kept 
track of the illegal profits, which was about $100 million, in 
handwritten journals in what was described by themselves and on 
these journals as the pot.
    As alleged in the indictment, the evidence included 
meetings between these co-conspirators and Marc Rich regarding 
the pots and the scheme to funnel the illegal profits out of 
the country to offshore accounts. In addition, Mr. Green and 
Mr. Rich's fugitive status was further evidence of their 
consciousness of guilt.
    Now, 17 years later, the pardon application asserts that 
the acts alleged were civil, not criminal, and that the conduct 
in which the companies pled guilty and for which Mr. Rich and 
Mr. Green were indicted was perfectly innocent intercompany 
transactions protected by U.S.-Swiss tax treaty.
    If the transactions were considered legitimate at the time, 
one wonders why it was necessary to create the pots, use 
inflated invoices, use sham transactions to funnel the profits 
out of the United States.
    And as I said before, it's unlikely with the best defense 
lawyers in America that Marc Rich and Pincus Green would have 
risked everything to become fugitives if it was just a civil 
misunderstanding. In truth, Mr. Rich and Mr. Green, in my 
opinion, have forfeited their right to question the merits of 
this case in their pardon application by becoming fugitives, by 
renouncing their citizenship, by having their companies plead 
guilty to the scheme 17 years ago.
    Whatever the debate about their pardons, if should not, and 
I agree with what the Congressman should say--has said, it 
should not, the debate should not be over the merits of the 
case against him. Those merits were clear then. They are clear 
today.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Weinberg follows:]

    [GRAPHIC] [TIFF OMITTED] T5593.047
    
    [GRAPHIC] [TIFF OMITTED] T5593.048
    
    [GRAPHIC] [TIFF OMITTED] T5593.049
    
    [GRAPHIC] [TIFF OMITTED] T5593.050
    
    [GRAPHIC] [TIFF OMITTED] T5593.051
    
    [GRAPHIC] [TIFF OMITTED] T5593.052
    
    [GRAPHIC] [TIFF OMITTED] T5593.053
    
    [GRAPHIC] [TIFF OMITTED] T5593.054
    
    [GRAPHIC] [TIFF OMITTED] T5593.055
    
    [GRAPHIC] [TIFF OMITTED] T5593.056
    
    [GRAPHIC] [TIFF OMITTED] T5593.057
    
    [GRAPHIC] [TIFF OMITTED] T5593.058
    
    Mr. Burton. Thank you, Mr. Weinberg. That was very 
thorough.
    Mr. Auerbach.
    Mr. Auerbach. Mr. Chairman, Mr. Waxman, distinguished 
members of the committee, I come today to express the outrage I 
share with Mr. Weinberg and I believe with many other Americans 
over President Clinton's pardon of Marc Rich and Pincus Green. 
Mr. Quinn has suggested to the committee and to the Nation that 
we had a legal house of cards. Well, if we did, it was all 
aces. We had extraordinary testimony, extraordinary cooperation 
from people within Marc Rich's organization, which demonstrated 
the guilt to which his companies pleaded guilty.
    The notion that this pardon was, quote, on the merits, as 
has been said by our former President, a man who I voted for 
twice, is simply incorrect. The merits of this case were 
unquestionably in the government's favor.
    Mr. Quinn has said that, in presenting the pardon 
applicant, he presented the views of the prosecutors. But when 
one reads the pardon application, one sees the indictment, 
which does express the charges, but does not set forth the 
facts.
    One of the linchpins of the attack on the case is an 
analysis that was done 10 years ago by two very distinguished 
tax professors and was presented to the U.S. Attorney's Office 
in December 1990, directed to the distinguished prosecutor who 
went on to become himself a professor at Columbia Law School 
and now, with the advice and consent of the U.S. Senate, sits 
on the Federal bench in New York.
    The transmittal letter that came with that analysis says it 
all and betrays the problem, the fundamental flaw in the pardon 
application as it was applied to Mr. Rich and Mr. Green, and 
that is a complete absence of a knowledge of the facts, the 
true facts of this case, the facts that led the companies to 
plead guilty.
    When that analysis was sent 10 years ago, the professors 
who wrote it said, and this is in tab C to the pardon 
application, quote, making no independent verification of the 
facts but accepting the statements thereof made to us by Mr. 
Rich and Mr. Green's lawyers.
    And that is the problem. The President relied on the facts 
as described to him by Mr. Rich and Mr. Green's lawyers, making 
no independent investigation.
    Since 1983, when I began working on this case, I have had 
numerous conversations, both as a prosecutor and after leaving 
the U.S. Attorney's Office, about the merits of this case. Mr. 
Rich and Mr. Green reached an impasse with the U.S. Attorney's 
Office, not because the U.S. Attorney's Office was unreasonable 
and was unwilling to listen to their arguments and analysis, 
they reached an impasse because of the facts.
    Mr. Rich and Mr. Green are commodities traders. By its 
nature, that is a gambling profession. And there is an old song 
about the gambler which says, you have to know when to hold, 
know when to fold up, know when to walk away, know when to run. 
And they ran, and they ran because of the facts. And they 
couldn't come back because of the facts.
    And it was only by circumventing a process that they had 
gone through years and years and years ago and continue to go 
through, a process which involved a careful consideration of 
their arguments against the facts of the case that allowed them 
to come back.
    Now, the one card we did not have was the get-out-of-jail-
free card. Mr. Rich and Mr. Green now have that card. And I 
believe that one of the functions that this committee can 
perform is not only the function of looking at the Presidential 
pardon process and encouraging the current President and all 
Presidents who follow him to never again make the mistake for 
whatever reason it was made by Mr. Clinton in pardoning 
fugitives who have turned their back on the United States, who 
have engaged in conduct pleaded guilty to by their companies 
that constituted thumbing their noses at American laws in times 
of crisis, the energy crisis.
    In 1973 and 1974, I had the privilege of working for the 
House Commerce Committee, and I will never forget the hearings 
that were held with respect to the energy crisis. It was a 
crisis of great proportion for the American people. A response 
was crafted by government, perhaps an imperfect response, but a 
real response. Mr. Rich and Mr. Green chose to evade the law 
with respect to those controls. They chose to make illegal 
profits at a time when Americans were suffering under 
extraordinarily high energy prices.
    When we had a hostage crisis in Iran, we attempted to 
respond to that by having legislation and regulation. Mr. Rich 
and Mr. Green, as alleged in the indictment, chose to put their 
personal profits ahead of the needs and the laws of the United 
States. The notion that a President of the United States in the 
future might make the same mistake and act on a pardon 
application that may reflect the prosecutor's views but not 
present to him the facts is a mistake I would urge this 
committee to ensure never happens again.
    The other thing I would ask this committee to do in its 
oversight function is to look to the future. Mr. Rich and Mr. 
Green announced long ago that they have renounced their 
citizenship. We took the position that they were still citizens 
of the United States, still subject to our jurisdiction and 
extradition. But they took the position that they were citizens 
of the world. If they, in fact, renounce their citizenships and 
are no longer Americans, then I believe they have no absolute 
right to return to this country. And I think that this 
committee should call upon the State Department and the White 
House to consider whether Mr. Rich and Mr. Green are welcome in 
America, or whether that their complete contempt for the laws 
of the United States and for the courts of the United States, 
as reflected in the conduct that Mr. Weinberg described, which 
led them to pay $21 million in contempt fines, fines they 
preferred to pay rather than produce documents--and I believe 
that if those documents had demonstrated their innocence, those 
documents would have been on our doorstep before we asked for 
them. I believe that we have to look at their contempt and say, 
if you are not American citizens and have no right to be here, 
you are not welcome here.
    Alternatively, if they are U.S. citizens free to come and 
go as they please, then we have to look at their civil 
liabilities.
    Mr. Quinn wrote to the President saying that Mr. Rich and 
Mr. Green would waive all the procedural obstacles to the 
government pursuing them with respect to civil liabilities 
arising from the transactions for which they were indicted. 
That, Mr. Chairman, is a completely hollow promise. It is 
utterly meaningless. It is less than ice in winter. It is an 
empty glass.
    The civil liabilities in this case were fully extinguished 
in 1984 when Marc Rich and Co. A.G. and Marc Rich and Co. 
International Limited paid $150 million to the U.S. Government. 
The civil liabilities were corporate civil liabilities.
    We have been accused of being reckless and overreaching. We 
did not charge Marc Rich and Co. A.G. with tax evasion because 
it was not a U.S. taxpayer. We did charge Marc Rich and Co. 
International Limited with tax evasion. It pleaded guilty, and 
it satisfied its tax liabilities. That civil liability is gone.
    With respect to the Energy Department and the energy 
regulations, that civil liability is gone. That was never an 
individual liability of theirs. It was a corporate liability. 
Their liability was a criminal liability.
    And so I would ask the committee to ensure that, if they 
are welcome to return to the United States, that we do 
everything in our power to hold them responsible for any 
liabilities they may have, including, of course, tax liability 
for the past 17 years.
    It is my impression, perhaps incorrect, but I believe not, 
that for the past 17 years, they have taken the position that 
they are not U.S. citizens and need not pay U.S. income tax. 
During that period, as one of Mr. Rich and Mr. Green's lawyers 
informed me several years ago, they went from owning the second 
largest commodities trading company in the world to owning the 
largest commodities trading company in the world, which Mr. 
Rich and Mr. Green proceeded to sell at enormous personal 
profit. If they made such profits and have not paid their 
taxes, I hope this committee will ensure that they do so.
    One last thing I would say, when you make a deal with the 
devil you ought to get paid. I don't know what the deal was or 
whether there was a deal that led to Mr. Rich's and Mr. Green's 
pardon. I see the fingerprints of Mr. Rich and Mr. Green in the 
way that this was approached because, in the course of our 
investigation, in the course of watching his contact over the 
years, I have come to understand the way Mr. Rich and Mr. Green 
do business and why they had been such phenomenally successful 
commodities traders. They do information arbitrage. They take 
advantage of the fact that the guy on the other side of the 
table doesn't know what they do.
    It happened here again. They take advantage of building 
special relationships with people in government, which they can 
then exploit, sometimes at the cost of those people's own 
allegiance to their true employers.
    I'm not suggesting that Mr. Quinn is anything other than a 
deeply loyal American. I believe we all are, but I am 
suggesting that Mr. Rich and Mr. Green exploited one of the 
techniques that made some so successful and so rich.
    If in fact one of the compelling parts of the pardon 
application was the charity that they have bestowed, and I 
assure you that at the time that they had been indicted we were 
aware that particularly Mr. Green, was an extremely charitable 
person. Mr. Green is a deeply observant religious man. His 
religious beliefs preclude him from making money between 
sundown on Friday and sundown on Saturday. And so he chose to 
have his profits go into a charitable trust for that period. I 
applaud that. I think that is wonderful.
    But I do not believe that the $220 million of charity that 
is reflected in this pardon application wipes out their guilt. 
What it does suggest, however, is that, if we have made a deal 
with the devil, there is a good way for him to pay. Not only 
should the tax liabilities, if they are American citizens, be 
fully satisfied, but I call on them both to increase their 
charity.
    They offered to pay $100 million to settle these matters. I 
call upon them, I call upon this committee, I call upon the 
Congress and the people of the United States to say to them now 
prove that you are truly charitable men. Prove that you are not 
simply looking for a way to buy yourself back into somebody's 
heart. Put up the money now. If you don't owe the civil 
liabilities that Mr. Quinn was prepared to have you satisfy, 
establish charitable foundations. Put that money on the table 
now so that at least the American people can receive some 
benefit from the extraordinary wealth that you achieved by 
turning your back on American law.
    Thank you, Mr. Chairman.
    Mr. Burton. Thank you, Mr. Auerbach. It was very 
interesting testimony.
    We will now go to the 30 minutes on each side.
    Mr. Shays, we will recognize you for the first 10 minutes 
on our side.
    Mr. Shays. Good morning, gentlemen. This committee, the 
Government Reform Committee, and the Governmental Affairs 
Committee in the Senate has had approximately 80 people refuse 
to testify before this committee exercising their fifth 
amendment rights, and now Denise Rich is just one more person 
added to that number. And, Mr. Quinn, I may have a lot of 
feelings about what you did, but I think it takes a lot of guts 
to be here, and I appreciate you being here.
    Mr. Quinn. Thank you.
    Mr. Shays. There are some who believe, and I am one of 
them, that former President Clinton appears to have pardoned 
two traitors to their country and our country, and I want to 
just deal with the part of the indictment that people refer to 
as trading with the enemy.
    Mr. Quinn, you claimed in the pardon application that the 
Southern District of New York dropped the trading with the 
enemy charges against Mr. Rich's companies because they somehow 
lacked merit. Is that correct?
    Mr. Quinn. Yes, sir.
    Mr. Shays. Mr. Quinn, you argued in your petition for 
pardon that because the trading with the enemy charges against 
the company were dropped the charges against Messrs. Rich and 
Green should have been dropped also; is that correct?
    Mr. Quinn. Well, the central argument on this point, sir, 
is that the regulations in question do not reach individuals 
who are engaged in such trading on behalf of foreign 
corporations.
    Mr. Shays. Is it your position that your clients did not 
trade with Iran or that it was not illegal if they did?
    Mr. Quinn. The latter.
    Mr. Shays. That it was not illegal if they did?
    Mr. Quinn. That's correct.
    Mr. Shays. Did they trade with Iran?
    Mr. Quinn. It was my understanding that there was such 
trading but that it was on behalf of foreign corporations, and 
that being the case, the regulations in question did not reach 
that conduct.
    Mr. Shays. Mr. Weinberg, could you explain why the charges 
against the company for trading with Iran were dropped?
    Mr. Weinberg. Yes. When Mr. Rich and Mr. Green became 
fugitives, we were left with trying a case against two 
corporations and a third individual who was a principal of this 
company called Listo. His name was Clyde Meltzer. By the way, 
he did not get a pardon, even though he ended up being the one 
person that pled guilty in this case. But because Mr. Meltzer 
was not involved in any of the trading with the enemy charges, 
it created a real problem for trying the case without Marc Rich 
and Pincus Green there because Mr. Meltzer took the position 
that he was entitled to a severance and that there would have 
to be two trials.
    So in order to avoid having two trials, we superseded the 
indictment and took the trading with the enemy counts out of 
the RICO charges as they applied to the companies and dismissed 
them as to the companies and told the court that, if we tried 
this case, we would not have those counts that Mr. Meltzer 
believed were so inflammatory to him that he would not get a 
fair trial. But we also made it clear that the charges would 
remain outstanding as to the individuals.
    But just in response to what Mr. Quinn said, we charged 
that these--these trades were made by Mr. Rich and Mr. Green 
from their New York office. I mean, that's what the indictment 
charges and that is what the proof would have been, and that we 
were very confident that the U.S. laws and regulations 
prohibited Americans from making deals and, regardless of 
whether the deal was for their Swiss company or their American 
company, but they couldn't in the United States make deals that 
caused U.S. money to go from U.S. banks to the Iranians, which 
in this case we would have proven I believe.
    So we felt strongly about the charges. We dismissed them as 
to the company because we wanted to have one trial and not two.
    Mr. Shays. So it's your testimony that you certainly 
wouldn't have dropped it as it related to the individuals?
    Mr. Weinberg. No. It really applied more to the individuals 
because it was the individuals in this case that were American 
citizens. It was the individuals in this case that actually did 
the deals. It was the individuals that were the--you know, had 
violated, you know, the trading with the enemy counts.
    Mr. Quinn. Mr. Shays, may I add one----
    Mr. Shays. Sure.
    Mr. Quinn. As you can see, as I hope you will see through 
the course of this hearing on this and a number of other 
points, we disagree. I do not believe that those regulations 
reached this conduct. I want--and I am going to try in the 
course of this hearing to comment on as many of the harsh 
things said by these gentlemen as I can. But I do want to 
single out one particular aspect of this, and that is this, the 
fact that this gentleman renounced his U.S. citizenship. And--
--
    Mr. Shays. I'd like to come back to that. We will come back 
unless it relates directly to this point.
    Mr. Quinn. Well, it is going to be a simple point.
    Mr. Shays. OK.
    Mr. Quinn. I want to be clear that I did not recommend he 
do that. I would never recommend that any American do that. I 
do not condone that. But I want you to know that I do not think 
that fact was pertinent to the charges against him.
    Mr. Shays. OK. This is a fugitive from justice who was a 
U.S. citizen, who then left after being prosecuted, renounces 
his U.S. citizenship.
    Mr. Quinn. Well----
    Mr. Shays. Let me just go on.
    During the last 20 years, did Marc Rich or his companies 
trade with Qadhafi or Libya?
    Mr. Quinn. I don't know the answer to that, sir.
    Mr. Shays. Should it make any difference to you if he did?
    Mr. Quinn. The pardon application goes to the legal merit 
or lack of merit of the indictment. I did not act here as a 
character witness for these people. I took on the indictment 
within its four corners.
    Mr. Shays. I only have 10 minutes, so I would like you to 
be precise here. I'm saying, should it have made any 
difference? The answer is yes or no.
    Mr. Quinn. I think not.
    Mr. Shays. Did you try to find out whether he did?
    Mr. Quinn. No, because I had no information that it might 
have been the case.
    Mr. Shays. Did Mr. Rich trade with Iran when U.S. hostages 
were being held captive?
    Mr. Quinn. I do not know the precise answer to that 
question. It is my belief that he traded with Iran. I can't 
tell you right now when that occurred.
    Mr. Shays. Should it make any difference to you if it did?
    Mr. Quinn. Again, I approached this as a lawyer concerned 
with the indictment that was before me and whether or not it 
should stand. I was not here to be a character witness. I was 
here to take on four points----
    Mr. Shays. It didn't make any difference to you. Should it 
have made a difference to the President of the United States?
    Mr. Quinn. It is something he well may have taken into 
consideration, certainly. I mean, the President in----
    Mr. Shays. In the last 12 years, did Marc Rich or any of 
his companies trade embargo--excuse me, did they trade with 
Iraq, with Iraqi oil?
    Mr. Quinn. I don't know the answer to that.
    Mr. Shays. Should it make any difference to you if this was 
true?
    Mr. Quinn. If it didn't go to the allegations of this 
indictment, it would not, in my view, have undermined the legal 
case we made against the indictment.
    Mr. Shays. Did you try to find out if it did, if they did?
    Mr. Quinn. No, because again I----
    Mr. Shays. So the answer is no?
    Mr. Quinn. That's correct.
    Mr. Shays. No. Then the next question is: Should it have 
made a difference to the President of the United States?
    Mr. Quinn. Again, I think the President could and should 
take into consideration whatever information he chooses to take 
into consideration. I can speak only to the information I 
provided to him.
    Mr. Shays. You felt no obligation to tell the President 
whether Marc Rich or Mr. Green may have traded with Libya, 
traded with Iran, or traded with Iraq; and you don't think you 
had any obligation to infirm the President of that?
    Mr. Quinn. I know what my obligation as a lawyer was. It 
was to argue this case forcefully. And by the way, as I think 
you know, the Prime Minister of Israel, whom one would expect 
to have been concerned if those sorts of nefarious trade 
dealings were under way, would not have been as vocal as he was 
in support of this pardon.
    Mr. Shays. During the trade embargo of South Africa, during 
the days of apartheid, did Marc Rich or his companies trade 
with the South African Government?
    Mr. Quinn. I don't know the answer to that.
    Mr. Shays. Should it make any difference to you that he 
did?
    Mr. Quinn. It would not have made any difference to whether 
or not this indictment had merit.
    Mr. Shays. Should it make a difference to the President of 
the United States?
    Mr. Quinn. Again, I think the President could and should 
take into account whatever information he chose to.
    Mr. Shays. Do you know whether Rich or his companies traded 
with Cuba?
    Mr. Quinn. I do not.
    Mr. Shays. Were any of Mr. Rich's assets or any assets of 
his company frozen for illegal trading with Cuba?
    Mr. Quinn. I don't know the answer to that.
    Mr. Shays. OK. If, in fact, Marc Rich or Pincus Green were 
traitors to the United States, should they be pardoned?
    Mr. Quinn. With all due respect, I think it's an unfair 
question, because I did not believe that they were traitors.
    Mr. Shays. No, you said, you said that it wasn't part of 
your request in the pardon. You didn't say whether or not you 
believed that, because you didn't check. You have an indictment 
trading with the enemy, and you basically said that was 
irrelevant and shouldn't apply.
    Mr. Quinn. I said that the charge was without merit because 
the regulations in question do not reach a situation in which 
individuals are trading on behalf of a non-U.S. company.
    Mr. Burton. The gentleman's time has expired.
    Mr. Shays. Thank you.
    Mr. Burton. Let me just real briefly make one comment; that 
is, I think, when a pardon is looked at in addition to the 
charges brought against people like these gentlemen, they ought 
to look at what they've done since then to see if there is any 
contrition. And they did deal with those countries just 
mentioned during the embargoes. So there was no contrition 
whatsoever. They went on with the same modus operandi that they 
had before. So there was no contrition, and I can't understand 
why that wasn't taken into consideration.
    Mr. Shays. Mr. Chairman, can I have you yield 1 second?
    Mr. Burton. Real quickly.
    Mr. Shays. I point out, in the process, they made a 
fortune.
    Mr. Burton. A fortune.
    Mr. Shays. And in the process, they didn't declare those 
taxes.
    Mr. Burton. That's right.
    I have one question, then I'll yield to my colleague, Mr. 
LaTourette.
    If these gentleman, Mr. Rich and Mr. Green, had a good 
case, why did they flee the country and why did they try to 
smuggle subpoenaed documents out in steamer trunks that were 
only caught because there was a tip? I mean, if there was no 
case, if this was a house of cards, why did they flee the 
country? And why did they try to smuggle subpoenaed documents 
out of the country?
    Mr. Quinn. Let me answer you in several parts. First of 
all, it is my understanding that when they were indicted they 
were outside the country. Second, what they did was fail to 
return to the country after the indictment. That is my 
understanding.
    Second, it is also my understanding that the U.S. 
Government has never alleged that their absence is in and of 
itself unlawful.
    Third, with regard to the documents, what I have been told 
is that those documents were going to Switzerland for the 
purpose of being reviewed for privilege by the lawyers.
    That is their answer, sir.
    Mr. Burton. I'm sure the counsel that was involved in the 
prosecution would like to respond real briefly.
    Would counsel like to respond real briefly?
    Mr. Auerbach. A couple of things, Mr. Chairman.
    First, I would note that when you look at the pardon 
application, point one is not a discussion of the legal merits 
of this case, but of who these men are and why they are 
entitled to come back. It's not until you get to page 20 of the 
pardon application that you begin to reach a discussion of the 
merits of this case.
    With respect to the documents that were being slipped out 
of the country, the suggestion was never that those were being 
reviewed for attorney-client privilege. It was simply that it 
would be more convenient for counsel to review them in 
Switzerland then to review them in New York.
    Now, we had tons and tons of documents delivered to us. 
These two steamer trunks were slipping out. We didn't get a 
call from them saying, you know, we've got some people over in 
Zug with nothing better to do than to look at documents; would 
you mind if we took them over there outside of the jurisdiction 
at the time when we're in contempt for refusing to produce 
documents from Switzerland?
    So when we get down to the merits of this case, I'm afraid 
Mr. Rich and Mr. Green do not win.
    Mr. Weinberg. As far as fugitivity is concerned, very 
briefly, I think it's a distinction without a difference. They 
weren't indicted. They were well aware of the investigation. 
There were negotiations on with Mr. Williams that had been 
reported before the indictment, the $100 million offer. They 
chose not to come home. There were arrest warrants outstanding.
    They renounced their citizenship to avoid extradition. They 
became citizens of Bolivia at the time. These are fugitives, 
and I still believe that a fugitive that has renounced his 
citizenship should not be at the top of the list of people that 
are considered for the ultimate act of mercy that the 
Constitution reserves to the President, which is a pardon 
power.
    Mr. Burton. Thank you, Mr. Weinberg.
    Mr. LaTourette.
    Mr. LaTourette. Mr. Chairman, could I ask the counsel how 
much time remains of our side's 30 minutes?
    Mr. Burton. Because I kind of interrupted there, I think 
you have about 7\1/2\ minutes, let's say.
    Mr. LaTourette. Could I ask that counsel notify me when we 
have 10 left, because I want my friend, Mr. Barr, to have a 
full 10 minutes to explain what is on his mind.
    Mr. Burton. I will yield my 5 minutes to you in the second 
round since I took your time.
    Mr.  LaTourette. I thank you very much.
    Mr. Quinn, I want to begin where Mr. Weinberg just left 
off, because there's a couple of things about this that concern 
me, and it has to do with definitions.
    I mentioned in my opening remarks, when we get to the 
second panel and you're joined by Mr. Holder, I want to talk to 
you about some definitions that have been used in interpreting 
Executive Order 12834. But for this round, I want to talk about 
the issue of fugitivity.
    Apparently, as I understand the media accounts and other 
things, and maybe if you could refer to exhibit No. 15 in the 
committee hearing exhibits, apparently there was a conversation 
between you and Bruce Lindsey in Belfast, Ireland.
    [Exhibit 15 follows:]

    [GRAPHIC] [TIFF OMITTED] T5593.486
    
    Mr. LaTourette. One of the things that was of concern to 
the Clinton administration was the fact that somebody was 
telling them at least that Marc Rich and Pincus Green were 
fugitives from justice. And in response to that conversation, 
you apparently felt compelled to send Mr. Lindsey at the White 
House a letter on December 19, 2000, and in particular say, ``I 
want to followup on an issue you raised in our conversation 
while in Belfast on the subject of the pardon for Marc Rich and 
Pinky Green. You expressed a concern that they are fugitives, 
and I told you that they're not. Here's why. Rich and Green 
were, in fact, residing in Switzerland when they were indicted 
in September 1983.''
    I think that's what Mr. Weinberg was just addressing, sort 
of the distinction without a difference. And here's why it's 
troubling.
    We had a hearing in this committee last year where we had a 
former Cuban intelligence official, and he explained to us that 
it was his belief that Fidel Castro helped pay for and 
orchestrate the largest armored car robbery in the history of 
the United States; $7 million was taken. And then Fidel Castro, 
according to this witness, helped smuggle the person out of the 
United States and back to Cuba. And if we can go to exhibit 101 
in the committee's documents, like your client, he wound up on 
the Top Ten list of those most wanted by the Federal Bureau of 
Investigation. His name is Victor Manuel Gerena.
    [Exhibit 101 follows:]

    [GRAPHIC] [TIFF OMITTED] T5593.611
    
    [GRAPHIC] [TIFF OMITTED] T5593.612
    
    [GRAPHIC] [TIFF OMITTED] T5593.613
    
    [GRAPHIC] [TIFF OMITTED] T5593.614
    
    Mr. LaTourette. And the conduct on that occasion was that 
he took two security employees hostages at gunpoint, handcuffed 
them, bound them and injected them with an unknown substance to 
further disable them. However, the indictment for Mr. Gerena 
wasn't issued until he was safely back in Cuba.
    Now, if we take your definition of what a fugitive is in 
your letter to Mr. Lindsey, it would appear that the FBI has 
made another mistake by putting this fellow on the Most Wanted 
list because he's not a fugitive either.
    Now how can you say that that's the definition of 
fugitivity?
    Mr. Quinn. Well, sir, the facts as stated in my letter are, 
I believe, accurate. It has not been my impression that Mr. 
Weinberg or any other representative of the U.S. Government 
alleged that their failure to return was itself criminal. And 
you and I are perhaps using different definitions of 
fugitivity, and I accept that, but I do not understand their 
absence to have been criminal.
    Mr. LaTourette. OK.
    Mr. Quinn. The purpose of my letter was to make that point.
    Mr. LaTourette. But apparently--I mean, again, as I read 
it--and I will let Mr. Weinberg jump in here in a minute. I 
used to do this, not as skilled as these fellows; I used to be 
a simple county prosecutor, and I guess when I had a defendant 
who was facing 300 years, throwing in a fugitive from justice, 
securing a year and a half really didn't mean a whole lot to 
the guy.
    But the fact of the matter is, if we take your definition, 
and Bruce Lindsey seemed to be worried about the fact that you 
were asking a fugitive from justice to receive a Presidential 
pardon, your answer to them is, hey, good news, Bruce, he's not 
a fugitive because he was already over in Switzerland.
    And I would assert to you that if Marc Rich wasn't a 
fugitive then neither is Mr. Gerena. We had a famous case here 
a couple years ago where a fellow fled to Pakistan after 
murdering a CIA agent in the parking lot, and he wouldn't have 
been a fugitive.
    The last observation, and maybe you can then tell me what 
the difference is. Mr. Weinberg was talking about you're not 
his first lawyer; Mr. Rich, he had Edward Bennett Williams a 
great, great lawyer, and if we could just go to a written a 
biography when this case is mentioned, and if you could go to 
exhibit 102, maybe. The excerpt from Mr. Williams' biography 
reads that, as follows: ``Williams was standing in the office 
of Marvin Davis in Los Angeles when he heard the news that his 
client was on the lam. According to Davis, Williams shouted 
into the phone, `You know, something, Marc, you spit on the 
American flag. You spit on the jury system. Whatever you get, 
you deserve. We could have gotten the minimum; now you're going 
to sink.' ''
    It appears that one of Mr. Rich's former lawyers seemed to 
think that he was a fugitive from justice and undeserving of 
any favorable treatment and, certainly, a pardon, I would 
suggest, by the American justice system. And I guess--how do 
you--how have you reached a different conclusion than Mr. 
Williams as to the fugitivity question?
    [Exhibit 102 follows:]

    [GRAPHIC] [TIFF OMITTED] T5593.615
    
    Mr. Quinn. Well, again, sir, my position on fugitivity is 
laid out in that letter to Lindsey.
    But to the point that I reach a different conclusion about 
this case than Mr. Williams did, I learned about this case in 
excruciating detail from such people as Lewis Libby, who is now 
Vice President Cheney's Chief of Staff, Larry Urgenson.
    Mr. LaTourette. I understand your arguments on the merits, 
but Mr. Williams is talking about the issue of fugitivity here. 
He said that your client, ``spit on the American flag'' was his 
conclusion. You reach a different conclusion.
    Let me ask Mr. Weinberg. Mr. Weinberg, do you think that 
fellow was a fugitive from justice?
    Mr. Weinberg. He is a fugitive from justice. What Mr. Quinn 
is talking about when there's an outstanding arrest warrant for 
you and you've been indicted and you know about it and you 
don't turn yourself in, you're a fugitive whether you took a 
vacation to Switzerland, because he was living in New York at 
the time.
    But whether you took a vacation to Switzerland and chose 
not to come back, or not, you're a fugitive. What he's saying 
is that he didn't commit the crime of bail jumping, because 
there wasn't bail set, because he hadn't been indicted when he 
chose apparently not to come back. He's a fugitive. Up until 
the pardon, there were arrest warrants.
    The marshals have been quoted recently as saying he was one 
of the Top Ten list. They tried many times to capture him. 
There have been a number of extradition requests. He chose not 
to come back; he's a fugitive.
    Mr. LaTourette. Mr. Auerbach.
    Mr. Burton. The gentleman's time has expired.
    Mr. LaTourette. May I ask Mr. Auerbach the question?
    How do you feel about this fugitivity issue?
    Mr. Auerbach. There's no question that Marc Rich and Pincus 
Green were fugitives and knew it. We sought their extradition 
from Switzerland. If you look at our agreement with their 
companies with respect to their guilty pleas, they specifically 
provided that we would wait to see whether the Swiss were going 
to grant our extradition requests, because if they were, we 
reserved the right to go ahead to trial as they did. And it was 
only when it was clear that they were not going to get 
extradited as fugitives that we proceeded.
    Mr. LaTourette. I thank you.
    I yield to you, Mr. Barr.
    Mr. Barr. Thank you, Mr. Chairman.
    Mr. Weinberg, I think you in one phrase or one sentence 
really summed up why we're here. Nobody in this room seriously 
believes that we're here because all of us on this committee 
and the American people don't understand that there are other 
important things that Congress needs to be doing. Congress is 
doing those things.
    If members on the other side want to work on health care 
for the elderly and prescription drugs, then they ought to be 
on those committees. That's not what brings us here today. What 
brings us here today is, as you said in your testimony, how our 
judicial system is supposed to work. That is really what brings 
us here.
    Some on the other side might think that simply because we 
are at the core of this discussion talking about a 
constitutional authority, that there's nothing that any of us 
can do about it. Once the President exercises anything that is 
a power under which the Constitution he has, then we all have 
to just back away and bow down and say, yes, sir, we can't look 
into this, it's black magic, we have to go away and just accept 
what you've done.
    I think all of us here, whether anybody is willing to admit 
it or not, understand that's not the way our system of 
government operates. We have an obligation here, the same as 
you and Mr. Auerbach have an obligation, as does Mr. Quinn, to 
see that justice is done, to uphold our system of laws, our 
system of checks and balances.
    And if, in fact, there's evidence, as there is in this 
case, that the system has not worked, that it perhaps has been 
subverted in some way, then we have a legitimate reason to look 
into it, to try and at least bring to the attention of the 
American people that something wrong has gone on here, and if 
steps can be taken, to take those steps.
    Also, in looking at the grant of executive clemency or a 
pardon, we're not operating in a vacuum here. We're not 
operating as if President Clinton is the first person ever to 
extend grants of clemency or to grant pardons. There is, in 
fact, a long history of documentation.
    There is a very clear process and procedure which every 
prior President until this President at the 11th hour of his 
administration has followed. There are documents that lay out 
that process and procedure such as, for example, the U.S. 
attorneys manual.
    I ask unanimous consent to include these pages from the 
U.S. attorneys manual that relate to grants of clemency and 
pardons in the record.
    Mr. Burton. Without objection.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T5593.428
    
    [GRAPHIC] [TIFF OMITTED] T5593.429
    
    [GRAPHIC] [TIFF OMITTED] T5593.430
    
    [GRAPHIC] [TIFF OMITTED] T5593.431
    
    [GRAPHIC] [TIFF OMITTED] T5593.432
    
    [GRAPHIC] [TIFF OMITTED] T5593.433
    
    [GRAPHIC] [TIFF OMITTED] T5593.434
    
    Mr. Barr. And we look, for example, even at Mr. Quinn's 
own, very-well-put-together, two or three, whatever it is, 
inches of papers in his petition, the last two tabs of which I 
and J, I believe, include a number of former documentations 
from a number of former Presidents regarding grants of clemency 
and executive pardons.
    In every one of those, the President lays out the case for 
the American people, why he believes that this pardon is in the 
interests of justice.
    Now, we may agree or disagree with it, but it's all there; 
it's on the record. The former President has chosen to operate, 
as he has so many times in the past, with utter disdain and 
disregard for the process whereby the American people are 
deemed to have a right to know what is going on, because that's 
the only way we can tell if justice is, in fact, being done.
    I would also ask unanimous consent to include in the record 
the executive grant of clemency signed by former President 
Clinton on January 20th in this case.
    Mr. Burton. Without objection.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T5593.435
    
    [GRAPHIC] [TIFF OMITTED] T5593.436
    
    Mr. Barr. And also a letter from the Department of Justice 
dated February 6, 2001, which lists some 44, it looks like, 
individuals listed in the prior document----
    Mr. Burton. Without objection.
    Mr. Barr [continuing]. Who did not submit petitions.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T5593.437
    
    [GRAPHIC] [TIFF OMITTED] T5593.438
    
    [GRAPHIC] [TIFF OMITTED] T5593.439
    
    Mr. Barr. As to at least those people, I think a very 
legitimate question can be raised whether their pardons or 
grants of clemency are not valid, are void ab initio, because 
in his rush to judgment or his effort to obfuscate or not 
answer questions or lay out for the American people what 
President Clinton did in this case is simply list dozens upon 
dozens of individuals, including Messrs. Rich and Green, 
without giving any reason or any details and simply saying that 
he hereby grants a full and unconditional pardon to all of the 
following named persons for those offenses against the United 
States described in each such request.
    The question apparently that some folks, including perhaps 
some of us, will look into is as to all of the people who did 
not submit a request, there can't be a pardon, because we don't 
know the terms of it.
    Mr. Rich, however, did submit a petition, a very lengthy 
petition, and one that lays out in great detail, as you 
described, Mr. Weinberg, his position.
    There's nothing necessarily wrong with that. That is how 
the pardon or executive clemency process starts, and that's 
virtually every case--not every case, but most cases.
    What happened thereafter though is very unusual. There is 
no documentation from the Department of Justice. There is no 
documentation from the FBI, the CIA, the National Security 
Agency, the Department of State, all of which are agencies that 
in the case of a fugitive, a foreign fugitive from justice, as 
to whom very serious allegations in evidence have been raised 
regarding trading with the enemy and so forth, that normally 
would be consulted. That's a very serious question.
    Why was the President so eager to grant Mr. Rich a pardon 
without looking into any of these matters? These are, in fact, 
very serious. And this is the reason why we're having this 
hearing and why we will have the petition or the next panel.
    I have some specific questions, but I think we will 
probably have some additional time, Mr. Chairman, to go into 
specific questions.
    Mr. Burton. We will, and I will try to see that we yield to 
you what time you need.
    Mr. Waxman, you're recognized for 30 minutes.
    Mr. Waxman. Thank you very much.
    It's clear from the testimony that we received from this 
point there's a strong difference of opinion on this panel 
regarding the merits of pardoning Marc Rich.
    Mr. Weinberg, you clearly believed that Mr. Rich does not 
deserve a pardon.
    Mr. Weinberg. That's correct.
    Mr. Waxman. Mr. Auerbach, you agree with Mr. Weinberg on 
that?
    Mr. Auerbach. Absolutely, Mr. Waxman.
    Mr. Waxman. Mr. Quinn, you obviously disagree with the 
prosecutors? You feel that the pardon was justified on the 
merits; is that your position?
    Mr. Quinn. Yes, sir.
    Mr. Waxman. Well, based on what I've heard on this matter, 
I would have to agree with the prosecutors on the merits of 
this pardon. It seems to me that the arguments against granting 
Mr. Rich a pardon outweigh the arguments in favor of granting 
him a pardon. If I were considering this matter, I wouldn't 
have reached this conclusion.
    There is a tremendous difference, however, between a bad 
judgment and criminal conduct. Some people believe that the 
Clinton administration acted illegally or corruptly in granting 
the pardon. I'm not sure that the evidence sustains this 
theory.
    The evidence, in my opinion, sustains a theory that the 
President used incredibly bad judgment.
    Mr. Quinn, of the witnesses here today, you had the most 
extensive firsthand knowledge about the President's 
consideration of the pardon. You had direct contact with the 
President regarding the matter.
    Do you have any reason to believe that the President's 
conduct in the pardon was in any way criminal or corrupt?
    Mr. Quinn. Absolutely not. And in point of fact, as I said 
earlier, and I would like to repeat it, not a single word of 
the conversation I had with him about this matter had to do 
with anything other than the merits of this case.
    And if I may, it's very hard in this format to be able to 
respond to everything that is being thrown up here. And, again, 
I'm going to try to weave into my answers some of the responses 
to the comments that lead you to the conclusion you just 
articulated, but I would like to make this point.
    No. 1, the two tax authorities whose opinion was central to 
my effort, Professor Martin Ginsburg of Georgetown and Bernard 
Wolfman of Harvard, they accepted the allegations in the 
indictment as being true when they did their analysis. That is 
how I read and understand their opinion.
    Second, the prosecutors to my left conveniently never chose 
to talk about RICO. There have been references here to these 
defendants being exposed to being jailed for 300 years. The 
reason for that was because of the RICO charge. In 1989, the 
Department of Justice said that in precisely this sort of case 
it's inappropriate to rely on the racketeering statute.
    Third, what they didn't tell you is that another agency of 
the U.S. Government, the Department of Energy, saw this case in 
precisely the opposite way that they did. The Department of 
Energy analyzed these transactions in a proceeding against 
ARCO. ARCO is the oil company here with which Mr. Rich was 
doing most of his trading. ARCO paid millions of dollars of 
fines because it had failed to link the domestic transactions 
in which they were engaged with foreign oil transactions.
    The prosecutors, in concluding that Rich evaded taxes on 
$100 million completely overlook or reject the reality that 
those transactions were linked to foreign transactions that 
involved Rich paying significantly more for oil than it was 
worth; and that results in a very significant reduction of that 
$100 million. This is admittedly enormously complex.
    But the point I want to make here is that this case was 
about tax evasion, mailing wire fraud, RICO, and the violation 
of the IEPA regulations involving trading with Iran. The RICO 
count could never have been brought today. The Department of 
Justice's policy prohibits the use of RICO in a case like this. 
The mail and wire fraud cases could not be brought today under 
a line of cases beginning with McNally in the Supreme Court of 
the United States.
    The tax evasion case--and I understand that these gentlemen 
want to dismiss the analysis of Ginsburg and Wolfman, or 
dismiss the view of the U.S. Department of Energy about what 
was going on in these transactions, but there is another side 
to these charges; and the point in response to your question is 
whether at the end of the day you believe that their view of it 
is better than my view. What I assure you is that it is my view 
and that discussion occupied the communication I had with the 
President, and it was clear to me that he had read this 
material.
    Mr. Waxman. Where did the President get this material, from 
you?
    Mr. Quinn. Yes, sir. I filed this petition on December 
11th.
    Mr. Waxman. And do you know whether he had any other input 
in reaching his conclusion than the petition you filed?
    Mr. Quinn. Yes. I'm confident he had other input. I'm 
confident of that from several facts. One, among other things, 
his former Chief of Staff, Mr. Podesta, said on Nightline that 
this was a matter that was, in fact, vigorously debated in the 
White House over a period of time. I don't know whether he said 
10 days or 2 weeks, something to that effect.
    Second, I knew in the course of dealings I had with the 
White House Counsel's Office that they were engaged in 
discussions with him.
    And then, third, as I think you know, I believe, that--
admittedly late, but that at some point in the process the 
White House Counsel's Office consulted with the Department of 
Justice, in fact, with the senior person at the Department of 
Justice with the responsibility for being liaison with the 
White House on pardon matters.
    Mr. Waxman. Well, in the next panel we're going to go into 
some of the issues of whether the President had the benefit of 
the analysis of others who could advise him on the merits of 
this case.
    Mr. Quinn. That's right. Right. I can't tell you, by the 
way, whether the intelligence agencies--I don't know the answer 
to the question who else may have participated in his 
deliberations on that. I know part of the story.
    Mr. Waxman. Well, it's my view that if a President is going 
to make a decision like this, he should have the input from all 
the sources and all the information that is relevant to his 
decisionmaking.
    Your obligation as a lawyer for your client is not to 
provide all of that information, but to represent your client's 
case; isn't that correct?
    Mr. Quinn. Yes, sir. And I do feel that the application was 
filed at a time that permitted--that would have allowed any 
consultation that one would deem necessary or appropriate.
    Mr. Waxman. I don't know whether the President got all the 
information he should have had before he made this decision. My 
guess is, maybe he didn't. I gather the President's decision 
was made because he saw the merits as you do.
    From my point of view, it's a complicated matter. My 
impression from the testimony I have received is that isn't the 
conclusion I would have reached had I been the President of the 
United States, but I'm not the President.
    President Clinton had the constitutional authority to 
evaluate this. If he didn't fully evaluate it, we should be 
critical of him. If he made a bad decision on the merits, we 
should be critical of him. But the question, it seems to me, 
other than being critical of his conclusion, is, was there any 
wrongdoing in reaching that conclusion.
    It seems to me, Mr. Quinn, from your answers you believe 
that the President acted properly. One can disagree with the 
conclusion that he reached, but not with the fact that he used 
his best judgment; isn't that correct?
    Mr. Quinn. Yes, sir.
    Mr. Waxman. Was there any quid pro quo for gifts or 
campaign contributions?
    Mr. Quinn. I don't believe so. I never had a conversation 
with him about those matters. I saw no evidence of that being 
on his mind when he spoke to me about the merits of this case. 
He said nothing about it. And in point of fact, to a very great 
extent, I didn't know about it. So it just wasn't part of the 
dialog that I had with him.
    And I have seen in my dealings with him, with the 
Department of Justice and with lawyers at the White House, 
simply no evidence of any of them having been mindful of those 
things.
    Mr. Waxman. Mr. Weinberg or Mr. Auerbach, are you aware, 
either of you, of any direct evidence that corruption was 
involved in President Clinton's pardon of Marc Rich?
    Mr. Weinberg. Neither of us would. We're in private 
practice. All I can say is that from my perspective, and I've 
said this before, I can see no legitimate reason to grant two 
people that were international fugitives who had renounced 
their citizenship with the evidence which is so overwhelming. I 
won't get into the facts. But what Mr. Quinn just said is 
really preposterous based on what the evidence was at the time, 
you know, inflated invoices, off-the-record transactions, 
people talking about pots, I mean all of that.
    If that were the case, if the case were that this had no 
merit to it, then one does wonder why the only alternative, 
according to Mr. Quinn, is a Presidential pardon. I mean, why 
not just come back and try the case? But----
    Mr. Waxman. You just don't see how he could have reached 
that conclusion on the merits, that's your view. Mr. Quinn has 
a different view.
    The President had to make his decision. You think his 
decision was incorrect. You don't have any information, 
however, that he reached that conclusion based on any direct 
evidence of wrongdoing or corruption, do you?
    Mr. Weinberg. No. You don't have the right people here to--
I mean, I'm talking about for me or Mr. Auerbach to weigh in on 
that, it would have been nice to hear the other side of the 
story. If I were the President, if I got to argue both sides, I 
would never lose a case as a trial lawyer.
    And in the President's case, you would have hoped that he 
would have heard from somebody that knew something about the 
case from the prosecution's side.
    Mr. Waxman. I would have hoped so, too. I fully support 
that position.
    Mr. Weinberg. I'm confident that he didn't.
    Mr. Waxman. You're confident he did not?
    Mr. Weinberg. I'm confident that he did not, from my 
conversations with people in the Southern District, you know, 
and various other people that were involved in the case.
    Mr. Waxman. You may well be right, and I have a limited 
amount of time, so I'm going to interrupt. You may well be 
right that he didn't get all sides argued as fully as he should 
have. He was making a last-minute decision. There was a long 
list of pardons that he had to consider, some of which he 
denied, many of which he granted. I don't know how many he had 
before him.
    But we have had other Presidents who made last-minute 
decisions on pardons for which we genuinely have been 
critical--President Bush's pardon of Caspar Weinberger, who was 
going to go to trial within weeks. And there are other pardons 
that were granted that we could look at and say, how could the 
President have ever reached that conclusion. It doesn't make 
sense. It doesn't appear to be correct on the merits. But 
unless there's some wrongdoing, all we can say is what terrible 
judgment the President exercised.
    I want to yield some of my time to my colleagues. Mr. 
Towns. Let me yield to you 5 minutes.
    Mr. Towns. I will be very brief.
    Someone raised the question of ethics, Mr. Quinn, and I 
would like to ask you, did you feel you violated the ethics ban 
by contacting the White House about the Marc Rich pardon?
    Mr. Quinn. Absolutely not. And I will be happy to explain 
why.
    Mr. Towns. Please, yes.
    Mr. Quinn. I should tell you, in advance, that I was one of 
the principal authors of that ethics regulation, and so I 
certainly believe I know what was intended by everything in 
this regulation, having had a major hand in writing it.
    This regulation specifically does not prohibit you from 
communicating or appearing with regard to a judicial proceeding 
or a criminal or a civil law enforcement inquiry, investigation 
or proceeding or with regard to an administrative proceeding, 
to the extent that some communications or appearances are made 
after the commencement of and in connection with the conduct or 
disposition of the judicial proceeding.
    Let me go back to the beginning of it. It allows you to 
communicate with regard to a judicial proceeding, etc. It 
doesn't say you can communicate in a judicial proceeding; it 
says you can communicate with regard to such a proceeding.
    There's no doubt in my mind that my communications on this 
matter were covered by this exception. I specifically discussed 
this with the White House counsel at the time, and when I drew 
to her attention this exception, the discussion was over.
    She appeared to be satisfied that my appearance in this 
matter was covered by this exception. She is a person of 
terrific legal talent and integrity, and I am confident that if 
she disagreed with my interpretation of this, she would have 
immediately brought it to my attention.
    Mr. Towns. Let me ask you this: When you discussed this 
pardon with President Clinton, did you know the specifics of 
the pardon application? Did you share everything with him?
    Mr. Quinn. What I can tell you, Congressman, is the 
conversation with him reflected a familiarity with the 
arguments I had made. And in point of fact, whether Mr. 
Weinberg thinks it was a good idea, a bad idea, a hollow 
promise or a meaningful promise, we talked about the fact that 
ARCO--and God knows why they didn't indict ARCO, which they 
didn't, which was involved in these transactions, which in fact 
structured these transactions, that ARCO with regard to these 
transactions was subjected to civil enforcement proceedings at 
the Department of Energy.
    He was sufficiently aware of the argument I made that it 
was he who said, but these guys--this happened a long time ago, 
and they may have statute of limitations defenses or such 
things; and it was at that point that I said, if you want, I 
will write a letter committing to waive those defenses.
    In short, the conversation with him--and, again, these 
gentlemen and all of you may disagree whether he made the right 
conclusion or not, but I can tell you that based on the 
conversation I had with him, it certainly appears to me--and I 
have no reason to think otherwise--that he was focused on the 
arguments that I made. I weighed them and evaluated them, and 
he made this judgment on the merits.
    Mr. Towns. So people that are saying, you only gave him one 
side of the story, you know, what do you say to them?
    Mr. Quinn. Well, look, as Mr. Barr said a few minutes ago, 
I'm an advocate.
    Yes, I provided a document and argument as an advocate. But 
I think everyone understood I was being an advocate. And let me 
remind you, I did include the indictment. I didn't obscure the 
indictment; I included it in my petition. It was in the 
documents I filed with the White House.
    And between the filing of the application on December 11, 
2000, and the granting of the pardon, on more than one 
occasion, I urged the White House Counsel's Office to seek the 
views of the Department of Justice. I did not do anything to 
circumvent them or keep them out of the process. I encouraged 
them to seek the views of the Department of Justice.
    Now, should I have called Mr. Weinberg up and said, guess 
what, I'm seeking a pardon; I hope you will get up here and 
argue against it? Of course not. But I do not believe that I 
did anything less than what was professionally responsible and 
ethically required.
    Mr. Waxman. Thank you, Mr. Towns.
    I want to yield to Mr. Kanjorski 5 minutes.
    Mr. Kanjorski. Thank you, Mr. Chairman.
    Mr. Weinberg and Mr. Auerbach, you obviously have very 
strong emotions on this case and you expressed that. You had 
the opportunity to read Mr. Quinn's petition?
    Mr. Auerbach. Yes.
    Mr. Weinberg. Yes.
    Mr. Kanjorski. Do you feel that is a fair and adequate 
representation of the facts and circumstances that the 
President should have had before him to make this analysis?
    Mr. Weinberg. No.
    Mr. Auerbach. Absolutely not. It is like looking at half 
the scoreboard and thinking you know the score in the game.
    Mr. Kanjorski. Do you think there's any question, whether 
it doesn't rise to the level of an advocate?
    Mr. Weinberg. No. Let me make myself clear.
    From an advocate's point of view, and I've been in Mr. 
Quinn's position on a number of occasions, the piece he put 
together is an advocate's piece. The problem is, in my opinion, 
it completely mischaracterizes what the merits of the case 
were.
    Mr. Kanjorski. So you had the information in your files 
that should have been before the President, and therefore it 
was up to Mr. Holder, the Deputy Attorney General of the United 
States, to again call and get that information so that the 
President would be adequately prepared to see both sides of the 
issue?
    Mr. Weinberg. What typically----
    Mr. Kanjorski. It's not the President's fault that the 
facts weren't before him. Somebody failed to provide the 
information, it would seem to me.
    Mr. Weinberg. I think you will hear today what would 
typically happen, in a case like this particularly, that was 
such a high-profile case with a fugitive, that they would seek 
something in detail from the Justice Department about the case.
    Mr. Kanjorski. Well, this fugitive thing does disturb me. 
You have very strong feelings that you have a definition of 
``fugitive,'' and Mr. Rich and Mr. Green fit that definition. 
Mr. Quinn in his petition denies that he was a fugitive. That 
seems to me to be a very substantial piece of information that 
the President should have had before him.
    You make that point, and I think--at least on that point, 
you agree that there's something misleading in the petition 
here?
    Mr. Weinberg. Well, it's not so much the petition, it's 
that letter which I hadn't seen before.
    Mr. Kanjorski. Isn't that an exhibit to the petition?
    Mr. Weinberg. I don't know that it was an exhibit to the 
petition.
    Mr. Kanjorski. I thought Mr. LaTourette laid it out very 
well. I thought he indicated it was a stark contrast in legal 
definition between what you categorized these two gentlemen to 
be and what Mr. Quinn categorized.
    Mr. Weinberg. Right. If there's an arrest warrant out for 
any of us and we know about it and we don't turn ourselves in, 
we are fugitives.
    Mr. Kanjorski. You made a point to say that Mr. Rich and 
Mr. Green have a habit of knowing how to exploit people and 
personalities and political relationships?
    Mr. Auerbach. That is correct.
    Mr. Kanjorski. After all, that's what we're here for, to 
find out whether there was anything wrong or improper, or bad 
judgment, as Mr. Waxman indicated.
    On the third page of Mr. Quinn's testimony, he talks about 
several other lawyers--maybe I should direct this more to you, 
Mr. Quinn--Mr. Garment, who served President Nixon as his White 
House counsel; Larry Ferguson, who held a senior position in 
the Reagan Justice Department; and Lewis ``Scooter'' Libby. Not 
being at the Washington bar, I don't know any of the three 
gentlemen. Mr. Libby, I do know, who now serves as the chief of 
staff to the Vice President of the United States in the present 
time.
    What is the last time that these people were engaged in 
transactions representing Messrs. Rich and Green?
    From what I read in your testimony, it looks like right up 
to the period when you were preparing the petition, you were 
receiving information, or relying on facts and information, 
from these lawyers; or am I to assume that you threw the 
switch-eroo on them and talked to Mr. Rich? I don't quite 
understand.
    Mr. Quinn. No, sir. Let me answer you this way.
    Since I became involved in this case, sometime I believe in 
the spring of 1999, in that period--in the year 1999 when we 
were approaching the Department of Justice and the Southern 
District of New York of the people--and if you look at appendix 
A of my testimony, there's a list of all of these lawyers----
    Mr. Kanjorski. Let me understand you: You were having 
somebody in the Justice Department contact the Southern 
District, or you were?
    Mr. Quinn. I wrote a letter to the Southern District at the 
suggestion of the Justice Department.
    Mr. Kanjorski. This was for preparation of the legal 
judgment you were going to make as to what course to pursue, 
whether you were going to go for some settlement of the 
transaction pending in New York and present it at that time or 
to go for the pardon?
    Mr. Quinn. Correct. In 1999 we were focused on trying to 
work out a resolution of this matter with either Main Justice 
or the Southern District. And in that period of time of the 
people listed in appendix A, I worked with Ms. Behan, Mr. Fink, 
Mr. Green, Mr. Libby, and Mr. Urgenson. And, in fact, Ms. Behan 
was a partner of mine at the time, but all the other gentlemen 
are the lawyers who basically educated me initially about the 
case.
    Mr. Kanjorski. Do they continue to represent Mr. Rich, or 
up until the time they took official capacity?
    Mr. Quinn. Well, today, Mr. Libby is in government.
    Mr. Kanjorski. I understand. But up until the time he went 
into the government, was he still actively representing Mr. 
Rich?
    Mr. Quinn. He may have--he may have been part of the 
campaign. I don't know precisely when, but yes.
    Mr. Kanjorski. I'm not trying to highlight them, but except 
it's very peculiar, not peculiar for Washington, but anywhere 
else in the United States. All of these lawyers seem to be on 
the Republican side of the spectrum, as opposed--I think you're 
on the Democratic side, aren't you, Mr. Quinn?
    Mr. Quinn. I'm not going to crack a joke. I was told not to 
do that. But, yes.
    Mr. Kanjorski. The point I'm trying to make is, obviously 
Mr. Rich and Mr. Green were exercising their incredible 
intellectual ability to figure out how to play the game, and 
they realized that the Republicans wouldn't probably have the 
entree to the White House or the President that a Democrat who 
had just recently been chief counsel to the President would 
have.
    Mr. Quinn. Well, Congressman----
    Mr. Kanjorski. I think that's the suggestion the two 
witnesses are making. And the point I'm trying to make is, I 
sort of react--Jack, you know I like you, and I don't want you 
to take this incorrectly.
    I react to this idea that nobody seems to be at fault here 
for an awful lot of substantial misinformation of facts and 
information that should have been presented to the President of 
the United States in making this determination.
    Everybody is sort of saying the pot is hot, but it's not my 
pot, and you are kicking it up and finally, yes, he's the 
decisionmaker, there's no question about it. But the important 
thing is whether there was criminality, whether he made bad 
judgment, as Mr. Waxman indicated or what happened, and we 
can't quite get to that, unless we attack this one other issue.
    In your mind, you said you were an advocate. I find it very 
difficult knowing your relationship to the White House and with 
the President that you were able to penetrate the natural 
defenses of a high official. No different than if my chief of 
staff or former legislative director who was a lawyer and left 
my office would come to me to present a petition, I would make 
the assumption that it wouldn't be just an advocate's position, 
that they would arm me with the negatives also. Or they would 
make certain at least that they in their own mind were going to 
be certain that I would gain that information that was 
important to make that judgment.
    Mr. Waxman. Mr. Kanjorski, I am going to reclaim my time 
because we only have a few minutes left.
    Mr. Kanjorski. Let me frame the question. Did you then or 
do you now in retrospect feel that your position and your 
ability to penetrate the natural defenses of the President may 
have caused him the difficulty of not getting the full and 
thorough information that he should have had to make a good 
judgment in this case?
    Mr. Quinn. No, sir, I do not. And if I may just add a 
sentence or two, I don't think anyone thought I was acting as 
anything other than an advocate. And let me remind you, I urged 
them to seek the views of the Department of Justice.
    I should not be the one looked to to present the views of 
these prosecutors. I was representing Mr. Rich. I did not 
discourage anyone from contacting the Department of Justice, 
the Southern District, the IRS or anyone else. In fact, I urged 
them to seek the views of the Department of Justice.
    Mr. Waxman. Mr. Quinn, you were part of a team of lawyers 
representing Mr. Green and Mr. Rich?
    Mr. Quinn. Yes, sir.
    Mr. Waxman. And Mr. Kanjorski talked about others on that 
team, including a large number of prominent Republicans--
Leonard Garment, William Bradford Reynolds, ``Scooter'' Libby, 
who is now Vice President Cheney's chief of staff. You were 
part of a team, and they obviously were hiring prominent 
lawyers with some political connections, but just prominent 
lawyers.
    Were you hired solely for the pardon issue, or were you 
part of the team dealing with Mr. Rich's problems much before 
it ever came to the issue of a pardon?
    Mr. Quinn. Yes, I was hired in, I believe it was the spring 
of 1999, to work on the effort to try to achieve resolution, 
either at Main Justice or in the Southern District.
    Mr. Waxman. And that did not involve the President of the 
United States or your special relationship, whatever it might 
have been?
    Mr. Quinn. It did not. Look, I would like to think that 
people think I'm a pretty good lawyer, and I would like to 
think that people believe that my experience in government has 
equipped me with an understanding of how best to pursue a 
client's interests.
    Mr. Waxman. I've known you over the years and I think 
you're an excellent lawyer. I think you make a good case 
advocating on behalf of your client. It appears to me that's 
what you've done successfully.
    Some of us have questions of whether the President got the 
other side, which we think he should have had, and whether in 
the judgment he had to make, he made the right judgment. But I 
have no question in my mind that you did a good job for your 
client.
    And under the ethics of lawyers, that's what lawyers are 
supposed to do: when you're hired by a client, to advocate 
their side of the case.
    Thank you, Mr. Chairman.
    Mr. Burton. We will go now to the 5-minute round.
    I will start off with my 5-minute round, and I will yield 
part of it to Mr. LaTourette.
    First of all, let me say that you're the one that did have 
access to the President, though, and you're the one that went 
directly to him and talked to him, correct?
    Mr. Quinn. Yes, sir.
    Mr. Burton. OK. The other thing is, did you ever talk to 
Denise Rich?
    Mr. Quinn. Yes, sir.
    Mr. Burton. Did you talk to her about the letter that was 
sent to the President asking for pardon?
    Mr. Quinn. Yes, sir.
    Mr. Burton. OK. So you did have correspondence or contact 
with her, probably on more than one occasion?
    Mr. Quinn. Yes, on a number of occasions.
    Mr. Burton. A number of occasions?
    Mr. Quinn. I encouraged her and the daughters to write 
letters of support.
    Mr. Burton. Sure, I understand.
    Now, Ms. Rich has decided, according to her attorney and in 
correspondence to us, to take the fifth amendment to the 
Constitution to protect herself against self-incrimination. And 
I think that one of the things that you said is that other 
people who have a little bit more information on what kind of 
influence may have been exerted on the President should testify 
to those facts. But you have no knowledge whatsoever about any 
influence Ms. Rich might have been able to exert on the 
President, other than the letters?
    Mr. Quinn. No. And I know that she mentioned this orally to 
the President that she had written.
    Mr. Burton. OK.
    Mr. Quinn. What I know is that she mentioned it to him and 
that she wrote a letter.
    Mr. Burton. I understand. The thing I think that we're 
going to have to do, since she's exercised her fifth amendment 
right, is if we're going to find out--because in correspondence 
that she sent to us, she indicated that she had given or they 
had--there had been an extraordinarily large contribution, I 
think her attorney said that, an extraordinarily large 
contribution to the Clinton library. And so what we will 
probably have to do is go to the Justice Department and ask 
that we get her a grant of immunity so she will have to testify 
at some point.
    I thought I would get that on the record, because I think 
Ms. Rich is probably going to be one of the key people to give 
us all the information that we need.
    Mr. LaTourette, I will yield the balance of the time to 
you.
    Mr. LaTourette. Thank you, Mr. Chairman.
    Mr. Quinn, I want to talk a little bit about where Mr. 
Kanjorski was and others were, and that's with this Executive 
Order 12834, which you indicated you had something to do with 
writing, and I understood that.
    Actually, what drew that to my attention more than anything 
else, there was a--I don't know if you saw the Washington Post 
on February 5th, but the headline, with a nice picture of you, 
was ``In Rich pardon case, did Quinn violate the ethics rule 
that he wrote?'' Did you have a chance to read that article, 
sir?
    Mr. Quinn. I did, sir.
    Mr. LaTourette. In the article, there's a fellow, an ethics 
guru--and everyone is a guru today--there's an ethics guru up 
at the New York University Law School; and we had the 
opportunity to chat with him because he's quoted in here. And 
his observation and mine would be, too, if you look at 2(C)--
maybe if we can put that up so everybody can see what we're 
talking about--the last paragraph, get up to the last 
paragraph, C, that's the one that you were reading to us 
before. You have to get to C?
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T5593.440
    
    [GRAPHIC] [TIFF OMITTED] T5593.441
    
    [GRAPHIC] [TIFF OMITTED] T5593.442
    
    Mr. Quinn. Yes, I have it in front of me.
    Mr. LaTourette. Good. One of the problems is that it talks 
about--this is a pretty standard thing. I mean, we have it here 
in Congress that our staff can't leave and lobby us for a year, 
and there are exceptions to that.
    And as I understand the executive branch, it is 5 years 
according to this policy that you wrote that you can't lobby, 
and then there are exceptions to what ``lobby'' means and you 
were citing to us an exception. And the exception that you 
cited--and it's quoted in the article and also in your policy--
that it doesn't include communicating or appearing with regard 
to a judicial proceeding and then some other things. But it's 
not unqualified. It's not unqualified.
    The question I have for you, the qualification is to the 
extent that such communications are made after the commencement 
of and in connection with the conduct of a judicial proceeding.
    Now, in order for you to have fallen--and just so the 
record is clear, when did you leave the White House?
    Mr. Quinn. February 1997.
    Mr. LaTourette. So there's no question that this conduct 
was within 5 years of your leaving the White House?
    Mr. Quinn. That's correct.
    Mr. LaTourette. In order for your definition, and again we 
went around and around on the issue of fugitivity before, and I 
guess we disagree what that means, but in order for your 
exemption or exception to qualify, your communications had to 
have been made after the commencement of and in connection with 
a judicial proceeding. Is it your observation that an 
application for a pardon by the President of the United States 
is a judicial proceeding?
    Mr. Quinn. No, sir, and that's not the reading I'm trying 
to give this.
    Mr. LaTourette. OK.
    Mr. Quinn. And I read the Washington Post article. I 
understand the point made by Mr. Gillers who, as I read the 
piece, was speaking about his knowledge of how these 
regulations are generally drafted. I can tell you Mr. Gillers 
was not involved in drafting this one, and it seems pretty 
clear to me that I was communicating with regard to a judicial 
proceeding.
    And, again, the White House counsel and I had a specific 
conversation about whether or not I was covered by the 
Executive order. When I brought to her attention this 
exception, she appeared to be satisfied that my appearance was 
permissible.
    Mr. LaTourette. OK. My time is expired. When I get the 
chance, I need to come back to this, because I still have some 
questions, but I thank you.
    Mr. Quinn. By the way, sir, in terms of the qualification 
you mentioned, there was, as you've heard, an indictment 
pending in the Southern District of New York, so there was a 
judicial proceeding that had been commenced.
    Mr. LaTourette. But your client was a fugitive from that 
judicial proceeding?
    Mr. Quinn. Well, but it doesn't say anything about 
fugitivity in here. And you also--you know, you left out the 
reference to the disposition of the judicial proceeding. And I 
would submit to you that a pardon is the disposition of a 
judicial proceeding, if anything is.
    Mr. LaTourette. OK. Thank you.
    Mr. Burton. We're about to go to Mrs. Mink.
    Do any of the witnesses need a break for 5 minutes?
    Mr. Weinberg. No.
    Mr. Burton. I mean, I don't want Mother Nature to be 
excluded from the hearing.
    Mr. Auerbach. His team says, take a break.
    Mr. Burton. His team says, take a break. We don't worry 
about the lawyers in the background.
    Mr. Quinn. I think we can continue.
    Mr. Burton. What we will do, just for everybody's 
information, after we get through this with panel, we will take 
about half an hour so people can grab a bite to eat, then we 
will get back to the next panel.
    Mrs. Mink, you're recognized for 5 minutes.
    Mrs. Mink. Thank you, Mr. Chairman.
    The hearing that we're embarking on is specifically for the 
purpose of trying to find out the circumstances of this 
particular pardon, what the nature of the indictments were 
which are the basis of this pardon, and to find out whether 
there were any extenuating circumstances that could be 
explained that might justify the pardon, because I think most 
people were greatly troubled by reading the newspaper articles 
about these two individuals.
    But I also understand that the committee's responsibility 
is basically to try to see whether any criminal conduct was 
engaged in, any acts of corruption or fraud on the part of the 
people that came together to produce this result. That it is 
not the purpose of this committee to alter the pardon.
    We have no capacity in that direction. So our inquiry, I 
think, is rather limited. I have heard a lot of the questions 
with reference to whether, Mr. Quinn, you had provided adequate 
information to former President Clinton before he made his 
decision.
    And one of the things that you were questioned about 
earlier was to what extent, since you were first engaged as the 
lawyer in this particular situation, did you discuss this 
matter with the Department of Justice, with the U.S. attorneys 
in the Southern District of New York or other people 
representing the so-called prosecutorial attitudes in this 
case?
    And if you could just describe that. I call your attention 
to one letter that I have before you in your appendix that you 
wrote to the Honorable Mary J. White, December 1, 1999.
    Was that your first major inquiry with respect to whether 
the U.S. Government had any predisposition whatsoever to 
negotiate, to plea bargain, to try to come to terms with what 
your task was, to see if there could be any resolution of this 
matter without going to court?
    Mr. Quinn. Yeah. And I've tried to summarize my contacts 
with Justice in the Southern District in appendix B.
    In essence, initially I had hoped that Main Justice would 
participate actively in achieving a resolution. I hoped that 
the Criminal Division, Tax Division and the Deputy's Office 
would either agree to take this matter on itself for purposes 
of----
    Mrs. Mink. My time is extremely limited. You made all of 
those contacts, and the answer was always no, that they would 
not negotiate; is that an accurate summarization of your work 
on this case prior to them coming to the decision that the only 
way out was a pardon?
    Mr. Quinn. That's fair, yes.
    Mrs. Mink. So this letter to the Honorable Mary J. White 
was the only communication in writing or was there a series of 
letters that were written to the Department of Justice or to 
the Southern District?
    Mr. Quinn. Well, there were written communications with the 
Southern District going----
    Mrs. Mink. Other than to Mary J. White.
    Mr. Quinn [continuing]. Years back, but not from me, 
because the answer I got from the Southern District was 
basically just a wave off, saying, forget it, we don't want to 
discuss it.
    Mrs. Mink. This was your sole correspondence with either 
the Justice Department or with the Southern District? I'm just 
trying to determine how many documents like this there would be 
in your appendix, since I haven't been able to go through them 
all.
    Mr. Quinn. With respect to the Southern District, this, I 
believe, was the only written communication.
    Mrs. Mink. OK.
    Now, in submitting your application then to the President, 
former President Clinton, with respect to the pardon, did you 
include this letter that you had written to Mary Jo White so 
that they would have had the opportunity to understand that you 
had exerted----
    Mr. Quinn. Yes.
    Mrs. Mink [continuing]. All that you could to try to 
resolve this case and that, therefore, the last resort was to 
seek a Presidential pardon? That's all I'm trying to establish.
    Mr. Quinn. Yes, ma'am, I included my letter, the one you're 
referring to. I included the response I got from the Southern 
District. I included, as well, the earlier letter that Mr. 
Urgenson had written and the response he got.
    Mrs. Mink. Now I have submitted many--not many, several 
requests for pardons, either going through the pardoning 
attorney or sometimes writing directly to the White House. And 
I have found that it's an extremely difficult process and, in 
fact, most of the ones I submitted have been denied. I was very 
disappointed that in this recent January 20th announcement none 
of the ones that I pleaded for were successful. So I can 
understand the gravity of the situation.
    Now, in arguing for a pardon one doesn't try to dwell on 
the egregious crimes that were committed, in this case the 
egregious circumstances that led to the indictment 20 years 
ago. What one tries to look to is were there any extenuating 
circumstances that might have altered the situation when one 
examines the purposes of the pardon.
    And as I read the materials we have been given and listen 
to the testimony, the only thing that I can really find is that 
the Justice Department changed its viewpoint with respect to 
RICO prosecutions.
    Now, to Mr. Weinberg and Mr. Auerbach, does this change of 
position and policy by the Department of Justice with reference 
to RICO prosecutions in your mind rise to the level of an 
extenuating circumstance----
    Mr. Weinberg. No.
    Mrs. Mink [continuing]. That should lead to a 
reconsideration of the initial indictment?
    Mr. Barr [presiding]. The time of the gentlelady has 
expired. The witnesses can answer the question.
    Mr. Weinberg. No, and there is a very good reason. RICO was 
1 count out of 51. The guts of this case was a tax fraud case. 
It had to do with $100 million worth of income, which happened 
to be illegal as a result of violations of the energy 
regulations, that were laundered out of the country. And it was 
a crime in 1983 to not pay taxes on $100 million worth of 
income and to devise a scheme to avoid paying taxes, and it's a 
crime in 2000. It was a crime in 1983 to violate the energy 
regulations, and the fact that there are no regulations anymore 
doesn't make the crime any less. It was a crime to lie about 
it.
    Mrs. Mink. That was really not my point, that it made it 
any less. I asked the question as to whether the change in 
policy justifies consideration of the new circumstances as 
extenuating.
    Mr. Weinberg. I'll answer that directly. I think not. If 
you're away for 20 years and you're fortunate enough to be able 
to persuade two foreign States not to extradite you, the gloss 
of time is always going to change the interpretation of the 
law. You can look at indictments that were brought in 1980, and 
if you examine them in 2000, the gloss of time is--you're going 
to find that the courts interpret the laws different in 2000 
than they did in 1980.
    But you've got to look at the guts of what the case was 
about and these people. And when you look at the guts of what 
the case was about and the people, it doesn't make any 
difference whether or not we would bring a RICO charge today. 
It is whether or not we would bring a criminal charge today and 
whether or not it is acceptable to be pardoning folks who have 
done things like renouncing their citizenship, becoming 
fugitives, not coming back and making these arguments that they 
say are so clear. I mean it--was it justified? And you can't 
come in and say, well, 20 years have passed and, you know, the 
courts now interpret or the Justice Department interprets the 
RICO statute differently.
    Mr. Auerbach. May I, Mr. Chairman, very briefly?
    Mr. Barr. Yes.
    Mr. Auerbach. I'm afraid that the argument with respect to 
the change in RICO policy is as disingenuous as I find the 
argument with respect to fugitivity. While it is true that the 
Justice Department changed its view with respect to tax counts 
as a predicate for RICO, it has not changed its view with 
respect to mail and wire fraud as a predicate to RICO. And as 
Mr. Quinn knows, as the indictment reflects, there are both 
mail and wire fraud counts which are predicates for RICO.
    So I believe that the Justice Department might well approve 
this indictment today. And I, in fact, believe that, were they 
to review this indictment today, and of course they did review 
it before it was brought, there would be money laundering 
charges in this case.
    Mr. Barr. Thank you. The Chair recognizes himself for 5 
minutes.
    Mr. Quinn, Mr. Rich is a citizen of two countries I 
believe, neither of which are the United States; namely, Spain 
and Israel. Is that correct?
    Mr. Quinn. That's my understanding, sir.
    Mr. Barr. OK. His colleague in all this, Mr. Green, 
considers himself, in addition, a citizen of Switzerland; is 
that correct?
    Mr. Quinn. That is my understanding as well.
    Mr. Barr. Thank you. And he also no longer considers 
himself a citizen of the United States; is that correct?
    Mr. Quinn. Yes.
    Mr. Barr. OK. Thank you. On January 10th of this year, Mr. 
Quinn, you caused to have sent to the Department of Justice two 
letters, one addressed to Mr. Holder from you and the other an 
attachment thereto, which was a copy of a letter dated January 
5th from you to the President; is that correct?
    Mr. Quinn. Yes, sir.
    Mr. Barr. I know there is some dispute over whether Justice 
received those. Do you have your copy of the courier receipt 
that you would have kept as a very meticulous lawyer at the 
time you caused that document to be given to the courier for 
delivery?
    Mr. Quinn. I have a copy of the courier receipt, and it was 
included in the documents I submitted to the committee. I don't 
have it in front of me.
    Mr. Barr. We have--that's not the document I'm talking 
about. The document that the courier company sent back, we do 
have, and they attest that they delivered to the Department of 
Justice. Would you not have had--at the time you sent the 
document from your law firm, as probably all of our offices do 
when the courier comes to the office, you hand them the 
envelope, and you fill it out, and they give you a carbon copy 
of the receipt. You don't have that?
    Mr. Quinn. I don't know the answer to that, sir, because I 
would have to ask my assistant who handled the engaging the 
courier service and having it delivered. I just don't know the 
answer. I believe that----
    Mr. Barr. If there was some dispute, and this is a very 
material element here, when Mr. Holder knew about this, and to 
what extent. Have you searched your records? I notice there is 
some activity going on behind you with your lawyers. Do they 
have a copy of that, and could you make that available?
    Mr. Quinn. Well, if we had any further documentation, I'm 
confident it would have been included among the materials that 
we provided to the committee. So I believe that the only 
documentation we have is that which we did provide.
    Mr. Barr. Do you mind, take a moment to see what your 
counsel is handing you.
    Mr. Quinn. Yeah. But I don't know exactly when this was 
generated. You know this--yeah, whatever we have was provided. 
This--this document reflects that someone whose name is K, the 
letter K, Gray accepted this document at the Department of 
Justice, at a Department of Justice office on January 10th.
    Mr. Barr. The document that we are talking about here is 
three pieces of paper, that's correct, isn't it?
    Mr. Quinn. Well, I have two, sir.
    Mr. Barr. I mean, the documents that were transmitted to 
DOJ.
    Mr. Quinn. That's correct.
    Mr. Barr. OK. It is true, is it not, that at no time did 
you submit this notebook, this petition to Eric Holder? That's 
not what you are talking about that you sent him on January 
10th, correct?
    Mr. Quinn. That's correct. May I make one other point about 
the underlying document you're talking about? The letter I sent 
to him on January 10th--and I understand there may be some 
dispute as to how many days it took to get from one Justice 
office where----
    Mr. Barr. I'm not really worried about that right now.
    Mr. Quinn. OK.
    Mr. Barr. My concern is that, first of all, that the 
package apparently was not addressed to Eric Holder. It was 
just addressed to the Department of Justice, and the document 
itself was not the petition. I think there may be an impression 
that some people would like to believe that on January 10th 
this entire several-inches-thick document was transmitted to 
Mr. Holder. That's not true, right?
    Mr. Quinn. That is not true.
    Mr. Barr. The only thing you gave him is a letter that 
said, quote, I hope you can say you agree with this letter. 
Your saying positive things, I'm told, would make this happen. 
Thanks for your consideration.
    And the letter to which you refer is your letter of January 
5th to the President. That's all you sent Mr. Holder, correct?
    Mr. Quinn. That's correct. But I think one thing you said 
is not correct. I'm advised that my assistant addressed the 
envelope, not to just the Department of Justice, but to the 
Deputy Attorney General.
    Mr. Barr. So the courier company has made an error here, 
because their records reflect it was sent just to the 
Department of Justice.
    Mr. Quinn. Yeah, I think they're reflecting where they made 
the delivery, but the envelope----
    Mr. Barr. You apparently didn't keep a copy of the receipt 
when you actually physically gave the document to the courier, 
at which time they would normally give the sending person a 
receipt.
    Mr. Quinn. Right. Right.
    Mr. Barr. That's unfortunate, isn't it?
    Mr. Quinn. Well, the point I wanted to make earlier, and I 
think it's important to make now, is I wanted Eric Holder to 
see this letter.
    Mr. Barr. Why didn't you want him to see the petition?
    Mr. Quinn. It's not that I didn't want him to see the 
petition.
    Mr. Barr. You didn't send it to him.
    Mr. Quinn. I did not send it to him. I notified him that we 
were filing it with the White House. I told him this goes back 
to November, at the time that I hoped I would be able to 
encourage communication with him by the White House Counsel's 
Office. And I asked him at that time should I let the White 
House counsel know in writing. He said no, just have him call 
me.
    I--remember, Congressman, an awful lot of the materials in 
this pardon application either come from the Department of 
Justice or I've shared in one way or another with the 
Department of Justice.
    Now, when we get to January 10th, I want him to see this, 
because I want him to see the case I'm making. I'm hoping that 
he will say something supportive. I wasn't looking to have this 
letter misdirected or get to him late. I think the letter 
reflects the fact that I wanted him involved in the process.
    Mr. Barr. Thank you. Now the Chair recognizes the 
gentlelady from the District of Columbia, Ms. Eleanor Holmes 
Norton, for 5 minutes.
    Ms. Norton. Thank you, Mr. Chairman. I have a couple of 
questions. One may seem marginal to this proceeding, but it is 
not as far as I'm concerned. It's about an impression that may 
be left from the way this matter is being discussed here and in 
the press.
    First, let me say that we have a question of whether or 
not, and it's been raised here before, we have the notion that 
we best be leery of prejudgment. Prejudgment, I suppose, is as 
faulty as bad judgment even though the facts in this case do 
lend themselves to prejudgment, I must say.
    I do want to compliment the President of the United States 
for the way in which he has left the pardon power free from 
criticism from the top. Because what I'm going to ask about has 
to do with the pardon power and how we are perhaps educating 
the public about that power. I approach this as a 
constitutional lawyer and former civil liberties lawyer and 
must say I'm weary of actions or impressions cast out on 
important powers or, for that matter, rights.
    Here I see a huge problem. If this committee has anything 
to say to future Presidents, it probably is a word about the 
transparency of the process by making it a truly adversarial 
process. I make everything in my office an adversarial process. 
If a staff member comes, I want to hear what the other side is. 
It's the only way to save yourself from getting in trouble.
    The President has said something about the time pressure at 
the end. I'm sure there were a lot. Mrs. Mink said she called 
with--she had some matters that she wanted considered for 
pardon. I had one that I called at the last minute on. I wanted 
the President to pardon seven Washingtonians who stood up 
during the D.C. appropriation process and are being retried for 
saying ``Free D.C.'' because this Congress insists upon looking 
at the budget passed in the District of Columbia, which has 
nothing to do with any Member of this body. And I wanted him to 
consider pardoning those folks. So, at the last minute, I'm 
sure there was a rush of pardons.
    Mr. Auerbach. You hired the wrong lawyer.
    Ms. Norton. No. I think that there were probably weightier 
matters, and I'm not sure this was one of them.
    My concern is whether or not it is the position of anybody 
here that a fugitive should never be pardoned. Now, we know 
that whenever anyone commits a crime and the police search for 
them, we all say turn yourself in. I would always say that. I 
can think of very few instances when that would not be said. 
And in fact, routinely, people do turn themselves in. Even for 
the most terrible crimes, they turn themselves in so that they 
can be judged one way or the other rather than go on the lam. 
Of course, most people can't go on the lam the way Mr. Rich 
did.
    But I am concerned, as a person who has lived with American 
justice and, of course, studied the history of American justice 
over hundreds of years, there would never be a--that we leave 
the impression that it would never be appropriate for the 
President to pardon a fugitive. I'm concerned about that as a 
Black person. I'm concerned about that, frankly, having seen 
the awesome power of the prosecutor, and I do not believe that 
prosecutorial power can never be abused or that it can always 
be corrected. In fact, I consider prosecutorial power the most 
awesome power any individual can hold. It is more awesome than 
the power of the President of the United States, as he, 
himself, learned.
    In your discretion is the authority to chart essentially 
the path of another person's life, one way or the other, by 
saying this or that. And of course, if you are--if you do 
justice, as the prosecutor is supposed to do, then, of course 
there's nothing to worry about. I don't think the zillions of 
prosecutors in every part of the United States can always be 
counted upon to do that.
    So I just want to know if it's a position of anybody 
sitting at the table that it is never--it is never appropriate 
to pardon a fugitive.
    Mr. Weinberg. Well, I would never say never, because I know 
of one other case, and it involves somebody that you know was 
a--who avoided the draft, you know, during that--during the 
controversial Vietnam War. And I think the pardon in that case 
was appropriate. So I wouldn't say never.
    What I would say is that it's inconceivable to me that any 
President would have ever considered the pardon in this case, 
particularly of someone who had all the resources to defend 
himself, had the best lawyers in the country, who renounced his 
citizenship, and who didn't come back and answer these charges, 
who had his companies plead guilty. And one of the documents 
that Mr. Quinn didn't give the President was the guilty plea 
allocution when the lawyers for the Marc Rich Co. stood up in 
1984.
    Ms. Norton. Look, my question went simply to correcting the 
possible impression. I am not suggesting by any means that this 
was an appropriate case for pardon. I do know that people look 
at these hearings. I also know that people look at these 
televised court proceedings and that these proceedings are on 
``Dateline NBC'' and ``60 Minutes,'' and that all the time we 
hear of cases where there have been extraordinarily overzealous 
prosecutors. And the end of the story is that some poor person 
was subjected to prosecution and went through due process. And 
anybody looking at that ``Dateline NBC'' or anybody looking at 
that ``60 Minutes'' would have thought that was a case of 
overzealous prosecutorial authority.
    So I'm certainly not talking about this case. I am telling 
you you are educating the American public about what a 
President can do or even should do, and I just want that to be 
on the record.
    Now I have another question.
    Mr. Burton [presiding]. The gentlelady's time has expired 
about a minute and a half over. But we'll get back to you.
    Ms. Norton. Thank you, Mr. Chairman.
    Mr. Burton. Would you like to respond?
    Mr. Auerbach. Over the course of years as a defense lawyer, 
I myself have encountered overzealous prosecutors. I don't 
believe we were that at all. And I believe that since I left 
the U.S. Attorney's Office in 1987, there have been 13 years of 
other prosecutors who have had the opportunity to reflect on 
this case. And Mr. Rich and Mr. Green, each time they 
approached the office and I had the opportunity to provide 
input, were never talking about arranging to come back and 
avail themselves of the judicial process. They were talking 
about getting a free pass, and we never said to them you have 
to come back and go to jail. We said simply you have to come 
back and face the charges.
    And so whether it is ever appropriate for a President to 
consider pardoning a fugitive, I think in a case in which the 
fugitive is given an opportunity to negotiate, as tab F to the 
pardon application reflects, it is a letter to Mr. Urgenson 
from the Justice Department, they were amenable to talking 
about the terms under which Marc Rich and Pinkie Green could 
come back to the United States to face charges, to avail 
themselves of the judicial system, to make all the arguments 
that were made to the President. And that is the problem with 
this case. They chose not to do that.
    Mr. Weinberg. One sentence. In response to your specific 
question, Congresswoman, I don't, and I don't think anybody on 
this panel believes that we should entertain or consider in any 
way limiting the power of the President to pardon anyone. I 
mean, that is the ultimate act of mercy that was left to the 
President by the founders. And I don't think any--this 
committee or any of us should tamper with it. We are only here 
commenting on what we believe was an ill-considered exercise of 
that pardon power in this particular case.
    Mr. Burton. Thank you, Mr. Weinberg. Do you have a real 
brief comment, Mr. Quinn?
    Mr. Quinn. Thank you, Mr. Chairman. It's the position of my 
client that he remained outside the United States because what 
Mr. Weinberg earlier described to you as, in essence, a simple 
tax evasion case was also made into a RICO case. And he may 
choose to say it was only one count in the indictment, but it 
was the sledgehammer that brought about the current impasse.
    Mr. Burton. Mr. Shays.
    Mr. Shays. Thank you. Mr. Quinn, as I've watched you, you 
tried to put a good face on this pardon application. But as I 
look at this application and as I listen to your testimony, 
everything about it seems sleazy. You have a fugitive from 
justice, and that is clear he was a fugitive from justice. I 
think Mr. LaTourette nailed that one pretty good.
    It's clear he traded with the enemy. But your point is 
somehow it's not illegal. But it's clear to us that Mr. Rich 
traded with Libya when we had the embargo. He traded with Iran 
when we had the U.S. hostages being held captive. He traded 
during the 12 years with Iraqi--with Iraq when we had our 
conflict. He traded grain with the Soviet Union when we had an 
embargo. He traded with South Africa with the apartheid 
government when we had that embargo. He traded with Cuba. And 
it's likely that assets were held in the process. So he's a 
fugitive from justice who basically traded with the enemy.
    Now we've had some portray you as just a lawyer doing your 
job, and I need to understand why I should think of you as just 
a lawyer. When President Clinton took office, he said, if you 
work for the White House, you don't lobby the White House for 5 
years. You were the lawyer who had the contact with this 
President to get him to do something in my judgment that is 
unexplainable.
    So what I want to know is why should I view you as just a 
lawyer doing your job when you were counsel to the President 
and you were hired specifically because you had his ear?
    Mr. Quinn. I was hired initially to deal with the 
Department of Justice, not with the President. That's my 
understanding of why I was brought into this matter, and I 
operated there to try to bring about a resolution of this.
    You and I see this very differently. I accept that. But I 
think the job I did was professional. It addressed the 
indictment. It didn't address the other matters you've raised, 
which were not the subject of the indictment.
    Mr. Shays. But you also served the President of the United 
States. Don't you have some loyalty to the President; and if 
not to this President, to the Office of President? I mean, you 
were advocating that basically someone be given a pardon who 
was a fugitive who traded with the enemy, and you said that 
wasn't of concern to you. Then I asked should it be of concern 
to the President? And then you said probably. Didn't you have 
some obligation to at least inform him that there were these 
accusations?
    Mr. Quinn. Mr. Shays, when I got into this case, I came to 
believe, as I believe today, the indictment was flawed. I came 
to believe much later that was a reasonable basis upon which to 
request a pardon. You don't see it that way.
    Mr. Shays. I think legally----
    Mr. Quinn. I accept that.
    Mr. Shays. Legally as a lawyer you could justify it. But 
you weren't just a lawyer. You were the President's former 
counsel who I think he held you in some trust. For instance, 
more misleading things in your application. I have a university 
president in my district who has contacted us to say his letter 
thanking Mr. Rich for a $25,000 contribution was in no way 
related to a pardon. He was doing the pro forma thing. And we 
know others did the same thing. That was misleading. You were 
trying to present this man as a man of character. But in 
response to my questions about his character, in fact your 
entire application is about character, all four corners deals 
with character. And yet when it comes to trading with the 
enemy, you don't want to talk about character.
    Mr. Quinn. Mr. Shays, I presented the facts as I saw them, 
the legal arguments that I thought justified this pardon. I 
encouraged the White House to seek the views of the Department 
of Justice. I started doing that long before January 19th. I 
did not try to keep the White House or the President from 
obtaining information----
    Mr. Shays. But you tried to mislead----
    Mr. Quinn. I did not.
    Mr. Shays [continuing]. Because you missed----
    Mr. Quinn. No, sir, I did not.
    Mr. Shays. The way you tried to mislead is you suggested he 
wasn't a fugitive when he was. You suggested that it wasn't 
illegal trade, but it was illegal trade. You're just trying to 
say that somehow he wasn't an American, but he was. And so as 
an American, he traded illegally with these countries. That's 
misleading.
    Mr. Quinn. It might be misleading----
    Mr. Shays. It's misleading.
    Mr. Quinn [continuing]. If you were correct about the 
underlying legal argument. But I see it a different way. And I 
don't frankly think it's fair to attack my character when I--
when what I did was act as an advocate on the basis of a good 
faith belief I had. You may not agree with me. I understand you 
agree with me about none of that. But I acted professionally 
and honorably and ethically.
    Mr. Shays. The president in our university in our district 
doesn't think you acted professionally because he thinks you 
misused his letter to give the impression that he was 
supporting his character.
    Mr. Burton. The gentleman's time has expired.
    Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Mr. Quinn, you in an answer earlier, I think it was to one 
of Mr. Shays questions, you started to say that you--now 
correct me if I'm wrong--you learned--one of the ways you 
learned about this case was from Mr. Cheney. Do you remember 
that?
    Mr. Quinn. No, no, no. No, sir.
    Mr. Cummings. What did you say?
    Mr. Quinn. I mentioned a number of lawyers who, when I was 
initially approached about coming into the case, had educated 
me about the background and the legal arguments. One of them 
happens to be Vice President Cheney's chief of staff, but his 
name is Mr. Libby.
    Mr. Cummings. OK. And what part did he play in informing 
you about the case?
    Mr. Quinn. A major role. He was one of a number of lawyers, 
the other being Mike Green and Larry Urgenson and Bob Fink who 
had worked on the case, as I understood it, for at least a 
decade, perhaps longer, and with whom I spent a great deal of 
time having them walk through all of the particulars of the 
indictment and educate me about their responses to it.
    Mr. Cummings. And the gentleman knows--he's presently Vice 
President Cheney's chief of staff?
    Mr. Quinn. Yes, sir.
    Mr. Cummings. So did he agree with your opinion that these 
charges were of such a nature that perhaps he--Mr. Rich should 
be pardoned, or did you ever get there?
    Mr. Quinn. No. It wouldn't be fair for me to bring him that 
far along, because he was not part--he had gone into the 
government at that point. What I can say, I believe, is that he 
agreed that the indictment was flawed and that the charges 
didn't have merit.
    Mr. Cummings. Now, when you initially came up and you gave 
your opening statement, you talked about representing your 
clients to the best of your ability based upon the oath that 
you took. We all as lawyers take similar oaths in various 
States. And one of the things I think that we all try to do, 
and I was a defense counsel for about 18 years, is that we 
believe in fairness. And I'm just wondering, when I look at 
the--listen to the testimony of Mr. Auerbach and Mr. Weinberg, 
for them not to be able to present their side of the case, I 
mean do you think that's fair? I mean, it sounds like they were 
probably the two individuals who were most familiar with the 
case, I mean from the prosecutorial side, that is.
    Mr. Quinn. Well,----
    Mr. Cummings. And I'm not saying it was your duty to bring 
them in. I'm just asking, do you think that's fair for a 
President to make a determination when these gentlemen had 
worked years with regard to this matter?
    Mr. Quinn. I don't think, sir, it's really for us to decide 
whether it's these gentlemen or somebody else in the 
prosecutor's office. I encouraged the White House to seek the 
views of the Department of Justice. I encouraged those 
specifically to speak to the official of the Department of 
Justice who's responsible for liaison with the White House on 
pardons. And I think that was what in fairness I needed to do. 
As to who in the chain of command after that might be brought 
into the process I think is not for me to decide.
    Mr. Cummings. I see. One of the things that concerns me 
about this pardon is that I think anybody who is sitting in 
this audience or anybody who is watching this at home, you 
know, when the little guy, when the Department of Justice comes 
after the little guy, the guys that I used to represent, they 
tear their lives apart, I mean rip them apart. They can't 
afford the Mr. diGenovas, the great lawyers, as he is and 
others. They do the best they can. They spend all of their 
money. Their reputations are tarnished. Even if they're found 
not guilty, friends are brought in, FBI goes into their homes, 
subpoenas are issued.
    And when people look at Mr. Rich and others who apparently 
goes off to another country, they've got the money to do so, 
and it appears as if they're evading the process. The little 
guys that I represent and the women, you know, they really have 
a problem with that, because they sit here and they say, wait a 
minute, you know, I'm sitting in jail for 20 years. And it does 
not even compare. I mean, I may have done one-millionth of what 
was allegedly done here, but I'm sitting in jail. And I didn't 
have the money to go off somewhere else. I didn't have the 
money to do that. I didn't have the money to hire the big time 
lawyers. So it does concern me.
    And President Bush a few--a week or so ago when he met with 
the Congressional Black Caucus said something that I will never 
forget. He said he is concerned about the idea that a lot of 
people, and he was particularly talking about African American 
people, believe that there are two systems of justice. And he--
it troubled him that in this American system that he believes 
in and he supports, that he knows that there are people who 
really believe in that.
    Then when you see something like this happen, don't get me 
wrong, I understand the President has the right to pardon 
whoever he wants to pardon, I understand that, but it does 
concern me that we have a situation with folks who will go 
outside the country and then are able to basically, for all 
intents and purposes, evade the system.
    And it's one thing to go to trial. It's one thing to stay 
here and face the music. It's one thing to be found not guilty. 
It's a whole other thing, in my opinion, when somebody, because 
they have the money, can go outside the country and evade the 
system. I tell you it really concerns me because my 
constituents have a major problem with that, and I do, too.
    Mr. Burton. The gentleman's time has expired. It's a 
powerful statement there, Mr. Cummings.
    Mr. Horn.
    Mr. Horn. Thank you, Mr. Chairman.
    Mr. Quinn, I believe you recognize these incidents, but you 
sort of flip-flopped on the citizenship issue of Mr. Rich. You 
said on NBC's Meet the Press that the client was a citizen, and 
later you said to the Wall Street Journal that he was mistaken. 
And then you referred the questions about the matter to Robert 
Fink. Just what is it? What is he? Is he Bolivian? Is he 
Spanish? Is he a citizen of the United States? He's been all 
three, apparently.
    Mr. Quinn. I did misspeak when I was on Meet the Press. Not 
purposefully, inadvertently. And upon finding out that I had 
misspoken, I promptly faxed a letter to Mr. Russert letting him 
know that I had misspoken.
    The pardon application itself is accurate as to his 
citizenship. I misspoke because at some point in the early days 
of being involved in this matter, I had heard discussion about 
the effort to renounce his citizenship and the position on the 
part of the U.S. State Department that in fact the renunciation 
was, in the Department's view, ineffective and that it regards 
him as a U.S. citizen.
    I misspoke because, again, this was not among the elements 
of the indictment that I was assisting in trying to resolve. 
And I frankly just didn't have the facts straight when I was on 
Meet the Press, and I apologized for that.
    I understand--nor, by the way, have I been engaged by Mr. 
Rich or anyone else on this aspect of his legal affairs. So I 
wasn't working for him on this citizenship issue before, and 
I'm not working for him on this issue now.
    Mr. Horn. Well, I understand that the pardon application 
has his citizenship status listed as Spanish and Israeli.
    Mr. Quinn. That's correct, sir.
    Mr. Horn. And was that your doing?
    Mr. Quinn. Well, yes. And that was his position.
    Mr. Horn. In other words, it wasn't Mr. Behan's or Mr. 
Fink's. I take it, you did that.
    Mr. Quinn. No, I can't say that. I mean, who drafted that 
particular part of it?
    Mr. Horn. Yeah.
    Mr. Quinn. I did not.
    Mr. Horn. Did you do any research to determine whether that 
information was accurate and complete?
    Mr. Quinn. Well, I never thought I had to do research 
because it was my understanding that was how he regarded 
himself.
    Mr. Horn. Well, we've got various newspaper columns that 
says he's a citizen of Bolivia. Is that accurate?
    Mr. Quinn. Not to my knowledge. But, again, I'm not engaged 
to represent him in connection with citizenship issues. And I 
don't want to mislead you. I don't understand that to be the 
case. But I don't have the knowledge to give you a concrete 
answer to that.
    Mr. Horn. Well, since it wasn't added on the pardon and it 
was only the Spanish and Israelis, but Bolivia was left off----
    Mr. Quinn. Right.
    Mr. Horn [continuing]. I would have my feelings hurt if I 
was a Bolivian.
    Mr. Quinn. All I can tell you is that the information 
provided to me did not include anything about Bolivia.
    Mr. Horn. Did you make the President aware that Mr. Rich 
had renounced his U.S. citizenship?
    Mr. Quinn. I did not.
    Mr. Horn. Don't you think you should have to protect him 
before he decides do I give this man a pardon or don't I?
    Mr. Quinn. Again, I didn't--I understand that, from the 
point of view of appearances, we all might agree that is an 
element that has helped inflame the reaction to this pardon. I 
was focused on the indictment against these men and what I 
thought to be the shortcomings in that indictment. So I did not 
focus on that chapter of his life, and I did not bring it to 
anyone's attention.
    Mr. Horn. You've said Mr. Rich isn't a fugitive, and you 
also say he renounced his citizenship, I believe. So why would 
he have been obtaining other citizenships and renouncing his 
U.S. citizenship unless he were running from the indictment?
    Mr. Quinn. Congressman, and I'm not trying to be evasive 
here, I have not been engaged on these issues. I was focused on 
the indictment, the charges in it, and the responses that our 
legal team had to those charges. I have not been engaged by him 
to work on citizenship issues, and I feel uncomfortable making 
representations to you that I can't be certain of.
    Mr. Horn. Mr. Auerbach, do you believe attempting to 
renounce one's citizenship should be relevant to considering a 
pardon application?
    Mr. Auerbach. I certainly do, Congressman. One of the 
things that concerns me, and I have great regard for Mr. Quinn, 
but I have the impression with respect to a related issue, the 
issue of fugitivity that Beth Nolan raised, the concern that 
Mr. Rich was in some sense a fugitive, and that Mr. Quinn 
explained why he was not. It was hard for me to believe that 
any of us could think that in no sense was Marc Rich a 
fugitive. So there were, I believe, time after time in this 
process important factual issues that Mr. Quinn did not advise 
the President of, and it may have been because he was himself 
unaware of the facts. But I sure wish the President had the 
facts when he made his decision.
    Mr. Horn. Mr. Weinberg, do you agree with that?
    Mr. Weinberg. I do. The reason, by the way, that he 
renounced his citizenship in 1983 and tried to become a citizen 
of Bolivia, which was the first place, was to avoid 
extradition. That was the whole point, is that he took the 
position he wasn't a citizen and therefore we couldn't 
extradite him. And the United States--and the State 
Department--it was like an Abbott and Costello thing. The State 
Department said, no, we don't recognize that. Rich and Green 
said, no, we've renounced our citizenship. That was all part of 
their effort to avoid extradition in this case.
    Mr. Horn. What would be the implication for the taxes for 
Mr. Rich?
    Mr. Weinberg. Well, I'm not----
    Mr. Burton. We'll let you answer that.
    Mr. Weinberg. I'm not here to give that kind of advice. But 
if Mr. Rich were in fact--I suppose when he heard on television 
from Mr. Quinn that he was a citizen, I'm sure it did concern 
him whether or not he had a problem over the last 20 years. I 
suspect that, without knowing it, that Mr. Quinn got a call the 
next day saying, no, I'm not a citizen because I believe that 
there are some very significant tax implications if he's been a 
citizen all these years.
    Mr. Burton. The gentleman's time has expired.
    Do you think it was the next day or 15 minutes later?
    Mr. Weinberg. I'm not sure.
    Mr. Burton. Mr. Davis.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman.
    I think it's clear to all of us who have been observing and 
listening to these hearings that Presidential power to grant 
commutation and pardons is absolute. There is no question about 
it. The President has the power to make those decisions and 
that determination, and that Congress likewise has no power to 
change, alter, or do anything except know that those decisions 
have been made.
    And so one probably would have asked why the hearing. I 
think that question has been asked. I also think that you've 
answered it, Mr. Chairman. I agree with you that the public has 
the right to know, although sometimes, out of these hearings, 
you wonder what it is that the public has actually learned. And 
that is we get a great many facts, but we also get a great many 
opinions. I mean, we get feelings. We get what people think. 
And of course we all have a right to what it is that we think 
and what it is that we feel.
    And I think that this has been very instructive, especially 
to the current President and to future Presidents that they 
could use this discussion when they get ready to make decisions 
and determinations about future pardons.
    One of the things, though, that we also get is we get 
insinuations; that is, projections and feelings that, because 
somebody did one thing, somebody else may have done something 
else. And the question of Denise Rich has been brought into the 
discussion, knowing that she made contributions to Democratic 
politics and that she has supported the Presidential Library.
    But I think it's also important to note that she is the 
former wife of Mr. Rich. And while people often part amicably, 
I would suspect that there are just as many who don't. I don't 
necessarily know an awful lot of former wives who are advocates 
for their former husbands or former husbands who are advocates 
for their former wives.
    So my question, Mr. Quinn, to you: Is there any reason for 
you to believe that there is any connection between the 
contributions that Mrs. Rich has made and the ultimate decision 
to pardon her former husband?
    Mr. Quinn. None of the conversations I had with the 
President, anyone working at the White House, or anyone in the 
Department of Justice give me any reason to believe that this 
was decided on anything other than what the President thought 
to be the merits.
    Mr. Davis of Illinois. I would also like to ask Mr. 
Weinberg and Mr. Auerbach if you have feelings about that 
question as well.
    Mr. Weinberg. I mean, I have feelings, but I obviously have 
no information. And the problem I have with all of this is that 
it's the appearance. I mean, you know Mr. Quinn's intimacy with 
the President, you know Mrs. Rich's contributions, in my 
opinion, the lack of any merit whatsoever in the application, 
the fact that he was a fugitive and renounced his citizenship. 
I was asked can I see any legitimate reason for the pardon? And 
the answer is, no, I don't. Do I know that there was anything 
illegal, any wrongdoing? No, I don't.
    I have no idea why the President did this. I just don't 
think--I disagree with Mr. Quinn. I really don't think he did 
it on the merits of the case because he chose not to apparently 
seek anything of any substance from anybody on the prosecution 
side that knew about the case.
    Mr. Auerbach. I would note that, as Congressman Cummings 
said, part of the problem here is the perception of inequality. 
And I have to believe that Denise Rich's extraordinary 
contributions and connection to the White House and Mr. Quinn's 
very special place of trust and confidence in the President's 
eyes gave Marc Rich the kind of extraordinary access to the 
White House and to the ultimate decisionmaker that virtually 
nobody else in the country and perhaps in the world could have 
achieved. And to have made a decision in a fashion which seems 
so insulated from critical facts is ultimately very troubling.
    Mr. Davis of Illinois. Thank you. That leads to my second 
question, which is simply, there has been a great deal of 
discussion about going directly to the White House or appealing 
directly to the President as opposed to submitting the petition 
through the Justice Department. Is there anything in either one 
of your minds that would be legally, morally, or ethically 
wrong with taking that approach to get the petition in front of 
the ultimate decisionmaker?
    Mr. Weinberg. From Mr. Quinn's perspective, in other words, 
the perspective of an advocate, no, I don't. And I also don't 
believe, just so the record is clear here, that, you know, 
there should be any limitation whatsoever in the pardon power. 
In other words, I don't think Congress can--I mean, it's a 
constitutional right--limit in any way that power or require 
the President to go through or require application to be done 
in a particular way.
    I just think the problem in this case is that because it 
was such a high profile case and because Mr. Rich on his face 
was so unsuited for a pardon for the reasons that the various 
Congressmen and women have set forth that, at a minimum, I 
would have thought that the President would have sought out in 
some detail information from the prosecution side as to why in 
this case this person who had chosen to thumb his nose at the 
system for such a long period of time would get the ultimate 
act of mercy.
    Mr. Burton. Go ahead.
    Mr. Auerbach. I understand that Mr. Quinn wrote the rules 
and perhaps, therefore, has special insight as to how to 
interpret what his authority was. But I think that the 
principle is that one does develop special relationships of 
trust and that one ought not to be drawing on those special 
relationships so soon after leaving that position of trust.
    Mr. Davis of Illinois. Mr. Quinn. If no answer, thank you, 
Mr. Chairman. That concludes my questions. I just say I think 
maybe these proceedings should be given to all future 
candidates who run for President, maybe the first thing they 
ought to read.
    Mr. Burton. If I might, if the gentleman will yield since 
he's out of time real quickly, one of the things we want to do 
with this hearing, as the other hearing we had on the Puerto 
Rican terrorist, is to make sure that future Presidents do 
think about all these things before they make these decisions 
because Congress will look into them.
    We have been asked by counsel for Mr. Quinn if we would 
like to take the 30 minutes now. But if we do that, we want the 
panel to return because we do have more questions for this 
panel. So unless there's objection.
    Mrs. Morella, would you like to go ahead and take your 5 
minutes? OK. We'll allow.
    Mrs. Morella. Gentleman, will you persevere for 5 minutes?
    Mr. Burton. We'll allow Mrs. Morella to take her 5 minutes, 
and then we'll take----
    Mrs. Morella. Thank you, Mr. Chairman.
    Mr. Burton. One second.
    Mrs. Morella. Yes, sir.
    Mr. Burton. I know she's anxious to get started. All I want 
to say is that we will take a 30-minute break right after this, 
and I would like for everybody to be as punctual as possible 
because we do have a lot of ground to cover.
    Mrs. Morella.
    Mrs. Morella. Thank you very much. Mr. Chairman, in 
conjunction with my responsibilities as chair of the District 
of Columbia Subcommittee, I have a series of meetings within 
this time, which is why I very much appreciate the courtesy of 
allowing me just to ask a few questions now.
    I know a lot has been covered. But I also noted, Mr. Quinn, 
that with the pardon application were a list of letters of 
support of Mr. Rich. And I--yet I notice in exhibit 97, we have 
a list of some of the--maybe exhibit 97 could be put on the 
screen. It has a list of those letters of support. And it's 
entitled ``Letters Expressing Support For the Pardon of Mr. 
Marc Rich.'' But then when information was brought to this 
committee in exhibit 98, it says ``Letters of Support For Marc 
Rich and Foundation.'' The same names are there. So I'm rather 
curious about why the change of the title, letters of support 
of the pardon versus letters of support for Marc Rich and 
Foundation.
    [Exhibits 97 and 98 follow:]

    [GRAPHIC] [TIFF OMITTED] T5593.604
    
    [GRAPHIC] [TIFF OMITTED] T5593.605
    
    Mr. Quinn. I don't know who made that change. And I accept 
responsibility for anything filed in my name. I will tell you 
that, for the most part, I was not involved in the effort to 
gather these letters. I became aware after the petition had 
been filed that some of these letters were sought simply as 
testimonials to his charitable activities and that some of the 
people from whom they were sought were not told in advance that 
these letters were going to be used from a pardon application. 
I very much regret that. And to the extent that, as a result, 
any of that was misunderstood or was misleading, I certainly 
apologize for it.
    Having said that, I do think that they are what they are 
and they are--there are a good many of them that are addressed 
to the pardons and others which are just addressed to his 
charitable activities.
    Mrs. Morella. I know initially when I read about the 
situation, I thought, my lord, you have a Prime Minister and 
you have academia, other foundations writing their letters of 
commendation actually in support. And then later on, as you've 
alluded----
    Mr. Quinn. Yes.
    Mrs. Morella [continuing]. There were articles in the paper 
that said these were simply letters of acknowledgment of 
contributions that had in fact been made. But I think my 
colleague Congressman Shays, I think, probably referred to one 
of his constituent groups, Sacred Heart Academy in Fairfield, 
CT, actually university, and the President Anthony Cernera said 
that it was the--a letter that was just a routine thank you 
written in acknowledgment.
    Mr. Quinn. Yeah.
    Mrs. Morella. So I think--maybe this is exactly what you're 
saying, it comes off as very deceptive.
    Mr. Quinn. I understand that. Again, I'm accepting 
responsibility. It's something I wish I had been aware of at 
the time. At a minimum, those letters would have been more 
accurately described. But I'm not going to make excuses. I'm 
here to both press my case, but also take responsibility for 
anything that shouldn't have happened--that happened the way it 
shouldn't have. And I accept responsibility for that.
    Mrs. Morella. We were certainly disappointed, distressed, 
felt it was very deceptive, but I appreciate your commenting on 
the fact that you would not have done this.
    Mr. Quinn. I certainly would not.
    Mrs. Morella. And you regret it happened.
    Mr. Quinn. I can assure you I did not know it before the 
fact.
    Mrs. Morella. Thank you. I'm done.
    Mr. Burton. Would the gentlelady yield since she has a few 
seconds?
    Mrs. Morella. Yes.
    Mr. Burton. Did you read the letters?
    Mr. Quinn. I can't say I read each and every one of them, 
no, sir.
    Mr. Burton. Did you read any of them?
    Mr. Quinn. Yes, certainly.
    Mr. Burton. So you knew those letters were in the 
information being sent to the President asking for pardon?
    Mr. Quinn. Oh, I knew there were letters being included. 
There was no letter that came to my attention before we filed 
it which signaled to me that it was something that we might be 
mischaracterizing it.
    Mr. Burton. Well, I mean this letter from this university 
president thanking him for the $25,000, did you read that 
letter?
    Mr. Quinn. I did not.
    Mr. Burton. You did not read that letter. Thank you. Just 1 
second.
    Mr. Quinn. By the way, since you mentioned the Prime 
Minister, the Prime Minister knew what this was about of 
course.
    Mrs. Morella. So did he write on behalf of the pardon?
    Mr. Quinn. Prime Minister Barak?
    Mrs. Morella. Barak.
    Mr. Quinn. He spoke to the President on several occasions 
about it in support of it.
    Mrs. Morella. And Mr. Rich had given significant 
contributions to a number of the foundations in Israel.
    Mr. Quinn. Yes. And it's my understanding that the Prime 
Minister believed that at least some of his charitable giving 
in Israel was constructive in the peace process.
    Mr. Burton. If the gentlelady would let me--yield to me for 
one last question.
    Mrs. Morella. Yes, I do.
    Mr. Burton. One of the things that we want to do is have 
confidence in what you say, Mr. Quinn. And it's troubling to me 
that, if you were not very thorough in looking at these 
letters, how can we have confidence in any of the other things 
that have dealt with this issue?
    Mr. Quinn. Well, I'm trying to be very careful to testify 
as to the--only those things I know about. But the questions--
--
    Mr. Burton. But you put the petition together and you sent 
it to the President.
    Mr. Quinn. But not all by myself.
    Mr. Burton. Well, I know, but you were responsible for it. 
You were the attorney that was putting it to the President. I 
mean, you sent to the President information that you didn't 
look at thoroughly, is that what you're telling us?
    Mr. Quinn. I'm not trying to leave you with that 
impression. I was focused on the legal arguments in this case. 
Frankly, the letters of support I thought were necessary and 
useful but not central to this petition. So I did not read each 
and every one.
    Mr. Burton. Well, counsel reminds us that the first 20 
pages of your petition was about the character of Mr. Rich and 
I think this was--was this a part of that? This was a part of 
that. So it seems that would have been something that you would 
have taken a good look at before you sent it to the President.
    Mr. Quinn. Right. And I certainly went over carefully the 
first 20 pages.
    Mr. Burton. OK. We will stand in recess for 30 minutes. I 
hope everyone will be back here by about 20 after 2.
    [Recess.]
    Mr. Burton. If everyone would take their seats. Things 
always seem to speed up as we get further along, so we may be 
able to conclude this by 4, 4:30 with the second panel.
    Mr. LaTourette, you are recognized for 5 minutes.
    Mr. LaTourette. Thank you, Mr. Chairman.
    Mr. Chairman, it is my understanding that Mr. Quinn is 
going to be with us on the next panel, too?
    Mr. Burton. Yes, Mr. Quinn will be on the next panel, too.
    Mr. LaTourette. It is a long day for you, I'm sorry, Mr. 
Quinn, because I want to get back to that Executive order, but 
while I still have the prosecutors here, there was a series of 
questions that I wanted to ask.
    When I was watching the--I don't know if it was the Sunday 
shows or the Tuesday shows or the all-day, all-the-time cable 
network, a point was made that we should take heart here, 
because even though that Mr. Rich wasn't going to be prosecuted 
criminally, he was still going to waive any defenses that he 
had to civil penalties.
    It reminded me a little bit of the impeachment discussion 
that was had on Capitol Hill a few years ago. You know, don't 
do the articles of impeachment because the President will face 
charges after he leaves office. And the way that I remember the 
news accounts--and maybe you can help me if I am wrong, Mr. 
Quinn--but it seemed to me there was a conversation between you 
and then-President Clinton on January 19th, if I understood 
those accounts right----
    Mr. Quinn. Yes, sir.
    Mr. LaTourette [continuing]. Where this issue was 
discussed.
    Mr. Quinn. Yes, sir.
    Mr. LaTourette. And if we go through it, you submitted your 
application. You talked to Bruce Lindsey. He was afraid they 
were fugitives. You told him that they weren't fugitives, based 
upon your understanding of what a fugitive was. And then the 
President said, well, you know what, I'm a little concerned 
they are not going to face any regulation by anybody, so can 
you fax me over something that says they will waive any statute 
of limitations difficulties relative to civil penalties. Is 
that pretty much what happened?
    Mr. Quinn. Yes, sir.
    Mr. LaTourette. So the President was at least of the 
opinion, after reading your application, that there still 
should be something. And the reason that I wanted to talk about 
this for just a few minutes is that I saw either a news 
account, either read it or saw it, that there is another 
attorney representing Mr. Rich, a fellow by the name of Mr. C. 
Michael Green. Are you familiar with Mr. Green?
    Mr. Quinn. Yes, sir.
    Mr. LaTourette. Mr. Green is quoted someplace advising the 
media saying that Mr. Rich doesn't have any civil 
responsibilities left. And I thought I understood either Mr. 
Weinberg or Mr. Auerbach or both saying that this is what we 
used to call in law enforcement a soup sandwich. There is no 
substance to the fact that there is anything he is coming back 
for.
    So, I guess I would ask you, Mr. Weinberg, if he were to 
come back is there any civil penalty that now flows as a result 
of this investigation to Mr. Rich personally?
    Mr. Weinberg. No.
    Mr. LaTourette. Were they extinguished in the course of 
that $150 million or whatever----
    Mr. Weinberg. There never were any personally. Those were 
corporate responsibilities that were extinguished when we 
received a total of $200 million at the time of this global 
resolution with the companies. That is as empty a promise as I 
have ever seen.
    Mr. LaTourette. Mr. Auerbach, do you have a different 
opinion?
    Mr. Auerbach. No, it is absolutely correct. This is a 
hollow promise.
    Mr. Quinn. May I respond?
    Mr. LaTourette. I was going to ask you next. Do you have a 
different opinion?
    Mr. Quinn. Yes, I do, and I had a different understanding 
at the time I made the commitment. I think Mr. Auerbach and Mr. 
Weinberg are referring to the tax side of the equation here. 
Let me back up a couple of steps.
    A central part of the argument for the indictment involved 
these transactions with ARCO that I described to you earlier.
    Mr. LaTourette. Right. Right.
    Mr. Quinn. And we took the position and continue to take 
the position that the basic--one of the central flaws of the 
indictment was the failure to understand the linkage between 
these domestic and foreign transactions and, indeed, the 
conclusion of the agency charged with implementing and 
overseeing the energy regulation--the price control regulations 
in question, a conclusion that was precisely contrary to that 
of the prosecutors in New York, namely that ARCO and not Rich 
had failed to properly account for the transactions. In fact, 
the Department of Energy concluded that Rich properly accounted 
for the transactions.
    Mr. LaTourette. I remember reading that. Is it your--but do 
you agree with the--C. Michael Green that Mr. Rich doesn't have 
any civil responsibilities?
    Mr. Quinn. I'm trying to get there.
    Mr. LaTourette. Go ahead.
    Mr. Quinn. In this connection, it is certainly my 
understanding that they have always maintained they never did 
anything wrong, either from the DOE point of view or an IRS 
point of view. But it was my understanding when I made that 
commitment that the Department of Energy could reopen the 
matter if it chose to. And that, for example, if they concluded 
now, contrary to their earlier conclusion, that Rich improperly 
accounted, that there could be penalties that would attach to 
that, for example, for aiding and abetting the misreporting of 
these transactions to the agency.
    So the commitment was made in good faith. I don't know what 
the outcome of that proceeding might be or whether it would 
take place.
    Mr. LaTourette. Let me say I don't have any problem with 
what you did in good faith. The question is--the President was 
concerned about whether this guy was a fugitive. No, he is not 
a fugitive. The President apparently said, even after reading 
all of this stuff, knowing he's not a fugitive, ``I would like 
him to be subject to something.'' So he got a letter saying, 
OK, if he comes back he will waive the statute of limitations.
    I guess I would go back to you gentlemen. What did the 
President get when he got that letter saying he would waive 
that statute of limitations?
    Mr. Weinberg. He got an empty promise. Because there is no 
individual civil liability for what this indictment was about 
that I am aware of, or ever was aware of. I mean, as far as the 
individuals were concerned, in my opinion it was never about 
money. It was about money as far as the corporations were 
concerned. But when Mr. Williams--when Edward Bennett Williams 
came into my office before the indictment and offered $100 
million to resolve everything and have no charges against Mr. 
Rich and Green, I told him then and I think every office told 
every other lawyer who came in for Marc Rich, that it wasn't 
about money for them.
    And that promise, like some of the other things in the 
application, just is very empty.
    Mr. LaTourette. Mr. Auerbach.
    Mr. Auerbach. Related and beyond this, the civil 
liabilities were fully extinguished. They were corporate 
liabilities. They were fully extinguished in 1984. And a number 
of times Mr. Quinn has referred to ARCO and the Department of 
Energy's treatment of ARCO.
    I would make several points. First of all, ARCO cooperated 
with our investigation. They were a cooperating witness, and 
Congress has specifically provided for different treatment for 
people who cooperate.
    Second, with respect to the excerpts that appear at tab E 
in the pardon application that are extracts from the Department 
of Energy proceedings, they refer to the fact that Marc Rich & 
Co. International accounted for transactions on their books in 
a particular way.
    One of the points we have made this morning and one of the 
points that was evident in the guilty pleas of these companies 
is what they put on the books was not the reality, and I do not 
believe that the Department of Energy ever concluded that Marc 
Rich had treated these transactions properly.
    Mr. LaTourette. Thank you. Thank you very much.
    Mr. Burton. The gentleman's time has expired.
    Mr. Lewis has not yet asked questions. Mr. Lewis.
    Mr. Lewis. Thank you, Mr. Chairman.
    Mr. Quinn, being an advocate for your client before the 
former President, as you said earlier, it isn't the same as a 
legal proceeding where arguments are made on both sides of a 
case. It is different. You know, in those instances, you have 
the prosecution make their case and the defense make their 
case.
    So do you feel that when you made your case before the 
former President, that as a friend and as a former counsel to 
the President that you owed him more information that would 
allow him to make a good decision? That wouldn't put him in the 
position of probably where he wouldn't want to be making a 
decision like that on his last day in office and to be 
remembered for that decision? Is that--do you feel like you 
maybe should have told him more now that he could have maybe 
made a better decision?
    Mr. Quinn. I do not think I failed in my responsibility to 
anyone, including to the former President. The thing I believe 
was most important in this regard was that I forthrightly, and 
on more than one occasion, urged the lawyers in the White House 
working for the former President to contact the Department of 
Justice. I think that discharged my responsibility, because I 
think if there was to have been a presentation in as much depth 
as anyone wanted that was the place it should come from.
    Mr. Lewis. Did the former President ask a lot of questions 
or did he ask for more information from you? Do you think he 
was trusting you totally for the information that he needed? 
Because evidently he did not pursue this any further with the 
Justice Department.
    Mr. Quinn. I do not believe that he relied entirely on my 
representation of the case and our arguments against it. It is 
my impression that there was a robust debate about this in the 
White House Counsel's Office. I'm not privy to----
    Mr. Lewis. Did they have more information to provide the 
President than what the Justice Department would have?
    Mr. Quinn. I don't know, sir. But I do believe that the 
application was discussed with some thoroughness. I am not 
privy to those conversations, and so I don't know the precise 
nature of them. But I am as confident as I can be that the 
President did hear from people who disagreed with my 
application.
    And, again, I believe I discharged my responsibility to him 
when I urged the White House counsel to contact the Department 
of Justice and when, at the same time, I made efforts to alert 
the Department of Justice that this matter was being considered 
and, again, in the hope that I would get some constructive 
involvement, positive involvement on their part.
    But with both the White House lawyers and the Department of 
Justice, I was pushing them to be engaged in this process.
    Mr. Lewis. Do you think the President--and I'm asking you 
to make a judgment here--have you talked to the President since 
that pardon and how--does he feel like he's made a mistake now? 
That it was a wrong decision? That he shouldn't have done it 
because of the information that is out there now?
    Mr. Quinn. That is not my impression. I have spoken to him 
just once several days later. And he--the impression I got in 
that conversation was that he believed he did the right thing, 
and he was confident he did it for the right reasons. He 
thought I should be more aggressive about getting the 
particulars of the arguments we made out to the news media.
    Mr. Burton. Would the gentleman yield real briefly?
    Mr. Lewis. Sure.
    Mr. Burton. When you refer to you asking them to check with 
the Justice Department, now, the Justice Department did not 
have your documents, did they?
    Mr. Quinn. They did not have them from me, that's correct.
    Mr. Burton. Did they have them from anybody? You don't 
know?
    Mr. Quinn. No.
    Mr. Burton. But you did not give them to them.
    Mr. Quinn. That's correct.
    Mr. Burton. All you did was talk to Eric Holder.
    Mr. Quinn. That's correct.
    Mr. Lewis. Thank you, Mr. Chairman. I just want to change 
gears a little bit.
    Mr. Burton. We will let you ask one more question, since I 
interrupted you, and then we will move on.
    Mr. Lewis. OK. In an e-mail, exhibit 73, you wrote to Mr. 
Rich's other attorneys that you had a great concern that 
``We're withholding our very good and compelling petition from 
the press only to protect the tax professors who don't want to 
be that far out in front.''
    How were you protecting the tax professors?
    [Exhibit 73 follows:]

    [GRAPHIC] [TIFF OMITTED] T5593.574
    
    Mr. Quinn. Well, from what I understood from other lawyers 
involved was that the tax professors did not want to be 
besieged with media requests and so on. And as a result, there 
seemed to be some reluctance--not on the part of the professors 
but on the part of at least one other lawyer--to distribute the 
Ginsburg/Wolfman tax memo. This was frustrating, because that 
analysis was critical to the argument that we made in the 
pardon petition.
    And so in this e-mail I think you see reflected my 
frustration that we need to make sure people understand the 
analysis that Ginsburg and Wolfman went through and why it was 
so helpful to our case.
    Mr. Lewis. Did Mr. Ginsburg express any concern that making 
the tax opinion public might harm his wife's reputation?
    Mr. Quinn. No, sir, not at all. Not at all. And it's my 
understanding that both of those professors absolutely stand by 
that opinion.
    Mr. Burton. The gentleman's time has expired.
    Mr. Kanjorski.
    Mr. Kanjorski. Thank you, Mr. Chairman.
    To the prosecutors, as I gather, this process and the 
fugitive nature of Mr. Rich occurred about in 1984; is that 
correct?
    Mr. Weinberg. As I understand it, it was--he was indicted 
in September 1983, and by that time he just chose not to come 
back to the United States.
    Mr. Kanjorski. Now, he was in Switzerland?
    Mr. Weinberg. Apparently, he was in Switzerland. He was 
living in New York prior to the indictment, and he had offices 
in Switzerland and stayed in Switzerland after indictment.
    Mr. Kanjorski. Is it correct that any American citizen who 
is indicted, or may be indicted shortly, can just get on a 
plane and go to Switzerland and it will guarantee that they 
will not be able to be brought back to the United States for 
prosecution?
    Mr. Weinberg. Well, I don't think that is correct.
    Mr. Kanjorski. Well, then were there particular 
circumstances in this case why Switzerland failed to extradite?
    Mr. Weinberg. Well, first of all, we were told that he was 
one of the largest taxpayers in Switzerland.
    Second----
    Mr. Kanjorski. So money allows judicial process in 
Switzerland?
    Mr. Weinberg. Well, I believe that had a lot to do with 
what happened in 1983 and 1984, yes.
    Mr. Kanjorski. Were there attempts after 1983 and 1984 by--
that was the Reagan administration, 4 years remaining, the Bush 
administration for 4 years--did the Justice Department or 
Southern District do anything over that 8-year period?
    Mr. Weinberg. Yes.
    Mr. Kanjorski. What was the results of that?
    Mr. Weinberg. As I understand, they tried to extradite him 
from Israel, both of them, and the Israelis turned down the 
extradition request. And there were persistent attempts to 
apprehend him in various countries, apparently, as indicated by 
the marshals.
    Mr. Kanjorski. Were these taken through judicial processes 
in these various countries?
    Mr. Auerbach. The judicial process in Switzerland and 
Israel resulted in the Swiss declining to extradite. And while 
they did indicate that Mr. Rich and his company were the 
largest taxpayer in the canton in which they are located and 
one of the largest in country, they also took the position that 
these were violations, crimes that were not the subject of 
extradition.
    Mr. Kanjorski. Oh, OK. So there was a judicial vetting in a 
developed nation of the world that determined that they were 
not going to send this fugitive or former American citizen or 
what have you back to the United States for prosecution?
    Mr. Weinberg. Yes, if the process had been in England, 
Germany, a number of other countries, they would have been 
extradited. But in Switzerland and apparently Israel they were 
not.
    Mr. Auerbach. Because of the treaty that we have with those 
countries that define the crimes for which our citizens can be 
extradited.
    Mr. Kanjorski. So if you are a commodities operator and you 
fail to pay taxes in the United States and make an 
extraordinary amount of money, you can go to Switzerland and be 
quite safe?
    Mr. Auerbach. You might conclude that from the facts of 
this case.
    Mr. Kanjorski. Don't you think it's possible also that you 
might conclude, if you were looking over this petition, that 
there has been some sort of a vetting as to whether or not, as 
Mr. Quinn points out, the RICO statute was properly applied in 
a case like this and the charges that were brought against Mr. 
Rich and Mr. Green were not necessarily charges that that 
nation interpreting were fair administration of justice?
    Mr. Weinberg. No, I really don't. I think the main issue in 
Switzerland was taxes and tax offenses; and, at the time, the 
extradition treaty did not provide for extradition on tax-
related matters.
    Mr. Kanjorski. That nation has been known to change its 
rules and laws when pressured to do so, has it not?
    Mr. Auerbach. It has, and it has certainly become amenable 
to providing assistance to the United States in areas like 
money laundering.
    Mr. Kanjorski. We went through a process in this country 
about 3 or 4 years ago with the Holocaust victims, particularly 
with Switzerland, and hammered them into coming up with a 
considerable amount of money. It is either $3 or $4 billion in 
funds. Did anyone, the State Department or anyone else, 
particularly the Southern District of New York Attorney's 
Office, did they think in terms of maybe we ought to include in 
this package that if we can make them open up the secret bank 
accounts that we can make them account for 50-year-old money in 
accounts, that we could make them give back a fugitive?
    Mr. Auerbach. I think they have become amenable to return 
fugitives. And what I said before, I believe that if this case 
were brought today it would include money laundering charges 
and we might well have been able to get people like Rich and 
Green back on the basis of those charges. Unfortunately, that 
was not the law at time.
    Mr. Kanjorski. When did it become the law and when did we 
have that window of opportunity?
    Mr. Auerbach. No, I'm saying if this crime was committed 
today. If this crime were committed today. One certainly can't 
go back and rewrite the laws as they applied then.
    Mr. Weinberg. Back in 1980, we didn't have a money 
laundering statute that would have covered these offenses. We 
do now, and it is likely that we wouldn't have these same 
circumstances today because of these other available statutes 
that could have been used.
    Mr. Kanjorski. Mr. Chairman, that's all.
    Mr. Burton. The gentleman's time has expired.
    Who do we have next on our side? Mr. Platts.
    Mr. Platts. Thank you, Mr. Chairman.
    First, I want to thank all three gentlemen for appearing 
before the committee and Mr. Weinberg, Mr. Auerbach for your 
service as prosecutors in giving many years of your 
professional lives to the service of your fellow citizens. I 
thank you.
    Mr. Quinn, I also thank you for appearing here. I may 
disagree with the belief in the appropriateness of this pardon 
and that it shouldn't have been done, but I certainly respect 
your good-faith belief in the appropriateness and the merits of 
the case that you have made as an attorney on Mr. Rich's 
behalf.
    I do have a concern, though, and I want to ask your 
opinion. In your testimony, as a fellow attorney, in our duties 
to the system, to the court, to the process, you stated, 
``Whatever happened to the American judicial premise that one 
is innocent until proven guilty? Whether right or wrong, Mr. 
Rich thought he could not get a fair trial because of the 
tarnish and taint imposed by his prosecutors.''
    I guess I would first contend that every day accused 
believe that they cannot get a fair trial and they are going to 
be hung out to dry wrongly. And on the American judicial 
premise that one is innocent until proven guilty, equally 
important is that the court, either the judge or the jury, will 
be the decider of guilt or innocence.
    Are you worried that as an attorney that you have sent a 
message that where an accused and his or her attorneys in their 
hearts believe were innocent that we don't have to uphold that 
premise, that the court will decide ultimately that we can 
sidestep the court and in this case go right to the pardon 
process? That we're sending the message to anyone accused out 
there that, hey, you don't think you can get a fair trial? 
Instead of using the procedural process that we provide for 
ensuring a fair trial, instead you can sidestep the whole 
judicial process and go right to the President for a pardon? 
Isn't that a concern to you as an attorney that this is the 
message that we're sending?
    Mr. Quinn. I hope it is not the message of this. I do 
believe that this was a very unusual case that had been at an 
impasse for 18 years and that impasse----
    Mr. Shays. Could the gentleman just put the mic in front? 
I'm sorry.
    Mr. Quinn [continuing]. That impasse never would have been 
resolved in any other way. These gentlemen who serve, as I also 
respect greatly, will disagree with me again very strongly. But 
I think that both sides in this thing contributed to this 
impasse. I think that the then novel use of RICO in a situation 
like this was a sledgehammer that resulted in their failure to 
return and in the guilty pleas that came from the companies.
    I think that, in truth, there was at bottom a disagreement 
between Rich and the prosecutors about the application of the 
energy regulations and their liability under the tax laws. I 
think the case was turned into something dramatically different 
than that when the RICO charges were put in there.
    I do not think that this pardon ill-served the interest of 
justice, and I thought it was the right thing to do. I sought 
it. I would not have sought it if I thought it ill-served the 
interest of justice.
    I understand--it's abundantly clear that a good many people 
here disagree with me about that. But I believe we pursued it 
in good faith, that we pursued it in a fashion that was 
honorable and ethical and that in the end that's how it was 
decided.
    Mr. Platts. Mr. Quinn, one of the great tenets of our 
process, including our governing process, is the ability to 
agree to disagree----
    Mr. Quinn. Of course.
    Mr. Platts [continuing]. And we'll certainly have to 
disagree on the merits of what transpired. But your comment on 
the 17-year impasse, it seems to me as one not familiar as the 
three of you very much are with the whole history here, that 
while both sides may have played a role in that impasse and not 
given--that the defendant, Mr. Rich, by his company's paying of 
$21 million in contempt, which is an admission of trying to 
stonewall the judicial process, that $21 million is a pretty 
good indication of who had the biggest responsibility in the 
impasse continuing for such a long period of time.
    Mr. Quinn. Well, the information provided to me was that 
the government was seeking documents in Switzerland, the 
disclosure of which would have violated Swiss law, and that 
they were caught in something of a Hobson's Choice in this 
regard.
    Mr. Platts. I respect that's really outside--prior to your 
involvement----
    Mr. Quinn. It is prior to my involvement, but I want you to 
know that, before getting involved, I asked a good many 
questions and--including what happened in that regard. And that 
is my understanding of it as we sit here today.
    Mr. Platts. My final question, Mr. Chairman, would be there 
is nothing that would have prohibited Mr. Rich--that your 
suggestion that there was no other course but to seek a 
pardon--there was another course, and that was to actually 
stand trial and, if found guilty, despite the claim of 
innocence from all the charges, to then seek a pardon from 
whoever was in the White House. The pardon avenue was always 
available even after standing trial. So you would at least 
acknowledge that is another course that could have been pursued 
was to stand trial and then, if necessary, pursue a pardon at 
that time.
    Mr. Quinn. That's true.
    Mr. Platts. Again, Mr. Chairman, thanks for your discretion 
on the time for me and to all three of our testifiers. As I 
said, we may agree on some points with the prosecutors, and 
with Mr. Quinn respectfully disagree, but I very much 
appreciate all three of you appearing before the committee. 
Thank you.
    Mr. Burton. Mrs. Davis.
    Mrs. Jo Ann Davis of Virginia. With your permission, I 
would like to yield my time to Mr. LaTourette.
    Mr. Burton. Mr. LaTourette.
    Mr. LaTourette. I thank the gentlelady very much.
    Mr. Quinn, one of the things that amazes me and one of the 
things that probably amazed you about Washington when you were 
a White House counsel, is how fast things move in this town. 
And one of the fast things that has happened while we've been 
here today is someone has published a publication reporting on 
your testimony today and the headline is: ``Quinn says Rich 
deserved a pardon because of flawed Giuliani prosecution.''
    Now, I went to the bathroom for 5 minutes during this 
hearing. Did you ever say that today?
    Mr. Quinn. Frankly, I was thinking when we were having 
lunch, I don't think the Mayor's name has come up in this 
hearing.
    Mr. LaTourette. I don't either. And I have seen that 
reported in the press. And to me at least, since he left the 
campaign trail and decided not to run against Mrs. Clinton, he 
seems like a benign character who shows up in Giants' and 
Yankees' turtlenecks and roots for New York sports teams.
    But I want to just read to you what the reporter had to 
say. Specifically, it said that you argued today that Mayor 
Rudolph Giuliani, who was the U.S. attorney in 1983, and you 
guys are mentioned, former assistant U.S. attorneys, Martin 
Auerbach and Morris Weinberg, Jr., misused the RICO act to 
indict Rich and that's why he deserved the pardon. Did you say 
that today?
    Mr. Quinn. Well, I have certainly pointed to the use of 
RICO as dramatically ratcheting up this case and contributing 
to the impasse. And you were kind enough to point out earlier 
in connection with my being on both panels that it is a long 
day and so I will confess that there may be some things that 
have slipped by me, too. But I don't think that reference to 
the Mayor has been part of this hearing.
    Mr. LaTourette. I don't think so either. But I do want to 
turn to your January 5th letter to the President of the United 
States where you do write, and I think that's exhibit No. 89 if 
you want to follow along in our program, where you talk about 
the outrageously prejudicial and unfair treatment of him by the 
then new U.S. attorney in New York Mr. Giuliani. Is that your 
conclusion? That Mr. Rich suffered outrageously prejudicial and 
unfair treatment at the hands of Mr. Giuliani?
    [Exhibit 89 follows:]

    [GRAPHIC] [TIFF OMITTED] T5593.596
    
    Mr. Quinn. Yes, sir.
    Mr. LaTourette. Fellows, how about you? Mr. Auerbach, Mr. 
Weinberg. How do you feel about that?
    Mr. Auerbach. I'm sorry, what's the----
    Mr. LaTourette. It's not 89?
    Mr. Quinn. I'm familiar with the letter.
    Mr. LaTourette. You wrote a letter to the President on 
January 5th.
    Mr. Quinn. Yes, sir.
    Mr. LaTourette. And you remember using the words 
``outrageously prejudicial'' and ``unfair treatment by Mr. 
Giuliani''?
    Mr. Quinn. If you are reading it, I'm confident that's what 
it said.
    Mr. Weinberg. I think that the treatment must have been by 
me and not Rudy, because Rudy had very little to do with the 
case until at the end of the case when he participated in 
negotiating the guilty pleas. Actually, the investigation was 
done under John Martin. John Martin is now a Federal judge in 
the Southern District of New York.
    I just want to say that I do not believe that it is fair to 
characterize anything that we did--and I was a 31-year-old 
prosecutor then--during the investigation as unfair. The reason 
that Mr. Rich and Mr. Green really found themselves in the 
position that they found themselves in is because of the 
extraordinary things that they did during the investigation to 
obstruct it--the contempt fines, the steamer trucks, trying to 
sell the American corporation secretly that the court found was 
fraudulent. Their fugitivity. I mean, this extraordinary effort 
to avoid turning over documents. I mean, the Swiss Government, 
quote, seized some documents in Switzerland so that they 
couldn't be turned over; and then they were the safe haven for 
Mr. Rich and Mr. Green so they couldn't be extradited.
    I mean, the reason that this case attracted the attention 
that it did was not because of Sandy Weinberg. It wasn't 
because of Martin Auerbach. It certainly wasn't because of Rudy 
Giuliani who wasn't even around at the time when all of this 
publicity was going on. It was because of the extraordinary 
things--the extraordinary I would say misdeeds that took place 
during the investigation.
    Mr. LaTourette. Let me ask you this: Are you fellows 
familiar with a gentleman by the name of Robert Litt?
    Mr. Weinberg. Yes.
    Mr. Auerbach. Sure.
    Mr. LaTourette. Did Robert Litt have something to do with 
this?
    Mr. Weinberg. I will explain to you what Robert Litt had to 
do with this. Robert Litt was in the appellate section. Bob is 
a very close personal friend of mine and a partner in Mr. 
Quinn's old law firm and was in the Justice Department before 
this. Mr. Litt worked in the appellate--there were six appeals 
in this case. This person, Mr. Rich, who had these wonderful 
lawyers involved, brought six appeals during the investigation. 
We were in the Second Circuit six times. That's how 
aggressively they litigated it. And Mr. Litt and Mr. Lynch, who 
one of the letters was to in the early 1990's who is now a 
Federal judge, they were both in the appellate section and 
served honorably; and they worked on these extraordinary issues 
that we had during the investigation.
    Mr. LaTourette. And Mr. Lynch, if I understand, you are 
talk about a fellow by the name of Gerald Lynch?
    Mr. Weinberg. Yes.
    Mr. LaTourette. He's been nominated and he is now on the 
Federal bench, an appointment of President Clinton, is he not?
    Mr. Weinberg. As far as I'm concerned, he's the best lawyer 
I've ever worked with in my entire life.
    Mr. LaTourette. And Robert Litt, aside from being a partner 
of Mr. Quinn's at Porter and Arnold, he was also nominated to 
head the Criminal Division at the Justice Department during the 
time that Mr. Quinn served as counsel to the President. Does 
that sound about right?
    Mr. Weinberg. That's right.
    Mr. Quinn. May I add in response?
    Mr. LaTourette. Sure, go ahead.
    Mr. Quinn. In terms of the basis for my making the 
statement I did in the letter, I'm going to read to you three 
short clips from the Wall Street Journal.
    The first reads: It's worth taking a second look at Mr. 
Giuliani's first big RICO case. This was the much celebrated 
1984 case against Marc Rich, the wealthy oil trader. A close 
reading of these allegations shows that these also effectively 
reduced the tax charges. The core of the case is that Mr. Rich 
wrongly attributed domestic income to a foreign subsidiary. 
Again, this sounds like a standard civil tax issue, not RICO.
    Second clip, again from the Wall Street Journal, ``The 
Department of Justice should launch a complete review of all 
U.S. Attorney RICO cases, from Mr. Giuliani's first RICO 
expanding case against Marc Rich in 1984 through the current 
allegations against Chicago pit traders and Michael Milken.''
    Third, Wall Street Journal, ``The major prior RICO abuse 
was when Rudolph Giuliani, the former U.S. Attorney in 
Manhattan, in 1984 RICO'd oil trader Marc Rich essentially on 
tax grounds.''
    It goes on. I wasn't operating on the basis--in an 
information vacuum. Others have characterized the use of RICO 
in cases like this, in the words of the Wall Street Journal, as 
abusive.
    Mr. Weinberg. If I could just say one thing, take 1 second.
    Mr. LaTourette. As long as the chairman lets me go, you can 
talk as long as you want.
    Mr. Weinberg. Just so everybody understands what the 
process was. In order to bring--in order for the U.S. 
Attorney's Office to bring a RICO or a tax charge back in 1983 
when these gentlemen were indicted, it had to be approved and 
reviewed in the Justice Department. The RICO charge was 
approved by the RICO section of Justice, and the tax charge was 
approved in the Tax Division.
    Because of the process, we notified Edward Bennett Williams 
in advance of the indictment that we were considering RICO and 
obviously that we were recommending tax charges. Mr. Williams 
had an opportunity to have a review--to set forth all of his 
arguments to the Justice Department, not the U.S. Attorney's 
Office--we were beyond that--to the Justice Department both as 
to the RICO charge and as to the tax charge. Those arguments 
were considered back in 1983. And the Justice Department, which 
was--you know, this was President Reagan's administration. The 
Justice Department in 1983 specifically approved filing RICO 
charges and approved filing the tax charges.
    Mr. LaTourette. Thank you. Thank you, Mr. Chairman; and 
thank you, Mrs. Davis.
    Mr. Burton. Mr. Waxman, did you want to take some of your 
time?
    Mr. Waxman. Thank you. I'll just take this time to say that 
we have had a taste of this case. I can't say that we have dug 
into it in detail. The three of you know it in great detail, 
and it sounds to me that whenever you have some of these very 
complicated transactions, whether it was the tax evasion or tax 
avoidance, there are serious questions. The RICO issues have 
been quite controversial. You say there might be a money 
laundering charge today, but there wasn't then. I don't know 
that this committee can make a final judgment on the merits.
    The President, however, was the one who had to make some 
judgment; and he had to make a decision whether to exercise 
that unique power that a President has, which is to grant 
clemency or grant a pardon. We can disagree with his conclusion 
or question whether he had enough information to reach the 
conclusion.
    So, I know the chairman said this is worth doing to give 
some signal to all Presidents that when they make this decision 
it might be examined by a committee of Congress, but let's not 
kid ourselves. I don't know that we are going to have this 
President, President Bush's, decisions as carefully scrutinized 
as we have, in this committee, scrutinized President Clinton's.
    For example, if we are looking for things to examine, does 
anyone think that if the decision in Florida hadn't been 
reversed and that Mr. Gore was determined to be the President 
that this committee wouldn't be issuing subpoenas all over the 
place to examine what went on in Florida? But we are not 
looking at that at all, even though we know that thousands of 
people were disenfranchised in Florida and did not get their 
votes counted, maybe legitimately, maybe not.
    But that's not the topic that this committee, the majority, 
has decided to hold hearings on. This committee majority has 
decided to hold hearings on an action by President Clinton 
which many of us disagree with but which he had the 
constitutional authority to take.
    In the few minutes I have left, Mr. Quinn, Mr. Auerbach, 
Mr. Weinberg, starting with you Mr. Quinn, is there anything 
that you want to say that you haven't had a chance to say? We 
fire questions and we get this thing in a very piecemeal 
fashion. Any points that you think we ought to know about that 
you don't feel you have had a chance to make or that you want 
to elaborate on?
    Mr. Quinn. Well, to be honest with you, I think that you 
have heard from the prosecutors, why they brought the charges 
they did against Mr. Rich and others. You have heard from me, 
why we thought the indictment was flawed. You have in front of 
you the indictment. You have the legal arguments laid out in 
the petition. I don't feel I've left anything out, frankly, so, 
no, I don't think I need to embellish further the arguments we 
made.
    Mr. Weinberg. I guess the one thing that does concern me 
about all of this and about the submission, particularly that 
part of the submission that talks about how the case was 
meritless and it was a house of cards and all that stuff, and 
it just sort of dismisses everything, you know, whether it's 
RICO or the wire and mail fraud or the tax, whatever it is, 
it's all dismissed. The fact that the companies pled guilty 
that's dismissed because they had to plead guilty, according to 
Mr. Quinn, because they were extorted through all of this 
aggressive----
    Mr. Waxman. But aren't you just saying that the petition on 
behalf of Mr. Rich put the best face on everything and ignored 
the negative side?
    Mr. Weinberg. Well, I think what I'm saying is that it 
would have been, I think, fundamentally fair if we are looking 
for justice here, or the exercise of justice, if Mr. Quinn or 
somebody had pointed out to the President that, when he is told 
that the companies pled guilty and he shouldn't consider that, 
that actually when the guilty pleas took place on October 11, 
1984, in front of Federal Judge Shirley Kram, that Marc Rich's 
lawyers stood up in court and told the judge when the judge 
asked them what did these companies do wrong--and what they 
said, amongst the things they said was on page 18 of that 
transcript: ``beginning in September, 1980, International, 
which was the Marc Rich company in the United States, generated 
millions of dollars of income from crude oil transactions which 
International should have disclosed but intentionally did not 
disclose to the Internal Revenue Service and the Department of 
Energy.'' And then later in here acknowledged that false 
documents had been delivered to the Department of Energy, 
hiding those illegal domestic profits, and that the company, 
the American company, had failed to report millions of dollars 
of taxable income that they did not pay taxes on.
    And so to come in here 18 years later and say that the case 
was a sham, the case was meritless, is to say that Peter 
Fleming, one of the most distinguished lawyers in New York City 
and the country, and Peter Zimroth, one of the most 
distinguished lawyers in New York, when they stood up in front 
of a Federal judge and said those things, having been 
authorized by their clients in Switzerland to say those things, 
they were just not telling the truth. And that's just not 
right. It's not fair.
    Mr. Waxman. My time is up. But could you let Mr. Quinn 
respond, and then I am sure we will have to move on.
    Mr. Quinn. Yes, and we have heard that now twice. And 
that's an accurate representation of what happened. It is also 
the position of my clients that this RICO sledgehammer, which 
would have destroyed this company, caused them to enter into a 
plea bargain on behalf of the company with the prosecutors.
    As I stated earlier in my testimony, I'm not the only one 
who was of that view. I was one of a long line of respected 
attorneys as well thought of as Mr. Fleming, who shared my view 
about this; and we discussed earlier who some of those people 
are.
    Mr. Waxman. Let me just say, Mr. Chairman, just in 
conclusion, when Democrats have raised the issue about Florida, 
we have been told to get over it, stop whining. Well, it just 
seems to me if the approach is that the election is over, what 
is done is done, then it is hard for me to understand the 
rationale to continue to investigate Bill Clinton if there is 
no illegality in the Rich pardon. And it seems very close to a 
double standard and somewhat partisan that we spend our time 
looking for things about Bill Clinton to criticize and pay no 
heed to concerns that people have on other issues like the 
denial of participation in the electoral process by so many 
people in Florida and throughout the country, particularly 
those who are minorities and seniors who did not have their 
votes counted.
    Thank you, Mr. Chairman.
    Mr. Burton. Let me just conclude with this panel that if 
the RICO charges were so frivolous then why didn't they stand 
trial? Were they afraid they would be convicted? And I think 
the case needs to be made that if they thought they had a 
meritorious defense and they had the best lawyer in the country 
and they thought they could win the case, why did they renounce 
their citizenship and try to sneak documents out of the 
country, flee the country and have been gone 17 years? Why 
didn't they stand trial?
    Did they think that our judicial system is so corrupt that 
they would have been convicted and put in jail on charges that 
were not meritorious? Why didn't they stand trial? They had the 
best lawyers in the country.
    Mr. Quinn. Look, Mr. Chairman, what I think is the honest 
answer to that is that they were not willing to expose 
themselves to 300 years in jail over what they thought was a 
tax and energy dispute.
    Mr. Burton. So they thought they might be convicted? So 
they thought they might be convicted?
    Mr. Quinn. Of course they must have.
    Mr. Burton. Why did they think they might be convicted?
    Mr. Quinn. I think they thought that they were going to be 
exposed to 300 years in jail for something they didn't do.
    Mr. Burton. Well, but the point is, if you're innocent, we 
have a very fair system of justice in this country where the 
laws apply equally to everybody. According to the prosecuting 
attorneys, the people who are bringing this case, they had 
separate sets of books. They had a pot they called it, a pot 
where they stuck their devious moneys so that the IRS and the 
government of this country could not find them. And when all of 
this was uncovered they tried to smuggle the documents out of 
the country. They left the country. They became fugitives. They 
changed their citizenship and ran all over the world.
    At one point we know that U.S. Marshals were on their tail, 
and they were in a jet plane, and they got messages from 
someone in the United States that the U.S. Marshall was in a 
plane trailing them, and they turned around and went back to 
Switzerland. That doesn't sound like people who really feel 
that the justice system in this country works. There must have 
been something more to it.
    Mr. Quinn. Well, Mr. Burton--Mr. Chairman, let me respond 
to it as much of that as I can, very briefly. I wasn't involved 
with them 17 years ago. I hope I can tell you honestly I would 
never, ever encourage a client to flee the jurisdiction. I know 
I can tell you with complete sincerity I would never condone or 
encourage the renunciation of one's American citizenship.
    With regard to this alleged pot of money, this goes to the 
moneys that were part of the Department of Energy analysis of 
these transactions. And, again, another agency of the Federal 
Government concluded that Rich and not ARCO had correctly 
accounted for these transactions.
    I was dealing with the four corners of the indictment in 
front of me. I couldn't rewrite their history, sir.
    Mr. Burton. Let me just--I won't make any more points about 
this. I think we have covered it thoroughly. If Mr. Weinberg or 
Mr. Auerbach want to conclude, we will conclude this panel.
    Mr. Auerbach. I will just try to respond to what 
Congressman Waxman said and what other people on the committee 
have said today, which is that there seems to be a fairly 
widespread view that, at a minimum, the President made a 
mistake when he granted this pardon. And I would say at this 
point one of the things that this committee could do is look to 
the future and look to Mr. Rich and Mr. Green's future, and I 
hope that in your government oversight role you will ensure 
that the appropriate government agency do everything within 
their power to not compound this mistake.
    Mr. Burton. Mr. Weinberg, anything else?
    Mr. Weinberg. I just appreciate the opportunity of having 
appeared here today, and I agree with much of what 
Representative Waxman has said. I'm also a Florida citizen. I'm 
not sure if my vote counted or not. But I appreciate, Chairman 
Burton, you looking at this. Because I think that, from my 
perspective as the prosecutor but as a defense lawyer as well 
since then, that the system of justice has really been done a 
disservice in this case.
    That to reward two individuals who, in my opinion, thumbed 
their noses at the system from day 1, who committed, I believe, 
one of the biggest tax frauds in the history of the United 
States, who did everything they could to obstruct our 
investigation, whether it was not turning over documents or 
trying to smuggle documents out of the country or trying to 
spirit assets away from the court so that they couldn't enforce 
the fines, who then chose to do what no--basically, no other 
citizens in this country can do and that is find a safe haven. 
And from a distance for 17 years, you know, try to put their 
defense on through a series of lawyers like Mr. Quinn who, 
without anybody on the other side, say that this case had no 
merit.
    For people to be allowed to do that, renunciate their 
citizenship. Whether there is some technical defense or not, 
which I do not believe that there is, to trade with enemies of 
the United States while they were American citizens for sure, 
because that is what was charged in this case, and whatever 
they have done since, to reward people like that with the 
ultimate act of mercy is an outrage.
    And I as the prosecutor, I as a defense lawyer, I as a 
Democrat, a lifelong Democrat, I can't find another word for 
it. I'm outraged by it.
    I agree with Mr. Waxman. If there is no criminality--and 
I'm not sure that this committee can make that determination 
today--if there is no criminality, there is nothing you can do 
about it because it is an absolute power. But it is an outrage, 
and it should be--and I'm proud to be here today to say that it 
is an outrage, and I do not believe that Mr. Clinton was given 
the full and complete story, because I happen to believe that 
he is way too intelligent and smart to believe that it was 
appropriate to pardon two people that did not fit one criteria 
for pardons.
    Mr. Burton. Thank you very much, Mr. Weinberg and Mr. 
Auerbach.
    Mr. Quinn, we will ask you to stay for the next panel.
    And we will ask Mr. Holder--is Mr. Holder here?
    Mr. Quinn. Mr. Chairman, would it be reasonable to ask if 
we could take 5 minutes between panels?
    Mr. Burton. Sure, we want to make sure you can do whatever 
needs to be done in 5 minutes. We will wait for you. We will 
stand in recess for 5 minutes.
    [Recess.]
    Mr. Burton. The committee will come to order.
    Mr. Quinn has already been sworn.
    So, Mr. Holder, would you please stand and raise your right 
hand?
    [Witness sworn.]
    Mr. Burton. Mr. Holder, do you have an opening statement 
you would like to make?
    Mr. Holder. Yes, I do, Mr. Chairman.
    Mr. Burton. All right. Proceed.

STATEMENT OF ERIC HOLDER, FORMER DEPUTY ATTORNEY GENERAL, U.S. 
                     DEPARTMENT OF JUSTICE

    Mr. Holder. Mr. Chairman, and Congressman Waxman, members 
of the committee, I'm happy, though not as happy as I would 
have been at 10 o'clock, to have the opportunity to come before 
you today to discuss the Justice Department's role in the 
pardon of Marc Rich.
    Now, at the outset, I want to emphasize one thing: The 
career people in the Department worked very hard to process all 
of the pardon requests that came to them in the waning days and 
hours of the Clinton administration. They are not to be faulted 
in this matter. As for my own role, although I always acted 
consistent with my duties and responsibilities as Deputy 
Attorney General, in hindsight I wish I had done some things 
differently with regard to the Marc Rich matter. Specifically, 
I wish that I had ensured that the Department of Justice was 
more fully informed and involved in this pardon process.
    But let me be very clear, let me be very clear about one 
important fact. Efforts to portray me as intimately involved or 
overly interested in this matter are simply at odds with the 
facts. In truth, because the Marc Rich case did not stand out 
as one that was particularly meritorious, and because there was 
a very large number of cases across my desk that similarly fit 
into this category, I never devoted a great deal of time to 
this matter, and it does not now stick in my memory. By 
contrast, I did spend time monitoring cases, especially in 
those last days, involving people who were requesting 
commutations of disproportionately long drug sentences.
    I would like to briefly go through a chronology of the 
relevant events so as to explain the Department's involvement 
in this matter. I think my first contact with the Rich case in 
late 1999 when Jack Quinn, the former White House counsel, 
called me and asked me to facilitate a meeting with the 
prosecutors in the Southern District of New York concerning the 
client of his named Marc Rich.
    Mr. Burton. Do you have copies of your statement, some 
members of the committee--do we have copies? Can you hand those 
out? I'm sorry to interrupt you. Proceed. Thank you.
    Mr. Holder. This was not an unusual request. Over the 
years, other prominent members of the bar and former 
colleagues, Republicans and Democrats, had asked me to arrange 
similar meetings with other offices around the country. Mr. 
Rich's name was unfamiliar to me. I believe that Mr. Quinn 
explained that he wanted the U.S. Attorney's Office to drop 
charges that had been lodged against his client because of 
changes in the applicable law and Department policy.
    I asked a senior career person on my staff to look into the 
matter, and ultimately the prosecutors in the U.S. Attorney's 
Office declined to meet with Mr. Quinn. Neither I nor anyone on 
my staff ever pressed the prosecutors to have a meeting.
    We simply deferred to them because it was their case. In 
candor, if I were making the decision as the U.S. attorney, I 
probably would have held a meeting. In my view, the 
government--and the cause of justice--often gains from hearing 
about the flaws, real or imagined, cited by defense counsel in 
a criminal case. But my only goal was to ensure that the 
request for a meeting was fully considered.
    Consequently, I gained only a passing familiarity with the 
underlying facts of the Rich case, and after the prosecutors 
declined to meet with Mr. Quinn I had no reason to delve 
further into this matter.
    On November 21, 2000, members of my staff and the U.S. 
Marshals Service and I had a meeting with Mr. Quinn and a 
client of his. Though it was one of eight meetings I had on my 
schedule that day, I remember the meeting because Mr. Quinn's 
client had a good idea about using the Internet to help the 
Marshals Service dispose of properties that had come into its 
possession as a result of forfeiture actions.
    Mr. Quinn has recently stated after the meeting he told me 
he was going to file a pardon request on behalf of Mr. Rich at 
the White House. I have no memory of that conversation but do 
not question Mr. Quinn's assertion. His comment would have been 
a fairly unremarkable one, given my belief that any pardon 
petition filed with the White House ultimately would be sent to 
the Justice Department for review and consideration.
    Mr. Quinn has also recently stated that he sent a note to 
me about the Rich case on January 10th. I never received that 
note. The correct address of the Justice Department does not 
appear on the correspondence. The note ultimately surfaced on 
the desk of the pardon attorney on January 18th, less than 48 
hours before the pardon was signed by the President.
    On Friday, January 19th of this year, the last full day of 
the Clinton administration, when I was dealing with such issues 
as the death penalty, pressing personnel matters and, most 
importantly, security issues related to the next day's 
inauguration, I received a phone call from Mr. Quinn at about 
6:30. He told me that I would be getting a call from the White 
House shortly, and he asked me what my position would be on the 
pardon request for Mr. Rich.
    I told him that although I had no strong opposition based 
on his recitation of the facts, law enforcement in New York 
would strongly oppose it. I didn't use exactly those words. 
Given Mr. Rich's fugitive status, it seemed clear to me that 
the prosecutors involved would never support the request. But I 
did not reflexively oppose it because I had previously 
supported a successful pardon request for a fugitive, Preston 
King, who, in the context of a selective service case, had been 
discriminated against in the 1950's because of the color of his 
skin.
    Shortly after my conversation with Mr. Quinn, I received a 
phone call from the White House counsel, Beth Nolan, asking me 
my position. I'm not sure if it was Ms. Nolan or Mr. Quinn, I 
just really can't remember who brought to my attention that 
Prime Minister Barak had weighed in strongly on behalf of the 
pardon request, but this assertion really struck me.
    With that significant piece of new information, I 
ultimately told Ms. Nolan that I was now ``neutral, leaning 
toward favorable,'' if there were foreign policy benefits that 
would be reaped by granting the pardon.
    Even after my conversation with Ms. Nolan on the evening of 
January 19th, I did not think that the pardon request was 
likely to be granted given Mr. Rich's fugitive status. I 
continued to believe this until I actually heard that his name 
had been placed on a list of pardons to be granted by the White 
House.
    I was informed of this list around 11, perhaps midnight, on 
the night of the 19th. In retrospect, I now wished I placed as 
much focus on the Rich case as I did on other pardons involving 
people such as Derrick Curry, Dorothy Gaines and Kemba Smith, 
all of whom had received extraordinarily long drug sentences 
which, I strongly believe, were not commensurate with their 
conduct. Though I'm speculating somewhat, had I known of the 
reported meeting that night between the President and counsel 
for Mr. Rich, I might have become more active in this matter, 
even at that late date, sensing that there was a real 
possibility that the pardon request might be granted.
    On the morning of January 22nd of this year, Mr. Quinn 
called me. I returned his call some 4 or 5 hours later. He 
asked me what steps needed to be taken to ensure that his newly 
pardoned client was not detained by international law 
enforcement authorities when he traveled. We talked about how 
we get detainers removed from computers and notify Interpol of 
the pardon, and about similar things of a technical nature. At 
no time did I congratulate Mr. Quinn about his efforts. If I 
said anything to him about his having done a good job, it was 
merely a polite acknowledgment of the obvious, that he had been 
surprisingly successful in obtaining a pardon for this 
particular client.
    Now, as you can see from these facts, attempts to make the 
Justice Department, or me, the fall guys in this matter are 
rather transparent and simply not consistent with the facts.
    I, and others at the Justice Department, had nothing to 
gain or to lose by the decision in this matter; we had no 
professional, personal or financial relationship with Mr. Rich 
or anyone connected to him and, to the best of my knowledge, 
none of us ever saw the Rich pardon application. Indeed, it is 
now clear, and this is admittedly hindsight that we at the 
Justice Department, and more importantly, former President 
Clinton, the American public, and the cause of justice, would 
have been better served if the case had been handled through 
the normal channels.
    Now, I have now ended a 25-year public service career. All 
that I have from that time is the good work that I hope I have 
done, its impact on people and, I hope, a reputation for 
integrity. I have been angry, hurt, and even somewhat 
disillusioned by what has transpired over the past 2 weeks with 
regard to this pardon. But I've tried to keep foremost in my 
mind the meeting I had at my house with Derrick Curry and his 
father the week after his sentence was commuted by President 
Clinton.
    I know that my attention to that and similar cases made a 
difference in the lives of truly deserving people. Of that, I 
am proud and I am grateful. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Holder follows:]

    [GRAPHIC] [TIFF OMITTED] T5593.059
    
    [GRAPHIC] [TIFF OMITTED] T5593.060
    
    [GRAPHIC] [TIFF OMITTED] T5593.061
    
    [GRAPHIC] [TIFF OMITTED] T5593.062
    
    [GRAPHIC] [TIFF OMITTED] T5593.063
    
    Mr. Burton. Thank you, Mr. Holder.
    Did you review the entire file on Mr. Rich and his partner 
before you talked to Beth Nolan and those people at the White 
House?
    Mr. Holder. No, I had nothing to review.
    Mr. Burton. Well, then how did you--I mean, you said in 
your opening statement that you would have no objection to the 
pardon. And I may not quote you exactly but correct me if I'm 
off a little bit, you said you would have no objection if it 
would help our foreign policy interests, or words to that 
effect?
    Mr. Holder. What I said was that I was neutral but leaning 
toward. Neutral to me meant I had no opinion based on what I 
knew. I didn't have a basis to form an opinion.
    Mr. Burton. I understand. But you said you were neutral but 
were leaning toward it if it would help our foreign policy 
interests.
    Mr. Holder. If there were a foreign policy interest.
    Mr. Burton. If there was a foreign policy interest. How 
could you say that if you didn't review the file and didn't 
know all the facts pertaining to the case?
    Mr. Holder. Well, I think in saying I was neutral, which is 
consistent with what I told them before, which----
    Mr. Burton. You said you were leaning toward it as I 
recall.
    Mr. Holder. Neutral but leaning toward. Neutral meaning I 
don't have a basis to form an opinion consistent with what I 
told him before. The statement I was making, you have to take 
this in context, conversations that I had with him before I 
said that I was neutral because I didn't have a basis to make a 
determination. I have not seen anything on the pardon.
    I'm now saying that I'm neutral consistent with what I said 
before, leaning toward it if there were a foreign policy 
benefit. I could not make the determination if there were 
foreign policy benefit.
    Mr. Burton. No. No. I understand that. But when you're 
talking about pardoning an individual or individuals who have 
dealt with all of the enemies of the United States when they're 
embargoed, almost all of them, if not all of them, people who 
were dealing with Iran, when we had hostages there in violation 
of the embargo, people that were indicted and fled the country, 
I just don't see how you can make any kind of a neutral or 
positive statement or semipositive statement saying that you 
would have--you were neutral, but leaning toward it if it would 
help our foreign policy interests.
    It seems to me that it would have been logical to really 
take a look at the file and to call the people in New York who 
prosecuted the case or tried to prosecute the case before you 
made any kind of a comment to the Justice Department.
    Mr. Holder. Well, I mean you assume, as we say in the law, 
facts not in evidence. I did not have in my mind all of the 
material that you have just described. The knowledge about the 
interaction between Mr. Rich and enemies of this Nation, Iran, 
Iraq, whatever, it was not information that I had. The call 
also comes in at 6:30 or something the night before the 
requests--the night before the Clinton administration ends. And 
as I tried to indicate in my statement, there were a host of 
other things that we were dealing with on that night.
    This is not a matter that had my undivided attention I 
think at any point during the time it was being considered.
    Mr. Burton. Well, let me ask you a general question. Did 
you seek or talk to Mr. Quinn and ask for his support in any 
way to become the Attorney General if there was a Gore 
administration?
    Mr. Holder. Sure, we had those kinds of conversations.
    Mr. Burton. So you talked to Mr. Quinn about asking 
possibly for his help to become the new Attorney General under 
a Gore administration?
    Mr. Holder. We had conversations of that nature, yes.
    Mr. Burton. Do you recall, Mr. Quinn, talking to him about 
his possibly being the new Attorney General in the Gore 
administration?
    Mr. Quinn. I only recall having a conversation once, and I 
am confident that it was not in connection with this or any 
other business I was doing. Eric Holder is somebody who I have 
known for a long time, worked with, have enormous regard for 
and who has been a friend.
    Mr. Burton. Well, I understand that. But you can see why 
that question would be asked under the circumstances----
    Mr. Quinn. Sure.
    Mr. Burton [continuing]. Because of the possible connection 
between the Justice Department's nonopposition to the pardon 
and the possibility that Mr. Holder might be the next Attorney 
General.
    When did this conversation take place? Do either one of you 
recall where or when or what was said?
    Mr. Holder. I don't remember when the conversation 
occurred.
    Mr. Burton. Was it in close proximity to the time when Mr. 
Rich's pardon was being discussed?
    Mr. Quinn. No, sir. My recollection is that conversation 
took place earlier in the fall before the election, before the 
decision to seek the pardon and certainly before I discussed 
with him in late November the fact that we were going to file a 
pardon application.
    Mr. Burton. OK. Mr. Holder, my----
    Mr. Quinn. That's my recollection.
    Mr. Burton [continuing]. My counsel just said that you have 
indicated that there was more than one conversation with Mr. 
Quinn about becoming Attorney General; is that correct?
    Mr. Holder. I don't know how many conversations. I don't 
remember--I don't remember. I remember one conversation that we 
had. I don't know--nothing other than that one sticks in my 
mind. I simply don't know.
    Mr. Burton. Do you remember when that was?
    Mr. Holder. No.
    Mr. Burton. Was it near the time----
    Mr. Holder. It was clearly before the election, but I don't 
know how far.
    Mr. Burton. Were there any conversations after the 
election, before the administration left office?
    Mr. Holder. About becoming Attorney General? I didn't think 
President Bush was going to appoint me, no.
    Mr. Burton. I understand that. But there was some question 
about whether or not Mr. Bush was going to win the election all 
the way up until the----
    Mr. Holder. I see what you mean.
    Mr. Burton. Were there any conversations in that timeframe?
    Mr. Holder. I don't think so. I really don't know when that 
conversation occurred. I think it was before the election, but 
I'm not sure.
    Mr. Burton. Well, I think that's pretty important, 
because----
    Mr. Holder. It's only important if you presume something 
here that I think is not in any way supported by anything that 
is--any fact--there's any factual basis for what I think you're 
implying here.
    Mr. Burton. No. No. I understand. I'm not implying 
anything. I'm asking questions.
    Mr. Holder. I think you are.
    Mr. Burton. Well, Mr. Holder, you can think whatever you 
want, and I can think whatever I want, but the thing is you 
wanted something from Mr. Quinn. You wanted his support for 
Attorney General of the United States, and he wanted a pardon 
for Mr. Rich and his partner.
    Now, you can understand why somebody would ask a question 
about that. It's called a quid pro quo. And we don't know that 
it took place; only you and Mr. Quinn know. The fact of the 
matter is, you knew Mr. Quinn had great influence with the 
President and probably the Vice President and you knew that 
they could help you become Attorney General. So I can--I mean, 
you must understand why I would ask that kind of a question.
    Mr. Holder. That's fine, and you can ask the question. Let 
me just answer that question and make it very, very clear----
    Mr. Burton. Sure.
    Mr. Holder [continuing]. My actions in this matter were in 
no way affected by my desire to become Attorney General of the 
United States, any desires I had to influence or seek to curry 
favor with anybody. I did what I did in this case based only on 
the facts that were before me, the law as I understood it and 
consistent with my duties as Deputy Attorney General, nothing 
more than that.
    Mr. Burton. I understand. I want to say--I just want to 
make one more comment, I want to make sure we have this very 
clear. At 6:30, or approximately, the night before the pardon 
was granted when the President was leaving office, they called 
and you said that you were neutral, but you would lean in favor 
of it if it would help our foreign policy interest; is that 
correct?
    Mr. Holder. If there were foreign policy benefits that we 
would reap from the granting of the pardon, right.
    Mr. Burton. OK. I think we established that we wondered why 
you were neutral, since you didn't have all the facts before 
you. That's what I was asking a while ago.
    Mr. Holder. What I said was when--as I indicated, neutral 
meant that I did not have a basis to form an opinion. I didn't 
have a basis to say yes or no. I didn't have enough factual 
information in front of me.
    Mr. Burton. Why didn't you just say that? Why didn't you 
say I have no basis for this, Mr. President, or whoever it was, 
Beth Nolan, because I don't have the file in front of me, and 
I've been working on other things.
    Mr. Holder. What I said before was in the context--you have 
to understand I had at least one other conversation with Ms. 
Nolan about this, and what I indicated to her was that I was 
neutral because I didn't have a basis to form an opinion. And 
when I used the term neutral on the 19th, it was consistent 
with the way I used the term neutral in other conversations.
    Mr. Burton. Thank you, Mr. Holder.
    Did you have something briefly, Mr. Quinn, you would like 
to say?
    Mr. Quinn. I just want to underscore the fact that as far 
as I'm concerned, the important conversation is the one you 
were just focused on on the night of January 19th, and there 
was no doubt in anybody's mind who was going to be President of 
the United States on January 20th----
    Mr. Burton. Sure.
    Mr. Quinn [continuing]. So----
    Mr. Burton. Mr. Waxman.
    Mr. Waxman. Thank you, Mr. Chairman. I want to, first of 
all, say that I've had the occasion to meet with Mr. Holder on 
a couple of occasions and to observe his work, and he has 
certainly given very distinguished service to this country. He 
has a reputation of high integrity and honesty and 
extraordinary ability, and if anyone has any evidence of any 
wrongdoing on your part, they ought to come forward with it, 
because I don't believe it.
    As I listened to both of you, I find it amazing, these 
things do happen. Sometimes people think things are being said 
and actions are going to be taken, but they fall through the 
cracks. And Mr. Quinn thought one thing was being said, and Mr. 
Holder thought another thing was being said. And you would 
think that Mr. Quinn might have been attaching a great deal of 
weight to something that was said that really wasn't on Mr. 
Holder's mind at the time.
    Is that what I'm observing here from either of you, Mr. 
Quinn? You thought you were letting Mr. Holder know that you 
were going to be seeking a pardon and Mr. Holder didn't think 
he was so informed? Isn't that what the way----
    Mr. Quinn. I didn't hear Mr. Holder say on November 21st I 
didn't say that. I think he said that he doesn't challenge my 
saying I had that conversation with him, but that if we did 
have it, he simply didn't attach great importance to it.
    Mr. Holder. Yeah, it was for me, as I said, a rather 
unremarkable thing, assuming it was said, and I don't doubt 
what Mr. Quinn said. Given the fact that Mr. Rich was a 
fugitive and that it was only one of many things that I was 
dealing with, and also based on my assumption, I think this is 
the key, that anything that he said to the White House would 
ultimately work its way to the Justice Department.
    So that it was something that I heard, I'm sure, probably 
didn't even remember the next day.
    Mr. Waxman. So you thought the petition would get to the 
Justice Department and it never got to the Justice Department?
    Mr. Holder. It never did, no.
    Mr. Waxman. The Justice Department had no opportunity to 
comment?
    Mr. Holder. That's correct.
    Mr. Waxman. Mr. Quinn, did you know whether that was the 
case or not?
    Mr. Quinn. Whether----
    Mr. Waxman. Whether the Justice Department ever had an 
opportunity to comment on your petition filed on behalf of your 
client.
    Mr. Quinn. I believe Mr. Holder did comment on it on the 
night--I'm sorry. It's my impression that he did comment on it.
    Mr. Waxman. How did you get that impression?
    Mr. Quinn. He has so testified here today that he commented 
on the pardon application.
    Mr. Waxman. I see. But not in an official way.
    Mr. Quinn. You mean the document itself?
    Mr. Waxman. The document itself and the official process of 
having the people in the Justice Department look into the 
submissions that would go to the President, so he could look at 
all the facts of the matter.
    Mr. Quinn. Again, I did not know after filing the petition 
with the White House whether a copy went to any other agencies 
of the government. The Los Angeles Times says that 47 of those 
pardons and commutations were handled at the White House and 
not through the Justice Department. I don't know the truth or 
untruth of that assertion.
    But I did, and it remains my testimony on more than one 
occasion, urge the White House counsel to seek the views of Mr. 
Holder. I did so because it was the right and professional 
thing to do, and I was hopeful that he would in commenting not 
necessarily support the pardon, but confirm that we had reached 
an impasse with the Southern District.
    So I believed that I had--I believed that I had informed 
Mr. Holder on a timely basis that we would be filing the 
petition. I believe that I had asked the White House counsel to 
be in touch with the Department of Justice, and I certainly 
hoped that would happen before the pardon was granted.
    Mr. Waxman. Mr. Holder, you said something and I wanted a 
clarification. You had a conversation with Beth Nolan and you 
were asked about it and you said you were neutral, which meant 
in your mind that you hadn't looked at it. Is that----
    Mr. Holder. I had a conversation with her before the 
conversation on the 19th. I'm not sure exactly when the 
conversation occurred, but I do remember--I have a memory of a 
meeting. We were going over to the White House pretty 
frequently in the last 6, 8 weeks of the administration.
    It was the desire of the President to increase the number 
of pardons that were being processed by the Department, and the 
White House was not quite satisfied with the way in which the 
Department was moving these things along. So we went there 
periodically to talk about ways in which we might process more 
efficiently pardon requests.
    During these meetings, occasionally Beth would ask me 
questions about particular people, and I kind of remember that 
in one of those meetings the name Mr. Rich might have come up. 
And my memory is that I said I was neutral. I didn't have a 
basis to form an opinion. That's how I used the term neutral.
    Mr. Waxman. Well, it just strikes me there was a disconnect 
here, and that's amazing, because we're talking about a matter 
that was quite important.
    Mr. Holder. One thing I would say about that, as I said in 
my commentary, and it's true of people who worked with me, this 
has obviously become a cause celebre. Everyone at this point 
knows the name of Marc Rich. I really wonder if we took a show 
of hands in this room, including people behind the desk here 
now, if we asked this question 4 months ago, how many of you 
know who Marc Rich is, whether there would be substantial 
numbers of people saying yes; I don't know.
    But within the Deputy Attorney General's Office when we 
first heard about this matter back in, I guess the latter part 
of 1999, none of us were familiar with Mr. Rich.
    Mr. Waxman. Yes. Well, I can see that. And I can see that's 
why the whole thing could end up falling through the cracks, as 
apparently it has. And it's unfortunate, because when the 
President made his decision, I would have liked to have him--
and I'm sure everyone looking at it fairly would have liked the 
President--to have had the full input before he made his 
decision. Not just the petition on behalf of the person seeking 
pardon and the letters of support for those who want that. We 
would want the prosecutors, and others in the Justice 
Department particularly, to have their input, and it looks like 
the President didn't have that input for whatever reason.
    Thank you.
    Mr. Burton. Mr. Barr.
    Mr. Barr. I might suggest, Mr. Holder, that there are some 
people that if you would have asked them, if you would taken 
time to ask them 4 months ago or a month ago or 3 weeks ago 
about Marc Rich, they would have known darn well who Marc Rich 
was.
    How about the prosecutors that prosecuted the case? Have 
you ever heard of Mary Jo White, the U.S. attorney for the 
Southern District who prosecuted the case? Mr. Auerbach, who is 
sitting right behind you; why don't you tell him to his face 
that if you would have called him up, you wouldn't have paid 
any attention to what he said, because that's the import of 
what you just said.
    Just because the public at large might not have known who 
Mr. Rich was, that is the basis on which you made a decision, 
that, I think, has been a disgrace and possibly harmed our 
Nation's security. That may not be important to you.
    Mr. Holder. That's not what I said, Congressman.
    Mr. Barr. But did you pick up the phone and call the CIA? 
They knew who Marc Rich is. Did you pick up the phone and call 
NSA? They knew who Marc Rich is. I will tell you some other 
people who knew Marc Rich is, if you would have bothered to 
look into this case, the Ayatollah, his people, even though 
he's no longer around, Muammar Qadhafi, Saddam Hussein, the 
former apartheid Government of South Africa. These are all 
people and institutions and governments in terrorist regimes 
that Marc Rich dealt with against our laws and benefited from.
    You sit there and you say that case was unremarkable, and 
you say that simply because the public might not have known 
about this case that you didn't have any obligation to look 
into it.
    Who was the senior career person that you asked to look 
into the matter?
    Mr. Holder. Mr. David Margolis.
    Mr. Barr. And did he look into it?
    Mr. Holder. He was looking into the matter only to try to 
facilitate the meeting that had been requested with the Office 
of the U.S. attorney in the Southern District of New York.
    Mr. Barr. His name came up here also in exhibit 1, exhibit 
1 is Mr. Quinn's notes of November 8th, 1999, apparently, his 
recollection--or his notes at the time of the conversation with 
you. Apparently what he is saying is you suggested to him that 
he send a letter to Mary Jo White, the U.S. attorney for the 
Southern District, copy you, which he did, and that you will 
call her and say you should do it.
    Now, that is not consistent, I don't think, with your 
testimony today. Did you tell him that you would relay to Ms. 
White that she should do it, meet with him?
    [Exhibit 1 follows:]

    [GRAPHIC] [TIFF OMITTED] T5593.455
    
    Mr. Holder. No, I don't remember that.
    Mr. Barr. I didn't think so.
    Mr. Holder. Excuse me?
    Mr. Barr. I didn't think you had said that, his notes, it's 
one of a number of discrepancies.
    Mr. Holder. No. I mean what we were trying to do, as I 
said, was try to facilitate the meeting. It wasn't a question--
and as I indicated in my opening statement, we never pressured 
anybody to have the meeting; the call was for the Southern 
District for New York to make.
    Mr. Barr. Right. Later on in your testimony at the bottom 
of page 3, you say shortly after a subsequent conversation with 
Mr. Quinn, you received a phone call from the White House 
counsel, Beth Nolan, asking for your position. And then you say 
further down in that same paragraph, I ultimately told Ms. 
Nolan that I was now neutral leaning toward favorable.
    Was that all in the same conversation?
    Mr. Holder. I'm not sure I understand the question.
    Mr. Barr. OK. You say, shortly after my conversation with 
Mr. Quinn, I received a phone call from White House counsel, 
Beth Nolan.
    Mr. Holder. Right.
    Mr. Barr. In the same conversation with her, in other 
words, you received a call from her, is that when you told her 
that you were now neutral leaning toward favorable?
    Mr. Holder. Right.
    Mr. Barr. That was just one conversation?
    Mr. Holder. Yes.
    Mr. Barr. OK. So in one conversation, you were swayed from 
let's give you the benefit of the doubt that you didn't know 
anything about the case and it was unremarkable to you, to 
understanding that it was important enough for a foreign leader 
to become personally involved in, and just based on that 
information alone, not having heard anything back from Mr. 
Margolis, not having heard anything back from your prosecutors 
who identified this case as one of the most significant in 
white collar crime history, you all of a sudden become leaning 
toward favorably simply because some foreign leader, for 
whatever reason, that he wants us to act favorably on this 
pardon?
    Mr. Holder. What I said was that I was neutral leaning 
toward. Neutral, meaning consistent with what I said before, 
which was I don't have a basis to one way or the other----
    Mr. Barr. Is that your presumption as the second top 
official at Justice, that if somebody comes in and asks you 
about a pardon that you don't know anything about, that your 
position is immediately neutral and therefore their job is to 
move you toward favorable? I mean, wouldn't your position as a 
prosecutor be you stand by your prosecutors and your initial 
position when you don't know about a case is to oppose it?
    Mr. Holder. No. Without a basis to know whether--how the 
decision should go, I think it would be incumbent upon----
    Mr. Barr. Don't you presume that your prosecutors have 
prepared good cases, and therefore you would operate from the 
presumption as their superior at the Department of Justice that 
you were going to stand by them and not take a neutral 
position?
    Mr. Holder. Sure. I suppose that's the presumption. But as 
I indicated in my prepared remarks, there was a case involving 
a man who was a fugitive who had been frankly abused by the 
system, racial animus allowed to get into the system.
    Mr. Barr. That's a red herring, the same as the other 
fellow was a red herring. We're talking about a case that was 
an extremely significant white collar crime case with very 
significant national security ramifications.
    Did you make a recommendation to the President on the 
pardon of Mr. Rich?
    Mr. Holder. The request--the----
    Mr. Barr. Yes or no. Did you make a recommendation to the 
President, Mr. Holder, with regard to the pardon requests for 
Mr. Rich?
    Mr. Holder. What I told the White House counsel was that I 
was neutral leaning toward positive----
    Mr. Barr. Was that your recommendation to the President?
    Mr. Holder. That is what I told the White House counsel.
    Mr. Barr. Why did you tell the White House counsel?
    Mr. Holder. She asked me what my opinion was.
    Mr. Barr. OK. Was she asking that on behalf of the 
President?
    Mr. Holder. I don't know what the process is there. I 
presume----
    Mr. Barr. You don't know what the process is there?
    Mr. Holder. I presume that is what it is. I don't know if 
she rose directly to the President, whether there's an 
intermediary, I don't know.
    Mr. Barr. It's like--it's like keystone cops, but I don't 
think it is. I think the President knew exactly what he was 
doing. You didn't request information, so you could probably 
say I don't know.
    In other words, have you ever heard of the concept of 
deliberate ignorance? Maybe not. Most prosecutors have.
    Mr. Holder. I will stand here and have people say that I 
made a mistake, I will debate that.
    Mr. Barr. You don't think----
    Mr. Holder. You are now implying that I have done something 
that is essentially corrupt. And I will not accept that. That I 
will not accept. Not----
    Mr. Barr. This is otherwise. You sit here and you tell us 
you don't know how the White House counsel works. You say, 
well, you told somebody to look into it. They didn't, but 
that's OK, it was an unremarkable case. Your own prosecutors 
have said this was a very significant case, and you say based 
on one conversation with the White House counsel that mentions 
a foreign leader's name, that you changed to leaning favorable.
    Mr. Holder. I said if--what I said was if there were a 
foreign policy benefit that would come from the pardon--if, if, 
and I was leaving it to them to make the determination. I 
didn't have a basis to know that. I said if Barak is calling in 
and saying this is something significant, and if there is a 
basis to conclude that we might get a foreign policy benefit--
--
    Mr. Barr. What about the basis of your prosecutors? That 
counts for nothing?
    Mr. Holder. I said in connection with that, that I was 
neutral. I didn't have a basis to form an opinion one way or 
the other. As the Deputy Attorney General who has to ultimately 
make a recommendation to the White House in pardon matters, 
there is certainly a presumption, I suppose, that you presume 
regularity in the way conditions were obtained; but the default 
position, seems to me, should not be one way or the other. You 
should try as objectively as possible to look at all of the 
evidence, look at the applicable law, and then come up with a 
recommendation, a determination.
    And what I've told--what I told the White House counsel in 
the meeting, the earlier conversation, I think, consistent with 
what I said on the 19th, was I did not have a basis to make a 
determination because I had not had access to the relevant 
documents, the relevant materials.
    Mr. Waxman. Regular order.
    Mr. Burton. The gentleman's time is expired.
    Mr. Kanjorski.
    Mr. Kanjorski. Mr. Holder, I have a great deal of respect 
for you over your tenure at Justice Department, and I don't 
find myself very often in agreement with Mr. Barr, but I do 
find some of these positions almost incredible from the 
standpoint when you first heard the name Rich from Mr. Quinn; 
that triggered no idea of who this was?
    Mr. Holder. I did not know----
    Mr. Kanjorski. And you didn't assign somebody to find out. 
This was unusual. You never had been approached by Mr. Quinn 
regarding a pardon before, had you?
    Mr. Holder. That's correct.
    Mr. Kanjorski. So this is the first time that Mr. Quinn was 
involved in a pardon situation with you?
    Mr. Quinn. The contact was not about the pardon.
    Mr. Holder. Well, no, the initial contact with Mr. Quinn--
I'm sorry. The initial contact with Mr. Quinn was not about a 
pardon, the late 1999 contact was not about a pardon.
    Mr. Kanjorski. OK. It was to set up a meeting with the 
Federal attorney's office?
    Mr. Holder. Right.
    Mr. Kanjorski. Before you would set up a meeting you would 
want to know who is the defendant, what are the circumstances; 
you wouldn't just tell some staff set up a meeting. I mean, it 
could have been for Adolf Hitler, you know.
    Mr. Holder. Yeah, I mean I knew enough about the case so 
that I had an idea of what the meeting was to be about, but I 
did not delve into it in the degree that the people have 
testified on panel one. I didn't have that kind of familiarity 
with it.
    Mr. Kanjorski. Did you know whether he was a fugitive?
    Mr. Holder. I'm sorry; what? Did I know what?
    Mr. Kanjorski. Did you know whether he was a fugitive or 
not?
    Mr. Holder. Yes.
    Mr. Kanjorski. OK. That is a rare classification for 
someone seeking a pardon. I don't imagine there's a high 
percentage points of petitioners for fugitives, is there?
    Mr. Holder. That's correct. But again----
    Mr. Kanjorski. You're a sensitive lawyer. That would ring a 
bell to you. Then knowing he's a fugitive, the request was made 
with the Southern District's office. And are you used to, as 
Deputy Attorney General, being refused a meeting? I mean, I'm 
really surprised that a Deputy Attorney General can call up one 
of these lonely Federal attorneys and they say hell no, and OK. 
I would imagine if I called up and somebody turned me down to a 
meeting, I would want to find out why they think they're 
running the Department instead of you.
    Mr. Holder. I didn't say have the meeting. All I said was 
this is something that perhaps they ought to consider, and 
that's why I asked the person in my office to do that, interact 
with the people in the Southern District to see what they would 
do.
    Mr. Kanjorski. And they said they wouldn't consider it?
    Mr. Holder. They didn't want to have a meeting.
    Mr. Kanjorski. Didn't that set off a bell? You didn't ask 
why a Federal attorney, reasonably asked by a prominent 
Washington attorney who had been counsel to the President, 
asked for a meeting and they refused to have a meeting? 
Wouldn't you want to know why, what's their objection?
    Mr. Holder. I assumed, and I think it was conveyed to me, 
was that they didn't want to have a meeting because Mr. Rich 
was a fugitive.
    Mr. Kanjorski. OK. And then at that point, after you found 
out a week or two later or you received the letter in January 
that a petition for pardon was going to be made or was in the 
process of being made, there's a fugitive out there, your 
prosecutor won't even have a meeting with him. Didn't it strike 
you that the President should be informed of some of these 
circumstances or to know the other side of the case? Or did you 
make the assumption that Mr. Quinn in his petition, rather than 
being a straight advocate, would have given both sides of the 
pros and cons of the individual and had a full explanation, 
instead of the most positive advocate's position?
    Mr. Holder. What I assumed was going to happen in late 
November 2000 was that after the petition had been filed, that 
the White House would be reaching out to the Justice 
Department, and that we would have an opportunity at that point 
to share with them as we do in pardon--that we generally do in 
pardon requests, after all of the vetting had been done, the 
opinion of the Justice Department.
    Mr. Kanjorski. Well, finally, the other points that it 
comes down to in the incredibility of it. I'm a politician. If 
somebody calls me up and says, do you support a candidate, my 
answer is not I'm neutral leaning toward, if I don't know 
anything about them. I don't have a reason--I'm not going to 
stamp any approval. I'm going to say I have no comment because 
I have no facts. But you didn't take that position, did you?
    Mr. Holder. Yes, I did. What I said was that I was neutral 
on--when I had that initial conversation with Beth Nolan--was I 
was neutral because I didn't have a basis to make a 
determination one way or the other. I didn't have enough 
factual material to make--to form a conclusion.
    Mr. Kanjorski. Well, at that point, didn't it trigger in 
your mind that this looks like it's moving at the White House 
and somebody from the Department of Justice--and that's 
primarily you as the administrator, to get these facts and make 
sure that the fact is properly presented to the President, pro 
and con instead of just pro?
    Mr. Holder. I guess that's one of the keys. I never really 
thought this was a case that was going to move, using your 
term, given the fact that he was a fugitive. I didn't see how 
it was likely to have--a pardon request was likely to be 
successful, given the fact that Mr. Rich was a fugitive.
    Mr. Kanjorski. If a foreign leader called up and even 
though he was a fugitive, that doesn't matter and you would 
have been leaning toward it?
    Mr. Holder. No. What I said was I'm neutral, but if Mr.--
but if there is a foreign policy benefit that we might get from 
granting this pardon, if there is, that would make me think I 
would be leaning toward it. But, again, I didn't know whether 
or not that was true or not. I was putting----
    Mr. Kanjorski. I understand, Mr. Holder. It doesn't make 
sense to me, because that would be the Secretary of State that 
would be saying that or the National Security Advisor. What 
does the Attorney General have to do with foreign affairs?
    Mr. Holder. That's why I said if, if there is a foreign 
policy, I don't know if there is or not.
    Mr. Kanjorski. That's right. It's not even in your 
bailiwick. It's not important to you. Why should that have an 
effect one way or the other in the administration of justice? 
That's for somebody else to weigh in on that proposition and 
saying for foreign policy reasons we should have some extra 
consideration here?
    Mr. Holder. We make decisions within the Department on the 
basis of foreign policy at times with regard to--I know we 
certainly had dealt with regard to India--with Pakistan and the 
purchase of F-16s, there was a foreign policy consideration 
there that we took into account in forming our ultimate 
position.
    Mr. Kanjorski. At that point in time, did you know that 
they had worked with the enemies at time of stress; you knew 
none of the facts?
    Mr. Holder. No.
    Mr. Kanjorski. And in spite of that, you said I'm neutral, 
but if a foreign leader calls, I will be leaning positive if it 
had foreign policy implications?
    Mr. Holder. Well, I didn't say if a foreign leader calls. 
What I said was that I was neutral consistent with what I said 
before, but if there's a foreign policy benefit, if you all, in 
essence, determine there's a foreign policy that might accrue 
from this, then I would lean toward favorable.
    Mr. Kanjorski. I had posed to Mr. Quinn, and I like Mr. 
Quinn, too. He's a friend of mine, as you, through the years in 
the administration. Did the fact that he had a prior role at 
the White House, chief counsel to the President, did that in 
some way disarm you in dealing with him on this particular 
case, that you imagined that he probably would have taken extra 
steps to make sure that it wasn't just an adversarial role but 
also a full disclosure role?
    Mr. Holder. No. I mean, I assume that Mr. Quinn was acting 
as a lawyer here. I'm not--I don't think that his former status 
was something that necessarily----
    Mr. Kanjorski. You know what kind of a good lawyer he is. 
So you know he would put the petition in the best light of his 
client. Why didn't you think that somebody should be advocating 
the negative side of that proposition?
    Somebody in Justice, somebody in the White House, somebody 
should have been scurrying around, recognizing one of the best 
lawyers in Washington is putting a petition in with singularly 
his side of his client's case, and it's very late in the period 
of time. And didn't it dawn on you that somebody better make 
sure that the con should be developed and given to the 
President?
    Mr. Holder. Yes. In hindsight, seeing how this turned out, 
obviously some bells should have gone off, some lights should 
have gone on. But at the time, again, what stuck in my mind was 
this was a request of pardon for a person who was a fugitive. 
And the likelihood--it made this case very unlikely to happen, 
and it made one that did not make those bells go off for that 
reason.
    It was--if I had known, obviously, that it was going to 
turn out this way, I mean I certainly would have done things 
differently. And that's why I said in my opening remarks, yeah, 
I wish there were things that I had done differently.
    Mr. Burton. The gentleman's time is expired. Mr. Shays.
    Mr. Shays. Thank you, Mr. Holder. Welcome to the committee. 
What makes this story so remarkable is that you thought it was 
unremarkable that a person who was a chief advisor to the 
President of the United States' counsel would have requested a 
pardon for a fugitive who basically did business with our 
enemies.
    So please once again try to explain to me why you don't 
think it was a remarkable request. That's a lot of chutzpah.
    Mr. Holder. You're presuming again facts that we now know 
that I did not have in my head at the time. I didn't have 
before me all the information that the trial lawyers who ably 
presented in the first panel this morning. So, Mr. Shays.
    Mr. Burton. Mr. Shays, I think this bears--may I just ask 
one question? There was a phone call, according to your phone 
logs, from 10 to 11 a.m. that morning with Shirah Neiman. She's 
the deputy U.S. attorney in New York. You talked to her for 
almost an hour.
    Was this any part of that conversation?
    Mr. Holder. I don't remember a conversation between Shirah 
and I.
    Mr. Burton. Your phone log right here has it from January 
19th from 10 a.m. to 11 a.m., Shirah Neiman, deputy U.S. 
attorney.
    Mr. Holder. No. The call came in at 10, I returned the call 
at 11.
    Mr. Burton. Well, we would like to know, and I will yield 
back to my colleague, thank him for yielding, but I would like 
to know what that conversation was about, and we will probably 
talk to her as well, so I think it's important that you recall 
the facts.
    Thank you, Mr. Shays.
    Mr. Shays. Thank you, Mr. Chairman. What you call an 
unremarkable thing makes me want to ask you what it would have 
taken to be a remarkable thing. You told Jack Quinn you had no 
problem with the pardon; is that correct?
    Mr. Holder. That I had no problem with the pardon? No, I 
don't remember saying that.
    Mr. Shays. So you don't recall saying that. You told Jack 
Quinn you didn't need a copy of the application; is that 
correct?
    Mr. Holder. That I didn't need a copy? No, I didn't say 
that.
    Mr. Shays. You failed to inform the Southern District of 
New York or the pardon attorney about Quinn's effort to get a 
pardon even though you knew back in November; is that true?
    Mr. Holder. That's true.
    Mr. Shays. You told the White House you were neutral 
leaning toward the pardon, and the President took this as a 
sign as support for the pardon; is that correct?
    Mr. Holder. I don't know how the President reacted to what 
I said, but I said what you said, with a little more.
    Mr. Shays. You congratulated Jack Quinn in the wake of the 
pardon and offered him advice about handling the press about 
the Rich matter?
    Mr. Holder. No, that's not correct.
    Mr. Shays. None of those things are true?
    Mr. Holder. No.
    Mr. Shays. OK. What this hearing has illustrated to me is 
that we not only have a pardon problem, we have a revolving 
door problem, because you had an individual who signed an 
Executive order who adhered to an ethics commitment by 
executive branch appointees of Executive Order 12834 of January 
20, 1993, which was interestingly revoked effective January 20, 
2001, and that was signed on December 28th.
    Mr. Quinn, did you contact White House officials about the 
pardon before December 28, 2000?
    Mr. Quinn. Yes, sir.
    Mr. Shays. Did you sign this Executive order like other 
employees?
    Mr. Quinn. Yes.
    Mr. Shays. OK. Why shouldn't I come to believe that Bill 
Clinton gave you a pardon? And the pardon is, you're not 
adhering to this Executive order?
    Mr. Quinn. I'm not sure if you were in the room during our 
earlier discussion of this, but I believed that the Executive 
order does not cover the communications I had on this matter 
with the White House.
    I specifically had a discussion with the White House 
counsel about whether it did prohibit them, and I brought 
them----
    Mr. Shays. Why did you have that conversation if you didn't 
think it affected you?
    Mr. Quinn. She asked me the first time I mentioned to her--
or, perhaps, it was when I filed the petition, she asked if my 
making an appearance in this matter was permissible under the 
Executive order.
    Mr. Shays. Why did she ask you that?
    Mr. Quinn. I think it's an obvious question.
    Mr. Shays. She thought it was not permissible.
    Mr. Quinn. No, she had a question; she didn't have a 
conclusion. And when I brought to her attention the exception 
that I've discussed before the committee, she asked me no 
further questions about it. She acquiesced in my making the 
appearance.
    Mr. Shays. Acquiesce is a good word.
    Mr. Quinn. I think it's accurate. And I think she did not 
have the view that it was impermissible. I believe her conduct 
from that point forward indicates that she agreed with me that 
it was permissible.
    Mr. Shays. The problem with that logic----
    Mr. Quinn. And, in fact, it is permissible.
    Mr. Shays. The problem with that logic is that you were 
hired specifically because of your White House connection, 
because you had defended the President, because you were a 
close associate of Al Gore's. You were the person to hire. If I 
went in there, I wouldn't have gotten any impact, obviously 
not. You had that.
    That's the reason why we Republicans and Democrats alike 
rejoiced when the President signed that Executive order. I was 
pretty astounded that after you had these contacts, he 
basically repealed that.
    Mr. Quinn. You may think the Executive order should have 
been drafted differently than it was.
    Mr. Shays. Right.
    Mr. Quinn. But it means what it means. You may even think 
that the current administration should have a similar Executive 
order.
    Mr. Shays. I think Congress should draft one that is very 
clear, and that's one of the outcomes that I think----
    Mr. Quinn. That's fine.
    Mr. Shays. Because it's very clear to me that Mr. Holder is 
put in a very tenuous situation. You're coming to ask him and 
notifying him of something, and he's basically asking you for 
assistance in a place that you can be very helpful.
    Mr. Quinn. Yes. There are a couple other----
    Mr. Shays. It's a very kind of awkward kind of dialog to 
have.
    Mr. Quinn. I need to address a couple of the points----
    Mr. Shays. Sure.
    Mr. Quinn [continuing]. That I think you are in, I can't 
remember, or on. First I, again, I was hired in the spring of 
1999, not to go to the White House, but to work with main 
Justice and the Southern District of New York. Second----
    Mr. Shays. I'm sorry; you weren't an employee of the White 
House? I'm missing what you're saying. You were not an employee 
of the White House?
    Mr. Quinn. You made the assertion that I was hired, because 
I had worked in the White House, to go to the White House. 
That's what I thought you were saying.
    Mr. Shays. And your contacts with the President. I mean, I 
think you would even acknowledge that.
    Mr. Quinn. We're talking past each other. All I'm saying is 
that the initial purpose of hiring me was not to go to the 
White House but to do something else.
    Second, in your exchange with Mr. Holder, you asked him, 
and I may have created this misimpression on your part, but I 
want to clear it up. Mr. Holder--it is not my testimony that 
Mr. Holder ever told me he did not have--need a copy of the 
petition.
    Rather, what I was referring to is that in that 
conversation he and I had on November 21st, when I said to him 
that I hoped to or wanted to or intended to encourage the White 
House counsel to contact him, I asked him if he thought I 
should put that in writing to the White House counsel. And his 
response was, you don't need to put that in writing, just ask 
him to call me, I will take their call.
    Mr. Shays. Just one last question, Mr. Quinn. Do you know 
how much Denise Rich contributed to the Clinton library?
    Mr. Quinn. I do not, sir. And--I do not. And I certainly 
did not at the time I was working on this matter.
    Mr. Shays. Thank you. Thank you, Mr. Chairman.
    Mr. Burton. The gentleman's time is expired. Ms. Norton.
    Ms. Norton. Thank you. Thank you, Mr. Chairman.
    I have a single question. But before I ask it, I want to 
say, you recall that I was concerned as to how this hearing 
would be understood. I thought that the hearing would have in 
itself, an important effect on precedents, set the kind of 
precedent we need to have set, because it shows that Congress 
is willing to do oversight even on the matters it has no 
control over, which raise appearance problems or even worse.
    But I am going to say I am very disappointed that 
apparently, the news report that came out as this hearing was 
going on, it was announced that all inspectors are going to 
introduce an amendment to the Constitution that would give 
Congress the power to overturn a Presidential pardon.
    I mean that is the kind of overkill and overreaction that I 
just want to separate myself from, and I hope we will separate 
from this hearing. A President makes a mistake, and somebody 
wants to turn the Constitution, something we've lived with for 
200 years, on its head. Well, I'm not willing to do that on the 
basis of one President, one pardon and one mistake.
    I do want to get at the reasons for this mistake. I want to 
get at whether there was indeed more than a mistake and I want 
to get at the appropriate remedy.
    Indeed, my question will ultimately go to remedy, because I 
certainly don't think this is the remedy, nor do I think it 
will happen. And I think it's the wrong message from this 
hearing, and I've not heard any of my colleagues say that 
that's what they were doing. Indeed, I heard the U.S. attorney 
say that they didn't think the pardon, constitutional pardon 
power should be tampered with.
    Mr. Holder, I know you to be a cautious man. I know you to 
be a man of high integrity. As I have listened to the exchanges 
here, one can see that running through this entire episode are 
a whole set of appearance problems, and that appearance 
problems create substance problems even when they aren't there. 
It's very unfortunate that's the way life is.
    I must say I part company with those who see your notion of 
neutral leaning toward, if there are foreign policy 
implications, as raising some kind of serious question. That is 
to say, if I put myself in your position, that is to say as a 
lawyer being asked the question by another lawyer in a very 
substantial position, who says what do you think, and I haven't 
had the opportunity to look at the underlying matter, and so I 
don't want to say I don't know, and the way in which, at least 
I learned it in law school is, hey, you don't put yourself on 
the line. And one way not to put yourself on the line is to 
say, look, I'm neutral.
    From one lawyer to another that means, look, I don't know 
enough underlying facts to render an opinion on which you 
should rely. Nor do I find it unusual to say if there are 
policy implications, if there are foreign policy benefits to 
the United States of America.
    This country does all kinds of things it would not do but 
for foreign policy benefits to the United States of America. 
And I'm assuming that Israeli Prime Minister Barak would not 
intervene and open his mouth on the matter because he's been 
given some money or he's on the take.
    And given the way in which our country is now dealing in 
the Middle East, I am not going to assume that if somebody says 
that there's something sinister, that there is. I might want to 
know what it is, but the whole implication is, oh, my God; but 
this does not strike me as oh, my God, it strikes me that we do 
all kinds of things.
    We and our allies exchange prisoners and people have done 
terrible things when we wouldn't do it otherwise, because there 
are foreign policy benefits. We are all sophisticated enough to 
know that there probably isn't something sinister behind that.
    Now, what I want to know is we're not going to get into 
this kind of overkill, this kind of headline grabbing, let's go 
get ourselves a new constitutional power. What are we going to 
do, because we clearly have to do something. We can't say, oh, 
well, it was a big mistake, there's nothing we can do about it 
except rely on the best judgment of the President.
    I really think, for the most part, that is going to be 
sufficient, because any President in his right mind is going to 
read the transcript and see what this President went through.
    But I know that you say, Mr. Holder, and I am quoting now 
from your testimony, indeed, ``it is now clear and this is 
admittedly hindsight, that we in the Department and, more 
importantly, President Clinton, and the cause of justice, would 
have been better served if this case had been handled through 
the normal channels.''
    If there is any problem in this case, it is that in this 
far-flung government, things come at people in different ways 
and they don't always go through the normal channels.
    Now, I want to know what the normal channels are understood 
to be now, and I want to know what you think the normal 
channels should be. How can we keep this from happening again? 
What should have happened; as precisely as you can tell me, 
what should have happened? And if we were trying to make some 
recommendation other than let's amend the Constitution of the 
United States so that we can second-guess the Presidential 
pardoning power, if we are to try to think of something more 
constructive, more likely to happen, what changes would we say 
should occur?
    For example, does something need to be written down? Is it 
sufficiently written down within the Justice Department? Does 
something have to be written down so that the President of the 
United States has something before him? How is it done now? 
What precisely, given what you know about the flaws that 
occurred in this process, would you do to make sure that those 
flaws in particular are remedied?
    Mr. Holder. Well, there are regulations that now exist that 
govern the way in which the pardon attorney looks at matters. 
And that typically is what happens, a matter comes into the 
pardon attorney's office. The prosecutors are contacted. The 
FBI is contacted. A check is done to see if there are pending 
investigations.
    Ms. Norton. But it can go directly to the President, 
apparently.
    Mr. Holder. Sure.
    Ms. Norton. And do you think that should be changed? 
Apparently it can come to the pardon attorney, or it can go 
directly to the President. That means that already you have the 
kinds of problems that occurred here.
    Mr. Holder. Yes. I mean, the President has a constitutional 
prerogative, and it's hard to see how you can right something 
short of amending----
    Ms. Norton. We're not telling--we're saying this is an 
absolute power. You have to understand the nature of my 
question. I'm not for a constitutional amendment that would say 
this. I am saying, if you were advising President Bush, for 
example, would you say that you should not, indeed, to protect 
yourself, for example, receive pardons directly? Should you 
always--you can always do what you want to do, but should you 
always seek the adversarial advice from within the Department 
before you even look at it? I'm looking for a real remedy, Mr. 
Holder.
    Mr. Holder. Yes. I mean, it seems to me it's possible that 
a President could enact an Executive order of some sort that 
would be binding on his administration. I'm not sure he could 
bind successor administrations, but certainly require any 
pardon filed with his White House counsel to be sent in the 
first instance or concurrently to the Justice Department's 
pardon attorney. You can do something along those lines. I 
don't know, again, if that would have an effect on a successor 
administration. I suspect not, given the constitutional 
problems.
    Mr. Burton. The gentlelady's time has expired. I know 
there's been a request for a break, and we will do that. If we 
could just hold off for about 5 minutes because Mr. LaTourette 
has to go to another meeting. If we can just have Mr. 
LaTourette get his 5 minutes, we will break for 5 minutes.
    Mr. LaTourette.
    Mr. LaTourette. And I thank you, Mr. Quinn. I saw your 
signal. But actually it's not another meeting. I want to catch 
a plane to go back to Ohio so I can watch you on Hardball 
tonight and all the other shows that you are on.
    I want to talk a little bit about a time when you were 
counsel to the President, and there was an interview by Mr. 
Lehrer, the moderator for the Presidential debates, between 
your old boss and Mr. Lehrer. He was talking about Presidential 
pardons. It's exhibit No. 96. The President, Mr. Clinton, said, 
my position would be that their cases should be handled like 
others. There is a regular process for that. I have regular 
meetings on that, and I review those cases after there is an 
evaluation done by the Justice Department. I think that's how 
it should be handled.
    I assume that you were--the President's position was your 
position because you worked on them. You think that's the 
normal process, a good idea to have the Justice Department look 
at these things, right?
    [Exhibit 96 follows:]

    [GRAPHIC] [TIFF OMITTED] T5593.603
    
    Mr. Quinn. If I was ever aware of that at the time or 
before filing this pardon petition, I didn't recall it. When 
this came--this came to my attention after the pardon petition 
was filed. But to--the question I think underlying your point 
and Mrs. Holmes Norton's point, I would endorse what Mr. Holder 
said.
    I do think now, in the light of the considerable 
controversy that this has created, controversy that candidly I 
didn't fully anticipate, that it would make a good deal of 
sense for sitting Presidents to consider at least imposing on 
themselves some--a different sort of process that would ensure 
the involvement of prosecutors and so on.
    I would point out to you in this regard, though, that, in 
exercising this constitutional power, the President's not 
acting like a judge. The President's acting as the head of the 
executive branch; and in that regard is the head of--the head 
law enforcement official of the Nation.
    Mr. LaTourette. Let me--I appreciate your response, but you 
will run out my 5 minutes. I really--he is acting like the king 
who would grant mercy under our English system, and that was 
the vestige that was left in our Constitution.
    But, more importantly, I understand that you do it 
differently, Mr. Holder would do it differently, that we have 
some documents that seem to indicate that you and members of 
your firm actually wanted to keep this a secret. And let me go 
through those with you if I can.
    And in particular, exhibit No. 79, there is a copy of an 
agenda that occurred, I believe, among the lawyers on November 
21st, 2000. And appropriately enough there is a section 
entitled ``prophylactic issues.'' And under prophylactic 
issues, it says, A, a need for secrecy and a possible 
likelihood of potential leaks.
    [Exhibit 79 follows:]

    [GRAPHIC] [TIFF OMITTED] T5593.583
    
    [GRAPHIC] [TIFF OMITTED] T5593.584
    
    [GRAPHIC] [TIFF OMITTED] T5593.585
    
    Mr. LaTourette. There then is an exhibit No. 62, which is a 
series of e-mails between you and Robert Fink, who, I assume, 
is another lawyer for Mr. Rich, and Mr. Fink refers to an 
upcoming newspaper article that is going to deal with Marc 
Rich. And your response is, I think we have benefited from 
being under the press radar. Podesta--Podesta, I assume is John 
Podesta--the President's chief of staff, said as much.
    [Exhibit 62 follows:]

    [GRAPHIC] [TIFF OMITTED] T5593.562
    
    Mr. LaTourette. Then there is going to be a question in 
just a second, because then it gets down to actually the day 
before President Clinton leaves office, there is exhibit No. 
69. It's another e-mail from Bob Fink to members of the Rich 
legal team on January 19th, this year. And it says that the 
SEC, I suppose that's the Securities and Exchange Commission, 
found out about the pardon request; and we agree that is not 
good and that maybe the SDNY knows, too, but we have no 
information on it.
    [Exhibit 69 follows:]
    [GRAPHIC] [TIFF OMITTED] T5593.570
    
    Mr. LaTourette. And that information in that e-mail, it's 
being reported that is your observation. And I assume that 
SDNY, and here is the day before President Clinton leaves 
office, and this pardon is going to be granted, refers to the 
U.S. Attorney's Office in the Southern District of New York.
    And so that the implication, and you can correct me if I'm 
wrong, from that series of e-mails is that not only was this 
purposefully not sent to the Department of Justice so that you 
can get the second side that Mr. Weinberg and Mr. Auerbach were 
talking about, but that Mr. Podesta is telling you it's a good 
thing you're flying below the radar so that the press doesn't 
report about it.
    And on the 19th, you guys are nervous that the Securities 
and Exchange Commission might jump in, not as strongly as they 
did in the Milken case apparently, but you're nervous that the 
prosecutors at the Southern District of New York may have found 
out about this request as late as the day before President 
Clinton leaves office. Is that true?
    Mr. Quinn. I wouldn't say I was nervous about it. I will 
say to you that I am sure that, in contrast, for example, to 
the effort that was made on behalf of Mr. Milken, the fact that 
a pardon application was pending for Rich but was not the 
subject of press attention was beneficial.
    Having said that, and no doubt if you asked me at the time 
or ask me now would I have preferred to have the Department of 
Justice's opinion on this coming from Main Justice or from the 
Southern District, it's easy. Yes, I wanted those views to be 
articulated by Main Justice.
    Why? Because as I think my documents bear out and my 
submission here today bears out, my course of dealings with 
Main Justice with regard to Mr. Rich began in October 1999. And 
though I may have formed a wrong impression, and Mr. Holder may 
say I should not have formed the impressions I did, I certainly 
formed the impression that there was, as one of my notes 
reflect, a view among some senior people in Main Justice that 
the equities were on our side in some senses.
    Again, I'm not trying to overstate this. I'm not trying to 
say that I believed that senior people at Main Justice thought 
the indictment was meritless, but I did absolutely believe that 
Main Justice thought that the Southern District was being 
unreasonable in being unwilling to talk to us. I thought that 
there was a more sympathetic audience at Main Justice.
    And that, sir, is why on more than one occasion I 
encouraged the White House counsel to seek the views of Mr. 
Holder. I again--had that taken place at an earlier point in 
time in this process, had it been done in a different way by 
the White House, had he had more time, he well might have 
reached out to the Southern District. But for my part, I urged 
the White House counsel to seek his views and the views of the 
Justice Department.
    Mr. LaTourette. I understand that, with the indulgence of 
the Chair, but is there any plain reading of that e-mail on 
January 19, 2001, other than you all were afraid if the 
Southern District of New York caught wind of what you were up 
to, the egg was going to hit the fan?
    Mr. Quinn. My preference was that the White House counsel 
contact Main Justice and that, based on the course of dealings 
we had earlier, that they would make a recommendation that 
would be helpful to us. I certainly knew that if Main Justice 
deferred to the prosecutors in New York, they were likely to 
have a negative recommendation. But I thought that, based on 
our earlier dealings, they had enough information. And I 
certainly, by the way, never, ever discouraged Mr. Holder or 
the White House counsel or anyone else from seeking the views 
of any agency of this government.
    Mr. LaTourette. Thank you.
    Mr. Holder. Mr. Chairman, if I could just have 30 seconds.
    Mr. Burton. Sure.
    Mr. Holder. With regard to question of equities and whether 
or not we thought the Southern District was being unreasonable, 
I think Mr. Quinn was just a little confused. What we were 
talking about there was them being unreasonable and not having 
the meeting. The equities were on their side, as Mr. Quinn's 
side, with regard to the meeting.
    No one at Main Justice thought that, with regard to the 
substance, the equities were on Mr. Quinn's side.
    Mr. Quinn. I'm not trying to suggest otherwise.
    Mr. Holder. I'm talking about the meeting, the fact of the 
meeting.
    Mr. Quinn. That's accurate.
    Mr. Burton. OK. We'll now excuse Mr. LaTourette and let Mr. 
Quinn take a 5-minute break and anyone else that wants to. The 
rest of us as well.
    [Recess.]
    Mr. Burton. The committee will reconvene. Is Mr. Cummings 
here? Mr. Cummings. Did he leave, or does he have questions? 
Does he have questions?
    Mr. Cummings, you are recognized for 5 minutes.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Mr. Holder, it is interesting that you've been able to come 
through to this point with a clear record. You, too, Mr. Quinn. 
We have sat--I've sat on this committee for 5 years, and one of 
the things that has always concerned me about this committee is 
so often allegations have been made. And as a friend of mine 
once said, when you throw mud on a wall, although most of it 
may fall, some of it sticks. So I'm just going to ask a few 
questions to try to clear up some things so that hopefully none 
will stick.
    Mr. Quinn, was there any kind of--and I--this is the first 
time I had heard this, this whole question of the quid pro quo. 
You never tried to create any quid pro quo, that is saying that 
you were going to help with--perhaps if Gore had won, help Mr. 
Holder with regard to the Attorney General position if he did 
something for you. Is that--I mean, is that an accurate 
statement?
    Mr. Quinn. That is, sir. There was absolutely no connection 
between those conversations in either substance or time as far 
as I'm concerned.
    Mr. Cummings. And what about you, Mr. Holder?
    Mr. Holder. Same thing. The--no, there's no truth to that.
    Mr. Cummings. Yeah. It just--see, we in this committee, 
what happens so often is we have this sensationalism; and the 
thing that I'm so concerned about is, after all of the dust 
settles, people are left with impressions that are simply not 
true, and they become very unfair. So I just want to keep 
going.
    Now, Mr. Holder, you said that you knew that Rich was a 
fugitive; is that right?
    Mr. Holder. Yes.
    Mr. Cummings. And you took a neutral--you believed that 
there was just no way that he was going to be granted a pardon; 
is that right?
    Mr. Holder. Yeah. And that's what I meant to say when I 
said the case was unremarkable. It was unremarkable in that it 
was just not a case that was going to get favorable treatment, 
like many other cases that were--that had been brought--that 
would be considered. That is how I meant the case to be 
unremarkable. It just wasn't going to happen.
    Mr. Cummings. When you spoke to Ms. Nolan, did you ever 
say, look, why are we even talking about this? This is a guy 
who is a fugitive. I mean, I just don't see how anything is 
going to happen, so why are we even talking about this, as 
opposed to saying, if it has foreign policy considerations? I'm 
just curious about that.
    Mr. Holder. Well, because the conversations we had, first 
of all, were extremely short conversations. We never had a 
prolonged conversation about this matter. I mean, the 
conversations that I had with her about these were frequently 
just the mention of a name and then a comment, not anything 
that went into any great depth. So there wasn't occasion to 
have that kind of prolonged conversation.
    Mr. Cummings. Now, you said, Mr. Holder, in your written 
statement, it says at the end of paragraph 2, it says: 
Specifically I wished that I had ensured that the Department of 
Justice was more fully informed and involved in this pardon 
process.
    Mr. Holder. Yeah.
    Mr. Cummings. What did you mean by that?
    Mr. Holder. Well, I wished that, you know, I guess as Mr. 
Kanjorski had said before, I think probably before, that maybe 
the bells had rung, the lights had gone on, and I had either 
in--at the end of November or at some point said to the person 
on my staff who worked on pardon matters, you know, you ought 
to look into this Rich thing.
    But you should understand that from what I thought was a 
fairly unremarkable comment from Mr. Quinn back in late 
November until sometime in January, this was not something that 
I was thinking about, not something that I was considering.
    I wished there were a point at which I had those lights go 
on and said to the person on my staff who handles pardon 
things, let's look into the Rich thing, or see what's going on 
in the Rich thing, just to somehow get it into the system in a 
way that it never got.
    Mr. Cummings. One of the things that is very interesting, I 
handle for the Congressional Black Caucus numerous pardons. I 
was the chairman of the pardons committee. So I had an 
opportunity to review many, many requests for clemency and 
pardons and commutations. And the applications quite often were 
quite lengthy, and there is a lot involved. A lot of those we 
recommended and--we recommended a few and rejected a lot.
    And I was just wondering, what would be the kinds of things 
that you would take into consideration? Let's say, if you had 
an opportunity to make a recommendation for or against I think 
you mentioned Mr. Carey, which was also, by the way, one of the 
Congressional Black Caucus's recommendations, I mean, what kind 
of things would you be looking for?
    Mr. Holder. Well, I mean, I think that the kinds of things 
you would look for are people who have made contributions 
perhaps after they have served their sentence, who have turned 
their lives around. Obviously contrition is important; ways in 
which people have somehow contributed to society, somehow done 
something positive for the Nation. Those are the kinds of 
things I think you take into consideration and I would take 
into consideration in looking at a pardon request.
    Mr. Cummings. Now, is it my understanding that you don't 
recall receiving the documents from Mr. Quinn, I mean any kind 
of documents with regard to the details of this, the background 
of this case?
    Mr. Holder. That's correct. I don't think Mr. Quinn said 
that he sent them to us. I was saying that we never got them 
from the White House. He sent them to the White House. We never 
received them from the White House.
    Mr. Cummings. Now, if you had received those documents, 
would you have probably reviewed them?
    Mr. Holder. Oh, sure.
    Mr. Cummings. You personally?
    Mr. Holder. I'm not sure personally, but they certainly 
would have gone to the pardon attorney and to a woman on my 
staff who looked at pardon matters. And what I would typically 
see after that would be a summary that they would prepare of 
the pardon request and what the pardon attorney generated as a 
result of his work in interacting with both the investigative 
agencies and the prosecutors.
    Mr. Cummings. I realize that you are--you weren't the 
President, but, I mean, looking at it from hindsight, reading 
this document, your statement that is--it appears from this 
that, if it were up to you, a pardon probably would not have 
been granted in this case; is that right?
    Mr. Holder. Yeah.
    Mr. Cummings. If it were up to you.
    Mr. Holder. Knowing everything that we know now, yeah, I 
think that's right. I'm not so sure that--well, yeah.
    Mr. Cummings. Let me put it like this: Would your 
recommendation--if you knew everything that you know in this 
case now then before the pardon was granted, would you have 
recommended to the President that he grant a pardon? That's a 
better way, I guess, of asking it.
    Mr. Holder. No. I mean, knowing everything that I now know, 
I would not have recommended to the President that he grant the 
pardon.
    Mr. Cummings. Why not?
    Mr. Holder. Well, aside from the fugitive status, which, as 
I said, I think you can somehow--in extraordinary circumstances 
can overcome, it was not--it could not overcome it. It was not 
overcome in this case. And then just understanding the--the 
facts of the matter and the breadth of the wrong done by--by 
Mr. Rich and Mr. Green, things they have done with regard to 
their citizenship, things I did not know before. I mean, the 
combination of all of these things, it seems to make these 
matters not ones for which a pardon would be appropriate. And I 
would not have made that recommendation.
    Mr. Cummings. Now, Mr. Quinn, you had said that--you had 
said that you felt that Main Justice believed that the Southern 
District of New York was not making--necessarily being fair. I 
don't want to take words out of your mouth, OK? And at the end 
of the questioning just a moment ago, we were trying to get 
that clear, and I want to make sure we're cleared up.
    Did anybody tell that you they felt that--anybody from Main 
Justice ever tell you that they felt that the Southern District 
attorneys in New York might be unfair with regard to your 
client, or was this just an impression that you kind of just 
got over a course of time?
    Mr. Quinn. Yes, sir. It's an impression that I formed quite 
clearly in my mind based on the course of dealings that I had 
with Mr. Holder back in 1999. And, again, I don't want to 
overstate. Mr. Holder never said, the equities are on your side 
on the underlying indictment, or these guys should never have 
been indicted. But he quite clearly reported to me, as is 
reflected, by the way, in the attachments to my testimony here, 
that senior people of the Department of Justice thought it was 
in--the word I believed he used at the time was ridiculous that 
the Southern District wouldn't meet with us.
    As we hopefully clarified at the end of the last round of 
questioning, he did use the phrase ``equities on your side,'' 
but in the context of, I believe, saying that the Southern 
District should have been willing to sit down with us and at 
least consider the arguments we were making, that these RICO 
charges couldn't be brought today under current DOJ policy; 
that under case law developments, the fraud charges were--were 
wanting; and most importantly that, on the basis of the tax 
analysis by Professors Ginsburg and what I know to be the 
conclusions of the U.S. Department of Energy, that, in fact, 
the tax case shouldn't stand.
    Mr. Cummings. Mr. Quinn, let me ask you this, because I'm 
running out of time. I'm just curious. Are you surprised by all 
of the controversy that has taken place subsequent to the 
President's decision; for example, us being here today?
    Mr. Quinn. Yes, sir. My notes clearly reflect that I at 
least considered in the conversation I had with the President 
pointing out to him that this would be a controversial pardon, 
but I want to emphasize I had no idea that it would be as--that 
it would have resulted in the fanfare that it has.
    Mr. Cummings. Just one--Mr. Chairman, just one.
    Mr. Burton. Sure.
    Mr. Cummings. Why not?
    Mr. Quinn. I guess, Congressman, I would have to say to you 
that when you do, as you know, work on something as a lawyer, 
come to believe in it, come to believe in the merits and the 
righteousness of your cause, you think others will see your 
point of view.
    Now, here the President saw my point of view. I believe 
some others saw my point of view. An awful lot of people have 
not. But, look, you know, I win some, and I lose some. I won 
this one, and a lot of people ended up on the disagreeing end 
of that win. But I've lost plenty, too.
    Mr. Burton. The gentleman's time has expired.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Mr. Burton. Mrs. Davis, you have the time. Can I convince 
you to yield a little bit of it to me?
    Mrs. Jo Ann Davis of Virginia. Yes, Mr. Chairman.
    Mr. Burton. Or do you have questions?
    Mrs. Jo Ann Davis of Virginia. I have one question, and I 
would be happy to yield the balance, if that is OK.
    Mr. Burton. Proceed. No problem.
    Mrs. Jo Ann Davis of Virginia. First, Mr. Holder, I would 
like to say that I have heard very good things about your 
reputation, and I appreciate you being here today. But having 
said that, I believe I heard you say earlier that you knew Mr. 
Rich was a fugitive, and you thought it was remarkable that you 
were even discussing the pardon.
    Given that, would it not have been prudent the night on 
January 19th, when you talked to Beth Nolan, I believe it was, 
rather than saying you were neutral but leaning favorable, 
would it not have been prudent to say, hey, we haven't seen the 
petition. The Justice Department cannot give a recommendation 
on this knowing he's a fugitive. Perhaps we should not give the 
pardon at this time.
    Mr. Holder. Yeah. And I think that's what I was saying to 
her. As I said before, I had a conversation with her previously 
where I used the term ``neutral,'' and said I was neutral 
because I had not had a chance to look at the materials, the 
relevant materials. So when I used the term ``neutral'' again 
on January 19th, what I was conveying to her, I hope, was that 
the position I had or the reason I was neutral was the same, 
but that given this added new thing, the foreign policy 
possibility, that would be something that might move me toward 
favorable.
    Mrs. Jo Ann Davis of Virginia. And you don't think that led 
her to believe, then, that the Justice Department would be in 
favor of it? Don't you think you should have said you had not 
spoken to the prosecuting attorneys?
    Mr. Holder. Well, I think--I did--that's what I conveyed, I 
think, in that earlier meeting, as I said in that early 
conversation that I had with Ms. Nolan, when I said neutral 
because I don't have a basis to form an opinion.
    Mrs. Jo Ann Davis of Virginia. I'd yield the balance of my 
time back to Mr. Chairman.
    Mr. Burton. Thank you very much.
    Mr. Holder, you said, I asked a senior career person on my 
staff to look into the matter, the Rich matter. And ultimately 
the prosecutors in the U.S. Attorney's Office declined to meet 
with Mr. Quinn. Neither I nor anyone on my staff ever pressed 
the prosecutors to have the meeting.
    You know, I think it's been brought up earlier that it was 
strange that your subordinates in the Justice Department would 
not adhere to your wishes, or the people that you designated 
this task to, they would not adhere to your wishes by meeting 
with Mr. Quinn.
    And then I read that Mr. Quinn says in this e-mail, I think 
we've benefited from being under the press radar. Podesta--who 
was working at the White House at the time, I guess, wasn't he?
    Mr. Holder. Yes, sir.
    Mr. Burton. Podesta said as much. So Podesta was aware of 
this, one of the advisors to the President. And Podesta said, 
you know, it's kind of nice that you guys are keeping this 
under the radar. You didn't press the people in New York to 
meet with him, and that was to their benefit. And the reason it 
was to their benefit, it appears to me, is because if they 
didn't meet with him, this wouldn't come up on the radar 
screen. They wouldn't be raising cane about, you know, not 
meeting with him--they wouldn't be raising cane about the 
pardon of Mr. Rich because it wasn't on their radar screen. 
There was no meeting. The meeting was turned down, and you just 
let the thing go.
    Mr. Holder. But at the time of the meeting, the pardon 
request had not been made. That was before the--Mr. Quinn had 
indicated, I guess, in late November----
    Mr. Burton. Nevertheless----
    Mr. Holder [continuing]. Almost a year later.
    Mr. Burton. Nevertheless, once they start asking questions, 
and I think it was at the SEC, somebody got the word over 
there, and they opposed very much this possible pardon, and 
they wanted to keep this--and I think it's very clear from Mr. 
Quinn's e-mail that, I think we've benefited from being under 
the press radar. Podesta says as much.
    So it looks like the White House and Mr. Quinn is in 
cahoots, saying, you know, this is under the radar screen, 
that's good, that maybe we can get this pardon done for Mr. 
Rich.
    And then you aren't able to get a meeting for him with the 
people at the New York office of the Justice Department, the 
U.S. attorney's. And so it was kept under the radar screen.
    Let me just proceed with another question.
    Mr. Holder. Again, Mr. Chairman, the meeting was well 
before----
    Mr. Burton. I know.
    Mr. Holder. Almost a year before.
    Mr. Burton. But was it about Mr. Rich?
    Mr. Holder. Yeah, but it was not about the pardon.
    Mr. Burton. I know. But the point is this gentleman was 
very close to the President of the United States, very close. 
He was the chief counsel to the President. If the former chief 
counsel of the President goes and talks to two attorneys at the 
New York District Attorney's Office and asks about Marc Rich, 
then it's going to come up on their radar screen, hey, 
something is going on here.
    So when you kept them--when the meeting wasn't held, then 
it's very clear to me, maybe not to anybody else, that this was 
kept below the radar screen.
    Mr. Holder. But the people in the Southern District clearly 
knew that it was Mr. Rich who was seeking the meeting--I mean, 
Mr. Quinn on behalf of Mr. Rich.
    Mr. Burton. Yes, I understand. But there was no meeting 
held, so they probably thought the whole issue was being 
dropped.
    Let me just ask this question. I asked you earlier about 
Shirah Neiman.
    Mr. Holder. Shirah Nieman.
    Mr. Burton. You talked to her on the day before the pardon 
was issued. In fact, you talked to Beth Nolan at 6:30, I 
believe. And you talked to this lady, who is a deputy U.S. 
attorney in the Southern District of New York about 11 o'clock. 
Do you remember what you talked to her about?
    Mr. Holder. No, I do not.
    Mr. Burton. Was it about Marc Rich?
    Mr. Holder. I don't think so.
    Mr. Burton. You don't think so. Can you say categorically 
it wasn't about him?
    Mr. Holder. Yes, I can say that we did not discuss Marc 
Rich.
    Mr. Burton. Did you discuss pardons at all?
    Mr. Holder. I don't know. I don't know. There was an 
ongoing conversation that day, that night, that I found out 
about between people on my staff, the pardon attorney's office, 
and people in the Southern District about New York matters that 
were possibly being considered for pardons.
    Mr. Burton. What other pardons were pending that dealt with 
the Southern District of New York? Were there a lot of them?
    Mr. Holder. I think they are called the New Market cases. 
I'm--involving some Hasidic Jewish folks. I think they're New 
Market. That's the name of it.
    Mr. Burton. We're aware of that pardon as well, which is 
kind of controversial. But, nevertheless, it's hard for me to 
believe or understand why they would talk about other cases 
that were pending for pardon and not discuss the Marc Rich 
case. And it's hard for me to believe that you would be talking 
to them about pardons and not mention the Marc Rich case since 
this was, you know--was a topic that was highly on--high on the 
agenda at that time.
    I mean, Mr. Podesta at the White House knew about it. Mr. 
Podesta, a close advisor to the President, had talked to Quinn, 
said, hey, this is fortuitous that it's being kept under the 
radar screen. And it's hard for me to believe that the 
President didn't know about it at that time.
    So, you know, I mean, for you not to discuss it with this 
lady when you called if you were talking about pardons just 
boggles my mind. But you say you didn't talk to her.
    Mr. Holder. Well, she called--I was returning--she called 
me, as I think this is the way it came in.
    Mr. Burton. She called you at 10. You called her back at 
11.
    Mr. Holder. Yeah. So obviously we are discussing something 
that she wanted to raise. I don't remember what it was.
    Mr. Burton. We'll contact her and ask her then.
    Mr. Quinn, do you want to respond?
    Mr. Quinn. Mr. Chairman, in the interest of accuracy, just 
in the interest of making sure the record is correct, I did not 
myself talk to Podesta. I heard he had said that from a third 
party.
    Mr. Burton. Who was the third party?
    Mr. Quinn. Mike--one of the other lawyers, Mike Green.
    Mr. Burton. But do you have any doubt that Podesta said 
that?
    Mr. Quinn. No. I'm confident that the information is 
accurate, I just wanted to make sure----
    Mr. Burton. So Podesta said it was fortuitous or good that 
it was being kept under the radar screen.
    Mr. Quinn. That was my understanding.
    Mr. Burton. Why would he say that?
    Mr. Quinn. I don't know the answer to that.
    Mr. Burton. You don't know the answer to that?
    Mr. Quinn. Well, I think--I assume he was saying, you know, 
particularly by contrast to the Milken application, you know--
--
    Mr. Burton. Yeah.
    Mr. Quinn [continuing]. Milken is probably not going to get 
pardoned because all these people are out there saying it's a 
terrible idea. But I just wanted the record to be clear it was 
not a direct conversation.
    Mr. Burton. Sure. I understand. But a close advisor to the 
President indicated it was very fortuitous, very good for you 
that this was being kept under the radar screen.
    Mr. Quinn. That's my understanding.
    Mr. Burton. Very interesting.
    Mr. Waxman.
    Mr. Waxman. Thank you.
    Just so I can have some things clarified in my own mind, 
you left the White House when, Mr. Quinn?
    Mr. Quinn. In February 1997.
    Mr. Waxman. Then you went into private practice?
    Mr. Quinn. Yes, sir.
    Mr. Waxman. OK. So you weren't an advisor to the President 
at any time when you were dealing with this whole Rich thing? 
You were a private attorney?
    Mr. Quinn. That's right.
    Mr. Waxman. OK. Now, Mr. Holder, you were contacted about 
getting Mr. Quinn together with the people and prosecutors in 
New York. When was that?
    Mr. Holder. That was in late 1999.
    Mr. Waxman. So that was not about a pardon?
    Mr. Holder. Right.
    Mr. Waxman. That was to try to talk about disposing of this 
case?
    Mr. Holder. Right.
    Mr. Waxman. OK. And then that meeting for whatever reason 
didn't take place.
    Mr. Holder. That's correct.
    Mr. Waxman. OK. Now, Mr. Quinn told us that he thought, 
after trying to work this thing out, representing his client, 
that the only hope they had was a pardon. So he initiated a 
petition for pardon. That's a year later; isn't that right?
    Mr. Holder. Approximately, yes.
    Mr. Waxman. OK. And I think a lot of Members will get 
confused because they're really unrelated. I think the chairman 
thought maybe you didn't arrange a meeting with the people in 
New York because you didn't--one of you didn't--want them to be 
able to raise opposition to the pardon. Well, that couldn't 
have been on your mind at that point because there was no 
pardon pending.
    Mr. Holder. No. In fact, I was trying to facilitate the 
meeting. I thought that there would be a purpose to having the 
meeting. So I was in favor of having the meeting occur.
    Mr. Waxman. Now, all I know about Mr. Podesta's statement 
is what has been cited here today that someone heard that he 
said, good thing this was below the radar screen. Well, I 
recall at the end of last year the New York Times was reporting 
regularly about the pardon request for Michael Milken. And 1 
day they said, he certainly is going to be pardoned. The next 
day it was in doubt. No one knew what was going to happen with 
that pardon until the end, and then he wasn't pardoned.
    And here was a man who certainly showed contrition, did an 
enormous amount for charity, contributed to society, and showed 
rehabilitation. So a lot of people thought that there was a 
good case for him to be pardoned.
    I would interpret, without knowing what was in Mr. 
Podesta's mind, that if you have something that is being 
mentioned that is potentially controversial in the press every 
day, that you're inviting a lot of opposition. Isn't that the 
way you would have interpreted it, Mr. Quinn?
    Mr. Quinn. That's precisely how I interpret it.
    Mr. Waxman. If you're trying to get something for your 
client, you don't want a lot of opposition to be drawn to your 
request. That's not saying you didn't want the President to 
have all the information, you just don't want a lot of people 
to start weighing in on it.
    Mr. Quinn. That's correct. And I don't think it would be 
fair to read into Mr. Podesta's comments any purpose on his 
part to be helpful to this effort.
    Mr. Waxman. You left the White House counsel's position in 
1997. You talked to Mr. Holder in 1999 and then in the year 
2000. That was within the 5-year period, although you have an 
interpretation where you don't feel you violated the ethics 
rules.
    Let's say it hadn't been 5 years later, Mr. Holder. Would 
you have been any more influenced with Mr. Quinn coming to you 
had it been 5 years or 2 years or 3 years? You knew he was 
representing a private client.
    Mr. Holder. No. I mean--no.
    Mr. Waxman. These waiting periods, on the revolving door. I 
mean, you're an attorney. You were an attorney before you went 
to work at the White House. You were the White House counsel. 
Then you went back into private practice. I think----
    Mr. Quinn. Right.
    Mr. Waxman [continuing]. Anybody who dealt with you knew 
you were in private practice. They might like you because they 
know you. They might have thought well of you because you had 
worked at the White House, but those things would be there no 
matter what period of time we're talking about.
    Mr. Quinn. That's correct. And with respect to the contacts 
with Mr. Holder, I should be clear to you that the 5-year rule 
doesn't apply to communications with officials outside the 
Executive Office of the President.
    Mr. Waxman. OK. And then I guess the other thing that I 
thought was just peculiar, I don't have any explanation for it, 
but Mr. Holder said that Mr. Quinn has stated that he sent a 
note about the Rich case on January 10th, and you've never 
received that note. But the Justice Department got that note at 
the desk of the pardon attorney on January 18th. So it was 
mailed on the 10th. Mr. Quinn thought you were getting a note. 
You didn't have any idea of it. It lands on the pardon 
attorney's desk on the 18th, and there was very little time at 
that point to generate the information that you would have 
wanted the White House to have.
    Mr. Quinn. Sir, it was messengered, not mailed.
    Mr. Waxman. OK.
    Mr. Holder. What happened is the executive secretary, the 
folks who handle correspondence within the Justice Department, 
got that document and referred it--seeing it was a pardon 
matter, or interpreting it that way, referred it to the 
pardoning attorney for response.
    Mr. Waxman. So there was a disconnect in what the two of 
you thought was going to happen. You thought, Mr. Quinn, Mr. 
Holder was going to get it. Mr. Holder didn't get it because it 
went somewhere else. Is that a fair explanation?
    Mr. Quinn. Right. And for my purposes, what I want the 
committee to understand is that I wanted Mr. Holder to get the 
letter. I wanted him to get it on the 10th. I sent it because I 
had been told that his views would be important, and so I 
wanted him to see the summary of the argument that I had made 
to the White House in the hope that he would be helpful to my 
effort. But I wanted that letter to arrive.
    Mr. Waxman. Well, just in conclusion, as Members of 
Congress, we have to make decisions all the time. The President 
has to make decisions that are far weightier. In this case, he 
has the exclusive decision over a pardon. But if someone comes 
in to me and makes a case, they usually make their case as good 
as it possibly can be, and it's often quite convincing until I 
hear the other side, and then I have to weigh two competing 
arguments.
    It appears from what we have, for whatever reason, and it's 
not a happy situation, that the President really didn't get all 
the information that he should have had in evaluating this 
request by Mr. Rich for a pardon. I don't think either of you 
disagree with that conclusion--is that safe to say?
    Mr. Holder. I wouldn't disagree.
    Mr. Waxman. If that's the case, then I think we can say 
there was a disconnect, a failure in the process. The President 
was not well served. And he made this decision out of ignorance 
to a great extent without getting all the information, which 
means he made a bad judgment. And we all wish he would have 
made a better judgment with all the facts.
    But that, again, illustrates the point that I made in the 
very beginning of this hearing. If he made it on that basis, 
and it was a decision that we can now say, looking at all of 
the information, was a wrong decision, it doesn't show any 
illegality. It doesn't show any corruption. It shows that the 
President was poorly served. This was a--no one doubts--a very 
smart man. I think if he had all the information, he would have 
been able to weigh it a little more carefully. He might have 
agreed with Mr. Quinn still on the indictment itself and 
whether the indictment was proper, but he might not have.
    Mr. Quinn. I'm glad you added that, because I don't want to 
leave the impression that I have changed my view on this. I 
think he made the correct decision.
    Mr. Waxman. Well, you know all the evidence now that 
everybody is bringing to us. And you're telling us that, in 
your view, not only because it's your client, it's your 
personal view as you look at all the evidence, you reach a 
different conclusion that he should be pardoned.
    Mr. Quinn. Absolutely. But to that point, sir, the pardon 
only goes to the indictment. If Mr. Rich is guilty of any of 
these other things that have been addressed today by the 
committee, he's not free and clear of those charges. I mean, 
it's important, I think, to bear that in mind.
    Mr. Waxman. That's a good point.
    Mr. Burton. We understand that.
    Mr. Waxman. I don't think the public fully understood that.
    Mr. Burton. Mr. Platts, could I convince you to yield to 
me?
    Mr. Platts. Thank you, Mr. Chairman. I appreciate Mr. Quinn 
and Mr. Holder making themselves available to the committee, 
but I yield my time back to you.
    Mr. Burton. Thank you, sir, very much.
    First of all, I think it needs to be made very clear that 
the President was not as unaware of all these facts as we're 
being led to believe. He knew about Marc Rich. He knew Mr. 
Rich's wife, Denise Rich. He received correspondence and other 
things about Mr. Rich. He had access to all the security 
briefings. He knew of Mr. Rich's flight from the country. He 
knew he had given up his citizenship. He knew all of that. The 
President knew these things when he pardoned him, and he did 
not, according to what we've been told, he did not look into 
national security issues or CIA issues or FBI issues or 
investigations that may have taken place.
    And you would think when a person who was an international 
figure, who was 1 of the 10--6 most wanted people in the world 
by the FBI, you would think that the President would at least 
check all of those things before he granted the pardon.
    So, you know, I mean, to say the President was not well 
served may be correct, but to say that he wasn't aware of the 
gravity of the situation, I think, is in error. The President 
knew. He had to know that.
    Now, let me just ask a couple of other questions here on 
another issue.
    Mr. Quinn, you worked for Arnold and Porter.
    Mr. Quinn. I did, sir.
    Mr. Burton. And you were getting a retainer of $55,000 a 
month with $330,000 up front----
    Mr. Quinn. Correct.
    Mr. Burton [continuing]. As a retainer, right?
    Mr. Quinn. Yes, sir.
    Mr. Burton. You left them, and I guess the contract stayed 
with them; is that right? What happened? They went on just to a 
fee-for-service with that law firm?
    Mr. Quinn. Yes, sir.
    Mr. Burton. And you have said that you didn't receive any 
fees from Mr. Rich. You said something about a box of 
chocolates. It was all going to be voluntary if you got that. 
That just seems very unusual to me. Don't most attorneys have 
some kind of a contractual agreement when they leave a law firm 
with a new client?
    Mr. Quinn. Yeah. Let me try to explain this to you. The 
fees you just reported were received by Arnold and Porter. And, 
of course, as a partner, and because I had a contractual 
relationship with a firm, I benefited to some extent from those 
fees. To another extent, the fees went to other partners of the 
firm.
    After leaving Arnold and Porter, I did consider and discuss 
with Mr. Fink whether we should have a new arrangement. I came 
to the conclusion that, particularly because of the fact that 
we were unsuccessful in achieving a resolution of this at the 
Southern District, and because I didn't think, frankly, there 
would be that much more additional time in it, and because I 
believed that the earlier payments had been fair and 
reasonable, that I would see this through to the end simply on 
the basis of the fees we had been paid earlier.
    Mr. Burton. So you received nothing further from Mr. Rich?
    Mr. Quinn. I have not received any further fees from him on 
this pardon matter.
    Mr. Burton. Have you received any fees from him for 
anything?
    Mr. Quinn. No, sir.
    Mr. Burton. You've received no fees from Marc Rich or his--
how about any of his companies or friends or associates?
    Mr. Quinn. No, sir.
    Mr. Burton. All that was received was from the--to the law 
firm that you previously worked with?
    Mr. Quinn. Right.
    Now, it is clear to me that, as we move forward in the 
future, I can bill him additional fees. It's clear to me that 
I'm going to have to spend some additional time on this. And as 
you've no doubt noticed, I've had to retain my own counsel, and 
I expect to be reimbursed for that. But I had no contingency 
fee arrangement with him. I had no success fee arrangement with 
him. He is not legally obligated to pay me anything.
    Mr. Burton. Do you have any kind of an understanding where 
he is going to give you a lump sum of money or funds down the 
road for the services you've rendered?
    Mr. Quinn. No, sir. The only understanding I had was that I 
would be able to bill him additional--reasonable additional 
fees for additional services. I had no agreement that I'm going 
to get any lump sum of money down the road.
    Mr. Burton. You know, he's one of the wealthiest men, I 
guess, in the world. I mean, he's the No. 1 commodities trader 
in the world, as I understand it. And it just seems unusual 
that you would--that you would be representing him, getting him 
a pardon from major crimes, one of the six most wanted people 
in the world by the FBI, you get this pardon for him, and you 
don't get anything for it, just because he's a good-looking 
guy, I guess.
    Mr. Quinn. Congressman, I'm on the losing end of this 
discussion because--no matter which way I had done it, because 
if I had had the kind of commitment to receive some large lump 
sum down the road, I'm sure you'd be very critical of my having 
done that.
    Mr. Burton. Yes, probably. That's why I'm asking these 
questions.
    Mr. Quinn. Right.
    Mr. Burton. But you're not getting any funds here or abroad 
or anyplace else----
    Mr. Quinn. No, sir.
    Mr. Burton [continuing]. From Mr. Rich?
    Mr. Quinn. None abroad. But, again, let me be clear----
    Mr. Burton. Yes.
    Mr. Quinn [continuing]. I anticipate of being able to bill 
him additional fees for my services, and I anticipate receiving 
from him reimbursement for the legal expenses that I have to 
incur.
    Mr. Burton. And you're going to bill him on the regular or 
what's considered a reasonable lawyer's fee per hour.
    Mr. Quinn. Yes, sir.
    Mr. Burton. But no lump sums, no money coming in from 
anyplace else?
    Mr. Quinn. No, sir. I have no such commission.
    Mr. Burton. If I ever get in trouble, would you do that for 
me? I mean, I would really like you to do that for me for 
nothing. I mean, maybe I look half as good as Mr. Rich, I don't 
have his money, but I could sure use the help if I have legal 
problems if I could get you to do that for nothing. You're a 
heck of a guy.
    Mr. Quinn. Well, I don't think it's right to say I'm doing 
it for nothing. I was finishing up at a matter for which I was 
paid.
    Mr. Burton. But the money is at the law firm over there. 
Are you still getting money for that? Are you still getting 
fees for that?
    Mr. Quinn. No, but I did.
    Mr. Burton. I see. But when you left, you left----
    Mr. Quinn. When I left, I left.
    Mr. Burton. Yeah.
    Mr. Quinn. But, again, I didn't think that I needed to--
there weren't that many additional hours involved. He had paid 
a generous fee at the time.
    Mr. Burton. My counsel said there was 60 to 100 hours that 
you put in. Is that correct?
    Mr. Quinn. On--yeah, I think that was my estimate of how 
much additional time I have spent.
    Mr. Burton. Sixty to 100. May I ask what you charge an 
hour?
    Mr. Quinn. Over a pretty long period of time.
    Mr. Burton. Yeah, but most attorneys around this town 
charge $500 an hour or so. I mean, you probably charge more 
than that. But 100 hours, you know, at $500 an hour is a pretty 
good chunk.
    Mr. Quinn. Again, but I'm trying to be very precise here. 
It has always been clear to me that if I put in significant 
additional time on that matter, that I would be able to be 
compensated for it. But what I am telling you is that I had no 
specific arrangement with him. I had no contingency fee. I had 
no success fee promise. I had no commitment from him to pay me 
a particular sum of money.
    Mr. Burton. Mr. Barr.
    Mr. Barr. Thank you, Mr. Chairman.
    Mr. Holder, looking back on this case, is it clear in your 
mind now that Mr. Rich should not have been granted the pardon?
    Mr. Holder. I think somebody asked me a question similar to 
that before. I wasn't exposed to everything. I can't know all 
that the President considered. The question that was put before 
was knowing all----
    Mr. Barr. Well, in your opinion.
    Mr. Holder. Knowing all that I know now, would I have made 
a recommendation against the pardon; and the answer to that was 
yes. Knowing everything that I know now, I would have 
recommended against it.
    Mr. Barr. Was the pardon attorney ever made aware of this 
case before the pardon was granted?
    Mr. Holder. They received on the 18th that letter from Mr. 
Quinn that was sent to me but got routed to them, the January 
10th letter to me that enclosed the January 5th letter to the 
President from Mr. Quinn. So that would be the night before--
the day before.
    Mr. Barr. What did they do with that?
    Mr. Holder. As I understand it, the pardon attorney 
prepared a draft of some sort, which I have not seen--draft of 
some sort indicating that Mr. Rich, for some reason, didn't fit 
the criteria for a person eligible for a pardon. But I've never 
seen the draft.
    Mr. Barr. So it's your impression that they were opposed to 
the pardon?
    Mr. Holder. As I understand--again, I've not seen the 
draft, but that is my understanding, that for technical 
reasons.
    Mr. Barr. Mr. Chairman, have we subpoenaed that? Will we 
get that?
    Mr. Burton. Excuse me, I was reading something.
    Mr. Barr. Apparently in response to the two letters that 
Mr. Quinn sent to Mr. Holder, but which Mr. Holder never got, 
they were mistakenly routed or routed to the pardon attorney.
    Mr. Burton. Uh-huh.
    Mr. Barr. And Mr. Holder said it's his impression that they 
prepared a document in response to that, and the sense, it 
would seem to me, is that they had objections to the pardon. We 
don't know that because we haven't seen it. Can we get that 
document?
    Mr. Burton. Yes. We would like to request that. But if 
necessary, we will be glad to send a subpoena for it. 
Hopefully.
    Mr. Holder. Again, I've heard about this document, and I'm 
sharing this with you. I don't know 100 percent that exists.
    Mr. Burton. If the gentleman would yield, that document 
would be at Justice right now; would it not?
    Mr. Holder. I assume so. I have never seen it, but I assume 
it will be.
    Mr. Burton. We will instruct our staff--OK. We'll check 
into that, and, if necessary, we will have the staff contact 
Justice about that.
    Mr. Barr. Did the Southern District of New York oppose the 
pardon?
    Mr. Holder. You mean before the--they never weighed in on 
the pardon. They were never contacted.
    Mr. Barr. OK. So they didn't even know that a pardon 
request or a petition had been submitted.
    Mr. Holder. That's correct.
    Mr. Barr. How about the FBI?
    Mr. Holder. Did not weigh in.
    Mr. Barr. NSA?
    Mr. Holder. No.
    Mr. Barr. CIA?
    Mr. Holder. No.
    Mr. Barr. State?
    Mr. Holder. No. Again, there were no contacts between the 
Justice Department and these agencies.
    Mr. Barr. I'm confused, Mr. Quinn. I thought you said you 
were really searching for--I think the word you used was a 
robust exchange of ideas and discussion about this case. 
Nothing about this seems to be robust.
    Mr. Quinn. I used that, I believe, sir, in the context of 
saying that it was my understanding from the remarks Mr. 
Podesta made recently on a Nightline show that there had been 
such a discussion within the White House.
    Mr. Barr. There certainly was nothing robust about any 
discussions anywhere in the Department of Justice.
    Mr. Quinn. I think that's fair.
    Mr. Barr. Was Mr. Clinton keenly interested in this pardon?
    Mr. Holder. Mr.----
    Mr. Barr. Did he take a special interest in it?
    Mr. Holder. I'm sorry, Mr. Keen?
    Mr. Barr. Mr. Quinn--Mr. Clinton, the former President.
    Mr. Holder. I have never discussed the pardon with him.
    Mr. Barr. I'm talking with Mr. Quinn.
    Mr. Holder. Oh, I'm sorry.
    Mr. Barr. Was the President robustly engaged in this?
    Mr. Quinn. Well, again, when I spoke to him, I came away 
with the impression that he was familiar with the argument that 
was made in my filing. And I'm also of the impression from 
these comments that Mr. Podesta made and otherwise that there 
was a fair amount of discussion about this matter, at least in 
the White House.
    Mr. Barr. You may be right about that.
    Exhibit 63, please, this is an e-mail from Avner Azulay, 
who works for Marc Rich, to you, Mr. Quinn, on January 10. I 
believe item 2 indicates an e-mail that DR, Denise Rich, I 
presume, called from Aspen. Her friend B, as in Barr, but not 
Bob Barr, who was with her got a call today from POTUS, 
President of the United States, who said he was impressed by 
JQ's--I presume that's you--last letter, and that he wants to 
do it and is doing all possible to turn around the White House 
counsels. DR, Denise Rich, thinks he
sounded very positive, but that we have to keep praying on the 
activity and all this. There shall be no decision this weekend, 
and the other candidate, Milken, is not getting it.
    One question I have for you, Mr. Quinn, is who is B?
    [Exhibit 63 follows:]

    [GRAPHIC] [TIFF OMITTED] T5593.563
    
    Mr. Quinn. I believe it's a friend of Denise's, Beth 
Dozoretz.
    Mr. Barr. Finance chair of the DNC?
    Mr. Quinn. Former. Was. I think hasn't been for at least a 
year. That's my impression anyway.
    Mr. Barr. Pardon?
    Mr. Quinn. I don't believe she has been for the last year 
or so.
    Mr. Barr. I think you'll find it's a lot more recent than 
that.
    Mr. Quinn. OK. I don't know when. I know she's not at this 
point.
    Mr. Barr. Why would the President be sharing this 
information with the finance chair of the DNC? What do they 
have to do with it?
    Mr. Quinn. I was on the receiving end of this e-mail, and I 
don't know the answer to that. I was aware of this e-mail.
    Mr. Barr. Work with me, speculate a little bit, why would 
the DNC finance chair be involved here?
    Mr. Quinn. Well, I believe--my impression was that Denise 
and Beth were--have been friends, and that, in fact, they 
grew----
    Mr. Barr. I suspect so.
    Mr. Quinn [continuing]. That they grew up in the same town 
in Massachusetts up north.
    Mr. Barr. Denise Rich is a major contributor to the DNC, 
isn't she?
    Mr. Quinn. I now know that to be the case.
    Mr. Barr. You knew then?
    Mr. Quinn. No, I did not know the extent of her----
    Mr. Barr. See, there you go. I know you may not know the 
extent, that's a weasel word that you used on TV also. You 
certainly knew that Denise Rich was a major contributor to the 
DNC.
    Mr. Quinn. I assume she was a contributor.
    Mr. Barr. You would be right.
    Mr. Chairman.
    Mr. Burton. Yes.
    The call from POTUS, the President, was not to Denise Rich, 
it was to the former chairman of the finance committee for the 
DNC. I wonder why he was calling her and talking about this 
part. I can understand him calling Denise Rich. Why did he call 
the former head of the DNC?
    Mr. Quinn. But let me be clear, I don't know that he called 
her about this.
    Mr. Burton. Didn't it say in the memo? Maybe I misheard.
    Mr. Barr. Clearly it was about this.
    Mr. Quinn. I believe that--my impression was that in the 
course of the conversation they were having she asked him what 
is happening with these two pardon applications, and apparently 
was with Denise Rich at the time, which may have motivated her 
to ask the President in the course of the conversation, but I 
was not of the impression, I want to be careful to say this 
accurately, that the call was placed for the purpose of 
discussing the pardons.
    Mr. Barr. The President is talking with the finance chair 
of the DNC about the Rich pardon and lamenting the fact that 
he's trying to have to turn around all of these recalcitrant 
White House counsels. Why would that be something that would be 
of interest to the finance chair of the DNC?
    Mr. Quinn. Again----
    Mr. Barr. Why would the President feel obligated to tell 
her about this?
    Mr. Quinn. Again, my impression is that these two women 
were friends; that they were together at a time when the 
President called one of them.
    Mr. Barr. If other people had been there, he would have 
discussed it with them, too?
    Mr. Burton. The gentleman's time is expired. My time is 
coming up. I'm going to yield it to you. I just have one 
comment, and then we will go to colleagues on that side, 
because we're going through the second round--finishing up with 
the second round.
    The comments have been made time and again that the 
President was not well served, and he did not know all about 
this, and, yet, here he is talking to the former head of the 
DNC finance committee, talking about this, saying he's got to 
turn White House counsels around so everybody will be on board 
to pardon Mr. Rich.
    This shows very clearly that the President was very engaged 
and had to know about all of these things. Now he chose not to 
look at the national security issues evidently, because as far 
as we know he didn't ask the CIA, the DIA, the FBI or the other 
intelligence agencies, NSA.
    But he did know about this, he was engaged, so engaged that 
in a conversation with the former head of the DNC, when Ms. 
Rich was in attendance, that he went into it in some detail and 
said he was trying to turn White House counsels around.
    You know, that shows, I think, very clearly that he was 
much more involved and aware of this than any of us have 
thought.
    I will yield the balance of my time to you, Mr. Barr.
    Mr. Barr. Thank you, Mr. Chairman.
    Exhibit 67 is another e-mail, Mr. Quinn. I think this one 
is from Bob Fink at the law firm of Arnold & Porter to you----
    Mr. Quinn. Yes, sir.
    Mr. Barr [continuing]. In which he states Mike Green called 
after speaking with Peter who spoke with Podesta. It seems that 
while the staff are not supportive, they are not in veto mode 
and that your efforts with POTUS are being felt. It sounds like 
you are making headway and should keep at it as long as you 
can. Who is Peter? Is that Peter Kadzik?
    [Exhibit 67 follows:]

    [GRAPHIC] [TIFF OMITTED] T5593.568
    
    Mr. Quinn. Yes, sir.
    Mr. Barr. Podesta's personal attorney. Is that who he is?
    Mr. Quinn. That's my understanding, and he's a partner of 
Mr. Green's.
    Mr. Barr. So he's now involved also, along with B. Podesta 
indicated that the White House staff were not supportive of the 
pardon requests.
    If that's the case who other than the President at the 
White House was in favor of it? Was he the only one in support 
of it?
    Mr. Quinn. I genuinely don't know how this broke down at 
the end of the day.
    Mr. Barr. I think you're being too modest. I mean, you knew 
all of these people. You know all of these people. You were 
having a lot of conversations with them. Different names are 
coming up.
    Mr. Quinn. Yes.
    Mr. Barr. I'm sure you didn't go back to your client, and 
say, hey, I have no idea what is going on over there. I suspect 
you did. I'm just trying to get a feel. Was anybody at the 
White House supportive of this other than the President?
    Mr. Quinn. I knew there was significant opposition, 
particularly in the White House Counsel's Office, and that was 
one reason why I made an effort to continue to sharpen the 
arguments and make them more compelling. I'm trying to be 
precise, and I have to tell you that, therefore, that come 
Friday when he makes this decision, I don't know who was in the 
room with him, and I don't know what advice he got from Beth 
Nolan or what he heard Beth say about her conversations with 
Mr. Holder.
    Mr. Barr. Did you only have one conversation with Ms. 
Nolan, Mr. Holder about this?
    Mr. Holder. No, I think I had two. I think I had one on the 
19th and one sometime before that, but I'm not sure exactly 
when. I think I had a very brief conversation, both of them 
were very brief conversations, but I think I had one other one. 
I'm not sure exactly when.
    Mr. Barr. Apparently, I don't want to put words in 
anybody's mouth, but apparently Ms. Nolan was, I don't know, 
was she in favor of this petition, Mr. Quinn? What was her 
position?
    Mr. Quinn. Again, Congressman, I know that at some point 
she was not favorably disposed, but I do not know what her 
advice was at the time he made the decision.
    Mr. Barr. Did she ever make her views known or her position 
made known to you, Mr. Holder?
    Mr. Holder. No, she did not.
    Mr. Barr. What did you all talk about?
    Mr. Holder. We had very, very clipped conversations. As I 
indicated before, the conversations would start out with a 
process question of trying to get the Justice Department to be 
more efficient in the processing of pardons and then just kind 
of----
    Mr. Barr. How can they be more efficient if the White House 
isn't telling you what is going on? In fairness to you all, 
didn't you say, hey, look if you want us all to be more 
efficient, why don't you tell us what is going on?
    Mr. Holder. You have to understand, I don't know at that 
point that there are things that are not being presented to the 
Justice Department. I was talking about things that we had at 
the time.
    Mr. Barr. You had to have known. How could you not know? 
You knew that the Southern District of New York, the people who 
prosecuted the case, were opposed it.
    Mr. Holder. I was talking about other parties. There are--I 
thought you were referring to the other 40 or some at the 
Justice Department.
    Mr. Barr. You said that in here. You said that law 
enforcement in New York was strongly opposed to it. You knew 
they were going to oppose it.
    Mr. Holder. Yeah.
    Mr. Barr. That's your testimony.
    Mr. Holder. I'm not sure what the question is.
    Mr. Barr. The question is, you knew that there was a lot of 
opposition to this. I don't want you to legitimately sit there 
and say you didn't know that.
    Mr. Holder. That's right, and I tried to convey that to Ms. 
Nolan when I said that I was neutral, but that there were 
people in law enforcement were opposed to this.
    Mr. Barr. That's conveying opposition.
    Mr. Burton. Would the gentleman yield?
    Mr. Barr. I would hate to see how you would convey a case 
that you really were opposed do.
    Mr. Holder. I think what I actually said was the Southern 
District would actually go nuts; that's what I think I said to 
her.
    Mr. Burton. Would the gentleman yield to me?
    Mr. Barr. Certainly.
    Mr. Burton. Let me tell you, in your telephone calls you 
talked to Nolan seven times on the 19th the day before the 
pardon was granted. And you're saying that there was just a 
cursory conversation twice in those seven calls about Marc 
Rich, even though the President said he was trying to turn 
White House counsels around on this.
    It seems to me Ms. Nolan, if she was opposed to it, would 
have been, you know, hollering to high heaven trying to 
convince the President not to do it, and he said he was trying 
to turn them around so they would all be on board, and you're 
saying you only talked to her twice very briefly.
    Mr. Holder. Yes, but one conversation on the 19th, the 
other conversation I believe was sometime before that.
    Mr. Burton. But you only talked to her only one time out of 
those seven calls about Marc Rich on the 17th?
    Mr. Holder. I think that's correct.
    Mr. Burton. You think that's correct or do you know?
    Mr. Holder. I can't say now 100 percent, but I would be 
about 99 percent certain that we only had one conversation 
about Marc Rich.
    Mr. Burton. We will ask her that one question when we see 
her.
    The gentleman's time is expired.
    Mr. Kanjorski.
    Mr. Kanjorski. Yes. Mr. Quinn, I'm not up on pardon law, 
but I think you've become an expert in the last couple of 
months.
    Pardons obviously don't only apply to American citizens, 
they apply to foreign citizens; is that correct?
    Mr. Quinn. Yes, sir.
    Mr. Kanjorski. By virtue of the fact that the President did 
issue a pardon, does that resolve what Mr. Rich's citizenship 
is by receiving and accepting that pardon from the President? 
Does that wave all of his contention that he hasn't been an 
American citizen for the last 18 years?
    Mr. Quinn. No, sir. And, again, as I commented to Mr. 
Waxman earlier, the pardon only goes to the allegations within 
this indictment. If there are other matters that were not 
addressed by the indictment, whether it's trading with Libya or 
Cuba or anything like that, and if, and I'm emphasizing if, he 
were guilty of some crime, the pardon would not relieve him of 
responsibility for that.
    Mr. Kanjorski. Well, if it's reasonable to believe that 
he's one of the wealthiest men in the world, he's obviously a 
multi-billionaire, and his income must be extraordinary high, 
hundreds of millions of dollars a year, and if he were an 
American citizen for the last 18 months, I think one of the New 
York prosecutors suggested that there's an 18-year tax 
obligation.
    Is there any assurances that were made to the President 
that he wouldn't upon the receipt of this pardon immediately 
reassert that no, I'm not a Swiss citizen or an Israeli citizen 
and therefore I have no tax obligation?
    Mr. Quinn. No, sir, that did not come up. But again the 
pardon doesn't go to that. If it were determined that he 
violated a law, whether it were income tax law or trading with 
Cuba or----
    Mr. Kanjorski. I understand that. But the question is can 
he reassert that he owes no taxes because he's a foreign 
citizen and we've lost the possibility of collecting those 18 
years of taxes?
    Mr. Quinn. I have not discussed with him whether he would 
do that, but I suppose the answer is he could.
    Mr. Kanjorski. Would you help him if he wanted to do that?
    Mr. Quinn. No, sir, I don't think I had be getting involved 
in that matter.
    Mr. Kanjorski. I appreciate that. Just to correct a couple 
of impressions. What I gathered, hearing your testimony 
earlier, that there isn't any question that the President was 
aware of the information in your petition, in your discussions 
with him, it was obvious that he had been briefed or had read 
your petition----
    Mr. Quinn. Yes, sir.
    Mr. Kanjorski [continuing]. And knew the facts? That is not 
to say that he was aware of the other side of the case that 
could have been made but wasn't made or at least we have no 
testimony that it was made to the President; is that correct?
    Mr. Quinn. That's correct.
    Mr. Kanjorski. So regardless of the fact that--of those 
being the facts, it's very possible that he was persuaded on 
just your petition, and that is what he was arguing with the 
White House counsel on, your petition alone, and without the 
benefit of the negative facts?
    Mr. Quinn. I believe that's true, but if I may say so 
again, I have been under the impression, and Podesta said as 
much on the television, that there was significant debate about 
this. There were people who articulated reasons why this 
shouldn't happen.
    Mr. Kanjorski. But do you have knowledge--for instance, did 
the President know that this man was a fugitive, or was he 
getting the impression from your petition that he wasn't a 
fugitive?
    Mr. Quinn. Congressman, I was not privy to those 
discussions, so I can't tell you what arguments were made 
inside the Counsel's Office of the White House. All I can tell 
you is that on more than one occasion, I urged the White House 
counsel to communicate with the Department of Justice and get 
his views.
    Mr. Kanjorski. I understand. But from all of the testimony 
of Mr. Holder and some of the other people, obviously they 
didn't take your advice and they didn't receive the information 
that would have indicated the negative side of the case.
    So the question I have is, do you have any question as to 
whether or not the President knew he was a fugitive, or is it 
possible he accepted your interpretation of the argument and 
your petition and that he wasn't a fugitive?
    Mr. Quinn. I don't know, Congressman, whether or not the 
issue came up over there. But going back to the premise you 
laid, it's not true that he didn't have advice from the 
Department of Justice.
    Now, you may say it came too late or that it was too 
abbreviated or that it didn't involve everyone it should have 
involved----
    Mr. Kanjorski. Maybe I'm a little confused here. I thought 
I heard Mr. Holder say he really wasn't involved, and he had no 
real opinion. And he didn't know--was he dealing with somebody 
else at the Department of Justice other than Mr. Holder?
    Mr. Quinn. No. But let me just point out that on Monday 
afterwards Mr. Holder told me that he had expressed a point of 
view, and he had described it accurately here today--or he 
described it the same way he did to me that Monday, neutral 
leaning toward.
    Beth Nolan, when I said to her that I understood from Mr. 
Holder that had been his point of view, she said to me the 
pardon wouldn't have been granted without his input or without 
his expressing a point of view.
    And, third, the former President said to me that it was his 
understanding at the time he granted it that he had advice from 
the Department of Justice.
    Mr. Kanjorski. So on the basis of that interpretation, what 
Mr. Holder was saying is that he is neutral but leaning in 
favor, if there's a foreign policy consideration was being 
interpreted by the staff at the White House and the President 
that, in fact, the Justice Department was on board, but as 
we've heard Mr. Holder's testimony, that was a false 
impression?
    Mr. Quinn. Yeah, and--but, Congressman, all I can tell you 
is what Mr. Holder said to me, what Ms. Nolan said to me and 
what President Clinton said to me.
    Now, in fact, what each of them said to me is consistent. 
Again, one may say I wish the President had additional input 
from the Department of Justice or input from Mr. Auerbach, but 
what I'm telling you is that President Clinton, White House 
Counsel Beth Nolan, and Mr. Holder all confirmed to me that he 
had made his point of view known.
    Mr. Kanjorski. I have no further questions, Mr. Chairman.
    Mr. Burton. Thank you.
    Mr. Cummings.
    Mr. Cummings. Who had made their point of view known? I was 
just following up on what you just said.
    Mr. Quinn. Right. On the Monday after the pardon was 
granted.
    Mr. Cummings. Just tell me who is. You just said----
    Mr. Quinn. First, I want to be sure you have all three of 
these conversations. On the Monday following the pardon, Mr. 
Holder told me that he had said to the White House counsel he 
was neutral, leaning toward favorable on the pardon.
    I had a subsequent conversation with the White House 
counsel, and I said to her that Mr. Holder had told me that. 
Her response to me, while not confirming his advice in so many 
words, was if Mr. Holder hadn't participated in the process or 
something to this effect, this pardon wouldn't have happened.
    I had yet a further conversation with President Clinton in 
which the subject of my conversation with Mr. Holder came up, 
and I repeated what I understood him to have told the White 
House counsel, and he said to me something to the effect that 
was my understanding, too, or that's my recollection.
    Mr. Cummings. You know, I'm just sitting here and I've got 
to tell you it's very frustrating, because it seems as if we 
have a decision that was made by the President--and I don't 
care how I look at it. I can look at it upside down, right side 
up.
    It sort of reminds me of my 6-year-old when she was 3, she 
would say, daddy, let's go play hide and go seek, and she would 
stand right in front of me and put her hand up to her face and 
say, daddy, you can't find me.
    It just seems to me that there was enough information 
available. I mean, this is the United States of America. This 
is the most powerful government. We've got information flowing 
everywhere. We've got so much information we can't even keep up 
with it.
    It seems to me that the President should have had the 
appropriate information to make this decision. Mr. Holder says 
he didn't--he never got a file. He says that it was a neutral--
he said he was neutral, leaning toward, but that wasn't really 
based on too much information.
    Then you've got Ms. Nolan, who now, correct me if I'm 
wrong, Mr. Quinn, says--I mean, does she have information? Did 
they have the file? Did she have all----
    Mr. Quinn. Yes.
    Mr. Cummings. She had the information?
    Mr. Quinn. Yes. She had what I filed, and she may have 
other materials too, but I don't know that.
    Mr. Cummings. So it just seems to me that the President--I 
don't care how I look at it, it's hard for me to believe that 
he was properly served. I always say that in order to make a 
proper decision, you've got to have proper information. And it 
just seems like a series of errors that happened in this case, 
and I still conclude that what the result was was very unfair.
    It's clear that there is nothing too much we can do about 
this decision. The damage of the decision is far-reaching. I 
don't even think we even understand the damage.
    In about an hour, I'm going to return to the inner city of 
Baltimore, and there will be a few people who can afford cable 
TV, who will have seen this hearing. And they're going to ask 
me about $330,000 retainers and $55,000 a month. They're going 
to ask me about a guy who evaded taxes--I mean, allegedly, 
allegedly evaded taxes, when they can barely afford to go to 
H&R Block to even have theirs filled out.
    They're going to talk about the fact that this is the 
Government of the United States and they're going to say, Mr. 
Cummings, how can that happen when the police are arresting us 
for simple things? I will tell you, some kind of way--and the 
reason why I say it's done so much damage is because if we are 
going to have justice, we must not only have justice, we must 
have the perception of justice, very important.
    When American people lose their faith in this government, 
we've got a problem. I think it was Mr. Barr or somebody said a 
little bit earlier, we were talking about the elections down in 
Florida. I'm not trying to bring this up, but it's a point when 
people lose faith in the process of this government, we've got 
a problem.
    And when President Bush, when we met with him the other 
day, he said he wanted to restore faith. And I hope somebody 
will give him some clips from this, because I hope that when it 
comes time for him to do his pardons that he will have the 
information that is appropriate so that he can make good 
decisions, because I just don't think that we realize how this 
affects people.
    They tell me that there are people who--I've spoken a 
little earlier. The phones rang off the hook, Americans calling 
in when I spoke, saying he's right, and in some kind of way we 
have got to correct this system.
    So I hope that--I hope we learn from this. I hope that--you 
know, I just hope in some kind of way people will realize that 
this is not the way that government is supposed to operate, 
because the little fellow who lives in Indiana in your 
district, Mr. Burton, and the little fellows and little ladies 
that live in my district, they don't even understand this. They 
don't even have a clue.
    Thank you very much.
    Mr. Burton. Thank you, Mr. Cummings. I think you summed up 
the feelings of a lot of us very, very well.
    We will now go to Mrs. Davis.
    You're going to yield to Mr. Barr, and then as soon as Mr. 
Barr concludes his questioning, we will go to the counsel for 
his questions.
    Mr. Barr. Thank you.
    Mr. Quinn, going back to exhibit 63, it goes on, we first 
have the President calling B, Beth, who is the finance chair of 
the DNC. I just want to make sure we all understand the 
President was calling her and tells her he thinks basically 
that you're doing a bang-up job, but it's those persnickety 
White House counsels that are standing in the way, but to keep 
praying.
    The last point that is made, and this is from Avner, who 
sent this e-mail. I shall meet her and her friend next week. 
She will provide more details.
    What was the result of that meeting with the DNC finance 
chair?
    Mr. Quinn. I don't know, sir. I don't know. I mean, there 
may be some other e-mail reporting something further.
    Mr. Barr. If there were, wouldn't they be in the documents 
here?
    Mr. Quinn. Yes, sir. And I just----
    Mr. Barr. But they're not.
    Mr. Quinn. Right. What I'm saying to you is I don't believe 
I heard anything further, any more details about this.
    Mr. Barr. Did this have to do with further contributions? 
Do you know?
    Mr. Quinn. The way I interpret this is that he had a phone 
conversation that he was going to see one or both of these 
people in the next week and would find out additional details 
about the phone conversation. That's what I understood it to 
mean. And to the best of my recollection, I never heard any 
further details about the phone conversation.
    Mr. Barr. That might be something we want to check into 
also, Mr. Chairman.
    Mr. Burton. If the gentleman would yield real briefly.
    Mr. Barr. Sure.
    Mr. Burton. At the top of this memo that Representative 
Barr is referring to right now, there's a big section that says 
redacted. Do you know what that was? I mean, because we would 
like to know what that is in there. This is a pretty relevant 
document.
    Mr. Quinn. No, sir. That redaction, I think the legend down 
here indicates that it came from the Piper Marbury firm, and 
that redaction would have been done by them. I don't know the 
explanation of it.
    Mr. Burton. We will contact them and find out about that.
    Mr. Barr. Thank you, Mr. Chairman.
    Mr. Quinn, what is the HRC option?
    Mr. Quinn. Are you referring to a particular document?
    Mr. Barr. Do you know what that is?
    Mr. Quinn. Is it in this document?
    Mr. Barr. Yes. It's not in that particular one. It's in a 
number of documents. I'm asking if you know what the HRC option 
is.
    Mr. Quinn. Yes. There was a discussion that went back and 
forth about whether or not an effort should be made either to 
solicit the support of Mrs. Clinton for the pardon application 
or at least inform her that it was pending, and there was a 
great deal of discussion about that.
    There was also discussion from time to time about trying to 
enlist the support of others, such as Senator Schumer; you 
know, we would see reports about soliciting the support of King 
Juan Carlos of Spain. In the end, I'm confident that I never 
communicated with the First Lady about this, and I don't 
believe that anyone else did.
    Mr. Burton. Would the gentleman yield very briefly?
    Mr. Barr. Exhibit 43 is--yes, Mr. Chairman.
    Mr. Burton. Let me just followup on that. The Senator 
indicated in a television interview that she was in a meeting 
where pardons were discussed. Were you in a meeting with her 
and the President when she may have discussed pardons?
    Mr. Quinn. No, sir.
    Mr. Burton. She said she took no active role. I believe 
that's what she said. I don't want to quote her incorrectly, 
but she did indicate that she was in a meeting where pardons 
were discussed. And you're saying that you had no knowledge of 
that, were not in any of the meetings with her where that was 
discussed?
    Mr. Quinn. That's correct.
    Mr. Burton. OK. Thank you.
    Mr. Barr. Exhibit 43, which is another e-mail from Bob Fink 
to you and others, I think, and it talks about the HRC option. 
I guess you've cleared that up. That's Hillary Rodham Clinton 
option; is that what that is?
    Mr. Quinn. Again, I'm sorry, I'm not trying to be 
difficult. I just don't see that phrase in here.
    Mr. Barr. Exhibit 43, or you can look at 45 also. It says 
the HRC option. It appears in a number of e-mails. I'm sorry, 
45.
    [Exhibit 45 follows:]

    [GRAPHIC] [TIFF OMITTED] T5593.539
    
    Mr. Quinn. I see it in 45.
    Mr. Barr. It says----
    Mr. Quinn. Again, these reflect the debate that I described 
earlier as to whether----
    Mr. Barr. The robust one?
    Mr. Quinn. No, sir. These reflect the debate that went on 
among lawyers working on this, about whether or not to reach 
out to Mrs. Clinton to seek her support for the party.
    Mr. Barr. You all were considering all of the options?
    Mr. Quinn. Precisely.
    Mr. Barr. Including the political angle here trying to see 
what support you all could get from New York?
    Mr. Quinn. That's right.
    Mr. Barr. Reaching out to possibly Chuck Schumer. Did 
anybody ever stop and think about such things as national 
security, justice?
    Mr. Quinn. It has been my testimony repeatedly here today 
that on more than one occasion I encouraged the White House 
counsel to seek the views of the Department of Justice.
    Mr. Barr. You keep saying that. There's nothing on the 
record that backs you up on that, and you might have suggested 
to him--and I suspect you suggested to him--to call Mr. 
Holder----
    Mr. Quinn. That's right.
    Mr. Barr [continuing]. Because you had conversations with 
him and, apparently, something led you to believe that he would 
back you up.
    Mr. Quinn. I wouldn't go that far, but I thought he was.
    Mr. Barr. You certainly wouldn't encourage people to call 
him if you knew he was going to oppose it, I wouldn't think.
    Mr. Quinn. Look, but I thought I should encourage them to 
call the Department of Justice, and more than that, I expected 
them to. I didn't think they would act on this pardon 
application without consulting with the Justice Department. I 
thought that would happen.
    Mr. Barr. I believe you. I think what the President has 
done here is utterly unbelievable, and that's why some people 
might think that there's some other reason why he would do 
something so preposterous that it even surprised you. And it 
certainly surprises us.
    Mr. Quinn. I think he did it on the basis of the legal 
arguments I put in front of him. Others may disagree with the 
legal arguments I put in front of him and may say that they 
wouldn't have decided it this way, but I have no basis to think 
that he was motivated by anything other than the legal 
arguments.
    Mr. Barr. Why would he talk with the head of the DNC 
finance director; why wouldn't he have shared his legal 
theories with Mr. Holder?
    Mr. Quinn. Look, on that conversation, again, I don't think 
that's a fair characterization of it. As I recall, hearing 
this, my impression was that he had a conversation with this 
person who happened to be with the ex-wife of Marc Rich at the 
time of the conversation.
    Mr. Barr. But the President called this woman. It wasn't he 
called Denise Rich. He called this woman.
    Mr. Quinn. But you're assuming that he called her about 
these pardons, and I don't understand that.
    Mr. Barr. I'm not assuming it at all. All I know is, based 
on the e-mail, they talked about that. Now it may have been the 
purpose of his call; it may not. But they obviously talked 
about it.
    Mr. Quinn. That's right. My impression is that she raised 
these questions in the course of a conversation with him.
    Mr. Barr. So you are somewhat familiar with that 
conversation? Because that isn't what the e-mail says. You're 
adding to it.
    Mr. Quinn. I'm just telling you the impression I came away 
from with it. I did not--in other words, when I read this e-
mail, I did not have the impression that he was calling her to 
discuss these pardons, because I wouldn't have a reason to 
think he would do that that would be the purpose of placing 
that phone call.
    Mr. Burton. Let me take 5 minutes; and if you need time, I 
will be glad to yield to my colleague as well.
    I want to read to you some e-mails. The first one is from--
I don't know who it is, it's from Gershon Kekst, to Robert 
Fink. It says: Good point. Can Quinn tell us who is close 
enough to lean on Schumer? I'm certainly willing to call him 
but have no real clout. Jack might be able to tell us quickly 
who the top contributors are, maybe Bernard Schwartz of the 
Loral Corporation in California that got all of those transfers 
to allow technology to go to China. Bernard Schwartz, the 
largest contributor to the DNC.
    Did you talk to Bernard Schwartz about this?
    Mr. Quinn. No, sir. In fact, I didn't followup on that e-
mail.
    Mr. Burton. You didn't followup on that e-mail?
    Mr. Quinn. In any way.
    Mr. Burton. But you did get that e-mail?
    Mr. Quinn. I did get the e-mail, but I never reached out.
    Mr. Burton. Did you talk to Schumer?
    Mr. Quinn. No, sir.
    Mr. Burton. You didn't talk to Schumer. Did you ask anybody 
to talk to Schumer for you?
    Mr. Quinn. No.
    Mr. Burton. Did you ask anyone to talk to Schwartz for you?
    Mr. Quinn. No.
    Mr. Burton. You didn't?
    Mr. Quinn. No.
    Mr. Burton. This was just a dead issue then?
    Mr. Quinn. It just wasn't something I was going to followup 
on.
    Mr. Burton. OK. Here's another one. Here's another message 
from Avner which you did not receive. Avner is looking for 
suggestions on who could contact the Senior Senator and ask for 
support so that the only request for help from the Jewish 
community is not to HRC. It may be that DR, Denise Rich, can 
play this role as well. What do you think? And what do you 
think of Pinky's suggestion. Who is Pinky?
    Mr. Quinn. That's the other--that's Mr. Rich's partner, 
Pincus Green.
    Mr. Burton. Pincus Green, I see, OK.
    Here's another one.
    Mr. Barr. Excuse me, Mr. Chairman, can I ask what was 
Pinky's suggestion?
    Mr. Quinn. I don't know what that refers to, and there was 
a lot of speculation and a lot of kicking around of ideas that 
were not part of the pardon application I made to the 
President.
    Mr. Burton. We understand that, Mr. Quinn, but I think this 
is one of the things that the American people would like to 
know about----
    Mr. Quinn. Fair enough.
    Mr. Burton [continuing]. What goes on when you're trying to 
get a pardon where you're trying to use influence and money and 
everything else to get it done.
    Mr. Quinn. As long as we're clear that was not followed 
through on. I never----
    Mr. Burton. These were people with whom you did business 
legally, weren't it, that were sending you these e-mails?
    Mr. Quinn. Sure, but that doesn't mean it happened.
    Mr. Burton. I know you were talking about it. How do we 
know it didn't happen?
    Mr. Quinn. Well----
    Mr. Burton. You're telling me it didn't happen.
    Mr. Quinn. Yes, sir.
    Mr. Burton. They're suggesting that you do it?
    Mr. Quinn. Right.
    Mr. Burton. But you didn't do it?
    Mr. Quinn. That's right.
    Mr. Burton. But let's see what they said, OK?
    Mr. Quinn. All right.
    Mr. Burton. I've been advised that HRC, Hillary Rodham 
Clinton, shall feel more at ease if she's joined by her elder 
Senator of New York who also represents the Jewish population. 
The private requests from DR shall not be sufficient. It seems 
that this shall be a prerequisite for her formal position, 
Hillary Rodham Clinton. All senators are meeting on January 3rd 
and then shall take off. Bob can you check with Gershon which 
is the best way to get him involved. I shall check with Abe. 
Who is Abe?
    Mr. Quinn. I think that's a reference to a man named Abe 
Foxman.
    Mr. Burton. Who is he?
    Mr. Quinn. He is senior official of some American Jewish 
organization. I'm not sure which one.
    Mr. Burton. But I see in this other memo that we talked 
about, exhibit 45, a while ago, once again it says in this 
memo, thus I think we, but mostly you and Avner, should discuss 
the possibility of call from Denise and Abe maybe together; 
otherwise, I would have you to do what you are already doing 
and volunteer our help if there are any questions raised by the 
White House lawyers or by the SDNY, Southern District of New 
York, if it is contacted.
    So Denise and Abe evidently were asked to work together to 
try to use their influence on this?
    Mr. Quinn. But, Mr. Chairman, I do not believe that ever 
happened.
    Mr. Burton. All of these e-mails and all of these memos and 
all of this stuff suggesting people you can go to push the 
buttons to get the pardon for Mr. Rich and Mr. Green, none of 
that ever happened?
    Mr. Quinn. I do not believe----
    Mr. Burton. No, no. You say you do not believe. You know, 
we've had the White House people----
    Mr. Quinn. You have me under oath. I want to be careful----
    Mr. Burton. I understand. We've had you before--and I want 
to clarify one point. We've had a lot of people before the 
committee from the White House before, Mr. Ruff, God rest his 
soul, and others, and they always say I do not believe, I can't 
remember, I don't recall. All of those are very good things to 
do to make sure you don't step in a bear trap.
    Mr. Quinn. Right.
    Mr. Burton. But you're not saying categorically that none 
of this happened.
    Mr. Quinn. I'm saying that I believe it did not happen.
    Mr. Burton. You're not saying categorically it did not 
happen?
    Mr. Quinn. Well, because, Mr. Chairman, I'm under oath, OK? 
I am telling you that it is my testimony that as far as I know 
this did not happen. I did not----
    Mr. Burton. As far as you know, it could not happen? You do 
not believe it could not happen?
    Mr. Quinn. I did not participate in following up on any of 
this.
    Mr. Burton. You did not in any way participate?
    Mr. Quinn. In following up on these suggestions, OK?
    Mr. Burton. On these suggestions?
    Mr. Quinn. I do not believe that anyone approached Senator 
Schumer. I do not believe that anyone approached Senator 
Clinton. That's the best I can do, sir.
    Mr. Burton. But you do not believe. But it was suggested by 
your law partners to you and to others that these were avenues 
that should be pursued and that maybe if certain people got 
together that some would come along?
    Mr. Quinn. Yes. There's no doubt those ideas were 
suggested, and I think that they died there. But that's----
    Mr. Burton. OK. I think that we will now go to the counsel 
for his questions, and then we will adjourn this.
    I will tell you this, though, we will be looking at other 
documents and, if necessary, subpoenaing documents and other 
individuals; and if they take the fifth amendment or choose not 
to testify, we will get them immunity and we will force them to 
testify. Because there's so many questions being raised about 
possible influence--I don't want to put words in your mouth--
possible influence, peddling and possible other things, that we 
just can't let this thing die.
    And I understand that the new President wants to move ahead 
with his agenda, and I am for that. Tax cuts and all the things 
we're talking about, education reform and everything, I'm for 
that. And I wish him well, and we want to work with him to do 
that and move on from this.
    But today additional questions have been raised that must 
be answered if we're going to get to the bottom of this, and so 
we will now yield to general counsel for his comments.
    Mr. Quinn. May I take a 5-minute men's room break?
    Mr. Burton. You have to do something about your bladder.
    Mr. Quinn. I keep drinking this water.
    Mr. Burton. All right. We will take a 5-minute break.
    [Recess.]
    Mr. Burton. We will now resume. Mrs. Davis.
    Mrs. Jo Ann Davis of Virginia. Thank you, Mr. Chairman.
    Referring to exhibit 65, an e-mail from Avner dated Friday, 
January 12th, to Jack Quinn. It says, following Marc Rich's 
meeting with the Prime Minister, the latter called the 
President of the United States this week, and the President of 
the United States said he is very much aware of the case, in 
quotes, that he is looking into it, and that he saw two fat 
books which were prepared by these people.
    We've heard a lot of testimony here that the President 
didn't have all the information. What is the two fat books and 
who are these people?
    [Exhibit 65 follows:]

    [GRAPHIC] [TIFF OMITTED] T5593.566
    
    Mr. Quinn. I think the two volumes were the pardon 
applications, which was filed in two parts, and these people I 
think refers to me and the other lawyers who submitted the 
petition.
    Mrs. Jo Ann Davis of Virginia. So he was well aware of the 
pardon request and all of the information going on on the 12th. 
That's 8 days prior to his final day. So it wasn't like he just 
got the information on the 19th and had to give a quick 
decision.
    Mr. Quinn. That's right. And, in fact, when I heard this, 
you know, I was encouraged that he was actually looking, 
because he clearly had the petition itself.
    Mrs. Jo Ann Davis of Virginia. Thank you, Mr. Chairman.
    Mr. Burton. We will now go to the counsel and try to wrap 
this up.
    Mr. Wilson. I will try and go quickly. I've got a number of 
subjects to cover, so I will go quickly.
    Mr. Quinn, the Chair asked you some questions about 
compensation. Mr. Quinn, the chairman asked you some questions 
about compensation earlier. Apart from your attorney's fees, 
will you accept any money from Mr. Rich in the future?
    Mr. Quinn. Well, look, I don't think it would be fair to 
ask me to commit never to accept moneys from him. As I've said 
to you, if I do work that justifies my billing him for it, I 
will do so. I expect to be reimbursed for the expenses I'm put 
to in connection with this. Those are the only moneys I 
anticipate receiving from him.
    Mr. Wilson. But as far as your work done in pursuit of 
obtaining a pardon for him, you do not anticipate him--you're 
not going to ask him to pay you any money?
    Mr. Quinn. That's correct.
    Mr. Wilson. You're not going to accept any money if he did 
offer it to you; is that correct?
    Mr. Quinn. I only anticipate receiving from him moneys in 
connection with work I may do.
    Mr. Wilson. My question was, will you accept any money if 
he offers it to you for the work you did in obtaining the 
pardon?
    Mr. Quinn. I have no idea what he might offer. It's a 
hypothetical question. I don't think I should be required to 
say----
    Mr. Wilson. It's not a hypothetical question. It's a very 
clear question. If Mr. Rich offers to pay you money in the 
future for work you did in pursuit of obtaining his pardon, 
will you accept it or will you not accept it?
    Mr. Quinn. I will not bill him, and I will not accept any 
further compensation for work done on the pardon.
    Mr. Wilson. Fair enough.
    Mr. Holder, could you please describe for us, just so we 
have this clear in the record, each of your contacts with the 
White House, anybody employed in the White House?
    Mr. Holder. I think there would be two, the two 
conversations that I've described with Ms. Nolan.
    Mr. Wilson. And those are the extent of your contacts on 
the Marc Rich matter, correct?
    Mr. Holder. I believe that is right. Yes, I think so, the 
one on January 19th and one that happened sometime before that.
    Mr. Wilson. And what was the duration of each contact as 
far as the Marc Rich matter was concerned?
    Mr. Holder. I mean, it's hard to say, but I really think a 
couple of minutes, I mean, or perhaps even shorter than that. I 
mean, these are very clipped conversations, very abbreviated 
conversations.
    Mr. Wilson. OK. Mr. Quinn, do you know whether or not 
former President Clinton has ever met Marc Rich?
    Mr. Quinn. I have no reason to think he has. I don't 
believe he has.
    Mr. Wilson. OK.
    Mr.  Quinn. But I don't know that firsthand. I don't 
believe he has.
    Mr. Wilson. One thing we discussed earlier was the material 
that you provided to Mr. Holder. I'm directing this at Mr. 
Quinn. You sent him a cover letter and a two-page letter, and 
it was misdirected, and we covered that at some length earlier 
on. Why did you not send Mr. Holder the pardon application?
    Mr. Quinn. I believed that a good deal of the material 
included in the pardon application consisted, at least in their 
central parts, of the materials that I had provided to him in 
October 1999 when he asked Mr. Margolis to take a look at this 
matter. But you're correct. I did not at that time send him a 
copy of the full pardon petition.
    Mr. Wilson. The question was, why did you not do that? Is 
it because you thought he had all of the material from over a 
year previous?
    Mr. Quinn. Well, I thought he was sufficiently familiar 
with the underlying case that, when he was asked, he would be 
in a position to advise the White House.
    Mr. Wilson. That's an interesting observation, because the 
pardon application you prepared is comprised of many tabs. The 
first tab is your legal reasoning as to why Mr. Rich merited a 
pardon. Had you prepared that in 1999?
    Mr. Quinn. No, but I had prepared to Mr. Holder a summary 
of the flaws and the indictment in the case.
    Mr. Wilson. But you had not provided the extent of your 
ultimate argument to the President, so you didn't feel that he 
needed to see that?
    Mr. Quinn. Well, again, I think, in fairness, you have to 
say, if you look at the material I provided to him earlier 
about the flaws in the indictment, you will see that it was the 
same argument made in the pardon petition.
    Mr. Wilson. The concern that we feel, and you can help us 
answer the concern or disabuse us of our error, is that when 
you prepare--I worked in big law firms, and you prepare large 
binders of your material, and you're generally very proud of 
them. You work very late into the nights. You get everything 
just right. You make sure that every comma is appropriate and 
every period is there.
    Because you're proud of your work, and you believe in your 
work, you want to provide it to people. It's not a matter of 
how much it costs, because that's not the issue. You would like 
to provide it to people so they can see the extent of what you 
are representing in whatever matter you're pursuing.
    And, generally, it seems when you don't provide material to 
people it's because you don't want them to review it or you 
don't want them to poke holes in it or perhaps find a flaw. I 
mean, the courts require briefs. You have to provide them so 
they can see your legal reasoning.
    In this case, were you concerned that if you provided Mr. 
Holder your application that Mr. Holder might send it on to 
somebody who might actually read it and look at it?
    Mr. Quinn. Absolutely not. Again, I had provided these 
arguments to him at an earlier point.
    Mr. Wilson. You haven't provided all of the arguments, all 
the letters and all the other things in the tabs. You couldn't 
have provided them previously.
    Mr. Quinn. Fair enough. The other point I was going to make 
is, as I said earlier, I encouraged the White House Counsel's 
Office to reach out to him, and there's no reason in the world 
why they couldn't have shared a copy of the pardon petition 
when they did so.
    Mr. Wilson. I understand, but I've not yet heard of a 
lawyer who has decided to take a weak argument and leave it on 
the table when he's strengthened his argument. And presumably 
the point of the pardon application is you've made it bigger 
and better and more thorough, and you've put all the letters 
in, and you've gotten everything just right.
    And if you believed in your argument, it seems, and if you 
thought it would withstand the scrutiny of Southern District 
lawyers or Mr. Holder's staff or the pardon attorney, it's hard 
for us to understand, even if it was the 11th hour, why you 
simply wouldn't put it in an envelope, messenger it over, let 
Mr. Holder take a look at it, take it home, spend a couple of 
hours. He could think to himself, maybe we want to talk to 
security people; maybe we want to send it over to the FBI.
    It's just--we still don't understand. I guess what you said 
is you provided material the previous year, and that was enough 
for Mr. Holder.
    Mr. Quinn. Well, look, you can disagree with me on this. I 
was not--I didn't make that decision in an effort to hide the 
pardon petition from anybody. I encouraged the White House to 
reach out to the Justice Department and seek their views. 
That's my testimony.
    Mr. Wilson. We've had these e-mails about secrecy and under 
the radar. Mr. Holder, do you think that--would you have liked 
to have had a copy of the pardon application?
    Mr. Holder. Sure, and I thought that we would get one from 
the White House. I thought that's where--at a minimum, we would 
get it from them that--something having gone to them that they 
would refer that back to the Justice Department so that we 
could do the things we do when it comes to pardons.
    Mr. Wilson. Just shift for a minute, Mr. Quinn. What 
happened when Otto Obermeier went to Switzerland in the early 
1990's? Tell us about the negotiations with Mr. Rich.
    Mr. Quinn. I wasn't on the case. I know that they had 
conversations, but I'm really not the person to tell you in 
detail about this.
    Mr. Wilson. You told us about the intransigence of the 
Southern District of New York, how they weren't working with 
Mr. Rich.
    Mr. Holder, you've been a U.S. attorney. How many--give us 
each time that you can remember when a U.S. attorney has flown 
to a foreign country to negotiate with a fugitive. How many 
occasions are you aware of?
    Mr. Holder. How many times did I do that?
    Mr. Wilson. No, any in the history of the United States, 
for a broad question.
    Mr. Holder. You just talked about Mr. Obermeier. Maybe 
that's what you're describing here. I'm not aware of any. I 
don't know of any.
    Mr. Wilson. I'm not either. We've looked at this, and I'm 
not aware of any.
    Mr. Quinn, you've explained at great length in your pardon 
application and here and television and other places about the 
intransigence of the Southern District of New York and how they 
won't--they weren't working with Mr. Rich. And they weren't 
trying--they weren't able to solve the problems that might have 
resolved this issue.
    There was a U.S. attorney that flew to Switzerland and met 
with him, which is an extraordinary thing, and it sounds like 
you don't even know what happened.
    Mr. Quinn. I know that meeting took place. I was not on the 
case at that time. My references to the intransigence of the 
Southern District was with respect to their unwillingness to 
sit down and meet with the tax professors and review the case 
and try to come to a resolution of it at any time in the last 
decade or so.
    Mr. Wilson. But, surely, if Mr. Obermeier went over and was 
extraordinary reasonable, offered what reasonable lawyers would 
consider a prospect for a resolution to the matter, and Mr. 
Quinn or Mr. Rich behaved the way he was behaving when he was 
shipping steamer trunks out of the country, and by your own 
admission, your own letters, having his lawyers behave in 
relatively outrageous conduct, I mean, isn't there a time when 
the Southern District of New York might decide that things have 
gone along pretty far and, without any indicia of good faith, 
they can't negotiate any further? I'm just trying to figure out 
why you didn't find out what happened in that meeting, because 
it seems like you make representations without knowing facts.
    Mr. Quinn. That's not the case. The meeting, contrary to 
what I think is your impression, was not, as far as I was 
concerned, an indication of any willingness on the part of the 
Southern District now to review developments in the law, 
including the change in DOJ policy about the use of RICO in tax 
cases or the McNally development in the Supreme Court.
    Mr. Wilson. I thought you said you didn't know what 
happened in the meeting.
    Mr. Burton. Excuse me just a moment, if I might interrupt. 
Then what did he go over there for? I mean, if he wasn't over 
there to do some kind of negotiations with Mr. Rich, why do you 
think he flew over there? To go skiing or what?
    Mr. Quinn. All I know is that it was an incomplete process, 
and it didn't reach a resolution of the matter.
    Mr. Burton. No, but the point is the Justice Department was 
trying to get this thing resolved; otherwise, why would the 
U.S. attorney fly all the way to Geneva or Switzerland?
    Mr. Quinn. Mr. Obermeier did make that effort, but it 
didn't work. And in subsequent years, the Department refused to 
talk to Mr. Rich's attorneys about developments in the law, 
about the analysis of the tax professors, about the contrary 
position that the Department of Energy had reached.
    Mr. Wilson. See, our problem here is you tell us that the 
process doesn't work because of the bad actions of prosecutors 
in the Southern District of New York, including your former 
partner, Mr. Litt, including Judge Gerald Lynch, including the 
two gentlemen that testified earlier today. You're telling us 
that these people engaged in--you haven't gone as far as saying 
bad faith--but they've acted badly. They have done things they 
shouldn't have done. They have overcharged. You have told us 
all these things. And yet you're unable to address whether they 
made an effort to recover. Perhaps when Mr. Obermeier went 
over, he said, we'll drop the RICO count. If you give us X, 
we'll do Y.
    Mr. Quinn. But I'm also imparting knowledge to you that 
this impasse did have a good deal to do not just with the 
prosecutors, but with Mr. Rich and the lawyers who represented 
him initially. They were very much to blame for it as well. 
But, look, I was simply trying to get this thing to a 
resolution. I didn't come on to get him a pardon. I came on to 
try to persuade the Department of Justice, and later the 
Southern District of New York, to look at a case through a 
different set of glasses.
    Mr. Wilson. And it sounds like you were unable to obtain a 
meeting, and you had to go to the next phase. That's----
    Mr. Quinn. That's correct.
    Mr. Wilson. One of the big factual issues, I don't want to 
go into this at great length, but the prosecutors this morning 
told us about how Mr. Rich set up duplicate bookkeeping. They 
set up fraudulent books to hide the transactions that were 
conducted back in the early 1980's. Tell us a little bit about 
the duplicate book arrangement and how that is OK in your eyes.
    Mr. Quinn. Well, my understanding of these transactions is 
that, in fact, they were structured lawfully and that----
    Mr. Wilson. No, I wanted to ask about the duplicate books, 
not the transactions so much, but the duplicate books. Have you 
ever seen the duplicate books?
    Mr. Quinn. No, sir.
    Mr. Wilson. Did you ever ask?
    Mr. Quinn. No. But I--again, this is an allegation that has 
been made by the Southern District. I do not think that it 
undercuts the argument that these transactions were lawfully 
structured and that the--as the tax professors concluded--that 
there was, in fact, no further tax due and owing to the United 
States.
    Mr. Wilson. But----
    Mr. Burton. If the gentleman will yield. Let me--they had a 
duplicate set of books. As I understand it, they had one set of 
books that was handled in a pretty formal way. And then they 
had a set of handwritten books where they put the money, and it 
was called the pot.
    Mr. Quinn. I understood----
    Mr. Burton. And the handwritten books were the ones that 
showed very clearly that they were trying to hide money so they 
wouldn't have to pay taxes on them.
    Mr. Quinn. Well----
    Mr. Burton. You haven't seen those books?
    Mr. Quinn. No, sir. But what was going on here was that oil 
companies like ARCO and Rich----
    Mr. Wilson. Let me--if I can interrupt.
    Mr. Burton. Sure.
    Mr. Wilson. We don't want a recitation of your theory of 
the case. I'm just asking about the dummy books.
    Mr. Quinn. I understand. I'm not trying to filibuster by 
reciting the case.
    Mr. Wilson. You told us a moment ago there was an 
allegation about dummy books. But the prosecutors actually have 
the dummy books. They exist. I'm just asking you for the reason 
for the dummy books. I mean, when you have fraudulent 
transactions set out in meticulous detail, why do you do that? 
I mean, it's one thing if you say you don't understand the 
Department of Energy regulations. Your lawyers got it wrong. 
The law is bad. You had a bad day. All these things you can 
say. But when you go through a conspiracy with individuals to 
set up fraudulent bookkeeping techniques I am only asking you, 
why did they set up the dummy books?
    Mr. Quinn. The bookkeeping they engaged in was, as I 
understand it, designed to facilitate the effort that they and 
ARCO were engaged in to find ways to sell domestic oil, the 
price of which was regulated, let's say, down to $10 but that 
was worth $30 on the world market. And what they were doing was 
setting up--was linking domestic and foreign transactions 
through a series of tiered trades, the result of which would be 
that for, to simplify it, two barrels of oil, they would end up 
getting a total of $60. So they were trying to find ways around 
the price control regulations of the Carter years.
    Mr. Wilson. Well, I appreciate the simplification, but 
where are the dummy books coming into the story? That's all I'm 
asking about. I know your story because I've read everything 
you've written. But I want to know about the dummy books.
    Mr. Quinn. They well may have had records that kept track 
of these linked transactions.
    Mr. Wilson. So you don't even know that they had these 
records?
    Mr. Quinn. The prosecutors alleged that these were designed 
to facilitate a fraud. As I understand it from them, they were 
designed to keep track of money that was owed for linking one 
transaction to another. But let me repeat that the--even if 
that's evidence of their doing something in violation of those 
Energy Department regulations, it doesn't undermine the tax 
analysis of the professors.
    Mr. Wilson. But apparently the tax professors didn't know 
about that. I mean, we've been through this already. The tax 
professors did an analysis based on the facts that were 
provided to them, stated very clearly that the lawyers for Mr. 
Rich have given us the facts, and did an analysis accordingly 
of the facts, apparently. But we won't be able to determine 
that.
    Let me move to something else, the fugitivity issue. We now 
have--there are three sort of things going on with fugitivity. 
One, Mr. Quinn did not believe that Marc Rich was a fugitive. 
The counsel for former President Clinton is, in an e-mail, 
purported to have said--and this is an e-mail from Mr. Quinn to 
at least two people, with a courtesy copy to Marc Rich--she, 
that's Beth Nolan, she responded that this is still a tough 
case, that the perception will nevertheless be that MR is some 
sense, and quotation marks are put around sense, a fugitive.
    So Beth Nolan is not saying in this e-mail I think Marc 
Rich is a fugitive. She's saying I think in some sense he's a 
fugitive. You don't think he's a fugitive at all.
    Mr. Holder, you were the No. 2 lawyer at the Department of 
Justice. Can you help us out here? What do you think? Was Marc 
Rich a fugitive?
    Mr. Holder. Yeah, I think he's a fugitive, and that is the 
reason why, as I've indicated in my testimony on a couple of 
occasions, I didn't think the pardon request would be granted.
    Mr. Wilson. And if you were grading a final exam right now, 
and Mr.--I don't know if you heard the testimony earlier, but 
Mr. Quinn had presented to you his argument about fugitivity 
and how Marc Rich isn't a fugitive, does it pass the laugh 
test?
    Mr. Holder. I mean, I think it's an interesting argument. 
It's not one that I would agree with but----
    Mr. Wilson. Well, I mean, what's interesting about it?
    Mr. Holder. It's creative, perhaps. Let me say that.
    Mr. Wilson. The Department of Justice had him on a list of 
the six most wanted international fugitives in the world. I'm 
not quite sure what's interesting. It just seems deceptive.
    Mr. Holder. Well, I don't agree with his analysis. I would 
agree that he is--I would say that he is a fugitive.
    Mr. Wilson. OK. Mr. Quinn, what's the meaning of this, the 
quotation marks around the word sense for Ms. Nolan's analysis 
of the fugitivity issue? Did she think Mr. Rich was a fugitive, 
or did she not think Mr. Rich was a fugitive?
    Mr. Quinn. I think what she was saying is you may argue 
that, merely because he's not breaking any law by failing to 
return, and that being the case, he's not in some sense that 
you mean a fugitive. But the reality is going to be that, 
however you may argue around it, he's going to be regarded as a 
fugitive.
    I think--and if anything, you know, I would say to you that 
this at least shows that the White House was well aware that 
fugitivity was an issue. And it must have been discussed at 
some level there. Whether they asked Mr. Holder about it, I----
    Mr. Burton. If I might interrupt. This goes back to that 
phone call or e-mail to the--was it a phone call? I guess it 
was a phone call to Aspen, CO, where it was said that, you 
know, that Mr. Rich was being discussed by the President and 
his counsels at the White House, and that he was having a 
difficult time convincing them that there ought to be a pardon, 
and asked them to pray about it. Which is kind of interesting.
    But the fact of the matter is, the President was engaged 
and was talking to his counsel, according to this memo and 
phone call, about the pardon. And I think that's very 
important, because we've heard time and again that he was not 
engaged and didn't have all the facts, but he was very 
definitely engaged all the way through this thing.
    Mr. Quinn. I agree with you, Mr. Chairman. That's my 
impression as well.
    Mr. Burton. Even though he's considered a fugitive by Beth 
Nolan and others.
    Mr. Wilson. I'll get back to that. But before I forget, the 
tax analysis that is so important to the petition you filed 
with the White House was prepared by Mr. Ginsburg and Mr. 
Wolfman. How much were they paid for their analysis?
    Mr. Quinn. I don't know the answer to that because I wasn't 
involved in the case when they did it.
    Mr. Wilson. Would you be able to find that out and submit 
that for the record, please?
    Mr. Quinn. Yeah, I'm pretty sure I could.
    Mr. Wilson. Thank you. Now, going back to the fugitivity, 
your argument was my favorite of all, because we started off 
with some examples before. And just try for the record--we're 
trying for the record to get a sense of this issue. If somebody 
hijacks an airplane, and they fly to Cuba with the intent of 
staying in Cuba, and they get there and they haven't yet been 
indicted, under your definition they are not fugitives, 
correct?
    Mr. Quinn. Look, it would depend on whether the United 
States--as I was defining fugitive in terms of whether or not 
it was itself a violation of the law to fail to return to the 
United States. I mean, we can----
    Mr. Wilson. If I could just interrupt you, the list of 
fugitives on the Department of Justice fugitive list, you know, 
they're on there for murder and armed robbery, and Mr. Rich's 
case, because he at the time was the largest tax cheat in 
American history. But, you know, I don't think any of them were 
charged with a crime of fugitivity; they were charged with 
their underlying crimes.
    But I just want to ask you, you know, here you've got all 
the people watching. You're a Washington lawyer. You've got a 
guy. He gets on the airplane, he hijacks an airplane. He gets 
to Cuba. He gets indicted later for hijacking an airplane. And 
somebody comes up to you and says, is this man a fugitive? 
Would you say yes or no?
    Mr. Quinn. I was using fugitive----
    Mr. Wilson. Well----
    Mr. Quinn. I want to tell you what I did here. I want to 
address the facts.
    Mr. Wilson. But you're trying to convince the White House 
counsel and the President and other people about him being a 
fugitive.
    Mr. Quinn. And they're as capable as you of rejecting my 
interpretation. I made an argument in that letter. You've seen 
it. You reject it. They may have rejected it. For all I know, 
they did.
    Mr. Wilson. OK. Let me--because we're trying to create a 
record, I'll just ask again. The guy that hijacks the airplane 
and gets to Cuba, do you think he's a fugitive, or do you not 
think he's a fugitive?
    Mr. Quinn. It would depend, under my interpretation of that 
word, whether or not it was----
    Mr. Wilson. Which word? The word fugitive?
    Mr. Quinn. Fugitivity, yes.
    Mr. Wilson. No. Fugitive. We're using it as a noun.
    Mr. Quinn. We can beat this as long as you want to. I'm 
going to repeat. I was using it in the sense of being--of it 
being a criminal conduct to refuse to return or submit oneself 
to the jurisdiction. I think that's clearly what I said in the 
letter. You may disagree with it. They may disagree with it.
    Mr. Wilson. So, I mean, that does stand for the 
propositions that, in the future, if you commit a crime and you 
get out of the United States before you get indicted, you 
shouldn't be called a fugitive. You shouldn't be--have that 
word.
    Mr. Quinn. That's how I was urging that they interpret the 
word.
    Mr. Wilson. OK. And it sounds like the White House counsel 
signed off on that.
    Mr. Quinn. I don't come to that--I don't think it's fair to 
come to that conclusion. You'd have to ask them.
    Mr. Wilson. OK. The last thing I wanted to get to was the 
comment, the neutral but leaning toward comment from Mr. 
Holder. You had referred to a foreign policy benefit. And I 
won't sort of go back through exactly what you said there, but 
the question that we're left with as we sort of work through 
this is, is that all that matters?
    And let me explain that. Should there be a balancing of 
other facts to determine whether the other facts are more 
important than the foreign policy objective? For example, if a 
mass murderer flew off somewhere, and wherever he went to, you 
know--the Sheinbein case is a good example. Somebody who 
murders somebody in the Washington area and flies to Israel, 
and we tried to extradite him. I mean, there's a foreign policy 
benefit if you just give a foreign government what they want. 
But aren't there other facts to be balanced?
    Mr. Holder. Oh, yeah, absolutely. I didn't mean that was 
the only thing to be considered. And that's why I said leaning 
toward, that would be--that could be a factor that I would 
think people could consider and something that at least would 
make me move a little bit if there were a foreign policy 
benefit.
    You know, I am opposed, for instance, to a pardon for 
Jonathan Pollard. I've been on record for that. And yet if--and 
this is, you know, something that had been discussed. If that 
had somehow, the granting of the pardon had somehow led to 
Middle East peace, something that the Israeli Government had 
requested, I mean that might be something taking into account a 
variety of things.
    Mr. Wilson. That I understand, and that's fair enough. But 
if you're the person in the loop on this issue, you're talking 
to the White House counsel, and you explain I'm neutral but 
leaning toward, and you mention the foreign policy benefit, 
unless you give them the balancing facts, the countervailing 
facts, how are they going to figure it out for themselves?
    I mean, unless you can come and say look, you know, if 
there's a foreign policy benefit, fine, but I would like to 
tell you the guy did this and this and this. And the 
prosecutors say this. And his level of contrition is this. And 
if you don't give them the factors, who will?
    Mr. Holder. But I didn't tell them, you know, if there is a 
foreign policy benefit that we reap from this, I think this 
pardon should be granted. I didn't say that. I did say neutral, 
which, as I said, is kind of a word, I don't if it's term of 
art necessarily--but certainly in the way that I used it with 
Beth Nolan, given the previous conversation that we had.
    So I didn't mean to imply by that and I don't think a 
reading of that would support the notion that I meant to say if 
there's a foreign policy benefit, I support the pardon. I was 
simply trying to say that is something that kind of moves me in 
order to be something I think you ought to consider in making 
that determination.
    Mr. Wilson. Why would you use the neutral--the term neutral 
if you were not in command of the facts?
    Mr. Holder. But that's what I--I mean, when I told her--
because what's my position? I'm either for the pardon, I'm 
against the pardon, or I'm in the middle. I used the term 
neutral as the middle, because what I told her in that earlier 
conversation was that I was neutral because I don't have a 
basis for a determination one way or another.
    Mr. Wilson. But apparently you didn't. You then qualified 
that by saying, but leaning toward. And that's you. That's what 
you were doing, not what they would do if they thought there 
was a countervailing foreign policy benefit. It is--that's what 
the Deputy Attorney General, the No. 2 guy, the fellow whose 
office supervises the office of the pardon attorney. You're 
saying you're leaning toward something which does convey a very 
qualitative assessment of the situation. And the difficulty we 
face and the hard part over the next few weeks for us is to try 
and determine why, based on no facts, you would say leaning 
toward.
    Mr. Holder. Well, as I said, simply to indicate that, given 
where I was before, that if there is a policy, foreign policy 
benefit, that might be something that could move you. Again, I 
think it's significant that I didn't say if it's a foreign 
policy benefit, do it. I'm just saying--or that I would 
recommend doing it. I'm just saying I would lean toward. It was 
something that I was trying to be careful with as I expressed 
it to her. Maybe I was inartful, but I was trying not to give 
her the impression that the mere existence of the foreign 
policy consideration would be sufficient for me to say this is 
something that ought to happen.
    Mr. Wilson. But you didn't have a specific foreign policy 
benefit on the table at that time.
    Mr. Holder. That's why I also said, if there is a foreign 
policy benefit that might be received.
    Mr. Wilson. But, still, how can you put in the 
qualification leaning toward, if there is no benefit on the 
table? I mean, what would lead you to go that extra step to say 
something other than I don't know anything about this or I'm 
neutral or something that puts you in the middle? Why would you 
say anything unless there's some tangible benefit that you are 
thinking about? That's the hard part for us.
    Mr. Holder. Yeah, I don't mean--we're talking past each 
other. I mean, if--when I say I'm neutral, but leaning toward, 
neutral means I'm kind of where I was before, don't have the 
ability to make that determination. If there is a foreign 
policy benefit, then that kind of moves me. I think, you know, 
I--as I said, I tried to be careful in relaying that to her so 
that it would not be misinterpreted. Perhaps I didn't do as 
good a job with her or with you. It seems kind of clear to me, 
but I guess I haven't explained it as well as I might.
    Mr. Burton. Well, I want to thank the counsel and the staff 
on both sides for their hard work on this and all the Members 
for being so patient today. And I want to thank you both for 
your patience, especially you, Mr. Quinn, because you've been 
here, I think, since about 10 a.m. That's almost 9 hours. I 
think most of the Members of Congress, most of the members on 
the committee feel that this was the wrong thing to do and a 
miscarriage of justice. Nevertheless, it was done. We will try 
to find out more about this in the weeks to come.
    But as for now, we want to thank you for being here. Thank 
you for your patience. And I think that's all we have. We'll 
stand adjourned.
    [Whereupon, at 6:45 p.m., the committee was adjourned.]
    [The prepared statement of Hon. Jo Ann Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T5593.064
    


      THE CONTROVERSIAL PARDON OF INTERNATIONAL FUGITIVE MARC RICH

                              ----------                              


                        THURSDAY, MARCH 1, 2001

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 12:10 p.m., in 
room 2154, Rayburn House Office Building, Hon. Dan Burton 
(chairman of the committee) presiding.
    Present: Representatives Burton, Morella, Shays, Mica, 
Davis of Virginia, Souder, Scarborough, LaTourette, Barr, Ose, 
Davis of California, Platts, Weldon, Cannon, Putnam, Otter, 
Schrock, Waxman, Kanjorski, Sanders, Mink, Norton, Cummings, 
Kucinich, Davis of Illinois, Tierney, Clay and Jackson Lee.
    Staff present: Kevin Binger, staff director; James C. 
Wilson, chief counsel; David A. Kass, deputy counsel and 
parliamentarian; Mark Corallo, director of communications; M. 
Scott Billingsley, John Callender, and James J. Schumann, 
counsels; S. Elizabeth Clay, Caroline Katzen, Nicole Petrosino, 
and Jen Klute, professional staff members; Jason Foster and 
Kimberly A. Reed, investigative counsels; Gil Macklin, senior 
investigator; Kristi Remington, senior counsel; Sarah Anderson 
and Scott Fagan, staff assistants; Robert A. Briggs, chief 
clerk; Robin Butler, office manager; Michael Canty and Toni 
Lightle, legislative assistants; Josie Duckett, deputy 
communications director; John Sare, deputy chief clerk; 
Danleigh Halfest, assistant to chief counsel; Corinne 
Zaccagnini, systems administrator; Phil Schiliro, minority 
staff director; Phil Barnett, minority chief counsel; Kristin 
Amerling, minority deputy chief counsel; Jon Bouker, Paul 
Weinberger, and Michael Yang, minority counsels; Christopher 
Lu, minority deputy chief investigative counsel; Michael 
Yeager, minority senior oversight counsel; Ellen Rayner, 
minority chief clerk; Earley Green, minority assistant clerk; 
and Andrew Su, minority research assistant.
    Mr. Burton. Good afternoon. A quorum being present, the 
Committee on Government Reform will come to order. I ask 
unanimous consent that all Members' and witnesses' written 
opening statements be included in the record, and without 
objection, so ordered.
    I ask unanimous consent that all articles, exhibits and 
extraneous or tabular material referred to be included in the 
record, and without objection, so ordered.
    I ask unanimous consent that a set of exhibits which was 
shared with the minority prior to the hearing be included in 
the record, and without objection, so ordered.
    I also ask unanimous consent that questioning in the matter 
proceed under clause 2(j)(2) of House rule 11 and committee 
rule 14 in which the chairman and ranking minority member 
allocate time to the committee members as they deem appropriate 
for extended questioning, not to exceed 60 minutes, equally 
divided between the majority and minority, and without 
objection, so ordered.
    I also ask unanimous consent that questioning in the matter 
under consideration proceed under clause 2(j)(2) of House rule 
11 and committee rule 14 in which the chairman and ranking 
minority member allocate time to committee counsel as they deem 
appropriate for extended questioning, not to exceed 60 minutes, 
divided equally between the majority and minority, and without 
objection, so ordered.
    Good morning. Today we're holding our second hearing 
regarding the President's last-minute pardons of Marc Rich and 
Pincus Green. Since our last meeting, there have been a number 
of new developments, but before I talk about that, let's go 
back and look at what we learned in our first hearing.
    On February 8th, the first thing we learned was that the 
normal review process at the Justice Department was completely 
bypassed. Jack Quinn testified that he delivered the pardon 
application to the White House on December 11th, but it was 
never delivered to the Justice Department for review. We 
released an e-mail that showed that Mr. Rich's lawyers were 
doing their dead level best to keep the pardon application 
secret, to keep it from getting shot down.
    We heard from Deputy Attorney General Holder, Eric Holder. 
Mr. Holder was told by Mr. Quinn in November that Marc Rich's 
pardon application would be submitted directly to the White 
House. Mr. Holder didn't tell the pardon attorney. He didn't 
tell the prosecutors in New York, who were responsible for the 
case and who worked on it.
    On January 19th, Mr. Holder was called by the White House 
about the pardon. At this point it was clear that this pardon 
of an international fugitive was under serious consideration. 
Again, he didn't contact the pardon attorney, and he didn't 
contact the prosecutors in New York. In that January 19th phone 
call, White House Counsel Beth Nolan asked Mr. Holder what he 
thought about pardoning Mr. Rich. He told her he was neutral, 
leaning toward, but he admitted that he never reviewed the 
case. He never talked to prosecutors about it. The only 
information he had was former White House Counsel Jack Quinn. 
Now, how could he be neutral, leaning toward when the only 
information he had seen about the case came from Marc Rich's 
lawyer?
    We released an e-mail that showed that President Clinton 
called Beth Dozoretz about the pardon. Beth Dozoretz is a 
former finance chairman of the Democrat National Committee. She 
also pledged to raise $1 million for the Clinton library, and 
she's a close friend of Denise Rich, Marc Rich's ex-wife. 
Neither one has cooperated with this committee so far. 
According to that e-mail, the President wanted to approve the 
pardon, and he was doing all he could to turn around the White 
House counsels.
    Why was the President on such a different wavelength from 
his staff? Why would the President call a fundraiser about a 
pardon, but he wouldn't ask his own Justice Department for an 
opinion? Now there's new developments.
    That was 3 weeks ago. A lot's happened since then. I said 
all along that I don't want to drag this investigation out, and 
I mean that. At the same time, new information is coming out so 
fast, it's almost impossible to keep up with it. I want to just 
mention a few important developments.
    First, we have learned that Denise Rich gave $450,000 to 
the Clinton library. That's on top of the $1.2 million that she 
gave to the Democrat campaigns. We need to learn more about 
that.
    Second, we learned that Beth Dozoretz pledged to raise $1 
million for the Clinton library.
    Third, we learned that the President's brother-in-law Hugh 
Rodham got more than $430,000 for helping two people get 
pardons. He received a $200,000 contingency fee from Glenn 
Braswell, who was convicted of fraud. At the time of the 
pardon, Mr. Braswell was still under investigation by the 
Justice Department for tax evasion. He got another $200,000 to 
help Carlos Vignali get a pardon. Carlos Vignali was convicted 
of shipping 800 pounds of cocaine from Los Angeles to 
Minneapolis. That's more than $5 million worth of cocaine, and 
they were going to turn it into crack.
    Fourth, we learned that the former First Lady's campaign 
treasury received $4,000 to help two people who are trying to 
get pardons.
    And fifth, we learned that the President's brother Roger 
Clinton asked for pardons for a number of people. We need to 
find out if any money was promised to Roger Clinton, and we 
need to find out exactly what he did on behalf of these people.
    We've learned more important detail in just the last 2 
days. Today the New York Times reported that the First Lady's 
older brother Tony Rodham helped get a pardon for someone who 
was paying him as consultant. The Justice Department opposed 
his pardon, but it was approved anyway.
    We received a new document that shows that prosecutors, the 
prosecutors in the Marc Rich case, offered to drop the RICO 
charge against Mr. Rich if he would return to the United States 
to face trial. I believe that was in 1999. Now Mr. Quinn has 
been telling us that this RICO sledgehammer was what forced Mr. 
Rich to flee the country. Well, evidently that wasn't the whole 
story, and it wasn't quite accurate because they were going to 
drop the RICO charge to get him back to stand trial on the 
other charges, and there were 50 of them.
    We learned that Carlos Vignali, the cocaine dealer who paid 
Hugh Rodham, lied on his pardon application. He lied about his 
prior offenses, and yet he still got a pardon, much to the 
chagrin of the U.S. Justice Department and, I believe, the 
pardon officials.
    We were surprised to learn this week that Eric Holder 
wouldn't sign the Justice Department's memo opposing Carlos 
Vignali's pardon. Apparently he didn't want to sign any more 
pardon denials. He was the Deputy Attorney General, and he 
didn't want to sign a memo opposing a pardon of a major drug 
dealer. Why?
    We've learned John Podesta's personal lawyer Peter Kadzik 
was lobbying Mr. Podesta on behalf of Marc Rich. That's one of 
the reasons we called Mr. Kadzik here today.
    Finally, on Tuesday the pardon attorney from the Justice 
Department told us that the night the pardon of Marc Rich was 
granted, his office sent information to the White House stating 
that Marc Rich was involved in illegal arms trading. That was 
the night the pardon was granted. Now, it's not clear now that 
this information was accurate, but nobody at the White House 
even called back to ask about it. As far as they knew, they 
were granting a pardon for an arms dealer.
    The appearances that have been created here are obvious. If 
you have friends in high places, you can get around the law. It 
makes it look like we have one system of justice for the rich 
and powerful and another system of justice for all the rest of 
us.
    Were laws broken? We don't know. We don't have all the 
facts yet. We want to be responsible. We don't want to rush to 
judgment or make accusations until we have all the facts, but 
we have an obligation to try to find out what happened and lay 
the facts before the American people.
    We want to move expeditiously. In some areas we're making 
progress. We asked the President not to claim executive 
privilege so his aides could testify, and he's done that. That 
was a positive step.
    We had a problem with the Clinton library. They didn't want 
to comply with our subpoena for information on their donors. If 
you read the editorial pages across the country, I think 
there's widespread agreement that they shouldn't try to keep 
that secret. We made a great deal of progress on this issue in 
the last 2 days, and we're very close to resolving it. The 
lawyers for the library have committed to bringing us more 
information tomorrow. I had scheduled the library's president, 
Skip Rutherford, to testify on the first panel today. We've 
made enough progress that I've excused him. I appreciate the 
fact that the lawyers for the library have worked with us to 
resolve this.
    We asked Mr. Quinn to provide us with written answers to 
some questions prior to the hearing, and he's done that, and we 
appreciate it. Last night we received answers to the questions 
we submitted to Mr. Rodham, and that was helpful. And I ask 
unanimous consent to place this letter in the record at the 
conclusion of my remarks, and without objection, so ordered.
    On the other hand, we still have some problems. We wrote to 
Roger Clinton. We asked him to provide us with some basic 
information about who he tried to help get pardons. We asked 
him how much money he received, if any. He has not responded. 
We wrote to the lawyer for Glenn Braswell. His name is Kendall 
Coffey. We asked him for some very basic information, like a 
copy of the material he submitted to the White House. He hasn't 
responded.
    The most serious obstacle we have faced is this: We have 
two key witnesses who are taking the fifth amendment against 
self-incrimination. Denise Rich exercised her fifth amendment 
rights 3 weeks ago. We don't know, if she's done anything 
wrong. We don't anticipate that she has, but we sure wish she 
would answer our questions. We want to get to the bottom of 
this. Now we are told this Beth Dozoretz will also take the 
fifth. These are two people who are involved in raising money 
for the President and lobbying the President for pardons, and 
we apparently can't talk to either one of them.
    Now, Mrs. Dozoretz is here with us today. She was called as 
a witness to this hearing. We have received word through her 
lawyer that she plans to exercise her fifth amendment rights; 
however, this is a personal privilege that must be exercised by 
the individual and not through counsel, and that's why we've 
asked Ms. Dozoretz to be here, and we hope she'll reconsider.
    On our second panel we have several former senior White 
House officials. We have the President's former chief of staff, 
John Podesta. We have the former White House Counsel Beth 
Nolan. We have the former Deputy White House Counsel Bruce 
Lindsey, and we also have Jack Quinn, who represented Mr. Rich 
as well as having in the past worked at the White House for the 
President. And he, of course, has lobbied for Mr. Rich's 
pardon.
    The purpose of the second panel is to determine what kind 
of process they went through at the White House. We know that 
Justice Department was not consulted in any meaningful way, so 
who was consulted? What information did they use to evaluate 
the Marc Rich pardon? Who advised the President? And that's 
what we want to find out from that panel today.
    On the third panel we have three attorneys who represented 
Marc Rich. We have Robert Fink, we have Lewis ``Scooter'' 
Libby, and we have Peter Kadzik.
    I want to thank all of our witnesses for being here today. 
I know that Members on both sides here don't want to spend the 
rest of their lives investigating Bill Clinton, and I'm 
certainly one of them, but I want people to recognize that 
we're facing some significant obstacles in getting information 
for the Congress and the American people who deserve to know 
the facts. We're willing to be responsible, and we're willing 
to move forward as rapidly as possible. I want to work with 
Members on both sides to get this done.
    Mr. Waxman asked us to call Scooter libby to testify today. 
I personally didn't think that was necessary. There's no 
evidence that Mr. Libby was involved in the pardon process at 
all. But it was important to Mr. Waxman, so I agreed. And I 
believe if we work together, we can get this work done very 
quickly, and we can move on to other important things that need 
to be done for the country.
    That concludes my opening statement, and I now yield to Mr. 
Waxman for his statement.
    [The prepared statement of Hon. Dan Burton follows:]

    [GRAPHIC] [TIFF OMITTED] T5593.065
    
    [GRAPHIC] [TIFF OMITTED] T5593.066
    
    [GRAPHIC] [TIFF OMITTED] T5593.067
    
    [GRAPHIC] [TIFF OMITTED] T5593.068
    
    [GRAPHIC] [TIFF OMITTED] T5593.069
    
    [GRAPHIC] [TIFF OMITTED] T5593.443
    
    [GRAPHIC] [TIFF OMITTED] T5593.444
    
    [GRAPHIC] [TIFF OMITTED] T5593.445
    
    [GRAPHIC] [TIFF OMITTED] T5593.446
    
    [GRAPHIC] [TIFF OMITTED] T5593.447
    
    [GRAPHIC] [TIFF OMITTED] T5593.448
    
    Mr. Waxman. Thank you very much, Mr. Chairman.
    Three weeks ago at the committee's first hearing on the 
Marc Rich pardon, I criticized President Clinton's actions. I 
said the Rich pardon was bad precedent, an end run around the 
judicial process, and appeared to set a double standard for the 
wealthy and powerful. Almost immediately the phones lit up in 
my office. Oddly many of the calls came from anti-Clinton 
viewers accusing me of being an apologist for the President. 
But I also received many calls from Democrats demanding that I 
explain why I wasn't supporting President Clinton's actions. 
That's where I want to start today.
    I want particularly to direct my comments to Democrats 
around the country who are puzzled why congressional Democrats 
aren't defending President Clinton. Well, if a Republican 
President had presided over a pardon process that resembled the 
chaotic mess that seemingly characterized the final days of the 
Clinton administration, I would be outraged and would criticize 
it. Issuing pardons is one of the most profound powers given to 
the President. At a minimum, the decisionmaking process must be 
careful and above reproach. It's clear that President Clinton's 
efforts weren't.
    President Clinton had two equally important 
responsibilities in deciding whether to grant pardons. First, 
the President could not grant a pardon in exchange for any 
personal benefit. A quid pro quo obviously would break the law, 
and although the President's pardon power is absolute, it is 
not above the law. To this point, I have seen no evidence that 
the President broke any law. I've seen a lot of evidence of bad 
judgment, but not illegality.
    But given the extraordinary circumstances of the Rich 
pardon, it's important that the U.S. Attorney's Office in New 
York fully, quickly and impartially investigate this issue. The 
U.S. attorney is doing that, and its investigation should 
resolve any question of illegality for the American people.
    President Clinton's second fundamental obligation is just 
as important as the first. He must protect the American 
people's trust by exercising sound judgment. This isn't a legal 
standard, it is a subjective measure, and President Clinton 
failed to meet it. The combination of revelations ranging from 
the Marc Rich and New Square pardons to the role Hugh Rodham 
played in the pardon process are disturbing, and they raise 
serious questions about the President's judgment. And if anyone 
should have been sensitive to this, it was the President. He 
has been subject to a constant barrage of attacks and scrutiny, 
some unquestionably justified, but most reckless and unfair. He 
knows that whatever he does will be questioned, even if he 
didn't actually do it.
    During the battle over impeachment, I repeatedly noted a 
distinction between private conduct and official activities. 
The President's relationship with a White House intern was a 
personal failing and a betrayal of his family. Everything that 
sprang from that scandal, including his false testimony under 
oath, came from that personal failure.
    In this case, however, Mr. Clinton's failure to exercise 
sound judgment affected one of the most important duties of the 
Presidency. Bad judgment is obviously not impeachable, but the 
failures in the pardon process should embarrass every Democrat 
and every American. It's a shameful lapse of judgment that must 
be acknowledged because to ignore it would betray a basic 
principle of justice that Democrats believe in.
    I know that many Democrats fear that criticizing President 
Clinton's actions will somehow negate all the accomplishments 
of his administration. I disagree. President Clinton's 
discipline and masterful handling of our economy and his 
leadership on the score of international and domestic issues, 
health and environmental concerns will not be forgotten. 
Democrats and I hope even some Republicans should be proud of 
the progress we made and the immense talents President Clinton 
brought to the White House. Those truths remain despite the 
President's other failings. But when he makes a serious 
mistake, as I think he did in this case, Democrats must be 
willing to say so.
    I hope that helps explain to my Democratic callers why I've 
been so critical of the President's conduct, but I also want to 
address the anti-Clinton callers who attack me for being an 
apologist for the President and the First Lady. At the same 
time that I believe that President Clinton made grave errors, I 
also believe there's clearly a double standard that's applied 
to him. Pointing out that there's a double standard isn't an 
attempt to excuse what's happened, it's just the facts.
    One major reason we're holding this hearing is to 
investigate whether President Clinton pardoned Marc Rich in 
exchange for contributions. Republicans are saying that an 
investigation is essential because of the suspicious 
circumstances that Marc Rich's former wife gave hundreds of 
thousands of dollars to the DNC and the Clinton library. Well, 
compare this pardon to that which President Bush gave in 1989 
to Armand Hammer, the former head of Occidental Petroleum who 
pled guilty to making illegal campaign contributions. According 
to news reports, Mr. Hammer gave over $100,000 to the 
Republican Party and over $100,000 to the Bush-Quayle Inaugural 
Committee shortly before he received his pardon. The appearance 
of a quid pro quo is just as strong in the Hammer case as in 
the Rich case, if not stronger, since Mr. Hammer himself gave 
the contribution, but there was never an investigation of 
former President Bush.
    The committee has now opened a new front by investigating 
the involvement of the First Lady's brother in two of the last-
minute pardons. Here again, there's a parallel with the Bush 
administration. According to news reports, former President 
Bush's son Jeb Bush successfully lobbied his father's White 
House in 1990 for the release of an anti-Castro terrorist named 
Orlando Bosch. But we aren't investigating former President 
Bush or his son, just former President Clinton and his brother-
in-law.
    If we are genuinely concerned about the undue influence of 
relatives on policymakers, there are a lot of examples that we 
could investigate in Congress. Representative Tom DeLay is the 
Majority Whip. After his brother Randy became a lobbyist for 
Cemex, which is a Mexican cement company, Mr. DeLay asked the 
Commerce Department for special treatment for that company. 
Senator Ted Stevens' brother Ben lobbies for organizations that 
have been reported to have received millions of dollars in 
earmarked appropriations. And Scott Hatch, Senator Hatch's son, 
represents entities like the American Tort Reform Association, 
even though they have extensive interests in Senator Hatch's 
own committee.
    Now, I'm not impugning the actions of any of those 
individuals, and I don't question the integrity of their 
actions, but I don't believe that this committee should engage 
in selective indignation.
    The committee's pursuit of the Clinton library is another 
example of this double standard. In 1997, during the 
committee's campaign finance investigation, I asked that we 
subpoena records from the Bush and Reagan libraries about 
potential fundraising abuses involving those administrations, 
but I was turned down. It seems we can pursue President 
Clinton's library, but not President Bush's or President 
Reagan's. And if anybody doesn't understand why I was turned 
down, let them know that the power to issue subpoenas is 
invested in one person on this committee and only one person, 
and that's the chairman.
    I also wanted to investigate the Jesse Helms Foundation. 
Senator Helms' foundation had reportedly received large 
contributions from foreign governments at the same time that 
the Senator was chairman of the Foreign Relations Committee. 
But again, there was no inquiry.
    As I say this, I have no doubt that my phone is ringing off 
the hook in my office, with people criticizing me for having 
the temerity to point out these inconsistencies. But we need to 
keep perspective. American taxpayers have already spent over 
$140 million investigating President Clinton. I realize 
ridiculing President Clinton makes great entertainment for 
some, but these obsessions with President Clinton are not 
healthy. President Clinton is not going to be impeached again, 
and he's no longer the President. At times the feeding frenzy 
involving President Clinton is unfair. He is denounced as an 
individual bent on thwarting or stonewalling the committee's 
investigation, but, in fact, in this case he has taken the 
extraordinary step of waiving executive privilege, the 
President's constitutional prerogative, to allow his top 
advisers to testify.
    And at other times the frenzy displaces any sense of 
priorities. It's amazing that the news that President Clinton's 
brother Roger asked for pardons became lead story in the 
country, even displacing the FBI scandal. After all, Roger 
Clinton was unsuccessful, and there's no evidence to date that 
he received any payments for his efforts.
    Well, Mr. Chairman, I want to comment for the record on 
your insistence that Beth Dozoretz be required to assert the 
fifth amendment during today's hearings. Mrs. Dozoretz has 
already informed the committee that given the U.S. attorney's 
investigation in New York, she will not be able to participate 
in today's hearing. There is congressional precedent for 
requiring a witness to assert the fifth amendment, but I don't 
think it's constructive to call Mrs. Dozoretz before the 
committee if the goal is to punish her for asserting her 
constitutional right and to create a media spectacle.
    I also want to note my disappointment in the committee's 
treatment of Peter Kadzik. Mr. Kadzik was informed a few days 
ago that he might be invited to today's hearing. The hearing 
conflicted with appointments he already had scheduled in 
California for today, and he informed the committee he could 
not participate, but he's willing to cooperate in any way 
possible with us. Well, when Mr. Kadzik stepped off the plane 
in California, he was greeted by a Federal marshal, who served 
him with a subpoena requiring his presence here today. So Mr. 
Kadzik had to cancel his meetings and immediately board another 
flight back to Washington. That all would have been necessary 
if Mr. Kadzik were an essential witness for today's hearing, 
but he's not. In fact, earlier this week your staff told him 
that he wouldn't have to testify if I would agree that we 
should excuse Scooter Libby from today's hearing. Since Mr. 
Libby was Marc Rich's lawyer for more than 10 years and helped 
develop the argument that was ultimately presented to the 
President as a justification for his pardon, we felt he should 
testify, and I regret he's been placed on the agenda for today 
so far down that we won't hear from him for at least 4 hours, 
and probably not until nightfall.
    Mr. Chairman, given the developments of the last few weeks, 
I think it's appropriate for us to have this hearing. Clearly, 
there is a widespread interest in obtaining the views of the 
day's witnesses and I'm pleased they're going to be able to 
testify to us freely, not restrained under the executive 
privilege where the President could refuse to let them testify.
    But I think we need to think twice before continuing with 
additional investigation. There is a criminal investigation 
going on in New York that can answer whether illegal conduct is 
involved. We know that bad judgment was involved. We can have 
many investigations to show there was bad judgment. But the 
issue before us is going to be, when all is said and done, was 
there anything illegal. We could spend months investigating the 
details of all of President Clinton's pardons. But I seriously 
question whether it makes sense for us to conduct another 
redundant investigation. I look forward to listening to today's 
witnesses and learning what we can about this whole matter and 
I thank you for yielding me this time.
    Mr. Burton. Thank you, Mr. Waxman.
    Do other Members have opening statements they'd like to 
make?
    Mr. Barr.
    Mr. Barr. Just one thing. While as usual I find nothing 
enlightening in the ranking member's discussion of things that 
are utterly irrelevant to this investigation, we have sort of 
come to learn to expect that. I did learn something. If you 
listen carefully enough to the gentleman, you can usually pick 
up a new euphemism. Witnesses used to simply assert their fifth 
amendment rights or their rights to not incriminate themselves. 
Now we know that really what they were doing was they were 
simply not able to participate in today's hearings. That's a 
delightful euphemism.
    I think that, Mr. Chairman, you put your finger on the 
heart of the matter here. There have been very serious 
questions raised about these pardons. They go to the heart of 
whether or not we are a Nation of laws or of men, and there is 
nothing at all improper about requiring a witness to come in 
here, and if they refuse to answer questions, if they have 
something to hide, then all they have to do is say so. And it's 
not a matter of not being able to participate in a hearing, it 
is simply exercising one's right not to disclose information.
    We are not here to waste anybody's time. If any of the 
witnesses decide that they don't want to disclose information, 
all they have to do is say so. But this is something that the 
American people have a right to know, and members of this 
committee as Representatives of the people of this country have 
a right to know that. So I thank you for holding the hearings, 
and as always I thank you for your indulgence. Even though 
there was nothing enlightening in the last 20 minutes, we did 
learn a new euphemism for asserting fifth amendment rights.
    Thank you, Mr. Chairman.
    Mr. Burton. Thank you, Mr. Barr.
    Any further opening statements, any comments?
    The gentlelady from Washington is so recognized.
    Ms. Norton. Mr. Chairman, I would like to indicate that I 
believe these hearings have served a salutary purpose. I 
believe they're basically two functions. One is transparency. 
We live in a democratic Republic, and people have a right to 
know about any official matter. And the other is to send a 
message to future Presidents that while the power of the pardon 
is absolute, as I believe it should remain, that Congress does 
have the power itself to look into the appropriateness of 
pardons.
    As we welcome today's witnesses, I think we ought to also 
say that the President deserves credit for having waived 
executive privilege and for having released the names of 
donors. I think that tends to show that he is trying to show he 
had nothing to hide.
    At the same time, I want to say that however much we have 
hearings on this matter, I believe that the old rule that 
lawyers learn, that appearances control, means that the only 
person who can get to whether there has been a corrupt motive 
is the U.S. attorney. There is--in my view, lawyers and public 
officials are essentially held to one rule: A thing is what it 
appears to be. The only person who can get beneath that at this 
point is the U.S. attorney, and I think we have to content 
ourselves with that.
    Mr. Chairman, I would like to submit for the record a 
matter that I think is necessary to correct the record. I have 
read in the press and even heard from some Members of Congress 
that while if the pardoned this billionaire fugitive, I must 
say at odds with all he has stood for, this man who stood for 
the poor and those most in need, that he left in jail offenders 
languishing who were first-time offenders and who are poorer 
people. Mr. Chairman, that is not true.
    I would like to submit for the record the list from the 
Families Against Mandatory Minimums. This organization 
submitted 12 names to the President of first-time offenders, 
poor people, moderate-income people, anonymous people. All 12 
had commutations and were free from prison, and beyond those 
12, 5 more that were not on their list, but were members of 
their organization were also freed. The public may know about 
Kemba Smith, the young mother and college student who was 
caught up in her boyfriend's conspiracy to sell drugs when she 
herself had committed no overt act of crime, but I don't think 
that the public knows or the press, which has made great stock 
of how these poor people have been left with nothing done for 
them. Shame on them. I do think it only right for us to know 
that the President did pardon some such people.
    Congress has had no such mercy, despite the fact that 
Justice Rehnquist, the Federal judiciary, Barry McCaffrey and 
the Catholic bishops have called for a change in the laws 
requiring mandatory minimums.
    Please let nothing I have said contradict my view that Marc 
Rich should not have been pardoned, that pardons should not be 
granted to the privileged, that the President made a terrible 
judgment in making these pardons, that he will never set the 
record straight because appearances control such matters, and I 
am afraid tragically that the appearances will always control 
this matter unless the U.S. attorney tells us otherwise.
    Thank you very much, Mr. Chairman.
    Mr. Burton. I thank the gentlelady for her comments.
    Mr. Souder.
    Mr. Souder. Thank you, Mr. Chairman. And I want to thank 
Mr. Waxman for his statement. I don't agree with the latter 
part of his statement, but I appreciate his acknowledgment in 
the forward part of his statement. I also believe that he has 
attempted to, while defend the position, that charges must be 
proven before they can be made, which at times has made him 
seem like a defender of the administration, as a fair-minded 
man.
    I had no decision in my public career that was more 
agonizing or painful than the impeachment vote, and I have paid 
a terrible price in my district from hatred of longtime friends 
who did not like it that I only voted for one count on 
impeachment. And that was very difficult because I, too, have 
been trying to sort out how you separate public and private 
behavior, and how you can establish a truth in this system, and 
how we set precedence.
    But sitting on this committee under Chairman Clinger and 
Chairman Burton has been one of the most exasperating 
experiences in my life. We had a minimum of 125 people take the 
fifth amendment or flee the country. If you want to know what's 
undermining the American people's confidence in our 
governmental systems, it is that everybody seems to be 
protecting everybody else, and that money and power seem to 
influence the ability to make decisions even for pardons, which 
our Founding Fathers meant for those who were hurting, those 
who didn't get a fair trial.
    And it seems like whether it was in the Travel Office, 
whether it was in the files, whether it was in--and I said 
``seems like'' because we haven't been able to get to the truth 
because there's been community blocking. The Chinese funding, 
the casino fund, every time we start to pursue something, it's 
like a whole bunch of people put up a wall, and that's partly 
why so many Members on our side have been so frustrated, and 
hopefully with this investigation we can move in advance toward 
truth in other things that have been, in my opinion, at the 
very least justice-obstructed. We don't know what for sure was 
obstructed, but through this wall of fleeing the country and 
taking the fifth, we have not been able to get to the truth. 
And I really hope--and I understand there's a court case going 
on, but I really hope that today's witnesses will at some time 
come forward and speak fully to us as well because American 
people have a right to know what has happened in this whole 
entire process, because public hearings such as this and things 
that our chairman are conducting are part of the way, in the 
absence of a clear norm standard in our country, we determine 
our norms of what's acceptable behavior and not.
    When Judge Thomas went through his hearing, we, as a 
community, as a Nation, learned more about how sexual 
harassment can be handled. Whether the charges were true or 
not, we went through a process. Through Watergate we went 
through a process through these--of how we determine what is 
allowable behavior in the public arena, and I think this served 
a purpose. And I hope today's witnesses and future witnesses 
will come forth and speak rather than take the fifth.
    I yield back.
    Mr. Burton. Thank you, Mr. Souder.
    Further discussion?
    Mr. LaTourette.
    Mr. LaTourette. Thank you, Mr. Chairman. I will attempt to 
be brief so we can get on with the panels, but I did want to 
followup on the ranking member's observation that this hearing 
will talk about whether or not there's illegality. I think 
there are other things this committee is looking at, and should 
be looking at. For instance, one of our colleagues from 
Massachusetts, Congressman Frank, has introduced a 
constitutional amendment to indicate that perhaps pardons are 
not appropriate by lame duck Presidents between the time of the 
election and when they leave office, and I think the facts 
developed at the last hearing and this hearing can illuminate 
us on that.
    I think this committee can certainly take a look at the 
revolving door policy of when someone works for the 
administration or Congress can come back and lobby. I think 
that's an appropriate discussion. My personal opinion is that 
Mr. Quinn sort of took the revolving door off the hinges as he 
spun around and went back into the White House to gain this 
particular pardon. It's also while the history lesson with 
President Bush and his relatives was interesting, I think 
what's intriguing with Mr. Rodham, the former First Lady's 
brother, is when Mr. Quinn was before the committee, he 
indicated he didn't violate the revolving door policy because 
he was subject to the judicial exception; that is, he was able 
to represent Mr. Rich in a criminal matter. Well, Mr. Rodham 
has taken a contingency fee in a pardon matter, which is 
against the ethics code of the Bar Association of the State of 
Florida, and his argument is it's not a criminal matter. So I 
think perhaps we can legislatively get to the bottom of that as 
well.
    And relative to the gentlelady from the District of 
Columbia, I think some of the press reports I have seen 
relative to who got in and who got out have to do with Mr. 
Vignali in California, where it was not only Carlos Vignali, a 
white drug dealer, 800 pounds turning into crack cocaine in 
Minnesota for distribution on the streets of Minnesota, but he 
had 30 co-defendants, many of whom had never been in trouble 
before, and they all are still in prison with mandatory 
minimums. In particular there was a fellow from Minnesota who 
received a longer prison sentence than Mr. Vignali.
    So I think all of those are issues before the committee. 
And the last comment I want to make, I was watching this 
Geraldo Rivera, and he was calling the Chairman Dandy Dan 
Burton; that he was going to bring Ms. Dozoretz in and subject 
her to Mafia-style treatment before the U.S. Congress. All I 
want to say is if she chooses to take the fifth amendment 
today, it is a personal privilege, as you pointed out. It can't 
be sent by letter. It can't be sent by her lawyer. She has to 
invoke it, and if she feels there's evidence she would give 
that would implicate her in conspiracy, bribery or conduit 
contributions, then it is her best interest to take the fifth 
amendment. That is her right. But to suggest somehow or 
otherwise that she is receiving ill treatment or is a media 
spectacle or anything else I think does a disservice to the 
chairman and to the committee.
    And thank you, and I yield back my time.
    Mr. Burton. The gentleman is recognized.
    Mr. Sanders. I'll be very brief. And let me just pick up on 
a point that my friend Mr. LaTourette just made a moment ago. I 
think what he was suggesting is that one of the benefits of 
this hearing, it educates us about things. And he touched on 
other manifestations of what we can learn from hearings like 
this, but I wonder if he would add to this some other areas 
that this committee might want to study.
    I have been concerned that the American people pay by far 
the highest prices in the world for prescription drugs, and the 
millions of elderly people cannot afford prescription drugs. I 
wonder if he would join me in calling on this committee to 
study the role of the millions of dollars that the 
pharmaceutical industry contributes to the Republican Party and 
to the Democratic Party and why we end up paying the highest 
prices in the world for prescription drugs.
    This country is the only country in the industrialized 
world that does not have a national health care system 
guaranteeing health care to all people. I wonder if he will 
join me and ask Mr. Burton to conduct a hearing about the role 
that insurance company moneys play in influencing the political 
process so that millions of Americans don't have health care.
    Today on the floor of the House there's a bankruptcy bill. 
My understanding is that the credit card companies and those 
people who will benefit from this bill have contributed 
millions of dollars to the Republican Party. There is a tax 
bill that President Bush has offered that will provide 43 
percent of the benefits to the richest 1 percent. I wonder if 
we will take a hard look at the role of the hundreds of 
millions of dollars that have come in to the political process 
from the wealthiest people in this country and see maybe there 
might be a correlation that the legislation that came out 
benefits overwhelmingly the wealthiest people in this country.
    So I would agree with what Mr. Waxman said earlier. I think 
it is important that we have this hearing, that we learn about 
what Mr. Clinton did and his terrible lapse in judgment, but if 
we are going to talk about money in politics, let's talk about 
money in politics, the influence that money had on Mr. Clinton, 
the influence that money has on the Republican Party and the 
Democratic Party, and then open up that issue so the American 
people once again can have faith in the political process in 
this country.
    Mr. LaTourette. Would the gentleman yield?
    Mr. Sanders. I will yield.
    Mr. LaTourette. I'd be delighted to join you in all of 
those activities. I think the distinction that I would draw is 
that if any of those activities have a quid pro quo, they're 
all wrong, and the ones--and I'd be happy to work with you.
    Mr. Sanders. Mr. Burton, I hope that you will work with us 
on those as well.
    Mr. Burton. I would be happy to look into that with you, 
Mr. Sanders.
    Mr. Sanders. OK.
    Mr. Burton. Are there any further opening statements? If 
not, Ms. Dozoretz, would you rise and raise your right hand, 
please.
    [Witness sworn.]

 STATEMENT OF BETH DOZORETZ, FORMER FINANCE CHAIR, DEMOCRATIC 
                       NATIONAL COMMITTEE

    Mr. Burton. Ms. Dozoretz, do you have any kind of opening 
statement?
    Ms. Dozoretz. No, I don't.
    Mr. Burton. Then we will start with 30 minutes on each 
side. I will yield first to Mr. Shays.
    Mr. Shays. Thank you, Mr. Chairman. Mr. Chairman, first let 
me thank you and Ranking Member Waxman for two very thoughtful 
statements. I appreciate it very much.
    Good morning Ms. Dozoretz.
    Ms. Dozoretz. Morning.
    Mr. Shays. Welcome to this hearing on Presidential pardons. 
Thank you very much for being here. This committee has almost 
been overwhelmed by what appears to be a number of inexcusable 
pardons granted by President Clinton in the 11th hour over his 
Presidency. Many on this committee question why a number of 
pardons were granted, and we question the process by which they 
were granted. On the surface it seems someone was more likely 
to get a controversial pardon if they gave to the President's 
party or to its candidates, gave to the new Presidential 
library, hired Washington White House or Washington insiders or 
used the services of family members of the former President and 
his wife.
    We question why some of the pardons were granted and the 
process by which they were granted; the fact that 40 weren't 
vetted with the Justice Department; the fact that some were not 
properly documented; and the fact that they were granted to a 
major drug dealer who was caught shipping 800 pounds of cocaine 
to four individuals who defrauded $30 million from government 
education programs designed to help those most in need, to an 
individual who practiced medical fraud and is still under 
additional investigations.
    But of all the pardons, the hardest one for us to 
understand and justify is the pardon of Marc Rich, an 
individual who allegedly made $100 in illegal profits, 
attempted to hide $48 million in profits, fled the country and 
became a 17-year fugitive from justice, renounced U.S. 
citizenship, and traded with Iran while our hostages were 
there, Iraq around the time we had hostilities in the Gulf, 
Libya, Korea and the apartheid South African Government.
    Ms. Dozoretz, we are an investigative committee that tries 
to root out waste, fraud and abuse in government, and Lord 
knows it appears we seem to have seen all three in this pardon 
process. I hope these hearings, besides helping to root out 
fraud, lead to an improvement in the pardon process; not change 
the Constitution, but the process; help improve the revolving 
door requirements and public disclosure of money raised by 
sitting Presidents and their libraries. Your testimony is 
invaluable to us and would help us conclude our investigation 
much more quickly.
    So with all this in mind, I would like to show you exhibit 
63 and to ask for your response, and what I'd like to do is 
just read parts of it. Do you have a copy of it?
    No. 2 says, ``DR called from Aspen,'' and we understand 
from Jack Quinn that is Denise Rich. ``Her friend B,'' we 
understand from Jack Quinn is you, Beth Dozoretz, ``who is with 
her got a call today from POTUS,'' who we understand to be the 
President, ``who said he was impressed by JQ,'' Jack Quinn's, 
``last letter and that he wants to do it and is doing all 
possible to turn around the White House counsels. DR, Denise 
Rich, thinks he sounded very positive, but, that we have to 
keep praying. There shall be no decision this weekend. And the 
other candidate Milk,'' we understand to be Michael Milken, 
``is not getting it.''
    Then No. 3, ``I shall meet her and her friends next week. 
She will provide more details.''
    [Exhibit 63 follows:]
    [GRAPHIC] [TIFF OMITTED] T5593.563
    
    Mr. Shays. Now, what I would like to ask is the following: 
exhibit 63 is an e-mail which indicates that on January 10, 
2001, President Clinton called you in Aspen, CO, where you were 
staying with Denise Rich. The e-mail indicates that the 
President discussed the Marc Rich pardon with you before he 
spoke with the Justice Department. My question is at any time 
while you were discussing the Marc Rich pardon with President 
Clinton, did either you or the President mention Denise Rich's 
contributions to the Clinton library or the Democrat National 
Committee?
    Ms. Dozoretz. Upon the advice of my counsel, I respectfully 
decline to answer that question based on the protection 
afforded me under the U.S. Constitution.
    Mr. Shays. Let me ask you, will that be your response to 
all our questions, or are there are specific subjects or 
persons you will not discuss and others you are willing to 
discuss with us?
    Ms. Dozoretz. Sir, that will be my response to all 
questions.
    Mr. Shays. Thank you, Ms. Dozoretz. I know it hasn't been 
easy coming here today, and we appreciate your informing the 
committee personally of your decision to assert your rights 
under the fifth amendment even though your lawyer had done so 
earlier. In doing so, you show respect for our responsibility 
and our process.
    Mr. Chairman, I yield back.
    Mr. Burton. Gentleman yields back.
    Just 1 second.
    Mr. LaTourette, no questions.
    Mr. Waxman.
    Let me just say that since Ms. Dozoretz has exercised her 
fifth amendment rights and has said she wants to continue to do 
so, we have no further questions. We'll be happy to excuse her. 
If you have questions, go ahead.
    Mr. Waxman. Mr. Chairman, I understand that Denise Rich, 
who also took the fifth amendment but wasn't required to come 
here today to assert it, has indicated she is going to 
cooperate with the U S. Attorney's Office in New York, which 
is, of course, the official investigation, as to whether any 
criminal actions took place. I don't think I could get an 
answer from Ms. Dozoretz because I think, as I understand the 
rule, if she answers any questions, then she's waived her right 
not to testify. But I presume and expect and hope that she is 
also going to cooperate with the U.S. Attorney's Office.
    As I understand the matter, witnesses who are being called 
to testify and cooperate with law enforcement may well feel 
that they ought to take the fifth amendment here, but cooperate 
there. I again regret that she was brought here to assert what 
the chairman knew she would assert, her constitutional right 
not to testify, and while people say it's not for media 
spectacle purposes, I wish that the TV audience could see all 
the people here with cameras anxious to take her photo as she 
asserted her rights, which we expected she would do. I have no 
questions.
    Mr. Burton. Mr. Waxman, I'll retain my time. Let me just 
say why do you assume that she wouldn't take her fifth 
amendment rights before the U.S. attorney?
    Mr. Waxman. I can't answer whether she will or she won't. I 
could ask her the question, but I presume that would be----
    Mr. Burton. I understand, but the comments you made 
indicated----
    Mr. Waxman. The reason I made that statement is if Denise 
Rich is going to cooperate and is cooperating with the U.S. 
attorney, and she has taken the fifth amendment with regard to 
this committee, I presume and expect--and we'll get a response, 
I expect, from Ms. Dozoretz and her attorney, if not on the 
record right now, shortly, and publicly--that they will be 
cooperating with the official law enforcement investigation.
    Mr. Burton. Well, Mr. Waxman, perhaps you know something we 
don't, and I appreciate you sharing your expectations with us, 
but let me just say this about Ms. Rich. I have heard she's a 
very fine lady, and we certainly didn't want to cause her any 
undue heartburn as well. Ms. Rich--we sent a letter as we have 
always done to the U.S. Attorney's Office and the Justice 
Department to find out if they object to our granting Ms. Rich 
or possibly Ms. Dozoretz immunity for testifying, and the U.S. 
attorney indicated that they were opening a criminal 
investigation, and I believe they have impaneled a grand jury. 
Whenever the U.S. attorney or the Attorney General indicates to 
this committee that they would request that we not grant 
immunity because it might interfere with their investigation, 
and might cause a person who might possibly be convicted of a 
felony and our granting immunity would impede that process, 
then we don't grant immunity, and we always write that letter.
    Now, we received a response back from the U.S. attorney for 
the Southern District of New York, who said that they were 
opening a criminal investigation and asked us not to grant 
immunity, and since Ms. Rich planned the take the fifth 
amendment and we decided not to try to grant her immunity at 
the request of the U.S. attorney for the Southern District of 
New York, we decided not to call her. Those are the facts, and 
that has not been the case with Ms. Dozoretz, and that's why 
she was asked to be here today.
    Mr. LaTourette. Mr. Chairman, if you will yield to me for a 
minute.
    Mr. Burton. I'll yield.
    Mr. LaTourette. I think Mr. Waxman's earlier observation is 
correct. At least my limited understanding of the law is that 
if Ms. Dozoretz answers any question, she can't pick and choose 
which questions she answers. So I think he's right about that, 
but I think also she can't pick and choose, nor can Ms. Rich 
pick and choose, which forum she chooses to speak in, and once 
she violates or says that she's no longer invoking the 
amendment, should that be in the Southern District of New York 
or some other forum, she no longer retains that right. And I 
would ask perhaps that if she breaks this code of silence and 
determines that she wants to give testimony and not invoke the 
fifth amendment in another forum, that perhaps the committee 
send to her through her lawyers written questions when she no 
longer has the privilege available so that we may have the 
benefit of those answers she's giving to others to help us in 
our probe.
    Mr. Burton. Thank you, Mr. LaTourette.
    One second.
    Mr. Barr.
    Mr. Barr. Thank you, Mr. Chairman.
    We are getting off on a tangent here that I'm not quite 
sure is accurate. Any individual has the right with regard to 
any question put to them to assert an articulable basis for not 
testifying if it incriminates them, and I'm not quite sure that 
we're all operating within the bounds of a clear understanding 
of the law when we say simply because a person may choose to 
assert the right with regard to question A, that that means 
they have to assert it to all or none.
    Ms. Dozoretz, I think we can at least get one issue off the 
table here. This has nothing to do with the hearing today, but 
is it your intention to cooperate with any investigation being 
conducted by the U.S. Attorney's Office for the Southern 
District of New York?
    Ms. Dozoretz. I'll rely on the advice of my counsel, sir.
    Mr. Barr. In other words, your counsel has instructed you 
not to cooperate with any probe by the U.S. attorney for the 
Southern District of New York?
    Ms. Dozoretz. I will rely on the advice of my counsel, sir.
    Mr. Barr. And does that advice include telling you not to 
cooperate with the U.S. attorney for the Southern District of 
New York?
    Ms. Dozoretz. I will rely on the advice of my counsel, Mr. 
Barr.
    Mr. Barr. Which is to assert your fifth amendment rights 
even as to that question?
    Ms. Dozoretz. It's privileged, sir.
    Mr. Barr. What is privileged?
    Ms. Dozoretz. The advice of my counsel.
    Mr. Barr. OK. Well, you keep citing it, so obviously it's 
not really privileged because you keep citing it.
    Apparently the witness, Mr. Chairman, will not even state 
to the American people or to this panel that it is her 
intention to cooperate with the Department of Justice. I think 
that's very unfortunate. That's unfortunate advice, but 
apparently that's where we are.
    Mr. Burton. We're prepared, Mr. Waxman, to release Mr. 
Dozoretz. Do you have any further comments?
    Mr. Waxman. Yes, Mr. Chairman, I have a further comment. I 
don't want the chairman or anyone else to think I'm being 
critical of how you handled the situation with Ms. Rich in not 
asking her to come in and give her immunity and force her to 
testify because there is an ongoing law enforcement 
investigation. I must also say that I take a harsh view of 
people not willing to cooperate with committees of the 
Congress, and if I had my way, I wish Mrs. Dozoretz would 
testify, because I think people ought to testify before 
committees of the Congress. But I do understand that she is 
under the guidance of her lawyers, sorting through a legal 
thicket, where on the one hand you have the committee of the 
House investigating, committee of the Senate investigating, and 
the U.S. Attorney's Office investigating.
    It has been reported that Denise Rich, who also said she 
would take the fifth amendment before Congress, is at the 
present time talking to the U.S. attorney. Now, I can't say 
from my own knowledge whether Ms. Dozoretz is doing the same, 
but I can say from my own knowledge, knowing her, that she is a 
responsible person, and that she has been very philanthropic.
    She has been a concerned citizen. And as such I would 
expect to hear that she is also going to be cooperating with 
the U.S. Attorneys Office. I just wanted to make that statement 
and have my views very clearly on the record.
    Mr. Burton. If there's no further discussion or questions, 
Ms. Dozoretz and your counsel, thank you very much for being 
here. We'll excuse you at this time.
    The next panel that we will welcome to the witness table 
will consist of Jack Quinn, Beth Nolan, Bruce Lindsey, and John 
Podesta. Can we have the staff assist the people and the media 
to move out in the corridor? Would you, as soon as you can, 
please shut that door so we can proceed with our business? 
Would everybody please take seats so we can have the proper 
order?
    Mr. Quinn, Ms. Nolan, Mr. Lindsey, Mr. Podesta, would you 
please rise to be sworn?
    [Witnesses sworn.]

STATEMENTS OF JACK QUINN, COUNSEL TO MARC RICH, FORMER COUNSEL 
    TO PRESIDENT CLINTON; BETH NOLAN, FORMER COUNSEL TO THE 
PRESIDENT; BRUCE LINDSEY, FORMER ASSISTANT TO THE PRESIDENT AND 
DEPUTY COUNSEL TO THE PRESIDENT; AND JOHN PODESTA, FORMER WHITE 
                      HOUSE CHIEF OF STAFF

    Mr. Burton. I think you may have opening statements. I 
think we'll just go right down the table. Mr. Quinn, do you 
have an opening statement.
    Mr. Quinn. No, sir, Mr. Chairman. As you know, Mr. 
Chairman, I was here almost 9 hours a few weeks ago.
    Mr. Burton. Would you repeat what you said? I did not hear 
it.
    Mr. Quinn. As you know, I testified before this committee 
for almost 9 hours a few weeks ago, and I subsequently 
testified before a Senate committee. I've submitted to this 
committee for inclusion in the record of its hearings my Senate 
testimony. And I'll stand on that and be prepared to answer any 
questions you may have today.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T5593.449
    
    [GRAPHIC] [TIFF OMITTED] T5593.450
    
    [GRAPHIC] [TIFF OMITTED] T5593.451
    
    [GRAPHIC] [TIFF OMITTED] T5593.452
    
    [GRAPHIC] [TIFF OMITTED] T5593.453
    
    [GRAPHIC] [TIFF OMITTED] T5593.454
    
    Mr. Burton. We appreciate your coming back and being with 
us. Ms. Nolan, do you have an opening statement.
    Ms. Nolan. Mr. Chairman, I do not have an opening 
statement; but I am prepared to answer your questions.
    Mr. Burton. Thank you, Ms. Nolan. Mr. Lindsey.
    Mr. Lindsey. Mr. Chairman, I do not have an opening 
statement; but I'm prepared to answer any questions.
    Mr. Burton. Thank you, Mr. Podesta.
    Mr. Podesta. Yes, I'd like to make an opening statement.
    Mr. Burton. Would you turn the mic on sir.
    Mr. Podesta. Is it on?
    Mr. Burton. Yes, sir. You're recognized.
    Mr. Podesta. Mr. Chairman, members of the committee, my 
name is John Podesta. From November 1998 until January 2001, I 
served as President Clinton's chief of staff. Between January 
1993 through June 1995 and between January 1997 through 
November 1998, I held other positions in the Clinton White 
House. Between June 1995 and January 1997, I was the visiting 
professor of law at Georgetown University Law Center, and I 
have recently returned to the Law Center as a visiting 
professor.
    As the committee requested in its letter inviting me here 
today, I will briefly outline my recollections of my 
discussions concerning the Marc Rich-Pincus Green pardon 
matter. This matter arose during, as you know, an exceedingly 
busy period at the White House as President Clinton's term was 
drawing to a close. Because I was involved in a great many 
issues unrelated to pardons during this time and I do not have 
access to records, my ability to reconstruct these discussions 
has been limited, but I am prepared to share with the committee 
what I do recall.
    My first recollection of this matter is that some time in 
mid-December 2000 I returned a call from Mr. Peter Kadzik who 
has been a friend of mine since we attended law school together 
in the mid-1970's. I remember that Mr. Kadzik told me that his 
firm represented Mr. Rich and Mr. Green in connection with a 
criminal case and that Jack Quinn was seeking a Presidential 
pardon from them.
    At that point, I was unfamiliar with the Rich/Green case. 
Mr. Kadzik asked me who would be reviewing pardon matters at 
the White House. I recalled that I told him that the White 
House Counsel's Office was reviewing pardon applications.
    A few days later, Mr. Kadzik sent me a summary of the cases 
which I forwarded to counsel's office. Shortly after the first 
of the year, Mr. Kadzik again called and then asked, in light 
of the pardons that Mr. Clinton had issued around Christmas, 
whether any more pardons were likely to be considered. I told 
him that yes the President was considering additional pardons 
and commutations, but it was unlikely that one would be granted 
under the circumstances he had briefly described unless the 
counsel's office, having reviewed the case on the merits, 
believed that some real injustice had been done.
    I thought a pardon in the Rich/Green case was unlikely but 
still knew very little about it. That call from Mr. Kadzik 
prompted me to ask Ms. Nolan about the merits in the case. I 
believe she or Miss Cabe or both told me that Rich and Green 
were fugitives in a major tax fraud case and that whatever the 
merits of the underlying case, it was the unanimous view of the 
counsel's office that the appropriate remedy was not a 
Presidential pardon.
    I learned then or subsequently that Mr. Lindsey was of the 
same view. I strongly concurred in that judgment. A few days 
later, Mr. Kadzik asked me if he could see me for a few 
minutes. I agreed and we had a brief meeting in my office. He 
again raised the Rich/Green pardon case. I told him that I, 
along with the entire White House staff counsel, opposed it and 
that I did not think it would be granted. At that point, I 
believed that the pardons would not be granted in light of the 
uniform staff recommendation to the contrary and that little 
more needed to be done on the matter.
    Mr. Kadzik made one more call to me, and I believe we spoke 
on either January 15 or 16. He told me he had been informed 
that the President had reviewed the submissions Mr. Quinn had 
sent in and was impressed with them and was once again 
considering the pardon. I told him I was strongly opposed to 
the pardons and that I did not believe they would be granted.
    On January 15 or 16, I spoke with former Congressman John 
Brademas, president emeritus of New York University. Mr. 
Brademas, who is a friend of King Juan Carlos of Spain, called 
to tell me that he had received a message from the King. The 
message concerned the Rich pardon case. Mr. Brademas told me 
that he understood Israel's Foreign Minister, Shlomo Ben Ami, 
had visited the King to brief him on the Middle East peace 
process and had raised the Rich case. Mr. Ben Ami evidently had 
asked the King to call President Clinton to support the Rich 
pardon application. And Mr. Brademas, in turn, had been asked 
if he could make known the King's interest to the White House.
    Mr. Brademas did not advocate a pardon. He simply asked me 
whether the pardon was likely or even possible. I told him 
while it was the President's decision, the White House 
Counsel's Office and I were firmly opposed and I did not 
believe that the pardon would be granted.
    Late on January 16, I believe, the staff met with President 
Clinton on some other pardon matters, and the President brought 
up the Rich case and told us that he thought Mr. Quinn had made 
some meritorious points in his submission. He clearly had 
digested the legal arguments presented by Mr. Quinn since he 
made a point of noting the Justice Department had abandoned the 
legal theory underlying the RICO count and mentioned the 
Ginsburg/Wolfman tax analyses. The staff informed the President 
that it was our view that the pardon should not be granted.
    On Friday afternoon January 19th, the President talked to 
Prime Minister Barak in a farewell call. While the bulk of that 
call concerned the situation in the Middle East, Prime Minister 
Barak raised the Rich matter at the end and asked the President 
once again to consider the Rich pardon.
    That evening, the President had a final meeting with White 
House counsel to discuss pardon matters. While I was there for 
part of that meeting, I had to leave for a scheduled television 
interview and was not present during the discussion of the 
Rich/Green cases. I was informed of the President's decision to 
pardon Mr. Rich and Mr. Green by Ms. Nolan on Saturday morning, 
January 20.
    Members of committee, on February 18, former President 
Clinton stated in the New York Times his reasons for granting 
the Rich and Green pardons. One can disagree with his reasoning 
as many have. One can say he did not adequately consult with 
the Justice officials before issuing the pardons as the 
President himself acknowledged in his statement, but I believe 
that President Clinton considered the legal merits of the 
arguments for the pardon as he understood them and he rendered 
his judgment wise or unwise on the merits of the case. Thank 
you.
    [The prepared statement of Mr. Podesta follows:]

    [GRAPHIC] [TIFF OMITTED] T5593.070
    
    [GRAPHIC] [TIFF OMITTED] T5593.071
    
    Mr. Burton. If there are no further opening statements, we 
will now go to the 30 minutes on each side; and I believe we're 
going to yield to Mr. LaTourette on this.
    Mr. LaTourette. Thank you Mr. Chairman. Welcome to all. Mr. 
Podesta, I think your opening statement gets to the first set 
of questions I had. Is it your recollection that on January 
16th of this year was the first time that you personally 
discussed the Pincus Green/Marc Rich pardon with the President 
of the United States?
    Mr. Podesta. My recollection is it is the first time it 
came up with the President in my----
    Mr. Latourette. In your presence. How about you, Mr. 
Lindsey.
    Mr. Lindsey. I certainly don't remember--it came up in two 
maybe, three meetings that we had with the President some time 
around the middle of January it would seem that approximately 
the first meeting had occurred.
    Mr. LaTourette. From the last meeting, we know that the 
pardon application was filed with the White House on December 
11. You don't remember any discussions in the month of 
December.
    Mr. Lindsey. With the President? No, sir, I don't.
    Mr. LaTourette. Ms. Nolan how about you.
    Ms. Nolan. No, I don't.
    Mr. LaTourette. Were you present at this January 16 meeting 
that Mr. Podesta was talking about.
    Ms. Nolan. I believe I was. I don't have access to my 
calendars either. There were several meetings that week.
    Mr. LaTourette. Mr. Lindsey, at the last hearing and I want 
to, if you have the book of exhibits in front of you at the 
last hearing, exhibit No. 15 in our program is a letter that we 
talked to Mr. Quinn about at our previous hearing. It's a 
letter dated December 19, 2000; and it indicates that perhaps 
while on a trip to Ireland there was a concern raised and it 
looks like it was raised by you about whether or not Mark Rich 
and Pincus Green were fugitives from justice. First of all, do 
you recall having such a conversation with Mr. Quinn in 
Ireland?
    [Exhibit 15 follows:]

    [GRAPHIC] [TIFF OMITTED] T5593.486
    
    Mr. Lindsey. Yes, I do.
    Mr. LaTourette. Did you express to him your concern or the 
White House's concern or somebody's that these fellows were 
fugitives from justice and they were on the FBI most wanted 
list?
    Mr. Lindsey. I don't know if I was aware that they were on 
the FBI most wanted list, but Mr. Quinn asked me if I had 
gotten his packet of material on Mr. Rich and Mr. Green. I told 
him I had. He asked me what I thought. I told him I thought 
they were fugitives.
    Mr. Burton. Will both of you put your mics a little closer? 
I don't think all the members can----
    Mr. Cummings. We cannot hear the questions either, Mr. 
Chairman.
    Mr. Burton. Mr. LaTourette, would you hold the mic close to 
you.
    Mr. LaTourette. I'll lean in as close as I can. I 
apologize. This letter of December 19, did you receive it from 
Mr. Quinn.
    Mr. Lindsey. Yes, sir, I did.
    Mr. LaTourette. It addressed the issue of fugitivity did it 
not?
    Mr. Lindsey. In a technical sense, yes, sir.
    Mr. LaTourette. Basically in that letter, Mr. Quinn is 
advising you that these fellows really aren't fugitives because 
they left the country before the indictment was issued.
    Mr. Lindsey. That's correct.
    Mr. LaTourette. Do you agree with that definition of 
fugitivity?
    Mr. Lindsey. Probably from a legal point of view, yes. From 
a practice point of view, it made no difference to me whether 
they left before indictment or after indictment.
    Mr. LaTourette. Did you ever discuss with the President of 
the United States, either in the meeting on January 16 or any 
other meeting, the concerns about pardoning people who had been 
17 year fugitives from justice?
    Mr. Lindsey. Yes, sir.
    Mr. LaTourette. What was the President's reaction I guess 
to that?
    Mr. Lindsey. I believe he believed the fugitives status was 
a factor to be considered but not the beginning and the end of 
the conversation. For me it was both the beginning and the end 
of the conversation.
    Mr. Burton. Will the gentleman yield briefly?
    Mr. LaTourette. Sure.
    Mr. Burton. Did anybody in the meeting ask the President if 
he knew that the study that the President based part of his 
judgment on was paid for by Mr. Rich and his attorneys?
    Mr. Lindsey. I don't think anybody asked him that. I assume 
since it was prepared at their request that they had paid to 
have it prepared. But frankly, I don't question either of the 
two professors. I do not believe either of them would say 
something different than what they believed just because they 
were being paid. I don't know them personally, but I accepted 
their analysis at face value.
    Mr. Burton. Did the President know that Mr. Rich paid for 
that study?
    Mr. Lindsey. Again it was never discussed.
    Mr. Burton. Thank you.
    Mr. LaTourette. Ms. Nolan, to you. At our last hearing, we 
had a discussion with Mr. Quinn; and he indicates that you, at 
one point, raised a question about whether the Executive order 
talking about the revolving door policy, that is a member of 
the administration can't come back within 5 years and lobby the 
administration, whether or not his involvement in the Rich 
pardon created a difficulty with that Executive order. Do you 
remember that conversation?
    Ms. Nolan. I do remember raising the issue. I think when I 
first spoke with Mr. Quinn about the pardon, one of the things 
that concerned me was he eligible to represent someone.
    Mr. LaTourette. And again according to his testimony, he 
indicated that he allayed those concerns based upon the 
judicial exception contained therein in the policy that he 
wrote; is that right?
    Ms. Nolan. He told me that he had obtained a legal opinion 
that it was permissible for him to represent someone in a 
pardon application. I, nevertheless, asked one of my associate 
counsels to look at the question independently and got the 
answer back that it did meet the exception.
    Mr. LaTourette. And the exception we're talking about is 
the judicial exception that if there has been a criminal 
process commenced, it was your feeling that he could come back 
in a period of less than 5 years.
    Ms. Nolan. That is correct.
    Mr. LaTourette. The reason I asked that question is I heard 
Mr. Quinn say that at the last hearing I think you've also seen 
in the news the indication that Hugh Rodham, who is the former 
First Lady's brother, accepted a $200,000 contingency fee to 
represent another individual in a pardon application. According 
to the code of ethics for lawyers in the State of Florida, it 
is improper to take a contingency fee in a criminal matter. 
One, are you aware of that fact? Or are you aware of ethics 
codes similar to that?
    Ms. Nolan. I am not aware of the Florida rules, but I'm 
certainly aware of ethics codes similar to that.
    Mr. LaTourette. It's really not appropriate to take a 
contingency fee in a criminal case to get a desired result. 
That's the purpose behind the rule I suppose. My observation is 
in that case at least the First Lady's brother sees to be 
indicating that was OK because it's not a criminal matter; but 
in this particular case, Mr. Quinn's representation is also OK 
because it is a criminal matter. And we seem to be at, perhaps, 
cross purposes.
    Going to the meeting of the 16th with the President of the 
United States. At that meeting, did he ask you to get more 
information other than the information that was included in Mr. 
Quinn's submission on behalf of Marc Rich and Pincus Green? Did 
he ask you to call the Justice Department?
    Ms. Nolan. I had already spoken with Mr. Holder. I don't 
recall that it was an extensive discussion. However, we were 
going through a number of pardon applications, and my memory is 
that it was a fairly brief discussion in which he heard from 
all of us our opposition. I didn't think it was going anywhere.
    Mr. LaTourette. When you say he----
    Ms. Nolan. The President.
    Mr. LaTourette. President Clinton heard your opposition 
that you had the feeling at that meeting that it really didn't 
matter what you said. He was inclined to grant this pardon 
based upon reasons that he saw in the application and perhaps 
calls from world leaders.
    Ms. Nolan. No I don't mean that at all. I did not believe 
that the pardon was going anywhere. He was familiar with it. He 
was sympathetic with it. And he was familiar with the issues, 
but I did not have the sense--he said we'll come back to this. 
I did not have the sense at that meeting or until the 19th that 
he really was inclined to grant the pardon.
    Mr. LaTourette. Does that comport with your understanding, 
Mr. Lindsey, and yours, Mr. Podesta, that you left that meeting 
thinking, yeah, he's sympathetic; but this isn't going to 
happen?
    Mr. Lindsey. I clearly left the meeting understanding that 
no decision had been made. I don't know if I knew what was in 
his mind.
    Mr. LaTourette. Mr. Podesta.
    Mr. Podesta. No. I thought he accepted our judgment and I 
didn't think this was a particularly active matter.
    Mr. Latourette. Thank you. Mr. Chairman I yield back to you 
for further distribution.
    Mr. Burton. Mr. Barr. Excuse me, Mr. Shays.
    Mr. Shays. Good afternoon, gentlemen. The former deputy 
White House--and lady, I'm sorry Ms. Nolan.
    Ms. Nolan. Thank you.
    Mr. Shays. Former Deputy White House Counsel Cheryl Mills 
left the White House in October 1999. It's reported to us by 
the pardon attorney that when he called the White House late in 
January, that Ms. Mills answered the phone and responded to his 
questions in the White House regarding the pardon.
    And so my first question: Was former Deputy White House 
Counsel Cheryl Mills assisting the White House or counsel's 
office at any time during the final weeks of the Clinton 
administration?
    And we'll start with you, Ms. Nolan.
    Ms. Nolan. Ms. Mills, since she had left the White House, 
continued to be somebody that we called on for advice. She had 
been there for 7 years. She had a great deal of experience, and 
people throughout the office called her the president. She had 
been a very close advisor of the President and the President 
continued to depend on her.
    I'm not familiar with the particular phone call you're 
talking about. She was present several days at the end because 
there were events at the White House to which she had been 
invited. She's a friend of mine and a former member of 
counsel's office, and she would come by the counsel's office. 
She was present the afternoon and evening of the 19th. She had 
been invited to an event at the White House the evening of the 
19th. And she did participate in discussions with my office and 
the President about the Marc Rich pardon and some other 
pardons.
    Mr. Burton. Excuse me. Could we pull all the mic's a little 
closer, I know all the members think it's because there are so 
many people in the room. We can't hear as well as we would 
like.
    Mr. Shays. Mr. Lindsey, what would you like to add.
    Mr. Lindsey. I don't know if there is anything needed to be 
added, sir.
    Mr. Shays. Do you have any additional information that you 
can share with us.
    Mr. Lindsey. No. I'm unfamiliar with what Mr. Adams is 
referring to. Ms. Mills was at the White House on the afternoon 
and evening of the 19th and did participate in some 
discussions. But beyond that, I have no clue as to what Roger 
Adams is referring to.
    Mr. Shays. Mr. Podesta, was former Deputy White House 
Counsel Cheryl Mills assisting the White House or counsel's 
office during any time during the final weeks of the Clinton 
administration, and did you know about it?
    Mr. Podesta. Let me take it from the back and then the 
front end. I didn't know that she was assisting the counsel's 
office in the final weeks of the administration, if she was. I 
did know that she was present on the 19th during a discussion 
of some other pardon matters; but as I said, I did not 
participate in the Rich pardon matter discussion. And so I was 
aware that she was there on the 19th.
    Mr. Shays. So your testimony is that you did not authorize 
her to be there?
    Mr. Podesta. Did not authorize her to be there? I was aware 
that she was there in the discussion; and I knew that with 
respect to the other pardon matters that we were discussing 
that most, all of which involved cases that had been prosecuted 
by the independent counsels, that the President was interested 
in knowing her views on those cases.
    Mr. Shays. Are our statistics, in fact, correct. She was 
not an employee of the White House? She had left the White 
House.
    Mr. Podesta. She had certainly left the White House.
    Mr. Shays. So, Ms. Nolan, I wanted to know who authorized 
her to be in the White House handling pardon activities.
    Ms. Nolan. I'm not sure I would describe her as being in 
the White House handling pardon activities. She did participate 
in advising the President. The President had continued to 
depend on her. She was the person he asked to be counsel to the 
President, and she would have been counsel to the President had 
she accepted. He continued to depend on her for advice.
    Mr. Burton. Would the gentleman yield.
    Mr. Shays. Yes.
    Mr. Burton. When the pardon attorney called the White 
House, he said Ms. Mills answered the phone and started giving 
him answers regarding the pardons. She was not an employee of 
the White House. And we were wondering by what authority she 
was entitled to answer questions to the pardon attorney about 
some of the pardons.
    Ms. Nolan. Mr. Chairman, I am just not familiar with that 
phone call. As I mentioned, she not only is a long-time 
employee of the White House who is very familiar with the 
office, she is also a friend of mine; and when she was in 
Washington, she would sometimes come sit in my office. She 
might have picked up the phone. I don't know. She wasn't 
working on pardon matters for a week, for the last several 
weeks. But she was familiar with pardons and she was present 
the last day and she participated in discussion.
    Mr. Burton. Well there may be some misunderstanding, but 
when we talked to the pardon attorney it was our impression I 
think pretty clearly that she was discussing pardons with him 
on the phone with a great deal of authority and giving him 
answers. Anyhow I yield back to the gentleman.
    Mr. Shays. Thank you. Ms. Nolan, I am having a little 
difficulty with this. We knew it really bordered on very 
questionable lines that Mr. Quinn, who was a former White House 
employee, was back in the White House lobbying. And we can have 
our disagreements on whether it was a criminal matter or not. 
There was a dialog between the two in which he said you 
acquiesced.
    I have a problem with that, but I have a question how 
someone who is in the private sector under private employment 
is back working in the White House. And I would like to know 
who invited her to be in the White House, who authorized her to 
be involved in the Marc Rich issue, and then I want to ask you 
isn't it true that she works for a trustee of the Clinton 
library? First let me ask you this, isn't it true she is a 
trustee of the Clinton library?
    Ms. Nolan. I believe I heard that a couple of weeks ago, 
yes.
    Mr. Shays. So the answer is yes.
    Ms. Nolan. I believe that is correct. I have only heard 
it----
    Mr. Shays. I want to know why this trustee of the Clinton 
library was back in the White House discussing Marc Rich's 
pardon.
    Ms. Nolan. Mr. Shays, I don't know that I'm going to be 
able to give you an answer that satisfies you any more than the 
one I have given you. She was a long-time trusted advisor of 
the President. She continued to be someone that we looked too 
for advice.
    Mr. Shays. So is your point that the President authorized 
her to be there or you authorized to be there?
    Ms. Nolan. I don't know that I can give you an answer about 
who authorized it.
    Mr. Shays. Who invited her to come?
    Ms. Nolan. She was invited when she was in Washington to 
come by.
    Mr. Shays. By who?
    Ms. Nolan. Certainly by me but by many people in the White 
House. She had many friends.
    Mr. Shays. Why would you invite her to come and work on the 
Rich pardon in your office?
    Ms. Nolan. I did not invite her specifically to do that. 
She was present. I don't know whether the President had 
discussed pardons with her already. He talked with her 
frequently.
    Mr. Burton. Would the gentleman yield? Was she in any of 
the meetings when they discussed any of the pardons?
    Ms. Nolan. She was in the meeting on the evening of January 
19.
    Mr. Burton. That was when they discussed the Rich pardon?
    Ms. Nolan. Yes.
    Mr. Burton. Did she take a position on the Rich pardon?
    Ms. Nolan. I don't remember her having a position on yes or 
no. I thought that she was pushing everyone in the room to 
think hard about the issues.
    Mr. Burton. There's a significance to this. If she's on the 
library board, we want to find out if she participated in the 
decisionmaking process on the Rich pardons. She was in the room 
with you, and you don't recall. Do any of you recall what Ms. 
Mills position was and what she said regarding the Rich pardon?
    Mr. Podesta. If you want me to start, I have already said I 
wasn't in the discussion. She was in the discussion. She wasn't 
present in the room when we discussed several matters involving 
prosecutions by the independent counsels. The President wanted 
her views about those things. She was quite familiar with those 
cases.
    Mr. Burton. But you don't recall on the Rich pardons.
    Mr. Podesta. The President did want to know what she 
thought about individual's cases that had been prosecuted by 
independent counsels; and I think probably amongst all of those 
in the room, she may have been the most maybe, with deference 
to Mr. Lindsey, she may have been the most familiar with those 
independent counsel cases. And that's why he was seeking her 
advice about them, but I was not present during the discussion 
of the Rich pardon.
    Mr. Burton. We're not talking about other cases before the 
independent counsel but Mr. Rich.
    Mr. Podesta. That was in some extended response to Mr. 
Shays' question.
    Mr. Lindsey. In order to understand the context, it is 
important to understand that the purpose of the meeting with 
the President on the 19th was to discuss the independent 
counsel issues. That was why we were meeting with him. We had 
deferred those issues until the end. In that meeting, the 
President indicated that he had received a call that day from 
Prime Minister Barak and reraised the Rich issue. But until 
that time, as Mr. Podesta and Ms. Nolan indicated, at least 
they were under the clear impression that the Rich issue was 
dead.
    Mr. Burton. Let me ask this. Did, I mean, she was in there 
when they discussed the Rich pardon issue. Do any of you recall 
what her position was?
    Mr. Lindsey. Yes, sir. I don't believe she took a position 
on the merits of it. She asked whether or not we were 
discussing several of the assertions that Mr. Quinn made with 
respect to whether or not these people had been singled out, 
and she asked several questions as: Do we know whether they 
were singled out? Do we know whether there were other cases 
similar to this? But beyond asking these questions I don't 
believe she took a position.
    Mr. Burton. Were there any other things discussed, any 
financial things like the library or anything like that?
    Mr. Lindsey. No, sir. There were no discussions in that 
meeting or in any meeting that I attended with the President in 
which contributions or the library was discussed in which DNC 
contributions were discussed, where contributions to Mrs. 
Clinton's campaign were discussed.
    Mr. Burton. Or the library?
    Mr. Lindsey. Or the library. Not in that meeting; not in 
any meeting.
    Mr. Burton. And Ms. Mills, at that time, was she on the 
library board?
    Mr. Lindsey. She was a trustee of the board, yes, sir.
    Mr. Burton. And nothing was mentioned in relation to that.
    Mr. Lindsey. Nothing was mentioned in relation to the 
library period.
    Mr. Burton. Thank you. Mr. Shays.
    Mr. Shays. Thank you. I would like to refer to exhibit 152. 
While that's coming up, I want to be very clear. Mr. Podesta, 
did you ask Ms. Mills to come to the White House in any way to 
discuss the Rich issues or any other pardon issues?
    [Exhibit 152 follows:]

    [GRAPHIC] [TIFF OMITTED] T5593.720
    
    Mr. Podesta. Did I ask her to come to the White House? No, 
I did not.
    Mr. Shays. Ms. Nolan, did you?
    Mr. Podesta. Can we look at the exhibit before we answer 
the questions?
    Mr. Shays. No, this question is not related to the exhibit 
directly. I just want to cover up the past territory. I'm 
unclear. Did you have--in any way, request that Ms. Mills be 
there? Did you authorize her to be there?
    Ms. Nolan. I certainly knew she was coming to town, and I 
expected that she would come to my office and see me, yes.
    Mr. Shays. Did you make an assumption that the President 
had asked her to be there? Yes?
    Ms. Nolan. I don't know that I made that assumption. No.
    Mr. Shays. What are we to assume? This person comes and 
starts talking about the Rich pardons, sits in on your 
meetings; and she's not even an employee.
    Ms. Nolan. I've explained the context in which that wasn't 
so surprising. I know you don't accept it, but I don't know, I 
don't know what else to say.
    Mr. Shays. I'm still unclear on who asked her to be there. 
Let me just make reference to the exhibit, it says, here is a 
letter Jack sent to the White House. As you may notice it's 
from Robert Fink sent to Mike Green, and it says, here is the 
letter that Jack sent to the White House. As you may notice, 
his secretary said that Jack sent copies to Beth Nolan, Bruce 
Lindsey, and Cheryl Mills. April said they had clearance to 
deliver it to the White House so it will get there this evening 
presumably before POTUS leaves for Camp David to Avner, whom I 
will not be speaking to this afternoon and evening. If you call 
me at home tomorrow, I can give you an update.
    And I just want to know, Mr. Quinn, did you send it to her 
at the White House?
    Mr. Quinn. I think not, sir.
    Mr. Shays. OK. Why did you send Ms. Mills a copy? Was it 
your understanding that she was doing some kind of work with 
the counsel's office in January 2001?
    Mr. Quinn. I sent it to her, Mr. Shays, because knowing, as 
Ms. Nolan has testified, that she's a person who, after some 7 
years at the White House, was enormously well regarded and 
trusted, well might at some point be consulted on this. I had 
raised with her the fact that I was pursuing the pardon as I 
did with others from time to time to just bounce ideas off. But 
also I was hopeful, knowing of her relationship with Ms. Nolan 
and Mr. Lindsey and the President, that as any good lawyer 
would, that as this thing progressed, if it were progressing, 
that I would get some sense of how people were reacting to 
different arguments in order that I might be in a position to 
know better what concerns the folks advising the President 
might have so that I might address those concerns.
    Mr. Shays. What's very much surprising is that you were no 
longer an employee, but you were back in touch with the White 
House and in the White House. You have Ms. Mills, who was no 
longer an employee, worked for the library, back in the White 
House, and sitting in on meetings in which no one knows who 
asked her to be there other than she was a sharp person and 
knew a lot about these issues and even answers the phone and 
has a dialog with the pardon attorney. Ms. Nolan, why would she 
have a dialog with the pardon's attorney?
    Mr. Quinn. I can't answer that question, sir. But like Ms. 
Nolan, I learned of her role in the library only after reading 
of it in the newspapers after this pardon was granted.
    Mr. Shays. But the facts still exist.
    Mr. Quinn. It may have, but I wanted you to know I wasn't 
aware of it.
    Mr. Shays. Ms. Nolan, who qualified her to answer phones 
and have dialog with the pardon attorney.
    Ms. Nolan. Mr. Shays I'm not familiar with the call so I 
can't give you any information about it.
    Mr. Shays. On what basis would you allow someone in your 
office answering phone calls from a pardon attorney? In other 
words, it was more than seeking advice she was in the office 
working; isn't that true.
    Ms. Nolan. Mr. Shays, I'm not familiar with the call.
    Mr. Shays. I will conclude by asking, was she in the office 
working? Or did she just happen to stop by, and she was only 
there for a few minutes or so? Tell me again how long she was 
there; how often she was there; and to the best of your 
knowledge, why she would have participated in conversation with 
the pardon attorney in the last night in office.
    Ms. Nolan. I'm sorry, that was a somewhat compound 
question.
    Mr. Shays. Go for it.
    Ms. Nolan. OK. Ms. Mills left the White House in the fall 
of 1999. She continued to be a trusted advisor of the President 
and someone that many people in the White House called for 
advice, people in the counsel's office, people in other 
offices. But more than anything she continued to be somebody 
that I and others in the counsel's office looked to for advice 
and the President did.
    In the last several weeks of the an administration, she was 
present in Washington and the White House for several events 
that many of them having to do with staff parties and end of 
the administration events. She often would come before events 
or after events and sit in my office.
    She, on a couple of those occasions, stayed over at my home 
for a night. She was welcome in my office. And she did, I know 
on occasion if she heard somebody was on the phone she knew, 
she might pick it up. I don't recall her ever picking up and 
doing a business conversation other than, I think, she did have 
conversations on the night of the 19th regarding the Marc Rich 
pardon.
    Mr. Burton. If the gentleman----
    Mr. Shays. One last point. The bottom line is, Mr. Quinn, 
you thought she had the ability and influence to persuade the 
President; and you sent her a letter advocating that Marc Rich 
be pardoned. Isn't it true you sent her that letter?
    Mr. Quinn. I did send that letter to her. My primary 
motivation in discussing this matter with Mrs. Mills was, as I 
said, to have other sources of information about how people 
might be reacting. But again as several of us here have said, I 
knew that she was terrifically well regarded by the people here 
on this panel, myself included and by the President. And I 
certainly didn't rule out the possibility at that point they 
would seek her judgment on this and other matters.
    Mr. Shays. Would you tell me her view on the pardons.
    Mr. Quinn. I don't actually know.
    Mr. Shays. You don't know if she was sympathetic or not to 
your request that Marc Rich be pardoned.
    Mr. Quinn. The one meaningful conversation that I think I 
can point to was one in which she didn't express a point of 
view but said to me that her view was in order for anyone to 
find the argument compelling it would be important, we would 
have to demonstrate that the prosecution had been unfair. But 
she never said to me----
    Mr. Shays. Did she think the prosecutor had been unfair.
    Mr. Quinn. I'm trying to answer your question, Congressman. 
She did not adopt that point of view; she did not ever tell me 
that she agreed with me. She did not tell me that she would do 
what she could to help secure the pardon. She, you know, I 
think she was----
    Mr. Shays. I get your point.
    Mr. Quinn [continuing]. Open minded.
    Mr. Cummings. Mr. Shays, may I ask a question?
    Mr. Burton. We'll get to you. Let me ask, you wrote the 
letter around January 5th or 6th to Mrs. Mills.
    Mr. Quinn. Yes, sir.
    Mr. Burton. When did she first become involved in the 
discussions of the Mark Rich pardon? Does anybody remember 
that?
    Mr. Lindsey. Mr. Chairman, let me try. Ms. Mills was 
invited, on the afternoon of January 19, to come to a reception 
in the White House.
    Mr. Burton. I know but----
    Mr. Lindsey. Hold on, I will get to your question.
    Mr. Burton. Before----
    Mr. Lindsey. I don't know--I'm sorry your question was 
before that.
    Mr. Burton. Yes, the question was the letter was sent on 
the 5th or 6th by Mr. Quinn to Ms. Mills. When did she first 
start talking to anyone at the White House to anyone including 
the President about the Marc Rich pardon? I know she was there 
on the 19th, and I know she participated in the meeting. When 
was the first time, to any of your knowledge, that she started 
talking about this?
    Mr. Lindsey. The first time I had a conversation with Marc 
Rich with Ms. Mills was on the 19th.
    Ms. Nolan. I had one conversation earlier. I don't remember 
the exact date, but they were doing staff farewell video for 
President Clinton; and I had invited Mr. Quinn and Lloyd Cutler 
and Judge Mikva and Mr. Nussbaum and Cheryl Mills to come back 
and be part of our video. And she said something to me, I think 
in Mr. Quinn's presence, that she had told him to stop 
pestering me about the Marc Rich pardon.
    Mr. Lindsey. But if I can go back to Mr. Shays' question 
which is the context for which the meeting on the 19th.
    Mr. Burton. I'll let you answer that question, Mr. Lindsey, 
in just a moment; but I'm running out of time. And I want to 
yield on the minority. At the meeting on the 19th, was anything 
of a classified nature discussed, national security, or 
classified nature in relation to any of the pardons or things 
that was confidential.
    Ms. Nolan. I don't think there was any classified or 
national security information.
    Mr. Lindsey. No, sir.
    Mr. Burton. OK.
    Mr. Burton. No grand jury information was discussed?
    Ms. Nolan. I don't think other than that there had been 
indictments was discussed; but no, we didn't have any, you 
know, grand jury information or succeeding material.
    Mr. Burton. Go ahead, Mr. Lindsey, we'll let you conclude.
    Mr. Lindsey. Ms. Mills had been invited to the White House 
on the 19th for a reception for Kelly Craighead, an employee of 
Mrs. Clinton. She had also been invited by the President to fly 
back to New York on the 20th. She was also scheduled to have 
dinner with Ms. Nolan and I on the evening of the 19th.
    We were in Ms. Nolan's office, waiting to go discuss with 
the President the independent counsel issues. As several people 
have indicated, there was no indication at that point that Marc 
Rich would be discussed. We got a call to come to the oval 
office to discuss the independent counsel matters.
    I invited Ms. Mills to join that conversation because Ms. 
Mills had been in the White House at the time of the Espy 
investigation, at the time of the Cisneros investigation, and 
at the time of the Whitewater investigation. The purpose of the 
meeting that night was on the independent counsel pardon.
    The President did, in the meeting, raise the conversation 
he had earlier in the day about Marc Rich and began revisiting 
it. In those conversations, Ms. Mills asked a question or two 
but took no position. But there was no way for Ms. Mills to 
know, when she went down to the meeting, that the Marc Rich 
pardon was going to come up since that was not the purpose of 
the meeting and therefore--and the purpose of the meeting was 
to discuss the independent counsel pardons.
    Mr. Burton. Mr. Waxman, you're recognized for 30 minutes.
    Mr. Waxman. Thank you very much, Mr. Chairman. The 
President has come in for a lot of criticism on these pardon 
decisions. And I think, as those who have heard my opening 
statement, much of that criticism is justified; but I don't 
believe all of the criticism he's received is justified because 
some people have said he's trying to stonewall and cover up 
this investigation. Yet all of you are here testifying because 
he's waived the executive privilege. Ms. Nolan, let me ask you 
this question so we have it on the record. As I understand it, 
the President could be prohibiting any of you from speaking 
today to Congress or to anyone else if he exercises rights 
under the executive privilege; isn't that correct.
    Ms. Nolan. The President certainly--President Clinton 
certainly has a strong voice in whether executive privilege can 
be asserted even after he's left office. He did not do that.
    Mr. Waxman. Well I commend him for allowing all of you to 
come before us today, and it's a major step to waive a 
fundamental constitutional prerogative. His action will be 
helpful to the committee and to the public. But the reason 
we're here today is not because President Clinton exercised 
poor judgment. It's because there's a juicier scandal, a 
suspicion that something illegal has taken place. So let me be 
blunt and get to some of these bottom-line questions.
    Mr. Podesta, you served as the White House chief of staff. 
Did you receive anything in the pardon process that remotely 
resembled quid pro quo?
    Mr. Podesta. No.
    Mr. Waxman. Mr. Lindsey.
    Mr. Lindsey. No, sir.
    Mr. Waxman. Ms. Nolan.
    Ms. Nolan. I'm sorry, Mr. Waxman, I didn't get the last 
part.
    Mr. Waxman. Did you see anything that resembled quid pro 
quo?
    Ms. Nolan. No, sir.
    Mr. Waxman. Mr. Podesta, did you see anything until the 
pardons process that constituted wrongdoing of any kind?
    Mr. Podesta. No. In the context that you're talking about, 
wrongdoing is different than making a bad judgment. And I think 
that there was no wrongdoing; and I think that, in response to 
your previous question, nothing of that nature. As Mr. Lindsey 
has indicated, we never discussed any matters having to do with 
any of the things that have been alleged by his critics. So no, 
there was no wrong doing in that.
    Mr. Waxman. The President has an absolute right to----
    Mr. Podesta. He has an absolute right to make a pardon. And 
in that context, he can make a decision based right or wrong on 
the merits; but as I said in my opening statement, I believe 
that the President made that decision in the Rich case, which I 
disagreed with, he made it on the merits.
    Mr. Waxman. Let me get it on the record. Mr. Lindsey, did 
you see anything in the pardon process that constituted 
wrongdoing, meaning legal wrongdoing, not bad judgment?
    Mr. Lindsey. No, sir. To reinforce what Mr. Podesta said, 
we had many discussions about many of these pardons. The 
discussion was on the merits. It was the pro's and con's. It 
was the issues before us. In my judgment, the fact that they 
were fugitive was the beginning and the end of the discussion. 
For the President, that was a factor but not the beginning and 
the end. I believe he made all of his decisions on the merits 
whether you agree or disagree with his judgment.
    Mr. Waxman. Ms. Nolan, you said you didn't see any quid pro 
quo. Did you see any wrongdoing by the President in exercising 
this authority?
    Ms. Nolan. No I did not, Mr. Waxman.
    Mr. Waxman. Mr. Chairman, we're called to a vote.
    Mr. Burton. There's 12 minutes and 45 seconds on the clock. 
If you would like to proceed now and come back, that would be 
fine, or we can proceed for another 5 or 10 minutes.
    Mr. Waxman. Let me proceed. I will not complete my 10 
minutes, but let me proceed as far as we can.
    Mr. Burton. Sure.
    Mr. Waxman. So none of you observed anything that would 
have violated the law; isn't that correct? That's from all of 
you; and that was also the testimony of Eric Holder and Jack 
Quinn, who testified before us last time. If anyone was in a 
position to detect the existence of a quid pro quo for a 
wrongdoing, it would have been one of you three; isn't that 
correct?
    Mr. Podesta. I think that's fair.
    Ms. Nolan. I think that's right.
    Mr. Waxman. OK. Let's go to the Mark Rich pardon, and I'm 
going to ask about this pardon. Ms. Nolan, Mr. Rich's 
application was received at the White House in December 2000; 
is that correct.
    Ms. Nolan. I don't really remember. I remember a discussion 
about it in December. I don't remember seeing it until 
somewhere around Christmas either late December or early 
January.
    Mr. Waxman. Did you get a chance to form an opinion as to 
whether this pardon should be granted?
    Ms. Nolan. I formed an opinion rather quickly that the 
pardon should not be granted.
    Mr. Waxman. Did you convey your view to the President?
    Ms. Nolan. I think I know I had a discussion with John 
Podesta. I'm not sure when it first came up with the President, 
but I would have conveyed it the first time that it did. I 
don't remember talking about it right away.
    Mr. Waxman. Mr. Podesta did you form an opinion on whether 
Marc Rich should receive a pardon?
    Mr. Podesta. Yes.
    Mr. Waxman. What was your view?
    Mr. Podesta. I have thought he should not receive a pardon, 
that if there was any problem with his indictment that the 
proper remedy was come back and handle it through judicial 
channels.
    Mr. Waxman. Mr. Lindsey, you already testified that you 
thought the pardons should not have been granted because Mr. 
Mark Rich was a fugitive; is that right?
    Mr. Lindsey. Maybe technically not a fugitive, but he had 
been--but he was out of the country and had been for 17 years.
    Mr. Waxman. Did the President know about your views?
    Mr. Lindsey. In the process he did. Again we had scheduled 
meetings with the President in which we discussed--the first 
time the Rich pardon came up in one of those, and Mr. Podesta 
believes it was on the 16th. I wouldn't argue with that. I 
don't know it was a fact; but whenever it came up, yes, he knew 
my views.
    Mr. Podesta. Just to be clear on that. I think that was the 
first time when I was present. But I was out of the country for 
a couple of days the previous week, and I don't know whether 
there was meetings held or not.
    Mr. Lindsey. I can't tell you which date or when we first 
discussed it. We had a series of meetings in late December or 
early January on pardon matters. Whenever the Rich pardon came 
up, I think each of us expressed our views.
    Mr. Waxman. You're the three top advisors of the President. 
Each of you have came to this conclusion, that the pardons 
shouldn't have been granted; and you communicated that to the 
President, so he knew it presumably. Ms. Nolan, why do you 
think the President granted that pardon?
    Ms. Nolan. The President was the President, sir. And I even 
had that discussion with him on the 19th because we were in 
some heated discussion about one of the pardons, and I said 
``look, my job is to tell you what I think about this and to 
tell you what my best judgment about it is, but I know who's 
President and who's not.'' And he got to exercise the pardon 
power.
    Mr. Waxman. Mr. Podesta, do you have a view?
    Mr. Podesta. I think he laid that out in his op-ed piece. 
I'm sure there were a variety of factors. I think that the fact 
that this happened at the end on the 19th--I think the fact 
that he heard from Prime Minister Barak, Shimon Peres, and 
others didn't mean that this was a significant U.S. Israeli 
issue; but those were men he respected, and they were asking 
him to look at it. And I think he felt obliged, having heard 
from a number of people he respected asking him to take it 
under serious consideration that he did that.
    And I think that based on that, he looked at it, he bought 
the argument. They're arguments that obviously the three of us 
didn't buy, but he bought them. But again the process could 
have been done better. He could have heard more from the 
Justice Department as I think he's acknowledged. But he made 
the decision, I believe, on the merits of the case as he 
understood it and based on all these factors.
    Mr. Waxman. Well, during this process of deliberations when 
the President was making his decision, were you aware or did 
you become aware of the fact than Denise Rich had made 
significant contribution to the Clinton library?
    Mr. Podesta. No. I was not aware.
    Mr. Waxman. Mr. Lindsey, were you aware of that?
    Mr. Lindsey. I may have been aware that she was a 
supporter. I don't know if I had any sense as to whether she 
had actually given any money or what; but yes, I think I was 
probably aware that she had indicated that she would be 
supportive of the library.
    Mr. Waxman. Ms. Nolan.
    Ms. Nolan. I was not aware.
    Mr. Waxman. Or that she had given to any of these 
campaigns? Were you aware of her financial involvement in the 
office?
    Ms. Nolan. No. I think I understood that she was somebody 
who was generally a supporter, but I wasn't aware of any 
specific contribution.
    Mr. Waxman. Do any of you have any evidence to suggest that 
the Rich pardon was part of a quid pro quo for the purpose of 
contributions for campaigns, the library, to Mrs. Clinton's 
efforts, or to the Democratic National Committee?
    Mr. Lindsey. No, sir.
    Mr. Podesta. No.
    Ms. Nolan. No, sir. Mr. Waxman, if I can say too when I 
said that the President did it because he was the President, I 
don't mean to suggest in any way that I think he did it just 
because he could. I agree with Mr. Podesta that the President 
believed there were valid reasons to do it; that to grant that 
pardon that I disagreed with and his staff did, but he was 
entitled, ultimately, to make the judgment about it.
    Mr. Waxman. Thank you. Mr. Lindsey, I'm particularly 
interested in your role regarding the Rich pardon. As I 
understand it, you were a consultant to the Clinton library. In 
this role you certainly had an interest in the success of the 
library; isn't that correct?
    Mr. Lindsey. Yes. I wasn't a consultant at the time. I was 
still with the government; since then, I am now a consultant to 
the Clinton library.
    Mr. Waxman. And I presume that you had an interest in 
making sure the library received adequate funding.
    Mr. Lindsey. Yes, sir. I've been involved with the library 
since the initial discussions of 5, 6 years ago.
    Mr. Waxman. Is it fair that among those affiliated with the 
library, you were the closest advisor with the most regular 
contact with him at the White House at that time?
    Mr. Lindsey. I would hate to argue who was the President's 
closest advisor, but probably with the most regular contact, 
yes.
    Mr. Waxman. Did the subject of Ms. Rich's contribution to 
the library, did it come up in your discussions with the 
President about the Rich pardon?
    Mr. Lindsey. Never.
    Mr. Waxman. The major theory of wrongdoing that we are 
investigating is, did President Clinton issue the Rich pardon 
in order to get funds for the library. Even the suggestion of 
Cheryl Mills seemed to give us a hint that because she was on 
the board of the library, maybe she was trying to influence the 
President's decision.
    It's hard to see how this pardon was done to benefit the 
library. If you had that concern about the library in mind, why 
would you advocate to the President not to grant the pardon?
    Mr. Lindsey. That is correct. And also if you would look, 
there were other people who were probably more significantly 
involved in the library who were advocating on behalf of other 
pardons. Michael Milken, Leonard Peltier that we did not grant. 
So if you were to accept that as a premise, there were better 
cases, if you will, for that. But it didn't happen in those 
cases, and it didn't happen in this case.
    Mr. Burton. We have a vote on the floor, and the gentleman 
from California has 18 minutes on the clock so we will resume 
questioning as soon as we come back from the vote. We'll stand 
in recess.
    [Recess.]
    Mr. Burton. Would everyone take their seats please. Mr. 
Waxman, you have 18 minutes and 6 seconds. You're recognized 
for the balance of our time.
    Mr. Waxman. Thank you very much, Mr. Chairman. The issue of 
Ms. Mills' attendance at the January 19 meeting has been raised 
by several members. I want to ask you all the same question so 
I can understand why she was at the White House. Ms. Nolan, how 
long did Ms. Mills serve on the White House counsel.
    Ms. Nolan. She was in the White House Counsel's Office from 
the first day of the administration in January 1993.
    Mr. Waxman. And she had expertise and institutional memory 
that would be valuable to the lawyers in the counsel's office.
    Ms. Nolan. Absolutely.
    Mr. Waxman. After she left the White House, was she 
contacted on various occasions for her expertise and 
institutional memory?
    Ms. Nolan. Yes.
    Mr. Waxman. What types of issues would she be consulted 
about?
    Ms. Nolan. She was consulted about a range of matters that 
she had knowledge about or expertise. She had served as the 
alternate designated agency ethics official in the White House 
so there were a number of rules and standards of conduct that 
she had experience in providing advice on.
    Mr. Waxman. Ever on pardons?
    Ms. Nolan. She had, in fact, worked on pardons, yes, sir.
    Mr. Waxman. Did she visit the White House after she left 
the staff and was sometimes consulted when she came back to the 
White House?
    Ms. Nolan. Yes.
    Mr. Waxman. Yes to both?
    Ms. Nolan. Yes and yes.
    Mr. Waxman. She had come back.
    Ms. Nolan. She visited and she consulted and when she 
wasn't present--most of the time she was not present in the 
White House, the vast majority of the time; but when she did 
stop by and visit, we might talk to her about issues. And it 
wasn't uncommon for us to talk about such issues with other 
former White House officials as well.
    Mr. Waxman. Was she paid by the White House after she left 
the staff?
    Ms. Nolan. No.
    Mr. Waxman. Did she maintain an office or desk at the White 
House after she left?
    Ms. Nolan. No.
    Mr. Waxman. When she visited, did she need to be cleared 
in?
    Ms. Nolan. Yes.
    Mr. Waxman. I have to say, from my own knowledge, my own 
experience, I have had former staffers of mine come in and talk 
to me about matters that are on my mind because I trust their 
judgment and particularly if it relates to a matter that they 
were involved in when they worked for me. So I don't find it 
all that significant. Mr. Quinn, you were trying to influence 
her because you knew she had some ability to communicate and 
maybe even have an impact on those who were going to make the 
decision on this pardon; is that right?
    Mr. Quinn. Again Mr. Waxman--I'm sorry. I thought it was 
conceivable that she could be helpful. I didn't anticipate that 
she would be a decisionmaker. I didn't anticipate that she 
would be one of the people who, along with the other folks here 
on this panel, would necessarily be asked for recommendations; 
but I thought it was conceivable. And more importantly, again I 
thought that based on the longstanding relationship I had with 
her that I could get a feel for where I stood and perhaps be in 
a position to better tailor my arguments, know what the 
substantive concerns were, and address them at an appropriate 
point.
    Mr. Waxman. I understand your point. Let me ask the three 
of you. At the White House, did Cheryl Mills advocate the 
pardon for Marc Rich? Ms. Nolan, do you know if Ms. Mills urged 
that he be pardoned?
    Ms. Nolan. No she did not urge that he be pardoned. She 
urged that we look seriously at the issues.
    Mr. Waxman. Mr. Lindsey.
    Mr. Lindsey. Yes. I'm not aware that she advocated for the 
pardon.
    Mr. Podesta. I'm certainly not aware of it, but again I 
wasn't in the meeting.
    Mr. Waxman. So the three of you would be the natural people 
that would know if she was advancing Mr. Rich's pardon to the 
President and urging him to grant that pardon? So it's your 
testimony, the three of you, you don't know whether she did; 
and the question is do you believe that she talked to the 
President in favor of this pardon. Do you know whether she did 
or did not?
    Ms. Nolan. I know she spoke with the President in that 
meeting. I don't believe that she urged that he grant the 
pardon.
    Mr. Waxman. Let me try to find out what the mood of the 
White House was like at this time. Mr. Podesta, could you walk 
us through the final weeks of the Clinton administration? In 
addition to pardons, what else was going on?
    Mr. Podesta. Well I think as you know, Mr. Waxman, there 
were a number of issues before the President at the end of the 
administration; and we were trying to work diligently up and 
through toward the end to make sure that the policies that he 
had been pursuing were implemented properly.
    We were working on issues of protecting the privacy of 
medical records. Providing a patients bill of rights for 
Medicaid patients. We were dealing with the California energy 
crisis. We issued a new rule on air conditioning standards. I 
mean we had, I recall that during--on Wednesday of that week, 
for example, we did a major event with Secretary Babbitt where 
we designated a number of new monuments; and so we were, the 
bulk of at least my time and the President's time were taken up 
with those issues finishing up the agenda, working diligently 
to get that done. We appointed--made a recedd appointment of a 
fine trial attorney in Virginia to the fourth circuit to 
integrate the fourth circuit court for the first time. We were 
putting forward Federal judges. We had just innumerable matters 
to try to deal with to get done before the ends of the term.
    Mr. Waxman. So you were winding down the administration 
waiting for the new team to take over. You were pretty busy. 
You had the Middle East, you mentioned, and then the other 
things that were going on----
    Mr. Podesta. The Middle East, as you refreshed my 
recollection. He was dealing with that right up until the end. 
He was dealing with Prime Minister Blair and Bertie Ahern on 
the northern Ireland issues so I think there was plenty on both 
the foreign policy side as well as domestic policy side that we 
were dealing with. He also traveled and made a number of 
speeches in the last week talking about what he thought the 
right direction for the country was including a trip to 
Arkansas on Wednesday of that week.
    Mr. Waxman. And he was also dealing with the fact that he 
had to come to terms with the independent counsel?
    Mr. Podesta. Yes he was. And that was a significant issue.
    Really kind of, I think, arose. I don't remember precisely 
maybe Ms. Nolan would. But it arose at the beginning of January 
and it worked its way up through the process right up at the 
end. And I think it's fair to say at Mr. Ray's insistence that 
the agreement that he struck with Mr. Ray, the independent 
counsel, was entered on January 19, the morning of the time 
that we're talking these events.
    Mr. Waxman. So that was the same day that he came to terms 
with Mr. Ray and had to make his admission publicly about the 
Monica Lewinsky statements before the grand jury and all of 
that. That was the same day that he also had the meetings of 
the pardons.
    Mr. Podesta. That is correct.
    Mr. Waxman. It was that night that it was the meetings on 
the pardons?
    Mr. Podesta. I guess the only thing that I would quarrel 
with what you just said was that I think Mr. Ray recognized and 
this was certainly lost in history. We should not keep fighting 
it. But Mr. Ray realized there was no problem with his grand 
jury testimony and there is no statement on the grand jury 
testimony.
    Mr. Waxman. He might have been feeling a little more 
sensitive about overzealous prosecutors on that day.
    Mr. Podesta. I can only speculate, Mr. Waxman.
    Mr. Waxman. I can only speculate, but Mr. Quinn was making 
that argument of Marc Rich that he was the victim of an 
overzealous prosecutor; isn't that right.
    Mr. Quinn. Yes, sir.
    Mr. Waxman. In this pardon process, the President has been 
criticized for not getting the input from the Justice 
Department. Ms. Nolan, you have been with the President in the 
White House Counsel's Office in 1999 all the way to the end. 
After you began this position did the President give you 
instructions as to how he wanted to handle the pardon process 
on how he wanted to proceed?
    Ms. Nolan. Sometime fairly soon after I began as counsel, 
which was in September 1999 certainly by the beginning of the 
year 2000, we had a discussion in which he had said that he 
wanted to exercise the pardon power more than he had in the 
past. That he felt that he hadn't exercised it fully, and he 
wanted to be sure that we had a process in place to be sure 
that pardons moved quickly through the process.
    Mr. Waxman. So the President was saying he wanted to 
exercise his pardon authority more frequently than he had in 
the past? He wanted more pardons to be presented to him. Is 
that your statement?
    Ms. Nolan. That's correct.
    Mr. Waxman. And he told you to get those pardons to him?
    Ms. Nolan. That's correct.
    Mr. Waxman. Did you call the Justice Department and tell 
them to get those pardon reviews to the White House?
    Ms. Nolan. Yes.
    Mr. Waxman. And was it running smoothly or what was 
happening?
    Ms. Nolan. I actually had several meetings--I think the 
first meeting was sometime in early 2000; I'm not sure of the 
exact date--with the Deputy Attorney General and the pardon 
attorney and I think one or two other people from the Deputy or 
Pardon Attorney's Office, which we talked about the standards 
that the Justice Department was using in reviewing pardons and 
expressed the President's view that, with respect to pardons, 
he generally believed that restoration of civil rights was 
important, that if people had served their time and led a good 
life since then he would be in favor of receiving pardons.
    We discussed the particular standards that were used by the 
Justice Department, some of which I think the Deputy Attorney 
General and----
    Mr. Waxman. Let me interrupt you, because we have a limited 
amount of time. Is it fair to say that this process was not 
moving along as fast as the President would have liked and you 
would have liked?
    Ms. Nolan. That's fair to say, yes, sir.
    Mr. Waxman. And so did you find resistance from the Justice 
Department Pardon Department or office or whatever it was?
    Ms. Nolan. I found no movement. I don't quite know how to 
describe what was happening. It was very hard for me to see 
inside the Justice Department, but sometime in August I said to 
Eric Holder, we have to have another meeting, because we're 
coming up to the end and we need to know that we can move along 
more pardons. That produced very little. Sometime I think in 
November or December I learned that we could expect at most 15 
favorable recommendations.
    Mr. Waxman. Did the Pardon Attorneys Office tell the White 
House in September or October 2000 that they couldn't take 
anymore pardon applications and that they weren't going to be 
able to review them and get the information to the White House?
    Ms. Nolan. They told us that some time in the fall. I'm not 
sure of the exact date.
    Mr. Waxman. So around the time that the Pardon Attorney's 
Office of the Justice Department was telling the White House 
that it would process no more pardon applications the President 
was seeking out more applications; and there was also an 
increase in pardon requests, isn't that right?
    Ms. Nolan. Right. There had been, in fact, a great increase 
all through the year in applications, so the Pardon Attorneys 
Office had more applications and hadn't been able to move them 
in any significant faster rate.
    Mr. Waxman. In December and January did you feel 
overwhelmed by the amount of pardon requests that you were 
asked to process?
    Ms. Nolan. We were really inundated with pardon requests 
and, in fact, sometime around Christmas week I think I spoke 
with Mr. Podesta and said we really should--we have to have a 
cutoff. We can't possibly finish what we have if more pardon 
requests come in.
    Mr. Waxman. Where were they coming from?
    Ms. Nolan. They were coming from everywhere. Mr. Waxman, we 
had requests from Members of Congress on both sides of the 
aisle, in both Houses. We had requests from movie stars, 
newscasters, former Presidents, former First Ladies. There 
wasn't anybody--I didn't--I refused to go to holiday parties 
because I couldn't stand being--nobody wanted to know how I 
was, thank you very much. They wanted to know about a pardon. 
So I just didn't go.
    Mr. Waxman. So let me make sure I understand this. The 
White House was involved in closing up its operations but still 
trying to issue new regulations and negotiating a Middle East 
Peace Agreement. The President was insisting that you consider 
as many pardon applications as possible, despite the fact that 
the Justice Department wouldn't take any more applications 
after October 2000; and you were being besieged by Members of 
Congress and others to consider an ever-growing number of 
pardons. And on top of that I suspect you weren't aware of some 
of the pardon activities. Is that a fair statement of what was 
going on at the White House?
    Ms. Nolan. I think that is a very fair statement. I would 
add that we were also doing this in a shortened transition 
period and trying to work with the incoming administration. So 
that was another----
    Mr. Waxman. And, Mr. Podesta, is that an accurate statement 
from your point of view?
    Mr. Podesta. I think that's accurate, yes.
    Mr. Waxman. And you were hearing from Members of Congress; 
and I even called you on behalf of a constituent who I thought 
deserved consideration for a pardon, Mike Milken, and who did 
not get a pardon.
    Ms. Nolan. That's right.
    Mr. Waxman. And I understand you got calls from Congressmen 
and Senators. Did any of them suggest you not follow the 
Justice Department guidelines?
    Ms. Nolan. Yes, certainly. Several of them suggested that 
they knew it was too late really to go through the Department 
of Justice, but they wanted to send the pardon application 
directly to the White House.
    Mr. Waxman. How many contacts, if you know, did you get 
from Members of Congress, House and Senate?
    Ms. Nolan. I don't know, sir. I had probably 30 or 40 phone 
calls, and I think I took less than half of the calls I had. I 
just couldn't possibly respond to all the calls I had.
    Mr. Waxman. Mr. Podesta, do you have any idea?
    Mr. Podesta. I would guess it's in the high double or in 
the triple digits.
    Mr. Waxman. Were there any examples that stand out in your 
mind of Congressmen or Senators that were asking you to issue 
pardons and not follow the Justice Department guidelines?
    Mr. Podesta. Well, let me clarify one thing. I don't think 
that Members of Congress said, please issue a pardon; and, by 
the way, don't follow the Justice Department guidelines. I 
think they basically just didn't care whether we followed the 
Justice Department guidelines. For example, I think in one 
particular case in which we did issue a pardon for Mr. Lake, 
that was done at the end and I think did not go through the 
Justice Department. I think both the chairman of the Senate 
Judiciary Committee and the chairman of the counterpart to your 
committee in the Senate called on his behalf or at least made 
their views known on his behalf.
    Mr. Waxman. Senator Hatch?
    Mr. Podesta. Senator Hatch and Senator Thompson. I don't 
think they really cared whether that had gone through the 
Justice Department guidelines or not.
    Mr. Waxman. Ms. Nolan, did you know Roger Clinton was 
seeking pardons from some individuals or for some individuals?
    Ms. Nolan. I'm sorry, say the question again.
    Mr. Waxman. Did you know that Roger Clinton was seeking 
pardon for some individuals?
    Ms. Nolan. I believe I did. I can't think of who those 
individuals are now, but I think I probably knew that he was 
interested in certain pardons. I did not know everybody who was 
interested in every pardon. It was impossible given the 
thousands, as Mr. Podesta said, thousands of people who were 
interested in pardons.
    Mr. Waxman. Did you know that Hugh Rodham was being paid to 
obtain pardons for Vignali and Braswell?
    Ms. Nolan. No.
    Mr. Waxman. Well, I see my time is about up. But I have to 
say it doesn't seem to me a very ideal process for a President 
exercising such an important responsibility, just seems 
absolute chaos at the White House and lack of cooperation from 
the Justice Department in what the President wanted to do, 
which was to give more pardons. And at some point it looks 
like, particularly on January 19th, the President sat there and 
said, I'm going to go ahead and just issue some of these 
pardons that he thought made sense.
    Mr. Podesta.
    Mr. Podesta. Mr. Waxman, I think I might put that in a 
little bit more perspective, which is that I think that for the 
bulk of the 177 pardons and commutations that were processed, 
you could disagree with them, you can agree with them. Most of 
them were--at least the Justice Department got to chop on them, 
gave them their recommendations. But I think that they were 
managed by the White House Counsel's Office through a process 
in which there was substantive consideration given to them, and 
a judgment was made and a recommendation was made to the 
President, and he either took it or he didn't take it.
    So I think that there's a misperception that this all 
happened on the last day and this giant batch of pardons and 
commutations went through on the last day. I think the bulk of 
them were considered, and they were considered on the merits, 
and, as I said, sometimes, in many cases, the Justice 
Department agreed and concurred. In some cases, they didn't, 
but they were considered on the merits.
    Mr. Waxman. But do you think that the process broke in the 
handling of them?
    Mr. Podesta. I want to say two things.
    One is that I think there are a couple of what I would 
describe as sui generis cases. I think the batch of independent 
counsel cases that we considered at the end were considered 
sort of sui generis and as a group, and I think that some of 
these cases moved through at the very end.
    As Ms. Nolan testified, she talked to me about stopping the 
in-flow. I discussed that with the staff at a staff meeting in 
early January, said no more new pardon applications are coming 
through the system. But I think obviously that there were some 
that came in late, and I think that you know we bear the 
responsibility for having the process that we thought was 
manageable that in the last days I think broke down and let 
some of these go through. But I don't think it's the whole set 
of pardons, and I think if you look at those, the bulk of them 
are--everyone would agree are meritorious. Now some people may 
think that no pardon should be granted, but I think the bulk of 
them are meritorious.
    I think there are others which were considered by the White 
House, judgment was rendered, you can agree or disagree with 
it, and there are very few that came up, and I would put Rich 
as being probably the No. 1 example in which the process broke 
down. I don't think the President got good and full advice on 
it. He made a judgment. As I said, I believe he made it on the 
merits as he understood them, but I think that we didn't serve 
him very well in terms of providing him with the 
counterargument. There's an explanation for that because of the 
Barak call on the 19th, etc., we all thought it wasn't 
happening, but I don't think we served him very well in that 
regard.
    Mr. Burton. We have a vote in less than 2 minutes, so we 
have to sprint to the floor. This will probably be the last 
interruption so we won't have to break. If you need to take a 
break while we're gone, you should do so. We'll be back in 
about 10 or 15 minutes.
    [Recess.]
    Mr. Burton. If we could have everyone take seats and close 
the doors, we're going to now go to the 5-minute schedule, and 
I'll start off with that. We are missing a couple of witnesses 
here.
    OK. I want to get a little bit more specific, if I can. 
We've kind of hit and missed on some questions. So I'm going to 
try to do this in a little more organized manner so we can 
expedite this a little quicker.
    Who, among the White House staff, supported the pardons of 
Marc Rich and Pincus Green?
    Mr. Podesta. Let me speak for the panel. I believe we all 
opposed it.
    Mr. Burton. Was there anybody else at the White House that 
you know of that supported the pardon of those gentlemen?
    Mr. Podesta. The President reviewed the matters, and he 
decided to grant it.
    Mr. Burton. So it was the President alone as far as you 
know? OK. Who opposed it?
    Mr. Podesta. Start with the three of us.
    Mr. Burton. And was there anyone else that opposed it that 
expressed opposition to the President?
    Ms. Nolan. There were a couple of associate counsel who 
worked on pardon matters, and they opposed it.
    Mr. Burton. OK. Who participated in the debate about the 
pardons on the 19th and any other time? Who participated in the 
debate on the pardons?
    Ms. Nolan. I did, Mr. Lindsey, the two associate counsels, 
the President and Ms. Mills.
    Mr. Burton. And everyone was opposed to it except 
ultimately the President when he made his decision?
    Ms. Nolan. I think, as I said before, I don't believe Ms. 
Mills expressed a view on the bottom line.
    Mr. Burton. What did Ms. Mills say?
    Ms. Nolan. She argued--or suggested, I think is a fairer 
way of saying it, suggested that we should be looking at the 
selective prosecution question seriously. Had anyone looked at 
that? But she also had very strong views that normally pardons 
or the arguments about selective prosecution were less 
available or plausible to rich white people.
    Mr. Burton. Was there a formal recommendation from the 
entire staff to the President? I mean, did you all collectively 
say we think this is--was there a formal recommendation that he 
not be pardoned?
    Ms. Nolan. I'm not sure what you mean by a formal 
recommendation. I think President knew that each of us opposed 
the grant.
    Mr. Burton. OK. Besides the three of you, who--you said 
there were two others. Who on the White House staff expressed 
their opposition directly to President Clinton besides the 
three of you and Ms. Mills? Or Mills didn't, but besides the 
three of you, you said two associate counsels.
    Ms. Nolan. There were two associate counsels.
    Mr. Burton. Who were they?
    Ms. Nolan. Meredith Cabe and Eric Angel.
    Mr. Burton. Meredith Cabe, she had contact with the pardon 
attorneys on occasion, didn't she?
    Ms. Nolan. Yes.
    Mr. Burton. I want you to take a look at exhibit No. 63. 
Would you put that on the screen, please?
    According to this January 10, 2001, e-mail, President 
Clinton called DNC Finance Chair Beth Dozoretz and spoke to her 
about the pardons saying he, quote, wants to do it and is doing 
all possible to turn around White House counsels. What was the 
President doing to try to turn you around?
    Ms. Nolan. I am not aware that he did anything.
    Mr. Burton. Well, in the memo, as you can see there, it 
says very clearly he was talking to Ms. Dozoretz, and Ms. Rich 
was with her. He was saying he was having difficulty, and he 
says I'm doing everything I can to turn them around. I think he 
also said you should pray about it.
    Ms. Nolan. Mr. Chairman, I don't know if this is accurate 
or not. All I can tell you is from my end, other than the 
President did some time I think the last week of January, the 
last week of his Presidency, it might have been the week 
before, raised the pardon, seemed to be familiar with the 
issue, but I didn't----
    Mr. Burton. But he didn't try to turn you around as denoted 
in this.
    Ms. Nolan. I did not experience that.
    Mr. Burton. Mr. Lindsey.
    Mr. Lindsey. No, sir.
    Mr. Burton. He discussed it with you, but he wasn't trying 
to turn you around or anything?
    Mr. Lindsey. No, sir.
    Mr. Burton. Mr. Podesta.
    Mr. Podesta. No, and I think that the President--I think 
this kind of--I don't know where this comes from, this third-
hand conversation. I have no reason to believe that it is 
accurate, but it sort of subverts the authority in the White 
House when the counsel doesn't--the President doesn't report to 
the counsel. The counsel reports to the President.
    Mr. Burton. OK. I am very well aware of that. I found that 
troubling when I read that.
    I have one more question, and I think we'll be out of time. 
If the staff check had been in a veto mode, could you guys have 
prevented the pardon if you would have been in a veto mode? I 
mean, you would have said you believed it shouldn't have been 
done?
    Mr. Podesta. The President understood our views; and, 
ultimately, it's his decision to grant or not to grant the 
pardon.
    Mr. Burton. Well, let me go ahead and yield to Mr. Waxman 
or someone on your staff. My time is expired.
    Mr. Waxman. Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    First of all, I want to thank you all for being here. I 
want to tell you that your testimony has helped me tremendously 
in feeling a little bit better about this situation.
    I want to just zero in on one point. It seems as if I think 
almost all of you, Ms. Nolan, Mr. Lindsey and Mr. Podesta, said 
that there was a certain point where you all felt because of 
the circumstances of the Rich case that it was basically not 
going to happen; and I think it was you, Mr. Lindsey, who said 
that on the 19th apparently a call came from Prime Minister 
Barak and that things began to change. I'm not trying to put 
words in your mouth, but it seems as if things were going in 
one direction and then all of a sudden, or may not have been 
all of a sudden, but they started going in another direction. 
Could you help us with that? The President in his New York 
Times explanation said that the Barak call was of some 
significance. Can you or Mr. Podesta or you, Ms. Nolan, shed 
some light on that?
    Mr. Lindsey. Let me start. We had on at least one occasion 
prior to the 19th had a fairly full discussion of the Marc 
Rich-Pincus Green application. We each expressed our views, and 
there was no indication at the end of that meeting that the 
President was going to grant the pardon request.
    Mr. Cummings. When was that? I'm just----
    Mr. Lindsey. Well, Mr. Podesta believes the first one he 
participated in was the 16th. I don't have access to a 
calendar, but I wouldn't argue with that. It was some time 3 or 
4 or 5 days prior to the 19th.
    Mr. Cummings. All right.
    Mr. Lindsey. On the 19th we had put off discussion of 
pardons for the people involved in various independent counsel 
investigations, and we had scheduled a meeting with the 
President for the purposes of discussing those applications and 
requests. During that meeting or at some point during that 
meeting the President raised with the group--and Mr. Podesta 
may have been gone at this point--that Prime Minister Barak had 
spoken to him that afternoon and had asked him again--I don't 
believe it was the first time that the Prime Minister had 
raised the Marc Rich pardon--had asked him again to consider 
it.
    We then had an additional discussion concerning their 
status, the arguments that Mr. Quinn had been making to the 
counsel's office at that point. And it was some time that 
evening that the President made the decision, after speaking 
again with Mr. Quinn and getting from Mr. Quinn a commitment 
that they would waive all civil procedural restrictions, 
statute of limitations and so forth, that the President 
indicated that he intended to grant the pardons.
    Mr. Cummings. And can you shed any light on that, Ms. 
Nolan? And then I want to come to you, Mr. Quinn.
    Ms. Nolan. No, I think again, like Mr. Lindsey, I'm not 
exactly sure when the first discussion was, but I did not 
realize until the evening of the 19th that it was live and the 
President specifically did mention his conversations with Mr. 
Barak.
    Mr. Cummings. Now, did you have something, Mr. Podesta?
    Mr. Podesta. No.
    Mr. Cummings. All right. Mr. Quinn, Mr. Lindsey just 
referenced a conversation about the waiving of the civil 
situation; and do you remember, I mean, is there a point where 
things in your efforts to represent your client, where things 
seemed to be going downhill, and then they seemed to turn? I 
mean, do you think that during that discussion that Mr. Lindsey 
just referenced, and I assume that you're familiar with it, do 
you remember the President ever mentioning that he had gotten 
more than one call or had recently gotten a call from Mr. 
Barak?
    Mr. Quinn. Congressman, I came to the impression as we 
approached the end of the term that he had spoken to Prime 
Minister Barak more than once, but I quite honestly can't tell 
you how I came to believe that. I think in all likelihood I was 
hearing that reported back from people associated with Marc 
Rich in Israel. I'm rather confident that no one in the White 
House told me of those calls. But I was aware that on the 19th 
this matter was raised by Prime Minister Barak with the 
President.
    You know, in retrospect it strikes me, as I think it does a 
good many people, that was a significant development. It was a 
turning point; and, in all honesty, I can't tell you that I 
ever thought that this was anything other than a tough 
decision. I thought we had put together a persuasive case and 
had a meritorious argument, but I was well aware not so much of 
Mr. Podesta's views but I was certainly well aware that Mr. 
Lindsey and Ms. Nolan were, at a minimum, highly skeptical.
    Mr. Cummings. All right. Thank you very much.
    Mr. Burton. Thank you, Mr. Cummings.
    Mr. Barr.
    Mr. Barr. Thank you, Mr. Chairman.
    Ms. Nolan, you had a number of phone conversations with 
Eric Holder on January 19th, is that correct? Isn't it?
    Ms. Nolan. I did, yes, sir.
    Mr. Barr. OK. What was the subject matter of those phone 
calls, beginning with your call to Mr. Holder at 9:45 that 
morning? These are logs found in exhibit 127.
    [Exhibit 127 follows:]

    [GRAPHIC] [TIFF OMITTED] T5593.669
    
    [GRAPHIC] [TIFF OMITTED] T5593.670
    
    [GRAPHIC] [TIFF OMITTED] T5593.671
    
    [GRAPHIC] [TIFF OMITTED] T5593.672
    
    [GRAPHIC] [TIFF OMITTED] T5593.673
    
    Ms. Nolan. I'm sorry, exhibit 127?
    Mr. Barr. Yes, ma'am.
    Ms. Nolan. I found them. I'm not sure I can remember the 
specifics of each, you know, what each call was for. I remember 
several pardon discussions with him that day. The only one I 
had with him regarding Marc Rich was late in the evening, would 
be the last phone call on the log.
    Mr. Barr. The phone--where you call him at 6:38.
    Ms. Nolan. That's correct.
    Mr. Barr. And what precipitated that particular phone call 
about Mr. Rich?
    Ms. Nolan. As I said earlier, Ms. Mills was in my office. 
Jack Quinn had, I believe, called my office and ended up 
speaking to her; and she told me that he said Mr. Holder 
favored the pardon; and I called Mr. Holder right away to 
determine if that was correct.
    Mr. Barr. And did he say to you, yes, I favor the pardon?
    Ms. Nolan. I had talked with him the first week in January 
about it, and I did not have the impression that he was in 
favor of it, so that's what I said. I said, I'm hearing you're 
in favor of it. I didn't think you were in favor of it.
    He said that he was neutral, which I think is the language 
he had used earlier in January about it. He--and I said, well, 
I'm a little confused because I'm hearing that you're not just 
neutral. And he said that he, if--he had heard that Mr. Barak 
was interested, that if that were the case, while he couldn't 
judge the foreign policy arguments, he would find that very 
persuasive and that--and I finally said, well, are you? I still 
don't understand what neutral means here. And he described it 
as neutral leaning toward or neutral leaning favorable. I'm not 
sure of the exact phrasing.
    Mr. Barr. So he never really answered the question.
    Ms. Nolan. Well, the end of the conversation, he said he 
would consider himself neutral leaning favorable, which I 
thought was an answer. It wasn't--you know, it was an answer. 
It was a description of--and I informed the President of that 
conversation when I met with him some time fairly soon after 
that. I think we met around 7, 7:30.
    Mr. Barr. Now what was the President's reaction?
    Ms. Nolan. I think that was significant to the President. I 
don't think it was the thing that made his mind up entirely, 
but I think it was a significant piece of information that the 
Deputy Attorney General had said that.
    Mr. Barr. From the standpoint that that would give him 
something to hang his hat on.
    Ms. Nolan. I didn't understand it that way. It is just he, 
Mr. Quinn, had made what were to the President very persuasive 
arguments. Mr. Quinn was somebody he greatly respected. Mr. 
Barak, who the President respected a great deal, had weighed in 
favor several times; and Mr.----
    Mr. Barr. Who made persuasive arguments on the other side 
against granting the pardon to this fugitive?
    Ms. Nolan. We argued, Mr. Barr, that if Mr. Rich and Mr. 
Green had such great legal arguments there was a base to make 
them, and it wasn't there. It wasn't in the Oval Office.
    Mr. Barr. And Mr. Clinton apparently disagreed.
    Ms. Nolan. He did disagree, and I think he disagreed 
because other people he respected had a different view, and he 
made a judgment that--in favor of their view.
    Mr. Barr. We had--returning to the phone logs on that final 
sheet, there are calls to you; there are calls from Roger Adams 
to Eric Holder; calls from Eric Holder to Roger Adams; calls 
from Eric Holder to you. But none of those, as far as you know, 
related to the Rich case.
    Ms. Nolan. No, the only one I spoke with him about was at 
the end of the day.
    Mr. Barr. Did these other calls----
    Ms. Nolan. I mean, I don't know about the Roger Adams to 
Mr. Holder.
    Mr. Barr. Did these other calls between you and Mr. Holder 
relate to other pardon cases?
    Ms. Nolan. They related to other pardon cases. As far as 
I'm aware there may have been other matters that weren't pardon 
cases, because we do deal with other things. The only thing can 
I can remember is pardon discussions.
    Mr. Burton. The gentleman's time has expired. We'll have 
several more rounds.
    Mrs. Mink.
    Mrs. Mink. Thank you, Mr. Chairman.
    I, too, want to join my colleagues in commending your 
presence here today, Ms. Nolan, Mr. Lindsey and Mr. Podesta. I 
think that you have added a great deal of light to the 
testimony and news articles and other things that we have read 
about the circumstances that some people think led to the 
decision that the President made with respect to the Marc Rich 
case, and I think that the fact that there were discussions 
between the three of you and the President with respect to this 
pardon is very material to the public's understanding that 
there was consultation amongst the people that the President 
trusted the most to give him their honest opinion.
    Your opinion was not regarded by the President, and he went 
another course, but that's the President's prerogative in these 
cases. That's what the Constitution allows.
    The first question I wanted to ask was with reference to 
executive privilege, which he has waived and allowed you to 
come to testify. Is it the clear understanding of the law that 
after the President has left the White House that this 
executive privilege continues on with respect to conversations 
that you had with him that led to some executive decision?
    Ms. Nolan. Yes.
    Mrs. Mink. That continues on. So I think then that it is of 
paramount importance that the President has issued this release 
to allow you to come testify, to give some clarity to what 
happened.
    Now in terms of your discussions about the Marc Rich case, 
from what you have said already today, there were discussions 
on April 19th, I think the three of you have indicated that----
    Mr. Lindsey. January 19th.
    Mrs. Mink. January 19th and that he had still not made up 
his mind. Is that a clear conclusion of the status of your 
discussions, that your impression was on January 19th when you 
met with him he had not yet made up his mind?
    Mr. Lindsey. I think I'll speak for Mr. Podesta and Ms. 
Nolan. I think their impression was that the matter had been 
resolved at an earlier meeting and that he was not going to 
grant it. When the President re-raised it on the 19th it was 
clear once he re-raised it that he was still considering it and 
that he had not made a decision, but it was their clear 
impression prior to that that he had accepted our 
recommendation and was not going to grant it.
    Mrs. Mink. So there was an earlier meeting where the three 
of you were fairly sure that the President had decided not to 
grant this pardon, is that----
    Mr. Podesta. That was my impression. That was my 
impression. That was on January 16th.
    Mrs. Mink. Mr. Lindsey, that was your clear understanding.
    Mr. Lindsey. I was not as clear as they are as to what the 
President--when we left that meeting with the President--
intended or not intended to do.
    Mrs. Mink. Did he specifically articulate it or did you 
just make that assumption because he didn't have a rebuttal?
    Mr. Podesta. In my case, I'd say the latter, that he raised 
the points that had been made in--and at least some of the 
points had been raised by Mr. Quinn. We argued that given his 
status as a fugitive, if you will--we can go back and forth on 
that a little, but I think we viewed him as a fugitive in at 
least a common sense, that the proper forum to raise those was 
before judicial tribunal, and it was my impression that he 
accepted that.
    Mrs. Mink. So, given your long experience of working with 
the President, your assumption was, since he didn't give you a 
clear rebuttal on the other side, that he had been persuaded by 
the advice that he was getting from people that had worked with 
him and whom he trusted the most in the White House, is that 
it?
    Mr. Podesta. I think that's----
    Mrs. Mink. Fairly good understanding.
    OK, well, then after that, is it in the factual 
circumstances of things where Mr. Barak made a phone call, was 
it after that discussion or somewhere earlier or before? I'm 
trying to get a feeling as to when things might have changed in 
his view of this particular pardon.
    Mr. Podesta. Well, the conversation----
    Mrs. Mink. When was the Barak----
    Mr. Podesta. The conversation with Prime Minister Barak 
occurred in midafternoon, I think, on Friday, January 19th.
    Mrs. Mink. So it was after your earlier discussions.
    Mr. Podesta. After the conservation on the 16th. Then Prime 
Minister Barak talked to him one more time on January 19th, on 
Friday; and later that evening there was a further discussion, 
as I said, between my colleagues here. I wasn't present for 
that conversation, but it was early or I guess late in the 
evening, must have been 9 or 10 o'clock on the evening of the 
19th. So it was subsequent to his conversation with Prime 
Minister Barak.
    Mrs. Mink. So, Ms. Nolan and Mr. Lindsey, you can verify 
that it was likely that the telephone conversation he had with 
Prime Minister Barak may have had an impact on his prior 
decision not to grant the pardon.
    Mr. Lindsey. He actually I think indicated that.
    Ms. Nolan. Yes, he did.
    Mrs. Mink. He specifically said that to both of you.
    Mr. Lindsey. That's correct.
    Ms. Nolan. And I would be clear, though, I wouldn't 
characterize that he had made, as Mr. Podesta said----
    Mrs. Mink. But it had influence on his thinking.
    Ms. Nolan. But it certainly seemed that he was not going to 
grant it, and Mr. Barak's phone call had been significant.
    Mr. Barr [presiding]. The time of the gentlelady from 
Hawaii has expired.
    The Chair recognizes the gentlelady from Maryland, Mrs. 
Morella, for 5 minutes.
    Mrs. Morella. Thank you, Mr. Chairman.
    Thank you, Ms. Nolan and gentlemen, for your patience. It's 
awfully hard to be here all afternoon under the grilling, but 
we do appreciate it, and we do feel that it adds further 
clarification to this very difficult situation.
    I guess the kinds of questions I want to ask is what did 
you know, when did you know it, what would you have done about 
it had you known about it earlier, just kind of to set the 
record straight. For instance, I would ask the same question of 
all of the panel, and you can answer as briefly and succinctly 
as you can. Did you know that Marc Rich or his companies were 
trading with Qadhafi and Libya, Mr. Quinn?
    Mr. Quinn. I did not know that.
    Mrs. Morella. You did not know that. Had you known it would 
you have done anything about it?
    Mr. Quinn. I was representing Marc Rich as a lawyer trying 
to persuade the Department of Justice, the Southern District 
and ultimately the President that the indictment was wanting. 
That matter was not addressed in the indictment. And I think it 
does bear emphasis that if Marc Rich or anyone associated with 
him broke any laws in that regard, the pardon does not free him 
from being held accountable for that.
    Mrs. Morella. But you really were not even aware of it.
    Mr. Quinn. I was not. I had no personal knowledge of that. 
My assignment had to do with the indictment.
    Mrs. Morella. Ms. Nolan.
    Ms. Nolan. I did not know that.
    Mrs. Morella. Would you have done something if you had 
known?
    Ms. Nolan. Well, it certainly would have been another 
important factor in an argument I was already making against--
--
    Mrs. Morella. Mr. Lindsey.
    Mr. Lindsey. No, I understood there were allegations that 
he had traded with Iran but not with Libya.
    Mrs. Morella. All right. How about Mr. Podesta?
    Mr. Podesta. I was unaware of that.
    Mrs. Morella. You were unaware of it.
    OK. Were you aware that Marc Rich or his companies were 
involved with trading with Iran? Maybe if you could just go yes 
or no and if you want to add about whether it would have made a 
difference in your actions. Mr. Quinn.
    Mr. Quinn. I think my earlier answer stands. I was asked 
the question at one point whether he had been involved in arms 
trading. I responded first that I had heard that that 
allegation had been made in an article in Playboy magazine and 
that I had been informed that he denied that allegation.
    I took the opportunity then to call Mr. Fink in New York to 
confirm that my memory was correct, that he maintained that he 
had not dealt in arms; and I reported that back. But again, 
even with regard to that allegation, I do think it's important 
to bear in mind that the pardon does not free him from being 
held accountable for anything unrelated to the indictment if in 
fact he broke any other law.
    Mrs. Morella. Looking at little technicalities of the law 
but, in general, this man is asking for a pardon--but let me 
just go on and ask the rest of the panel and ask if they knew 
anything about whether Mr. Rich's companies were trading with 
Iran.
    Ms. Nolan. I had conversations with Mr. Quinn in which I 
asked him about the arms trading allegation. I did understand 
that there was a Trading With the Enemy Act issue, but I was 
concerned about what the arms trading was and was assured that 
was misinformation.
    Mrs. Morella. You were assured by whom?
    Ms. Nolan. By Mr. Quinn.
    Mrs. Morella. By Mr. Quinn.
    Let's go on Mr. Lindsey.
    Mr. Lindsey. Again, I was aware there was a trading with 
the enemy count in the indictment. Your question as to whether 
it would change my mind or I would have done anything 
differently----
    Mrs. Morella. You would have done something?
    Mr. Lindsey. Yeah. I don't know if there's any way to be 
more against something than I was against this. So, you know, 
it would have been an additional basis--it was an additional 
basis for my opposition. But I was told that his company was 
not an American company, and therefore the company would not be 
subject to our laws.
    There's an article in the Wall Street Journal the other day 
that suggested there are a lot of American companies that have 
foreign subsidiaries who, because they're foreign subsidiaries 
and not subject to that are not subject to that.
    But, again, I was opposed to this and for all the reasons, 
you know, that we've talked about.
    Mrs. Morella. And Mr. Podesta.
    Mr. Barr. The gentlewoman's time has expired, but certainly 
Mr. Podesta can finish answering the line of questioning.
    Mrs. Morella. Mr. Chairman, can I just mention some items 
that fall into the same category?
    Ms. Nolan and gentlemen, the trading agreement with the 
Soviet Union when there was the embargo, the trade with South 
Africa during apartheid--the reason I was asking these 
questions, Mr. Chairman, was simply to point out whether we 
knew and, if we did know, did we do anything about it, and if 
we didn't know should we have found out more about it.
    So I then yield back.
    Mr. Barr. Mr. Podesta, you can complete your answer.
    Mr. Podesta. Let me answer the question on Iran.
    I'm not sure precisely when I learned this, before or 
after, but I think the underlying indictment was--involved oil 
trading and that involved oil trading that I guess was involved 
with Iran. But I associated myself with Mr. Lindsey. I was 
against this. So I don't know whether I would have done--taken 
additional steps if I had known it. I suspect that--and I don't 
know what the President's state of knowledge was on those 
issues.
    Mr. Barr. Thank you.
    The gentlelady from District of Columbia is recognized for 
5 minutes.
    Ms. Norton. Thank you, Mr. Chairman.
    I appreciate your willingness to come freely, and I 
certainly appreciate the President's willingness to waive his 
executive privilege, at the very least. It certainly speaks to 
the notion of whether or not he believes things should be 
hidden from this committee and tends to eliminate the notion 
that he does and wants to bring these matters out into the 
open.
    I'd like to have your views on these notions of 
constitutional amendments which are popping up, especially as 
people who have been on the inside of the White House during 
the pardon process. Ms. Nolan, you indicate you had so many of 
these coming down and then they came late and there was a 
notion of, my goodness, isn't there some cutoff in all of this. 
As a matter of fact, the Framers reserved the pardon power, in 
part, because there might be things that came late. But I can 
certainly understand the notion that these things galloped in 
with increasing speed as you got near the end.
    Indeed, as I said earlier in this hearing, I called the 
counsel's office--it must have been the day before the end of 
the administration--because it crossed my mind that the so-
called Democracy 7 people were being tried for the second time 
for the same offense after having had a hung jury for 
protesting from the gallery that the Congress takes the budget 
of the District of Columbia and adds things to it. So I called 
and said, can we have pardon for the Democracy 7?
    Of course, these were misdemeanors. It would have been a 
political act of the President who supports voting rights and 
statehood for the District. But I can certainly understand that 
people just get the idea in the back of their mind. And, of 
course, I didn't get to speak with Ms. Nolan. I got to speak 
with somebody in your office.
    Ms. Nolan. I apologize to every Member of Congress.
    Ms. Norton. Nor do I believe, frankly, that you should have 
come to the phone for me or any Member of Congress in those 
last hectic days, especially after what we have heard today 
about what you confronted.
    By the way, I had no idea that there was such things as 
Justice Department guidelines. I am a Member of Congress and a 
lawyer and had no idea what the process was. You know, I called 
the counsel's office the way I think people who know nothing 
might well do.
    We have had one constitutional amendment that's kind of 
been shouted down that would have the pardon power reviewed by 
two-thirds of the Congress. That is to say, a pardon can be 
overturned if two-thirds of the Congress--or do you think that 
would make it more political? Imagine Members of Congress 
voting to pardon a criminal. That one didn't get very far.
    Now there's another one that says no pardons after October 
1st. Now I know that would make your--October 1st of the 
election--I know that would make your lives a lot easier, or 
maybe not. So I'd like your view as to the effects on the 
pardon power of stopping all pardons October 1st of the 
election year when the President is going out of office.
    Ms. Nolan. I think that the Framers had it right when they 
vested the pardon power in one person and that person being the 
President. They did it quite deliberately to ensure that one 
person was responsible for the decision, one person could take 
the hits for it and knowing full well that the kind of mercy 
that is inherent in the pardon power would not be exercised by 
committee in the same way that it would by one person.
    Ms. Norton. I ask about the timing. I'm asking about 
October 1st.
    Ms. Nolan. I think that I would retain that power, and I 
would retain it unfettered and expect that this President and 
future Presidents are fully subject to criticism and public 
rebuke if the public disagrees. But that the idea of having one 
person who can do it and can do it at any time I think is what 
the Framers had in mind, and I continue to believe that's the 
right way to do it.
    Ms. Norton. Mr. Lindsey.
    Mr. Lindsey. Well, I have law professors on both sides of 
me, so I'm not sure I'm qualified to answer this, but I agree 
with Ms. Nolan. They think the power, as it exists, for the 
purpose that it exists, should remain the same. I would just 
also say I'm not sure that September 30th would be any 
different than January 19th under that scenario.
    Ms. Norton. It would be the rush then to meet that 
deadline.
    Mr. Lindsey. Exactly.
    Ms. Norton. Mr. Podesta.
    Mr. Podesta. Well, I agree with Ms. Nolan.
    Let me point out one other point, though, that I think that 
this situation gives rise to, which is it goes back to the 
beginning of Ms. Nolan's statements about the President's 
frustration about not getting recommendations for pardons from 
the Pardon Office in the beginning of the year 2000, which is I 
think that if you look back on this, the President granted I 
think only something less than 200 pardons over the course of 
his 8 years, and I think that was something that the President 
really noticed that he was not getting any applications moving 
forward out of the system as it currently exists. Partly I 
think that's the result of the situation in which people are 
afraid to be criticized for granting pardons or for 
recommending pardons, etc.
    If you look in contrast to what President Clinton granted, 
the system produced I guess for President Reagan during his 8 
years some 400 pardons or more or less. There were more people 
in prison, more people coming out of it, more people who I 
believe served their sentence and lead a good life. So I don't 
think that the answer to the problems that we encountered is to 
restrict or to try to suppress or to try through to some extent 
through the exercise of second-guessing the reduction of the 
overall number of pardons and commutations. I think that would 
be a bad outcome.
    Mr. Barr. The gentlewoman's time has expired.
    The Chair recognizes the gentleman from Ohio, Mr. 
LaTourette, for 5 minutes.
    Mr. LaTourette. Thank you, Mr. Chairman. And I think, to 
Mr. Quinn's delight, I'd like to leave the Rich-Pincus Green 
matter for a moment and talk about another fellow, Carlos 
Vignali, if I could. As we know from the news account, Carlos 
Vignali helped finance another group of people that was 
involved in the distribution of 800 pounds of cocaine shipped 
to Minnesota where it was going to be cooked with other 
chemicals to create crack cocaine for distribution to, among 
other people, children in the State of Minnesota. Thirty 
people, to my understanding, were convicted. And on January 
20th only one spins out of jail, and that's Carlos Vignali, and 
there have been a couple of wrinkles since we last got 
together.
    One has to do with Hugh Rodham; and, Mr. Lindsey, I'd like 
to start with you. I think I read in the Los Angeles Times an 
observation that you recall speaking at least twice with Mr. 
Rodham about the Vignali pardon. Were you quoted correctly?
    Mr. Lindsey. That's correct.
    Mr. LaTourette. When and where did those conversations take 
place?
    Mr. Lindsey. I believe the first conversation occurred 
probably around the middle of December. Mr. Rodham called to 
ask me to take a look at a commutation application for Carlos 
Vignali, indicated that he was a first-time offender, that his 
application was supported by the Sheriff of Los Angeles County, 
that it was supported by the U.S. attorney in Los Angeles.
    Mr. LaTourette. Were you aware that the U.S. attorney in 
Los Angeles was not the prosecuting agency during the course of 
that conversation?
    Mr. Lindsey. Yes, because he also told me it was supported 
by the trial attorney who actually tried the case in Minnesota. 
That turned out probably not to be correct.
    Mr. LaTourette. Probably not.
    Mr. Lindsey. But, you know, well, we know the U.S. attorney 
opposed it. I don't know whether the trial attorney did or 
didn't, but, be that as it may, I'm telling you what he told 
me.
    Mr. LaTourette. Sure.
    Mr. Lindsey. Told me it was supported by the U.S. attorney 
in Los Angeles, by the Sheriff of Los Angeles County, by the 
Cardinal Archbishop Diocese and Archdiocese in Los Angeles, 
Cardinal Mahoney, by several Congressmen, former Congressmen, 
city council people.
    I indicated to him that he had served 6 years 
approximately. I indicated to Mr. Rodham that that was the kind 
of application the President actually was interested in looking 
at. He was interested in looking at first-time drug offenders 
who did not play major roles in the crime and that we would 
take a look at it.
    Mr. LaTourette. Did he represent to you that this fellow 
didn't play a major role in a crime? 800 pounds is a lot where 
I come from. I assume that's not the type----
    Mr. Lindsey. I don't think there is a finding. I actually 
believe the judge made a specific finding that he was 
responsible for 5 to 15 kilos, which is I think 11 to 33 
pounds. I think the total amount of money he was involved with 
was $2,500--$25,000 excuse me. So I don't believe that it is 
correct that he was responsible for $800,000; and, in fact, I 
think there's a specific finding that he was not.
    There was also I believe a specific finding that he was not 
an organizer, leader of the conspiracy.
    Mr. LaTourette. How about the second time you talked to Mr. 
Rodham? When did that occur?
    Mr. Lindsey. Some time thereafter. At some point we learned 
through the Pardon Attorneys Office that the U.S. attorney in 
Minnesota did not support the application, was opposed to the 
application.
    Mr. LaTourette. Right.
    Mr. Lindsey. In some conversation, I can't date it for you, 
I told--because one of the facts he had told me at the 
beginning was that the attorney in Minnesota--he said the trial 
attorney, not the U.S. attorney--but the trial attorney in 
Minnesota supported it. I told him that at least as far as the 
U.S. Attorney's Office was concerned in Minnesota that they 
were not supportive.
    Mr. LaTourette. And is that the sum and substance of your 
contact with Mr. Rodham on this matter?
    Mr. Lindsey. As far as I recall, yes.
    Mr. LaTourette. Did you inquire of him what his interest 
was in a convicted drug dealer from Los Angeles?
    Mr. Lindsey. No.
    Mr. LaTourette. Did you ask him whether he had received a 
fee?
    Mr. Lindsey. No, I didn't ask. I don't think I've ever 
asked that of any person who has ever contacted me.
    Mr. LaTourette. Well, was that your assumption? Did you 
think he was family friend or he was acting as a lawyer?
    Mr. Lindsey. You know, I don't know. When anyone contacts 
me, I have no idea. I mean, if they're a lawyer, they could be 
there as a lawyer. Oftentimes they have friends or they know 
someone. I really--from my analysis it wasn't important why he 
was calling me. He told me about a person. The facts seemed to 
follow along the lines of people we were looking at, and I told 
him I would take a look at it.
    Mr. LaTourette. Were you aware or did the pardon attorney 
tell you that Mr. Vignali lied upon his pardon application in 
the section that asked if he had a previous criminal 
conviction? Were you advised of that by the pardon attorney?
    Mr. Lindsey. I don't believe so.
    Mr. LaTourette. Were you advised of that by Mr. Rodham?
    Mr. Lindsey. No, I believe the first time I heard that, 
frankly, was this morning. If I remember right, he actually 
indicated he had several prior.
    Mr. LaTourette. On his pardon application?
    Mr. Lindsey. I thought so.
    Mr. LaTourette. I don't think that's correct, and I will be 
happy to supply you the information and that's incorrect.
    And just as a last matter, as my time----
    Mr. Lindsey. I was just informed that it is reflected in 
his pardon application, but, again, we can get the application 
and see.
    Mr. LaTourette. It's reflected in his pardon application 
that he has priors.
    Mr. Lindsey. I believe so.
    Mr. LaTourette. OK. Well, thank you, Mr. Chairman.
    Mr. Barr. I thank the gentleman from Ohio.
    The gentleman from California, Mr. Ose, is recognized for 5 
minutes.
    Mr. Ose. Thank you, Mr. Chairman.
    My question is directed, I believe, to the former chief of 
staff, Mr. Podesta, and that is, what is the procedure by which 
the White House deals with gifts received during the 
President's tenure, particularly this President's tenure?
    Mr. Podesta. I think that Ms. Nolan could answer that more 
directly.
    Mr. Ose. I might ask her, but we'll start with you, OK?
    Mr. Podesta. Well, I think that if the President receives a 
gift, it's logged into the gift unit. The gift unit then 
creates a running log of those. The President has the right to 
accept and take gifts that are presented to him if he chooses 
to do so. If he does not choose to do so, I believe they become 
the property of the National Archives, and I think that's set 
up by statute, but I couldn't quote the statute, the statutory 
citation.
    Mr. Ose. Is there a procedure outlined at the White House 
for what qualifies as a gift to the President or one that's 
supposed to go to the Archives?
    Mr. Podesta. Sure.
    Mr. Ose. When was that policy established?
    Mr. Podesta. I think it's been in existence since probably 
prior to the Clinton administration.
    Mr. Ose. Do we have a copy of that particular policy as it 
applied to the Clinton administration?
    Mr. Podesta. I think that this is regulated by statute.
    Mr. Ose. All right. Mr. Quinn, is Mr. Rich a U.S. citizen 
or is he not?
    Mr. Quinn. It is my understanding now that he believes he 
is not a U.S. citizen. I understand that our State Department 
disputes that.
    Mr. Ose. Ms. Nolan, is your recollection of the manner in 
which gifts are received by the White House consistent with Mr. 
Podesta's?
    Ms. Nolan. Yes, yes, it is.
    Mr. Ose. If a gift comes to the White House, what happens? 
Just take me through just a brief synopsis. Let's say I send a 
gift to the President valued at $275, and it's a portrait. What 
happens? What are the questions that are asked?
    Ms. Nolan. The gift, as I understand it, is sent to the 
gift unit in the White House for evaluation; and the gift unit 
identifies, puts on a list who the donor is, what the value is; 
and the President makes a determination whether to accept the 
gift or not.
    Mr. Ose. The President makes the determination whether to 
accept the gift personally or as a representative of the 
Federal Government or----
    Ms. Nolan. Well, it depends on whether the gift is given to 
the White House, as I understand it, the gift unit records 
reflect gifts given to the President personally.
    Mr. Ose. What happens to the gifts given to the White 
House?
    Ms. Nolan. I believe the residence department office keeps 
a record of those, but I haven't seen such record. I don't 
know.
    Mr. Ose. How would we go about establishing what those 
records contain?
    Ms. Nolan. I have to say I'm not quite clear what you're 
asking.
    Mr. Ose. Where are those records?
    Ms. Nolan. I assume they're with the Archives now as part 
of the President's record. But I'm not sure.
    Mr. Ose. OK. And my final question--Mr. Chairman, I see I'm 
almost out of time. I was here for the testimony about the 
relative lack of knowledge about Mr. Rich's past behavior in 
terms of his activities overseas. Relative to Mr. Vignali and 
the behavior that he engaged in, transporting the 800 pounds, 
you're all aware of Plan Colombia, the official U.S. Government 
policy?
    Mr. Podesta. I certainly am.
    Mr. Ose. Do you have any observations about the conflict 
that might be perceived between the President pardoning someone 
transporting 800 pounds of coke and our efforts in Colombia to 
ameliorate or eliminate the production?
    Mr. Podesta. I think Mr. Lindsey corrected the record. He 
knows more about the case than I do with regard to the specific 
facts.
    Mr. Ose. I see my time has expired.
    Mr. Podesta. I think what you're suggesting, that no one 
who is involved in a drug case should ever receive a 
commutation or should ever receive a pardon--and I understand 
that you may believe that, but I think that is a harsh 
standard.
    Mr. Ose. That's not the suggestion I'm making, Mr. Podesta.
    Mr. Lindsey. If I may correct the record again. The judge 
made a specific finding in the Vignali case that he was 
responsible for 5 to 15 kilos, which I understand translates to 
11 to 13 pounds, not 800.
    Mr. Barr [presiding]. I think we've established the ratio 
between pounds and kilos sufficiently.
    The Chair recognizes the gentleman from Illinois, Mr. 
Davis.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman. 
Let me also thank each one of you for appearing this afternoon.
    Mr. Podesta, in your opening statement you indicated that 
the staff had recommended against pardoning Mr. Rich. Did you 
have any further individual conversation with the President 
about the matter?
    Mr. Podesta. No, not beyond the night of January 16th. As I 
said, I was not present on the night of the 19th to have that 
discussion.
    Mr. Davis of Illinois. And that was part of a group 
discussion or group interaction.
    Mr. Podesta. On the 16th?
    Mr. Davis of Illinois. Yes.
    Mr. Podesta. Yes.
    Mr. Davis of Illinois. Mr. Lindsey, how long have you known 
the President?
    Mr. Lindsey. Over 32 years.
    Mr. Davis of Illinois. And how would you characterize your 
relationship?
    Mr. Lindsey. Well, up until a month ago I was an employee 
for 8 years. Before that, he and I for a short period of time, 
were both in the same law firm. We've been friends for a number 
of years. We have both worked for Bill Fulbright in the late 
1960's, which is where I first met him.
    Mr. Davis of Illinois. So you would say that the two of you 
were very comfortable with each other.
    Mr. Lindsey. Yes, sir.
    Mr. Davis of Illinois. Did you have any individual 
conversation with the President about the Rich case?
    Mr. Lindsey. I don't believe so. I can't recall any 
conversation with him.
    Mr. Davis of Illinois. So any interaction you had would 
have been part of the group activity where someone else was 
present other than just the two of you.
    Mr. Lindsey. I think that is correct.
    I do recall one conversation that was not part of the 
meeting in which I indicated to him that he should consider Mr. 
Quinn in this to be an advocate on one side and not his 
advisor, and that Jack had a client. And I don't believe that 
was in a meeting. I think that was the night of the 19th at 
some point.
    Mr. Davis of Illinois. Ms. Nolan, were your discussions 
with the President individual or part of a group discussion or 
where other people were present?
    Ms. Nolan. Yes, my conversations with the President were 
part of a group discussion. I did talk to him on the telephone 
late on the night of the 19th, morning of the 20th for a few 
minutes. There were people in my office, but I talked with him 
on the phone.
    Mr. Davis of Illinois. So, for the most part, it seems to 
me that all three of you are saying that your conversations 
were part of a normal interaction that one would have expected 
to take place given the roles that each one of you played.
    Ms. Nolan. That is correct.
    Mr. Lindsey. That is correct.
    Mr. Davis of Illinois. At any time or any other time did 
you ever get the impression that there was anything to be 
considered other than the legal determinations in terms of 
trying to make a rational decision about the situation?
    Ms. Nolan. I did not. I disagreed with the President's 
judgment, but I believed he had his reasons for doing it that 
involved his view of the merits of the case and the advice or 
recommendations of people he respected.
    Mr. Podesta. I agree with that.
    Mr. Lindsey. Yes, same answer.
    Mr. Davis of Illinois. Thank you very much.
    I have no further questions, Mr. Chairman.
    Mr. Burton. Mrs. Davis.
    Mrs. Davis of Virginia. Thank you, Mr. Chairman.
    I would sort of like to go back to the process under which 
a pardon application goes in; and I guess this is directed to 
Ms. Nolan, Mr. Lindsey and Mr. Podesta. It's my understanding 
you knew about the pardons application sometime in December, 
correct?
    Ms. Nolan. I think that's right, yes.
    Mrs. Davis of Virginia. At any time did any of you discuss 
it with the prosecuting attorney or the U.S. attorney or get 
any input from them or notify them?
    Ms. Nolan. I discussed it with Mr. Holder sometime early in 
January, which is right after I had taken a look at it. It had 
come in sometime in December, but I don't think I took a look 
at it sometime until January. I have discussed it with Mr. 
Holder, the Attorney General.
    Mrs. Davis of Virginia. I'm talking about the prosecuting 
attorney.
    Ms. Nolan. Well, he----
    Mrs. Davis of Virginia. Would he be the one who contacted 
them?
    Ms. Nolan. Right. I normally talk to Main Justice and to 
the Deputy's Office--or my office would, more commonly; and we 
wouldn't normally reach out individually. We did on some 
occasions, but rarely. It usually went through the Justice 
Department. He represented to me at that time that he was clear 
what the U.S. Attorneys Office would think about the matter but 
that he did not think we would hear any objection from Main 
Justice.
    Mrs. Davis of Virginia. Is it normal procedure that the 
prosecuting attorneys would get to weigh in on a case, 
especially one of this magnitude?
    Ms. Nolan. Yes, normally, they would.
    Mrs. Davis of Virginia. Mr. Podesta or Mr. Lindsey, did 
either one of you all think to tell the President or anyone 
that we need to talk to the prosecuting attorneys?
    Mr. Lindsey. The President has indicated and I think we did 
indicate that the U.S. Attorneys Office in the Southern 
District was opposed to it. We knew that as a fact.
    Mrs. Davis of Virginia. How did you know that as a fact if 
they did not have the opportunity to weigh in on it?
    Mr. Lindsey. Because we knew that there had been 
discussions prior to this application to sit down--for the U.S. 
Attorneys Office to sit down with representatives, attorneys 
for Mr. Rich, to discuss the matter and that their position was 
that until they came back there would be no discussions. So, 
again, their position was that as long as they remained 
fugitives there would be no discussion of any of these matters, 
and I just assumed that would clearly be their position with 
respect to a pardon application.
    Mrs. Davis of Virginia. Did you relay that to the 
President?
    Mr. Lindsey. You know, can I recall specifically? I believe 
the President was aware of all of that, that there had been 
attempts. I think Mr. Quinn may have mentioned it in letters, 
that there had been attempts to talk with the U.S. Attorneys 
Office in the Southern District and they refused to have those 
conversations.
    Mrs. Davis of Virginia. I'll let Mr. Podesta weigh in, and 
then I'll yield my time.
    Mr. Podesta. Yes, I think the proper channel for soliciting 
the U.S. attorney's view in this case was through main Justice, 
through Mr. Holder or through the pardon attorney; and I think 
it was a mistake not to have done that. I think from the 
perspective of the three people sitting up here and I think 
with respect to Mr. Holder I think the reason that wasn't done 
was because no one thought this was going to happen and no one 
supported it. And I think it wasn't until the evening of the 
19th that proposition was put to Mr. Holder, and I think that 
it would clearly have been better to have solicited the views 
of the U.S. attorney in New York, in the Southern District of 
New York, and to have her views at that point in front of the 
President before he made a final decision on this matter.
    And I think--as I said earlier in my testimony, I think we 
would bear some responsibility for not having had that done, 
but I think it's explained by the course of conduct we were all 
engaged in, which we were busy. We were working on a lot of 
things. We didn't think this was going anywhere. We didn't 
think it was a live option on Tuesday night.
    But, obviously, I think the President made a decision. I 
think it's fair to say what Mr. Lindsey said, was the President 
understood that the U.S. attorney in the Southern District of 
New York would not support this. But I think in due regards to 
her equities that he at least should have been able to hear 
what her views were.
    I would add something else, which is that I don't think 
that the President in all these matters--and I think I heard 
him say this on several occasions--wanted to not know what the 
Justice Department thought. I thought he always wanted to know 
what the Justice Department thought, but he didn't want them to 
have, in essence, a de facto veto power by not giving the White 
House the applications or what their views were. So I think 
that he was perfectly happy to get recommendations not to grant 
a pardon which he then could consider and then decide to do or 
not do. But in this case I think that, from that perspective, 
the system didn't work well; and we bear some of the 
responsibility for that.
    Mrs. Davis of Virginia. I would like to yield to you.
    Mr. LaTourette. Mr. Lindsey, I just heard what you said in 
response to the question; and Mr. Quinn said that at the last 
hearing. But I think in the next round I invite you to look at 
exhibit 135, and the observation that the Southern District of 
New York would not sit down and negotiate this case is not 
right. They agreed to dismiss the RICO case. They agreed to 
bail. They agreed to sit down with the lawyers that prepared 
the report that Mr. Rich paid for. Did you know all of that?
    [Exhibit 135 follows:]

    [GRAPHIC] [TIFF OMITTED] T5593.698
    
    Mr. Lindsey. No, sir, I was told that the U.S. Attorneys 
Office had indicated that then as long as they were fugitives 
they would not negotiate with them.
    Mr. LaTourette. I would invite you to look at exhibit 135 
and maybe you and I can talk about it when I get more time.
    Mr. Burton. Mr. Putnam.
    Mr. Putnam. Thank you Mr. Chairman.
    Mr. Podesta, you have testified that your opinion on this 
case was that the facts did not support a recommendation to the 
President for a pardon, is that correct?
    Mr. Podesta. That is correct.
    Mr. Putnam. And that you stated the same, Mr. Lindsey, is 
that correct?
    Mr. Lindsey. I'm sorry. I was reading exhibit 135. What was 
your question?
    Mr. Putnam. You stated that from the beginning it was your 
opinion the facts did not support a recommendation to the 
President for a pardon.
    Mr. Lindsey. That is absolutely correct.
    Mr. Putnam. You did the same, Ms. Nolan?
    Ms. Nolan. I'm sorry, sir.
    Mr. Putnam. The facts did not support.
    Ms. Nolan. That is correct.
    Mr. Putnam. The conclusion that I draw from that is Mr. 
Quinn has an uncanny ability for persuasive writing. That based 
on the advice of every attorney in the White House who has 
responsibility for viewing these matters it was your memo to 
the President that convinced him, based on the merits of the 
case, that the pardon was in fact justified. Is that 
essentially what it was? Everyone else in the entire White 
House Counsel's Office, according to Mr. Podesta, unanimously 
was against the pardon, so this one memo to the President was 
so persuasive, so convincing that he made his decision to 
pursue the pardon.
    Mr. Lindsey. If I may respond to that. I think there were a 
number of issues. I think Jack did make persuasive arguments, 
at least to the President. In addition, we've talked about the 
Prime Minister of Israel weighing in. In addition, the 
President, at the time he made the decision, had been advised 
that the Deputy Attorney General, who was neutral to leaning 
favorable. So I cannot tell you if any one of those three 
factors had not been present whether the decision would have 
been the same. But to sort of focus only on one of those 
factors I think is not correct.
    Mr. Putnam. A moment ago Ms. Nolan testified that the 
President made the decision based on the merits of the case and 
advice from those he trusted. Whom else did he seek out for 
advice besides those of you here who were on the White House or 
Justice Department staff?
    Ms. Nolan. The people I had mentioned before were the 
advice of Mr. Quinn, the recommendation of Mr. Barak, and the 
recommendation, such as it was, of Mr. Holder. That is what I 
was referring to.
    Mr. Putnam. Is it common--in your review of the other 
pardon applications, how many other--we have got the King of 
Spain, Barak. How often does it come up that foreign heads of 
state weigh in on pardon applications?
    Ms. Nolan. It came up I guess a handful of times in this 
past season.
    Mr. Putnam. Mr. Podesta.
    Mr. Podesta. Just to give you some example, I just read 
that, for example, Margaret Thatcher and Prime Minister 
Gorbachev at the time weighed in on behalf of Armand Hammer's 
pardon application shortly after he had contributed $100,000 to 
the Bush/Quale campaign and the RNC campaign, and those may 
have been factors in granting that pardon as well.
    Mr. Putnam. And you indicated that your concern about this 
pardon was not great because, quote, no one thought it was 
going to happen. It was not a live option. Have you had an 
opportunity to review exhibit 67, the e-mail that indicates 
that, as we've previously indicated, staff were not supportive, 
were not in detail mode, but that, according to you, Mr. 
Podesta, the efforts with the President were being felt, it 
sounds like you're making headway and you should keep at it as 
long as you can. That was sent on the 16th.
    [Exhibit 67 follows:]

    [GRAPHIC] [TIFF OMITTED] T5593.568
    
    Mr. Podesta. I don't know what--I mean, again, my 
recollection of that conversation was that I said to Mr. Kadzik 
that I was opposed do it, that the counsel was opposed to it, 
and that we would recommend to the President that he not grant 
it.
    Mr. Putnam. Mr. Quinn, do you have any idea why Mr. Fink 
would have thought that, based on Podesta's remarks, you were 
making headway and your presence was being felt?
    Mr. Quinn. No, and you'll notice that Mr. Fink is not 
reporting on a conversation he had with me. But I know that Mr. 
Kadzik and Mr. Fink will both be before the committee today.
    Mr. Putnam. Just one final question for you, Mr. Quinn.
    According to exhibit 72, there was an e-mail that 
indicates, from Robert Fink to Mr. Azulay, I have been asked 
who lobbied the President on behalf of Marc and Pinky and said 
it may be private and therefore did not immediately respond. 
Who should I say?
    Why would there be any reason for embarrassment or shame or 
reluctance to disclose who had advocated this supposedly 
meritorious application?
    [Exhibit 72 follows:]

    [GRAPHIC] [TIFF OMITTED] T5593.573
    
    Mr. Quinn. Again, sir, that is not my e-mail, so I can't 
speak to what was in his mind. There's at least one other 
document that indicates that Mr. Azulay was sensitive to public 
opinion in Israel. But beyond that I can't comment.
    Mr. Putnam. Thank you.
    Mr. Burton. The gentleman's time has expired.
    Mr. Schrock, would you yield to me please?
    Mr. Schrock. Yes.
    Mr. Burton. Thank you.
    I hope I'm not redundant. I was gone for a little while. I 
had to leave. There's a few questions I would like to ask.
    I know that when Mr. Quinn presented his application to the 
President he presented the best case possible; and when you met 
with the President, the three of you talked to him about the 
Rich pardon. Did you talk to him about Mr. Rich breaking 
embargoes, like trading with Mr. Muammar Qadhafi of Libya or 
trading with Iran when our hostages were being held in 
violation of embargo or that he traded with Iraq when he was 
involved in problems with Iraq and he embargoed oil or the 
grain embargo on the Soviet Union when we had the grain 
embargo?
    Was the President aware of that? Was he aware that Mr. Rich 
was violating the embargo of South Africa or he was trading 
with Cuba during the Cuban embargo? Did you tell the President 
any of that?
    Ms. Nolan. Mr. Burton, I don't think I knew or know any of 
that, except I did know at that point part of the indictment 
was a Trading With the Enemies Act violation. And the President 
knew that.
    Mr. Burton. Did you call----
    Ms. Nolan. I told the President late in the evening that 
there was an allegation of arms trading, that I had spoken with 
Mr. Quinn several times to try to determine what that 
allegation was and if that was something different from trading 
with the enemy.
    Mr. Burton. Well, I want to get to that in just a moment. 
Did you or any of you talk to him about any of these violations 
of embargoes that was a violation of the law? Any of them? And 
there was one, two, three, four, five, six that we know of.
    Ms. Nolan. Other than the thing I just referred to, the 
Trading With the Enemy's Act and the allegation of arms 
trading, no, I don't think so.
    Mr. Burton. Did you ask for an intelligence briefing? Did 
you talk to anybody at the Justice Department about any other 
violation that may have taken place by Mr. Rich so you can 
convey them to the President?
    Ms. Nolan. No. I agree with Mr. Podesta's description and 
want to make clear that until 8 or 9 or later in the evening of 
January 19 I did not know this pardon was going forward.
    Mr. Burton. But you knew it was being considered earlier, 
did you not?
    Ms. Nolan. I thought that it was not going forward. I knew 
it had been considered, but I left a meeting sometime earlier 
in that week with a clear impression that it would not go 
forward.
    Mr. Burton. Well, what I can't understand is, even if 
something of this significance is being considered and you knew 
that this was one of the most wanted fugitives in the world by 
the United States, if you thought it was even being remotely 
considered and you knew Mr. Quinn was pushing for it and you 
knew there was calls coming in from people and leaders around 
the world, why didn't you ask for an intelligence briefing? Why 
didn't you ask if there were other laws and embargoes and 
things like that that had been broken so the three of you could 
have at least explained to the President what was going on? The 
Justice Department knew about these things.
    Ms. Nolan. Sir, I did not know until that evening that it 
was a live issue. We were--for all the kinds of matters Mr. 
Podesta described, we were extremely busy; and we weren't 
spending time on pardon applications that looked like they 
weren't going anywhere. And that was simply a matter of trying 
to manage the best we could with an extremely heavy load. I 
didn't have the time to and wasn't inclined to do work on 
matters that I thought weren't live matters. Once we had the 
President's determination, we did ask the Justice Department 
for an NCIC check.
    Mr. Burton. Well, you reached out to Mr. Quinn about some 
of the issues, did you not? You talked to him.
    Ms. Nolan. On the 19th.
    Mr. Burton. If you talked to Mr. Quinn, why didn't you call 
over to the Justice Department and say, hey, this thing is a 
hot item. As quickly as you can get it, I want a complete 
rundown.
    Ms. Nolan. I spoke with Mr. Holder, sir, the Deputy 
Attorney General.
    Mr. Burton. What did Mr. Holder say?
    Ms. Nolan. He said he was neutral, leaning toward 
favorable.
    Mr. Burton. Did you say, tell me what is going on with Mr. 
Rich? Tell me where he violated the law. Tell me so I can tell 
the President clearly what the problems are with this problem. 
Did you ask him that?
    Ms. Nolan. If the Deputy Attorney General gives me--if he 
wants a pardon, I don't normally get all the underlying facts 
on it, sir.
    Mr. Burton. He says, well, I'm neutral leaning, yes. But 
the fact of the matter is you knew this was a very, very much 
wanted fugitive, but you didn't pursue it.
    Ms. Nolan. My view was clearly expressed to the President, 
was that this should not be done.
    Mr. Burton. On what basis?
    Ms. Nolan. My view was, if Mr. Quinn's arguments were all 
correct, if Mr. Rich and Mr. Green will be selectively 
prosecuted, it didn't matter. They should come back----
    Mr. Burton. I think I'm next. Do you want to take your 
time? I would like to go on and continue the questioning, if 
you would like, if you would let me take my time. But I will 
yield to you, if you like. Go ahead.
    Mr. Waxman. It just appears to me this whole pardon process 
broke down because, ideally, the President should have had all 
this information. He should have known what the prosecutors had 
to say about this. He should have known all this background 
about Mr. Rich, which he apparently did not have at his 
disposal.
    So this whole pardon process broke down, and we're trying 
to understand how the President could make this decision and he 
made it contrary to the top advisors that worked for him at the 
White House. Sometimes when we step back and try to figure out 
what's going on, we miss the obvious; and two things are going 
through my mind as I recollect that period of time.
    The failure of the Middle East process, peace process, it 
should have been a tremendous blow to the President. And here 
Prime Minister Barak was calling him and asking him for a 
favor. The President must have known at that point that Mr. 
Barak was likely to be out of office pretty soon.
    The second thing is that was the day that the President had 
to come to terms with the independent counsel and make a public 
statement of his statements not being completely accurate, if I 
could just be mild in my way of putting it. But the President 
nevertheless had to come forward and make a public statement 
about testimony he had given. These were two things on his 
mind.
    Mr. Podesta, you know, no one can quite know what was going 
on in his head. But his concern about overzealous prosecutors, 
a request from the Prime Minister of Israel, probably his 
exhaustion, the failure to get all of the information, how much 
of this was contributing to the President's decisionmaking?
    Mr. Podesta. Mr. Waxman, I don't want to--I am loath to 
kind of psychoanalyze the President and try to figure out 
exactly what factors went to what. But I do know that Mr. 
Barak--as Mr. Lindsey said and raised a couple of times, that 
was, as you properly point out, was an emotional time. The 
peace process obviously wasn't coming to fruition. He had 
enormous respect for Mr. Barak. I think Mr. Barak had asked him 
for several things, if you will, that were intended to show 
support for the State of Israel, not so much for Mr. Barak but 
for the State of Israel, including, for example, the pardon of 
Jonathan Pollard.
    Mr. Waxman. And the President was not going to give that 
pardon to Mr. Pollard.
    Mr. Podesta. That is correct. I think it was one thing that 
he was seeking, in my own view, that he really felt like he had 
to go back and look at it hard; and at that point it was I 
think too late to do what you're suggesting we should have done 
and that I have suggested that we should have done, which is to 
provide him a more complete portfolio with respect to the case. 
But it was on the evening of January 19 I think, as a result of 
that, he wanted to take a hard look at it. He did--again, I 
wasn't present for the conversation, so I can't go into what I 
thought was in his head. But I think that gives some fuller 
explanation of what we think the situation was at that time.
    Mr. Waxman. I want to touch on another issue. I want to 
clarify something that received a lot of attention earlier. 
That was a conversation that Cheryl Mills had with Roger Adams. 
Roger Adams is the pardon person at the Justice Department. 
This was a conversation that was supposed to have taken place 
on January 20. Miss Nolan, I assume, tell me if I'm not 
correct, that all of the pardon decisions had been decided by 
January 19?
    Ms. Nolan. All of the pardon decisions except I believe Mr. 
Deutch.
    Mr. Waxman. Mr. Rich was decided earlier?
    Ms. Nolan. Yes.
    Mr. Waxman. Cheryl Mills, her position was she never called 
Roger Adams on January 20 or any other day and that Roger Adams 
called the White House Counsel's Office. She picked up the 
phone because everybody was so frantic and so busy. This was 
the last day of the President's term. And he had a question 
about paperwork, something about warrants that had to go back 
over to the Justice Department. She tried to assist him in 
answering that question on the paperwork.
    And then I do want to make the point that she has 
maintained, and as far as I know it's true, that she had no 
knowledge about Denise Rich's contribution to the library or 
the campaigns or anything else. Do you have any evidence to the 
contrary?
    Ms. Nolan. None whatsoever.
    Mr. Waxman. The last question I want to ask Mr. Podesta. 
There's been some concern in the press about this Hasidic group 
in New York and the appearance because they voted so 
overwhelmingly for Mrs. Clinton in the Senate. Do you have any 
information you can share with us about this group? Is it 
surprising that they voted so overwhelmingly or is there 
anything else you want to tell us about that?
    Mr. Podesta. I think much has been made in the press that 
the group voted overwhelmingly for Mrs. Clinton and suggested 
that there was some quid pro quo, which I reject.
    But I went back and looked at the voting in News Square, 
and it's interesting that in 1998 they voted 1,132 for Governor 
Pataki; 8 for Peter Vallone, who was running for Governor. In 
1996, they voted 1,110 for President Clinton; 31 for Senator 
Dole. In the Senate race in 1992, the vote was 664 for Al 
D'Amato; 3 for Mr. Abrahams.
    So I don't know much about this community, but I do know 
they vote as a block. I don't think you can make much out of 
the fact that they, in fact, vote as a block, because they seem 
to do it for Republicans, and they seem to do it for Democrats.
    I think the President concluded in that particular case 
that no purpose was served in these gentlemen staying in jail. 
They had all served a couple of years. He did not, by the way, 
pardon the gentlemen, as he was requested to do by the 
community leaders. He did commute their sentence to time 
served--not time served--he commuted it to 2 years.
    Mr. Lindsey. Thirty months with respect to three, 24 months 
with respect to one.
    Mr. Podesta. Because he thought they all had children at 
home; and it made more sense at that point to reduce their jail 
terms, let them go home to begin to work and pay off 
restitution fines which they had which he left in place.
    Again, one can disagree with it. I think it was a decision 
made on the merits. We heard from some people outside of the 
community was well on that particular case, and I think it was 
a justifiable decision based on the fact that they had all 
served significant jail terms, and it made much more sense to 
have them home with their kids and earning money to pay the 
restitution back.
    Mr. Waxman. Thank you, Mr. Chairman.
    Mr. Burton. I understand there is a need for a break, so we 
will take a 5 or 10-minute break, and then we will go to the 
next round. We will stand in recess for 10 minutes.
    [Recess.]
    Mr. Burton. OK. The committee will come to order. We'll 
start the second round. I'll start with my 5 minutes.
    Miss Nolan, you received word that Mr. Rich had been 
involved in arms trading; and as I understand it--correct me if 
I'm wrong--you asked Mr. Quinn about that, is that correct?
    Ms. Nolan. That is correct.
    Mr. Burton. Did you ask anybody at the Justice Department 
about it?
    Ms. Nolan. This was at 2 or 2:30 a.m. I did not.
    Mr. Burton. You did not. Well, the thing is, when somebody 
who is an international fugitive is about to be pardoned and 
somebody tells you, I guess from one of the intelligence 
agencies, that the man was involved in international arms 
trading, which may or may not have been the case, it may have 
been under that category, it looks like red lights would go all 
over the place and you would say, my gosh, we have to check 
this out very thoroughly.
    Now I cited earlier six or seven embargoes, trading with 
the enemy of the United States--Iran, Iraq, Cuba, South 
Africa--during the embargo--all of these things--Libya, Muammar 
Qadhafi, whom we bombed because of those things, it seems like, 
if a red light went off on those things, you would say, hold 
it, we have got until tomorrow at noon. Let's double-check this 
thing. What I don't understand is why you would go to the man 
advocating the pardon, Mr. Quinn, and not get people out of bed 
at the Justice Department. I just don't understand it. It 
doesn't make any sense to me.
    Ms. Nolan. That's what I did. I asked Mr. Quinn the 
information. I talked to the President. I told him that we had 
this information. I remembered the words we used because I said 
all we have is Jack Quinn's word that the arms trading is not, 
in fact, an issue for Mr. Rich.
    Mr. Burton. Well, let me interrupt. All you had was Jack 
Quinn's word?
    Ms. Nolan. That is correct.
    Mr. Burton. An intelligence agency tells you that there was 
arms trading, a violation of law, and all these other things 
had taken place which had not just been revealed or checked; 
and you take the man's word or the President takes his word on 
the pardon of one of the most wanted fugitives in the world who 
renounced his citizenship and all the other things we talked 
about. You took his word when Mr. Quinn was representing him. 
And Mr. Quinn said in previous testimony the last time he was 
here, my job wasn't to tell all the facts that were against the 
pardon. My job was to point out all the reasons why there 
should be a pardon.
    You know as an attorney that's what you do. You try to make 
the best case for your client.
    Why in the world would you go to Mr. Quinn when there was a 
question of illegal activity and say, hey, what about this? You 
know darn well he's going to say, oh, that's nothing. That was 
just a minor thing. That was probably not arms trading. It was 
oil trading or something else. Why would you take his word for 
it and why would the President take his word for it and then go 
ahead and grant that pardon? I just don't understand it. It 
eludes me. Would you explain that to me?
    Ms. Nolan. Mr. Chairman, I will try to explain it to you. I 
don't know that you and I will see eye to eye on what the 
situation was then.
    Mr. Burton. I'm worried about what the American people 
think about it.
    Ms. Nolan. Well, I would like to try to explain it.
    Mr. Burton. OK.
    Ms. Nolan. This was 2:30 a.m. My eyes were officially stuck 
together by then. I had my contact lenses in since 7 or 6 the 
morning before. I had been going on a couple hours of sleep 
most nights that week, as had the President; and I think 
frankly, as Mr. Podesta said, because this came up so late we 
did not do the kind of checks that we would have if we would 
have had the time.
    Mr. Burton. Well----
    Ms. Nolan. If I may finish, Mr. Chairman, since you asked 
this question.
    Mr. Burton. Sure.
    Ms. Nolan. As Mr. Lindsey indicated, he had indeed 
indicated that, understand Mr. Quinn is not your advisor, he is 
an advocate. But I do think that the President viewed Mr. Quinn 
as somebody who he truly did trust to give him correct 
information; and as far as we know that information was 
correct, not incorrect.
    Mr. Burton. I'm running out of time here. Was Mr. Quinn at 
the White House?
    Ms. Nolan. No.
    Mr. Burton. So you had the ability with your eyes stuck 
together to get ahold of Mr. Quinn, but you didn't try to 
contact the Justice Department to ask them about it because it 
was 2:30 a.m.? And you can get ahold of the man who is an 
advocate for pardoning one of the most wanted fugitives in the 
world, but you don't call the Justice Department or the 
intelligence agency at 2:30 a.m.? I don't understand that.
    Ms. Nolan. Sir----
    Mr. Burton. Why would you call Mr. Quinn and not the 
Justice Department to find out about that?
    Ms. Nolan. I was trying to determine if Mr. Quinn 
understood or had an explanation for why it was there. I 
agree--although, as I said, it may very well be--appears that 
Mr. Quinn was correct about the description of the NCIC, so I'm 
not sure in retrospect that it was an incorrect decision. But I 
agree, had there been more time, had I been operating on more 
sleep, if the President had been operating on more sleep, if 
the Constitution didn't say at 12 noon this was done, there 
would have been more calls made. I have no question about that. 
I completely agree with that. I can only tell you what 
happened.
    Mr. Burton. Let me end by saying this: It was 2:30 a.m. The 
President didn't leave office until noon the next day. This was 
a very serious thing. It should have sent up red flags all over 
the place. And to ask the defense attorney for his counsel on 
this and not ask the Justice Department when you're going to be 
pardoning one of the most wanted fugitives in the world, whom 
everybody in Justice and Democrats and Republicans alike said 
shouldn't be pardoned, it just doesn't pass muster.
    Who's next? Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman. I am so 
glad you started asking those questions, Mr. Chairman. That's 
amazing. That's exactly where I wanted to go.
    I wanted to talk about Mr. Quinn for a minute and just ask 
a few questions. Ms. Nolan, you seem to have a lot of 
confidence in Mr. Quinn, is that right?
    Ms. Nolan. Yes.
    Mr. Cummings. And I take it that you believe the President 
did also.
    Ms. Nolan. That is correct.
    Mr. Cummings. Now the chairman asked you a question--and I 
am going to get to you, Mr. Quinn, in a moment. But the 
chairman asked you a question, and it seems to boil down to 
this. You have a trusted friend of the President, someone who 
has represented the President, who is now an advocate for his 
client. And we lawyers, we are advocates for our clients. That 
is our job. We're sworn to do that.
    At the same time, one who has a loyalty to the President, I 
mean, has some because he has been a significant part of his 
life, I mean, did you take that into consideration? Did you 
feel that there was some kind of not official conflict but 
perhaps a conflict with his advocacy with his client and at the 
same time his friendship with the President? And do you think 
Mr. Quinn would have put the President in a situation, would 
have, say, given the President some advice that may have done 
harm to the President and would have benefited his client?
    And I will ask you the same question, Mr. Quinn.
    Ms. Nolan. I did not believe that and do not believe that 
Mr. Quinn would put the President in harm's way, or intended 
to, in any way; and Mr. Quinn had, in fact, said that he 
believed in this case. He said, I'm an advocate, but I believe 
in this with my whole heart and soul. I completely believe in 
this case.
    Mr. Cummings. You remember those words? Those were the 
words?
    Ms. Nolan. Yes.
    Mr. Cummings. And you believe that you felt that he really 
meant that when he said it.
    Ms. Nolan. I felt he meant it. It didn't change my mind. I 
felt his heart and soul took him to the wrong place, but I 
believed that he believed it, yes, sir.
    Mr. Cummings. Mr. Quinn, you understand my question, right?
    Mr. Quinn. Yes, sir.
    Mr. Cummings. You are advocating for your client and at the 
same time you have a President who you represented. And what 
happens with us lawyers and our clients, we get to know them so 
well and we wanted the best for them, too, so we have two 
situations. Someone who is a non-lawyer may be looking at this 
and there has been some implications coming from up here that 
maybe there was some kind of, again, unofficial conflict.
    I want you to comment on that. And the reason I'm getting 
to that is because I think that sometimes things can be 
implied, and I would rather for you to let us know exactly 
where you stood with regard to the President, who you felt who 
was your former client, and at the same time Mr. Rich, who was 
your present client.
    Mr. Quinn. Sure. Let me say several things, if I may, 
Congressman.
    First of all, no one is absolutely correct. I would never 
have consciously put the President in harm's way or any of the 
people sitting next to me. I would imagine you can appreciate 
that I did not think my advocacy here would lead to us being in 
this room today. I acknowledge that.
    I did believe in the merits of the case I made. I still do. 
I don't expect to convince anyone of that after all the 
publicity we've seen and all the questions that have been 
raised, but I believed in it, and I do today, and I would not 
have misrepresented the facts either to the people sitting 
alongside me or to the President.
    When Ms. Nolan called me about this matter, I told her what 
my understanding of the allegation was. I told them that I 
wanted to confirm my understanding with the person who had led 
me to that understanding, one of my co-counsel; and I did so.
    And I would point out that, with respect to these matters 
of arms dealing that have been alleged, not only were these 
people never indicted for anything like that, to my knowledge 
there's not any criminal investigation of it. And again I will 
repeat if they violated any law for activities outside the 
scope of this indictment of which the chairman has complained 
they can be held legally accountable.
    Mr. Cummings. I just want to take a moment again to thank 
you all for your service to the country. One of the things that 
has always concerned me about this committee is that so often 
we drag people before the committee and then their reputations 
are tarnished. Like somebody said, how do I get my reputation 
back? I really do appreciate what you all have done to try to 
lift up all Americans, and so I just want to take this moment 
to speak on behalf of Elijah Cummings and the people that I 
represent to say thank you.
    Ms. Nolan. Thank you, sir.
    Mr. Lindsey. Thank you.
    Mr. Quinn. Thank you.
    Mr. Barr [presiding]. The time of the gentleman has 
expired.
    Ms. Nolan, Mr. Lindsey, Mr. Podesta, are any of you all 
familiar with the Braswell case?
    Ms. Nolan. Yes, sir.
    Mr. Lindsey. Yes, sir.
    Mr. Barr. Mr. Podesta.
    Mr. Podesta. I was not familiar with it while at the White 
House, but I have become familiar with it from reading press 
accounts later.
    Mr. Barr. Did any of you all see the petition filed by Mr. 
Braswell?
    Ms. Nolan. I believe I did, yes, sir.
    Mr. Lindsey. Yes, sir.
    Mr. Barr. That's very interesting, because, according to 
the Justice Department, there was no petition filed.
    Ms. Nolan. We certainly received something, and I think it 
was in the form of a pardon petition.
    Mr. Barr. Oh, really?
    Ms. Nolan. I think so.
    Mr. Barr. That's very interesting because, according to the 
Department of Justice, he was 1 of 44 individuals pardoned on 
the President's last day in office who did not file clemency 
applications with the Department of Justice prior to January 
20. How could you all have seen a petition?
    Ms. Nolan. I think, as in the case with Mr. Rich, he filed 
a pardon petition. It was filed with the White House, not with 
the Justice Department.
    Mr. Barr. And apparently a very fine one. Well, this is the 
pardon petition for Mr. Rich. Did any of you all see that one?
    Ms. Nolan. Yes, sir.
    Mr. Barr. That one really does exist. I'm really intrigued 
that you all could have seen a petition that the Department of 
Justice says didn't exist.
    Ms. Nolan. Sir, all I can tell you is the fact that the 
Department of Justice didn't receive a pardon petition doesn't 
mean that a pardon petition wasn't filled out and sent to the 
White House. And I believe I saw one. I certainly saw some 
application----
    Mr. Barr. That's very interesting. Was it Mr. Rodham that 
filed it?
    Ms. Nolan. I don't know who filed it. I believe that it was 
sent to the White House through Mr. Rodham, yes.
    Mr. Barr. Is that the petition that you might have seen Mr. 
Lindsey, a petition filed by Mr. Rodham?
    Mr. Lindsey. I did not know Mr. Rodham was involved at all. 
I believe what I saw was filed by Mr. Kendall Coffey. Filed may 
not be the right word because, again, as Ms. Nolan said----
    Mr. Barr. I'm not splitting hairs. Apparently, the two of 
you all saw some document on behalf of Mr. Braswell.
    Mr. Lindsey. Yes, sir.
    Ms. Nolan. That is correct.
    Mr. Lindsey. And I believe it was a pardon application 
because I think I read it.
    Mr. Barr. Did you bring that with you Mr. Lindsey?
    Mr. Lindsey. That would be in the White House files. It 
would be in the Archives.
    Mr. Barr. Ms. Nolan, did you bring what you saw with you?
    Ms. Nolan. I don't have it.
    Mr. Barr. Which one did you see, Mr. Podesta?
    Mr. Podesta. I didn't see any for Mr. Braswell. The first 
time I heard about Mr. Braswell was when I read about him in 
the New York Times.
    Mr. Barr. Do you recall what was in that petition, Ms. 
Nolan, to your recollection, the one filed by Mr. Rodham?
    Ms. Nolan. May I be clear? I would not use the word filed, 
and I do not know that it was sent to the White House by Mr. 
Rodham. I thought it was, but I don't know for sure. It could 
be the same one Mr. Lindsey is talking about. I just want to be 
clear.
    Mr. Barr. Well that's not very clear.
    Ms. Nolan. It's as clear as I can be, sir. I want to be 
clear about the lack of clarity of my memory.
    Mr. Barr. Well, that's clear, that you're trying to be 
clear about the lack of clarity.
    Ms. Nolan. I don't want to overstate what I remember.
    Mr. Barr. I don't think there is any doubt that any of us 
harbor any illusions that you do. I think you're deliberately 
unclear.
    Ms. Nolan. Sir, I have not been deliberately unclear.
    Mr. Barr. Then perhaps you might rethink whether the 
petition that you saw--the documentation that you saw on behalf 
of Mr. Braswell came from Mr. Rodham.
    Ms. Nolan. Are you asking me to testify to facts I don't 
remember?
    Mr. Barr. Why would I do that?
    Ms. Nolan. Sir, you seem to be objecting to the level of my 
memory. All I can tell you is what I remember.
    Mr. Barr. That's true. I do object to the level of your 
memory. It's apparently pretty low.
    Ms. Nolan. I don't think that's correct, sir; and I don't 
think that's a fair characterization of my testimony.
    Mr. Barr. You can't remember where the petition came from, 
yet you take great exception to the fact that I used the word 
``filed'' which is not a legal term that I'm using. Apparently, 
there was documentation that was somehow delivered to the White 
House or got in the hands of people at the White House, namely 
yourself. First you say you think it was sent there by Mr. 
Rodham or he had something to do with it. Then as soon as we 
hear from Mr. Lindsey that he saw something filed perhaps or 
delivered by somebody else, all of a sudden your memory becomes 
even fuzzier and you're not sure it was from Mr. Rodham.
    Ms. Nolan. I think I testified right to begin with, that I 
thought it was from Mr. Rodham. I just wanted to clarify that I 
had so testified. But maybe we can just move on because I don't 
know that we'll see eye to eye.
    Mr. Barr. Thank you very much for your direction to the 
committee.
    Ms. Nolan. You're welcome, sir.
    Mr. Barr. We will come back to that.
    The Chair recognizes the gentlelady from Ohio.
    Mr. Waxman. Will you yield to me?
    Mrs. Mink. Yes, I'll be happy to, Mr. Waxman.
    Mr. Waxman. I will say that the last questioning of you has 
been insulting. Ms. Nolan has been before this committee on 
several occasions. She has always been helpful and cooperative. 
No one can testify to facts she doesn't know. She's testifying 
after many hours, and I don't think any witness should have 
been treated in such a shabby way as you just were.
    Ms. Nolan. Thank you.
    Mrs. Mink. I would yield to the gentleman, Mr. Cummings.
    Mr. Cummings. I thank the gentlelady for yielding.
    I want to take a moment to associate myself with the words 
of Mr. Waxman. You know, since I have been on this committee 
for the last almost 5 years I have heard a lot of people 
testify. And Ms. Nolan--we were just talking here a moment ago. 
I was talking with staff, and we were talking about how 
credible not only you but all of you have been. You've answered 
the questions straight up. What you didn't know, you didn't 
know. What you didn't remember, you didn't remember. But you 
gave us, I believe, the very best that you had to give. And we 
cannot ask any more of a witness than for you to give us the 
best that you have to give. That is what you're sworn to do. 
And to object to your memory I just find simply incredible.
    But I just want you to know, and I'll reiterate it until 
the day I die, people who work for government often sacrifice 
much. I am not only talking about wages. I'm talking about 
sacrificing reputations, hours of work, time away from their 
family.
    When I heard you talk, Ms. Nolan, about 2:30 a.m. with your 
eyes--I forget how you said it--stuck closed--I think you said 
something like that, but I just want you to know that there are 
a lot of people who really appreciate it.
    And again I have just wanted to--I could not let this 
moment go by--I wanted to scream a moment ago, but I didn't. I 
felt I would be called out of order by Mr. Barr, so I didn't 
want to do that. But I just wanted you to know that we do 
appreciate your testimony, all of you. And I am so glad--I am 
so very, very glad that it's people like you that are part and 
have been a part of our government, and I don't want people who 
look at their television screen tonight or whenever this plays 
to feel that people who come into public service have to go 
through unfair statements and things that have happened here in 
the last few moments.
    Thank you. Thank you. I yield back.
    Mrs. Mink. Mr. Chairman, I just want to join my two 
colleagues in expressing my own personal satisfaction with the 
responses that have been given. I have a much clearer view of 
what transpired in those last hectic days in the White House; 
and I think that your explanations and your timeframes in which 
all of this occurred are very helpful, at least it is to me and 
I hope to all of the people who have watched this hearing this 
afternoon. As to what the judgment was and how it came about, 
no one will ever know. But certainly the circumstances, the 
performance, the advice that the President's highest advisors 
attempted to give him is very clear.
    You were there, you told him what you thought, and the 
decision went the other way. And I'm satisfied that there is 
absolutely no scintilla of evidence or suspicion of any kind of 
conduct that could lead to any questions as to the behavior of 
you or your colleagues or your staff or your assistance in the 
President's final determination. It was his judgment. We may 
disagree with it, but I am perfectly comfortable in saying this 
afternoon that the performance of all of you as his staff and 
advisors was clearly beyond any suspicion, any characterization 
other than the superb performance of dedicated people who have 
served this administration for such a long time. And I thank 
you for coming here today voluntarily.
    Ms. Nolan. Thank you.
    Mr. Barr. The Chair recognizes the gentleman from 
Connecticut, Mr. Shays, for 5 minutes.
    Mr. Shays. Thank you very much.
    I think one of the things that this hearing is pointing out 
is that you don't give a pardon in the last few days of the 
President's term unless you're able to really do due diligence, 
and I don't agree with any comment on any side of the aisle 
that would suggest due diligence was done. Whether someone 
questions her memory or not is another issue. I don't know what 
your memory is. Due diligence was not done. This was not the 
finest hour for the President and his staff. And it may be just 
that, not the finest hour.
    But I mean I have a problem with the pardon of Susan 
McDougal. But, you know, I just happen to have a problem with 
someone who was given immunity to testify and tell the truth 
and just explain why in a September 1996, appearance before the 
grand jury the United States located a record of a check dated 
August 1, 1983, in the amount of $5,081.82 drawn on the James 
P. McDougal Trustee Account payable to Madison Guarantee and 
signed by Susan McDougal. The words, quote, pay off are written 
in the notation section of the check. What we wanted to know is 
what the words ``pay off'' meant, and all she had to do is come 
and tell the truth. Instead, she went to jail because she, even 
after given immunity, didn't want to tell the truth; and the 
President pardoned her.
    There is nothing really very pleasant about a lot of these 
pardons. So we will just plug away. And in the end I look at 
someone I know well, Mr. Podesta, and I hope we meet on better 
grounds, and I hope we find a way to get out of this mess. 
Because the more questions we ask, the worse it looks.
    I would just want to verify a few things, and then I have a 
number of questions, and I may have to keep coming back.
    But, Mr. Lindsey, when I was gone I had a number of people 
that came up to me and said that you had reason to know Mrs. 
Mills' schedule a little better than you had led on. And I just 
wanted to put on the record, because when you ask different 
people the questions, I may not have directed it properly, but 
the last week of the President's term I would like to know in 
that last week, the 20th down to Monday, do you know if Miss 
Mills was in town on Monday?
    Mr. Lindsey. Monday--what day?
    Mr. Shays. Monday preceding the Saturday, January 15.
    Mr. Lindsey. I do not.
    Mr. Shays. On Tuesday.
    Mr. Lindsey. I don't know.
    Mr. Shays. On Wednesday.
    Mr. Lindsey. I don't know.
    Mr. Shays. On Thursday.
    Mr. Lindsey. I don't think so.
    Mr. Shays. On Friday.
    Mr. Lindsey. She came to town on Friday.
    Mr. Shays. So your testimony is that she came to town on 
Friday, and she was there on Friday but not before.
    Mr. Lindsey. Again, I don't know. My testimony was I don't 
know. I don't think she was there on Thursday because I think 
she came to town on Friday. I don't know whether she was there 
earlier in the week.
    Mr. Shays. Was she in the White House on Friday?
    Mr. Lindsey. Yes, that was the night we were talking about.
    Mr. Shays. Was she in the White House on the 20th?
    Mr. Lindsey. Yes, she flew back with us to New York.
    Mr. Shays. Thank you very much. I am going to ask each of 
you these questions; and Ms. Nolan, Mr. Lindsey, and Mr. 
Podesta, the questions I ask each I'm asking all of you; and so 
on some of it will be a little redundant, but we will just plod 
through, starting with you, Ms. Nolan. When did you discuss 
with Mr. Clinton the possibility of a pardon for Mr. Rich and 
Mr. Green?
    Ms. Nolan. I am not sure. I think it was about mid-January, 
but it could have been the week before.
    Mr. Shays. Mr. Lindsey.
    Mr. Lindsey. I can. We had a--we had a discussion prior to 
the 19th. Mr. Podesta believes we had a discussion on the 16th. 
I'll accept his memory on that. Whether we had a discussion 
prior to that, I don't know.
    Mr. Shays. Mr. Podesta.
    Mr. Podesta. As I said in my opening statement, I think 
that we had that discussion. I believe it was on the night of 
the 16th and that was the first time I believe that I discussed 
the matter with the President.
    Mr. Shays. Thank you. Do you have any understanding of 
what--if they knew about either Mr. Rich or Mr. Green, the time 
the pardon application was presented to him? And what is that 
understanding, Ms. Nolan?
    Ms. Nolan. I'm sorry, at the----
    Mr. Shays. I read it fast. Do you have any understanding of 
what the----
    Ms. Nolan. It was the last phrase, at the time the pardon 
petition was presented.
    Mr. Shays. Presented to him.
    Ms. Nolan. I don't know that he knew anything at that time.
    Mr. Shays. OK.
    Ms. Nolan. Do you mean what did he know when we discussed 
the pardon or----
    Mr. Shays. When he got the application, did he have a sense 
of what this application was all about?
    Ms. Nolan. I don't know at the time that he received the 
application what he knew it was. I think he did understand the 
arguments Mr. Quinn was making by the time we discussed it.
    Mr. Shays. Mr. Lindsey.
    Mr. Lindsey. I would agree with that.
    Mr. Shays. Mr. Podesta.
    Mr. Podesta. I have no knowledge of his knowledge in mid-
December when he received the application.
    Mr. Shays. I understand that you can smile about it, but 
you know a lot about what he thinks because you're his closest 
adviser.
    Mr. Podesta. But I don't know. As I said, I think the first 
time I talked to him about it was January 16th. So it was 
almost a little over a month later.
    Mr. Shays. I see my time has run out. We're going to just 
have to come back. I'll just come back.
    Mr. Barr. The Chair recognizes the gentleman from Ohio, Mr. 
LaTourette, for 5 minutes.
    Mr. LaTourette. Thank you, Mr. Chairman. Mr. Lindsey, I 
want to come back to Carlos Vignali and then maybe we can talk 
about exhibit 135. I was under the impression--and I think that 
this came from the briefing that we received from the clemency 
attorney--that Mr. Vignali lied on his pardon application. You 
were of the opinion that he reported past convictions.
    Mr. Lindsey. You know I'm not sure what they were referring 
to with respect to lying. Not whether it had to do with past 
convictions. I remember I think that there were past 
convictions listed on the pardon application.
    Mr. LaTourette. Well--and so I would hope you'd agree with 
me that if he lied on the pardon application, that's a bad 
thing; and if he didn't lie on the pardon application and the 
fact was asked if he had prior convictions and listed them, I 
guess my question is, I'm curious as to how he fit in the 
profile of the first-time offender that we were interested in 
getting out of jail.
    Mr. Lindsey. Well, again, I found that certain of those 
qualifications, certain of the facts that were given to me--you 
asked me what I learned from Mr. Rodham. Certain of those facts 
turned out not to be correct. It turned out not to be correct 
that he was necessarily a first-time offender. He had previous 
run-ins with the law. They were fairly minor, but I believe he 
had previous run-ins. That was clearly in Roger Adams' report. 
So if I didn't know it from the application; I knew it from Mr. 
Adams' report.
    I also knew from the report that the Minneapolis U.S. 
attorney was opposed to the application.
    Mr. LaTourette. Right.
    Mr. Lindsey. Those facts were different than what Mr. 
Rodham told me. The facts that were not different was that the 
Los Angeles sheriff indicated he supported a commutation.
    Mr. LaTourette. Right.
    Mr. Lindsey. That the U.S. attorney, while saying he didn't 
know much about the facts, felt like that the family was a good 
environment for which Mr. Vignali would get the proper 
supervision.
    Mr. LaTourette. Right.
    Mr. Lindsey. That the cardinal from Los Angeles had weighed 
in, that numerous Congressmen had weighed in.
    Mr. LaTourette. Right.
    Mr. Lindsey. That numerous other public officials had 
weighed in. So as we considered it, it wasn't a matter that if 
I learned any fact was wrong I was going to discard it.
    Mr. LaTourette. Right.
    Mr. Lindsey. Mr. Rodham asked me to review it. We began 
reviewing it. In that process, we decided that we should 
commute the sentence.
    Mr. LaTourette. OK. Mrs. Davis was talking to you about 
process, and I clearly when we heard from Ms. Holmes-Norton 
before not everybody that asked the President for clemency or a 
pardon made it to his desk, and as a matter of fact when--if I 
could just finish my question and then I'll be happy to have 
your response--and I think in the last weeks he made the 
observation that he was considering between 300 and 500, which 
certainly wasn't the sum and substance of anybody that was 
looking for his mercy in the waning days of the administration.
    I'm curious as to how, since the Justice Department is 
saying it was a good idea to pardon somebody wasn't the 
criterion, how did you get in that pile? If I was looking for--
how did I get in that pile of 300 to 500 that was going to 
receive President Clinton's ultimate authority on whether I 
deserved grace or not?
    Mr. Lindsey. Well, there's many ways. A Member of Congress 
may call us and ask us to look at an application.
    Mr. LaTourette. Let me ask you this, How did Mr. Vignali 
get into this pile of 300?
    Mr. Lindsey. Well, he came through the Justice Department.
    Mr. LaTourette. With a negative recommendation.
    Mr. Lindsey. Yes, but again, it's the President's decision.
    Mr. LaTourette. Right.
    Mr. Lindsey. First of all, it should be clear, every person 
that the Justice Department recommended favorably we 
considered. So there was no person that went through the 
process.
    Mr. LaTourette. Right.
    Mr. Lindsey. That got to us whose application wasn't 
considered and probably granted.
    Mr. LaTourette. Right.
    Mr. Lindsey. In addition, there were numerous people, not 
just Mr. Vignali, that went through the Justice Department that 
they recommended negatively.
    Mr. LaTourette. Right.
    Mr. Lindsey. We indicated to them on several occasions that 
we didn't necessarily agree with the standards. For example, in 
Mr. Vignali's case, one of the reasons why they turned it down 
was that he throughout the process maintained his innocence. 
For the Department of Justice, that's an automatic rejection.
    Mr. LaTourette. Don't you think that shows a lack of 
remorse on the part of the criminal, doesn't it, when you get 
convicted and you get caught and you still say I didn't do it? 
That flies in the face of remorseful, doesn't it?
    Mr. Lindsey. Not necessarily if you believe it. Are you 
suggesting that no person who has ever been innocent has ever 
been convicted?
    Mr. LaTourette. Did you think Mr. Vignali was wrongfully 
convicted?
    Mr. Lindsey. No, sir, but I----
    Mr. LaTourette. I think it shows a lack of remorse.
    Mr. Lindsey. Again, it could be a factor. It's not in the 
President's decision at least or in his mind an absolute 
disqualifier. So there were a number of factors that he 
considered; but anyway, my point was all the people that the 
Justice Department sent us favorably were considered. Many of 
the people that they made a negative recommendation we reviewed 
and the President granted. Many he didn't grant.
    Mr. LaTourette. Right.
    Mr. Lindsey. There were others. Families against mandatory 
minimums, someone made reference to it, sent us a list of 24, 
25 people.
    Mr. LaTourette. Right.
    Mr. Lindsey. We took a look at them. We granted.
    Mr. LaTourette. Twelve she said.
    Mr. Lindsey. Twelve, 13. I'm not sure of the number. They 
got to us through families against mandatory minimums. Members 
of Congress sent them to us.
    Mr. LaTourette. I'm asking about Mr. Vignali in particular.
    Mr. Lindsey. I told you Mr. Vignali's--we took--I'm not 
sure what we would have done if we had gotten the 
recommendation from Mr. Adams. The fact of the matter is that 
application had been pending at the Department of Justice for 
over 2 years, which is one of the problems that the President 
had been complaining about; and it's only, you know, probably 
when we went back to the Department and said, you know, we are 
going to look at this, are they able to rush up a 
recommendation, and they sent it to us sometime in the last 
week.
    Mr. LaTourette. Right.
    Mr. Lindsey. So my point is no person in my judgment should 
have to have his application sit over at the Department of 
Justice for 2 or 3 years. That is part of the process--the 
system that's wrong you know and that was----
    Mr. LaTourette. And no person wanting to become a U.S. 
citizen should have to sit at INS for 2 or 3 years.
    Mr. Lindsey. I agree with that.
    Mr. LaTourette. But anyway, as the President said in that 
wonderful video he made for the White House correspondents 
dinner, so many questions, so little time, and I will be back 
in a little bit.
    Mr. Burton [presiding]. Mr. Ose.
    Mr. Ose. Thank you, Mr. Chairman. I want to go back to the 
White House gifts, Mr. Podesta. If I understand the earlier 
testimony, if a citizen gives a gift to the White House and, in 
the office of gifts, there's a determination made if this is a 
personal gift to the President, does this go to archives, what 
have you, and there's a valuation attached to the gift--am I 
correct on that?
    Mr. Podesta. When a gift is sent to the President, it goes 
to the gift unit. The gift unit values the gift, puts it on a 
list. The President under the law may choose to keep that gift 
or it goes to the archives.
    Mr. Ose. OK. How is the value of the gift that's received 
determined?
    Mr. Podesta. By the gifts unit, which is staffed by a 
career employee, I believe, of the General Services 
Administration who is detailed to the White House.
    Mr. Ose. So GSA sends over----
    Mr. Podesta. I believe that's right, but I think there's a 
career person in the gift unit; and that I believe is a 
detailee from the GSA but I could stand to be corrected on 
that.
    Mr. Ose. All right. Is there a check on these valuations? 
In other words, if I'm that GSA career employee and I say it's 
worth $3,218, is that the end of the debate or is there any 
check on it?
    Mr. Podesta. No. I don't believe there's any rereview of 
the career employee's decision about what a gift is worth; and 
I believe that's been the system that's been in place for many, 
many years and many, many Presidents.
    Mr. Ose. OK. How many gifts--I have no idea how many.
    Mr. Podesta. Hundreds of thousands.
    Mr. Ose. Ten per day?
    Mr. Podesta. Oh, at least, I would think. I don't know. I 
don't know the answer to that.
    Mr. Ose. Hundreds of thousand. Is that what you said?
    Mr. Podesta. Thousands. Let me correct that, thousands.
    Mr. Ose. Tens of thousands or ones of thousands?
    Mr. Podesta. Over the course of 8 years, I would think it's 
10's of thousands.
    Mr. Ose. OK. Now, do the questions as to how to assign the 
gifts ever percolate up to your level?
    Mr. Podesta. Assign the gifts?
    Mr. Ose. For instance, if the office of gifts can't make a 
determination--it's a close call--does it ever percolate up to 
your level for a final determination?
    Mr. Podesta. No.
    Mr. Ose. OK. Ms. Nolan, does it ever come to the counsel's 
office? Mr. Lindsey.
    Ms. Nolan. As to the valuation of a gift?
    Mr. Ose. Or how to treat it, whether it's a gift to the 
President or gift to the White House or something that goes to 
archives or what have you?
    Mr. Lindsey. Well, first of all, just to be absolutely 
clear, I don't believe the White House has gift authority. So 
gifts to the White House are actually gifts to the National 
Park Service, which accepts the gifts on behalf of the White 
House.
    Mr. Ose. Well, Mr. Lindsey, you're embarrassing me. You've 
exposed my ignorance here, so I appreciate that.
    Mr. Lindsey. But gifts that are meant to be part of the 
permanent gift collection I think go to the National Park 
Service that sends a thank-you note and so forth. Gifts that 
are meant to be gifts for the Clintons' personally are sent to 
the White House gift unit that makes the evaluation, puts them 
on a register, if you will. The President at some point reviews 
that register and decides whether or not he intends to keep any 
of the gifts personally. If he does, those gifts are reported 
on his annual financial disclosure form. So every year any 
gifts that the President accepts are reported on his annual 
financial disclosure form. Any gifts that he does not accept 
automatically at the end of the administration go with 
everything else from the White House, all other Presidential 
records, if you will, to the archives and become part of the 
archives collection, or President's collection, that are 
maintained by the archive.
    Mr. Ose. If you have got 10's of thousands of gifts flowing 
in over an 8-year period of time, let's say it's 10,000, that's 
10 gifts a day, that's 20,000, 20 gifts a day--I mean, do the 
math. How do you handle gifts that, say, come in the last month 
or 6 weeks because you're in the process of shipping stuff to 
the archives, you're in the process of crossing the Ts and 
dotting the Is on the administration? Do you maintain the 
process of logging in the gifts?
    Mr. Lindsey. Absolutely.
    Mr. Ose. So that went on all the way till noon on the 20th?
    Mr. Lindsey. If any gifts were received on the 20th, it 
would have been the process, yes. Now, there are some dollar 
amounts, and Ms. Nolan might know below which they do not go on 
the register because they are de minimus.
    Mr. Ose. $250, or something like that.
    Ms. Nolan. I think it's around $270. It changes every so 
often, but I can't remember. But it's approximately that.
    Mr. Lindsey. But I believe they still go through that 
process. But if it's determined it's below that----
    Ms. Nolan. That's the reporting requirement for the public 
financial disclosure.
    Mr. Ose. So above that it has to be reported and below 
that?
    Ms. Nolan. That's right.
    Mr. Ose. Now, Ms. Nolan, have you ever----
    Mr. Podesta. Got a lot of T-shirts we could send you, 
Congressman.
    Mr. Ose. Come to my house, I need them. Has, in your role 
as counsel, Ms. Nolan, have you ever been involved in judgment 
calls on any of these gifts or setting the policy or 
determining what--you say National Park Service--what's a 
personal gift and what's for archives? Have you ever played a 
part in that?
    Ms. Nolan. Normally you know whether something is given to 
the Clintons or intended for the White House; and, therefore, a 
gift of the National Park Service is a determination that's 
made when something comes in. It's not normally a legal 
question. It's just a question of what the donor intends.
    Mr. Ose. Have you ever been involved in such a 
determination?
    Ms. Nolan. I don't think so.
    Mr. Ose. Mr. Lindsey.
    Mr. Lindsey. No, sir.
    Mr. Ose. And, Mr. Podesta, you testified it's never gotten 
to your level. OK. My time's up, Mr. Chairman. I appreciate it.
    Mr. Burton. Ms. Davis.
    Mrs. Davis. Thank you, Mr. Chairman. I'd like to go back to 
Mr. Quinn. Could you tell us exactly how many contacts you had 
with Mr. Clinton or the White House staff regarding the Marc 
Rich pardon?
    Mr. Quinn. Sure. Let me take them one at a time. And I 
covered some of this in my recent submission to the committee. 
I had a conversation with the President on the evening of the 
19th about this matter.
    Mrs. Davis. In person? telephone?
    Mr. Quinn. Telephone call. I believe that it's possible 
that at an earlier point in time I said to him in person I'd 
like to talk to you sometime. I'm confident that I didn't say 
to him then, either that it was about Marc Rich or that it was 
about pardons; but I have some memory of knowing this was on my 
mind and something I wanted to do, trying to indicate to him 
that I'd like to have a conversation with him. After the pardon 
was granted, early the next week--and I'm not sure whether it 
was Monday or Tuesday or even conceivably Wednesday--I had a 
conversation with him about the considerable press attention 
that this had gotten.
    Mrs. Davis. OK.
    Mr. Quinn. Now on staff, I, as I testified earlier, had a 
relatively brief conversation with Mr. Lindsey around December 
12th or 13th when we were in Belfast.
    Mrs. Davis. OK. That was in person.
    Mr. Quinn. Yes.
    Mrs. Davis. OK. Were there any other people there with you?
    Mr. Quinn. There were a lot of people around, but no one 
else in that conversation. I think it's possible, but I'm not 
100 percent sure of this that I may also have spoken to Ms. 
Nolan separately on the same day in person in the course of 
that trip. I had subsequent telephone conversations with Ms. 
Nolan.
    I think I had left out that I believe that on the day I 
filed this, December 11th, I believe I called Ms. Nolan and 
either told her it was coming or it was there. Then again, I 
had a number of telephone conversations with her subsequently. 
I really can't identify each and every one of them. I had, you 
know, more than one conversation with her on the 19th. I don't 
recall having had any further conversations with Mr. Lindsey, 
and I did not at any time have a conversation with Mr. Podesta.
    Mr. Burton. Mrs. Davis, would you yield just for one 
question.
    Mrs. Davis. Sure.
    Mr. Burton. When did you start working on the Rich case?
    Mr. Quinn. I started working on the matter sometime in the 
spring of 1999. It was--the focus of our efforts in 1999 and 
going through March or so of 2000 was twofold: first, the 
efforts we made at main Justice to attempt to get assistance 
from main Justice, either in the form of having them encourage 
the southern district to sit down with us and try to work this 
case out, take another look at it; or second, to, you know, see 
if it were possible that they might in essence take the matter.
    Mr. Burton. I thank the gentlelady.
    Mrs. Davis. Thank you. The committee received waves records 
indicating you entered the White House on January 17, 2001, at 
9:01 a.m., and exited at 10:58 a.m. You were scheduled to visit 
with the President of the United States in the residence. Can 
you tell us what you were doing at the White House on the 
morning of January 17th?
    Mr. Quinn. Yeah. That was what has been referred to as the 
President's last public event at the White House. It was--I 
think Mr. Podesta alluded to it earlier. It was the designation 
of certain national monuments around the country, an event that 
he did with Secretary Babbitt. There were a couple of hundred 
people there. I was invited to attend that event and I did; but 
in the course of being there, I did not have any conversation 
with the President. I don't think I even saw anyone from the 
counsel's office.
    Mrs. Davis. Thank you, Mr. Chairman, I think my time has 
expired.
    Mr. Burton. Mr. Otter.
    Mr. Otter. Thank you, Mr. Chairman. Mr. Chairman, I don't 
have any questions at this time.
    Mr. Burton. Would the gentleman yield to me then for a 
couple of questions.
    Mr. Otter. I'd yield to the chairman.
    Mr. Burton. Thank you very much. Let me ask you, Mr. Quinn. 
You started, you said, working on the Rich case in 1999 in the 
spring.
    Mr. Quinn. Yes, sir.
    Mr. Burton. Better start the clock. And you said you 
focused your attention initially on the Justice Department to 
try to find out what could be done there.
    Mr. Quinn. That's correct.
    Mr. Burton. Did you ever talk to anybody at the White 
House--I mean, you were a very close friend of the 
President's--did you ever talk to him about that during the 
years 1999 or 2000 before all this happened?
    Mr. Quinn. I don't believe so, sir.
    Mr. Burton. Well, I don't want you to believe. Did you or 
didn't you?
    Mr. Quinn. I'm quite confident I did not.
    Mr. Burton. I don't want you to be quite confident.
    Mr. Quinn. Chairman, I'm doing the best I can.
    Mr. Burton. We've had these little nuances in the language. 
Did you, yes or no, talk to the President about this? Did you, 
yes or no, talk to the President about this in the year 1999 or 
2000 before this happened?
    Mr. Quinn. No, sir.
    Mr. Burton. You're sure about that.
    Mr. Quinn. I gave you my preferred answer, and you 
backtracked me into that one.
    Mr. Burton. OK. I want to read you something. This is a 
memo from Avner Azulay. Do you know who he is?
    Mr. Quinn. Yes, sir.
    Mr. Burton. It's dated Saturday, March 18, 2000. Why don't 
you put this up on the screen, if you could, if you could find 
it. It think it's exhibit 137, and it's to Robert Fink, who 
will be testifying later; and it's ``subject: JQ.'' I guess 
that might be Jack Quinn. What do you think?
    [Exhibit 137 follows:]

    [GRAPHIC] [TIFF OMITTED] T5593.700
    
    Mr. Quinn. Yes, sir.
    Mr. Burton. ``and MS, et cetera. I had a long talk with 
JQ--'' Jack Quinn ``--and Michael.'' Now, as I understand it, 
Michael is Michael Steinhart, who's a New York financier and 
good friend of Marc Rich.
    Mr. Quinn. I think that's right.
    Mr. Burton. ``I explained why there's no way the MOJ--'' 
and I understand that's the minister of justice in Israel ``--
there's no way the minister of justice is going to initiate a 
call to EH--'' Eric Holder ``--a minister calling a second 
level bureaucrat who has proved to be a weak link. We are 
reverting to the idea discussed with Abe ``--Abe is Abe Foxman, 
head of the Anti-Defamation League ``--Abe, which is to send 
DR--'' Denise Rich ``--on a personal mission to No. 1--'' now a 
wild guess, that might be the President ``--with a well-
prepared script. If it works, we didn't lose the present 
opportunity, until November, which shall not repeat itself. If 
it doesn't, then probably Gershon--'' and Gershon Kurst is a 
public relations expert in New York ``--then probably Gershon's 
course of action shall be the one left option to start all over 
again. This is only for your info. Regards, AA.''
    Now this was on March 18, 2000; and they were talking, if I 
interpret this correctly and this was not about you and MS, 
they were talking about asking Denise Rich to go on a personal 
mission to No. 1 with a well-prepared script. You don't know 
anything about that, or do you?
    Mr. Quinn. Let me say what I know and what I don't know. 
First of all, you will see I think that I didn't receive this 
e-mail.
    Mr. Burton. No, I know you didn't receive this. I just want 
to know, do you know about this?
    Mr. Quinn. I don't have any recollection of it but more----
    Mr. Burton. No, no. Don't give me no recollection. Do you 
know about this, yes or no?
    Mr. Quinn. I have no recollection of having heard this 
but----
    Mr. Burton. But.
    Mr. Quinn. OK. I do not believe that Denise Rich spoke to 
the President at this time about this matter. I don't believe 
this was followed up on.
    Mr. Burton. Well, the reason I'm asking this question is 
you said you didn't talk to the President about this at any 
time up until you know the timeframe we're talking about here, 
and here you started working on this back in 1999. Here's March 
18, 2000, 10 months before the pardon was granted, or 11 
months, and this is a pretty involved memo saying you know 
we're trying this, we are trying that and now we're talking 
about sending Denise Rich, his former wife, on a personal 
mission to No. 1 with a well-prepared script and the subject of 
the memo was you, but you don't know, you don't recall anything 
about it; you don't think anything happened and you didn't talk 
to the President about it.
    Mr. Quinn. Mr. Chairman, I did not speak to the President 
anytime around this time about this matter. I do not believe 
that Denise Rich spoke to him about the matter. Now by the way, 
remember, this was, I suspect, around the time that we had 
heard from the southern district of New York that they would 
not sit down with us; when I had then made another effort to 
persuade Mr. Holder, who in turn was consulting with two other 
senior officials of the Department of Justice, to meet with us 
and essentially take the case. Sometime around this time--and I 
know that the record reflects a note in my hand to this 
effect--Mr. Holder--I asked Mr. Holder, look, is this over, are 
we basically dead, are you guys not going to take this, and he 
said that's correct.
    It is entirely possible that these folks and every one of 
us involved in this thought out loud with each other, is there 
any way to persuade the President to tell Justice, to tell the 
southern district to do something. It's also entirely possible 
that Mr. Azulay, others, myself included, were involved in a 
conversation where someone said you know we are going to try to 
pardon one of these days. But as I think the record also 
reflects, basically the legal work on this matter at all of 
these firms, Mr. Fink's, Mr. Libby's and so on, basically shut 
down sometime around the end of March.
    Now, I'm telling you, I did not speak to the President in 
the year 2000 about the Marc Rich matter. I was not a recipient 
of this. I have no reason to believe that anyone asked Denise 
Rich to speak to him about this matter, and I have no reason to 
believe that she did so. But my firsthand knowledge of this is 
limited to the facts I'm able to testify to.
    Mr. Burton. Well, we will talk to Mr. Fink about that 
later.
    Mr. Waxman. Thank you, Mr. Chairman. Just to followup on 
this issue, Mr. Rich had lawyers, lots of lawyers, didn't he?
    Mr. Quinn. Yes, sir, over the years a good many.
    Mr. Waxman. Over the years a good many, and they were 
trying to figure out how to serve their client. So it appears--
and there's even a story on the Web in the Washington Post--
even a year ago a top aide to Marc Rich was thinking about a 
Presidential pardon.
    Mr. Quinn. That would not surprise me. But my impression, 
having been involved in this, is that was not seriously 
considered until sometime in the vicinity of October 30th and 
decided upon early, you know, in the next couple of weeks; and 
I don't think that the lawyers involved actually got together 
to meet about it until November 21st.
    Mr. Waxman. Now, earlier in the year, as I recall your 
testimony from 3 weeks ago when you were before this committee, 
earlier in that year, Mr. Rich's lawyers--and maybe I think you 
were included you were trying to get a deal with the Justice 
Department; and in fact, as I recall you talked to Mr. Holder 
about getting the prosecutors to talk to Mr. Rich's attorneys, 
you and his other attorneys. Is that right?
    Mr. Quinn. Yes, and heard back from Mr. Holder that he and 
other senior officials of the Department of Justice thought it 
was ridiculous that the southern district wouldn't sit down 
with us.
    Mr. Waxman. Now, was there some point in the year 2000 when 
you concluded that there was no chance any longer at the 
Justice Department?
    Mr. Quinn. Yes, sir. Without being able to pinpoint the 
records I produced earlier in this book, my recollection is 
that it was sometime in the month of March.
    Mr. Waxman. Well, I'm not as interested in the specific 
moment, but I'm just trying to understand the trend here.
    Mr. Quinn. Yeah.
    Mr. Waxman. These lawyers are working around the clock or 
at least billing around the clock and trying to figure out what 
to do for their client, and they want to negotiate a 
settlement. They had you go to Mr. Holder, see if Mr. Holder 
can get Justice to agree with some settlement. That didn't work 
out, and at that point when it fell apart, where there was no 
question the Justice Department was not going to agree to what 
you wanted, is that when the whole idea of a pardon started 
coming forward as the way to help your client?
    Mr. Quinn. Well, again--and I'm looking now at my pardon 
application and specifically tab G, which reflects that the 
southern district informed us they wouldn't sit down with us on 
February 2, 2000. In the ensuing weeks, I undertook sort of 
what I viewed as a last-ditch effort with Mr. Holder to make a 
determination whether they could either persuade the southern 
district or get us a meeting with the head of the criminal 
division and the head of the tax division. Mr. Holder basically 
came back and said that's not going to happen. And again, the 
best I can do on this is that it is barely conceivable that 
there were conversations in which the notion of 1 day pursuing 
a pardon took place.
    Mr. Waxman. I really don't want to get into all the detail 
of it because I don't see how it's really particularly 
important. Mr. Rich was able to hire lots of lawyers. They were 
going every way they could to help their client and at some 
point lawyers sending all sorts of e-mails came up with the 
idea that you could go in and get a pardon if you could work at 
it and convince the President.
    But the thing I want to ask you is this, you made a case to 
the President that persuaded him and that case was based on the 
indictment not being a valid indictment. Who prepared that 
argument? Who came up with that theory? Was that you or did 
someone else do that.
    Mr. Quinn. Well, it grew out of a lot of work going back a 
good many years. The chief architects of that argument, in my 
view, were Larry Urgenson, who had been in the Reagan Justice 
Department; Mr. Libby, who will be here with you.
    Mr. Waxman. Scooter Libby, who's now the chief of staff to 
Vice President Cheney?
    Mr. Quinn. Yes, sir. A partner of his named Mike Green. Mr. 
Fink himself.
    Mr. Waxman. So when it was reported in the press that 
Scooter Libby and some of these Republican lawyers didn't have 
anything to do with the pardon, that might have been accurate; 
but they helped develop the theory that you advanced to the 
President to grant this pardon?
    Mr. Quinn. Yeah, and I don't want to speak for Mr. Libby. 
That wouldn't be fair.
    Mr. Waxman. We will hear from him shortly.
    Mr. Quinn. He's a terrific lawyer, a very smart guy as are 
all of the other people I mentioned who are involved in this. 
The argument for the pardon was, as you know, that the 
indictment had complete defenses. That argument was laid out 
over literally days and days and days of meetings involving all 
of those lawyers and me and one of my partners.
    Mr. Waxman. Well, that argument didn't convince the three 
other people sitting next to you or the President's chief 
advisers, but it convinced the President on a day when he was 
probably fuming about the deal he had to make with the 
independent counsel and concern about what was happening in the 
Middle East and looking at so many different other things and 
probably wanted to do something for Mrs. Rich, who was 
certainly very helpful to him.
    Mr. Quinn. I don't think any one of us can testify to all 
the different things that might have been in the President's 
mind at the time but I think that the point that Mr. Lindsey 
made earlier is fair, that it's, you know, it is inconceivable, 
and based on what we know, more than quite likely, that the 
appeal from Prime Minister Barak, which by the way followed on 
the heels of an appeal from Shimon Peres and others in Israel.
    Mr. Waxman. But that was all based on strategies you and 
other lawyers worked out to try to influence the President. I'm 
not being critical.
    Mr. Quinn. I understand, but I think that all of these 
things were elements of the decision.
    Mr. Waxman. All of us in public office have to understand 
that when we have an orchestrated campaign we have to recognize 
it for what it is, that often the rich and the powerful, 
whether it's an individual or an industry, get the access and 
make their case and it comes from all different directions 
because they have smart lawyers, skillful people thinking about 
what might be the right button to push with any of us as we 
sort through and make our decisions.
    Mr. Quinn. Yes and I think, by the way, that the President 
was served by some very smart people himself.
    Mr. Burton. Let me start another round now. Going back to 
exhibit 137. You said that you didn't talk to the President 
during the year 2000. Did you talk to any of his aids about the 
pardon, any of the people at the White House besides the 
President?
    Mr. Quinn. I believe the first conversation I had with 
anyone in the White House, again, I believe that I spoke to Ms. 
Nolan on December 11th to tell her the application was coming, 
and the next conversation I had was with Mr. Lindsey in 
Belfast.
    Mr. Burton. But that was the first, December 11, 2000.
    Mr. Quinn. Right you asked about 2000.
    Mr. Burton. Yeah. This is 2001. So it would have been last 
year. So the earliest that you talked to anybody at the White 
House was in December 2000?
    Mr. Quinn. Yes, sir. That is my recollection. The first----
    Mr. Burton. I guess I just wanted to get that straight 
because the memo we're talking about there if you look up above 
it you will see that was followed up 2 days later. The memo I 
referred to is on March 18, 2000 at 2:11 a.m. Incidentally and 
then 2 days later it says it's from Mr. Fink to Avner Azulay 
and it says: ``thanks, I spoke to JQ after you and he told me 
about Denise. Let's see how his visit with Zvi goes and what 
EH--'' Eric Holder's ``--research shows. I assume you're 
keeping Marc Rich, MR, up to date as I have nothing real to 
report.''
    And the first memo says that they were going to try to send 
her to No. 1 with a well-prepared script. What did you tell him 
about Denise?
    Mr. Quinn. I don't recall that conversation.
    Mr. Burton. You don't recall.
    Mr. Quinn. No, sir, and I didn't write the memo or receive 
it.
    Mr. Burton. No, I know. But the memo said that they were 
going to suggest sending her on a personal mission to No. 1 
with a well-prepared script, and 2 days later it says ``I spoke 
to JQ after you and he told me about Denise.''
    Mr. Quinn. I'm not sure what he's referring to. He may have 
a better recollection of this, and the best I can do for you is 
that I do not believe, but I have no personal knowledge, but I 
don't believe that Denise Rich spoke to the President about her 
ex-husband in this timeframe.
    Mr. Burton. Mr. Barr, I yield my time to you.
    Mr. Barr. Thank you, Mr. Chairman. According to the waves 
records, two individuals visited the White House, visited the 
President between this period of January 16th and January 19th 
when something seems to have happened in the President's mind 
that he would grant the Rich pardon. The two I have are Beth 
Dozoretz and Denise Rich; both according to the records visited 
the President during that timeframe. Do any of you know why Ms. 
Dozoretz and Ms. Denise Rich visited the President during that 
particular time?
    Mr. Podesta. Mr. Barr, I think given the fact that at least 
I believe Ms. Rich through her counsel, I believe, and 
certainly Ms. Dozoretz through her husband have denied that 
they met with the President. I think that question is 
unfounded, and I think that--look I don't know anything about 
this, but I believe Mr. Dozoretz in the newspapers laid out 
records that he had showing that they're on an airplane and 
staying in some hotel in Los Angeles. So I think the 
implication of your question, unless you're not reading the 
newspapers, Mr. Barr, is just off base.
    Mr. Barr. Well, thank you very much, Mr. Podesta. You and 
Ms. Nolan certainly have thin skins today. I'm----
    Mr. Podesta. Mr. Barr, I have an exceedingly thick skin.
    Mr. Barr. Hold on.
    Mr. Podesta. That's why I'm sitting here all day.
    Mr. Barr. Hold on. I'm not reading a newspaper. I'm reading 
the waves records from the White House which show not only a 
scheduled time for the visit for Ms. Dozoretz and Ms. Rich but 
also a time of arrival on those days. So unless you're telling 
me that in your experience these wave records don't accurately 
reflect the reality of who's visiting the White House, the 
question has a very well-founded basis in fact. The White House 
records themselves, according ----
    Mr. Podesta. The question has a well-founded innuendo, in 
fact.
    Mr. Barr. According to these wave records, which all three 
of you are very familiar with and I'm sure you are too, Mr. 
Quinn, they indicate during that time period between January 
16th and the 19th both Ms. Dozoretz and Ms. Rich, neither of 
whom have chosen to testify so it's very easy for you to stand 
here and say that these records are not good, visited the White 
House. And I'm simply asking, do you all know why they might 
have visited the White House during this period of time?
    Mr. Lindsey. Mr. Barr, if I may, you keep saying between 
the 16th and the 19th. Are you talking about the 19th.
    Mr. Barr. According to these records.
    Mr. Lindsey. Well, the records have a date, so which date 
is it that they were supposed to have visited the White House 
between the 16th and the 19th?
    Mr. Barr. Thank you for assuming the role of questioner 
here, but I don't mind telling you because these are the 
records. And according to these records, Ms. Dozoretz visited 
the residence, the President of the United States, visited him 
at his residence on the 19th at 1729.
    Mr. Lindsey. OK. The event on the 19th was a reception for 
Kelly Craighead who got engaged several weeks before that. 
Again, Ms. Rich and Ms. Dozoretz say they were not there. I 
have asked other people who were there who do not remember 
seeing them but the event that they were waved in for was a 
reception for Kelly Craighead who had just gotten engaged.
    Mr. Barr. And the same would hold, according to the best of 
your recollection, for Ms. Denise Rich also.
    Mr. Lindsey. For the 19th, yes. I asked people who were 
there whether, because I knew they were on the waves list, 
whether they attended and was told that nobody remembered them 
being there.
    Mr. Barr. My time has expired. Who's next on your side, Mr. 
Cummings?
    Mr. Cummings. Thank you, Mr. Chairman. On these records, 
these wave records, are they always accurate as to who's there 
and who's not there, who appears in the White House and who 
does not?
    Mr. Lindsey. No, sir. They basically are accurate as to 
someone being waved in.
    Mr. Cummings. OK.
    Mr. Lindsey. Beyond that, especially for large social 
events, you know, where there are lots of people, they often 
are not correct because at some point people get backed up and 
if it is a large event where there's going to be a lot of 
people, they will often times let people in without going 
through all of the procedures. But they are usually accurate as 
to when someone was scheduled to come in, not necessarily 
always accurate as to whether they were actually there at that 
time.
    Mr. Cummings. So, in other words, when we get opportunities 
to go to the White House and there's some function and they 
have your name at the gate, if I don't show up, you would still 
have a record that I could have come in?
    Mr. Lindsey. That's correct.
    Mr. Cummings. Doesn't mean I was there.
    Mr. Lindsey. Correct.
    Mr. Cummings. And that happens many times up here because 
we get our schedule conflicts, and you have got a document that 
says we could have gotten in; but that doesn't prove that we 
got there.
    Mr. Lindsey. And it also would be the case perhaps that if 
you are out there and getting a little unhappy about having to 
wait in the line that somebody might make a judgment to bring 
you all in without going necessarily through the procedures 
simply because certain Members of Congress often times do not 
like standing outside while they're being waved in. So often 
times they would make that judgment.
    Mr. Cummings. Mr. Chairman, Mr. Libby is definitely going 
to testify tonight because I have some questions, and I want to 
make sure that we're hearing that he might not testify. I want 
to make sure he's going to testify.
    Mr. Burton. No, no. He has agreed to come, and he offered 
no resistance.
    Mr. Cummings. So he will be testifying.
    Mr. Burton. He will be here.
    Mr. Cummings. Good. In that light I just want to ask you a 
question, Mr. Quinn. I was just looking at these exhibits, and 
then we have spent a lot on exhibit 137; but when you turn the 
page, we turn, lo and behold, to 138, very interesting exhibit; 
and it says to the Rich team from Lewis Libby. You familiar 
with that document?
    [Exhibit 138 follows:]

    [GRAPHIC] [TIFF OMITTED] T5593.701
    
    [GRAPHIC] [TIFF OMITTED] T5593.702
    
    [GRAPHIC] [TIFF OMITTED] T5593.703
    
    Mr. Quinn. Yes, sir.
    Mr. Cummings. Can you tell me about it.
    Mr. Burton. Excuse me. Would you put the document up? Thank 
you.
    Mr. Quinn. The southern district had taken the position in 
response to a letter that Mr. Urgenson had written some years 
earlier that it would not negotiate with attorneys for these 
men because they were fugitives. In the course of our work 
together on this matter, Mr. Libby I recall, volunteered to put 
together a document which would demonstrate that in fact there 
was no Department of Justice policy prohibiting them from 
negotiating with fugitives, and this is the product of that 
work.
    At around this same time, by the way, you will recall there 
were press reports about the Bank of New York, Russian money-
laundering matter which was pending in fact in the southern 
district of New York. And based on those press reports, it 
seemed apparent to us that the U.S. Attorney's Office had in 
fact dealt with attorneys for people who ultimately became 
defendants and pled in the matter, even though they were not in 
the country.
    So we were trying to demonstrate there was no such policy 
and that it was at least the practice in a good many U.S. 
Attorney's Offices and perhaps even in the southern district 
from time to time to negotiate with attorneys for people who 
had absented themselves.
    Mr. Cummings. That's dated October 6, 1999; is that right?
    Mr. Quinn. Yes, sir.
    Mr. Cummings. And so that we'll be real clear, this is the 
same Lewis Libby who is now chief of staff for Vice President 
Cheney?
    Mr. Quinn. Yes, sir.
    Mr. Cummings. All right. I just wanted to make sure I was 
clear on that. Let me just go on to something else. Ms. Nolan, 
you said something that was very interesting a little bit 
earlier and I wanted to see what you meant by this. You said 
when you were talking about advising the President and you had 
talked about the President, is the President--he makes the 
decision; he had the final decision. You said one person would 
have to take the hit for it, in other words for a decision; and 
I take it that what you meant by that is that if it was a wrong 
decision, that there might be some criticism. Is that what you 
were alluding to?
    Ms. Nolan. Yes.
    Mr. Cummings. And did you all ever say to any of the--you, 
Mr. Podesta, Mr. Lindsey, or Ms. Nolan, did you ever say Mr. 
President, you know, you are the President, but I think you're 
going to really take the hit for this one because people are 
really going to be very critical of you, although you may feel 
very strongly that you're doing the right thing. Did any of you 
ever say anything like that to the President, just out of 
curiosity?
    Ms. Nolan. Yes. I said it with respect to a number of 
pardons, some of which I was right about, some of which I 
wasn't.
    Mr. Cummings. When you say you were right about, what do 
you mean? In other words----
    Ms. Nolan. There was some that I suspected that would be 
criticized that weren't and some that I thought would be 
criticized that would be.
    Mr. Cummings. Did he feel comfortable in so-called taking 
the hit for them?
    Ms. Nolan. He fully understood that he might take the hit 
and he listened to our recommendations. We had discussions 
about how things would look and appearances. He didn't always 
agree with our assessments, and I have to say my assessments 
were sometimes quite right-on and sometimes not.
    Mr. Cummings. Mr. Lindsey.
    Mr. Lindsey. I think the answer is almost the same. I'm not 
sure. I mean, I think I made it clear to the President as did 
others that pardoning Marc Rich would not go down well; that 
you know, I was, again I was opposed to it because he was a 
fugitive. As others said, he had the ability of all these 
arguments that Mr. Quinn was making, were correct, he could 
come back, he could have the RICO claims dismissed. He could 
present the arguments of the two law professors as to why there 
was no tax fraud. He could argue that the trading with the 
enemies involved a company that wasn't subject to U.S. law. He 
could make all those arguments. And that I did not believe that 
people would understand why you pardoned a fugitive.
    Mr. Cummings. Thank you, Mr. Chairman.
    Mr. Burton. Thank you, Mr. Cummings. The gentleman's time 
has expired. Mr. Barr, you can have your own time now.
    Mr. Barr. Thank you, Mr. Chairman. Going back to the 
Braswell pardon, did any of you all have any communications or 
discussions in person or on the phone with Mr. Rodham about the 
Braswell case?
    Ms. Nolan. I did not.
    Mr. Lindsey. I did not.
    Mr. Barr. Mr. Podesta.
    Mr. Podesta. No.
    Mr. Barr. Are you aware of any conversations Mr. Rodham had 
with anybody at the White House concerning the Braswell pardon?
    Ms. Nolan. I'm not.
    Mr. Lindsey. I'm not personally aware of any. I have read, 
I think, press reports; but I have no personal knowledge.
    Mr. Barr. Mr. Podesta.
    Mr. Podesta. No, I have no knowledge of that.
    Mr. Burton. Would the gentleman yield briefly.
    Mr. Barr. Certainly.
    Mr. Burton. Do you recall during the last couple of weeks 
of the administration how often Mr. Rodham was there? We've had 
reports he was there 2 or 3 days a week. Was he there 
continually, or was he just there 2 or 3 days a week? Can you 
give us some information on that?
    Mr. Lindsey. I personally wouldn't know whether he was 
there unless he came by to see me, called me or I ran into him.
    Mr. Burton. You don't know if he was in the residence, any 
of you?
    Mr. Podesta. I don't know what his presence was, in the 
residence or at the White House.
    Mr. Burton. Thank you. Thank you, Mr. Barr.
    Mr. Barr. With regard--back on the Rich pardon, did any of 
you all, Ms. Nolan, Mr. Lindsey, or Mr. Podesta, have any 
discussions with either Ms. Denise Rich or Beth Dozoretz about 
the Marc Rich pardon?
    Ms. Nolan. I did not.
    Mr. Lindsey. I believe I have never spoken, I don't think, 
to Denise Rich. Ms. Dozoretz called me on one occasion and 
asked me about two pardons: Milken and Marc Rich. It was at a 
time when I--I'm not quite sure exactly what I indicated to 
her. I told her I thought the President wasn't going to do 
Milken and I hoped he wouldn't do Rich.
    Mr. Barr. Would this have been in early January?
    Mr. Lindsey. Early to mid-January, yes. Again, it's hard 
for me to place it; but it could have been well within that 
last week sometime.
    Mr. Barr. Mr. Podesta.
    Mr. Podesta. No, I never talked to either one of them.
    Mr. Barr. Thank you. Mr. Quinn, I'd like to give you an 
opportunity. You and I had a discussion at your last hearing 
with regard to a January 10th, I think it was January 10th, e-
mail that had to do with Ms. Dozoretz. We had a discussion 
about that, and then there was a subsequent discussion you had 
in your testimony on the Senate side; and there seemed to be 
when you read your two statements one was much more elaborative 
and contained a lot more information and background which was 
not a part of your answer here, and I'd like to give you an 
opportunity to discuss that, if you would, please.
    Mr. Quinn. Sure. And in fact, as a result of your 
appearance and Mr. Shays' on a television show subsequently, I 
have gone back and looked pretty, pretty carefully at the 
exchange and the fact that I testified the way I did in the 
Senate, I think it's fair to say, was in some sense--is 
directly related to how this didn't unfold here. I think in 
fairness, if one goes back and looks at the transcript, at 
least this is the way I read it, I was first asked a question 
which I understood to be asking me to express a view as to why 
the President was making a call to her and as with every other 
thing that might be in the President's head, I didn't know and 
tried to explain that I didn't know whether he was calling to 
discuss the pardons or whether he was calling for some other 
matter, and it came up in the course of that.
    Then you seemed to clarify that you were interested in 
knowing why she was involved, at which point I said, oh well. 
And I began to tell you the facts that I laid out in my Senate 
testimony. You will see in the transcript that you interrupted 
me and then you were interrupted by the chairman and time 
expired and we went off to another subject.
    Now, the principal focus of our discussion in almost 9 
hours that day was on my dealings with Mr. Holder and to a 
lesser degree with the White House Counsel's Office. I was 
certainly impressed after the hearing that it would be 
important for me to give a more complete presentation of my 
discussions with Ms. Dozoretz in the Senate testimony that 
occurred just 6 days later, and as I hope you know I then filed 
that Senate testimony with the chairman for inclusion in the 
record of this committee's hearings.
    Mr. Barr. Thank you. Maybe if Mr. Shays in your time if you 
could give me an opportunity to just ask one quick followup 
question on that.
    Mr. Burton. We have to go to Ms. Norton first, and then 
we'll come back.
    Ms. Norton.
    Ms. Norton. Mr. Quinn, I'm curious, when one looks at your 
resourcefulness as an attorney, one can only admire what you 
have done. Indeed, I think it's what one would expect a 
splendid lawyer to do given the openings that he had. Let me 
ask you, do you believe in the adversarial process as a way for 
discovering truth?
    Mr. Quinn. Certainly.
    Ms. Norton. Given the fact that you had to appear here now 
twice for hours on end and that your client has been made more 
notorious than he ever was as 1 of the 10 most wanted men in 
the United States, do you think the Congress would be wise to 
advise a President in the past to make sure that he gets both 
sides completely of every pardon matter before making a pardon? 
I say that not only with respect to the now, but I think that 
your client and you have also taken a tremendous hit because 
you were too clever by half perhaps. The resourcefulness I 
think that any lawyer would admire, and I say that as a lawyer, 
but looking back and standing back, where you might have gotten 
the same result, would it not have been better to have the 
President fully briefed on both sides, to have the Justice 
Department have the pardon papers, have the pardon attorney, 
have the papers long before she did so that she wasn't trying 
to go on the Internet at the last moment to do her work? I 
mean, hasn't the fallout been a whole lot more than on the 
President of the United States but on you and on your client 
Mr. Rich as well?
    Mr. Quinn. Yes. There's certainly a lot of truth to that 
conclusion. But I would like to make a couple of points that I 
think are important. You've heard a great deal from the people 
to my left about the timing of this being put in front of the 
President and all the other things that were going on. But I'd 
like to remind you that the application was filed 5 weeks 
before the pardon was granted.
    Ms. Norton. Filed with whom?
    Mr. Quinn. At the White House.
    Ms. Norton. My question goes to the Justice Department, the 
pardon attorney.
    Mr. Quinn. Yes, I'd like to get to that. OK. I had had a 
course of dealings with Mr. Holder from 1999 about the Marc 
Rich indictment.
    Ms. Norton. When did the pardon attorney get the papers?
    Mr. Quinn. The pardon attorney, you mentioned earlier not 
having been aware of the rules of the pardon attorneys office, 
those rules demonstrate quite clearly that this was in the type 
of pardon that the pardon attorney could move on favorably. 
Because those rules are as, in my view, are limited to those 
applicants that have been tried, convicted and spent time in 
jail. It was clear to me from the beginning that the other 
people in the chain of command, namely, the Deputy Attorney 
General, the White House Counsel's Office, and the President 
himself, if anyone was going to move on this favorably, it 
would have to move in those three offices, not in the pardon 
attorney office.
    Ms. Norton. I thought you got the papers for the pardon 
attorney 48 hours before, if I recall correctly.
    Mr. Quinn. No, that was a different document, 
Congresswoman. That was my letter of January 10 to Mr. Holder, 
which apparently was misdirected not to his office, but to the 
pardon attorney's office. But the other thing I'd like to 
remind you of is that as far as I was concerned, I very much 
wanted there to be a communication between the White House 
Counsel's Office and Mr. Holder, because I had been, and I 
don't want to overstate this in fairness to Mr. Holder. I 
thought that Mr. Holder was sympathetic to the notion that we 
had reached an absolute impasse with the southern district. I 
had had a conversation with Mr. Holder, and the documents in 
the record that reflect this, which suggested to me, in his 
words, that he was not personally against there. Not personally 
against in a circumstance like this frankly was----
    Ms. Norton. I don't understand why you say pardon, this was 
not an instance where the pardon attorney should advise----
    Mr. Quinn. I am not saying shouldn't advise. What I said 
was this was not the type of pardon which the pardon attorney 
under those procedures----
    Ms. Norton. Well, who was Mr. Holder to rely upon then? Was 
he to do his own research on this matter?
    Mr. Quinn. Mr. Holder could rely on anyone and everybody.
    Ms. Norton. Why shouldn't he rely on the pardon attorney?
    Mr. Quinn. He may well have. I never discouraged him from 
talking to anybody. And if I may----
    Ms. Norton. I can understand why.
    Mr. Quinn. Can I finish this point?
    Ms. Norton. I can understand why you wouldn't have wanted 
to go back to the southern district. These are prosecutors. I 
don't overly rely on the Justice Department at all because they 
are prosecutors. I think the Justice Department is advisory 
just like the counsel's office is advisory. A judgment call has 
to be made here.
    Mr. Quinn. Yes.
    Ms. Norton. The point I am trying to make here is that if a 
principal has the opportunity to set up in his own mind and in 
his own way an adversarial system, he can keep himself from 
making mistakes. That was his own job but as it turns out, the 
fallout has been on you and your client as much as the 
President.
    Mr. Quinn. I understand that I did want to bring to your 
attention a document, which during my last appearance here, 
that I did not have in front of me, which was an e-mail I wrote 
on Christmas day to the people I was working with here in which 
I told them that I am hopeful that Eric Holder will be helpful 
to us, but we can expect some outreach to New York. So I 
thought----
    Ms. Norton. Did you think that Mr. Holder was reaching out 
to the pardon attorney?
    Mr. Quinn. I don't think I thought one way or the other he 
would.
    Ms. Norton. The reason I am asking about the pardon 
attorney if I can just finish this and be gone.
    Mr. Burton. All right.
    Ms. Norton. I don't appreciate the fact that over and over 
again that Mr. Holder is being made the fall guy here.
    Mr. Quinn. I am not doing that.
    Ms. Norton. You indicated from the beginning that you were 
not doing that. The way not to do this is to make sure the 
pardon attorney has this and not to make this such a question 
of jurisdiction as you have made it. You're not trying to make 
him the fall guy, but the fact is that one of the bright stars 
of the African American community has had his reputation 
damaged.
    Mr. Quinn. And it shouldn't be.
    Ms. Norton. And a lot of us do not appreciate it. He has 
taken full responsibility for it, but I think there was also 
some very smart lawyering going on here avoiding the pardon 
attorney and going around the process, and it's the kind of 
thing that almost any lawyer seeing openings might have done. 
But the net effect of it is that Eric Holder, the President of 
the United States, Marc Rich, yes, and even Jack Quinn, have 
been hurt by the way this process unfolded, and I don't think 
you should take a lot of credit for it. But you offered some 
advice in response to a question to me before about the kind of 
things that might be done to shore up the process. I thought it 
was very good advice about an Executive order, and the thrust 
of my question was that if there were an Executive order to 
indicate that the President had within his own context a 
sufficiently adversarial process to make an informed and 
responsible decision, that he could defend, might well be 
something that we would want to recommend or an Executive order 
ought to say.
    Mr. Quinn. Yes, and I think I told you last time that I 
thought that was a good idea.
    Mr. Burton. The gentlelady's time has expired.
    Mr. Shays.
    Mr. Shays. Mr. Barr, you wanted me to yield to you.
    Mr. Barr. Yes, thank you. I appreciate the gentleman 
yielding.
    I am looking at the e-mail of January 10, and I'm no longer 
focussing on your testimony here in the Senate. What I'm 
looking at is the substance of the e-mail and your subsequent 
explanation in the Senate, and if you could just clarify what 
Beth Dozoretz was doing here. The e-mail of January 10 
indicates that the President takes the initiative and calls her 
and talks about with her about the pending pardon application. 
Your explanation, and maybe we're talking about two completely 
different things here, I don't know. Your explanation or your 
discussion before the Senate indicates that you went to Beth to 
encourage her to intercede on your behalf with the President, 
which seems very different from the discussion of this e-mail 
description which the President reached out to her. What was 
her role in all this. Was she acting as your agent or as a 
friend of Denise Rich's or in some other capacity?
    Mr. Quinn. I informed Beth Dozoretz sometime around the 
Thanksgiving home day that I would be pursuing a pardon for 
Marc Rich. I did so because she was a friend of mine, because 
she had a relationship with Denise Rich, she was in much more 
frequent communication with the President than I was. I was 
motivated by two things principally; one, I was hopeful that 
she could let the President know that I had or was going to 
file this so that he would be aware it was there; and two, she 
was another person who I hoped might be in a position to give 
me the kind of information that I have, as a lawyer, thought 
would be useful to me to pursue their efforts on behalf of my 
client vigorously. Now, I want to also tell you have that in 
that conversation I had with her again around Thanksgiving 
time, I cautioned her that it would be very important to make 
sure that no such conversation was ever connected in any way 
with any kind of fundraising activity. She reacted to that by 
kind of looking at me like how could I even suggest that. She 
said to me, of course I would never do that to him.
    Mr. Barr. And the reason you brought that up is because she 
was the finance director for the DNC or was.
    Mr. Quinn. She had been. And I wanted to be very careful to 
make sure that no discussions about this ever took place in the 
context of anything related to fundraising. I had a couple of 
conversations with her after the pardon was granted in which I 
essentially reminded her of that.
    She had called to congratulate me on Saturday. Said this 
guy is going to be enormously grateful, he owes you a lot, he 
owes everybody who was involved in this process a lot. And I 
reflected on that conversation after I have got off the phone 
with her and I called her back, initiated a call and said to 
her relating to our earlier conversation when you say he should 
be very grateful, I want to be very clear you're not talking 
that he should be grateful to the President. And I said we had 
a conversation about this a long time ago. I trust that no one 
ever had a conversation with the President about this matter 
and connected it in any way to any fundraising activity, and 
she said absolutely not. And left me with the impression that 
my concern that she had been vague about this was misplaced, 
that she was not talking about that at all.
    Mr. Barr. I thank the gentleman for yielding.
    Mr. Shays. My time has really ended but let me ask you, Ms. 
Nolan, I will ask you what were the other pardons you warned 
the President about that didn't make the news?
    Ms. Nolan. I wasn't----
    Mr. Shays. Don't be shy.
    Ms. Nolan. I was more concerned about some of the 
independent counsel pardons than I think the press, I don't 
think that they got, I don't think they got the reaction that I 
expected.
    Mr. Shays. Name me the pardon that you advised him. You 
have been freed to tell me. You are not breaking a faith here. 
What were the specific pardons that you told the President--did 
you warn the President, for instance, about Susan McDougal?
    Ms. Nolan. Yes.
    Mr. Shays. What are some others.
    Ms. Nolan. You know, I'm sorry, I was concerned generally 
about the independent counsel Starr/Ray pardons. I just don't 
remember right now which they are.
    Mr. Shays. When you have time to think about it, I want you 
to write down a list and I'm going to ask you again. This is a 
very serious question. I just want to know and you should know.
    Ms. Nolan. I can tell you this, Mr. Shays, I just want you 
to know this now. I can try to come up with a list, but I am 
not going to be able to--I couldn't tell you who all got 
pardons right now. I just don't have that in my memory banks.
    Mr. Shays. I'm asking you a specific question. I want to 
know the pardons----
    Ms. Nolan. I'll tell you what I remember, certainly.
    Mr. Shays. And we'll come back at another time.
    Ms. Nolan. OK.
    Mr. Burton. Mr. Shays your time has expired.
    Mr. LaTourette.
    Mr. LaTourette. Thank you for not making me a freshman 
again, even though Mr. Shays wanted me to be.
    Mr. Shays. I apologize.
    Mr. LaTourette. I would like to go back to Vignali, and 
hopefully finish this, and Ms. Nolan, and I would ask you, were 
you aware that Hugh Rodham was advocating for a petition for 
Carlos Vignali, did you know that?
    Ms. Nolan. I don't think I knew that, but I may have known 
that.
    Mr. LaTourette. And Mr. Lindsey, we already heard from you. 
Mr. Podesta, did you know that?
    Mr. Podesta. No.
    Mr. LaTourette. At any time, did you all, in this meeting 
on the 16th in the Oval Office, or on the 19th, or any time, 
were you ever present at a meeting where the Vignali case was 
discussed with the President of the United States? Ms. Nolan.
    Ms. Nolan. Yes, I believe I was, yes.
    Mr. LaTourette. Was Mr. Lindsey there at that meeting?
    Ms. Nolan. I don't remember which meeting it was, that Mr. 
Lindsay was generally there. There was one meeting that we had 
that he wasn't. I think he was there, though, yes.
    Mr. LaTourette. How about you, Mr. Podesta? Were you there?
    Mr. Podesta. Mr. LaTourette, I can't be specific. I was 
engaged in a discussion--I heard the merits of Vignali. I 
didn't have a strong view about Vignali. I think it was in 
front of the President. But it's possible that it was a 
separate meeting that only involved the staff as opposed to the 
President.
    Mr. LaTourette. I am interested in what took place in front 
of the President, and the meeting that you remember, Ms. Nolan, 
whether these guys were there or weren't there, was the fact 
that Hugh Rodham was advocating this position, or was 
advocating that Mr. Vignali receive a pardon commutation, was 
that discussed in your presence? Was Hugh Rodham's name invoked 
to the President of the United States in this meeting?
    Ms. Nolan. I don't know, Mr. LaTourette.
    Mr. LaTourette. How about you, Mr. Lindsey?
    Mr. Lindsey. I don't recall. I don't have a specific memory 
of mentioning it. I wouldn't have hesitated to mention it. I 
just don't recall.
    Mr. LaTourette. You don't remember. How about you, Mr. 
Podesta?
    Mr. Podesta. With the caveat that I gave earlier, in the 
meeting I was in where Vignali was discussed, Mr. Rodham's name 
did not come up.
    Mr. LaTourette. Going back to the meetings of the 16th and 
the 19th when you're doing the Rich pardon, as you sat in that 
meeting, I know the fundraising was not discussed. As you said 
on the meeting on the 16th, Ms. Nolan, were you aware that 
Denise Rich had contributed $1.2 million to the Democratic 
National Committee, $75,000 to Senator Clinton's campaign, and 
$450,000 to the Clinton library? Was that within your 
knowledge?
    Ms. Nolan. I did not know that and don't know that.
    Mr. LaTourette. Mr. Lindsey, how about you?
    Mr. Lindsey. The amount I had no idea about. I knew she was 
a supporter of the Democratic Party and had been a supporter of 
Mrs. Clinton, and that she had indicated some level of support 
to the library, but the dollar amounts I had no idea.
    Mr. LaTourette. Were you aware that she wasn't somebody 
that came to a clam bake and bought a $35 ticket? She was a 
significant contributor to all three of those causes?
    Mr. Lindsey. Yes.
    Mr. LaTourette. How about you, Mr. Podesta?
    Mr. Podesta. No, I was not aware of that.
    Mr. LaTourette. You were not aware that she was a 
contributor to any of those causes. Do you know, any of you, 
whether or not the President was aware that she was a 
participant and a contributor to those three causes? I'll start 
with you, Ms. Nolan. I assume no since you didn't know she was 
one.
    Ms. Nolan. I do not know.
    Mr. LaTourette. How about you, Mr. Lindsey?
    Mr. Lindsey. I've seen clippings of an event where he's 
standing on a stage somewhere with her and Mrs. Clinton, so to 
the extent she was on the stage with them, yes, I would assume 
he knew that she was a major supporter.
    Mr. LaTourette. How about you, Mr. Podesta?
    Mr. Podesta. I do not know what the President's knowledge 
was which is, I think, the question you asked. Although 
subsequently, just to clarify what Mr. Lindsey said, I didn't 
know this at the time, I subsequently learned having seen that 
photo over and over again, that was a benefit concert for the 
Leukemia Foundation that she's involved with, but that had 
nothing to do with the Democratic Party.
    Mr. Lindsey. You can't believe what you see in the press.
    Mr. LaTourette. I understood that to be a charitable event 
also. I think she was giving him a saxophone and not cash on 
that particular occasion, if I understand the clipping. How 
about with Braswell that you were asked about by Mr. Barr? Are 
you aware that Mr. Braswell was being advocated by Hugh Rodham.
    Ms. Nolan. Yes, I believe I was.
    Mr. LaTourette. And you were, Mr. Lindsey?
    Mr. Lindsey. No, I was not.
    Mr. LaTourette. And Mr. Podesta?
    Mr. Podesta. No.
    Mr. LaTourette. Did you have a meeting with the President 
of the United States on the Braswell pardon, Ms. Nolan?
    Ms. Nolan. Yes.
    Mr. LaTourette. Mr. Lindsey, were you present at such a 
meeting?
    Mr. Lindsey. I am not sure we had a meeting on the Braswell 
pardon.
    Ms. Nolan. I think it came up in a meeting. I don't think 
that we had a meeting on the Braswell pardon.
    Mr. Lindsey. I don't recall Braswell coming up in a 
meeting.
    Mr. LaTourette. How about you, Mr. Podesta?
    Mr. Podesta. I don't remember Braswell at all until I heard 
about it subsequent to January.
    Mr. LaTourette. And Ms. Nolan, since you're the only one 
who has a clear recollection of the Braswell matter coming up 
in a meeting, was Hugh Rodham's name invoked to the President 
of the United States during the course of that meeting as 
someone who was interested in seeing Mr. Braswell----
    Ms. Nolan. I don't believe so, Mr. LaTourette, but I am not 
positive.
    Mr. LaTourette. I think if we do another round, I would 
like to ask you a similar set of questions about Roger Clinton, 
and then I think I'll be done with this panel, I think.
    Mr. Burton. Mr. Davis.
    Mr. Davis of Virginia. Thank you very much. Mr. Quinn, I 
have some questions for you. I know it's been a long day for 
you. I appreciate you being here now twice on your own 
volition. I just have a few questions that I'm not sure about 
and I want to clear up. Can you tell me anyone, other than the 
people who were either paid by Mr. or Mrs. Rich, or were their 
friends or the objects of their political or charitable 
benevolence who were really in favor of this pardon?
    Mr. Quinn. What I can do is tell you whether each and every 
one of the people who wrote letters or spoke up in favor of it 
were in some ways beneficiaries of their generosity. I just 
don't know the answer to that.
    Mr. Davis of Virginia. I would like you to turn to exhibit 
79, it's a copy of the agenda for a November 21, 2000 meeting 
among the Rich legal time. No. 7 on the item on the agenda 
states maximizing use of D.R. and her friends.
    Mr. Quinn. Yes, sir.
    Mr. Davis of Virginia. Perfectly understandable. Who were 
her friends? What did you mean by that?
    Mr. Quinn. Mr. Davis, I did not write this, and my best 
recollection is that when I did get together with Mr. Fink and 
Ms. Behan, I don't believe we went through these items, at 
least I don't recall having done so. But you know as for what 
Mr. Fink had in mind, he will be here some time later.
    Mr. Davis of Virginia. Let me ask you this, in your Senate 
testimony, you said I expect Mrs. Dozoretz would inquire about 
the status of our application, and I believe she might provide 
me with some status of my application and thereof. As a lawyer, 
I wanted information from as many sources as I could get about 
where my petition stood in the White House so I could refocus 
my efforts and my arguments to achieve the desired result for 
my client. Did Mrs. Dozoretz keep you updated on the status of 
the application?
    Mr. Quinn. There were times when I would get phone messages 
from her asking me what the status of the matter was. We had a 
number of conversations. The ones that stick out in my mind as 
having been meaningful in this regard are that as I had 
requested early on in the process, she indicated to the 
President that I was going to be filing a pardon application, 
she left a message for me to the effect that I should meet with 
or talk to Bruce Lindsey, and I understood again, thirdhand, 
that the President had, in essence, said fine, Quinn is filing 
a pardon application, he should deal with the White House 
Counsel's Office. The other one that sticks out in my mind is 
the conversation which we've talked about here today and a 
couple weeks ago that's reflected in this Avner Azulay e-mail. 
I don't recall whether she reported that information to me 
directly at around the same time, but it's entirely possible.
    Mr. Davis of Virginia. How many times do you think you 
spoke to Mrs. Dozoretz about the pardon application?
    Mr. Quinn. It's quite honestly hard for me to say. I had, 
over the course of a few months, a fair number of phone 
messages with her, some of which no doubt led to conversations, 
but not all of those conversations would have been about this 
matter. We have been friends, we're, from time to time, invited 
to social events by her and her husband. I was working with her 
to try to put her together with a startup company in which I 
have thought the Dozoretz might want to get involved, and there 
were conversations and get-togethers in connection with that. I 
am confident that I have actually spoke to her far fewer times 
than the pink message slips in my office might indicate. I just 
hesitate to pick a number.
    Mr. Davis of Virginia. Would it be more than 10 times 
possibly?
    Mr. Quinn. Very unlikely.
    Mr. Davis of Virginia. More than five?
    Mr. Quinn. Probably, in that neighborhood; 5 to 10.
    Mr. Davis of Virginia. If I was to ask you how many 
contacts you had with either Mr. Clinton or his White House 
staff regarding the pardon, could you put a number on that?
    Mr. Quinn. I can tell you with certainty the answer to that 
as regards the President. And I can tell you the answer to that 
as regards Mr. Podesta. Zero in his case. And as I indicated in 
my written answers to the committee, I had, I believe, that I 
at one point told the President that I hoped to talk to him, 
that I don't believe I said it was about either Rich or a 
pardon. I had the conversation on the 19th of which you were 
aware, and then I had this subsequent conversation with him the 
following week.
    Mr. Davis of Virginia. All right let me ask you----
    Mr. Quinn. I'm sorry, because I do want to be complete. 
Then, of course, I spoke to Mr. Lindsey definitely once. I 
don't remember further conversation with him. I communicated 
with him in writing. And I had a number of conversations with 
Ms. Nolan, particularly at the end of process there. But before 
that as well.
    Mr. Davis of Virginia. Could we turn to exhibit 155 for a 
second. That's on the Jack Quinn memorandum at the top.
    [Exhibit 155 follows:]

    [GRAPHIC] [TIFF OMITTED] T5593.723
    
    Mr. Burton. I'll let the gentleman finish this question and 
we'll have another round if you would like to ask more 
questions.
    Mr. Quinn. Yes, sir.
    Mr. Davis of Virginia. Could you read that to me?
    Mr. Quinn. It says fax JQ/POTUS to Gloria for Beth. Tell 
Gloria to get this to Beth as soon as possible.
    Mr. Davis of Virginia. I was just going to ask you about 
that one.
    Mr. Quinn. Yes. This relates to that report from Mr. Azulay 
that the report from Mr. Azulay I believe follows this. My 
recollection is that in one of the conversations I had with Ms. 
Dozoretz, I told her of the letter I wrote to the President, 
which I don't have in front of me. It's about a page and a half 
letter. Do we know the date? On January 5. She, I believe this 
is the period of time when she was out in Colorado and upon 
hearing about the letter I sent asked if she could have a copy 
of it. And I believe it was subsequent to getting a copy of 
that letter at that point she had a conversation with the 
President.
    Mr. Davis of Virginia. Thank you very much.
    Mr. Burton. The gentleman's time has expired.
    Mr. Waxman.
    Mr. Waxman. Thank you very much, Mr. Chairman. I just want 
to put some things in perspective. And I'm responding to Mr. 
LaTourette's question about the three people that work at the 
White House, whether they knew that Mrs. Rich had given money 
and substantial amounts of money to the Democratic Party, to 
the President's library. Who's kidding whom? She gave $450,000 
to the library. She gave hundreds of thousands to the 
Democratic Party. The President didn't know what she gave in 
any instance, but he knew she was a big supporter. But let's 
also remember when the oil and gas interests donated $29 
million mostly to Republicans in last year's election, that 
people thought maybe we ought have a bill providing subsidies 
and tax relief provisions worth billions to the oil and gas 
interests. Was there a quid pro quo? I don't know that you can 
jump to that conclusion, but they certainly got their case 
across.
    Let's look at another. In 1997, big tobacco companies gave 
the Republican Party $8.8 million in contributions, and then 
the Republican leadership snuck into a bill on the Balanced 
Budget Act a $50 billion tax credit for the tobacco companies. 
In January, President George Bush held a closed door economic 
summit with 36 business leaders. And according to the Center 
for Responsive Politics, the combined contribution of 27 of 
these business leaders to a Republican candidate or the 
Republican Party was over $1.6 million. Well, look, what's 
going on? Big money gets access. And it gets access to both 
sides, Democrats and Republicans. And it's a sorry spectacle. 
That's why I have supported Mr. Shays and Mr. Mehan and Senator 
McCain and others in trying to reform the campaign finance 
system. But the reality is that those who have a lot of money 
and a lot of power do get their voices heard. I was pleased 
that Mrs. Eleanor Holmes Norton from the District of Columbia 
pointed out something that I wasn't aware of, and you wouldn't 
know it from what you read in the newspapers, that a large 
number of pardons that were granted by President Clinton were 
to people who were warehoused in prisons on some of these 
mandatory sentences.
    Ms. Nolan, maybe you can tell us. Did you go over some of 
those pardons where you felt good about them, or did you feel 
uncomfortable with a lot of them?
    Ms. Nolan. No, I felt very much that assisting the 
President in using his clemency power was one of the most 
satisfying things I did as his counsel, and it was exactly 
those kind of cases that were very rewarding. And he, there's 
obviously a great deal of controversy, and I think we have all 
acknowledged understandable controversy about some of the 
pardons he gave. I don't--but there were many pardons for, and 
commutations for people who nobody knew who really were looking 
for justice and mercy from the President and who received it.
    Mr. Waxman. It's obvious that because the President did 
some good things, it doesn't negate the fact that he did 
something that most of us think was an improper judgment call, 
giving a pardon to Marc Rich. I can't see the rationale for it. 
I know Mr. Quinn has developed this rationale with others who 
have been in the employ of Mr. Rich. But when a man is a 
fugitive from justice, it seems to me that you don't exercise 
the power of the pardon on his behalf. But I think we ought to 
be more honest in this committee and with the American people 
about the fact that there's a lot of big money, powerful 
interests that do get their cases heard and often favorably. 
That is the way it works. It's unfortunate, and then the issue 
is is it criminal? That means was it exchanged for money? Now 
we know that Mr. Quinn evidently believes his argument of why 
the pardon should have been granted, but we also know that he 
worked for Mr. Rich. The President doesn't work for Mr. Rich 
and the President made the judgment that he thought was right. 
And we disagree with it. There's an investigation by law 
enforcement to see if there's anything illegal, but I certainly 
have heard no evidence any stronger than those other examples I 
cited earlier. Those were not proud moments when big powerful 
interests get their way, but it doesn't mean they weren't 
right, and it doesn't mean that when people agree with them 
that it might not be for the best motives.
    Mr. Burton. We have a few more questions from a few more 
members, and we should be able to wrap this up. Counsel has 
some questions, so I understand that some of you need to take a 
little bit of a break. So if you like, we'll take a quick break 
and try to wrap this up in the next half hour.
    [Recess.]
    Mr. Burton. OK. We will resume the questioning with Mr. 
LaTourette. Mr. LaTourette, you're recognized for 5 minutes.
    Mr. LaTourette. Thank you. Mr. Chairman, I just observed 
during the recess, I was chatting with Mr. Quinn, and I think 
he's had such a good time, he'd like to become an exofficio 
member of the committee. He's indicated he's enjoyed our 
proceedings very much over the last couple of times. I would 
like to talk as advertised about one other relative of the 
first family, and that would be Roger Clinton and ask each of 
you in turn, beginning with you, Ms. Nolan, were you aware at 
the time the pardons were being considered at the White House 
in January of this year that the President's brother was 
advocating on behalf of certain individuals?
    Ms. Nolan. Again, Mr. LaTourette, I am not sure what I 
learned subsequently, and what I knew then. I think I probably 
was.
    Mr. LaTourette. You think you probably were before?
    Ms. Nolan. Yes.
    Mr. LaTourette. How about you, Mr. Lindsey.
    Mr. Lindsey. No, sir, I don't believe so.
    Mr. LaTourette. How about you, Mr. Podesta?
    Mr. Podesta. I believe I was aware that he had asked for a 
pardon, but I subsequently heard that it may have been for more 
than one, but I think I was aware he asked for one for a friend 
of his.
    Mr. LaTourette. Let me go back to some of the people we've 
already been talking about, and Ms. Nolan, since you seem to 
have recollection, were you aware that Roger Clinton was 
involved at all in the request made on behalf of Carlos 
Vignali?
    Ms. Nolan. No, I don't think I was.
    Mr. LaTourette. How about Glen Braswell?
    Ms. Nolan. No.
    Mr. LaTourette. How about a fellow by the name of Philip 
Young?
    Ms. Nolan. No.
    Mr. LaTourette. Mitchell Wood?
    Ms. Nolan. I have to say I don't even recognize those 
names. I am not aware that anyone was involved in them.
    Mr. LaTourette. Mr. Podesta, since you have some 
recollection, do you recall who it is that Mr. Roger Clinton 
might have been interested in?
    Mr. Podesta. No, but my recollection was that he had asked 
for a pardon for a friend of his and it was being denied.
    Mr. LaTourette. And that's the only----
    Mr. Podesta. Yes, I didn't know, and don't know that he was 
involved in any of those.
    Mr. LaTourette. OK. Well then, I guess we'll just throw it 
out there so we're all squared away. During any of the 
discussions that you had on the 16th, the 19th or anytime else 
during these waning days of the Clinton administration, was the 
fact that the President's brother was interested in advocating 
a position on behalf of anybody discussed in your presence and 
also the President's presence?
    Ms. Nolan.
    Ms. Nolan. I don't recall a discussion about it. I have 
some sense that I knew. But I don't remember discussing it with 
the President, particularly.
    Mr. LaTourette. OK. How about you, Mr. Lindsey, no?
    Mr. Lindsey. No. I had a discussion with the President 
about a pardon for Roger, but other than that, no.
    Mr. LaTourette. I'm specifically speaking about Roger 
looking for a pardon for somebody else. So you have no 
recollection of that?
    Mr. Lindsey. Right.
    Mr. LaTourette. How about you, Mr. Podesta?
    Mr. Podesta. I frankly don't remember who told me that he 
asked for a pardon for a friend of his, but when I heard about 
it was denied, I really didn't think much about it beyond that.
    Mr. LaTourette. Mr. Chairman, that concludes anything I was 
interested in. I thank the panel very much for their attention.
    Mr. Burton. Thank you, Mr. LaTourette.
    Mr. Shays.
    Mr. Shays. Ms. Nolan, you had a chance to look at the list. 
I'm sorry that during the break we still put you to work. How 
many names do you have on that list?
    Ms. Nolan. I didn't count it.
    Mr. Shays. Why don't you give us the names.
    Ms. Nolan. Six or seven.
    Mr. Shays. Why don't you give us the names. These were 
pardons that you have warned the President about that didn't 
seem to make the public's attention.
    Ms. Nolan. I don't mean to say they didn't make the 
public's attention. I don't think it got the same kind of 
attention that I was concerned that they would get.
    Mr. Shays. What were they?
    Ms. Nolan. William Borders, Henry Cisneros, John Deutch, 
Linda Jones, Jim Lake, Susan McDougal, Jack Williams.
    Mr. Shays. Thank you. I was most unfriendly thinking about 
the present, and I basically had this theory that I shared with 
no one that the President pardoned Marc Rich, so we wouldn't 
pay attention to the pardon of Susan McDougal. Cheryl Mills is 
a trustee of the library, I am told, and I am told that you, 
Mr. Lindsey, are a consultant to the library; is that correct?
    Mr. Lindsey. That is correct.
    Mr. Shays. What does a consultant do as it relates to the 
library?
    Mr. Lindsey. I advise with respect to all sorts of 
decisions. I am one of the main contacts with the architects, 
with the exhibit designers, I am involved in discussions with 
the President--the library is not only a library. It's a 
library foundation, and the library foundation serves more than 
one purpose. The first purpose is to actually build a library 
which we then give to the Federal Government and the Federal 
Government maintains, but the library foundation is also the 
entity through which the President engages in sort of his 
public policy post-election activity. So, for example, in 
addition to building a library and giving it to the government, 
William Jefferson Clinton Presidential Foundation is involved 
in and will be involved in all sorts of public policy 
activities that the former President will be involved with. And 
I have been involved in discussions with what those should be 
and where we're going in that direction.
    Mr. Shays. Are you still working with the President? Since 
he is no longer President, you're still under his employ 
through the library or also through his private office.
    Mr. Lindsey. Well, I also handle the legal matters in the 
transition office, so for example, I'm involved in continuing 
e-mail reconstruction issues, I'm also the President's 
representative of the National Archives. So I'm involved in 
requests to the Archives for information.
    Mr. Shays. I mean, I gather that like Cheryl Mills, you are 
a trusted friend, and in your case, an employee of the 
President?
    Mr. Lindsey. Again, I'm an employee, I'm a consultant, not 
an employee.
    Mr. Shays. I understand that.
    Mr. Lindsey. For tax purposes, of the foundation. The 
President is not a member of the board of the foundation.
    Mr. Shays. I think it's fair to say you're a trusted 
friend, someone he respects. So with that I would like to ask--
I know that Mr. LaTourette asked if you told the President that 
Hugh Rodham had called you on behalf Carlos Vignali, and I 
believe you said you didn't tell the President.
    Mr. Lindsey. I said I have no recollection of telling him. 
I think I would have told him in one of the meetings that Ms. 
Nolan or Mr. Podesta was present, because I think that's the 
only time I ever discussed Carlos Vignali with the President at 
all. And if they, neither remember a reference to Hugh Rodham, 
I would probably accept their judgment that I probably didn't, 
but I frankly didn't know.
    Mr. Shays. It's so hard for me to imagine that a trusted 
friend and advisor to the President wouldn't have warned the 
President that a family web was involved in a pardon that he 
may ultimately agree to. It just strikes me that's like ethics 
101.
    Mr. Lindsey. It's interesting, after Mr. Rodham brought Mr. 
Vignali's application to my attention, we spent a lot of time 
looking at the merits of the application. You know, I don't 
know if a Congressman had called me and brought an application 
to my attention, I would necessarily have mentioned it to the 
President.
    Mr. Shays. But in the case of Hugh Rodham he was paid.
    Mr. Lindsey. I did not know that at the time, sir.
    Mr. Shays. Now in the case of new stories, I'm kind of 
hoping that the stories kind of end so we can kind of exit this 
sordid affair, and we just now have learned that Tony Rodham's 
role with Edgar Allen Gregory, Jr., and Vonna Jo Gregory and 
the pardon involved there, these are business associates that 
he has. And I would like to know if you knew and if the 
President knew that Tony Rodham was advocating for these two 
individuals.
    Mr. Lindsey. Yes, I knew and I believe the President knew.
    Mr. Shays. Did you speak to Tony Rodham about this?
    Mr. Lindsey. Yes. Tony Rodham called me mostly concerned 
about the fact that the application had been pending over in 
the Department of Justice and asked me whether I could try to 
move it along.
    Mr. Shays. And you were aware from that conversation that 
he had spoken to the President about it?
    Mr. Lindsey. I don't know if it was that conversation. I 
think I was aware at some point in the process that Tony had 
spoken to the President about it.
    Mr. Shays. Did the President discuss the Gregory pardon 
with you?
    Mr. Lindsey. Yes.
    Mr. Shays. OK. And what did he say?
    Mr. Lindsey. He indicated to me, well, he indicated to me 
that he understood that the Gregorys were unable to do business 
in certain States, and that competitors of the Gregorys were 
raising their conviction some 17, 18 years ago as a basis as to 
why various States shouldn't do business with them.
    Mr. Burton. I'll yield the gentleman my 5 minutes so he can 
conclude.
    Mr. Lindsey. He thought that was not fair. I think the 
agriculture commissioner from Florida may have actually brought 
it also to his attention, or at least we knew that the 
agriculture commissioner in Florida----
    Mr. Shays. Bottom line, they were involved in two banks 
that went under and they gave loans to their friends. There 
were a lot of people that did that, but they didn't get 
pardoned here.
    Mr. Lindsey. Mr. Shays, this was again in 1982. The 
President's belief on pardons is that if a person makes a 
mistake, does something illegal, wrong, if they have to pay the 
price for that, if they have to go to jail or they go on 
probation and then they live a good life from that point 
forward, that they should not be denied the restoration of 
their rights because of that. He certainly would believe that a 
person 17 years afterwards shouldn't have a conviction, be used 
to keep them from making a living. And therefore, believed that 
if, in fact, they had lived a good life, if they had not been 
in additional trouble from that point----
    Mr. Shays. I hear you, Mr. Lindsey. It's fortuitous that 
you mentioned the term 17 years, there are parallels. But the 
fact is the Justice Department objected to this pardon; isn't 
that correct?
    Mr. Lindsey. Yes.
    Mr. Shays. Now, what I just want to wrestle with a little 
bit is that the President knew in the case of these two 
individuals is they had a financial relationship with a family 
member.
    Mr. Lindsey. I didn't tell you that, sir, and I don't know 
that to be a fact.
    Mr. Shays. You didn't know that they did real estate 
transactions? This is unknown to you, unknown to the President?
    Mr. Lindsey. Again, I don't know what was known to the 
President. It was unknown to me until I read it in the paper 
this morning.
    Mr. Shays. So basically, what we have in the books are two 
family members that advocated for pardons got them accepted, 
and they had a financial relationship. One got a payment, 
others actually had business dealings with. Doesn't that just 
strike you as just being a bit unethical, that you know the 
family shouldn't be involved in that way?
    Mr. Lindsey. Well, again, I am opposed to success fees or 
contingency fees in criminal matters, including pardon 
applications. I am not sure where I come out on Mr. Rodham, who 
is an attorney, as to whether or not he should be allowed, be 
able to represent people before the government, including the 
White House. With respect to Mr. Rodham, I knew--Tony Rodham, 
excuse me, I knew he was a friend of the Gregorys, I did not 
know of the financial relationship. I did not believe that 
those factors were considerations. There were many other, there 
were several other people, I don't know many other--there were 
several other people, for example, Hugh Rodham expressed 
interest in that we didn't grant. And the fact is the basis I 
think is that some we determined were meritorious, and others 
we didn't on the merits, not on the relationship.
    Mr. Shays. My time is ending. I just want to thank all four 
of you. Mr. Quinn, I would thank you again for appearing a 
second time. I am going to make a parting comment and say that 
I don't think it's possible for you to have served Marc Rich 
faithfully and the President faithfully at the same time. And 
that's the reason you're here, in my judgment.
    Mr. Burton. The gentleman yields back his time?
    Mr. Shays. I yield back.
    Mr. Burton. Is there further discussion?
    Mr. Cummings.
    Mr. Cummings. I wasn't going to say anything, but with what 
Mr. Shays just said, I got to say something. And I want to give 
you an opportunity, Mr. Quinn, to respond to if you want to 
respond to what was just said. Again, I have said it many 
times, I get tired in this committee of people's 
representations being tarnished, and then there's no way for 
them to get their reputation back. We have one life to live. 
This is no dress rehearsal. This so happens to be that life. 
Now if you want to respond to what Mr. Shays just said you may, 
but other than that I have some questions.
    Mr. Quinn. We went over this a few weeks ago.
    Mr. Cummings. I can't hear you. I'm sorry.
    Mr. Quinn. I'm sorry, it's off. We did go over this a few 
weeks ago, I think Mr. Shays is off base. I don't think that in 
this context, anyone failed to understand that I had a client 
and I was acting as an advocate.
    Mr. Cummings. All right. Let me ask you this. I listened to 
the question, listened to the testimony, the questions of Ms. 
Eleanor Holmes Norton about a half hour ago, and she said 
something certainly that I must revisit, and when she talked 
about Eric Holder, and I also want to add to the name, Cheryl 
Mills. One of the things that happened with Mr. Holder is he 
has had an impeccable reputation with the Congress, and he has 
been just a wonderful public servant. And it's so interesting 
that as he leaves, left office, that all of this seemed to come 
falling down around him. And you, in answer to Mr. Quinn, to 
answer to something that was said by Congresswoman Eleanor 
Holmes Norton, she said it seems like Mr. Holder seems to be 
the fall guy or is becoming the fall guy. You disagree with 
that; is that right?
    Mr. Quinn. I certainly disagree. Well, that shouldn't be 
the case.
    Mr. Cummings. Do you think Mr. Holder acted properly in 
this instance with regard to this? And I will ask the same 
thing of you, Ms. Nolan.
    Mr. Quinn. Congressman, I think we've heard an awful lot 
about circumstances which, in retrospect, all of us regret. But 
I don't think that makes him or any of these people sitting 
here with me blameworthy. This process would have worked an 
awful lot better. We know that. A lot of things went wrong. But 
a case was presented on the merits. I happen to believe that 
the President decided this for reasons with which everybody in 
the Congress may disagree, but which were wholly appropriate 
for him to base his decision on.
    Mr. Cummings. Ms. Nolan.
    Ms. Nolan. I have a great deal of respect for Mr. Holder. I 
worked very closely with him when I was at the Department of 
Justice, and then when I was at the White House. I think he, 
like I and others in this, because of press, of affairs and the 
last minute look at this, again didn't fully examine the 
matter. But I think that is, as he's acknowledged, unfortunate 
but understandable. And I think it would be ridiculous and I 
don't believe it, in fact, will be true that his reputation is 
tarnished in the end. I think he, as many are, is getting a 
little bump right now. But he's an outstanding person, an 
outstanding lawyer, and I think this country knows that and 
will know that again.
    Mr. Cummings. I agree with every syllable you just said. 
Let me just leave you with this. You know when people tune into 
this they see parts of it, but one of the things is clear and I 
just want to go back to this, to you, Mr. Podesta, to you, Mr. 
Lindsey, and to you, Ms. Nolan, I just want to make sure the 
record is clear, and for the person who just tuned in that 
during these discussions with the President, there was no--to 
your knowledge, there was no mention of contributions made by 
Ms. Rich to the library or to the First Lady or to the 
President of the DNC. I think I got everything there.
    Mr. Podesta. That is correct.
    Mr. Cummings. Is that correct, Mr. Lindsey?
    Mr. Lindsey. Yes, sir.
    Ms. Nolan. Yes, absolutely no mention.
    Mr. Cummings. And you would consider yourselves some of his 
closest advisors with regard to this situation, that is, the 
pardons?
    Ms. Nolan. Yes.
    Mr. Cummings. That is all.
    Mr. Burton. Thank you Mr. Cummings.
    Mr. Waxman.
    Mr. Waxman. If I might make a concluding comment as well, 
just to followup on what Mr. Cummings had to say. When you have 
a real confusing situation as it appears the last days of the 
Clinton administration came to and a breakdown of the system, 
where ideally the Justice Department, the Pardon Office, the 
prosecutors, everybody would have had their opportunity to 
weigh in and influence the President's decision, when that 
broke down it was unfortunate. But I would think we would be 
doing a great deal of harm to people who would think about 
working for the government of the United States to have to have 
their reputations tarnished unfairly.
    I have known Mr. Holder as well from the work on this 
committee and I think he's a man of great integrity. I think 
the four people before us are people of great integrity. And I 
don't think that they should be tarnished with a brush because 
people disagree with the judgment that the President made. I 
also think that Cheryl Mills' name has been mentioned, and just 
because her name has been mentioned that she was at the White 
House, no one should think there's anything wrong with anything 
she did because I haven't heard anything that would lead me to 
believe that she did anything that anyone can criticize. So 
let's keep all that in perspective but if we do have people's 
reputations tarnished easily, which I have seen happen in this 
committee and Congress in the past, which was easy for Members 
of Congress to throw smear bombs, let's realize that what we 
really do is harm the whole idea of public service. We ought to 
encourage people to come in and serve the interests of the 
Nation.
    They may make mistakes, but who hasn't made a mistake? And 
if there are mistakes that are made, let's understand the 
mistakes aren't made by everybody involved, but only by some. 
There are some mistakes that are made inadvertently or just in 
the context. We can look at an isolated issue of these pardons, 
but so much is going on at the same time that all of us think 
what would happen if we had to be judged based on what was said 
or done by us at one moment in time, which wasn't of 
consequence to us at that moment when so many other things were 
far more important, it would be so unfair and we ought to keep 
all of that in perspective.
    And the other thing I want to say, Mr. Chairman, is we've 
been here with this panel for over 6 hours. We have another 
panel to follow, and I know we agreed that the staff can ask 
questions a half hour each side, that means another hour for 
this panel. The members have taken four or five rounds, I would 
like to request that the counsel on both sides submit questions 
in writing to the four members of the panel that are before us 
right now. If they're not satisfied with their responses, we 
can always bring them back in, but I can't imagine that there's 
anything that anybody has to ask any of these four people that 
has not been asked at least four or five times already.
    So I'd like to make that request to you so that we can get 
on to the last panel. It's already after 7 p.m. If we have to 
take the same amount of time with the next panel that we took 
with this panel, let's see that would put us at 1 a.m. So I 
think we ought not to unfairly tarnish peoples' reputations nor 
should we engage in a form of kidnapping by holding them 
hostage. So I would hope that we can move expeditiously.
    Mr. Burton. We will try to expedite the counsels' questions 
as quickly as possible.
    Mr. Wilson.
    Mr. Waxman. My request is being denied?
    Mr. Burton. We'll move expeditiously.
    Mr. Wilson. I don't want to research the kidnapping 
statutes here. That will be my break to you all, and I will go 
as quickly as possible, and my role is always the housekeeping 
role, to try to establish a few things that are not clear on 
the record.
    First of all, Ms. Nolan, did you have a recommendation on 
the Vignali pardon matter?
    Ms. Nolan. You know, Mr. Wilson, I was not enthusiastic 
about the Vignali pardon, but I really can't remember whether 
in the end was opposed or sort of persuaded that given the 
large support he had it was tolerable.
    Mr. Wilson. Did you give any advice to the President on the 
Vignali matter?
    Ms. Nolan. I know we discussed it, but I really don't know 
at what point we discussed it and at what point my discussions 
were with my staff.
    Mr. Wilson. Was there any written recommendation at any 
point on the Vignali matter?
    Ms. Nolan. Normally what went in to the President was a 
chart that would contain the recommended pardons. On some 
occasion, we sent them a chart without a recommendation for 
pardon he wanted to consider. That's what I don't remember, 
whether Vignali went on a chart in which we were making a 
recommendation. I honestly, I just don't remember. It wasn't a 
pardon I was particularly involved with.
    Mr. Wilson. Fair enough. The Justice Department did have a 
recommendation, did it not? It's my understanding they 
recommended against the pardon.
    Ms. Nolan. I believe they opposed it. Yes.
    Mr. Wilson. What factors did you take from the Vignali 
matter that led you to reject their recommendation?
    Ms. Nolan. Mr. Wilson, I didn't work closely on that 
matter. I don't have much memory of it other than I remember 
the discussions about what U.S. attorney did or did not support 
the bishop or archbishop of Los Angeles. I do remember those 
discussion so I remember I was aware of it but it was not one--
of course, most of these were not matters that I looked at 
directly. I just got reports from staff. I know Mr. Lindsey had 
some conversation about it. I didn't with anyone other than my 
staff.
    Mr. Wilson. If I can, I'll turn to Mr. Lindsey. Mr. 
Lindsey, did you have a recommendation on the Vignali matter?
    Mr. Lindsey. Again, I originally was probably negative. 
After the call from the--first of all, it wasn't a pardon, it 
was a commutation. But after I received a call from the sheriff 
of Los Angeles and our office reached out to the U.S. attorney 
in central district of California and Los Angeles, I decided 
that given the community support and their position that into 
the county in which he would go to live, that they would be 
aware of the crime situation, if you will, in their community, 
and if they were not concerned about him coming back to their 
community, that I thought it was an appropriate commutation.
    Mr. Wilson. Did you communicate that to the President?
    Mr. Lindsey. Yes, sir.
    Mr. Burton. Let me ask a question. Did you think to 
possibly contact the prosecuting attorneys who prosecuted the 
case in Minnesota?
    Mr. Lindsey. We said the opinion of the U.S. attorney from 
Minnesota. He was opposed to it. So we knew the opinion of the 
U.S. attorney in Minnesota. We knew we had looked at--I was 
aware of amount that was involved. It was $25,000.
    I was aware of what, what his role was, if you will. I 
mean, if you'd listen to the chairman now, this is an 800-pound 
conspiracy going over a number of years. The fact of the matter 
is, the evidence and the finding of the court was that he was 
involved for, I think, less than 6 months; that he was 
responsible for 5 to 15 kilos, the 11 to 33 pounds; that he was 
not an organizing, leader/manager of the conspiracy. All of 
that we took into consideration.
    Yes, we took into consideration the recommendation of the 
U.S. attorney. We also took into consideration the 
recommendation of the sheriff of Los Angeles, the position of 
the U.S. attorney in Los Angeles, the position of Cardinal 
Mahoney.
    Mr. Burton. We've heard that before, but the fact is, you 
did not talk to any of the people who were involved in the case 
up there. They have been very, very forthcoming, and their 
sequence of events and what took place is not consistent with 
what you have just told us.
    Mr. Lindsey. Well, the pardon attorney had spoken to them 
and gave us a written report that included their position on 
this matter.
    Mr. Wilson. Turning to the Braswell matter, Ms. Nolan, did 
you have a recommendation of the President on the Braswell 
matter?
    Ms. Nolan. Yes, I believe I recommended in favor of 
Braswell.
    Mr. Wilson. You did, Mr. Lindsey did you have a 
recommendation?
    Mr. Lindsey. Based upon what I knew at the time, yes, I 
recommended in favor of it.
    Mr. Wilson. OK. And, Ms. Nolan, what principal factors--and 
if you could be brief, what principal factors did you have to 
recommend in favor of the Braswell petition?
    Ms. Nolan. What I remember about it, Mr. Wilson, is that it 
looked like the kind of situation that the President was 
looking for quite a long time ago, 15, somewhere between 15 and 
20 years, I think. A crime with no apparent--to us at the 
time--further activity, criminal activity of any sort. So it 
looked like the kind of pardon that the President was looking 
to do.
    Mr. Wilson. Did you have a recommendation on the Gregory 
petitions?
    Ms. Nolan. Those weren't done, those were done earlier, the 
Gregory.
    Mr. Wilson. I believe they were done earlier.
    Ms. Nolan. Petitions.
    Mr. Wilson. In early 2000.
    Ms. Nolan. I don't remember what my recommendation was.
    Mr. Wilson. Mr. Lindsey, do you know whether you had a 
recommendation on the Gregory petitions?
    Mr. Lindsey. Yes, if I believed they were being financially 
hurt because of a conviction 17, 18 years ago and that they had 
done nothing subsequent to be in trouble with the law, that 
they were deserving of a pardon.
    Mr. Wilson. Now, Ms. Nolan, on the Braswell matter, how 
would you be aware that there was no ongoing criminal activity 
or ongoing investigation of Braswell if you didn't check with 
the Justice Department?
    Ms. Nolan. Well, I mean, we did; I think that my staff did 
do an NCIC check. I don't know--again with these matters what I 
would know is what was brought to me, the information that was 
brought to me by my staff. I was aware of the petition the last 
week, but I recollected the name and believed that we had 
already had it in process. So I don't think I focused on 
whether we had gotten full information from the Justice 
Department.
    Mr. Wilson. So to your knowledge there was no check with 
the Department of Justice; it was simply your staff handling 
the matter internally?
    Ms. Nolan. Well, the staff would check with the Department 
of Justice to do an NCIC check.
    Mr. Wilson. So in this case the staff had the Department of 
Justice do the NCIC?
    Ms. Nolan. Yes, that's correct.
    Mr. Wilson. And you're aware that did happen?
    Ms. Nolan. I believe it did, yes.
    Mr. Wilson. If we could get the chronology for the late 
night of the 19th and the early morning of the 20th, when did 
you first learn, and I'll go through this quickly so--I just 
want to get a very brief answer to each question--but when did 
you first learn--at what time did you first learn that the Rich 
pardon was not a dead issue?
    Ms. Nolan. Well, I had a conversation, I think--as I 
testified earlier, I was told that Mr. Quinn said Mr. Holder 
still supported it.
    Mr. Wilson. I'm trying to get the time.
    Ms. Nolan. Well, according to Mr. Holder's telephone 
records, it was 6:38 p.m. that I called him.
    Mr. Wilson. OK.
    Ms. Nolan. And it was right about that time, I mean, I 
picked up the phone and called him. We went to see the 
President shortly thereafter, somewhere between 7 and 8 p.m.
    Mr. Wilson. So it's fair to say that somewhere between 7 
and 8 you realized the Rich pardon was not a dead issue and 
there might be something more to be done?
    Ms. Nolan. That's correct.
    Mr. Wilson. That's fair.
    And after that, what was your next step?
    Ms. Nolan. My staff, one of my associate counsels, I'm not 
sure who, contacted the Department of Justice to get an NCIC 
check.
    Mr. Wilson. OK, and it's my understanding the result of 
that NCIC check, among other things, was the information 
provided to you that there was an issue with arms-dealing; is 
that correct?
    Ms. Nolan. That's the information I got somewhere between 1 
and 2 a.m., that's right.
    Mr. Wilson. And you called Mr. Quinn next. At what time did 
you call Mr. Quinn?
    Ms. Nolan. Somewhere in that timeframe of between 1 and 2. 
I'm not sure. I'm putting it in that timeframe because I think 
that I called the President at 2:30. So I'm just sort of 
backing that up.
    Mr. Wilson. So you had your conversation with Mr. Quinn, 
and I know you did explain that earlier. I won't ask you about 
that. But was that your last step prior to the final 
conversation with the President about the Rich matter?
    Ms. Nolan. That's correct.
    Mr. Wilson. And you had a conversation with the President 
about 2:30; is that correct?
    Ms. Nolan. That's correct.
    Mr. Wilson. And what did you tell him?
    Ms. Nolan. I told him that the NCIC check revealed this 
arms-trading. It did list Mr. Rich as a fugitive; that----
    Mr. Wilson. Can I just stop you there.
    Did he reject that? I know we've had Mr. Quinn tell us that 
he had explained to people that Mr. Rich wasn't a fugitive, and 
Mr. Lindsey had quibbled with the technical aspect of 
fugitivity, but did the President believe Mr. Rich was a 
fugitive?
    Ms. Nolan. I don't know the answer to that.
    Mr. Wilson. Did you ask him?
    Ms. Nolan. I don't know whether I asked him. I don't think 
I asked him. I mean, I think we had a discussion about it 
doesn't matter whether he's a fugitive or not in terms of my 
view of--I don't know that it was critical to the President.
    Mr. Wilson. Did you have a discussion where it became clear 
whether it was critical to the President? Did he for example 
say, I don't care that he's a fugitive, or I don't believe that 
he is technically a fugitive? Did he provide some feedback to 
you?
    Ms. Nolan. I don't believe he said anything like that.
    Mr. Wilson. OK. Did he know that you were doing an NCIC 
check?
    Ms. Nolan. Yes.
    Mr. Wilson. He did. So when we left--well, I'm not sure we 
had that step then because before you--did you tell him earlier 
in the evening that you were going to do an NCIC check?
    Ms. Nolan. I don't know. I don't think so.
    Mr. Wilson. When did you tell the President you were going 
to do an NCIC?
    Ms. Nolan. I'm sorry. He knew we did it when I called him 
at 2:30 a.m.; he knew that's what we were doing with everybody. 
I don't know that we had a specific discussion about Mr. Rich, 
but he understood that part of our process was to do an NCIC 
check.
    Mr. Wilson. OK. And what did the President say about the 
arms-trading matter, if anything?
    Ms. Nolan. With respect to both of those matters, that's 
when I said, you know, what we have is Jack Quinn's word; 
that's all we have at this hour. And he said, take Mr. Quinn's 
word, or take Jack's word.
    Mr. Wilson. So he was the one that signed off on Mr. Quinn 
as the final authority on that matter?
    Ms. Nolan. I suppose that's right.
    Mr. Wilson. OK. And what happened next?
    Mr. Burton. Did he in any way indicate that you ought to 
call the Justice Department back and find out just how 
extensive that problem was with the arms-trading?
    Ms. Nolan. No, sir.
    Mr. Wilson. What happened next, then, if anything?
    Ms. Nolan. About an hour and a half later, about 4 I got to 
go home.
    Mr. Wilson. OK. But I guess we can do it a little more 
slowly then.
    Ms. Nolan. I don't think anything--nothing else happened.
    Mr. Wilson. But did this conversation between yourself and 
the President get translated to the ultimate executive grant of 
clemency? Did you tell somebody after you met with the 
President about the discussion?
    Ms. Nolan. Several of my staff lawyers were in the office 
with me when I talked with the President, so they knew about 
the conversation I'd had.
    Mr. Wilson. And who was with you at the time?
    Ms. Nolan. Meredith Cabe and Eric Angel. And Cheryl Mills 
was there--well, had gone out to dinner; she was coming to stay 
at my house.
    Mr. Wilson. OK. So she was with you during--was she with 
you during the telephone conversation you had with Mr. Quinn?
    Ms. Nolan. Yeah, she was in my office; and I think she 
talked to Mr. Quinn also.
    Mr. Wilson. At the same time that you were speaking with 
Mr. Quinn?
    Ms. Nolan. I know I spoke with Mr. Quinn by myself. I don't 
know if we talked on the phone together or not.
    Mr. Wilson. OK.
    At any time during that evening did either yourself or your 
staff or Ms. Mills or the President suggest that you might 
reach out to any of the intelligence agencies that would be 
able to brief you on Mr. Rich?
    Ms. Nolan. No.
    Mr. Wilson. I guess that can't go much further than that. 
It just wasn't something that was even entertained in your 
mind?
    Ms. Nolan. No.
    Mr. Wilson. The only reason I ask is because Mr. Rich had 
been living out of the United States for 17 years. He was a 
very well-known man, who had traded in metals and various other 
natural resources all over the world, dealings with--publicly 
reported dealings with practically every enemy we'd had over 
the last 20 years.
    It's hard for us to understand that somebody wouldn't 
think, we could get such and such an intelligence resource on 
the telephone right now and see if they have anything at all to 
offer us. That just didn't crop up in the Rich situation?
    Ms. Nolan. No.
    Mr. Wilson. Does anybody on the panel know how many times 
Prime Minister--former Prime Minister Barak actually called the 
President? Mr. Podesta.
    Mr. Podesta. Are you referring to how many times he called 
him or how many times he called and talked about the Rich 
matter? I think that the President talked to Mr. Barak more 
than the combined number of phone calls of all other foreign 
leaders during the year 2000.
    Mr. Wilson. That's good distinction. I'm sorry for that. 
The number of times they discussed the Rich pardon.
    Mr. Podesta. I think two or three; I'm not precise about 
that.
    Mr. Wilson. How do you know that?
    Mr. Podesta. Because I was involved in the discussions with 
Mr. Berger and with the President and the others, Mr. Ross and 
the others about those phone calls generally, which obviously 
which were centered on the Middle East peace process. But when 
Pollard or the Rich matter came up, the President would brief 
us on that; and I think that it came up two or three times. I'm 
not sure.
    Mr. Wilson. Does anybody?
    Mr. Podesta. Prior to January 19th, it did come up. I'm 
certain that it came up prior to January 19th. I don't know the 
first time it came up, and I don't know--I think it may have 
been three times that he raised it.
    Mr. Wilson. I know that because I've seen that in the 
newspapers, but there have also been reports from Israel that 
it was only one time.
    Mr. Podesta. There was only one time that he raised it? I 
don't believe that's correct.
    Mr. Wilson. We're just trying to resolve the discrepancy.
    Mr. Podesta. I just don't believe that's correct. I think 
that's--again, other people may have a recollection of that, 
but I believe he raised it--I'm certain he raised it before 
January 19th, at least in another conversation, and he may have 
raised it in two other conversations.
    Mr. Lindsey. If I could, the President indicated on the 
19th, I believe, that was the third time at least; I don't know 
if it was third or fourth, but maybe third time at least that 
Barak had mentioned it to him.
    Mr. Wilson. He told you that?
    Mr. Lindsey. In our meeting when he said Barak had raised 
it in his conversation that day he indicated that was, I think, 
the third time it had been raised by Mr. Barak.
    Mr. Wilson. Fair enough.
    Ms. Nolan. Can I just say, I thought he said ``fourth.''
    Mr. Lindsey. I thought it was three or four. It could have 
been four.
    Mr. Wilson. Ms. Nolan, earlier you mentioned that you first 
learned about the Rich pardon matter in mid-January; is that 
correct?
    Ms. Nolan. No. I agree with Mr. Quinn that he called me on 
December 11th to tell me he was submitting a pardon 
application. I think it was after Christmas, so end of December 
that I looked--you know, had a chance to look at it.
    Mr. Wilson. OK. Ms. Nolan, did you have any contacts with 
Beth Dozoretz regarding the Rich pardon?
    Ms. Nolan. No.
    Mr. Wilson. Mr. Lindsey, did you have any contacts with 
Beth Dozoretz regarding the Rich pardon?
    Mr. Lindsey. Yes. As I testified earlier, she called me one 
time and asked about two pardons.
    Mr. Wilson. And that was the one time?
    Mr. Lindsey. That's the one time.
    Mr. Wilson. Mr. Podesta, did you have any?
    Mr. Podesta. No.
    Mr. Wilson. OK. Well, Ms. Nolan, are you aware of any 
contacts between Beth Dozoretz and the President regarding the 
Rich pardon?
    Ms. Nolan. None.
    Mr. Wilson. Mr. Lindsey.
    Mr. Lindsey. Other than what I've read in Jack's e-mails, 
no. I mean, I have no direct knowledge of any.
    Mr. Wilson. And those from your subsequent reading?
    Mr. Lindsey. Right, exactly.
    Mr. Wilson. Fair enough.
    Mr. Podesta.
    Mr. Podesta. The same answer as Mr. Lindsey.
    Mr. Wilson. Mr. Quinn, who suggested that Peter Kadzik be 
hired to work on the Rich matter?
    Mr. Quinn. Well, Mr. Kadzik was at a firm that, as I 
understand it----
    Mr. Wilson. Had done work for a number of years, but I 
think his first billing on the Rich matter was in November of--
--
    Mr. Quinn. Right, but he's a partner of Michael Green, who 
was actively involved, and I believe it was Mike who suggested 
that he get involved.
    Mr. Wilson. And is it your understanding that his first 
involvement was in November 2000 Quinn on the Rich matter?
    Mr. Quinn. On the pardon, I don't know what past 
involvement he may have had in Rich matters, but I think that's 
basically right in terms of the pardon process.
    Mr. Wilson. Why was Mr. Kadzik brought on to work on this 
matter?
    Mr. Quinn. Again, Mr. Green suggested it would be a good 
idea to get him involved, that he was well regarded, trusted by 
Mr. Podesta, and that he could be a useful person to convey our 
arguments to Mr. Podesta.
    Mr. Wilson. Is it fair to characterize then, what you have 
said, he was hired because of his access to and friendship with 
Mr. Podesta?
    Mr. Quinn. That's not what I said.
    Mr. Wilson. What I said, is it fair to characterize what 
you said as that? That's why I mentioned----
    Mr. Quinn. My impression was that he was being brought in 
because of the high regard in which Mr. Podesta held him.
    Mr. Wilson. I'm not sure if I'm quick enough to distinguish 
between those two things, but it was because of his 
relationship with Mr. Podesta, correct?
    Mr. Quinn. Again, it was Mr. Green's suggestion about--I'm 
not going to try to divine what he was thinking.
    Mr. Wilson. Right.
    Mr. Quinn. But I am not going to quibble with your own 
right to characterize it as you see fit.
    Mr. Wilson. On January 6, Mr. Kadzik billed time for a 
conference with you. Was that an in-person meeting?
    Mr. Quinn. No. I don't believe I ever discussed this matter 
with Mr. Kadzik in person. This----
    Mr. Wilson. Let me actually----
    Mr. Quinn. What day of this week is this?
    Mr. Wilson. I misspoke in asking you the question. But what 
we have is a billing record that indicates Mr. Kadzik billed 
time for a conference with Mr. Podesta. Did, in fact, Mr. 
Kadzik meet with you on January 6 about the Rich matter?
    Mr. Podesta. If you refer to my opening statement, yes, he 
did, which I've already testified to.
    Mr. Wilson. Right.
    Did--one of the things that came up in the e-mails that we 
reviewed a while back was that there's an indication that you 
told Mr. Kadzik that you thought Mr. Rich and his lawyers, 
``benefited from being under the press radar.'' Did you ever 
tell Mr. Kadzik anything to that effect?
    Mr. Podesta. No, I don't believe I did.
    Mr. Wilson. Did you ever discuss with Mr. Kadzik any 
benefit obtained from the matter not being prominent or not 
being in the public eye?
    Mr. Podesta. Well, I don't remember precisely the 
conversation. There was a brief meeting in my office that 
occurred, but I was--certainly by then I was--had consulted, I 
believe, with Ms. Nolan. I was opposed to the pardon; I told 
Mr. Kadzik I was opposed to the pardon. I wasn't trying to give 
them any advice about it.
    I don't know what Mr. Kadzik may have said to me that 
transpired in that conversation which led to his reporting that 
back. But I don't remember saying that, and whether he raised 
it with me or not I just do not recall.
    Mr. Wilson. OK. And then, not to do this backward, but that 
seems to indicate you do not have a recollection that didn't 
happen. So it might have happened. You just don't recall; is 
that correct?
    Mr. Podesta. All I'm saying to you is--well, I think the 
answer to that is, I don't recall. But I was certainly not 
trying to give them advice. Again, this is a third-hand e-mail, 
and I don't think I was giving him advice at this point. I told 
Mr. Kadzik that I didn't think it was warranted, and I opposed 
it.
    Mr. Wilson. Just if we could put up exhibit No. 62 on the 
screen, and I think you have it in front of you. It is an e-
mail dated January 9, 3 days after the conversation that we 
were just talking about.
    [Exhibit 62 follows:]

    [GRAPHIC] [TIFF OMITTED] T5593.562
    
    Mr. Podesta. What number is that?
    Mr. Wilson. It's No. 62, if you could take a quick look at 
that.
    I don't think we'll be able to go any further. This is not 
an e-mail that you were a part of, but if you could just take a 
quick look at that. And at the top there's this very short, I 
think we've ``benefited from being under the press radar. 
Podesta said as much.'' I think we've covered fully it, but 
there's nothing here----
    Mr. Podesta. These are from two individuals I haven't 
spoken to.
    Mr. Wilson. I understand that. OK, fair enough.
    If you were opposed to the pardon, Mr. Podesta, why didn't 
you direct people to at least obtain input from the Southern 
District of New York?
    Mr. Podesta. Frankly, Mr. Wilson, I thought the matter was 
dead, and I thought with all of us being opposed to it that no 
work, no real work, needed to be done on it because I thought 
it was a dead matter.
    As I said earlier, I think that we would have benefited 
from having done that, but we didn't, and I take responsibility 
for that.
    Mr. Wilson. Did Mr. Lindsey, did you have any conversations 
interaction with a rock musician, Don Henley, about obtaining a 
pardon for somebody?
    Mr. Lindsey. I don't know if I ever spoke to him or not. I 
know he called my office a number of times; and I think I 
ultimately spoke to an assistant of his, but I don't believe I 
ever spoke to Don Henley.
    Mr. Wilson. Do you know the name of the individual for whom 
he was requesting a pardon?
    Mr. Lindsey. Again, it seems to me it was a commutation, 
not a pardon. I do not remember the name. It was a man who was 
involved in gambling in California and had--was now very active 
in certain--Gambling Anonymous and trying to help other people 
break that, and but I don't recall the name.
    Mr. Wilson. In this matter do you know whether the Justice 
Department provided a recommendation regarding this particular 
commutation request?
    Mr. Lindsey. I do not. I do not.
    Mr. Wilson. Ms. Nolan, are you familiar with the matter 
that Mr. Lindsey's talking about?
    Ms. Nolan. I don't. This is not to say I wasn't familiar 
with it at the time, but I don't. It doesn't ring any bells.
    Mr. Wilson. Mr. Podesta.
    Mr. Podesta. I've spoken to Mr. Henley about environmental 
matters, but I don't think I ever spoke to him about a pardon.
    Mr. Burton. I just want to make sure I've got all this 
straight here.
    This memo that we had before us, this No. 62, where--it's 
from Jack Quinn, sent Tuesday, January 9th, to Robert Fink. It 
says, ``I think we have benefited from being under the press 
radar. Podesta said as much.''
    You do not remember saying anything like that?
    Mr. Podesta. I don't remember having this conversation. I 
certainly didn't speak to these people. I don't know what it's 
in reference to, and I don't remember doing it.
    I know that in the meeting that I had with Mr. Kadzik on 
the 6th that I opposed this pardon, and I was certainly 
consistent in that; and I was not trying to give them any 
pointers, so I don't know what this is in reference to.
    Mr. Burton. Well, it's a significant statement, and if you 
didn't say it, that's fine, but this is from Mr. Quinn.
    Mr. Quinn, do you remember him saying something like that?
    Mr. Quinn. I'm confident I wrote this e-mail, but I'm also 
confident that I never spoke to Mr. Podesta about this.
    Mr. Burton. Where did you get this information, ``I think 
we've benefited from being under press radar. Podesta said as 
much.''
    What did Mr. Podesta say that made you think that?
    Mr. Quinn. I had a report from Mr. Green, who in turn 
talked to Mr. Kadzik, and that was what I understood to have 
been reported.
    Mr. Burton. So it was third-hand.
    Mr. Quinn. Yes, sir.
    Mr. Burton. I think our time's expired.
    Counsel, who are we recognizing?
    Mr. Schiliro. I don't have any questions for the panel, 
which I'm sure will disappoint you, but Mr. Kanjorski does, so 
I'm going to yield some time to him.
    Mr. Kanjorski. I'm just going to take a few moments to test 
Mr. Quinn's kidneys, Mr. Chairman.
    Mr. Quinn, in your previous oral and written testimony 
before this committee, I received the distinct impression that, 
beginning in late 1999 you worked with many of the attorneys in 
town working for Mr. Rich. You named three of them--Mr. 
Garment, Mr. Urgenson and Mr. Libby--and, on page 4 of your 
testimony, you stated that you knew the current counsel and law 
firms involved in Mr. Rich's defense, and you respected their 
reputation and judgment. And I implied from that, or inferred 
as the case may be, that you were saying they agreed with your 
petition for pardons, since they helped you, as I understand, 
prepare all the material. It was basically their work product 
and you were the editor of this work product for submission and 
application. Is this correct?
    Mr. Quinn. No, sir. Let me try to straighten that out.
    First of all, the gentlemen with whom I worked initially 
were Mr. Urgenson, Mr. Libby, Mr. Green and Mr. Fink. Mr. 
Garment had been involved previously, but was not involved with 
me. As we discussed earlier today, the basis of the pardon 
application was a series of arguments to the effect that the 
indictment was flawed. I understand all of them to agree with 
that, that is to say, that the indictment was flawed, but I did 
not mean to imply that they had worked on the pardon itself. 
The only other thing I would add is that at least according to 
the New Yorker magazine, Mr. Garment did say after the fact 
that he didn't know why the President granted the pardon, but 
he agreed with it.
    Mr. Kanjorski. Then, as of this moment, you don't know 
whether these lawyers agreed with the pardon?
    Mr. Quinn. Again, they certainly not only agreed that the 
indictment was flawed, they explained to me why the indictment 
was flawed, but I have to let them speak for themselves.
    Mr. Kanjorski. That's on the indictment. What do you know 
regarding their feelings of whether or not there was merit here 
for the pardon?
    Mr. Quinn. The only thing I know going to the pardon is 
what I told you about, what Mr. Garment was quoted as having 
said in the New Yorker.
    Mr. Kanjorski. So from the time in October that you began 
working with these men in October 1999 until sometime in mid-
January, even though you used all their work product--you'd 
obviously been briefed on their case, their briefings, their 
arguments, their positions--you never asked them whether or not 
they favored granting the petition for pardon?
    Mr. Quinn. No, sir.
    Mr. Kanjorski. And you have no idea whether or not they 
favored the pardon?
    Mr. Quinn. But, Congressman, I had enormously high degree 
of confidence that they agreed that the indictment was 
thoroughly flawed.
    Mr. Kanjorski. But not sufficiently flawed to support a 
pardon?
    Mr. Quinn. They weren't involved at that point.
    Mr. Kanjorski. I see. OK, I'll just take a moment then. 
I've often had the occasion over the last 8 years to work with 
at least two of the three members of the panel. I want to 
compliment you on your testimony. It was certainly forthright. 
I think you have been under a great deal of strain.
    It's very difficult to take the position that you took in 
private confidence--a disagreement with someone that you worked 
for--and now come publicly and disclose that disagreement. But 
you've certainly done the honorable thing. Your testimony 
today, as I understand it, is that in your opinion, the 
judgment exercised in granting the pardon was probably faulty, 
but that you feel there was no wrongdoing, illegality or 
impropriety in the action of the President in issuing the 
pardon. Is that correct?
    Mr. Podesta. That's correct.
    Ms. Nolan. That's correct.
    Mr. Lindsey. That's correct.
    Mr. Kanjorski. Thank you very much, Mr. Chairman.
    Mr. Burton. Well, I think that concludes our hearing as far 
as you're concerned. I want to thank you all for being here, 
and I hope that your derrieres are not completely asleep so you 
can walk out of here. Thank your much.
    We'll now have the next panel come before us.
    We will now welcome our third panel to the witness table--
Lewis Libby, Robert Fink and Peter Kadzik--and I doubt 
seriously if we're going to be here anywhere near as long as we 
were with first two panels.
    Would you all please rise, so I can swear you in.
    [Witnesses sworn.]
    Mr. Burton. Be seated.
    Do any of any of you have an opening statement?
    Mr. Kadzik. I have no opening statement. I'd be pleased to 
answer the committee's questions.
    Mr. Burton. Mr. Libby.

                    STATEMENT OF LEWIS LIBBY

    Mr. Libby. Mr. Chairman, members of the committee, once 
again pursuant to the committee's requests, I welcome the 
opportunity to provide whatever useful information I can about 
my knowledge of the Marc Rich matter.
    I should add that I'm here today in my personal capacity 
and not as a representative of the government or speaking in 
any way for the government. I did not represent Mr. Rich in 
connection with the pardon or the pardon application. However, 
a brief overview of my past representation of Mr. Rich as a 
private attorney and my decision not to participate in the 
effort to obtain a pardon may be useful for you.
    In the spring of 1985, Mr. Rich and Mr. Pincus Green asked 
Mr. Leonard Garment, a Washington attorney, to represent them 
in connection with an outstanding criminal indictment. At the 
time, Mr. Rich had already renounced his U.S. citizenship and 
was living in Switzerland. Mr. Garment told Mr. Rich and Mr. 
Green that he would not be able to represent them unless he 
first determined that they had a sound legal defense.
    Mr. Burton. Excuse me, Mr. Libby, could you push the mic 
just a little bit further away from you.
    Mr. Libby. I'm sorry, sir.
    Mr. Burton. You have a very strong voice and it depends on 
how you pick it up. Thank you.
    Mr. Libby. About this time, Mr. Garment asked me to join 
his firm. Mr. Garment assigned me to help assess whether there 
were legal defenses to the tax and energy fraud charges to 
which the Rich companies had already pled guilty. Attorneys 
from the firm of Milgrim, Thomajan & Lee, including Mr. Robert 
Fink and other expert counsel, participated in the analysis. We 
later included notable tax law experts as well.
    In August 1987 we presented our analysis of the facts in 
law to an assistant U.S. attorney for the Southern District of 
New York. We argued that based on all the information available 
to defense counsel, Marc Rich companies had properly reported 
their tax obligations and energy transactions and that these 
criminal charges should be reexamined. I wish to emphasize that 
in approaching the Southern District of New York we were not 
seeking a pardon, but rather negotiated settlement of the 
outstanding indictment.
    Our efforts were unsuccessful. In 1989, I resigned from 
private practice in the representation of Mr. Green and Mr. 
Rich to join the Defense Department where I served until 1993. 
Sometime after my return to private practice, I assisted Mr. 
Fink and Mr. Urgenson, a partner at Kirkland & Ellis and a 
former official of the Justice Department, in another attempt 
to open discussions with the Southern District of New York. 
This effort, somewhere in the 1993 to 1995 timeframe, also 
failed.
    Thereafter, I viewed the matter as largely inactive, and I 
do not recall any significant work on the matter until 1999. 
Sometime in 1999, I first learned that Mr. Rich had retained 
Mr. Jack Quinn. Mr. Quinn said that he planned to ask the 
Department of Justice to look at the case or persuade the 
Southern District to do so. I participated in efforts to brief 
Mr. Quinn about the case and the subsequent effort to prepare 
yet another request to the Southern District. These efforts 
also failed. Immediately thereafter, in roughly the spring of 
2000, I was instructed by counsel for Mr. Rich and Mr. Green to 
stop all work on behalf of them.
    In late November 2000, one of the defense counsels, Mr. 
Michael Green, called me. Michael Green said that the defense 
team was planning to approach the White House for a pardon. I 
was at the time spending nearly all my free hours working on 
the possible transition a new administration and determined 
that participation in a pardon effort would be inconsistent 
with my time commitments and my role related to the transition 
and the possible new administration.
    I informed Mr. Green that I would not participate in an 
effort to obtain a pardon. I did not at any time thereafter 
represent Mr. Rich or Mr. Pincus Green or work on their behalf 
in connection with the effort to obtain a pardon.
    I stand ready to answer any questions you may have.
    Mr. Burton. Mr. Kadzik, you do not have an opening 
statement?
    Mr. Kadzik. That's correct, Mr. Chairman.
    Mr. Burton. Mr. Fink, do you have an opening statement?

                    STATEMENT OF ROBERT FINK

    Mr. Fink. Yes, I do, but in the interest of making the last 
shuttle and seeing my family tonight, if you think you can 
accommodate me, I'd be happy to dispense with it.
    Mr. Burton. OK. You can submit it for record, and we'll use 
it in the record.
    [The prepared statement of Mr. Fink follows:]

    [GRAPHIC] [TIFF OMITTED] T5593.072
    
    [GRAPHIC] [TIFF OMITTED] T5593.073
    
    [GRAPHIC] [TIFF OMITTED] T5593.074
    
    [GRAPHIC] [TIFF OMITTED] T5593.075
    
    [GRAPHIC] [TIFF OMITTED] T5593.076
    
    Mr. Burton. Since there are no more opening comments, we'll 
yield to the gentleman from Ohio, Mr. LaTourette.
    Mr. LaTourette. Thank you, Mr. Chairman.
    Mr. Kadzik, I'd like to start with you, if I could. Your 
law firm, as I understand it, represented Marc Rich for a 
substantial period of time, but your work was not certainly as 
extensive as that of other members of your firm. Is that an 
accurate observation?
    Mr. Kadzik. That's correct.
    Mr. LaTourette. When were you were first asked to 
participate in the representation of Marc Rich to work on his 
file?
    Mr. Kadzik. I was consulted in the late 1980's when Mr. 
Libby and Mr. Garment were in the process of preparing to 
approach the U.S. Attorney's Office in the Southern District of 
New York, because at that time I was representing another 
client with respect to a matter before the U.S. Attorney's 
Office in the Southern District and they asked me for my 
thoughts and advice on what kind of approach they should take, 
what the likelihood of success was and whether I knew any of 
the personalities, whose names I don't recall now, that they 
were going to deal with.
    Mr. LaTourette. When you say ``personalities,'' the 
thinking was that if you had worked previously with someone in 
the U.S. Attorney's Office that you might be able to give them 
some advice as to what advice would be successful with this or 
that person?
    Mr. Kadzik. This is correct.
    Mr. LaTourette. And subsequent to that were you then asked 
to participate in this processing of the pardon application, 
which is the subject of this hearing here?
    Mr. Kadzik. Actually there was one other contact before, in 
1999, when there was going to be another effort to approach 
either the U.S. Attorney's Office of the Southern District of 
New York or the Department of Justice. Mr. Green asked me what 
I thought about approaching either of those two entities. I 
told him that I thought that approaching the Justice 
Department, rather than the U.S. Attorney's Office would be 
more fruitful; and then subsequent to that was in late 
November, early December 2000 with respect to the pardon.
    Mr. LaTourette. OK. And then that was--specifically was the 
pardon application that was being prepared by Mr. Quinn and 
others?
    Mr. Kadzik. That's correct.
    Mr. LaTourette. OK. And now prior to--in addition to the 
work that you might have done for Mr. Rich's concerns, I think 
I remember, being a member of the committee, that you appeared 
before this committee as counsel for Mr. Podesta during the 
White House e-mail hearings; is my memory correct on that?
    Mr. Kadzik. I represented Mr. Podesta. He did not appear 
before the committee. He was interviewed by Mr. Wilson and 
other members of the staff.
    Mr. LaTourette. That's what I meant by appearing before the 
committee, appearing before committee staff.
    Mr. Kadzik. Yes.
    Mr. LaTourette. And was that your only work for Mr. 
Podesta?
    Mr. Kadzik. No. I also represented Mr. Podesta with respect 
to his appearance before the grand jury in the Monica Lewinsky 
matter and also in connection with the e-mail controversy. He 
testified in the Alexander case before Judge Royce Lamberth.
    Mr. LaTourette. OK.
    I think the staff has put before you a book of exhibits, 
and we'll try and show them on the screen as well, and I would 
like to focus on exhibit 130, which is a series of Dickstein 
Shapiro billing records, and they indicate, at least as I'm 
reading them, and if I'm reading them incorrectly, please stop 
me and tell me I'm reading them incorrectly--that between 
December the 12th of last year and January 20th of this year, 
President Clinton's last day in office, you had seven contacts 
with either John Podesta or the White House regarding Marc 
Rich's pardon application; am I reading that correctly or does 
that fit with your recollection?
    [Exhibit 130 follows:]

    [GRAPHIC] [TIFF OMITTED] T5593.680
    
    [GRAPHIC] [TIFF OMITTED] T5593.681
    
    [GRAPHIC] [TIFF OMITTED] T5593.682
    
    [GRAPHIC] [TIFF OMITTED] T5593.683
    
    [GRAPHIC] [TIFF OMITTED] T5593.684
    
    [GRAPHIC] [TIFF OMITTED] T5593.685
    
    [GRAPHIC] [TIFF OMITTED] T5593.686
    
    [GRAPHIC] [TIFF OMITTED] T5593.687
    
    [GRAPHIC] [TIFF OMITTED] T5593.688
    
    [GRAPHIC] [TIFF OMITTED] T5593.689
    
    [GRAPHIC] [TIFF OMITTED] T5593.690
    
    Mr. Kadzik. That's correct.
    Mr. LaTourette. Did you contact anyone or have contact with 
anyone in the White House regarding this pardon application 
aside from John Podesta?
    Mr. Kadzik. There were three contacts with administrative 
assistants in his office and the press office on the, I believe 
the 18th, 19th and 20th, just to determine whether or not there 
had been any pardons granted and, if so, whether a list was 
available.
    Mr. LaTourette. OK. Exhibit 130 shows that on December 12th 
last year you contacted JDP, and I assume that's John D. 
Podesta.
    Mr. Kadzik. That's correct.
    Mr. LaTourette. OK. Would you describe or have you already 
described--is that the substance of your conversation, whether 
or not pardons had been granted and whether or not that was 
available, or was that contact something else?
    Mr. Kadzik. Those, the contacts I described previously, 
were not with Mr. Podesta. The contact with Mr. Podesta on the 
12th was a brief conversation where I asked him what the pardon 
process, the consideration of pardons, was going to be like in 
the White House. He indicated it would be primarily handled by 
the White House Counsel's Office.
    I told him that my law firm represented three individuals 
who were seeking pardons, and he suggested that I send him a 
``piece of paper,'' I think, as he put it, concerning those 
three individuals; and I did, and that was it.
    Mr. LaTourette. In this phone conversation of December 12th 
did you identify who those three individuals were?
    Mr. Kadzik. Yes.
    Mr. LaTourette. And did he express, either upon further 
conversation or just--and I assume one of them was Marc Rich?
    Mr. Kadzik. That's correct.
    Mr. LaTourette. Did he have any observation or offer any 
observation to you about Marc Rich?
    Mr. Kadzik. No, he did not.
    Mr. LaTourette. And did you have any discomfort as a 
lawyer--maybe you did or maybe you didn't--but in going to 
another client of yours, seeking a pardon from the President of 
the United States or this representation, did it cause you any 
concern at all?
    Mr. Kadzik. I wouldn't say that I was seeking a pardon. I 
inquired as to whether or not--who in the White House would be 
considering pardons. He said it would be primarily the White 
House Counsel's Office, and it was my understanding that Mr. 
Quinn had submitted a pardon application to the counsel--White 
House Counsel's Office.
    Mr. LaTourette. Do you think, just as in the 1980's when 
your firm asked you to sort of pick your brain about who best 
to approach and how should we approach this person or that 
person, that perhaps your services were sought in December of 
last year--the same sort of thing, get a feel for the lay of 
the land over at the White House as to what--how best to get 
this to where it needed to go? Was that the advice you were 
being asked to offer?
    Mr. Kadzik. I would view it as a process inquiry, yes.
    Mr. LaTourette. There was an article this year in Newsweek 
and that indicated that the President's aides--about we've just 
heard from Mr. Podesta and the others that they were opposed to 
the pardon of Marc Rich. Did you hear any of their testimony, 
so I don't have to go into that?
    Mr. Kadzik. Yes.
    Mr. LaTourette. To your knowledge, did Mr. Podesta indicate 
to you his position on the pardoning of Marc Rich?
    Mr. Kadzik. Yes, he said he was opposed to it.
    Mr. LaTourette. When did he tell you that, if you remember?
    Mr. Kadzik. The three subsequent conversations I had with 
him, which I believe were on January 2nd, January 6th and 
January 16th.
    Mr. LaTourette. Was it part and parcel of your 
responsibility as a lawyer for Marc Rich to attempt to 
influence or change Mr. Podesta's mind as to his position?
    Mr. Kadzik. No.
    Mr. LaTourette. Did you ever attempt to do that?
    Mr. Kadzik. No, I didn't. Once he told me he was opposed to 
it, I knew that I wouldn't be able to change his mind.
    Mr. LaTourette. Did Mr. Podesta provide you any 
recommendation as to how you might proceed to achieve the 
successful result on the application that your firm was 
processing.
    Mr. Kadzik. No, not at all.
    Mr. LaTourette. Did Mr. Podesta indicate to you at any 
point in time how the President of the United States felt about 
this particular pardon application?
    Mr. Kadzik. No, he simply indicated to me the decision was 
the President's.
    Mr. LaTourette. OK.
    If I could ask you to turn now to exhibit No. 58, that 
seems to refer to a call, I think, of January 2, 2001.
    [Exhibit 58 follows:]

    [GRAPHIC] [TIFF OMITTED] T5593.557
    
    [GRAPHIC] [TIFF OMITTED] T5593.558
    
    Mr. Burton. Can I interrupt briefly?
    Mr. LaTourette. Sure.
    Mr. Burton. You said you talked to Mr. Podesta and he 
indicated he was opposed to the pardon, but he further said 
that the decision was up to the President. Did he indicate in 
any way what his recommendation was going to be to the 
President? It just seems like that conversation has something 
missing in between. He said he's opposed to it, but he said 
that decision is going to be left up to the President.
    Mr. Kadzik. Well, I think in the conversation was that he 
was opposed to the pardon and that, if asked, he was going to 
say that he was opposed to it. And I think I asked whether or 
not that meant that the staff was going to veto it and he said 
the decision is the President's.
    Mr. Burton. So he didn't elaborate on what the staff might 
or might not say to the President?
    Mr. Kadzik. No, he did not.
    Mr. Burton. OK. Thank you.
    Mr. LaTourette. Again, exhibit No. 58--I'm sorry, lost my 
place for just a second--I think is a reference to the 
telephone call that you had with Mr. Podesta on January 2nd of 
this year, and it's that he told you that the Rich pardon was 
still in the mix as of that date.
    Is that a correct reading of that exhibit and is that your 
recollection?
    Mr. Kadzik. Yeah, my recollection that he told me that a 
decision had not yet been made.
    Mr. LaTourette. OK. Did he use the words ``in the mix,'' or 
is that your description of what he indicated to you?
    Mr. Kadzik. He didn't use those words, and I don't think 
they're mine either. I assume they're Mr. Fink's.
    Mr. LaTourette. Mr. Fink's?
    Mr. Kadzik. Right.
    Mr. LaTourette. Were you unclear at all on this date, 
January 2nd, January 3rd, of this year that Mr. Podesta opposed 
this pardon application?
    Mr. Kadzik. It was perfectly clear to me that he did oppose 
it.
    Mr. LaTourette. OK.
    Now, exhibit No. 62, did you have a conversation at any 
time with Mr. Podesta wherein he indicated to you that you--and 
I don't think you personally, but that this Rich pardon 
application was benefiting by being ``under the press radar.''
    [Exhibit 62 follows:]

    [GRAPHIC] [TIFF OMITTED] T5593.562
    
    Mr. Kadzik. No, he did not.
    Mr. LaTourette. And so, again, as you look at exhibit No. 
62, I guess that's Mr. Fink's interpretation again of the 
conversation? Did you have a conversation with Mr. Fink 
regarding what it was you and Mr. Podesta talked about on 
January 6th?
    Mr. Kadzik. I have never spoken to Mr. Fink.
    Mr. LaTourette. Did you have any personal knowledge--and 
I'm sure we'll ask Mr. Fink in a minute; did you have any 
personal knowledge as to where Mr. Fink would get the 
information necessary to express that opinion?
    Mr. Kadzik. The only thing that I can speculate as to is, I 
spoke to Mr. Green after I talked to Mr. Podesta. I said that 
he was opposed to the pardon, as was the staff, and I think 
that Mr. Podesta made an offhand comment to me that while there 
was a lot of controversy in the press about other pardons, such 
as Mr. Milken, there had been no press coverage with respect to 
Mr. Rich or Mr. Green.
    Mr. LaTourette. And that was seen as a good thing?
    Mr. Kadzik. It wasn't seen as anything. It was simply a 
statement of fact.
    Mr. LaTourette. OK. Now, exhibit No. 67, it looks like this 
is a reference to the telephone call that might have taken 
place between you and Mr. Podesta on January 16th. This e-mail 
in particular states that Mike Green spoke with Peter, who I 
assume is you, who spoke with Podesta; and that Podesta told 
Peter that while the staff are not supportive they are not in 
the veto mode.
    First of all, did Mr. Podesta communicate that to you on 
January 16th?
    [Exhibit 67 follows:]

    [GRAPHIC] [TIFF OMITTED] T5593.568
    
    Mr. Kadzik. No.
    Mr. LaTourette. Again----
    Mr. Kadzik. Again, he told me he was opposed to it, that 
the staff was opposed to it, but no final decision had been 
made and again the decision was the President's.
    Mr. LaTourette. Do you have--again, this sort of chain from 
Mike Green to you to the author of exhibit No. 67, do you have 
any personal knowledge as to how the author of exhibit No. 67 
would reach the conclusion that the staff was not in the veto 
mode if that information didn't come from you, who was the 
person who had the conversation with Mr. Podesta?
    Mr. Kadzik. I don't know upon what that was based. I can 
only speculate that it was because the decision, there was no 
final decision yet.
    Mr. LaTourette. OK. At any point during the contacts that 
you had with Mr. Podesta, did he identify why it was that he 
was opposed to the Rich pardon or what concerns the White House 
Counsel's Office had concerning this application?
    Mr. Kadzik. No, we didn't discuss the merits of it in 
detail at all.
    Mr. LaTourette. OK.
    The final two pages of entries on exhibit 130 indicate that 
you continued to have teleconferences with former White House 
staff after the granting of the pardon on January 19th or 20th. 
And I'll let you flip to those, and then I have a couple of 
questions.
    Mr. Kadzik. Yes, I've got them.
    Mr. LaTourette. OK. And you see those entries?
    Mr. Kadzik. Yes, I do.
    Mr. LaTourette. Who were you talking to during that period 
of time after the granting of the pardon.
    Mr. Kadzik. My recollection was that I received telephone 
calls from Karen Tramantano, the former President's current 
chief of staff, and someone from the press office, I don't 
recall who, asking me if I would be willing to do press 
appearances in defense of the President's decisions with 
respect to the pardons; and I told them that given the fact 
that my firm represented Mr. Rich, I wouldn't be, certainly, 
seen as a neutral observer and that I wasn't the best person to 
do that.
    Mr. LaTourette. And is that sum and substance of all of the 
context referenced in that billing statement?
    Mr. Kadzik. Yes, yes.
    Mr. LaTourette. Mr. Chairman, how much time do I have?
    Mr. Burton. There appear to be 16 minutes left.
    Mr. LaTourette. I will stop whenever you want me to, but I 
would like to ask Mr. Kadzik one more question because at the 
beginning of the hearing, Mr. Waxman in his opening remarks 
talked about how you got here; and I think that, obviously we 
had an observation on our side about whether you were supposed 
to be here or not.
    Mr. Waxman had an observation during his opening remarks, 
and I'd like to invite you to take a couple of minutes and 
express in your own words how that occurred and so we can get 
that out of the way and go--if you'd like to. If you don't want 
to, that's fine with me too.
    Mr. Kadzik. I received a letter from the committee on 
Monday, the 26th, asking me to appear, and I responded on 
Tuesday saying that I had previous business commitments in 
California on Thursday. I was in my office until after 9 p.m. 
on Tuesday. I had nothing further, so I went forward with my 
plans to go to California on Wednesday. When I got off the 
airplane in California on Wednesday I was met by a U.S. 
Marshal, served me with a subpoena. I promptly turned around 
went back to the counter and booked myself on the exact same 
airplane that I flew out on, to fly back on, and spent less 
than 45 minutes in San Francisco in order to come back here 
today; and I'm now scheduled to go back to San Francisco at 
9:50 this evening in order to make the second of the two 
meetings I had planned.
    Mr. LaTourette. If it is still my opportunity to talk, I'd 
like to talk to you for a minute, Mr. Fink.
    Mr. Fink. Sure.
    Mr. LaTourette. Mr. Fink, how long have you known or been 
associated or represented Marc Rich?
    Mr. Fink. Two decades.
    Mr. LaTourette. Two decades, exactly 20 years, or is that 
a----
    Mr. Burton. Mr. Fink would you pull the mic just a little 
bit closer.
    Mr. Fink. It could be 20\1/2\, 21; it's around two decades.
    Mr. LaTourette. OK.
    Did you do work for Mr. Rich when you were associated with 
the law firm of Milgrim, Thomajan--and I hope I pronounce that 
name correctly--and Lee?
    Mr. Fink. Yes, I did.
    Mr. LaTourette. And when would that have been year-wise?
    Mr. Fink. Starting in 1980.
    Mr. LaTourette. We had testimony at the last hearing, I 
think, from the former assistant U.S. attorneys that at some 
time during the investigation of Mr. Rich there was a steamer 
trunk, or multiple steamer trunks, that were attempted to be 
taken out of the country on a Swissair flight; are you familiar 
with that?
    Mr. Fink. Yes, I am.
    Mr. LaTourette. And is our information correct that it was 
a paralegal from that firm Milgrim, Thomajan & Lee that was 
responsible for that activity?
    Mr. Fink. The trunks were in the custody of a paralegal 
from that firm.
    Mr. LaTourette. OK. At any point in your knowledge, since 
Mr. Rich left the country, has he returned to the United 
States?
    Mr. Fink. Not to my knowledge.
    Mr. LaTourette. I want to talk now about some conversations 
that we had with Mr. Quinn and a series of e-mails; and I think 
we talked a little bit about them with the previous panel, but 
for your information, it's exhibit 135.
    [Exhibit 135 follows:]

    [GRAPHIC] [TIFF OMITTED] T5593.698
    
    Mr. Fink. Just a moment, please.
    Mr. LaTourette. Sure.
    Mr. Fink. OK. I'm there.
    Mr. LaTourette. OK. Is it a fair observation that during 
the course of your representation of Mr. Rich on this matter, 
that being the outstanding criminal indictment, that you had 
made a number of overtures at a number of different times, 
either you or people working with you, in an attempt to resolve 
this in an amicable or less painful way for Mr. Rich?
    Mr. Fink. I think that's fair.
    Mr. LaTourette. OK. Specifically, the e-mails that occur in 
exhibit No. 135 seem to be--I have three of them. The one at 
the bottom, actually the bottom two seem to indicate that in 
February of the year 2000 somebody has heard from the Southern 
District of New York that they're really not interested in 
sitting down and discussing this while Mr. Rich remains a 
fugitive.
    But I'd like to focus on the top one which--that's a 
notation that's been authored by you; is that correct?
    Mr. Fink. Yes, it is correct.
    Mr. LaTourette. OK. And as I understand the import of that, 
it basically indicates that sometime during the course of your 
representation there have been discussion and there have been 
offers made both by you and also by the U.S. attorney for the 
Southern District of New York; is that correct?
    Mr. Fink. Well, I don't know they would characterize it as 
you have.
    Mr. LaTourette. OK.
    Mr. Fink. I would be comfortable saying there were many 
discussions. I don't know that we ever got to a real offer in 
any of those discussions.
    Mr. LaTourette. OK. Specifically, there has been testimony 
before this committee that the thing that was really the 
hammer-blow--and some people blamed Rudy Giuliani, some people 
blamed other people--the thing that really put Mr. Rich to 
flight was the RICO charge. Do you have that opinion?
    Mr. Fink. I do not know what put Mr. Rich to flight, to use 
your phrase. I do know that RICO was perceived to be a huge 
force that affected the case and the outcome of the case.
    Mr. LaTourette. Looking at exhibit 135, or your 
recollection from the representation of Marc Rich, is it 
accurate that at one point you were told that the prosecuting 
authorities would drop the RICO charge if Marc Rich returned to 
this country?
    Mr. Fink. That was something that was discussed with me in 
at least one meeting I had with the prosecutors.
    Mr. LaTourette. OK. And when you say ``discussed,'' the 
specific words in the e-mail were that ``I was told at one 
point that they would drop the RICO charge if we wanted Marc to 
come in.''
    Mr. Fink. Yes.
    Mr. LaTourette. Were you told that?
    Mr. Fink. It wasn't formalized. It was discussed as a 
possibility.
    Mr. LaTourette. OK.
    Mr. Fink. I perceived it, I perceived it to be a serious 
possibility, but as I understood it, the discussion was if Marc 
would come in and surrender----
    Mr. LaTourette. Right.
    Mr. Fink [continuing]. We would consider in advance 
dropping the RICO charge.
    Mr. LaTourette. And likewise, was there a consideration in 
this set of negotiations, or you can tell me if it is another 
one, that bail would be arranged, as well, as part of this 
negotiation so that he wouldn't have to remain incarcerated 
pending the outcome of the criminal proceeding?
    Mr. Fink. I think that occurred as part of the very same 
conversation.
    Mr. LaTourette. And that condition was that they would like 
to have his passport so he would not leave again if he didn't 
like the way things were going on; is that right?
    Mr. Fink. That's my best recollection of that conversation, 
which was probably 9 years ago.
    Mr. LaTourette. It goes on to indicate that they would also 
meet with the lawyers, the professors--and when they say 
``professors,'' had this report already been done by the 
professors we've heard so much about that were hired to examine 
the tax intricacies of Justice Ginsburg's husband; are those 
the professors you were talking about?
    Mr. Fink. Yes, but I think to avoid any misunderstanding 
that I am now talking about a different conversation.
    Mr. LaTourette. OK. So in one conversation--well, let's 
break them down. In one conversation, they said they would 
consider dropping the RICO, agree to bail if he would give up 
his passport and sit down and negotiate the case. Did you then 
have additional discussions where they said they would sit down 
with the lawyers and professors and do a full review before 
proceeding to trial, that they would take a look at the 
strength of their case and engage in further discussion with 
you?
    Mr. Fink. To be clear, there was no discussion about 
dropping RICO at the time of this second conversation.
    Mr. LaTourette. OK. Their hang-up, as I read the totality 
of the e-mail, and maybe we're talking about two or three 
different discussions, but their hang-up seemed to be that they 
didn't want to negotiate, sort of come up with their best shot 
and have Mr. Rich reject it from Switzerland. They wanted to at 
least have something--if they're going to do a lot of work, 
they'll listen to what the professors had to say, evaluate 
their case. They at least wanted to have some assurance that he 
was going to submit himself to their jurisdiction, did they 
not?
    Mr. Fink. I think your characterization is reasonable. 
Their exact characterization is an exhibit to the pardon 
application. It's one of the letters from the U.S. Attorneys 
Office.
    Mr. LaTourette. Did you ever negotiate this case with a 
fellow by the name of Gerald Lynch when he was in the U.S. 
Attorneys Office?
    Mr. Fink. I would have to say a double negative. No, I 
don't think I ever negotiated this case with anybody; and I do 
not believe I have ever met Mr. Lynch.
    Mr. LaTourette. How about Robert Litt?
    Mr. Fink. No, I'm not sure I've met him either. Let me take 
that back. To the best of my knowledge, I don't think I have 
met him. How am I doing? I have not met him.
    Mr. LaTourette. I think you're doing fine.
    When did you decide to engage the services of Jack Quinn in 
this matter?
    Mr. Fink. In all fairness, that decision wasn't mine. But 
that decision was made summer--early summer of 1999.
    Mr. LaTourette. When you say it wasn't yours, who made the 
decision, if you know?
    Mr. Fink. Mr. Rich.
    Mr. LaTourette. Mr. Rich came up with the name of Jack 
Quinn by himself.
    Mr. Fink. No. Maybe I'm being too precise, but I want to be 
precise here. The person who decided to engage Mr. Quinn was 
Mr. Rich. Mr. Rich did not come up with Mr. Quinn's name.
    Mr. LaTourette. OK. The specific pardon application----
    Mr. Burton. Excuse me, if I might interrupt. How did he 
obtain Mr. Quinn's name? Through what source?
    Mr. Fink. Through me.
    Mr. Burton. So you knew Mr. Quinn from his professional 
work and his work in the White House?
    Mr. Fink. No, I did not.
    Mr. Burton. How did you come up with Mr. Quinn's name?
    Mr. Fink. His name was given to me by Gershon Kekst.
    Mr. Burton. Can you tell us the context in which he 
recommended Mr. Quinn?
    Mr. Fink. We were having lunch, and I asked him if he could 
recommend someone who I called the white-haired man. It's an 
expression.
    Mr. Burton. Does that mean someone who had connections with 
the White House?
    Mr. Fink. No. It did not, at all.
    Mr. Burton. So you weren't looking for somebody who had a 
connection with anybody at the White House.
    Mr. Fink. Certainly not as you would you describe it. We 
were looking for someone who understood the entire political 
process. And I shouldn't say we. I was the one who raised this, 
and I was wondering if he knew someone who I honestly expected 
then and still believe today does not exist, but who 
understands the whole political process, because I was 
convinced--at least highly frustrated with efforts to approach 
this simply as an attorney and wondered if there was some other 
aspect to the way our government works that would allow us to 
get an opportunity to have Mr. Rich's case heard without him 
having to surrender. That was my goal in asking that question 
of Mr. Kekst.
    Mr. LaTourette. That was very delicately put, and I think 
what that means----
    Mr. Fink. Thank you. I think it's also accurate.
    Mr. LaTourette. I do, too. How I interpret it, certainly as 
Mr. Waxman was indicating before, that your best lawyering 
didn't seem to get the job done and so we need to go another 
way and that is to find someone who has access to whomever.
    Mr. Fink. Well, actually, that is not true. At least it 
wasn't in my mind. And I understand that you're going to look 
at everything I say and all of the e-mails with the advantage 
or in my view disadvantage of all that's happened. But, no, I 
represent this to you, I'm under oath. I am not Washingtonwise. 
In fact, quite to the contrary. And I was looking for someone 
who had an overview of the entire political process. I didn't 
have the White House in mind. I didn't have anything in mind. 
In fact, you could have read my mind very quickly.
    Mr. LaTourette. Well, that would have been in 1999 when Mr. 
Quinn was first retained.
    Mr. Fink. Actually, I am not exactly sure when my 
conversation with Mr. Kekst was. It could have been late 1998, 
early 1999. I wasn't fast on this process. There wasn't urgency 
behind on it.
    Mr. LaTourette. Mr. Quinn testified before the committee 
that in fact he wasn't first retained to work on a pardon. He 
was retained to work on the case. When would you say the focus 
of the representation of Marc Rich before the government 
shifted to the notion of a pardon?
    Mr. Fink. In October 2000.
    Mr. LaTourette. And did you ever have any contact with the 
White House, the White House staff, the White House Counsel's 
Office on the behalf of this pardon application or was that 
left to others?
    Mr. Fink. That is a multi-faceted question. I think the 
answers to each and every one of them is no.
    Mr. LaTourette. OK. There was an agenda set for a meeting 
on the Rich pardon, and it's exhibit No. 79 if you want to take 
a minute to find that.
    [Exhibit 79 follows:]

    [GRAPHIC] [TIFF OMITTED] T5593.583
    
    [GRAPHIC] [TIFF OMITTED] T5593.584
    
    [GRAPHIC] [TIFF OMITTED] T5593.585
    
    Mr. Fink. I'm there.
    Mr. LaTourette. That, among other things, item 5A on the 
agenda is the need for secrecy. Do you see that?
    Mr. Fink. 5a. Yes, I see it.
    Mr. LaTourette. Were you at that meeting on November 21?
    Mr. Fink. Well, respectfully, I prepared this agenda in 
anticipation of a meeting that was supposed to occur on 
November 21.
    Mr. LaTourette. OK.
    Mr. Fink. This meeting didn't occur.
    Mr. LaTourette. OK. But you prepared exhibit No. 79.
    Mr. Fink. Yes, I did.
    Mr. LaTourette. And in preparing for a meeting that didn't 
occur, your thought was to have 5a, the need for secrecy. That 
was your thought as one of the items that should be discussed 
at a meeting, should it occur.
    Mr. Fink. Yes, I definitely wanted to discuss that at this 
meeting which didn't occur. But if it had, I would have raised 
it.
    Mr. LaTourette. Can you explain what it is that you meant 
by a need for secrecy during the course of a meeting on the 
Marc Rich pardon?
    Mr. Fink. I can give you any best guess. Recollections 
aren't that easy to come by for me. But my best guess--and I 
believe this is a reasonably good guess because I would have 
felt this way--is that Marc Rich has been victimized by the 
press and publicity and that if the press learned about this 
that victimization would continue.
    Mr. LaTourette. Did you have a similar concern--and it goes 
to another e-mail that we talked about with other witnesses--
about benefiting by being under the press radar? Which I think 
ties into what you just said was there a concern in your group 
that not only the press would find out but the U.S. attorney 
for the Southern District of New York would find out what you 
were up to.
    Mr. Fink. Can I pause?
    Mr. LaTourette. You can do what you want to do.
    Mr. Fink. No, I just want to be good here. I don't believe 
I wrote any e-mail about Mr. Podesta's suggestion about being 
under the radar. I'll volunteer that I don't remember such a 
conversation.
    And as to your second question, no, this was about press 
publicity.
    Mr. LaTourette. OK. You don't recall any discussion--and 
the reason I ask you, I'm not a tricky guy.
    Mr. Fink. No, that's fine.
    Mr. LaTourette. He was here before. He indicated that he 
would rather have the device given or the OK given or the 
whatever given by Justice Washington as opposed to Justice 
Southern District of New York. He sort of indicated that there 
was a discussion or a feeling that maybe we don't need to tell 
Mary Jo White and her folks what we're up to. We'll just leave 
it to Eric Holder and Janet Reno and the folks in Washington. 
Do you remember any of that?
    Mr. Fink. I remember being of a similar mind. It would have 
been my preference, had I had some power, to at least have the 
issue start in Justice Department. But, in fairness, you know, 
we're talking about this now after the pardon application and 
the pardon being granted. When I wrote this agenda that we're 
referring to, I didn't know very much about the process or what 
would happen.
    Mr. Burton. The gentleman's time has expired.
    Mr. Waxman.
    Mr. Waxman. Thank you very much, Mr. Chairman.
    I want to thank the three witnesses for being here at this 
late hour.
    Mr. Libby, I want to ask some questions of you because 
you've had a long involvement with Mr. Rich and probably better 
than any other witness that we've had before us would 
understand the merits of the case that Mr. Rich was offering in 
his defense. The President of the United States wrote an op-ed 
in the New York Times, and in the op-ed he said or implied that 
you had advocated for a pardon. And I understand that's wrong 
and you stated you had no involvement in the effort for a 
pardon, is that correct?
    Mr. Libby. It's correct that it's wrong, sir.
    Mr. Waxman. But the President gave other reasons, and the 
first reason the President gave was, ``I understood that the 
other oil companies that had structured transactions like those 
in which Mr. Rich and Mr. Green were instead sued civilly by 
the government.'' Was the President right about this statement?
    Mr. Libby. Yes, there were other companies that had similar 
transactions; and to the best of my knowledge those were 
generally handled civilly.
    Mr. Waxman. The second reason the President gave was, ``I 
was informed that in 1985 in a related case against a trading 
partner of Mr. Rich and Mr. Green the Energy Department, which 
was responsible for enforcing the governing law, found that the 
manner in which the Rich/Green companies had accounted for 
these transactions was proper.'' Was the President right about 
this statement?
    Mr. Libby. Yes, sir, I believe he was. That would be the 
ARCO proposed remedial order issued by the Department of 
Energy.
    Mr. Waxman. The third reason the President gave was, ``two 
highly regarded tax experts, Bernard Wolfman of Harvard Law 
School and Martin Ginsburg of Georgetown University Law Center, 
reviewed the transactions in question and concluded that the 
companies were correct in their U.S. income tax treatment of 
all of the items in question and that there was no unreported 
Federal income or additional tax liability attributable to any 
of the challenged transactions.'' Was the President correct 
about this?
    Mr. Libby. Yes, sir.
    Mr. Waxman. The fourth reason the President gave was, ``in 
order to settle the government's case against them the two 
men's companies have paid approximately $200 million in fines, 
penalties and taxes, most of which might not have even been 
warranted under the Wolfman/Ginsburg analysis, that the 
companies had followed the law and correctly reported their 
income.'' Was the President correct on this statement?
    Mr. Libby. Yes, sir.
    Mr. Waxman. The fifth reason the President gave was, ``the 
Justice Department in 1989 rejected the use of racketeering 
statutes in tax cases like this one.'' Was the President right 
about this?
    Mr. Libby. That is my understanding of the Justice 
Department manual.
    Mr. Waxman. Well, Mr. Libby, it appears that you agree with 
most of the points the President made.
    Let me ask you the bottom line question. President Clinton 
apparently concluded that Mr. Rich had not committed the crimes 
he had been accused of. Do you agree with this? Do you think 
that Mr. Rich is a tax fraud and a criminal or do you agree 
with President Clinton's assessment of the merits of the case?
    Mr. Libby. I believe, sir, that, based on all of the 
evidence available to defense counsel, the best interpretation 
of the evidence is that they did not owe any tax, even in the 
civil matter. That would be the interpretation given by the two 
tax professors.
    Mr. Waxman. Therefore, there should not have been a 
criminal liability.
    Mr. Libby. Based on the evidence available to the defense, 
that would be correct, sir.
    Mr. Waxman. Mr. Libby, according to several press accounts, 
there was discussion in the Bush administration about whether 
or not the Rich pardon was invalid because of lack of service. 
On January 28, 2001, Vice President Cheney said that Justice 
Department lawyers may be looking at this issue. The next day 
President Bush announced that he had decided against acting on 
lawyers' ideas for revoking the pardon. Are you aware of any 
discussions in the White House or the Department of Justice 
about whether or not the Rich pardon was invalid?
    Mr. Libby. No, sir. I recused myself immediately from any 
matter having to do with Mr. Rich, and I did not participate in 
any such discussion. But I have seen the press stories, as you 
have, I suppose.
    Mr. Waxman. So you were not involved in them, and you were 
not aware of them.
    Mr. Libby. That is correct, sir.
    Mr. Waxman. Mr. Libby, I believe I asked you earlier, when 
you concluded your representation of Mr. Rich I think you 
testified that was--tell me again. When did you end your 
representation of Mr. Rich?
    Mr. Libby. My best recollection is that I stopped work 
sometime in the spring of 2000.
    Mr. Waxman. Spring of 2000?
    Mr. Libby. Right, in anything active for Mr. Rich. I 
probably put away from some files after that, but that would be 
the last bit of work for them.
    Mr. Waxman. You were asked in November 2000 to participate 
in the pardon. What happened at that point?
    Mr. Libby. As I testified in my statement, sir, I declined 
to participate in the pardon.
    Mr. Waxman. And when did you have your last conversation 
with Mr. Rich before joining the Vice President's staff?
    Mr. Libby. I am not really sure, 1999, 2000, something like 
that.
    Mr. Waxman. Mr. Libby, I would like to read to you an 
opening line of the story the Washington Post is reporting 
today. A top aide to Marc Rich alluded more than a year ago to 
seeking a Presidential pardon for the fugitive financier in 
correspondence with Rich's attorneys, calling it the 
unconventional approach which has not yet been tried and which 
I have been proposing all along, according to one of dozens of 
documents made public today. The e-mail that the Post quotes 
was written on February 10, 2000. It's exhibit 135 in the book 
in front of you. Mr. Libby, were you representing Mr. Rich at 
the time that e-mail was written--February 2000?
    [Exhibit 135 follows:]

    [GRAPHIC] [TIFF OMITTED] T5593.698
    
    Mr. Libby. It was still during the course of our efforts 
with the Southern District of New York, sir.
    Mr. Waxman. Are you familiar with the unconventional 
approach that the e-mail refers to? It's exhibit 135.
    Mr. Libby. I don't believe I have ever seen this e-mail 
before, sir; and I don't know particularly what it's speaking 
about.
    Mr. Waxman. Could you repeat your answer?
    Mr. Libby. I don't believe I have ever seen this e-mail 
before, and I'm not sure what he's speaking about.
    Mr. Waxman. It's interesting, earlier today Mr. Quinn 
didn't know about that e-mail either, and he was given a pretty 
hard time about it. I guess the conclusion I think I can reach 
is, even if you're a lawyer you may not be familiar with this 
particular e-mail and that's your testimony and his testimony.
    Mr. Libby. Yes, sir.
    Mr. Waxman. In November 2000 you were called into some 
discussion either by phone--well, let me ask you specifically. 
You said you were contacted in November 2000 about the idea of 
a pardon. Was that a meeting or a telephone conversation?
    Mr. Libby. A telephone conversation.
    Mr. Waxman. That was between you and who else?
    Mr. Libby. Mr. Michael Green, as I mentioned in my opening 
statement.
    Mr. Waxman. Did he discuss the grounds or strategy of this?
    Mr. Libby. No.
    Mr. Waxman. What did he tell you?
    Mr. Libby. It was a confused conversation, because I didn't 
quite understand what he was talking about at first. And then 
he said that they were going for a pardon, going to the White 
House for a pardon, something like that. And I said that I 
could not participate in that.
    Mr. Waxman. Let me take you back to the administration of 
former President Bush. Was there any effort at that time to get 
a pardon for Mr. Rich?
    Mr. Libby. Not that I recall, sir.
    Mr. Waxman. If I asked you whether you contacted anybody 
that was part of the Bush administration to advocate the 
pardon, your answer would be----
    Mr. Libby. Not that I recall.
    Mr. Waxman. Mr. Libby, according to press reports, you 
called Mr. Rich on January 22 of this year, is that accurate?
    Mr. Libby. That is correct, sir. I believe January 22 is 
right.
    Mr. Waxman. Where were you when you called him?
    Mr. Libby. At home.
    Mr. Waxman. Why did you call him?
    Mr. Libby. He had spoken to Mr. Green, who is a good friend 
of mine, and he had told Mr. Green that he thanked Mr. Green 
for all the work that Mr. Green had done on his case over the 
years and that he also wished to thank me for the work that I 
had done prior to the pardon on his matters over the years. But 
that he didn't know if it would be OK for him to call me. He 
did not want to get me in any trouble calling me. And so I 
thanked Mr. Green for telling me that, and I said I would call 
Mr. Rich to say it was OK. And I called Mr. Rich, and he 
thanked me for my work on the case, and I congratulated him on 
having reached a result that he had sought for a long time.
    Mr. Waxman. Have you had any other contact with Mr. Rich 
since you've joined Vice President Cheney's staff?
    Mr. Libby. No.
    Mr. Waxman. Have you had any contact with Mr. Rich's 
attorney since joining Vice President Cheney's staff?
    Mr. Libby. Mr. Green is a good friend of mine, and I have 
had contact with him.
    Mr. Waxman. What kind of contact have you had with him?
    Mr. Libby. Well, he and his wife were good enough to take 
our kids to the Inaugural parade which in a rainstorm was an 
act of heroism on his part, and we met up with him there, and I 
showed him my office. Social contact.
    Mr. Waxman. Social contact. Not about Mr. Rich.
    Mr. Libby. Social contact. He told me they had received a 
pardon for Mr. Rich. He showed me a list from the Internet. 
Things like that, no substance about it.
    Mr. Waxman. Since joining Vice President Cheney's staff 
have you had any conversations with anybody within the 
administration about the Marc Rich matter?
    Mr. Libby. Yes, sir.
    Mr. Waxman. Will you tell us about that?
    Mr. Libby. Yes, as soon as this became public I went to the 
general counsel for the Vice President and told him that--about 
my representation in the past and I was recusing myself to 
anything that might come up about it. I subsequently went to 
the President's general counsel, told him about my 
participation in it and said I was recusing myself. And I went 
to my deputy to be sure that he would know, in case there was 
any paper flow I shouldn't see, to say I have recused myself 
from the Marc Rich matter. People in the corridor have 
expressed regret that I had to come up here and testify, and I 
suppose that qualifies with being about the Marc Rich matter.
    Mr. Waxman. Let me commend you, because I think you took 
the absolute correct response in joining the government to 
recuse yourself on this matter.
    Mr. Libby. Thank you, sir.
    Mr. Waxman. Since joining Vice President Cheney's staff 
have you had any conversation with anybody outside the 
administration about the Marc Rich matter?
    Mr. Libby. Yes. I had conversations--the answer is 
certainly yes. Trying to go all through that list might take me 
a bit, but, yes.
    Mr. Waxman. A recent article--you might give it some 
thought and you might come back to it.
    A recent article in the New Yorker discusses several 
attorneys that Mr. Rich hired to advocate his case. And 
according to this article, Lenny Garment, former White House 
counsel in the Nixon administration, said the following about 
President Clinton's pardon of Marc Rich, ``I don't know why he 
did it, but I think Clinton did the right thing.'' Mr. Libby, 
do you believe that Mr. Rich should have been granted a pardon?
    Mr. Libby. Sir, I have recused myself, as I mentioned, from 
anything having to do with the Marc Rich case and from my 
communication with anybody on the White House staff directly or 
indirectly about whether it was a good idea or a bad idea. Your 
question puts me in an odd spot since this is being televised 
and people from the White House would hear my view of the 
pardon if I were to give it.
    Mr. Waxman. Well, you're not in any way involving yourself 
in the case. I'm only asking your personal views of the result 
of this case. Did you think it was the right result?
    Mr. Libby. Sir, I would not give my personal view of the 
result to anyone on the White House staff directly or have a 
conversation in their presence about my view of the result, if 
I believed that would push the envelope a little bit on keeping 
any recusal. If you wish me to answer the question, I will, but 
I think you're taking us into areas where the safest ethical 
position would be just not to speak on it.
    Mr. Waxman. Well, you've already answered questions on the 
merits of the argument that the President made for granting 
this pardon. You seem to agree with the President's views on 
each of those points. Why would you not agree with this 
conclusion?
    Mr. Libby. Those were underlying questions, statements 
about the merits of the case, not about the wisdom or lack of 
wisdom of the pardon. If you wish me to answer the question, I 
will, sir.
    Mr. Waxman. Well, the determination of the wisdom of a 
pardon could be a political evaluation as well as one on the 
merits. But if you separated the political evaluation of 
whether such a decision should have been reached by this or any 
other President simply on the merits, do you think the 
President reached the right conclusion?
    Mr. Libby. Again, sir, you're asking me a portion of the 
decision about whether it related, how it relates to the 
pardon, and I would prefer not to answer that. I would like to 
answer if you wish me to.
    Mr. Waxman. I would like you to.
    Mr. Libby. I would not know. I know the evidence available 
to the defense team. Based on the evidence available to the 
defense team, as I expressed before, I believe the correct 
interpretation of the law and the facts was that there was no 
tax owed. But I do not know what was in the Barton application. 
I do not know what information might have been possessed by the 
government.
    Mr. Waxman. You were his lawyer for many years. You have a 
good understanding of the facts, probably a better 
understanding of the facts than anybody else that has appeared 
before us. And certainly many people have commented on the 
issue. It just seems to me that, knowing the facts as you know 
them, should this man have been held to answer for these 
charges or should those charges in the indictment be resolved 
by Presidential action to dismiss them through a pardon?
    Mr. Libby. Well, I know only the facts available to the 
defense team. Based on the facts available to the defense team, 
I believe that the case should have been resolved by the 
Southern District of New York listening to our approaches, 
looking at the facts in evidence, and we would have been done 
with it back at the Southern District of New York.
    Mr. Waxman. And that would also mean, based on all the 
information you know and only what you know, and you know quite 
a bit, would that have led you to the conclusion that either 
the Southern District of New York should have resolved this 
issue or, failing that, that a Presidential pardon resolving 
the issue was justified?
    Mr. Libby. I believe the Southern District of New York 
should have resolved that issue with us back at that point. 
Whether a Presidential pardon is justified would again depend 
on what evidence the Southern District of New York might have 
and what other factors the President might consider in the 
course of a pardon. The Presidential pardon power is virtually 
unfettered.
    Mr. Kanjorski. Would the gentleman yield?
    Mr. Libby, this is a pretty simple question. You were an 
attorney for Mr. Rich. You helped brief Mr. Quinn. You know all 
the facts from that side of the case. You are not expected to 
know the facts from the Southern District of New York. You feel 
they should have stopped the prosecution because it was 
unwarranted with the facts you knew, but they didn't. Now as a 
lawyer and prior to you assuming the Office of the Chief of 
Staff of the Office of Vice President, are you telling this 
committee that, with everything you know about the case and 
nothing more, that you don't know about the pardon. Do you have 
an opinion as to whether or not the pardon should have been 
issued?
    Mr. Libby. Correct, sir.
    Mr. Kanjorski. What is that opinion?
    Mr. Libby. No, no. Correct, I am telling the committee that 
I don't know.
    Mr. Kanjorski. You have no opinion.
    Mr. Libby. I have an opinion----
    Mr. Kanjorski. Do you have an opinion? Let's start there. 
Do you have an opinion?
    Mr. Libby. Do I have an opinion as to whether----
    Mr. Kanjorski. Do you have an opinion as to whether this 
pardon was justified under the facts as you know them?
    Mr. Kanjorski. Sir, I have never seen the application. I do 
not have the facts available to me.
    Mr. Kanjorski. I'm not asking about the application, Mr. 
Libby. I'm asking about the facts that you know of your own 
knowledge. As a lawyer representing Mr. Rich over those several 
years, do you have an opinion as to whether or not those facts 
warrant the issue of this pardon? That's a simple question.
    Mr. Libby. No, sir.
    Mr. Kanjorski. You have no opinion.
    Mr. Libby. I have no opinion because I would not be able to 
render an opinion without the full record before me. I do not 
have that record before me.
    Mr. Kanjorski. So when you worked on this case with Mr. 
Quinn, you didn't have the facts, or the information as an 
attorney?
    Mr. Libby. I did not have the facts available to the 
government, and I----
    Mr. Kanjorski. Nobody has the facts available to the 
government. I'm not asking you to render an opinion on what 
facts the government may have. I'm asking you to render an 
opinion on what facts you have, and what facts you had at the 
time. It's very simple. You have to have an opinion--yes or no. 
And you're trying to parcel this down.
    In fairness as a lawyer and a member of the bar and having 
worked for this client, did you represent a crook who stole 
money from the U.S. Government, a fugitive who should never 
have been granted a pardon by the facts that you know? Is that 
what we should conclude from your statement?
    Mr. Libby. No, sir. I believe on all of the evidence I know 
that there was no tax liability.
    Mr. Kanjorski. Do you believe as a result that the pardon 
would be warranted insofar as there are no facts that you know 
of that support the criminal charges against your former 
client?
    Mr. Libby. There are no facts that I know of that support 
the criminality of the client based on the tax returns we've 
been discussing.
    Mr. Kanjorski. So based on all the facts you know is the 
pardon issued by the President justified?
    Mr. Libby. I cannot say whether the pardon is justified 
because I don't have those facts and that application before 
me.
    Mr. Kanjorski. Mr. Libby, I'm not asking you to take any 
other facts than what you have. We're able to understand that 
as a lawyer for a couple years working for a very wealthy guy, 
you might come to the same conclusion as Harvard and Georgetown 
law professors about a lot of things. And we'll accept all of 
what you know, accept nothing of what anybody else knows 
because, obviously, you don't know.
    We're asking your opinion. I like to see a guy hedge, but 
this is unreasonable. You either have an opinion or you don't 
have an opinion. If you don't have an opinion, tell us you 
don't have an opinion, and therefore your client may or may not 
have been a crook who should have gone to trial, or may or may 
not have been a fugitive. Do you have an opinion? Was he a 
fugitive?
    Mr. Libby. In every common-sense term of it, yes, he was a 
fugitive.
    Mr. Kanjorski. Do you think he was a fugitive on 
justifiable charges or was he a fugitive because there was a 
mistake in the interpretation of law by the Southern District 
of New York?
    Mr. Libby. I believe that the Southern District of New York 
misconstrued the facts and the law, and looking at all of the 
evidence of the defense he had not violated the tax laws.
    Mr. Kanjorski. He was not a fugitive.
    Mr. Libby. In every common-sense term, he was a fugitive.
    Mr. Waxman. How about in a legal standpoint?
    Mr. Libby. There is a fugitivity statute which is very 
complicated. I haven't looked at it in years. It has to do 
generally with avoiding State process. It wasn't State process. 
It's very technical matters. I don't recall it. It was so many 
years ago.
    Mr. Waxman. Without knowing all the details, it sounds like 
you would even dispute whether legally he was a fugitive even 
though by the common definition of the word he was a fugitive.
    Mr. Libby. I would think you have to say he's a fugitive. 
But I don't know what the term--when you say legally, the 
question is, what statute or provision are you talking about? I 
don't have any of those in front of me. It's been years since I 
looked at it. I believe he was a fugitive in any common-sense 
meaning of the term.
    Mr. Waxman. Let me, before I yield further--of course, you 
not only knew the information as a defense lawyer but you knew 
everything the prosecutors had to say about Mr. Rich and Mr. 
Green. You've heard their arguments. I assume you also followed 
the hearing we had 3 weeks ago because we had the two 
prosecutors in here. I know you're busy, but you might have 
read in the newspaper their arguments. You disagree with them, 
don't you?
    Mr. Libby. From everything I know, yes, sir.
    Mr. Waxman. At the hearing this committee had several weeks 
ago, there was a considerable discussion about the merits of 
the Rich case; and I want to read to you some of the statements 
that were made and ask you about them. Let me read to you what 
Representative Shays said at the hearing, ``there are some who 
believe, and I am one of them, that former President Clinton 
appears to have pardoned two traitors to their country.'' Do 
you agree with that statement?
    Mr. Libby. As I recall from the snippets I have heard, he 
was referring to a series of trades that they may have made or 
business engagements they may have had, one of which was with 
Iran, one of which was with Iraq, if I recall, South Africa 
maybe, Russia, something like that.
    Mr. Waxman. Whatever.
    Mr. Libby. I don't have any knowledge about any of those 
other items. The only one I've heard about was the transaction 
with Iran, and that was one of the claims in the indictment.
    Mr. Waxman. Well, and you thought the indictment was not 
proper, was not justified.
    Mr. Libby. Yes, sir. That was not my portion of the case, 
but I've always understood from the experts who handled that 
portion of the case that the Rich companies were allowed to 
trade with the Swiss-based Rich companies.
    Mr. Waxman. Do you agree with the statement that these 
gentlemen were two traitors to their country?
    Mr. Libby. I can understand someone using those terms.
    Mr. Waxman. Do you agree with them?
    Mr. Libby. Their companies engaged in trades with Iran----
    Mr. Waxman. Traitors not traders.
    Mr. Libby. No, sir, I was trying to finish--during a period 
when trades were held, and that was an act you could consider 
an act of a traitor.
    Mr. Waxman. That someone could consider, but you do not 
consider it?
    Mr. Libby. I could consider it. I do not condone it. I 
didn't advise it. I do not admire it.
    Mr. Waxman. At the first committee hearing on this pardon a 
few weeks ago, two of the former Federal prosecutors who 
pursued Mr. Rich, Morris Weinberg and Martin Auerbach, 
testified. Mr. Auerbach said the merits in the Rich case were 
unquestionably in the government's favor. Do you agree with 
that statement?
    Mr. Libby. Not from what I know, sir.
    Mr. Waxman. In their joint written testimony to the 
committee, the prosecutors said that in December 1981, it was 
apparent that they had uncovered at that time the biggest tax 
fraud in history. Do you agree with that statement?
    Mr. Libby. Not from what I know, sir.
    Mr. Waxman. I mentioned earlier an analysis done by two 
distinguished law professors, Bernard Wolfman and Martin 
Ginsburg, which defended Mr. Rich's companies from charges of 
tax evasion. Some people have implied this analysis was flawed 
because it was based on biased information.
    At our last hearing, former prosecutor Martin Auerbach said 
that the professors admitted, ``making no independent 
verification of the facts but accepting the statements thereof 
made to us by Mr. Rich and Mr. Green's attorneys.'' Mr. Libby, 
can you tell me, where did you get the information for the 
Wolfman/Ginsburg analysis? Where did it come from?
    Mr. Libby. We got the basic trading documents and summaries 
of those documents as to how the trades occurred. Some of 
documents were provided to me from the files of the law firms 
that have been engaged in defending Mr. Rich during the period 
when he was under investigation through the criminal 
indictment. Some of the documents were provided by the 
prosecution.
    Mr. Waxman. Do you believe that information was accurate?
    Mr. Libby. The information provided to me?
    Mr. Waxman. Provided to Mr. Ginsburg and Mr. Wolfman.
    Mr. Libby. Yes, sir.
    Mr. Waxman. Let me yield to Mr. Cummings.
    Mr. Cummings. I just have a few questions, and I'll yield 
back.
    Mr. Libby, I'm not going to ask you whether you thought the 
pardon should be granted, because I think you pretty much 
answered it already. I mean, I'm just listening to what you've 
said. But let me ask you these questions. Do you believe that 
crimes were committed by these two gentlemen?
    Mr. Libby. Sir, I only know the facts related to this 
particular indictment.
    Mr. Cummings. Yes, I'm talking with regard to this 
indictment, which is the subject of this pardon.
    Mr. Libby. I do not believe that these two gentlemen, based 
on all of the evidence available to me, were guilty of the 
charges for which they were indicted.
    Mr. Cummings. Which would mean that--and I'm just limiting 
myself to the scope of the indictment--so you don't believe it. 
And you would have to--I guess you would, as you can tell me 
you had a pretty good bit of information about these cases, did 
you not, that is the subject of the indictments?
    Mr. Libby. I endeavored to get all the information I could, 
sir.
    Mr. Cummings. Now let me ask you this. Do you think that 
the Southern District of New York treated these gentlemen 
unfairly?
    Mr. Libby. I believe that in some aspects, the use of RICO 
in the Southern District of New York was quite vigorous. I 
would also say it was largely the fault of the defense. The 
defense never went to the government and presented their case 
in that period. They instead chose to play hard ball, if you 
will, and refuse to cooperate with the government. I believe if 
they had cooperated with the government, laid out the case, how 
the transactions worked and what they were, that the Southern 
District of New York would have reached the same conclusions 
about the trades that the Department of Energy reached when the 
Department of Energy looked at these trades and said that, in 
fact, the domestic transactions and the foreign transactions 
were linked and what follows from that is that the no tax 
obligation was owed thereafter not paid.
    Mr. Cummings. Do you believe that--you answered the 
question with regard to the fugitive status. Let me ask you 
this: Do you believe if a person is a fugitive that should 
automatically rule them out of being pardoned? And I'm just 
talking generally now.
    Mr. Libby. Sir, I have never studied the pardon power, 
never look at cases referring to the pardon power. I'm not a 
student of how it has actually been employed. My general 
position would be that the Constitution leaves the power to 
pardon unfettered virtually unfettered by the President, and I 
would be loath to sit here and second-guess the Founding 
Fathers.
    Mr. Cummings. I yield whatever time I have left.
    Mr. Waxman. Just to ask one last question on that point. 
While you're avoiding saying whether the pardon would be 
appropriate, the fact that they were fugitives and everything 
you know about this case wouldn't--would it lead you to 
conclude that if the Southern District Court of New York 
decided to drop the charges that it would have been appropriate 
or did you think it would have been appropriate?
    Mr. Libby. I thought from everything known to me they 
should have.
    Mr. Waxman. So you think it's appropriate for the 
prosecutor to drop the charges, but you're not sure whether it 
was appropriate for the President to use the power to resolve a 
prosecution by dismissing it?
    Mr. Libby. It would be appropriate if the President knew 
what the Southern District knew and looked at the entire case 
and made a decision on it.
    Mr. Waxman. If he knew what you do could he reach that 
conclusion, that the case ought to be dismissed----
    Mr. Libby. Well, the President can reach any----
    Mr. Waxman [continuing]. And pursue it as a civil matter, 
not a criminal matter?
    Mr. Libby. Well, the President can conclude anything he 
wants to on a pardon.
    Mr. Waxman. If he called you up and asked you, what would 
you have said?
    Mr. Libby. I would have recused myself.
    Mr. Burton. The gentleman's time has expired.
    Mr. Waxman. Mr. Chairman, Mr. Kadzik has to catch a flight. 
Do we know if there are any questions to pursue of him?
    Mr. Burton. Let's stop the clock here. While we're checking 
on that, let me ask some questions of Mr. Libby. I'll start the 
clock.
    Mr. Libby, did you talk to or have access to the witnesses 
in the case for the prosecution?
    Mr. Libby. I do not know who all the witnesses for the 
prosecution were, sir. I had access to some witnesses whom the 
prosecution had interviewed.
    Mr. Burton. OK. But the fact of the matter is you only saw 
the defense side of the equation; isn't that correct?
    Mr. Libby. That is correct, sir. I only had the information 
available to defense counsel.
    Mr. Burton. Now the Marc Rich companies paid $200 million 
in fines and penalties when they pled guilty, and they pled 
guilty in open court, and their attorneys were Peter Fleming, 
Maurice Castellanos, Peter Zimroth and John Tighe. I think 
those are pretty prominent attorneys nationwide, are they not?
    Mr. Libby. Yes, sir.
    Mr. Burton. Do you think they would plead guilty and pay a 
$200 million fine if they thought they didn't have a problem 
with the case?
    Mr. Libby. I think they would plead down, sir, if their 
clients told them they should plead guilty. I assume their 
clients at that point wanted to plead guilty.
    Mr. Burton. And pay $200 million?
    Mr. Libby. And pay $200 million rather than continue the 
case.
    Mr. Burton. So what you're saying is the judgment that you 
have here that these gentlemen didn't break any laws is your 
judgment. It might not be any of the judgment of others who had 
more knowledge of the case then maybe you did when they had all 
prosecuting witnesses before them.
    Mr. Libby. That is correct.
    Mr. Burton. I think that's very important. Because my 
colleagues on the Democrat side who have said that they 
condemned the President for this pardon have been making the 
case that the President should have pardoned him. But the fact 
of the matter is the gentleman fled the country, was a fugitive 
for 17 years, paid a $200 million fine, dealt with every enemy 
of the United States, including those who were holding our 
Americans hostage with the threat of death hanging over their 
heads. He tried to smuggle documents out of the country that 
were relevant to the case. And Mr. Fink, one of the interns or 
peoples associated with one of the firms with which you were 
working was involved in trying to help get those out of the 
country on a Swiss airplane. Am I correct on that?
    Mr. Fink. You are correct, but your description is not.
    Mr. Burton. Were they trying to get the documents out of 
the country?
    Mr. Fink. The documents were on an airplane that was going 
to Switzerland, but they weren't being smuggled.
    Mr. Burton. Were they being taken out of the country, and 
were they documents that the government wanted?
    Mr. Fink. Yes.
    Mr. Burton. That's all I need to know.
    But the fact of the matter is this, my colleagues can't 
have it both ways. They can't condemn President Clinton, as 
they have roundly, for pardoning Marc Rich and then have you as 
the Vice-President's chief counsel here and try to make you 
justify the pardon. The fact of the matter is that Mr. Rich was 
a fugitive from justice. He renounced his citizenship and for 
17 years has been trying every way he could to get pardoned.
    Now you may disagree with the outcome, Mr. Libby. You were 
a defense attorney, and you were working on this, and I 
understand that, just like Jack Quinn was working on that as 
well. But the fact of the matter is those who knew the case 
very well, prominent attorneys advised Mr. Rich, a billionaire, 
that he probably ought to pay $200 million and get this thing 
behind him, and they did. All of his companies pled. And then 
when he thought he was going to face criminal charges he fled 
the country. He took off. He went to Switzerland.
    Now most people, if they think they're not guilty and 
there's an indictment against them, they will come back; and 
they will stand trial. And they even offered--our Justice 
Department offered to drop or at least consider dropping the 
RICO charges against him, and he still didn't want to come 
back. They offered to give him take bail, just take his 
passport so he would stand trial; and he still wouldn't come 
back.
    So for those who try to say Mr. Rich was not guilty and try 
to make you who were working on the defense side say that he 
was not guilty and justify that just astounds me. Because they 
have been condemning, like we have, the pardon of Mr. Rich in 
the waning hours of this administration.
    So I'm disappointed that we've taken this turn today 
because I don't think it's justified, No. 1; and, No. 2, I 
don't think it's justified to ask you who were working on the 
defense side to start making a judgment, to try to put you on 
the spot simply because you're working for the Vice President 
of the United States and you may have more credibility in this 
particular case.
    I'll be happy to yield to my--do we have any more questions 
for Mr. Kadzik? Mr. Kadzik, you can catch your plane if you 
want.
    Mr. Kadzik. Thank you very much.
    Mr. Burton. Do either of you have any response to my 
remarks?
    Mr. Libby. No, sir.
    Mr. Burton. OK. Who is next on your side? Mr. Kanjorski.
    Mr. Waxman. I just want to point out for the record that we 
were asking Mr. Libby to testify, because he was the defense 
counsel, who knew more about this case than anybody else. And 
we're not asking him to testify because he works for the Vice 
President. We're asking him because he's a knowledgable person 
about this whole matter. And I can't understand the chairman's 
outburst about it because Mr. Quinn was asked these questions 
over and over again, and I think we're entitled to ask someone 
who has been the attorney for so many years. Thank you.
    Mr. Kanjorski. All right. Mr. Chairman, I want to reiterate 
for the record, those of us that know the facts we know would 
not agree or exercise the judgment as the President has. That's 
not the questions we're asking Mr. Libby. We have a witness 
here who not only is an expert but who probably has more 
information in regard to this case than anybody who has 
testified before the committee. I think, in fairness, if you 
want to express an opinion on the pardon I will give you an 
opportunity. If you decide you don't want to, Mr. Libby, I will 
not press that. You would rather not go further on that.
    Mr. Libby. Thank you, sir.
    Mr. Kanjorski. But you did say something else, and I want 
to go back to it. Let me put this in context. You represented 
Mr. Rich from what period of time to what period of time?
    Mr. Libby. Spring of 1985 till fall probably, or end of 
summer of 1989, not continuously, of course, but periodically. 
And from 1993 after leaving the government, some period after 
leaving the government, back, you know, with a matter that was 
under consideration until about 1995. It was then inactive. And 
I represented him again in connection with Mr. Quinn's approach 
with respect to the Southern District and the Department of 
Justice sometime in 1999, and that effort ended sometime around 
the spring of 2000.
    Mr. Kanjorski. From 1999 until the end of 2000 
approximately. Now what period of time and what information 
came to your attention that you made the conclusion both 
legally and otherwise that he was a traitor?
    Mr. Libby. Sir, what I said is that I can understand 
someone viewing the evidence that he traded with Iran as a 
traitor.
    Mr. Kanjorski. The question wasn't put that way. The 
question was, do you consider Mr. Rich a traitor?
    Mr. Libby. On that trade I can understand that, yes, sir.
    Mr. Kanjorski. I didn't ask if you can understand.
    Mr. Libby. I do not condone----
    Mr. Kanjorski. Mr. Libby, do you consider him a traitor or 
don't you? It's very straightforward. If you don't consider him 
a traitor, say you don't. If you do, say you do.
    Mr. Libby. I would not have made that trade. You could 
apply the traitor to it.
    Mr. Kanjorski. Do you consider him for having made that 
trade a traitor?
    Mr. Libby. It's not a word I would use.
    Mr. Kanjorski. You can't be half pregnant, Mr. Libby. He is 
or isn't. It seems to be very simple. Is he or isn't he? You 
said before you considered him a traitor. Is that correct, what 
I heard?
    Mr. Libby. I would say yes.
    Mr. Kanjorski. What I am interested in is, when did you 
consider him a traitor? When did you get that information and 
become aware of that information and draw that conclusion 
personally?
    Mr. Libby. The information is in the indictment which was 
issued in 1983, something like that.
    Mr. Kanjorski. So for this period, the last 17 years, 
you've considered this client of yours a traitor.
    Mr. Libby. Sir, my understanding is that the conduct in 
which he engaged was not illegal, but I agree with the 
description that you could consider him a traitor for trading 
with Iran during that period.
    Mr. Kanjorski. Not I consider him. You consider him.
    Mr. Libby. Yes.
    Mr. Kanjorski. How many traitors to this country do you 
call up in your official capacity?
    Mr. Libby. I call none, sir.
    Mr. Kanjorski. You did on January 22 when the new 
administration took office and you were chief of staff to the 
Vice President of the United States.
    Mr. Libby. Not in my official capacity, sir.
    Mr. Kanjorski. But you do call traitors in your unofficial 
capacity?
    Mr. Libby. No, sir. I called Mr. Rich to respond to his 
request.
    Mr. Kanjorski. Why would you call a traitor, somebody you 
considered a traitor, after he got a pardon that was a 
hullabaloo in this country? You can't tell me you didn't know 
about the reaction to the pardon. You knew there was a 
hullabaloo in the country about the pardon. You in your own 
mind consider him a traitor. Why did you call him?
    Mr. Libby. Mr. Rich is a former client. I believe he was 
not guilty of those things of which he was charged based on the 
evidence available to me. He had called Mr. Green to say that 
he wished to call me and thank me for my services. I had always 
taken his calls when he was a client of mine. He had been 
pardoned by the President for those very trades, and so I 
called him.
    Mr. Kanjorski. Would you call another traitor in the 
country again?
    Mr. Libby. I don't believe I know any other traitors, sir.
    Mr. Kanjorski. Stick around this committee long enough. You 
may learn something.
    Mr. Barr [presiding]. The time of the gentleman has 
expired.
    Mr. Fink, drawing your attention please to exhibit 135 we 
were looking at earlier and the e-mail in the middle of that 
page from Mr. Azulay to you dated February 10, 2000, the 
operative phrase there that we're concerned with is ``the 
unconventional approach''. What did you take that phrase to 
mean, ``the unconventional approach''?
    Mr. Fink. I have no recollection of this particular e-mail. 
I do not know what Mr. Azulay meant on February 10, 2000. But I 
do know that I don't believe it was a pardon application.
    Mr. Barr. You replied to him, and you don't address it 
expressly in your reply. You employ some level of detail 
regarding the backgrounds of the steps that the U.S. Attorneys 
Office for the Southern District of New York at various times 
had said they were willing to consider. And then you say, ``as 
for your other question, to the best of my knowledge, other 
than the negative answer, all other matters remain the same.'' 
To what were you referring there and what does that sentence 
mean?
    Mr. Fink. I do not remember.
    Mr. Barr. It's a rather unusual e-mail that Mr. Azulay 
sends. His use of the term ``the unconventional approach'', did 
that give you some pause at the time? Did you wonder what he 
was talking about?
    Mr. Fink. I may have actually known what he was talking 
about at the time. I just do not recall now what he might have 
been talking about.
    Mr. Barr. You have no reason to have any thoughts 
whatsoever or can't draw any conclusion looking at this e-mail 
as you sit there.
    Mr. Fink. That is correct.
    Mr. Barr. And with regard to your e-mail, the one at 10:29 
a.m., you don't know as you sit here what you were referring to 
in that one sentence I read.
    Mr. Fink. All of the matters remain the same?
    Mr. Barr. To--the whole sentence, to the best of my 
knowledge, other than the negative answer, all other matters 
remain the same. Were you replying to his notion of an 
unconventional approach?
    Mr. Fink. I read this e-mail almost as you do. I do not 
recall it, and I do not recall what Mr. Azulay was talking 
about. I did volunteer because I thought I should that I have 
every reason to believe he was not talking about a pardon. 
Because I think I would have recalled any serious discussion 
about a pardon at this time, and I do not.
    Mr. Barr. I mean to be honest with you. I have no idea what 
he's talking about. I don't know that he's necessarily talking 
about a pardon.
    Mr. Fink. I thought that's what you suggested earlier.
    Mr. Barr. No, I haven't asked any questions. I was just 
wondering if you could enlighten us as to what it is he's 
talking about. He might have had something completely different 
in mind. I don't know.
    Mr. Fink. I do not know.
    Mr. Barr. Mr. Libby, there is the very next exhibit, No. 
136 from Mr. Fink to Marc Rich, along about the middle of that 
e-mail it mentions your name. It says that all agree that we 
should try to approach the DOJ tax lawyers even without the 
SDNY, Southern District of New York, if necessary. I know that 
Scooter always felt this was our fall back position.
    Could you explain briefly what that fall back position was?
    [Exhibit 136 follows:]

    [GRAPHIC] [TIFF OMITTED] T5593.699
    
    Mr. Libby. Sir, as I understand it, the Department of 
Justice has the right to review any decisions made by a U.S. 
attorney for any particular district.
    Mr. Barr. On tax matters.
    Mr. Libby. On tax matters. I think on all matters, but you 
would have to consult someone who does more of this than I do. 
My feeling was that the Southern District of New York--let me 
see. I actually don't recognize this sentiment particularly, 
but I believe that if the Southern District of New York did not 
give us a satisfactory answer the only resources was the 
Department of Justice.
    Mr. Barr. I don't want to put words in your mouth. Are you 
basically saying that, given your understanding of the position 
of the U.S. Attorneys Office for the Southern District of New 
York, the best approach might be to take the merits of the case 
and argue them directly to main Justice?
    Mr. Libby. If we can get main Justice to listen to us, the 
tax lawyers at main Justice, we would have welcomed the 
opportunity to, yes, sir.
    Mr. Barr. Which was essentially the conclusion Jack Quinn 
reached.
    Mr. Libby. Yes, sir.
    Mr. Barr. Thank you.
    The gentleman from Maryland, Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman. I just 
want to go back to something that Chairman Burton said a few 
minutes ago that really disturbed me, and I want to make sure 
we're very clear there, Mr. Libby, because I want to be very 
fair to you.
    We on this side, Mr. Burton is correct, had major problems 
with the judgment of the President with regard to these 
pardons. As to trying to get you to say that the pardons should 
have been granted, I don't think that's the case. What we're 
trying to do, though, is get to the truth. The pardons were--I 
mean, we're--when we're talking about pardons we're basically 
talking about forgiveness of criminal activity. And we've 
already had Miss Nolan, Mr. Lindsey, Mr. Podesta come in here 
and testify that they had a problem with the granting of 
pardons, and there was no efforts on our part to tear up their 
testimony. As a matter of fact, we took time out on this side 
to applaud them for coming in, and I heard Mr. Waxman say it 
over and over again, applaud them for coming in and making 
public what had previously been private and being something 
that was advice given to the President that the President did 
not adhere to.
    And so it's not about trying to get you to say that the 
President should have pardoned Mr. Rich. However, as Mr. Waxman 
has said and Mr. Kanjorski has said, you are a person who has 
spent many years, years dealing with this matter. As a matter 
of fact, you are without question one of probably the most 
knowledgeable people about this case. And so it would seem to 
me, it does not matter to me whether you are the chief of staff 
for Vice President Cheney or not. To me that's irrelevant.
    What is relevant, however, is that you have facts with 
regard to this case and what the media has sort of zeroed in on 
is the whole question of what, if any, justification did the 
President have for granting these pardons. Was it bad judgment? 
Was it criminal activity?
    And you have come in and you've said something that's 
interesting--and I'll be very frank with you, I did not expect 
it, but I'm very pleased to hear it--that you do not believe 
that these two gentlemen, the subjects of this pardon situation 
that we're discussing, you do not believe, based upon the 
information that you have or had, that they have committed any 
crimes.
    I mean that is to me, I mean that to me says a whole lot. 
And I think it's not about, I mean--and so if you've got a 
pardon apparatus which is supposed to forgive, be about the 
business of forgiving criminal activity. But if there are those 
who are most familiar with the case that have come to the 
conclusion that there was no criminal activity, then it seems 
to me that one could make a reasonable argument that perhaps 
the President at least had some rational basis for doing what 
he did.
    I did hear your testimony with regard to some questions 
that Mr. Waxman asked you earlier when he went through very 
carefully the justifications given in the New York Times piece 
with President Clinton's justification for what he did, and it 
seems to me, because I was not room at the moment, but as I 
listened to it, that you agreed with the various points that 
President Clinton made as the basis for his opinion; I'm not 
dealing with whether you agree whether she should have 
pardoned, at least the basis. Was that correct?
    Mr. Libby. Yes, sir, based on the information available to 
defense counsel.
    Mr. Cummings. Very well. Now you keep saying that and I 
just want to, you know, be real clear on this. I don't want the 
public to get the information that defense counsel lacks a 
whole lot of information about a case. Usually you have a 
pretty good idea of what the other side is presenting, and 
that's how you've prepared your defense; is that correct? I 
mean, most of the time the defense counsel have a pretty good 
idea of what is going on, what is being offered on the other 
side. And apparently there's been some talk of negotiation, so 
you had a pretty good idea, would you guess, about what the 
prosecution had?
    Mr. Libby. It's very true in civil litigation, sir, that 
the defense usually has a very good idea of what the plaintiff 
has, because civil cases were allowed to discover every bit of 
relevant evidence. As you may know, in criminal cases the 
government does not share its cards with the defense. They hold 
them close to their chest except for certain things that are 
required by the court to hand over. We didn't reach all of the 
phases of the case that--where it would have been turned over. 
So I've been very careful as best I can, sir, to help the 
committee, to say I do not know what evidence the government 
may have claimed they had. All I knew was the evidence 
available to defense counsel and based----
    Mr. Cummings. One last question, Mr. Chairman. Just during 
the course of, you had dealings with the government, did you 
not?
    Mr. Libby. I had two meetings with the government in 1987, 
sir.
    Mr. Cummings. And during those times they didn't reveal to 
you what they had, anything of what they had?
    Mr. Libby. No, sir, they made some statements. In fact, Mr. 
Auerbach said to us there was evidence that we didn't know.
    Mr. Cummings. Thank you.
    Mr. Barr. The gentleman from Connecticut, Mr. Shays, is 
recognized for 5 minutes.
    Mr. Shays. Thank you, Mr. Libby, and thank you, Mr. Fink. 
You have stayed around a while. It's a late night and I 
appreciate it. And I will confess, Mr. Libby, that this is a 
little awkward for me, because I consider you a person in a 
very powerful position, working for someone I have tremendous 
respect for, who I consider one of the most powerful people in 
the United States, and you're before the committee and thank 
you for being here.
    But what I wrestle with is just not doing what I have been 
critical of my colleagues on the other side of the aisle for 
doing, and that is not asking the questions you really want to 
ask of maybe your friends. And I consider you and obviously 
this administration, I hold you up to the highest esteem, but I 
do want to ask you my questions.
    The first thing I do want to say, though, it's my 
understanding that you in no way were involved in this pardon 
process.
    Mr. Libby. Correct, sir.
    Mr. Shays. And that the purpose for you being invited to 
this committee was that when you weren't working for the 
government, you represented Mr. Rich over a period of a number 
of years.
    Mr. Libby. Correct, sir.
    Mr. Shays. It's also my understanding that attorneys can 
represent people, one, they think are guilty and, two, they may 
not like, but everybody's entitled to their defense.
    Mr. Libby. That is correct, sir.
    Mr. Shays. Now it seems to me that you have some affection 
for this client that you had and you believed in his cause.
    Mr. Libby. That is correct, sir. Well, I believed that all 
the evidence available to me indicated he was not, that his 
companies were not guilty of the crimes for which they had been 
indicted.
    Mr. Shays. They may have been guilty of other crimes but 
not these crimes.
    Mr. Libby. I only represented him with respect to these 
crimes, sir.
    Mr. Shays. Now Joe diGenova, when he commented about the 
Marc Rich pardon, said the bottom line is that Mr. Rich, while 
never subjecting himself to the jurisdiction of the United 
States, got a pardon under circumstances which are so 
apparently corrupt by the appearances, large donations by his 
former wife to the Democratic Party, gifts for the Clinton 
family, the refusal of the President to talk to the Justice 
Department about the case. That was said on the Today show, 
January 30th.
    He also said that Rich was indicted and he was a fugitive, 
which makes him a highly unusual case, in that it is rare for 
someone who has sought to evade the criminal justice by 
becoming a fugitive to be pardoned. In fact, I think it is 
unprecedented. That was said on McLaughlin on January 26th. He 
said on McLaughlin on the 26th, what is striking about the one 
pardon that didn't happen was the President did not pardon the 
American spy, Jonathon Pollard, who spied for Israel. It is 
clear that Pollard's people did not give enough money to the 
DNC or the President and that they had the wrong lawyer, Alan 
Dershowitz. So there's a lesson there for people seeking a 
pardon, hopefully from no future President the way this 
President uses pardons.
    Obviously Joe diGenova believes that this was a pretty sad 
affair, but he's representing Jack Quinn who is entitled to his 
defense, and he believes that Jack Quinn had every right to 
lobby the way he did. What I'm interested in knowing is, would 
you have ever sought to lobby either this administration or the 
other administration for a pardon for Marc Rich?
    Mr. Libby. You mean----
    Mr. Shays. You didn't seek, you didn't try to, but I'm 
asking you if you had been paid to do so and you were a private 
sector, would you have sought to get pardon for this man?
    Mr. Libby. Were I not involved in the government and still 
in private practice, would I have participated in an attempt to 
get a pardon for Mr. Rich?
    Mr. Shays. Right.
    Mr. Libby. Quite possibly, if the client wished us to get a 
pardon and I did not see any problem with it. I don't see any 
technical problem with going for a pardon, if a client wants 
to.
    Mr. Shays. Let me ask you this. Would you in your capacity 
today first advocate that a pardon be granted without making 
sure that it had been properly vetted?
    Mr. Libby. No, sir.
    Mr. Shays. You would, in other words, make sure it was 
properly vetted.
    Mr. Libby. If you're asking me----
    Mr. Shays. Properly vetted.
    Mr. Libby. Correct. I wouldn't want----
    Mr. Shays. In your judgment, what would that involve?
    Mr. Libby. Proper vetting by the White House of a pardon 
application.
    Mr. Shays. What would that mean?
    Mr. Libby. I assume they should gather all relevant 
information about the person. Let me say that the President's 
pardon is unfettered, the President's power to pardon is 
unfettered, so technically it would be proper for him to do it 
without consulting with anyone and it would be not questioned. 
I believe that.
    Mr. Shays. I know my red light's on but when you guys do 
this to me, it just blows my mind. Having an absolute power, if 
anything, means, doesn't it, that they should do an even more 
thorough job to make sure they have vetted it properly?
    Mr. Libby. Yes, sir. I was about to finish by saying while 
he has that absolute power, it seems to me he should exercise 
it by bringing in all the possible information that would be 
relevant to him and thereby have a process which would be fair 
and have very high standards.
    Mr. Shays. Including----
    Mr. Barr. The gentleman's time has expired.
    Mr. Waxman. If I might be recognized.
    Mr. Barr. The gentleman from California is recognized for 5 
minutes.
    Mr. Waxman. Mr. Libby, you just answered what you would say 
if you were advising the administration on how to handle this 
sort of thing. But you were for many years the counsel for Mr. 
Rich. Can you tell us how much money you received or your firm 
received in that capacity?
    Mr. Libby. I received none. The firm would receive the 
fees. I don't know offhand how much it would be.
    Mr. Shays. Over $100,000, over $500,000, over a mill?
    Mr. Libby. Certainly, sir.
    Mr. Shays. Over $2 million?
    Mr. Libby. It is probably in that ballpark, I would guess.
    Mr. Shays. Now, as a good lawyer----
    Mr. Libby. At different firms. I was in different firms 
over this--firm received in total.
    Mr. Shays. But you had Mr. Rich as your client?
    Mr. Libby. Yes, yes.
    Mr. Shays. Now, as the defense counsel for Mr. Rich, you 
heard what he had to tell you, but wouldn't you make an 
investigation as to what the case might be on the other side to 
try to prepare for your client's best interest?
    Mr. Libby. Certainly, sir.
    Mr. Shays. And when Mr. Wolfman and Ginsburg had the 
information before them to make their report, did they get all 
the documents that they needed to get, in your opinion, to give 
a sound judgment on their part?
    Mr. Libby. All the documents available to us were available 
to them.
    Mr. Shays. OK. And you think that they had the documents 
that would have given them the information they needed to reach 
their conclusions they reached.
    Mr. Libby. Yes, they had the information that they needed, 
to the extent we had it, to reach their conclusions.
    Mr. Shays. Well, a lot of people tried to discredit their 
analysis by saying they didn't have valuable, they didn't have 
valuable and accurate analysis of the situation. You're not 
critical of them, you think that they had valid information.
    Mr. Libby. Right. I believe they had the best information 
that they could have.
    Mr. Shays. And you had the best information you could have, 
although no one has all the information, but you've told us 
that based on all the information you had, you didn't think 
that Mr. Rich was or his companies were guilty of the crimes 
for which they were charged.
    Mr. Libby. Based on the information available to us, yes, 
sir.
    Mr. Shays. You don't want to say whether the President 
could give a pardon or not, you don't want to reach the 
conclusion on that issue. But would the President of the United 
States have to be corrupt, would the President of the United 
States have to take a bribe to reach a conclusion in his mind 
on the merits that perhaps Mr. Rich and Mr. Green were not 
guilty of the charges brought against them?
    Mr. Libby. Would he have to take a bribe? No, sir.
    Mr. Shays. Would somebody have to take a bribe to reach 
that conclusion, or do you think somebody on their view of the 
merits could agree that these charges shouldn't have been 
brought and that a pardon would resolve the matter, just as the 
prosecutor dropping the case would resolve the matter?
    Mr. Libby. I don't know what was going through the 
President's mind when he made his decision.
    Mr. Shays. Of course you don't know, and I don't know 
either. But would a reasonable man reaching the conclusion that 
he reached only come to that conclusion if he were corrupt, or 
could he have the view of the merits that you seem to have also 
had, that the charges weren't justified?
    Mr. Libby. I believe it would have been more reasonable for 
the President to have received fuller information, from what I 
understand.
    Mr. Shays. I think so, too. I feel very critical that he 
didn't get more information. But what he had, based on what he 
had, it's not unthinkable that he could reach this conclusion 
that he reached? You reached the same conclusion, that the 
charges brought against Mr. Rich and Mr. Green were not 
justified.
    Mr. Libby. Correct, sir; I reached the conclusion that 
based on the evidence available to us, he was not guilty of the 
crimes for which he had been indicted.
    Mr. Shays. I don't want to belabor the point about your 
view that they might be traitors. I don't know what the legal 
ethics are for representing people you consider to be traitors 
for 17 years. It's a little puzzling you would call a traitor 
up and congratulate him on a pardon. So--and then I think there 
were technical issues, maybe you weren't involved in them, 
whether the subsidiaries were foreign subsidiaries, whether 
they're parent companies or sister companies. Do you think that 
there's a legal argument that perhaps they weren't traitors to 
the country of the United States?
    Mr. Libby. There's a legal argument that the trade that was 
engaged in was a legal trade, as I understand it.
    Mr. Shays. And if it were a legal trade, would they be 
traitors to the country? This country?
    Mr. Libby. Well, you can take the view that it would be--
that what they were doing, while legal, was not in the 
country's best interest, and that's the final question.
    Mr. Shays. It may not be in the country's best interest; 
that doesn't make you a traitor. Traitor's a legal matter. Mr. 
Fink, do you think Mr. Rich and Mr. Green were traitors to this 
country? You know a lot about this whole case.
    Mr. Libby. That was never my perception.
    Mr. Shays. Thank you.
    Mr. Barr. Mr. Libby, in the editorial published by the New 
York Times that we've discussed earlier today, President 
Clinton wrote, ``The applications were reviewed and advocated 
not only by my former White House counsel, Jack Quinn, but also 
by three distinguished Republican attorneys: Leonard Garment, a 
former Nixon White House official; William Bradford Reynolds, a 
former high-ranking official in the Reagan Justice Department; 
and Lewis Libby, now Vice President Cheney's chief of staff.''
    That was not an accurate statement, that the President 
made, was it?
    Mr. Libby. That is correct. It was inaccurate.
    Mr. Barr. The fact of the matter is that you've never 
reviewed the pardon application, have you?
    Mr. Libby. Even to this day, sir.
    Mr. Barr. And you have never advocated on behalf of the 
pardon application, have you?
    Mr. Libby. That's correct, sir.
    Mr. Barr. Do you know where Mr. Clinton got this wrong 
information?
    Mr. Libby. I have no idea, sir.
    Mr. Barr. Thank you. I yield to the gentleman from 
Connecticut, Mr. Shays.
    Mr. Shays. Thank you. Mr. Libby, I interrupted you when I 
asked you about absolute power because I anticipated an answer 
that I had no right to anticipate. It was your testimony that 
an absolute power, because it's an absolute power, needs to be 
exercised more carefully.
    Mr. Libby. I would agree with that statement, sir.
    Mr. Shays. And the question I now wonder--because one of 
the issues that this committee does is we look at waste, fraud 
and abuse, and we don't legislate, we don't appropriate, but 
what we do is recommend changes. Now obviously, an absolute 
power can be exercised by this President any way he chooses to, 
but one of the hopes that I have is that this committee will 
recommend to this administration that they don't do all the 
stupid things that we heard happen in today's testimony. And I 
would make the assumption that your people are looking at what 
happened in the last few months and are hopefully saying we are 
not going to do the same thing.
    Mr. Libby. President Bush has stated, sir, that he believes 
that the power is a virtually unfettered power but that he 
would exercise it fairly and with high standards.
    Mr. Shays. It's also my understanding that we need to look 
at the revolving door process, and Mr. Kadzik is an individual 
who was hired, frankly, to lobby Mr. Podesta. He knew him, he 
was a client. Mr. Podesta was a client. I am not trying to say 
something, since he's not here to defend himself. That's pretty 
much factual and I'll leave it at that. We even have Mr.--well, 
it just strikes me that part of the reason this administration 
got into trouble was that it allowed certain people to have 
access, who had significant influence, who only knew part of 
the story. Frankly, Mr. Libby, you only know part of the story.
    Mr. Libby. That's correct.
    Mr. Shays. Unless you have checked with the Intelligence 
community of the United States to understand all the various 
activities of this man called Marc Rich. And I make an 
assumption that when you were in the private sector you did not 
have that capability.
    Mr. Libby. Of course not, sir.
    Mr. Shays. I'm also going to make an assumption, and tell 
me if I'm wrong, that when you were in the public sector and 
might have had access to this information, because you were not 
going to involve yourself with Mr. Rich's activities as a 
government employee, that you did not seek to get this 
information.
    Mr. Libby. That's correct; I recused myself.
    Mr. Shays. So the bottom line is it's almost irrelevant, 
with all due respect and with no disrespect, for you to suggest 
that he should have gotten a pardon or shouldn't have, because 
you truly don't know facts that this committee knows that may 
have led you to another conclusion.
    Mr. Libby. That is the point I've been trying to make, sir.
    Mr. Shays. And it's also a fact that--I guess, let me ask 
you this question. Is the administration considering a 
revolving door process to set a standard to make sure that if 
someone leaves the employment of the White House or the 
executive branch, they at least not lobby the executive branch 
for a period of time like we have in Congress, which is 1 year?
    Mr. Libby. I do not as a matter of fact know that, sir, and 
I'm not here the person to testify for the administration on 
that. I'm not here tonight as an administration witness.
    Mr. Shays. Well, I would just, since I don't get to speak 
to you as a general rule, I would make that argument that this 
is something that would be helpful to the administration, 
because in my judgment it will prevent the kind of junk that we 
have seen happen in the last few weeks. It's a protection to 
the administration and to the American people, and I truly hope 
that will be considered along with a very clear process of 
vetting of pardons.
    Mr. Libby. I agree so, sir, and I welcome the chance to 
talk to you outside of this informal format to go through that.
    Mr. Barr. The time of the gentleman has expired. The 
gentleman from Maryland, Mr. Cummings, is recognized for 5 
minutes.
    Mr. Cummings. Thank you very much Mr. Chairman. I really 
want to followup on some of what Mr. Shays has said, and I 
think that there is no one who has listened to this who doesn't 
understand the fact that you don't have every fact of this 
case, and I think that you've been very clear on that and I 
really do appreciate the way you have presented it, because I 
mean we understand that. That's not the issue, though.
    Mr. Libby. Thank you, sir.
    Mr. Cummings. But let me just ask you this. I'm also a 
lawyer and there's some cases when you take them, you really 
believe that your client's got a great shot. On the other hand, 
there are some cases that you take and you almost want to walk 
in to the prosecutor's office and say let's make a deal. And 
you may not in either case, you don't have all the facts. You 
don't have everything that the prosecution has but you do have 
what your client's telling you. You do have documents that they 
may have presented to you. You do have access to witnesses that 
they feel might shed light on their case and might be helpful.
    And so I guess what I want to ask you is that this was not 
one of those cases--you worked on it for so long, but this was 
not one of those cases that you wanted to walk into the 
prosecutor's case and say, look, you know my clients are 
guilty, and let's make a deal as fast as we can. It wasn't that 
kind of case, was it?
    Mr. Libby. No, sir.
    Mr. Cummings. And it was a case, I take it from just based 
upon what you've told us, that you felt that you--your client 
would have had a reasonable shot if he had gone to trial, if 
they had gone to trial, would have had a reasonable shot 
because you never can tell what a jury is going to do, but what 
he had a reasonable shot at being successful; is that right?
    Mr. Libby. Based on all the evidence available to the 
defense, that's right, sir.
    Mr. Cummings. So when Mr. Shays talks about you not having 
all the facts, I mean we understand that. But we also 
understand that you had quite a bit of information, as you 
testified to a little bit earlier.
    Let me just go back to something that you said that I'm 
just curious about. You said that Mr. Rich called you and you 
all had a discussion with regard to the fact that he had been 
pardoned.
    Mr. Libby. He called; essentially correct, sir. He called 
Mr. Green and left a message with Mr. Green in effect that he 
would like to speak to me.
    Mr. Cummings. You did speak to him, then?
    Mr. Libby. I did speak to him; yes, sir.
    Mr. Cummings. Can you tell us about that conversation?
    Mr. Libby. Sure. I called him from my home very early in 
the morning. He's in Switzerland and so there's a time 
difference. It was a very brief conversation. By the time he 
got on the phone, it might have been only a minute or so, or 2-
minute conversation. Was quite brief. He said that he 
appreciated what I had done for him over the years of working 
for him, of course, prior to the pardon, and I congratulated 
him on having reached a goal that he had sought for a long 
time. Of course, none of these issues had arisen at that point 
in time. I had no idea what had gone on in the pardon process, 
even the newspaper reader's idea of what had gone on in the 
pardon process. This all came up later.
    Mr. Cummings. Now, we fully understand that you were not a 
part of actually trying to get this pardon. We understand that. 
But when he thanks you, I take it that you can--I mean, if you 
can shed some light on this I'd appreciate it--that he was 
thanking you because you basically were the architect over the 
years for putting again together enough information. And I 
mean, through your efforts, that's a lot of--you said somewhere 
in the area of $2 million worth of work--that's quite a bit of 
work. But you were the architect for putting together a lot of 
the information that was probably used in Mr. Quinn's arguments 
and in the justification that the President gave in the article 
that has been referenced so much here in the New York Times. Is 
that correct?
    Mr. Libby. Well----
    Mr. Cummings. I'm not saying that you did it with the 
pardon intent and effort, but basically a lot of that 
information was probably used; is that correct?
    Mr. Libby. The defense team divided up the issue, sir. I 
worked primarily on the tax issue and I worked some on the 
energy issue. Mr. Fink's firm had experts in energy law and 
export controls and things like that, so his firm led that 
portion of the case. So it was a team effort in which my prime 
responsibility had to do with the tax side of the case.
    Mr. Cummings. Let me just say this and then I'll--I want 
to--I do agree with Mr. Shays on this, that I think we have all 
learned a lot from this, and I'm glad that you are where you 
are in the administration, because I think that there's nothing 
like going through a process like this that teaches us more. I 
mean, a lot of people can tell us, but once we go through this 
process I think it is a very tough lesson about trying to make 
sure that, you know, we can see how things can be dealt with in 
a proper fashion in the future. And I appreciate your comments 
in response to Mr. Shays' questions about, you know, the 
administration and President Bush and how he intends to handle 
these matters, and I do appreciate your testimony.
    Mr. Libby. Thank you, sir.
    Mr. LaTourette [presiding]. I thank the gentleman from 
Maryland for his excellent questions. And, fellows, when they 
ask me to chair the hearing, it means we're almost done. I can 
guarantee you that. And it's now time for the counsel on each 
side to ask questions, and we'll yield to the counsel for the 
majority, Mr. Wilson.
    Mr. Shays. Mr. Chairman, if I could just inquire, we should 
feel free--I don't want to give up my right to ask more 
questions.
    Mr. LaTourette. You've surrendered no right.
    Mr. Shays. I may not have any but--and Mr. Cummings may 
want to stay as well.
    Mr. LaTourette. If you have questions, Mr. Shays, just let 
me know. We'll go to Mr. Wilson. If you want to interrupt him, 
or if you want time in your own right, just let us know.
    Mr. Wilson. I will try and move quickly through this, and 
I'm glad we are not talking about kidnapping statutes this time 
either.
    Mr. Libby, just for the record, we've had a lot of 
discussion about what you know and what you didn't know, and 
you have been very careful, you said, based on evidence 
available to the defense or based on the evidence available to 
me. And I wanted to just make sure we have the full 
understanding of that, because when we had prosecutors testify 
before us, they spoke of dozens of witnesses that they were 
prepared to put on at a trial, and it is fair to say that you 
did not know what those witnesses would have said at trial.
    Mr. Libby. It would depend which witnesses. Well, it is 
true I did not have any idea what they would say at trial. Some 
of the witnesses we had interviewed and some of the witnesses 
we may have seen previous testimony from. Those people, we had 
at least some notion of what they might say at trial, but I do 
not know who their dozens of witnesses would have been. To the 
extent I know of their witnesses and who they are, then we had 
some sense of what they would say with almost entirely--almost 
all of them, we had a good sense of what they would say.
    Mr. Wilson. And I think that goes to my point that you knew 
some of what the government had, but you didn't know everything 
and you didn't know all of the witnesses that would be made 
available and you were not aware of everything that would be 
said; is that correct?
    Mr. Libby. That's correct, sir.
    Mr. Wilson. And for example, I mean this is somewhat 
hypothetical because we don't know, but if there are witnesses 
who would have testified that information had been destroyed or 
documents had disappeared, that would have had an impact on the 
overall case, would it not?
    Mr. Libby. Probably not on the tax analysis. It would have 
had an impact on how the jury might have viewed them. It might 
have had an impact on an obstruction of justice charge. The tax 
analysis has to do with the transactions that occurred and what 
motivated those transactions. Intent is really not all that 
important for it and destruction of documents might not be so 
important for it, but it might well color how a jury perceived 
what went on.
    Mr. Wilson. But in addition, without the full knowledge of 
what the facts of the case were--and it's entirely possible 
that there were facts that were unavailable to the tax 
analysis, indeed this is what the prosecutors told us a few 
weeks ago, that there was information that was significant for 
the tax analysis--it is not your position today that there 
could have been no additional information that would have been 
germane to the tax analysis, is there?
    Mr. Libby. Correct. It's my contention that there may have 
been, although I don't know what it may be.
    Mr. Wilson. Fair enough.
    Mr. Fink, when Mr. Quinn left Arnold and Porter, and I 
believe that was the end of 1999, did you--I should back up 
because we're starting a new subject. When Mr. Quinn was at 
Arnold and Porter, he had a retainer agreement whereby Mr. Rich 
paid, I believe, $55,000 per month to his former law firm, 
Arnold and Porter. When he left his law firm, did you discuss 
with him the possibility of signing a new retainer agreement to 
compensate him for the work that he would do for Mr. Rich?
    Mr. Fink. The precise answer, I think, is no. We did have a 
conversation about the fact that we did not have a fee 
arrangement, but we didn't talk about a retainer agreement, to 
the best of my recollection, after he left Arnold and Porter.
    Mr. Wilson. Why was there no fee arrangement?
    Mr. Fink. The work that had been done while he was at 
Arnold and Porter ended in early 2000. I think everybody felt 
there wasn't any need to provide additional compensation for 
that work, and it did not appear at all certain that there 
would be additional work in the future.
    Mr. Wilson. And that might explain why a retainer wouldn't 
be signed; but as Mr. Quinn did additional work, was it ever 
contemplated that you would be compensated for the work he was 
doing?
    Mr. Fink. It was contemplated by me.
    Mr. Wilson. And what were you thinking about Mr. Quinn's 
compensation?
    Mr. Fink. I personally thought that we should try and come 
up with a retainer agreement for Mr. Quinn going forward. But 
we did not.
    Mr. Wilson. And was there a reason for not coming to some 
type of arrangement? The general perception of lawyer is 
they're not benevolent societies and they do need to pay their 
bills, and we're just wondering why there was not an 
arrangement agreed to.
    Mr. Fink. It was not an issue that was pursued by anybody. 
There was very little activity from the spring of 2000 to the 
fall of 2000.
    Mr. Wilson. When Mr. Quinn began pursuing the pardon, the 
prospect of a pardon, did you anticipate compensating him for 
that work?
    Mr. Fink. I anticipated that he would be compensated for 
that work by Mr. Rich.
    Mr. Wilson. And if you could, tell us what you were 
thinking.
    Mr. Fink. Actually, I don't know that I was thinking 
anything other than he was entitled to some fair fee, the exact 
parameters of which I did not have in mind. I believe I told 
Mr. Quinn when we started to discuss the pardon that we would 
find a fair fee arrangement for him consistent with whatever 
his fee arrangements were. I did not know how he was handling 
fee arrangements.
    Mr. Wilson. Did you discuss with Mr. Rich compensating Mr. 
Quinn?
    Mr. Fink. Could you excuse me just one moment?
    Mr. Wilson. Certainly.
    Mr. Fink. The answer is yes, I did. I communicated thoughts 
I had to Mr. Rich, with which he did not disagree.
    Mr. Wilson. And what did you communicate to him?
    Mr. Fink. I actually communicated to him what I told to Mr. 
Quinn.
    Mr. Wilson. And what was that?
    Mr. Fink. That we would come to a fair fee arrangement that 
was consistent with his normal fee arrangements.
    Mr. Wilson. So you had communicated to Mr. Quinn that you 
would come to an arrangement with him to compensate him?
    Mr. Fink. Yes.
    Mr. Wilson. And when was that?
    Mr. Fink. The precise date I do not know, but it was most 
likely early November 2000.
    Mr. Wilson. And when did you stop thinking that was going 
to be the case?
    Mr. Fink. I stopped thinking that was going to be the case 
during the first hearings of this committee.
    Mr. Wilson. When I was asking Mr. Quinn about his 
compensation?
    Mr. Fink. I believe you were the questioner.
    Mr. Wilson. I'm not quite sure where to go after that. But 
you had not had a conversation with Mr. Quinn during which you 
had discussed the prospect of him not being compensated up 
until at least the time of our last hearing; is that correct?
    Mr. Fink. It was always my contemplation, I mean, not that 
I reflected on this frequently, but if you had stopped me at 
any point in time and said would you expect that Mr. Quinn 
would be compensated for this work, I would have thought that 
he would be.
    Mr. Wilson. And it was also his expectation, correct?
    Mr. Fink. I can't speak for his expectation. I can only 
tell you that we had this very brief--honestly, very brief--it 
wasn't even a conversation, it was my comment to him. I do not 
remember his response to me. And that was the entire exchange 
on fees.
    Mr. Wilson. Did you ever hire an individual named Neil 
Katyal?
    Mr. Shays. Before the gentleman proceeds on that question, 
I'd like to interrupt and ask, would it have been unethical for 
Mr. Rich or you to have Jack Quinn get a contingency based on 
whether or not a pardon was approved or not?
    Mr. Fink. I do not know, but I would have been leery of 
such a proposal.
    Mr. Shays. Because you would have thought it was unethical?
    Mr. Fink. I do not know if it is unethical. I just would 
have been leery of a proposal like that. I was leery. I would 
not have agreed to that.
    Mr. Shays. And you would not have done that.
    Mr. Fink. I would not have.
    Mr. Shays. And you can testify before this committee that 
Mr. Quinn will not get some payment in this near future or the 
distant future because of the pardon?
    Mr. Fink. I cannot testify to that. I can just tell you 
that there was no contingency fee agreement with Mr. Quinn in 
which I participated or of which I know.
    Mr. Shays. But the bottom line is now that there's a pardon 
granted, Mr. Rich is free to travel throughout Europe, where 
before he couldn't, and evidently can come into the United 
States; is that correct?
    Mr. Fink. That calls for a legal conclusion, the answer of 
which--well, I'm not qualified to answer that, but I would have 
the same assumption you do.
    Mr. Shays. And so the bottom line is you--the work that Mr. 
Quinn did is huge. I mean he spent, he spent literally millions 
hiring other attorneys, and in the end he's got a pardon in 
large measure because of what Mr. Quinn has done; isn't that 
true?
    Mr. Fink. I credit Mr. Quinn for a lot of the success.
    Mr. Shays. Thank you. Thank you.
    Mr. Wilson. Congressman Shays calling me a gentleman is the 
first nice thing that has been said to me this month. Thank you 
very much.
    Mr. Fink, did you ever hire at any point an individual 
named Neil Katyal who I believe worked in the Deputy Attorney 
General's Office to work on the Rich matter?
    Mr. Fink. No.
    Mr. Wilson. No, OK. Do you know where Mr. Katyal works now?
    Mr. Fink. No.
    Mr. Wilson. What was Michael Steinhardt's role in the 
pardon process, if there was any role?
    Mr. Fink. I hesitate only because the word ``role'' can 
have many meanings to many different people. He wrote a letter. 
He may have encouraged others to do so. That's all I can 
recall.
    Mr. Wilson. What is Mr. Steinhardt's relationship to Marc 
Rich?
    Mr. Fink. My perception is that they're friends.
    Mr. Wilson. Fair enough. If you could take a look at 
exhibit 69, please, which should be in the book in front of 
you.
    [Exhibit 69 follows:]

    [GRAPHIC] [TIFF OMITTED] T5593.570
    
    Mr. Fink. 69?
    Mr. Wilson. 69, correct. This is an e-mail from you 
apparently to Mr. Azulay, Mr. Green and Ms. Behan, and the 
text--it's an e-mail, and it says: I just spoke to Jack. He has 
not heard from the President, but agreed to call him as soon as 
he gets to a hard line phone (he was in the car). He said that 
the SEC knows of the request and for some reason opposed it. 
But not like they opposed Milken. He does not know how they 
learned of it. (He found out when the head of the SEC gave one 
of his partners a hard time about Marc yesterday.) We agree 
that is not good and that maybe the SDNY knows too, but we have 
no information on it. No other pardons have been announced yet, 
as far as we know. Bob.
    Was it, in your opinion, a bad thing for the Securities and 
Exchange Commission to know about the Rich pardon application?
    Mr. Fink. Not in and of itself.
    Mr. Wilson. But that was not a concern of yours that the 
SEC would----
    Mr. Fink. I never was concerned that the SEC would learn 
about it.
    Mr. Wilson. But there was a concern?
    Mr. Fink. No no.
    Mr. Wilson. OK.
    Mr. Fink. The concern, the concern that I had was one I 
enunciated earlier. I was always concerned that the pardon 
application would become a matter of public record and create a 
press reaction such as that I had seen in the early eighties, 
and I felt that would not be helpful for a thoughtful review of 
the pardon application.
    Mr. Wilson. Fair enough. I'd like to just return for one 
moment to the fees question. If you could take a look at 
exhibit 70, which fortunately should be the very next one in 
your exhibit book.
    [Exhibit 70 follows:]

    [GRAPHIC] [TIFF OMITTED] T5593.571
    
    Mr. Fink. 70?
    Mr. Wilson. Correct. This is an e-mail from Mr. Quinn dated 
January 22nd, 2001. It's to Mr. Fink. Subject, RE: Pardon 
Document. And the text is: Re press calls, the question of fee 
might come up. As I think you know, Marc is not obligated to 
pay me anything. Whether he will or not, I do not know and have 
never discussed it with him. Anything he might later choose to 
pay is voluntary. I felt he had paid me well in 1999 and that I 
had an obligation to see this through to the end.
    When you got this e-mail from Mr. Quinn, what were you 
thinking?
    Mr. Fink. I do not remember what I was thinking, precisely. 
It seemed to me that he was reminding me that we had never 
agreed on a fee; that he had never suggested one.
    Mr. Wilson. Now, did it strike you as odd that the context 
for this communication was regarding press calls?
    Mr. Fink. I do not remember. Is that working still?
    On Monday, January 22, this fact that someone was concerned 
about press inquiry did not strike me as odd. That's what we 
were dealing with, press inquiry.
    Mr. Wilson. Right, but specifically regarding the 
compensation aspect. I mean, would expect him to have been 
compensated. That would be a fairly normal arrangement. Here he 
had not been. So did it strike you as odd in the context of 
press inquiries there was a concern about compensation?
    Mr. Fink. I don't remember, but I don't believe that I was 
surprised that the press was asking him questions about 
compensation. I had already been asked questions about 
compensation by that point, I believe.
    Mr. Wilson. Did you follow this e-mail up with any 
communication, verbal communication? Maybe a better way to ask 
that is, what happened after you read his e-mail?
    Mr. Fink. I don't believe, I don't believe--well, that's 
not true. I was going to say I don't believe Jack and I talked 
about fees after that. But I think we did, and the subject was 
that he had--his fee arrangement had never been fixed and it 
still wasn't. And I believe I told him that I realized that and 
that I intended to discuss it with Mr. Rich.
    Mr. Wilson. Thank you. Let's move on to the last subject 
that I'll cover today and it involves Denise Rich. Mr. Fink, 
how long have you known Denise Rich?
    Mr. Fink. My best recollection is that I met Denise Rich 
circa 1985.
    Mr. Wilson. And do you know how much money she received in 
her divorce settlement with Mr. Rich?
    Mr. Fink. Just a moment, please. I apologize for the delay. 
The answer to your question is, to the best of my recollection, 
I do know; but the amount would cause me to reveal an attorney 
confidence, an attorney-client confidence.
    Mr. Wilson. OK. Do you know whether Denise Rich has any 
bank accounts or had at any time in the past year any bank 
accounts or trust funds to which she and Marc Rich have joint 
control or access?
    Mr. Fink. I do not.
    Mr. Wilson. To your knowledge, has Ms. Rich received any 
money from Marc Rich since her divorce settlement other than 
anything that was contemplated in the settlement itself?
    Mr. Fink. I have no knowledge of any such thing.
    Mr. Shays. Are you aware of any request for a revision of 
the settlement or increased funds for her children?
    Mr. Fink. No, I am not.
    Mr. Wilson. As has been reported recently, Ms. Rich gave 
over $1.2 million to the Democratic Party----
    Mr. Fink. I'm sorry, I missed what you said.
    Mr. Wilson. As has been reported, Ms. Rich gave a little 
over $1.2 million to the Democratic Party and gave $450,000 to 
the Clinton library. Do you have any knowledge as to whether 
these contributions were made with her own money or they were 
not made with her own money?
    Mr. Fink. Other than the fact there are press reports about 
this, I have no knowledge of the contributions at all. That is 
meant to include your question.
    Mr. Wilson. Right. Do you know whether Marc Rich or anyone 
acting on Marc Rich's behalf suggested that Ms. Rich make any 
contributions to any political causes?
    Mr. Fink. I do not.
    Mr. Wilson. To the Clinton library?
    Mr. Fink. I do not.
    Mr. Wilson. Prior to November 2000, which is the ballpark 
time for the pardon process commencing, had you ever attempted 
to involve Denise Rich in any of the strategy that went toward 
solving Mr. Rich's legal problems?
    Mr. Fink. I think the answer to your question is no, I had 
not.
    Mr. Wilson. Were you part of any contemplation to bring her 
in in any way to play a part in the resolution of Mr. Rich's 
legal problems?
    Mr. Fink. Could you pardon me for one moment. The answer 
would call for confidential information. My answer to your 
question would require me to reveal confidential information.
    Mr. Wilson. Confidential information. Is there a privilege 
that's involved in this?
    Mr. Fink. There's a privilege that's involved here.
    Mr. Wilson. Perhaps you might share with us what the 
privilege is.
    Mr. Fink. Just one moment. It's unfortunate. I mean, I find 
it hard as a lawyer here to testify. I approach this whole 
thing with some dread because of this problem. So bear with me 
for one moment.
    Mr. Wilson. Sir, please.
    Mr. Fink. I believe and I have been advised that it is both 
attorney-client and work product privileges are involved here. 
My opinion is consistent with the advice I'm receiving.
    Mr. Wilson. OK. If you could take a look, please, at 
exhibit 137 in the book that's in front of you there, there 
appear to be two e-mail communications here. The lower one is 
dated March 1, 2000. It is from Avner Azulay and it appears to 
be to you, Mr. Fink. And while you're looking at it I'll just 
read the text: ``I had a long talk with JQ and Michael. I 
explained why there's no way the MOJ is going to handle--to 
initiate a call to EH--a minister calling a second level 
bureaucrat who has proved to be a weak link. We are reverting 
to the idea discussed with Abe--which is to send DR on a 
`personal' mission to No. 1 with a well prepared script.''
    There are a few questions that flow from this, but could 
you tell us what was contemplated by sending DR on a personal 
mission to No. 1?
    [Exhibit 137 follows:]

    [GRAPHIC] [TIFF OMITTED] T5593.700
    
    Mr. Fink. I cannot. And it's not because of privilege, it's 
because I do not know. I may have known, but I certainly do not 
remember from reading this e-mail.
    Mr. Wilson. I know the shorthand that's used in the e-
mails, there is a lot of shorthands, and initials are used. But 
is No. 1 the President?
    Mr. Fink. It was not a code that we had but I read it as 
you do, and I also read it as No. 1, although it could be read 
differently. I read it as you do.
    Mr. Wilson. And DR in the context of the e-mails we've 
reviewed is Denise Rich.
    Mr. Fink. That would be my assumption as well.
    Mr. Wilson. And I don't know if I can get more out of this, 
but here in the text, We have sent send DR on a personal 
mission to No. 1, and the ``personal'' is in quotation marks. 
What does personal mean in this context?
    Mr. Fink. I do not know. I would only be speculating 
entirely. I have no idea.
    Mr. Wilson. I mean, this may be more puzzling to us now 
than it was to you then, but do you recall whether upon 
receiving this e-mail you contacted Mr. Azulay in any manner to 
try and figure out what he was talking about?
    Mr. Fink. I have no recollection. It looks like I responded 
by my e-mail above and that does not help refresh my 
recollection either, candidly. I looked at this e-mail earlier 
today when you guys were discussing it to see if I could 
remember it, and I could not.
    Mr. Wilson. Now, the date of this e-mail is March 18, which 
is quite a bit in advance of the pardon process starting in 
November 2000. Do you recall anything about Denise Rich's 
involvement in any of the legal problems Mr. Rich had prior to 
November 2000?
    Mr. Fink. That is, not to be critical, a very broad 
question. The answer, considering it is so broad, would have to 
be yes. I'm sorry, the answer is yes. I'll let you ask your 
next question.
    Mr. Wilson. It was purposefully broad. I'll try to narrow 
it a little bit. Just staying within the bounds of the year 
2000, if you could tell us anything you know, anything you know 
about, involving Denise Rich.
    Mr. Fink. I have no recollection of any involvement with 
Ms. Denise Rich during this period of time in 2000. I do know 
that there was involvement later in 2000. I actually 
participated in some of that.
    Mr. Wilson. But in response to my very broad question, is 
it fair to characterize there was involvement; you just don't 
remember what it was?
    Mr. Fink. No, no. I have an imperfect memory, so I'll be 
careful. I believe as I sit here that there was no involvement 
by Denise Rich in Mr. Rich's problems during that period of 
time. I have absolutely no recollection that she became 
involved in any way.
    Mr. Wilson. The conclusion to the e-mail I read, almost all 
of it, I didn't read the conclusion of the e-mail. The last 
couple of sentences are ``if it doesn't work''--this is the 
``personal mission to No. 1 with a well prepared script.'' Then 
it follows: ``If it works we didn't lose the present 
opportunity--until Nov--which I assume to be November--which 
shall not repeat itself. If it doesn't, then probably Gershon's 
course of action that be the one left--and it says one left 
option to start all over again. This is only for your info. 
Regards, A.A.''
    Do you recall at what Gershon--this refers to Gershon 
Kekst, a publicist in New York--do you know what Gershon's 
course of action was?
    Mr. Fink. Well I do not know what Mr. Azulay was trying to 
say in this sentence.
    Mr. Wilson. Do you, just based on your knowledge of who was 
doing what at the time, do you have any sense of what he was 
trying to communicate or what is attempted to be communicated 
here?
    Mr. Fink. Could you give me 1 second, please? As you can 
tell, this is not written as well as people might like for 
clear discourse. But I suspect that he's talking about an 
application for a pardon here.
    Mr. Wilson. OK. Thank you very much. Thank you, Mr. Libby.
    Mr. LaTourette [presiding]. Counsel's time has expired. It 
is now time for counsel for the minority to ask whatever 
questions you choose to. You have 30 minutes.
    Mr. Barnett. Thank you. I'm Phil Barnett. Good evening. I'm 
counsel for the minority.
    Mr. Fink. Good evening.
    Mr. Barnett. Good evening. It definitely is well into the 
evening. Mr. Libby, I have a few questions for you.
    Mr. Libby. Yes, sir.
    Mr. Barnett. Yes, sir?
    Mr. Shays. Mr. Libby, could you move your mic down for us? 
We will hear you better.
    Mr. Barnett. I think you said earlier that you were asked 
by Mr. Green in November 2000, did you want to work on the 
pardon application. And you said, if I remember right, you were 
tied up in the transition and you didn't have time and you 
didn't think it was appropriate for you to do; is that right?
    Mr. Libby. Without being ironic, could you move your mic 
closer to your mouth, because I'm having----
    Mr. Barnett. I'm sorry. You didn't participate in the 
pardon application because you were busy with the transition. 
My understanding is that was your testimony.
    Mr. Libby. Just for the record, I did not hear the first 
part of your question. I'm not sure where you picked it up at.
    Mr. Barnett. I was trying to recall your testimony earlier 
this evening, I was beginning with a call you received from Mr. 
Green who had asked whether you wanted to participate in the 
pardon application, whether you wanted to represent Mr. Rich in 
the pardon process. And my recollection was your answer was you 
didn't have time to do it, you were wrapped up in the 
transition, you had those duties, and you didn't have time and 
it wouldn't have been appropriate for you to represent Mr. Rich 
in the pardon.
    Mr. Libby. Correct.
    Mr. Barnett. It wasn't because you had a view that it would 
be inappropriate being a lawyer seeking a pardon for Mr. Rich.
    Mr. Libby. That is correct. A pardon is a legitimate 
activity for a lawyer to engage in.
    Mr. Barnett. In fact, I think Mr. Shays actually asked you 
that question: Would you have, if you had a client who wanted a 
pardon, would you file a pardon application? And your answer 
was if your client wanted that, you would do that.
    Mr. Libby. Assuming all the circumstances were such that I 
was comfortable with it, yes.
    Mr. Barnett. That's what Mr. Quinn, Jack Quinn, did in this 
case. He came in the case, I understand, in 1999, spent a 
considerable amount of time with you understanding the merits 
of the case. And he tried first at the Justice Department to 
have a meeting and to get the case dismissed on the merits. 
When that failed and there was a decision to seek a pardon, he 
took that on. He testified in front of our committee for many, 
many hours; and boiling down his position as I understood it, 
he said people might disagree about the pardon but he thought 
it was defensible on the merits. And he was comfortable arguing 
for the pardon because he thought it was defensible on the 
merits.
    If you were taking this case on, would you make the same 
argument as Mr. Quinn did?
    Mr. Libby. I don't know. I don't know the details of what 
Mr. Quinn argued.
    Mr. Barnett. You know the details of Mr. Rich's case 
probably better than Mr. Quinn. If you were Mr. Rich's pardon 
attorney seeking a pardon, what kind of argument would you 
make?
    Mr. Libby. I assume I would argue that and I might argue 
other aspects of the case as well. It's pretty hard to say what 
kind of arguments I would make in an abstract pardon 
application not before me, for a client I'm not aware of.
    Mr. Barnett. If we made it more concrete with Mr. Rich as 
the client and the facts as you know them, the facts as they 
were available to the defense counsel, what argument would you 
make?
    Mr. Libby. Generally, I would argue the facts of the case, 
as I assume Mr. Quinn did. I would argue other good deeds that 
may have been done by the witness or by the accused, as I 
assume Mr. Quinn would have done. You might also talk about 
activities of government, if there were any.
    Mr. Barnett. Would you make any argument that you thought 
was not defensible?
    Mr. Libby. No.
    Mr. Barnett. So these arguments you would make in this case 
are arguments that you would think would be defensible 
arguments and a defensible basis for the pardon.
    Mr. Libby. If I were engaged in a pardon, I would only make 
defensible arguments.
    Mr. Barnett. I guess what the question I'm trying to ask 
is, was the pardon defensible on its merits?
    Mr. Libby. I have no idea, sir. You have asked me if Mr. 
Quinn would make defensible arguments. I assume he would make 
defensible arguments. That's different from the decision to 
grant the pardon. I don't know about the decision to grant the 
pardon. I don't have the evidence that was before the President 
when he made his decision.
    Mr. Barnett. I don't know if you watched much of the 
hearing we had today, this afternoon. It was a long hearing. 
You probably have lots of other responsibilities. The scenario 
or the picture that came across, as I understood it, was that 
it was a broken-down process, particularly as it regards Mr. 
Rich's pardon. It had come up, I think, on January 16 at a 
meeting the President had with Mr. Podesta, Mr. Lindsey, Ms. 
Nolan, and they had come away with the impression that the 
pardon wasn't going to go anyplace. They viewed it was 
inappropriate and they have didn't think the President was 
going to pursue it. As a result, they didn't seek out 
information from the CIA and the National Security Agency and 
others. They had a lot of things going on at the time.
    They thought it was a dead issue, so they didn't pursue it. 
Then they come to the evening before the transition and the 
President has gotten a call from Prime Minister Barak, and all 
of sudden he wants to revisit it. And there's really no time at 
that point to get additional information at that point. 
Essentially all that is presented there is the evidence that's 
understood to the defense. In that situation, is the granting 
of the pardon unreasonable?
    Mr. Libby. I don't know, sir. I don't know what evidence 
the President had before him or could have had before him.
    Mr. Barnett. Well there's one option he would have, the 
President, which I think, if I understood what many members 
have said, they might have preferred; which is to say he 
doesn't have all of information, so he shouldn't go forward. He 
doesn't really have an opportunity to get more information 
because he won't have the power to issue a pardon after noon 
the next day. So that would have been one option, presumably a 
reasonable option.
    The other option he has is to make a decision. And if he 
had the information that you have, information that is 
available to the defense, is it unreasonable for him to make 
the decision that this case warrants a pardon?
    Mr. Libby. I didn't hear all of the testimony the way you 
probably did today and other days, but I thought I heard some 
questioning of witnesses which said if you had time to make one 
phone call, why didn't you make another phone call? So it seems 
to me there's a third logical possibility, which is what you're 
saying, which is to pick up the phone to call other people to 
get other information. I don't know what was done or what could 
have been done, but in what you have described, there's a third 
possibility which would have allowed the President to get more 
information.
    Mr. Barnett. In law school they have the reasonable man 
test, if I remember law school. And I guess my question is 
going somewhat to that concept. There's a third option, and I 
hadn't thought of the third option. That might have been the 
best option. Was it unreasonable to do the pardon option?
    Mr. Libby. To me it would be more reasonable to take the 
third option and call for more information, but I wasn't there 
at 2 a.m., or whatever it was.
    Mr. Barnett. But you have testified earlier today that the 
charges weren't justified. You looked at them and Congressman 
Waxman read through the different elements of the charges in 
the President's rationale. You agreed with those, so the 
charges aren't justified. It was an indictment brought on what 
you think isn't a sound foundation. That's based on the 
information you know.
    Mr. Libby. Based on the information available to me and to 
the defense team, the charges were--there was a compelling 
defense to the charges for which they had been indicted; that's 
right. But it seems to me that the President doesn't have to 
rely on that. He can ask for more information. So if you're 
asking me what the reasonable man would do, I presume the 
reasonable man would ask for more information.
    Mr. Barnett. I know that lots of Members on both sides, if 
I have listened over the days, we've held the hearings, would 
say that would have been the best thing to do. But I'm asking 
you, was it unreasonable, was it indefensible for him at that 
time, believing as he did, that the indictment was improper, to 
issue the pardon?
    Mr. Libby. Maybe it's just late. Maybe it's that we've been 
here for 5 hours, but I did not have any participation in this 
pardon. I'm not quite sure what I can bring to your own 
judgment of what's reasonable or unreasonable. You know more 
about it than I know about it. I didn't participate in it so I 
just--I'm unclear what it is you think I bring to this 
discussion. As I have said, I believe if it were me, I would 
have made the calls or recommended the calls rather than just 
acting in the way it was acted.
    Mr. Barnett. The reason I'm asking the question is that I 
think the reason we've been holding the hearings is that there 
have been allegations that this was illegal conduct or corrupt 
conduct or quid pro quos. And that has to be the explanation. 
There is not an explanation that this was just simply bad 
judgment. It's not an explanation that the President could have 
reasonably reached a wrong judgment. Because of your expertise 
and experience in the matter, I was asking the questions to 
help make the assessment, whether as the only option here was 
that former President Clinton was acting in an illegal manner, 
for illegal or improper motives.
    Mr. Libby. I have no firsthand knowledge of whether he 
acted for illegal motives or legal motives. As I said, the 
information available to the defense team was sufficient to 
create a compelling defense that Mr. Rich and Mr. Green's 
companies had not committed the crimes for which they were 
indicted.
    Mr. Barnett. Mr. Chairman, Mr. Schiliro, who is the 
minority staff director, would like to ask questions for about 
another 5 minutes or so, if that is permissible.
    Mr. Shays. I have absolutely no problem with you gentlemen 
having your 30 minutes. I just want to ask a question or two, 
not many, when you are done. And I will respect the fact that 
you do not have a Member on your side to counter.
    Mr. Schiliro. I will be happy to give you my time because I 
won't use it all.
    Mr. LaTourette. You have 18 minutes. Knock yourself out.
    Mr. Schiliro. Mr. Libby, let me do this as quickly as we 
can so we can get out of here. I think part of the problem is 
we're seeking something, and you're trying to avoid, for good 
reason, giving us what we're seeking. Maybe it's because we 
disagree or maybe it's because we're not communicating. The 
reason we're interested in what you think is because you're one 
of the smartest lawyers in Washington. You're probably one of 
the smartest people in Washington. This is a complicated case. 
You understand the case----
    Mr. Libby. That's the first thing said tonight that I take 
strong disagreement.
    Mr. Schiliro. I mean it sincerely. I don't know you 
personally but you have a terrific reputation. You made a lot 
of money on this case. I think you said earlier it was more 
than $2 million which means to me, because you're a terrific 
lawyer, you learned the details of the case, you learned the 
intricacies of the case. You know more about this case than 
probably anybody else in the world.
    The threshold question for this committee in our first 
hearing was, as Mr. Barnett was saying, is there any plausible 
explanation for this pardon on a legal case? And the answer 
from a lot of members on the committee was there wasn't. So you 
become very relevant because you have expertise in this matter.
    If you were handling the case, and I know you don't want to 
deal with hypotheticals, but let's assume for a second that you 
were continuing with Mr. Rich as a client. If you were handling 
the case, knowing everything you know about the case, do you 
think you could have put together a good legal argument for a 
pardon?
    Mr. Libby. If I were handling the case, I probably would 
not have asked for a pardon.
    Mr. Schiliro. You would not have?
    Mr. Libby. Probably not.
    Mr. Schiliro. Even when you had a dead end with the U.S. 
Attorney's Office.
    Mr. Libby. That is correct.
    Mr. Schiliro. Explain why you wouldn't have asked for a 
pardon.
    Mr. Libby. I would seek to have the Justice Department 
reopen the case and look at the merits of the case.
    Mr. Schiliro. I think when you did your transition with Mr. 
Quinn, you fully apprised him of the details of the case.
    Mr. Libby. Correct.
    Mr. Schiliro. On both the legal arguments and the situation 
surrounding the case?
    Mr. Libby. This was in fall of 1999 and a little bit into 
2000, yes.
    Mr. Schiliro. And they tried to make headway with the U.S. 
Attorney's Office in New York and got nowhere.
    Mr. Libby. Correct.
    Mr. Schiliro. You stayed on the case, maybe not in as 
active of a way as you had been previously, but Mr. Quinn 
joined you and other people working on this. The lawyers 
reached the conclusion they were making no headway. There was 
no alternative but to seek a pardon.
    Mr. Libby. I was not----
    Mr. Schiliro. You were not part of that, but that's my 
understanding of what the lawyers decided, and I assume you'll 
agree with that based on the facts as we know them. That's the 
testimony we've received from the lawyers.
    Mr. Libby. I'll accept that.
    Mr. Schiliro. So when we asked you before about November 
2000 when you were approached, it didn't sound to me at that 
point that you declined because you thought it was an 
inappropriate act to seek a pardon in this case. It sounded as 
if you declined because of circumstances.
    Mr. Libby. That's correct.
    Mr. Schiliro. Let me make sure I don't misunderstand it. If 
you hadn't been in those circumstances, would you have 
entertained a pardon in this case?
    Mr. Libby. I would have considered asking for a pardon, 
yes.
    Mr. Schiliro. And so if we're in that situation, it doesn't 
sound to me that's exactly what you said before when you 
wouldn't have sought a pardon in this case.
    Mr. Libby. It is fully consistent with what I said before. 
I would have considered a pardon. I would have considered other 
routes. And I think in the end, the course I think that would 
have best served the client was not to go for a pardon but to 
get the Department of Justice to look at the merits of the 
case.
    Mr. Schiliro. Right. But your client has paid you more than 
$2 million. Your client has received no relief, wants to come 
back to the United States, and feels the indictment was flawed. 
You know the case, and your client is saying to you this is my 
only alternative. At that point you have entertained it. Is 
your testimony that you would have said no to your client at 
that point?
    Mr. Libby. At that point, I would have presented to the 
client the options. What I'm saying is there is another option 
besides going to the pardon. There is an option to try to get 
the Department of Justice to look at the merits of the case.
    Mr. Schiliro. And that's failed, so now----
    Mr. Libby. No----
    Mr. Schiliro. I think that's the conclusion the other 
attorneys on the case reached in 2000.
    Mr. Libby. The Department of Justice never looked, in the 
post-indictment stage, never looked at the merits of the case.
    Mr. Schiliro. I think the conclusion of the lawyers who 
were working on this case was that the Justice Department was 
not going to do that. That's why they sought a pardon.
    Mr. Libby. I was not present when they made that 
conclusion. I understand that was their conclusion.
    Mr. Schiliro. Let me try it one last way, and I think I'm 
not going to get any further but I'll try one last time. If you 
were in a position where the decision had been made, and you 
were part of the team, and it was decided that a pardon was 
going to be pursued--so it wasn't a question of different 
options, a pardon was going to be pursued--knowing everything 
you know about this case, do you think you could put together a 
good legal case for a pardon? I am not asking you if it's the 
best option.
    Mr. Libby. Yes.
    Mr. Schiliro. And if you did that and you brought it to the 
President, do you think that would have been a defensible case? 
I'm not asking from the other side, the prosecution side. I'm 
talking about the defense side.
    Mr. Libby. Yes.
    Mr. Schiliro. The last question I have on that, again 
because you know this case much better than I do, you've 
evaluated I think all the arguments the U.S. attorney made 
through the years because you had to know your case--in doing 
that, I assume the conclusion you reached was your case was 
stronger than their case, which is why you think the case 
should have been dismissed.
    Mr. Libby. Yes. And I believe everyone on this panel could 
now repeat what I'm about to say. Based on all the evidence 
available to the defense, that is correct.
    Mr. Schiliro. But just on that phrase--and we all can 
repeat that phrase--because you're a terrific lawyer, I think 
you probably tried the prosecution case 20 times in your head. 
You went through, you tried to figure out every piece of 
evidence the prosecution had, you examined every legal theory 
the prosecution had, and I think you reached the conclusion, 
because you're acting honorably, and because I think it's your 
testimony that case didn't hold up.
    Mr. Libby. Yes. I'm afraid that you did misspeak, though, 
in the course of your question. I examined every argument that 
we knew of that the prosecution had. There's a saying in the 
intelligence world, you don't know what you don't know. We knew 
only what we knew. We knew that the prosecutor had said we had 
evidence for which we were not aware. I will take him at his 
word. I'm not convinced that evidence would have persuaded me, 
but there were things--we were told there were things we did 
not know.
    Mr. Schiliro. Did you see any of our first hearing on the 
pardon? Did you see when the prosecutors testified?
    Mr. Libby. I have seen some of the transcript. I did not 
watch the testimony.
    Mr. Schiliro. Was there anything in their testimony that 
was new to you?
    Mr. Libby. No, sir. But, of course, their testimony was 
somewhat abbreviated. There were allusions in their testimony, 
so that I could guess what they meant, but I don't know for 
sure. I have been convinced if I sat down with them and they 
laid their cards out and we laid our cards out, that we would 
win. But I don't know.
    Mr. Schiliro. But so I understand, had you been in the 
position where you were pursing the pardon, based on everything 
you know in this case, you think you could put together a good 
strong case for a pardon, and a defensible case, if the 
President so issued, based on what you know?
    Mr. Libby. Yes.
    Mr. Schiliro. Thank you. I apologize for using more than 
the 5 minutes.
    Mr. LaTourette. Do you want to yield back the rest of your 
time?
    I thank you very much. And before yielding to Mr. Shays to 
wrap things up, I just remember when I practiced law and we 
would try a case and I would go first, I always thought, man, 
am I doing good, until the other side showed up and all of a 
sudden we had to rethink some things.
    Mr. Shays, I'll be happy to yield to you for 5 minutes.
    Mr. Shays. I don't know if I'm getting a second wind, but I 
actually enjoyed the questions our attorneys asked on both 
sides of the aisle and I appreciate the responses.
    Mr. LaTourette. I don't know if that is a second wind, or 
vapors, Mr. Shays.
    Mr. Shays. I do think it is fairly clear, if you are a 
lawyer you are an advocate for one side, and you are going to 
emphasize the strength of your case and obviously minimize the 
weaknesses that may involve your case. I meant no real 
disrespect to Jack Quinn in pointing out that I said he 
couldn't adequately serve both his client and the President 
properly, because I think in the process of serving his client 
well, he didn't serve his President well, someone he had worked 
for.
    And I look at you, Mr. Libby, and I say why are you here? 
You should be here, and I appreciate you being here, and I 
appreciate you not complaining about being here. You 
represented Marc Rich with the prosecution. You developed and 
brought in people with tax expertise to determine, in your 
judgment, that he did not owe taxes. And I would tend to 
believe that you could find experts to take any position, and 
you found two that made persuasive arguments to you.
    But you didn't lobby the White House for the pardons, and 
that's really what we're looking at. In my judgment, we got a 
pretty disappointing view of why these pardons were granted. 
There was a rush to complete them. There wasn't the proper 
vetting and so on.
    But you're here as now a government official, and I just 
want to ask you this question and I hope I like the answer, but 
I may not. I want to know if you left the administration, would 
you come back to lobby your boss, Dick Cheney, or the President 
of the United States, on behalf of a client, given the unique 
relationship that you have as a chief of staff of the Vice 
President?
    Mr. Libby. I doubt it. But I can't be sure, but I doubt it.
    Mr. Shays. Would you concur that if you were looking to 
lobby the White House and you were hired to represent a certain 
interest, that your position would be to present that interest 
as forcefully as you could, even if it meant not disclosing 
information that might be helpful for the person making that 
judgment?
    Mr. Libby. If I understood your question properly, I think 
I missed part of it, I do not believe I would ever appear 
before Vice President Cheney or President Bush under terms in 
which I would withhold any information from them.
    Mr. Shays. Thank you. Thank you very much.
    Mr. LaTourette. Thank you. Mr. Shays and I think that that 
exhausts any questions that anybody could possibly have. I want 
to thank you, Mr. Libby and Mr. Fink, for your patience and 
forthrightness with the committee. You were both excellent 
representatives. Mr. Vice President Cheney is lucky, Mr. Rich 
is lucky, and we thank you very much. This hearing is 
adjourned.
    Mr. Libby. Thank you, sir.
    [Whereupon, at 10:35 p.m., the committee was adjourned.]
    [The pardon petition and the complete set of exhibits 
follow:]

[GRAPHIC] [TIFF OMITTED] T5593.077

[GRAPHIC] [TIFF OMITTED] T5593.078

[GRAPHIC] [TIFF OMITTED] T5593.079

[GRAPHIC] [TIFF OMITTED] T5593.080

[GRAPHIC] [TIFF OMITTED] T5593.081

[GRAPHIC] [TIFF OMITTED] T5593.082

[GRAPHIC] [TIFF OMITTED] T5593.083

[GRAPHIC] [TIFF OMITTED] T5593.084

[GRAPHIC] [TIFF OMITTED] T5593.085

[GRAPHIC] [TIFF OMITTED] T5593.086

[GRAPHIC] [TIFF OMITTED] T5593.087

[GRAPHIC] [TIFF OMITTED] T5593.088

[GRAPHIC] [TIFF OMITTED] T5593.089

[GRAPHIC] [TIFF OMITTED] T5593.090

[GRAPHIC] [TIFF OMITTED] T5593.091

[GRAPHIC] [TIFF OMITTED] T5593.092

[GRAPHIC] [TIFF OMITTED] T5593.093

[GRAPHIC] [TIFF OMITTED] T5593.094

[GRAPHIC] [TIFF OMITTED] T5593.095

[GRAPHIC] [TIFF OMITTED] T5593.096

[GRAPHIC] [TIFF OMITTED] T5593.097

[GRAPHIC] [TIFF OMITTED] T5593.098

[GRAPHIC] [TIFF OMITTED] T5593.099

[GRAPHIC] [TIFF OMITTED] T5593.100

[GRAPHIC] [TIFF OMITTED] T5593.101

[GRAPHIC] [TIFF OMITTED] T5593.102

[GRAPHIC] [TIFF OMITTED] T5593.103

[GRAPHIC] [TIFF OMITTED] T5593.104

[GRAPHIC] [TIFF OMITTED] T5593.105

[GRAPHIC] [TIFF OMITTED] T5593.106

[GRAPHIC] [TIFF OMITTED] T5593.107

[GRAPHIC] [TIFF OMITTED] T5593.108

[GRAPHIC] [TIFF OMITTED] T5593.109

[GRAPHIC] [TIFF OMITTED] T5593.110

[GRAPHIC] [TIFF OMITTED] T5593.111

[GRAPHIC] [TIFF OMITTED] T5593.112

[GRAPHIC] [TIFF OMITTED] T5593.113

[GRAPHIC] [TIFF OMITTED] T5593.114

[GRAPHIC] [TIFF OMITTED] T5593.115

[GRAPHIC] [TIFF OMITTED] T5593.116

[GRAPHIC] [TIFF OMITTED] T5593.117

[GRAPHIC] [TIFF OMITTED] T5593.118

[GRAPHIC] [TIFF OMITTED] T5593.119

[GRAPHIC] [TIFF OMITTED] T5593.120

[GRAPHIC] [TIFF OMITTED] T5593.121

[GRAPHIC] [TIFF OMITTED] T5593.122

[GRAPHIC] [TIFF OMITTED] T5593.123

[GRAPHIC] [TIFF OMITTED] T5593.124

[GRAPHIC] [TIFF OMITTED] T5593.125

[GRAPHIC] [TIFF OMITTED] T5593.126

[GRAPHIC] [TIFF OMITTED] T5593.127

[GRAPHIC] [TIFF OMITTED] T5593.128

[GRAPHIC] [TIFF OMITTED] T5593.129

[GRAPHIC] [TIFF OMITTED] T5593.130

[GRAPHIC] [TIFF OMITTED] T5593.131

[GRAPHIC] [TIFF OMITTED] T5593.132

[GRAPHIC] [TIFF OMITTED] T5593.133

[GRAPHIC] [TIFF OMITTED] T5593.134

[GRAPHIC] [TIFF OMITTED] T5593.135

[GRAPHIC] [TIFF OMITTED] T5593.136

[GRAPHIC] [TIFF OMITTED] T5593.137

[GRAPHIC] [TIFF OMITTED] T5593.138

[GRAPHIC] [TIFF OMITTED] T5593.139

[GRAPHIC] [TIFF OMITTED] T5593.140

[GRAPHIC] [TIFF OMITTED] T5593.141

[GRAPHIC] [TIFF OMITTED] T5593.142

[GRAPHIC] [TIFF OMITTED] T5593.143

[GRAPHIC] [TIFF OMITTED] T5593.144

[GRAPHIC] [TIFF OMITTED] T5593.145

[GRAPHIC] [TIFF OMITTED] T5593.146

[GRAPHIC] [TIFF OMITTED] T5593.147

[GRAPHIC] [TIFF OMITTED] T5593.148

[GRAPHIC] [TIFF OMITTED] T5593.149

[GRAPHIC] [TIFF OMITTED] T5593.150

[GRAPHIC] [TIFF OMITTED] T5593.151

[GRAPHIC] [TIFF OMITTED] T5593.152

[GRAPHIC] [TIFF OMITTED] T5593.153

[GRAPHIC] [TIFF OMITTED] T5593.154

[GRAPHIC] [TIFF OMITTED] T5593.155

[GRAPHIC] [TIFF OMITTED] T5593.156

[GRAPHIC] [TIFF OMITTED] T5593.157

[GRAPHIC] [TIFF OMITTED] T5593.158

[GRAPHIC] [TIFF OMITTED] T5593.159

[GRAPHIC] [TIFF OMITTED] T5593.160

[GRAPHIC] [TIFF OMITTED] T5593.161

[GRAPHIC] [TIFF OMITTED] T5593.162

[GRAPHIC] [TIFF OMITTED] T5593.163

[GRAPHIC] [TIFF OMITTED] T5593.164

[GRAPHIC] [TIFF OMITTED] T5593.165

[GRAPHIC] [TIFF OMITTED] T5593.166

[GRAPHIC] [TIFF OMITTED] T5593.167

[GRAPHIC] [TIFF OMITTED] T5593.168

[GRAPHIC] [TIFF OMITTED] T5593.169

[GRAPHIC] [TIFF OMITTED] T5593.170

[GRAPHIC] [TIFF OMITTED] T5593.171

[GRAPHIC] [TIFF OMITTED] T5593.172

[GRAPHIC] [TIFF OMITTED] T5593.173

[GRAPHIC] [TIFF OMITTED] T5593.174

[GRAPHIC] [TIFF OMITTED] T5593.175

[GRAPHIC] [TIFF OMITTED] T5593.176

[GRAPHIC] [TIFF OMITTED] T5593.177

[GRAPHIC] [TIFF OMITTED] T5593.178

[GRAPHIC] [TIFF OMITTED] T5593.179

[GRAPHIC] [TIFF OMITTED] T5593.180

[GRAPHIC] [TIFF OMITTED] T5593.181

[GRAPHIC] [TIFF OMITTED] T5593.182

[GRAPHIC] [TIFF OMITTED] T5593.183

[GRAPHIC] [TIFF OMITTED] T5593.184

[GRAPHIC] [TIFF OMITTED] T5593.185

[GRAPHIC] [TIFF OMITTED] T5593.186

[GRAPHIC] [TIFF OMITTED] T5593.187

[GRAPHIC] [TIFF OMITTED] T5593.188

[GRAPHIC] [TIFF OMITTED] T5593.189

[GRAPHIC] [TIFF OMITTED] T5593.190

[GRAPHIC] [TIFF OMITTED] T5593.191

[GRAPHIC] [TIFF OMITTED] T5593.192

[GRAPHIC] [TIFF OMITTED] T5593.193

[GRAPHIC] [TIFF OMITTED] T5593.194

[GRAPHIC] [TIFF OMITTED] T5593.195

[GRAPHIC] [TIFF OMITTED] T5593.196

[GRAPHIC] [TIFF OMITTED] T5593.197

[GRAPHIC] [TIFF OMITTED] T5593.198

[GRAPHIC] [TIFF OMITTED] T5593.199

[GRAPHIC] [TIFF OMITTED] T5593.200

[GRAPHIC] [TIFF OMITTED] T5593.201

[GRAPHIC] [TIFF OMITTED] T5593.202

[GRAPHIC] [TIFF OMITTED] T5593.203

[GRAPHIC] [TIFF OMITTED] T5593.204

[GRAPHIC] [TIFF OMITTED] T5593.205

[GRAPHIC] [TIFF OMITTED] T5593.206

[GRAPHIC] [TIFF OMITTED] T5593.207

[GRAPHIC] [TIFF OMITTED] T5593.208

[GRAPHIC] [TIFF OMITTED] T5593.209

[GRAPHIC] [TIFF OMITTED] T5593.210

[GRAPHIC] [TIFF OMITTED] T5593.211

[GRAPHIC] [TIFF OMITTED] T5593.212

[GRAPHIC] [TIFF OMITTED] T5593.213

[GRAPHIC] [TIFF OMITTED] T5593.214

[GRAPHIC] [TIFF OMITTED] T5593.215

[GRAPHIC] [TIFF OMITTED] T5593.216

[GRAPHIC] [TIFF OMITTED] T5593.217

[GRAPHIC] [TIFF OMITTED] T5593.218

[GRAPHIC] [TIFF OMITTED] T5593.219

[GRAPHIC] [TIFF OMITTED] T5593.220

[GRAPHIC] [TIFF OMITTED] T5593.221

[GRAPHIC] [TIFF OMITTED] T5593.222

[GRAPHIC] [TIFF OMITTED] T5593.223

[GRAPHIC] [TIFF OMITTED] T5593.224

[GRAPHIC] [TIFF OMITTED] T5593.225

[GRAPHIC] [TIFF OMITTED] T5593.226

[GRAPHIC] [TIFF OMITTED] T5593.227

[GRAPHIC] [TIFF OMITTED] T5593.228

[GRAPHIC] [TIFF OMITTED] T5593.229

[GRAPHIC] [TIFF OMITTED] T5593.230

[GRAPHIC] [TIFF OMITTED] T5593.231

[GRAPHIC] [TIFF OMITTED] T5593.232

[GRAPHIC] [TIFF OMITTED] T5593.233

[GRAPHIC] [TIFF OMITTED] T5593.234

[GRAPHIC] [TIFF OMITTED] T5593.235

[GRAPHIC] [TIFF OMITTED] T5593.236

[GRAPHIC] [TIFF OMITTED] T5593.237

[GRAPHIC] [TIFF OMITTED] T5593.238

[GRAPHIC] [TIFF OMITTED] T5593.239

[GRAPHIC] [TIFF OMITTED] T5593.240

[GRAPHIC] [TIFF OMITTED] T5593.241

[GRAPHIC] [TIFF OMITTED] T5593.242

[GRAPHIC] [TIFF OMITTED] T5593.243

[GRAPHIC] [TIFF OMITTED] T5593.244

[GRAPHIC] [TIFF OMITTED] T5593.245

[GRAPHIC] [TIFF OMITTED] T5593.246

[GRAPHIC] [TIFF OMITTED] T5593.247

[GRAPHIC] [TIFF OMITTED] T5593.248

[GRAPHIC] [TIFF OMITTED] T5593.249

[GRAPHIC] [TIFF OMITTED] T5593.250

[GRAPHIC] [TIFF OMITTED] T5593.251

[GRAPHIC] [TIFF OMITTED] T5593.252

[GRAPHIC] [TIFF OMITTED] T5593.253

[GRAPHIC] [TIFF OMITTED] T5593.254

[GRAPHIC] [TIFF OMITTED] T5593.255

[GRAPHIC] [TIFF OMITTED] T5593.256

[GRAPHIC] [TIFF OMITTED] T5593.257

[GRAPHIC] [TIFF OMITTED] T5593.258

[GRAPHIC] [TIFF OMITTED] T5593.259

[GRAPHIC] [TIFF OMITTED] T5593.260

[GRAPHIC] [TIFF OMITTED] T5593.261

[GRAPHIC] [TIFF OMITTED] T5593.262

[GRAPHIC] [TIFF OMITTED] T5593.263

[GRAPHIC] [TIFF OMITTED] T5593.264

[GRAPHIC] [TIFF OMITTED] T5593.265

[GRAPHIC] [TIFF OMITTED] T5593.266

[GRAPHIC] [TIFF OMITTED] T5593.267

[GRAPHIC] [TIFF OMITTED] T5593.268

[GRAPHIC] [TIFF OMITTED] T5593.269

[GRAPHIC] [TIFF OMITTED] T5593.270

[GRAPHIC] [TIFF OMITTED] T5593.271

[GRAPHIC] [TIFF OMITTED] T5593.272

[GRAPHIC] [TIFF OMITTED] T5593.273

[GRAPHIC] [TIFF OMITTED] T5593.274

[GRAPHIC] [TIFF OMITTED] T5593.275

[GRAPHIC] [TIFF OMITTED] T5593.276

[GRAPHIC] [TIFF OMITTED] T5593.277

[GRAPHIC] [TIFF OMITTED] T5593.278

[GRAPHIC] [TIFF OMITTED] T5593.279

[GRAPHIC] [TIFF OMITTED] T5593.280

[GRAPHIC] [TIFF OMITTED] T5593.281

[GRAPHIC] [TIFF OMITTED] T5593.282

[GRAPHIC] [TIFF OMITTED] T5593.283

[GRAPHIC] [TIFF OMITTED] T5593.284

[GRAPHIC] [TIFF OMITTED] T5593.285

[GRAPHIC] [TIFF OMITTED] T5593.286

[GRAPHIC] [TIFF OMITTED] T5593.287

[GRAPHIC] [TIFF OMITTED] T5593.288

[GRAPHIC] [TIFF OMITTED] T5593.289

[GRAPHIC] [TIFF OMITTED] T5593.290

[GRAPHIC] [TIFF OMITTED] T5593.291

[GRAPHIC] [TIFF OMITTED] T5593.292

[GRAPHIC] [TIFF OMITTED] T5593.293

[GRAPHIC] [TIFF OMITTED] T5593.294

[GRAPHIC] [TIFF OMITTED] T5593.295

[GRAPHIC] [TIFF OMITTED] T5593.296

[GRAPHIC] [TIFF OMITTED] T5593.297

[GRAPHIC] [TIFF OMITTED] T5593.298

[GRAPHIC] [TIFF OMITTED] T5593.299

[GRAPHIC] [TIFF OMITTED] T5593.300

[GRAPHIC] [TIFF OMITTED] T5593.301

[GRAPHIC] [TIFF OMITTED] T5593.302

[GRAPHIC] [TIFF OMITTED] T5593.303

[GRAPHIC] [TIFF OMITTED] T5593.304

[GRAPHIC] [TIFF OMITTED] T5593.305

[GRAPHIC] [TIFF OMITTED] T5593.306

[GRAPHIC] [TIFF OMITTED] T5593.307

[GRAPHIC] [TIFF OMITTED] T5593.308

[GRAPHIC] [TIFF OMITTED] T5593.309

[GRAPHIC] [TIFF OMITTED] T5593.310

[GRAPHIC] [TIFF OMITTED] T5593.311

[GRAPHIC] [TIFF OMITTED] T5593.312

[GRAPHIC] [TIFF OMITTED] T5593.313

[GRAPHIC] [TIFF OMITTED] T5593.314

[GRAPHIC] [TIFF OMITTED] T5593.315

[GRAPHIC] [TIFF OMITTED] T5593.316

[GRAPHIC] [TIFF OMITTED] T5593.317

[GRAPHIC] [TIFF OMITTED] T5593.318

[GRAPHIC] [TIFF OMITTED] T5593.319

[GRAPHIC] [TIFF OMITTED] T5593.320

[GRAPHIC] [TIFF OMITTED] T5593.321

[GRAPHIC] [TIFF OMITTED] T5593.322

[GRAPHIC] [TIFF OMITTED] T5593.323

[GRAPHIC] [TIFF OMITTED] T5593.324

[GRAPHIC] [TIFF OMITTED] T5593.325

[GRAPHIC] [TIFF OMITTED] T5593.326

[GRAPHIC] [TIFF OMITTED] T5593.327

[GRAPHIC] [TIFF OMITTED] T5593.328

[GRAPHIC] [TIFF OMITTED] T5593.329

[GRAPHIC] [TIFF OMITTED] T5593.330

[GRAPHIC] [TIFF OMITTED] T5593.331

[GRAPHIC] [TIFF OMITTED] T5593.332

[GRAPHIC] [TIFF OMITTED] T5593.333

[GRAPHIC] [TIFF OMITTED] T5593.334

[GRAPHIC] [TIFF OMITTED] T5593.335

[GRAPHIC] [TIFF OMITTED] T5593.336

[GRAPHIC] [TIFF OMITTED] T5593.337

[GRAPHIC] [TIFF OMITTED] T5593.338

[GRAPHIC] [TIFF OMITTED] T5593.339

[GRAPHIC] [TIFF OMITTED] T5593.340

[GRAPHIC] [TIFF OMITTED] T5593.341

[GRAPHIC] [TIFF OMITTED] T5593.342

[GRAPHIC] [TIFF OMITTED] T5593.343

[GRAPHIC] [TIFF OMITTED] T5593.344

[GRAPHIC] [TIFF OMITTED] T5593.345

[GRAPHIC] [TIFF OMITTED] T5593.346

[GRAPHIC] [TIFF OMITTED] T5593.347

[GRAPHIC] [TIFF OMITTED] T5593.348

[GRAPHIC] [TIFF OMITTED] T5593.349

[GRAPHIC] [TIFF OMITTED] T5593.350

[GRAPHIC] [TIFF OMITTED] T5593.351

[GRAPHIC] [TIFF OMITTED] T5593.352

[GRAPHIC] [TIFF OMITTED] T5593.353

[GRAPHIC] [TIFF OMITTED] T5593.354

[GRAPHIC] [TIFF OMITTED] T5593.355

[GRAPHIC] [TIFF OMITTED] T5593.356

[GRAPHIC] [TIFF OMITTED] T5593.357

[GRAPHIC] [TIFF OMITTED] T5593.358

[GRAPHIC] [TIFF OMITTED] T5593.359

[GRAPHIC] [TIFF OMITTED] T5593.360

[GRAPHIC] [TIFF OMITTED] T5593.361

[GRAPHIC] [TIFF OMITTED] T5593.362

[GRAPHIC] [TIFF OMITTED] T5593.363

[GRAPHIC] [TIFF OMITTED] T5593.364

[GRAPHIC] [TIFF OMITTED] T5593.365

[GRAPHIC] [TIFF OMITTED] T5593.366

[GRAPHIC] [TIFF OMITTED] T5593.367

[GRAPHIC] [TIFF OMITTED] T5593.368

[GRAPHIC] [TIFF OMITTED] T5593.369

[GRAPHIC] [TIFF OMITTED] T5593.370

[GRAPHIC] [TIFF OMITTED] T5593.371

[GRAPHIC] [TIFF OMITTED] T5593.372

[GRAPHIC] [TIFF OMITTED] T5593.373

[GRAPHIC] [TIFF OMITTED] T5593.374

[GRAPHIC] [TIFF OMITTED] T5593.375

[GRAPHIC] [TIFF OMITTED] T5593.376

[GRAPHIC] [TIFF OMITTED] T5593.377

[GRAPHIC] [TIFF OMITTED] T5593.378

[GRAPHIC] [TIFF OMITTED] T5593.379

[GRAPHIC] [TIFF OMITTED] T5593.380

[GRAPHIC] [TIFF OMITTED] T5593.381

[GRAPHIC] [TIFF OMITTED] T5593.382

[GRAPHIC] [TIFF OMITTED] T5593.383

[GRAPHIC] [TIFF OMITTED] T5593.384

[GRAPHIC] [TIFF OMITTED] T5593.385

[GRAPHIC] [TIFF OMITTED] T5593.386

[GRAPHIC] [TIFF OMITTED] T5593.387

[GRAPHIC] [TIFF OMITTED] T5593.388

[GRAPHIC] [TIFF OMITTED] T5593.389

[GRAPHIC] [TIFF OMITTED] T5593.390

[GRAPHIC] [TIFF OMITTED] T5593.391

[GRAPHIC] [TIFF OMITTED] T5593.392

[GRAPHIC] [TIFF OMITTED] T5593.393

[GRAPHIC] [TIFF OMITTED] T5593.394

[GRAPHIC] [TIFF OMITTED] T5593.395

[GRAPHIC] [TIFF OMITTED] T5593.396

[GRAPHIC] [TIFF OMITTED] T5593.397

[GRAPHIC] [TIFF OMITTED] T5593.398

[GRAPHIC] [TIFF OMITTED] T5593.399

[GRAPHIC] [TIFF OMITTED] T5593.400

[GRAPHIC] [TIFF OMITTED] T5593.455

[GRAPHIC] [TIFF OMITTED] T5593.456

[GRAPHIC] [TIFF OMITTED] T5593.457

[GRAPHIC] [TIFF OMITTED] T5593.458

[GRAPHIC] [TIFF OMITTED] T5593.459

[GRAPHIC] [TIFF OMITTED] T5593.460

[GRAPHIC] [TIFF OMITTED] T5593.461

[GRAPHIC] [TIFF OMITTED] T5593.462

[GRAPHIC] [TIFF OMITTED] T5593.463

[GRAPHIC] [TIFF OMITTED] T5593.464

[GRAPHIC] [TIFF OMITTED] T5593.465

[GRAPHIC] [TIFF OMITTED] T5593.466

[GRAPHIC] [TIFF OMITTED] T5593.467

[GRAPHIC] [TIFF OMITTED] T5593.468

[GRAPHIC] [TIFF OMITTED] T5593.469

[GRAPHIC] [TIFF OMITTED] T5593.470

[GRAPHIC] [TIFF OMITTED] T5593.471

[GRAPHIC] [TIFF OMITTED] T5593.472

[GRAPHIC] [TIFF OMITTED] T5593.473

[GRAPHIC] [TIFF OMITTED] T5593.474

[GRAPHIC] [TIFF OMITTED] T5593.475

[GRAPHIC] [TIFF OMITTED] T5593.476

[GRAPHIC] [TIFF OMITTED] T5593.477

[GRAPHIC] [TIFF OMITTED] T5593.478

[GRAPHIC] [TIFF OMITTED] T5593.479

[GRAPHIC] [TIFF OMITTED] T5593.480

[GRAPHIC] [TIFF OMITTED] T5593.481

[GRAPHIC] [TIFF OMITTED] T5593.482

[GRAPHIC] [TIFF OMITTED] T5593.483

[GRAPHIC] [TIFF OMITTED] T5593.484

[GRAPHIC] [TIFF OMITTED] T5593.485

[GRAPHIC] [TIFF OMITTED] T5593.486

[GRAPHIC] [TIFF OMITTED] T5593.487

[GRAPHIC] [TIFF OMITTED] T5593.488

[GRAPHIC] [TIFF OMITTED] T5593.489

[GRAPHIC] [TIFF OMITTED] T5593.490

[GRAPHIC] [TIFF OMITTED] T5593.491

[GRAPHIC] [TIFF OMITTED] T5593.492

[GRAPHIC] [TIFF OMITTED] T5593.493

[GRAPHIC] [TIFF OMITTED] T5593.494

[GRAPHIC] [TIFF OMITTED] T5593.495

[GRAPHIC] [TIFF OMITTED] T5593.496

[GRAPHIC] [TIFF OMITTED] T5593.497

[GRAPHIC] [TIFF OMITTED] T5593.498

[GRAPHIC] [TIFF OMITTED] T5593.499

[GRAPHIC] [TIFF OMITTED] T5593.500

[GRAPHIC] [TIFF OMITTED] T5593.501

[GRAPHIC] [TIFF OMITTED] T5593.502

[GRAPHIC] [TIFF OMITTED] T5593.503

[GRAPHIC] [TIFF OMITTED] T5593.504

[GRAPHIC] [TIFF OMITTED] T5593.505

[GRAPHIC] [TIFF OMITTED] T5593.506

[GRAPHIC] [TIFF OMITTED] T5593.507

[GRAPHIC] [TIFF OMITTED] T5593.508

[GRAPHIC] [TIFF OMITTED] T5593.509

[GRAPHIC] [TIFF OMITTED] T5593.510

[GRAPHIC] [TIFF OMITTED] T5593.511

[GRAPHIC] [TIFF OMITTED] T5593.512

[GRAPHIC] [TIFF OMITTED] T5593.513

[GRAPHIC] [TIFF OMITTED] T5593.514

[GRAPHIC] [TIFF OMITTED] T5593.515

[GRAPHIC] [TIFF OMITTED] T5593.516

[GRAPHIC] [TIFF OMITTED] T5593.517

[GRAPHIC] [TIFF OMITTED] T5593.518

[GRAPHIC] [TIFF OMITTED] T5593.519

[GRAPHIC] [TIFF OMITTED] T5593.520

[GRAPHIC] [TIFF OMITTED] T5593.521

[GRAPHIC] [TIFF OMITTED] T5593.522

[GRAPHIC] [TIFF OMITTED] T5593.523

[GRAPHIC] [TIFF OMITTED] T5593.524

[GRAPHIC] [TIFF OMITTED] T5593.525

[GRAPHIC] [TIFF OMITTED] T5593.526

[GRAPHIC] [TIFF OMITTED] T5593.527

[GRAPHIC] [TIFF OMITTED] T5593.528

[GRAPHIC] [TIFF OMITTED] T5593.529

[GRAPHIC] [TIFF OMITTED] T5593.530

[GRAPHIC] [TIFF OMITTED] T5593.531

[GRAPHIC] [TIFF OMITTED] T5593.532

[GRAPHIC] [TIFF OMITTED] T5593.533

[GRAPHIC] [TIFF OMITTED] T5593.534

[GRAPHIC] [TIFF OMITTED] T5593.535

[GRAPHIC] [TIFF OMITTED] T5593.536

[GRAPHIC] [TIFF OMITTED] T5593.537

[GRAPHIC] [TIFF OMITTED] T5593.538

[GRAPHIC] [TIFF OMITTED] T5593.539

[GRAPHIC] [TIFF OMITTED] T5593.540

[GRAPHIC] [TIFF OMITTED] T5593.541

[GRAPHIC] [TIFF OMITTED] T5593.542

[GRAPHIC] [TIFF OMITTED] T5593.543

[GRAPHIC] [TIFF OMITTED] T5593.544

[GRAPHIC] [TIFF OMITTED] T5593.545

[GRAPHIC] [TIFF OMITTED] T5593.546

[GRAPHIC] [TIFF OMITTED] T5593.547

[GRAPHIC] [TIFF OMITTED] T5593.548

[GRAPHIC] [TIFF OMITTED] T5593.549

[GRAPHIC] [TIFF OMITTED] T5593.550

[GRAPHIC] [TIFF OMITTED] T5593.551

[GRAPHIC] [TIFF OMITTED] T5593.552

[GRAPHIC] [TIFF OMITTED] T5593.553

[GRAPHIC] [TIFF OMITTED] T5593.554

[GRAPHIC] [TIFF OMITTED] T5593.555

[GRAPHIC] [TIFF OMITTED] T5593.556

[GRAPHIC] [TIFF OMITTED] T5593.557

[GRAPHIC] [TIFF OMITTED] T5593.558

[GRAPHIC] [TIFF OMITTED] T5593.559

[GRAPHIC] [TIFF OMITTED] T5593.560

[GRAPHIC] [TIFF OMITTED] T5593.561

[GRAPHIC] [TIFF OMITTED] T5593.562

[GRAPHIC] [TIFF OMITTED] T5593.563

[GRAPHIC] [TIFF OMITTED] T5593.564

[GRAPHIC] [TIFF OMITTED] T5593.565

[GRAPHIC] [TIFF OMITTED] T5593.566

[GRAPHIC] [TIFF OMITTED] T5593.567

[GRAPHIC] [TIFF OMITTED] T5593.568

[GRAPHIC] [TIFF OMITTED] T5593.569

[GRAPHIC] [TIFF OMITTED] T5593.570

[GRAPHIC] [TIFF OMITTED] T5593.571

[GRAPHIC] [TIFF OMITTED] T5593.572

[GRAPHIC] [TIFF OMITTED] T5593.573

[GRAPHIC] [TIFF OMITTED] T5593.574

[GRAPHIC] [TIFF OMITTED] T5593.575

[GRAPHIC] [TIFF OMITTED] T5593.576

[GRAPHIC] [TIFF OMITTED] T5593.577

[GRAPHIC] [TIFF OMITTED] T5593.578

[GRAPHIC] [TIFF OMITTED] T5593.579

[GRAPHIC] [TIFF OMITTED] T5593.580

[GRAPHIC] [TIFF OMITTED] T5593.581

[GRAPHIC] [TIFF OMITTED] T5593.582

[GRAPHIC] [TIFF OMITTED] T5593.583

[GRAPHIC] [TIFF OMITTED] T5593.584

[GRAPHIC] [TIFF OMITTED] T5593.585

[GRAPHIC] [TIFF OMITTED] T5593.586

[GRAPHIC] [TIFF OMITTED] T5593.587

[GRAPHIC] [TIFF OMITTED] T5593.588

[GRAPHIC] [TIFF OMITTED] T5593.589

[GRAPHIC] [TIFF OMITTED] T5593.590

[GRAPHIC] [TIFF OMITTED] T5593.591

[GRAPHIC] [TIFF OMITTED] T5593.592

[GRAPHIC] [TIFF OMITTED] T5593.593

[GRAPHIC] [TIFF OMITTED] T5593.594

[GRAPHIC] [TIFF OMITTED] T5593.595

[GRAPHIC] [TIFF OMITTED] T5593.596

[GRAPHIC] [TIFF OMITTED] T5593.597

[GRAPHIC] [TIFF OMITTED] T5593.598

[GRAPHIC] [TIFF OMITTED] T5593.599

[GRAPHIC] [TIFF OMITTED] T5593.600

[GRAPHIC] [TIFF OMITTED] T5593.601

[GRAPHIC] [TIFF OMITTED] T5593.602

[GRAPHIC] [TIFF OMITTED] T5593.603

[GRAPHIC] [TIFF OMITTED] T5593.604

[GRAPHIC] [TIFF OMITTED] T5593.605

[GRAPHIC] [TIFF OMITTED] T5593.606

[GRAPHIC] [TIFF OMITTED] T5593.607

[GRAPHIC] [TIFF OMITTED] T5593.608

[GRAPHIC] [TIFF OMITTED] T5593.609

[GRAPHIC] [TIFF OMITTED] T5593.610

[GRAPHIC] [TIFF OMITTED] T5593.611

[GRAPHIC] [TIFF OMITTED] T5593.612

[GRAPHIC] [TIFF OMITTED] T5593.613

[GRAPHIC] [TIFF OMITTED] T5593.614

[GRAPHIC] [TIFF OMITTED] T5593.615

[GRAPHIC] [TIFF OMITTED] T5593.616

[GRAPHIC] [TIFF OMITTED] T5593.617

[GRAPHIC] [TIFF OMITTED] T5593.618

[GRAPHIC] [TIFF OMITTED] T5593.619

[GRAPHIC] [TIFF OMITTED] T5593.620

[GRAPHIC] [TIFF OMITTED] T5593.621

[GRAPHIC] [TIFF OMITTED] T5593.622

[GRAPHIC] [TIFF OMITTED] T5593.623

[GRAPHIC] [TIFF OMITTED] T5593.624

[GRAPHIC] [TIFF OMITTED] T5593.625

[GRAPHIC] [TIFF OMITTED] T5593.626

[GRAPHIC] [TIFF OMITTED] T5593.627

[GRAPHIC] [TIFF OMITTED] T5593.628

[GRAPHIC] [TIFF OMITTED] T5593.629

[GRAPHIC] [TIFF OMITTED] T5593.630

[GRAPHIC] [TIFF OMITTED] T5593.631

[GRAPHIC] [TIFF OMITTED] T5593.632

[GRAPHIC] [TIFF OMITTED] T5593.633

[GRAPHIC] [TIFF OMITTED] T5593.634

[GRAPHIC] [TIFF OMITTED] T5593.635

[GRAPHIC] [TIFF OMITTED] T5593.636

[GRAPHIC] [TIFF OMITTED] T5593.637

[GRAPHIC] [TIFF OMITTED] T5593.638

[GRAPHIC] [TIFF OMITTED] T5593.639

[GRAPHIC] [TIFF OMITTED] T5593.640

[GRAPHIC] [TIFF OMITTED] T5593.641

[GRAPHIC] [TIFF OMITTED] T5593.642

[GRAPHIC] [TIFF OMITTED] T5593.643

[GRAPHIC] [TIFF OMITTED] T5593.644

[GRAPHIC] [TIFF OMITTED] T5593.645

[GRAPHIC] [TIFF OMITTED] T5593.646

[GRAPHIC] [TIFF OMITTED] T5593.647

[GRAPHIC] [TIFF OMITTED] T5593.648

[GRAPHIC] [TIFF OMITTED] T5593.649

[GRAPHIC] [TIFF OMITTED] T5593.650

[GRAPHIC] [TIFF OMITTED] T5593.651

[GRAPHIC] [TIFF OMITTED] T5593.652

[GRAPHIC] [TIFF OMITTED] T5593.653

[GRAPHIC] [TIFF OMITTED] T5593.654

[GRAPHIC] [TIFF OMITTED] T5593.655

[GRAPHIC] [TIFF OMITTED] T5593.656

[GRAPHIC] [TIFF OMITTED] T5593.657

[GRAPHIC] [TIFF OMITTED] T5593.658

[GRAPHIC] [TIFF OMITTED] T5593.659

[GRAPHIC] [TIFF OMITTED] T5593.660

[GRAPHIC] [TIFF OMITTED] T5593.661

[GRAPHIC] [TIFF OMITTED] T5593.662

[GRAPHIC] [TIFF OMITTED] T5593.663

[GRAPHIC] [TIFF OMITTED] T5593.664

[GRAPHIC] [TIFF OMITTED] T5593.665

[GRAPHIC] [TIFF OMITTED] T5593.666

[GRAPHIC] [TIFF OMITTED] T5593.667

[GRAPHIC] [TIFF OMITTED] T5593.668

[GRAPHIC] [TIFF OMITTED] T5593.669

[GRAPHIC] [TIFF OMITTED] T5593.670

[GRAPHIC] [TIFF OMITTED] T5593.671

[GRAPHIC] [TIFF OMITTED] T5593.672

[GRAPHIC] [TIFF OMITTED] T5593.673

[GRAPHIC] [TIFF OMITTED] T5593.674

[GRAPHIC] [TIFF OMITTED] T5593.675

[GRAPHIC] [TIFF OMITTED] T5593.676

[GRAPHIC] [TIFF OMITTED] T5593.677

[GRAPHIC] [TIFF OMITTED] T5593.678

[GRAPHIC] [TIFF OMITTED] T5593.679

[GRAPHIC] [TIFF OMITTED] T5593.680

[GRAPHIC] [TIFF OMITTED] T5593.681

[GRAPHIC] [TIFF OMITTED] T5593.682

[GRAPHIC] [TIFF OMITTED] T5593.683

[GRAPHIC] [TIFF OMITTED] T5593.684

[GRAPHIC] [TIFF OMITTED] T5593.685

[GRAPHIC] [TIFF OMITTED] T5593.686

[GRAPHIC] [TIFF OMITTED] T5593.687

[GRAPHIC] [TIFF OMITTED] T5593.688

[GRAPHIC] [TIFF OMITTED] T5593.689

[GRAPHIC] [TIFF OMITTED] T5593.690

[GRAPHIC] [TIFF OMITTED] T5593.691

[GRAPHIC] [TIFF OMITTED] T5593.692

[GRAPHIC] [TIFF OMITTED] T5593.693

[GRAPHIC] [TIFF OMITTED] T5593.694

[GRAPHIC] [TIFF OMITTED] T5593.695

[GRAPHIC] [TIFF OMITTED] T5593.696

[GRAPHIC] [TIFF OMITTED] T5593.697

[GRAPHIC] [TIFF OMITTED] T5593.698

[GRAPHIC] [TIFF OMITTED] T5593.699

[GRAPHIC] [TIFF OMITTED] T5593.700

[GRAPHIC] [TIFF OMITTED] T5593.701

[GRAPHIC] [TIFF OMITTED] T5593.702

[GRAPHIC] [TIFF OMITTED] T5593.703

[GRAPHIC] [TIFF OMITTED] T5593.704

[GRAPHIC] [TIFF OMITTED] T5593.705

[GRAPHIC] [TIFF OMITTED] T5593.706

[GRAPHIC] [TIFF OMITTED] T5593.707

[GRAPHIC] [TIFF OMITTED] T5593.708

[GRAPHIC] [TIFF OMITTED] T5593.709

[GRAPHIC] [TIFF OMITTED] T5593.710

[GRAPHIC] [TIFF OMITTED] T5593.711

[GRAPHIC] [TIFF OMITTED] T5593.712

[GRAPHIC] [TIFF OMITTED] T5593.713

[GRAPHIC] [TIFF OMITTED] T5593.714

[GRAPHIC] [TIFF OMITTED] T5593.715

[GRAPHIC] [TIFF OMITTED] T5593.716

[GRAPHIC] [TIFF OMITTED] T5593.717

[GRAPHIC] [TIFF OMITTED] T5593.718

[GRAPHIC] [TIFF OMITTED] T5593.719

[GRAPHIC] [TIFF OMITTED] T5593.720

[GRAPHIC] [TIFF OMITTED] T5593.721

[GRAPHIC] [TIFF OMITTED] T5593.722

[GRAPHIC] [TIFF OMITTED] T5593.723

[GRAPHIC] [TIFF OMITTED] T5593.724

[GRAPHIC] [TIFF OMITTED] T5593.725

[GRAPHIC] [TIFF OMITTED] T5593.726

[GRAPHIC] [TIFF OMITTED] T5593.727

[GRAPHIC] [TIFF OMITTED] T5593.728

[GRAPHIC] [TIFF OMITTED] T5593.729

[GRAPHIC] [TIFF OMITTED] T5593.730

[GRAPHIC] [TIFF OMITTED] T5593.731

[GRAPHIC] [TIFF OMITTED] T5593.732

[GRAPHIC] [TIFF OMITTED] T5593.733

[GRAPHIC] [TIFF OMITTED] T5593.734

[GRAPHIC] [TIFF OMITTED] T5593.735

[GRAPHIC] [TIFF OMITTED] T5593.736

[GRAPHIC] [TIFF OMITTED] T5593.737

[GRAPHIC] [TIFF OMITTED] T5593.738

[GRAPHIC] [TIFF OMITTED] T5593.739

[GRAPHIC] [TIFF OMITTED] T5593.740

[GRAPHIC] [TIFF OMITTED] T5593.741

[GRAPHIC] [TIFF OMITTED] T5593.742

[GRAPHIC] [TIFF OMITTED] T5593.743

[GRAPHIC] [TIFF OMITTED] T5593.744

[GRAPHIC] [TIFF OMITTED] T5593.745

[GRAPHIC] [TIFF OMITTED] T5593.746

[GRAPHIC] [TIFF OMITTED] T5593.747

[GRAPHIC] [TIFF OMITTED] T5593.748

[GRAPHIC] [TIFF OMITTED] T5593.749

[GRAPHIC] [TIFF OMITTED] T5593.750

[GRAPHIC] [TIFF OMITTED] T5593.751

[GRAPHIC] [TIFF OMITTED] T5593.752

[GRAPHIC] [TIFF OMITTED] T5593.753

[GRAPHIC] [TIFF OMITTED] T5593.754

[GRAPHIC] [TIFF OMITTED] T5593.755

[GRAPHIC] [TIFF OMITTED] T5593.756

[GRAPHIC] [TIFF OMITTED] T5593.757

[GRAPHIC] [TIFF OMITTED] T5593.758

[GRAPHIC] [TIFF OMITTED] T5593.759

[GRAPHIC] [TIFF OMITTED] T5593.760

[GRAPHIC] [TIFF OMITTED] T5593.761

[GRAPHIC] [TIFF OMITTED] T5593.762

[GRAPHIC] [TIFF OMITTED] T5593.763

[GRAPHIC] [TIFF OMITTED] T5593.764

[GRAPHIC] [TIFF OMITTED] T5593.765

[GRAPHIC] [TIFF OMITTED] T5593.766

[GRAPHIC] [TIFF OMITTED] T5593.767

[GRAPHIC] [TIFF OMITTED] T5593.768

[GRAPHIC] [TIFF OMITTED] T5593.769

[GRAPHIC] [TIFF OMITTED] T5593.770

[GRAPHIC] [TIFF OMITTED] T5593.771

[GRAPHIC] [TIFF OMITTED] T5593.772

[GRAPHIC] [TIFF OMITTED] T5593.773

[GRAPHIC] [TIFF OMITTED] T5593.774

[GRAPHIC] [TIFF OMITTED] T5593.775

[GRAPHIC] [TIFF OMITTED] T5593.776


</pre></body></html>
